<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-849]
[From the U.S. Government Publishing Office]



                                           S. Hrg. 111-849, Pt. 1 deg.
 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2996

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR, 
ENVIRONMENT, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 
                    30, 2010, AND FOR OTHER PURPOSES

                               __________

                         PART 1 (Pages 1-xxxx)

               Department of Agriculture: Forest Service
                    Environmental Protection Agency
                       Department of the Interior
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-302                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="caadbaa58aa9bfb9bea2afa6bae4a9a5a7e4">[email&#160;protected]</a>  
  
                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania
                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Department of the Interior, Environment, and Related 
                                Agencies

                 DIANNE FEINSTEIN, California, Chairman
ROBERT C. BYRD, West Virginia        LAMAR ALEXANDER, Tennessee
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
BYRON L. DORGAN, North Dakota        ROBERT F. BENNETT, Utah
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
JACK REED, Rhode Island
BEN NELSON, Nebraska
JON TESTER, Montana
DANIEL K. INOUYE, Hawaii, (ex 
    officio)
                           Professional Staff

                            Peter Kiefhaber
                              Ginny James
                             Rachel Taylor
                             Scott Dalzell
                             Chris Watkins
                       Leif Fonnesbeck (Minority)
                        Rebecca Benn (Minority)
                     Rachelle Schroeder (Minority)

                         Administrative Support

                         Katie Batte (Minority)


                            C O N T E N T S

                              ----------                              

                        Wednesday, May 13, 2009

                                                                   Page

Environmental Protection Agency..................................     1

                        Wednesday, May 20, 2009

Department of Agriculture: Forest Service........................    37

                        Wednesday, June 3, 2009

Department of the Interior: Office of the Secretary..............    63
Nondepartmental Witnesses........................................   105

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        WEDNESDAY, MAY 13, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:14 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Nelson, Tester, and Alexander.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF LISA P. JACKSON, ADMINISTRATOR


             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN


    Senator Feinstein. Let me begin the hearing. But let me 
begin it with a great apology to my colleagues, to our new 
ranking member, Senator Alexander, to Senator Tester. I sort of 
pride myself on being on time, and the situation just descended 
into chaos. I had to be at a Judiciary Committee, I had to do 
other things, and I really am sorry.
    Madam Administrator, I want to apologize to you, as well. I 
do not like to keep people waiting, and I am very, very sorry.
    So, I hope you will accept my apology, I'll find my glasses 
and we'll proceed.
    Good morning. On behalf of the Interior Appropriations 
Subcommittee, I welcome you to our hearing for the fiscal year 
2010 for the United States Environmental Protection Agency 
(EPA), and I'm very pleased to welcome Lisa Jackson, the new 
Administrator of the EPA, before this subcommittee.
    I also want to welcome Senator Alexander, our new ranking 
member. We've had an opportunity to discuss issues, I find 
myself in align with his thinking, so I really think that we're 
going to work very well together, and that's important. So, 
it's a good thing. So, thank you.
    This is the first hearing we're conducting together. I've 
also had occasion to talk to Senator Tester about his concerns 
and I understand his concerns, in many respects, our two States 
have similar concerns, and so I believe we will work together 
well, as well.
    The administration's fiscal year 2010 request for the EPA 
is $10.486 billion. Now, that's a remarkable 37 percent 
increase more than the 2009 enacted level. And it translates 
into nearly $2.9 billion in new funds for environmental 
protection. That truly is a very welcome addition.
    And I'm particularly pleased that the President made a $3.9 
billion commitment to fund water and sewer infrastructure. Most 
people don't know this, but as the most powerful Nation on 
Earth, we have antiquated and deteriorating water and sewer 
infrastructure. I mean, I remember when there was no such thing 
as bottled water. You didn't drink bottled water. There were 
seltzer bottles, that you spritzed, but the water coming out of 
the tap, virtually everywhere in America, was pristine, and 
pure, and as a child, we always drank it everywhere. That's not 
necessarily the case today.
    So, these things are, in fact, very important. And there's 
$2.4 billion for the Clean Water Revolving Fund--that's a $1.7 
billion enacted--over the enacted level. That's a big change, 
because all of our jurisdictions stand in line for these 
revolving loan funds. So that, indeed, is good news.
    And together these funds will build more than 1,700 water 
and sewer projects across the country, and that's an increase 
of 857 projects compared to last year. And that's in addition 
to the 2,000 that will be funded by the $6 billion Congress 
provided through the stimulus bill.
    Now, I have many other things to say about this budget, all 
of them good, all of them positive. I will put the remainder of 
my remarks in the record, and in the interest of time, welcome 
the distinguished Senator from Nebraska, Senator Nelson, and 
turn this over to the ranking member--the new ranking member--
Senator Alexander, for his remarks.


                  STATEMENT OF SENATOR LAMAR ALEXANDER


    Senator Alexander. Thank you, Madam Chairman.
    Ms. Jackson, thank you for being here. I can't think of any 
position I'd rather have in this Senate than the one I've got, 
unless it was yours, Madam Chairman.
    But if I had to work with anyone else as chairman, I'm glad 
it's you, because I admire your decisiveness. As a former 
executive, I admire and appreciate that. And we do share views 
about the environment and our feeling that the great American 
outdoors and the natural landscape is an important part of the 
environment that we want to protect.
    I'm excited about this opportunity, as I grew up and lived 
2 miles from the boundaries of our most visited national park, 
the Great Smoky Mountains, which is 75 years old, this year.
    I'll save my remarks for the time that I have to ask 
questions, but here are the subjects that I'll be interested 
in. I hope there's one area, Administrator Jackson, that you do 
act on promptly, and that's the clean air interstate rule for 
the Eastern United States, so we can get certainty about sulfur 
nitrogen and mercury and finish cleaning our air up.
    There's one area I hope you don't act on, and that's on 
carbon, I think that's more appropriately left to the Congress, 
and we can talk about that.
    I'd like to talk to you about clean air hot spots. We had a 
great briefing the other day, Madam Chairman, from Brian 
McLean, when Senator Carper and I were working on dealing with 
legislation that involves sulfur, nitrogen, and mercury--we've 
really made great progress since 1992 on the first two. We have 
the technology now to deal with mercury, but there are a few 
hot spots left in the country where we still have a sulfur 
nitrogen problem, and strategies for dealing with that, and 
protecting our national parks, especially, from the 
consequences of dirty air is something I'd like to talk about.
    And then finally, Madam Administrator, I'd like to talk 
with you a little bit about the coal-ash spill at the Tennessee 
Valley Authority (TVA) site in Tennessee, and your intention--
which I don't disagree with--for the EPA to move into the 
regulation of coal ash from coal plants, and your decision 
these last few days to become involved with the clean up now, 
and to do it under the Superfund Act, I want to be sure I 
understand just what that means, what the consequences are, and 
what the costs will be.
    So I look forward, not just to this hearing, but to working 
with the Chairman and working with Administrator Jackson.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator Alexander.
    Senator Nelson, do you have a comment? And then Senator 
Tester.
    Senator Nelson. No, Madam Chairman, I really don't except 
to say that I am anxious to know more about the Department's 
move toward carbon regulation, and I'll bring that up during 
the questions.
    Senator Feinstein. Yes, we all will.
    Senator Nelson. Thank you.
    Senator Feinstein. Right.
    Senator Tester.


                    STATEMENT OF SENATOR JON TESTER


    Senator Tester. Thank you, Madam Chair, and I also want to 
thank you for your apology. I really appreciate the fact that 
you want to be on time, and sometimes we get pulled away, but I 
thank you very much for that, I appreciate that in this body.
    And Administrator Jackson, thank you for being here. I do 
have a very quick statement I'd like to put forth.
    As the Chairwoman said, I also want to thank you for the 
money that was put in for community water systems. I think 
clean water is a fundamental right, but a lot of small 
communities in States like Montana, really can't afford modern 
systems, so the State revolving funds are critically important, 
and a great source of funding to help local match meet the 
increased need for our antiquated water systems throughout the 
United States, especially in Montana.
    The EPA is doing a lot of work in Montana, and we've got 
some big problems to clean up. The EPA is in the process of 
restoring the Clark Fork River by removing Milltown Dam. I want 
to commend you on that. This Superfund site is to be turned 
into a beautiful park. It will restore two rivers and improve 
fish habitat in those rivers. There will be a kayaking park 
right outside a town called Missoula, Montana. The clean-up is 
creating a lot of jobs in construction, and afterwards will 
create even more jobs by revitalizing that area, and offering 
some recreational opportunities. In Montana, we call this the 
restoration economy, and I hope we see a lot more of it in the 
future.
    I want to discuss Libby very quickly, and my questions are 
going to revolve around Libby for the most part.
    The community of Libby was poisoned, and people are dying. 
Nearly 200 people--and this is not a big community--nearly 200 
people have lost their lives to asbestos-related diseases, many 
more are sick. The town is struggling to meet its healthcare 
needs and has an unclear picture of what the eventual and 
complete cleanup, really means. Homes are being devalued 
because of contamination, and businesses are concerned about 
the liability on sites that they would like to locate in.
    I have been to Libby, I have talked to the residents, 
things are difficult there. I have visited with folks who can 
barely breathe because of asbestos problems, who are denied 
oxygen from a WR Grace healthcare plan. These folks have 
asbestosis, they're denied oxygen from a WR Grace healthcare 
plan.
    Parents don't know if it's safe to let their kids play in 
the yard because of the potential contamination, and several 
community groups that were set up to communicate with the EPA 
have been disbanded because the EPA staff quit showing up at 
those meetings.
    Last week, the Justice Department failed in their criminal 
case against WR Grace, and the people in Libby and Montana are 
extremely frustrated.
    I'm glad that you're in this position, because I know you 
want to take the Agency in the right direction. But the 
situation in Libby is serious enough that it demands your 
personal and immediate attention.
    Your commitment to my colleague, Senator Baucus was that 
you would visit Libby and report on the reasoning behind the 
EPA's failure to declare Libby a public health emergency, and 
we look forward to both of those things happening, as soon as 
possible.
    And with that, I will save the rest of it for the 
questions.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you very much, Senator Tester.
    Madam Administrator, we will turn this over to you. We have 
your written statement in front of us, I'd like to ask, if you 
can, deal with some of these issues in your opening statement.
    If you want cuts in your budget anywhere, let us know 
where, and then we will go to the questions, and that's 
generally the most informative part of these hearings. And we 
will have rounds of 5 minutes from each member.
    So, welcome, and please proceed.


                  SUMMARY STATEMENT OF LISA P. JACKSON


    Mrs. Jackson. Well, thank you, Madam Chair, and let me 
simply start by saying that you and the members of this 
subcommittee are worth waiting for. So, I'm glad you did make 
it, and I'm glad we waited for you.
    Good morning to you, to Ranking Member Alexander, to the 
members of the subcommittee, thank you for your kind opening 
words, thank you for inviting me here today, and I will keep my 
remarks very brief so that we can get to the questions and 
answers.
    I do want to introduce Maryann Froehlich. Maryann is our 
acting Chief Financial Officer at the EPA and has been ably 
assisting me in preparing for this hearing, just in case we 
have any questions, or you want to address any questions to 
her.
    As you stated, Madam Chair, the President requests $10.5 
billion, roughly, for fiscal year 2010. It reflects the 
challenges and promises that we face in an era of high energy 
costs, climate change and economic crisis, and it reflects the 
President's commitment to environmental protection as a piece 
of the solution for our economic challenges. We know we can do 
better. We agree that all Americans deserve clean air, water, 
and a healthy environment. We also know that the clean energy 
economy deserves vigilance on the environmental front, as well.
    The President's budget starts the work that's needed to 
transform our economy. It includes investment in cutting-edge 
green technologies, but also it repairs our crumbling 
infrastructure, stronger regulatory and scientific capabilities 
to make the Nation's water, air, and land cleaner for our 
communities families and children.
    It provides a substantial increase in support to address 
the public health and environmental challenges that can not be 
postponed. In short, the budget reflects the President's 
commitment to a new era of environmental stewardship and puts 
us on a path to a cleaner, safer planet.
    You've already mentioned, Madam Chair, the $3.9 billion for 
clean water and drinking water State revolving funds, that's 
certainly a highlight of this budget. It's important to note 
that almost all of that money passes back into communities 
through the States, so that money is very much on the ground 
money for environmental restoration--for environmental 
investment, if you will I like your restoration economy 
remarks, Senator Tester.
    We estimate that this 157 percent funding increase in the 
State revolving funds will finance, as you suggest, about 1,700 
clean water and drinking water projects. I remind everyone that 
those areAmerican, well-paying jobs, here in this country.
    The fiscal year 2010 budget also supports efforts to 
develop a comprehensive energy and climate change policy with 
measures to increase energy independence and reduce greenhouse 
gases. This comes in the form of a $19 million increase to help 
the EPA, among other things, implement the greenhouse gas 
inventory, so we can take the very important step of measuring 
our progress in reducing emissions. That will also ensure that 
we are targeting major sources of emissions.
    The budget requests $55 million, an increase of more than 
$8 million to fund an enhanced toxics program, to screen, 
assess, and reduce chemical risk. That's a 17 percent increase, 
and allows the EPA to help complete screening level 
characterizations on more than 6,750 organic chemicals in use 
in the United States. There's also an increase of $24 million 
in the President's budget for the Superfund Program, that 
investment enhances enforcement and removal work throughout the 
country. Beginning in 2011, the so-called ``polluter pays'' 
measure would be reinstated under this budget, which would 
generate $1 billion a year, rising to $2 billion a year by the 
year 2019. These are extremely important resources needed to 
address cleanups of contaminated sites across America.
    Along with increases in Superfund, the budget provides a 
total of $175 million for Brownfields, which is a $5 million 
increase. The Brownfields program helps States, tribes, local 
communities, and stakeholders in economic redevelopment to work 
together to assess and clean up brownfield sites, revitalizing 
these properties, and returning them to their best and highest 
uses.
    These protection efforts focus on ensuring that the sites 
are ready to be returned, putting both people and property to 
work.
    Madam Chair, members of the subcommittee, the budget sets 
the EPA on a clear path to addressing our Nation's 
environmental challenges, and helps us to accomplish important 
work. I look forward to discussing the Clean Air Interstate 
Rule, and our plans to accelerate the schedule for development 
of that rule.
    I know we'll get into some discussion of greenhouse gases, 
carbon, and TVA. I'm happy to do that in the questions and 
answers. As you know, we have redoubled our commitment, Senator 
Alexander, to the TVA Clean-Up, and we've promised coal ash 
regulations by the end of this calendar year, a proposal.
    I think the two go hand-in-hand. We applaud the work of the 
State of Tennessee. They were the first on the scene after the 
tragic spill in December, and have been leaders in assuring 
that the cleanup is done in a transparent and scientifically 
sound way.
    We believe, because the TVA is a Federal facility that the 
EPA should be involved in a cleanup of this magnitude to bring 
Federal resources to bear on the cleanup side to work hand-in-
hand with the State. I believe the State and the EPA will make 
a good team--a partnership that will ensure that that area is 
restored to its extraordinary natural beauty, and also its 
environmental health. The residents there deserve no less.


                           PREPARED STATEMENT


    You're right, I know we will discuss Libby. We've been 
working with Senator Baucus actually before my confirmation. 
Senator Baucus made it clear that he wanted a visit to Libby 
and personal attention. I'm happy to discuss that in the 
questions and answers, as well, Senator.
    Thank you very much.
    [The statement follows:]

                 Prepared Statement of Lisa P. Jackson

    Madam Chairman and members of the subcommittee, I am delighted to 
appear before you today to discuss how the proposed fiscal year 2010 
budget request for the Environmental Protection Agency (EPA) is 
designed to address our environmental challenges and contribute to the 
country's economic recovery.
    The President requests $10.5 billion for fiscal year 2010 to carry 
out EPA's mission to protect human health and safeguard and improve the 
environment. This budget represents a 37 percent increase more than our 
fiscal year 2009 budget--the highest level ever for EPA. It reflects 
both the challenges and promise we face in an era of higher energy 
costs, global climate change, and economic crisis. We recognize that 
now is the time to make the environmental investments to support a 
cleaner energy economy and a more sustainable future.
    This budget starts the work needed to transform our economy through 
investment in cutting-edge green technologies, repairing crumbling 
infrastructure and strengthening our core regulatory and scientific 
capabilities to make the Nation's water, air, and land cleaner for our 
communities, families, and children. This budget keeps EPA on the job 
protecting the environment. It helps States, tribes, and local 
governments stay on the job by providing critical partnership 
assistance. And, it helps put Americans back on the job.
    The fiscal year 2010 budget request provides a substantial increase 
for EPA programs, reflecting greater opportunity for EPA to address 
public health and environmental challenges that can no longer be 
postponed, in areas such as water infrastructure, protecting our 
freshwater resources, laying the foundation to address climate change, 
and addressing gaps in research as well as chemical management.
    This fiscal year 2010 budget reflects President Obama's commitment 
to usher in a new era in environmental stewardship and puts us on a 
clear path to a cleaner and safer planet.
    Mr. Chairman and members of the subcommittee, I now would like to 
provide a bit more detail about the major environmental protection 
priorities addressed in this budget.

                    INVESTS IN WATER INFRASTRUCTURE

    The most significant investments in the fiscal year 2010 budget 
include $3.9 billion total for the Clean Water and Drinking Water State 
Revolving Funds to fund water infrastructure projects for States, 
tribes, and territories. This budget includes $2.4 billion for the 
Clean Water State Revolving Fund and $1.5 billion for the Drinking 
Water State Revolving Fund. These investments will help the Nation 
build, improve, and repair the infrastructure that provides us with 
reliable and safe sources of water.
    We estimate that this 157 percent funding increase in the State 
Revolving Funds will finance 1,000 clean water and 700 drinking water 
projects across America--projects that will upgrade and update the 
Nation's aging water infrastructure, assure compliance with Safe 
Drinking Water Act requirements, make water delivery more efficient, 
and create American jobs that pay well. These investments channel 
critical funding for water system pipe replacements and help address an 
estimated 240,000 water pipe breaks that occur across America each year 
and waste millions of gallons of water.
    The Clean Water and Drinking Water State Revolving Funds provide 
grants to States to capitalize their own revolving funds, providing 
infrastructure financing to communities, making water infrastructure 
more efficient, and supporting green jobs in the 21st century. Because 
repayments and interest are recycled back into the program, these State 
Revolving Funds generate funding for loans even without Federal 
capitalization. We estimate that for every Federal dollar invested, 
approximately $2 in financing are provided to municipalities.
    The administration will make these water investments with an eye to 
the future. EPA will continue to work with State and local partners to 
develop sustainability policies, including management and pricing, 
conservation, planning adequate long-term funding for future capital 
needs, and providing equitable consideration of small system customers. 
As President Obama has said, now is the time to make long-overdue 
investments in clean energy and new infrastructure to create a platform 
for entrepreneurs and workers to build an economy that will lead us 
into a better future. This significant investment sends a clear message 
to American taxpayers that the water infrastructure, that all of us 
rely on every day, will be repaired, maintained, and modernized for the 
21st century.

                  ACCELERATES GREAT LAKES RESTORATION

    The Great Lakes Basin is a national resource treasure that is home 
to 34 million people in the United States and Canada. It holds 20 
percent of the world's fresh surface water, has 10,000 miles of 
coastline, and contains a diverse array of biological communities. 
EPA's fiscal year 2010 budget requests $475 million for Great Lakes 
restoration programs and projects that strategically target the most 
significant problems in the region, such as aquatic invasive species, 
nonpoint source pollution, toxics in sediment, and habitat and species 
loss.
    This restoration effort represents the Federal Government's 
commitment to significantly advance Great Lakes protection. The Great 
Lakes Initiative will use outcome-oriented performance goals and 
measures to target the most significant problems and track progress in 
addressing them. EPA and its Federal partners will coordinate State, 
local, tribal, and industry actions to protect, maintain, and restore 
the chemical, biological, and physical integrity of the Great Lakes.
    In the fiscal year 2010 budget we include other geographic 
priorities, such as Puget Sound, San Francisco Bay, and the Chesapeake 
Bay. The Chesapeake Bay restoration effort is funded at $35 million, a 
$4 million increase more than fiscal year 2009, and will support 
projects to further address nutrient and sediment pollution in the Bay.

       INITIATES A COMPREHENSIVE APPROACH TO SLOW GLOBAL WARMING

    EPA's fiscal year 2010 budget supports efforts to develop a 
comprehensive energy and climate change policy to increase energy 
independence, move toward a greener economy and to reduce greenhouse 
gas emissions. There is not a moment to lose in confronting the rapid 
advance of climate change.

            GREENHOUSE GAS EMISSIONS (CAP AND TRADE PROGRAM)

    The fiscal year 2010 budget includes a $19 million increase to 
support the President's effort to develop a comprehensive energy and 
climate change plan to transition America to a clean energy economy, 
reduce oil usage, and slow global warming. It will allow us to work on 
a greenhouse gas emissions inventory and work with industry sectors to 
report high-quality greenhouse gas emission data that is the foundation 
of an effective climate policy. This funding supports design, 
development, and testing the data management system, developing 
guidance and training materials to assist the regulated community, 
conducting industry-specific workshops, and developing source 
measurement technologies for greenhouse gases.
    This budget provides funding to develop environmentally sound 
methodological approaches needed to implement a possible cap and trade 
program, including offsets, and to strengthen climate partnership 
programs. EPA will develop protocols to measure the effectiveness of 
offset projects, and provide advice on effective, environmentally sound 
approaches to offsets.

                             CHEMICAL RISKS

    Just as we need to address climate change, we also need to manage 
chemical risks. The fiscal year 2010 budget requests $55 million, an 
increase of $8 million more than fiscal year 2009 levels, to fund an 
enhanced toxics program to screen, assess, and reduce chemical risks. 
This 17 percent increase will fulfill United States commitments under 
the Security and Prosperity Partnership of North America to complete 
screening-level hazard and risk characterization and initiate action as 
needed on more than 6,750 organic U.S. chemicals.

                        RESEARCH AND DEVELOPMENT

    The Research and Development programs are funded at $842 million 
for the Science and Technology appropriation, and increase of $52 
million from fiscal year 2009. This funding will support the rigorous, 
peer-reviewed scientific analyses that we must use as a basis for our 
environmental decisions. It will allow us to assess, develop and 
compile scientifically rigorous tools to inform decision-making and 
assist in incorporating green infrastructure into existing practices.

                        COMPUTATIONAL TOXICOLOGY

    The fiscal year 2010 budget includes a $4.5 million increase more 
than the fiscal year 2009 enacted level for Computational Toxicology 
Research. This increase will enhance EPA efforts to provide regulatory 
offices with detailed hazard assessment profiles on thousands of 
chemicals of concern, as well as information on human exposure 
potential, including chemical screening and prioritization, and 
toxicity pathway-based risk assessment. This funding will also provide 
for the high-throughput screening of up to 200 additional chemicals and 
the deployment of this information in EPA databases with supporting 
analysis tools, via computer programs and EPA websites.

               INTEGRATED RISK INFORMATION SYSTEMS (IRIS)

    The fiscal year 2010 budget includes $14.5 million, a $5 million 
increase more than 2009, to enable the IRIS to increase assessment 
production and reduce our backlog of assessments for chemicals 
previously identified as priority needs.

                                BIOFUELS

    The fiscal year 2010 budget includes $5.6 million, an increase of 
$5 million more than fiscal year 2009, for biofuels research and 
sustainability analysis mandated by the Energy Independence and 
Security Act of 2007. Biofuels lifecycle and sustainability research 
will provide better information to decision makers on the trade offs 
and opportunities associated with increased biofuels production.

                     GREEN INFRASTRUCTURE RESEARCH

    The fiscal year 2010 budget provides $3.6 million to expand green 
infrastructure research to assess, develop, and compile scientifically 
rigorous tools and models that will be used by the Agency's water and 
other programs, States, tribes, and municipalities to help advance the 
deployment of green infrastructure. This research will help EPA and its 
non-Federal partners further their understanding of the benefits it 
provides, and aid in integrating green infrastructure into water 
pollution control programs at the Federal, State, and local level.

                               AIR TOXICS

    I believe EPA has a particular duty to inform America's most 
vulnerable populations about the environmental risks we face. I 
recognize that for the Nation's vulnerable populations--the 
disadvantaged, the elderly, children, and historically disadvantaged 
communities--are least able to bear additional increments of 
environmental risk.
    Therefore, the budget also includes $3.3 million for air toxics 
research to protect and improve the quality of the air that each of us 
breathes. Air toxics research studies the effects to human health of 
toxic air pollutants and includes evaluating risk assessment 
methodologies to support the development and implementation of 
regulatory programs that assist State and local governments and tribes 
develop clean air plans. The fiscal year 2010 budget also supports 
improvement of risk assessment tools, including National-Scale Air 
Toxics Assessment; analytical support to States as they enhance air 
toxics monitoring near selected schools, and five FTE in EPA's regional 
offices to provide technical assistance and coordination.
    These combined scientific efforts do more than build our 
understanding of environmental programs; they remind us all of the need 
for transparent, clear communication of the facts and risks of the 
environmental challenges we face together.

                 STRENGTHENS ENVIRONMENTAL ENFORCEMENT

    EPA's fiscal year 2010 budget proposes the largest enforcement and 
compliance budget in history--$600 million, an increase of $32 million 
from last year. The $600 million enforcement budget reflects the 
President's strong commitment to enforcing of our Nation's 
environmental laws and ensures that EPA has the resources necessary to 
maintain a robust and effective criminal and civil enforcement program. 
Specifically, the request includes an increase of nearly 30 additional 
positions primarily for civil and criminal enforcement. In addition, we 
will enhance efforts to integrate environmental justice considerations 
in EPA's programs and policies as well as fulfill environmental 
requirements with respect to other Federal agencies' projects funded by 
the American Recovery and Reinvestment Act. Experience has shown that 
investing in our enforcement program yields tangible pollution 
reductions and fundamental behavioral change in the regulated 
community. The fiscal year 2010 budget will advance EPA's mission, and 
do so with unparalleled transparency. The success of our efforts 
depends on earning and maintaining the trust of the public we serve by 
upholding values of transparency and openness in conducting EPA 
operations.

                               SUPERFUND

    The $1.3 billion Superfund budget contains an increase of $24 
million more than fiscal year 2009. Funding in the budget will enhance 
enforcement and removal work as well as support the Superfund program. 
The budget also includes a proposal to reinstate the Superfund tax that 
expired in 1995. Beginning in fiscal year 2011, the taxes should 
generate $1 billion a year, rising to $2 billion a year by 2019--all to 
fund needed cleanups across America. These efforts focus on ensuring 
that contaminated sites are ready to be returned to beneficial use by 
our communities.

                              BROWNFIELDS

    The 2010 budget provides a total of $175 million for the 
Brownfields program, a $5 million increase from 2009. This includes 
$149.5 million for Brownfields State and Tribal Assistance Grants to 
continue to provide Brownfields assessment, revolving loan fund, clean-
up, and job-training grants. The Brownfields program is designed to 
help States, tribes, local communities and other stakeholders work 
together to assess, safely cleanup, and reuse Brownfields. Revitalizing 
these once productive properties helps communities by removing blight, 
satisfying the growing demand for land, helping limit urban sprawl, 
enabling economic development, and improving quality of life.

                LEAKING UNDERGROUND STORAGE TANKS (LUST)

    The fiscal year 2010 budget requests $128 million for the Leaking 
Underground Storage Tanks program, including $113 million for the LUST 
trust fund. The LUST program promotes rapid and effective responses to 
releases from Underground Storage Tanks containing petroleum and 
hazardous substances by enhancing State, local, and tribal enforcement 
and response capability. EPA supports State and tribal underground 
storage tank programs to clean up contaminated sites, promote 
innovative and environmentally friendly approaches in corrective action 
to enhance and streamline the remediation process, and measure and 
evaluate national program progress and performance. Almost 80 percent 
(or 377,019) of all reported leaks have been addressed to date, leaving 
a backlog of almost 103,000 cleanups that have not yet been addressed. 
In fiscal year 2010, EPA will continue to work with the States and 
tribes to complete LUST cleanups in an effort to reduce the remaining 
backlog.
    All three of these programs--Superfund, Brownfields, and Leaking 
Underground Storage Tanks--focus on cleaning up contaminated sites to 
ensure these sites are ready to be returned to beneficial use by our 
communities, putting both people and property to work.

                              PARTNERSHIPS

    Next, I want to discuss how this budget will help our partners stay 
on the job. States, localities, and tribes are the front line in many 
environmental programs--they implement major portions of many EPA 
programs. As the recession drastically lowers tax revenues, States and 
localities are looking at deep cuts in all their programs--cuts that 
could hinder environmental progress on a wide range of issues.

                           CATEGORICAL GRANTS

    In fiscal year 2010, EPA requests a total of $1.1 billion for 
``categorical'' program grants for State, interstate organizations, 
nonprofit organizations, and tribal governments. EPA will continue to 
pursue its strategy of building and supporting State, local and tribal 
capacity to implement, operate, and enforce the Nation's environmental 
laws. In this way, environmental goals will ultimately be achieved 
through the actions, programs, and commitments of State, tribal and 
local governments, organizations, and citizens. Highlights of EPA's 
fiscal year 2010 categorical grants include:

                      AIR QUALITY AND RADON GRANTS

    The fiscal year 2010 request includes $248 million for grants to 
support State, local, and tribal air management and radon programs. 
These funds provide resources to multi-State, State, local, and tribal 
air pollution control agencies for development and implementation of 
programs for the prevention and control of air pollution and 
implementation of National Ambient Air Quality Standards. EPA will 
continue an initiative to measure levels of toxic air pollution near 
selected schools across the country and ensure that deployed monitors 
collect high-quality data. This partnership will help EPA maximize its 
monitoring and analytical capabilities. This budget also includes $8.1 
million for radon grants that focus on reducing radon levels in 
existing homes and promoting the construction of new homes with radon 
reducing features.

                     WATER POLLUTION CONTROL GRANTS

    The fiscal year 2010 budget request includes $229 million for Water 
Pollution Control grants. These grants assist State and tribal efforts 
to restore and maintain the Nation's water quality. EPA will also work 
with States to implement the new rules governing discharges from 
Concentrated Animal Feeding Operations. EPA encourages States to 
continually review and update the water quality criteria in their 
standards to reflect the latest scientific information from EPA and 
other sources.

                     NONPOINT SOURCE PROGRAM GRANTS

    In fiscal year 2010, EPA requests $200.9 million for Nonpoint 
Source Program grants to States, territories, and tribes. EPA's goal is 
to reduce annually the amount of runoff of phosphorus, nitrogen, and 
sediment through our Clean Water Act section 319-funded projects by 4.5 
million pounds, 8.5 million pounds, and 700,000 tons, respectively. 
These grants enable States to use a range of tools to implement their 
programs including: both nonregulatory and regulatory programs, 
technical assistance, financial assistance, education, training, 
technology transfer, and demonstration projects.

              HAZARDOUS WASTE FINANCIAL ASSISTANCE GRANTS

    In fiscal year 2010, EPA requests $106.3 million for Hazardous 
Waste Financial Assistance grants. These grants are used for 
implementation of the Resource Conservation and Recovery Act hazardous 
waste program, which includes permitting, authorization, waste 
minimization, enforcement, and corrective action activities. In fiscal 
year 2010, EPA expects that 100 hazardous waste facilities will put in 
place new or updated controls to prevent releases.

                 PUBLIC WATER SYSTEM SUPERVISION GRANTS

    In fiscal year 2010, EPA requests $105.7 million for Public Water 
System Supervision (PWSS) grants. These grants provide assistance to 
implement and enforce National Primary Drinking Water Regulations to 
ensure the safety of the Nation's drinking water resources and to 
protect public health. In fiscal year 2010, EPA will emphasize that 
States use their PWSS funds to ensure that drinking water systems of 
all sizes meet new and existing regulatory requirements.

                TRIBAL GENERAL ASSISTANCE PROGRAM GRANTS

    EPA's budget request includes $62.9 million for the Tribal General 
Assistance Program to help federally recognized tribes and intertribal 
consortia develop, implement, and assess environmental programs. In 
fiscal year 2010, 100 percent of federally recognized tribes and 
intertribal consortia will have access to environmental assistance.

        PESTICIDES, TOXICS SUBSTANCE, AND SECTOR PROGRAM GRANTS

    The fiscal year 2010 request includes $25.6 million to build 
environmental enforcement partnerships with States and tribes and to 
strengthen their ability to address environmental and public health 
threats and assist them in the implementation of compliance and 
enforcement provisions of the Toxic Substances Control Act and the 
Federal Insecticide, Fungicide, and Rodenticide Act. Under our Toxic 
Substances Compliance Grant program, States receive funding for 
compliance inspections focused on asbestos, polychlorinated biphenyls, 
and lead-based paint. States also receive funding for implementation of 
the State lead-based paint certification and training, and abatement 
notification compliance and enforcement program. Under the Sector 
program grants, EPA builds environmental partnerships with States and 
tribes to strengthen their ability to address environmental and public 
health threats, including contaminated drinking water, pesticides in 
food, hazardous waste, toxic substances, and air pollution.

                              LEAD GRANTS

    The fiscal year 2010 request includes $14.6 million for lead 
grants. This funding will support the development of authorized 
programs, including work under the new lead renovation, repair, and 
painting rule, in both States and tribes to prevent lead poisoning 
through the training of workers who remove lead-based paint, the 
accreditation of training programs, the certification of contractors, 
and renovation education programs. In fiscal year 2010, EPA will 
continue to award targeted grants to reduce childhood lead poisoning 
and keep EPA on target to eliminate childhood lead poisoning as a 
public health concern.
    In addition to these grants, the fiscal year 2010 budget continues 
EPA's funding and Beaches Environmental Assessment and Coastal Health 
Act and Wetlands grants to protect our coastal shorelines and improve 
water quality in watersheds throughout the country.

                           HOMELAND SECURITY

    EPA has a vital role in homeland security. The Agency has been 
called upon to respond to five major disasters and nationally 
significant incidents in the past 7 years. In the coming years, EPA's 
homeland security roles and responsibilities will continue to be of the 
utmost importance as the Agency enhances its preparedness.
    The fiscal year 2010 budget requests $160 million to support the 
Agency's homeland security efforts. The emphasis for fiscal year 2010 
is on several areas: applied research for decontamination methods and 
agents; ensuring trained personnel and key lab capacities are in place 
to be drawn upon in the event of multiple large-scale catastrophic 
incidents; and enhancing critical water infrastructure security 
efforts.
    EPA's fiscal year 2010 budget provides an increase of $9 million to 
fully fund five Water Security Initiative pilot cooperative agreements. 
The Water Alliance for Threat Reduction Activities. The Water Security 
Initiative will include continued design and demonstration, of a system 
to test, and evaluate the appropriate response to drinking water 
contamination threats. Adoption of effective water security guidance on 
contamination systems will be issued upon completion of these projects.

                           INSPECTOR GENERAL

    This budget also reflects another key concern of Congress and 
mine--making sure we manage our resources responsibly. This budget 
includes increases to the Inspector General to help ensure that we 
protect public dollars from fraud, waste, and abuse.

                               CONCLUSION

    Madam Chairman and members of the subcommittee, the fiscal year 
2010 budget request sets EPA on a clear path to accomplishing the 
important work Americans support to address the pressing environmental 
challenges facing our Nation. We are honored to have the job of 
protecting human health and the environment. And, we are proud that 
this $10.5 billion funds investments in both our environmental and 
economic future.

                            GREENHOUSE GASES

    Senator Feinstein. Thank you very much, Madam 
Administrator.
    Senator Alexander mentioned the greenhouse gas area, and I 
want to plunge right into that, if I might. You made that--your 
proposed endangerment finding on April 17. As I understand the 
Clean Air Act, section 202(a), the decision--your proposed 
decision that's coming, includes essentially two separate 
decisions--a finding that six greenhouse gases, including 
carbon and methane, do endanger both public health and welfare, 
and a finding that emissions from new motor vehicles cause or 
contribute to the greenhouse concentrations that endanger 
public health.
    So, once the endangerment decision is finalized, which is 
expected by legislation by June 30 of this year. The groundwork 
is laid for the EPA to begin regulation of vehicle emission 
standards for greenhouse gases, as well as for possible 
stationary source regulations. This is very powerful, and 
potent.
    As Senator Alexander stated--and I happen to agree with 
him--it is definitely preferable to have the Congress act in 
this area, and the House looks like it may be.
    I think the jury is still out in the Senate, and we hope--
and everything is being done and there is a very active effort 
by Senator Boxer and Senator Kerry on the EPW Committee to come 
up with a bill. As we know, here we've got 60-vote cloture for 
virtually anything that is controversial, and we have 
Copenhagen coming at the end of the year where American 
leadership is necessarily expected.
    My question to you is this, what is the EPA prepared to do 
if action is not taken in a prompt and timely way by the 
Congress?
    Mrs. Jackson. Well, thank you, Madam Chairman.
    EPA is prepared to follow-up on its statutory duties under 
the Clean Air Act. As you rightfully noted, the proposed 
endangerment finding is the first step to potential regulation 
of greenhouse gases.
    The President and I have said repeatedly that we agree with 
you and Senator Alexander, that we would prefer to see Congress 
act. We would prefer to see a law that is specifically 
dedicated to addressing the issue of greenhouse gas emissions 
in this country, along with comprehensive energy legislation. 
That is being considered in the House of Representatives.
    We have a duty at the EPA. Two years ago, the Supreme Court 
ordered the EPA to make a finding one way or the other, and the 
proposed finding answers the call from the Supreme Court, so we 
are following the law.
    If that finding is finalized, then the EPA would be 
authorized to regulate greenhouse gas emissions from motor 
vehicles and trucks, and the EPA will proceed, judiciously, to 
assess the need for, and to coordinate that regulation.
    Senator Feinstein. Before the end of the year?
    Mrs. Jackson. I would say that it is quite likely that we 
will make a decision on endangerment well before the end of the 
year. The EPA has been working as I'm sure you know already, 
very closely, and under orders from the President with the 
Department of Transportation, with your home State of 
California, which has been a leader on this issue, to make sure 
that as we consider next steps on emissions for automobiles, 
that those steps are coordinated, and that they will comply 
with the Clean Air Act and its mandates.
    Senator Feinstein. Can you discuss with us some of the 
issues that you might have to address in the next 1 to 2 years, 
to move toward regulation of greenhouse gases?
    Mrs. Jackson. I'm happy to. Well, we just talked about the 
first issue.

                          ENDANGERMENT FINDING

    Senator Feinstein. Right.
    Mrs. Jackson. The first regulatory issue we would turn is 
to motor vehicles. The endangerment finding actually pertains 
to motor vehicles, as you know, and that is not a new issue, 
it's one that has been brewing for quite some time. It was 
actually brought to a head, not only by the Massachusetts v. 
EPA decision, but also by the State of California. California 
developed automobile emissions standards that were designed to 
specifically address carbon. The so-called ``waiver decision'' 
which President Obama ordered the EPA to re-look at on my first 
day as Administrator, says that we are now in the process of 
looking at whether or not the California standards should be 
applied in those States that have chosen--on a Statewide 
level--to adopt them.
    Senator Feinstein. Is it 12 States?
    Mrs. Jackson. I believe it's 12, yes.
    Senator Feinstein. So, what you're saying is 12 States are 
ready, and now under the law can affect----
    Mrs. Jackson. The EPA has not made a determination on the 
waiver, the public comment period closed in early April, and as 
you noted, by law, by June 30 Congress has asked us to make a 
determination one way or another with respect to the waiver.
    Once the decision is made with respect to California, the 
other States would so be empowered.
    Senator Feinstein. Yes.
    The reason Senator Alexander asked this, you see, I think 
this is a very powerful mobilize for the Senate to come to 
grips with the need to pass a bill. Because at least as I look 
at it, they are going to be under a mandate where there is 
little choice, once they make the waiver decision, to move, to 
regulate if we do not have something.
    So, in--at least in my view--it's a very powerful 
compelling argument as to way we must take some action, and not 
be dilatory.
    I'm going to turn it over to you for your questions with 
that.

                               CLEAN AIR

    Senator Alexander. Thank you, Madam Chairman.
    In my second round I'd like to get back to the discussion 
we were just having, but in this first round, let me ask you 
about the other three pollutants, and about the TVA situation.
    The other three pollutants that come from coal plants are, 
of course, sulfur, nitrogen, and mercury. And Senator Carper 
and I had an excellent briefing the other day about the success 
of those programs since the early 1990s. Even though there's 
some work still to be done, great progress has been made.
    And it's worth knowing that it differs from carbon in a 
couple of important ways. One is, there was the technology to 
deal with sulfur at the time the cap-and-trade was imposed on 
sulfur, called ``scrubbers,'' and two, we were dealing with a 
lot less money, and only a part of the economy.
    But a court has knocked down the so-called ``CAIR rule,'' 
which provided certainty about--and high standards--about 
sulfur and nitrogen. That's a real problem for those of us who 
care about clean air in the Eastern United States. Because in 
Tennessee, for example, in the Great Smoky Mountain area, as 
well as in the New Jersey area in the Northeast that you're 
very familiar with--we're affected by dirty air that blows in 
from other places, as well as some we commit ourselves. And the 
only way we can deal with that is to have a strong national 
standard, or at least one that applies to the Eastern United 
States.
    Senator Carper and I are prepared to go forward with 
legislation that would reinstate strong, clean air pollution 
rules on sulfur, nitrogen, and mercury, on which we don't want 
a cap-and-trade because it just goes up in the air and comes 
down.
    My question for you is, wouldn't it be easier and quicker 
for the country if we simply gave the EPA the authority that 
the court said that you don't have in order to write a CAIR 
rule, or would it be easier and quicker, and better for the 
country if we authored a comprehensive bill and tried to pass 
that.
    Or, should we do it in two steps? Go ahead and give you the 
authority, let you do the rule, which I would assume would come 
quicker, and then try to persuade our colleagues to do a 
comprehensive piece of legislation?
    Mrs. Jackson. Thank you, Senator. And thank you for your 
leadership on the issues of clean air.
    I would offer you the following pieces of information, and 
then maybe we could come to a decision, offline, together on 
what's the best way to go.
    The EPA will take the rest of the calendar year to work on 
the replacement for the CAIR rule that was knocked down by the 
court. As you know, we're operating under the old rules while 
we develop a new rule.
    We're working to propose that new rule in early 2010, the 
calendar year 2010.
    In the meantime, the NO<INF>X</INF> trading program began 
on schedule, in January of this year. The ozone season 
NO<INF>X</INF> trading program began on May 1, and the 
SO<INF>2</INF> trading program is expected to commence January 
1, 2010, as intended.
    My concern is that without potential additional authority 
there are some specific issues that we're concerned we could be 
sued on and lose again if we don't have a legislative fix.
    So, I think there may be a need for a small, but mighty 
legislative fix to enable those rules to go forward without 
additional challenge.
    The other commitment I'd like to make to you, sir, is that 
this gives us an opportunity to once again look at the science, 
and make sure that in the CAIR rulemaking, we are judicious and 
smart, but that we squeeze every drop of cost-effective 
protection we can, and every control we can get out of the CAIR 
rule. I think that there are opportunities still to be had in 
that arena, as well.

                    TENNESSEE VALLEY AUTHORITY (TVA)

    Senator Alexander. Well, I will look forward to working 
with you on that as I know Senator Carper will.
    And I think it's important and relevant, Madam Chairman, to 
the global warming concern. I think we have to use coal plants 
for the foreseeable future, and so we need to clean them up. 
And a big part of cleaning them up is sulfur, nitrogen and 
mercury. We can plug our electric cars in at night and never 
have to build another power plant for the next 20 years. And 
then we can figure out what to do about carbon.
    Now, I asked you about TVA. TVA estimates it'll cost $1 
billion to clean up that coal ash spill--that's a huge amount 
of money for the ratepayers of our region. We understand the 
EPA will now be a partner in that cleanup. Please explain to me 
what that means to us, to be as part of the Superfund. Will 
that add to the bill that the TVA ratepayers will have to pay? 
Will that mean that Federal dollars will be available to help 
with the cleanup? Will that mean that the EPA will use TVA's 
experience as a model for other coal plants in the country in 
terms of how they deal with coal--might deal with coal ash in 
an effective way?
    Mrs. Jackson. Certainly, I believe that the EPA's getting 
more directly involved in the face of an enforceable order with 
TVA, which we issued recently, on May 11, means that the EPA 
will be there in the unlikely--but possible--event that things 
don't go well TVA has been stepping up to the plate, to date. 
Most of the work, to date, has been paid for by TVA. TVA has 
also stepped up to pay the State's oversight costs, and has 
agreed to pay the EPA's oversight costs. So, to the extent that 
the polluter pays, TVA--although they are a Federal entity--has 
agreed, as part of this order, to pay those costs.
    Now, I'm well aware of the fact that the costs keep 
escalating, because the more we learn, the more we realize that 
the old adage, that an ounce of prevention here would have been 
worth many pounds of cure, because this will be an expensive 
cleanup. First, because of what it did to the land, but also 
because of the ecosystem--the water and the fact that small 
amounts of chemicals there can have a profound impact on the 
ecosystem.
    There's no new money now, Senator, I do believe that the 
EPA's involvement ensures that the cleanup will be done. I 
commit to you that it means we will be vigilant and that we 
will continue discussions if we find that funding is an issue. 
I would not hesitate to bring those issues to the attention of 
the White House. I believe that this is the right model.
    You asked if this is a model--to me, it very much is. This 
is a Federal facility. The message for the American people, and 
for the people in your State is that the Federal Government 
takes responsibility for what happens here. TVA has done that, 
and to make sure that the cleanup is done right.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Senator Tester.

                             LIBBY, MONTANA

    Senator Tester. Thank you, Madam Chair.
    EPA has 16 Superfund sites in Montana, including Anaconda, 
Butte, East Town, Mill Town, and Libby. As I said in my opening 
statement, I really want to focus on Libby for now.
    The EPA Emergency Response Team first came to Libby in 
1999, cleanup began shortly thereafter. In 2006, the EPA Office 
of Inspector General investigated cleanup in Libby on 
allegations that the Agency failed to address scientific 
standards during cleanup. That report was just released.
    While that report found no criminal activity, it questioned 
the science of the cleanup and apparent rush to complete record 
of decision. It highlighted problems with communication in the 
community and it pointed out a disconnect between the 
scientists and the Agency.
    It has been 3 years, but it appears that the questions 
raised in the Rumper Report are still valid. My questions are--
will you commit the EPA to making sure that any record of 
decision is done with a complete scientific background to 
ensure that Libby has been cleaned to safe levels?
    Mrs. Jackson. Senator, absolutely. I commit that science is 
first at the EPA.
    Senator Tester. And, in your mind, can you say what would 
constitute a safe level?
    Mrs. Jackson. I can not, sitting here, give you a numeric 
level. What I will say is that the science of assessing risk 
with respect to asbestos contamination has not necessarily 
progressed as quickly as I believe it should for the people of 
Libby. I know they are frustrated, and they are worried, as 
they rightfully should be. I believe that if there are actions 
that we can take in the interim, to make sure that the cleanup 
doesn't stall, there are things we know we must do. We've been 
working with the community and with your colleague, Senator 
Baucus.

                     LIBBY, MONTANA--COMMUNICATIONS

    Senator Tester. Okay, how can communication be improved 
with the community? In both directions?
    Mrs. Jackson. Well, I was troubled to hear earlier, 
Senator, your concern about the EPA pulling out of meetings. I 
will go back and speak with my staff. We will redouble efforts 
to make sure that out of our Denver field office, as well as 
out of headquarters, all lines of communications are open. I 
have been personally involved in trying to jump start our 
efforts in Libby, Montana.
    Senator Tester. I appreciate that.
    Needless to say, Libby is a complex cleanup site, but 
there's not been a risk assessment, working with the EPA and 
the community. Do you feel that placing a risk assessor on the 
ground in Libby might help with the Agency's communication with 
the residents?
    Mrs. Jackson. I certainly will commit to making sure that 
risk assessors are as available to the community as they need 
to be. I know that the risk assessors from our Denver office 
have been up there--we can send them back. Having them on the 
ground every day may be more than we need--risk assessment is a 
fairly rigorous science. Whatever we need to do to make sure 
that the people of Libby believe they have access to our 
experts, we will do.

                       LIBBY, MONTANA--HEALTHCARE

    Senator Tester. Okay.
    The folks in Libby who have been exposed to--continue to be 
diagnosed with asbestosis and mesothelioma--Lincoln County, 
which is where Libby is located--has the highest age adjustment 
rate of asbestosis mortality in the United States, among 
counties. How can we help these folks with their healthcare 
after the EPA leaves?
    Mrs. Jackson. Thank you, Senator.
    I certainly wouldn't want to step into the territory of the 
Department of Health and Human Services (HHS), we certainly 
have started to have discussions with them. Senator Baucus 
asked me to look into that issue as part of my confirmation, 
and those discussions are continuing. So, I have nothing----
    Senator Tester. One of the things that I see on another set 
of committees, with Veterans Affairs and the Department of 
Defense is making sure that information gets passed along in an 
appropriate manner, things can fall through the cracks. And 
what the VA did is they made a commitment to work with the 
Department of Defense to make sure that there weren't things 
falling through the cracks.
    I think that that is an equal parallel here between the EPA 
and HHS. And it's not going to happen--we will have people fall 
through the cracks, we'll have healthcare needs--and I know 
you're not a healthcare agency, but HHS is, and I think that if 
you dovetail your efforts together with Secretary Sebelius from 
HHS, I think that we can make a giant step forward in meeting 
some of the challenges that occur in Libby.
    So that, I guess the question I have with you is, are you 
having conversations right now, with Secretary Sebelius, or 
whoever in HHS, and do you anticipate that being an ongoing 
situation, as far as your working with them to best meet the 
needs of the citizens?
    Mrs. Jackson. The answer is yes. I have not personally had 
a discussion with the new Secretary on this, but our staff--
long before Secretary Sebelius was confirmed--has been working 
together. We will continue that work, and we will make sure 
that in doing so, we address your concern about people falling 
through the cracks of either the cleanup site, or the 
healthcare side.
    Senator Tester. Okay.
    Thank you very much, Madam Chair.
    Senator Feinstein. Thank you very much, Senator Tester.
    And, you know, since you've raised the situation at Libby--
I also serve on the Justice Department and was very active in 
the asbestos legislation, which went on and on and on and on.
    And in the course of it, the real--I mean, the incredible 
damage that was done to people by asbestos became 
extraordinarily clear. I just want to help you any way I can 
because it is such a big problem with asbestosis, with 
mesothelioma. I mean, mesothelioma is, I guess, 100 percent 
fatal, and quickly, and it affects young people. You can pick 
it up off of somebody's uniform, pick up the little shards. So, 
I would like to just offer my help wherever I can.
    Senator Tester. Madam Chair, I very much appreciate that. I 
feel somewhat hesitant to talk about specific instances like 
Libby, I mean, we should be talking about global things, like 
things in the air, and clean water which impacts all of our 
communities across the United States.
    But this situation in Libby is so grotesque that I really 
think--and we spent a ton of money, and I'm not sure that, 
personally--and I'm not a scientist, I'm a farmer--but I'm not 
sure that we've got the bang out of the buck that we've spent.
    I think that with some attention by people like you, 
Administrator Jackson, I think we can get a big bang for the 
buck, we can help make this community whole again, and we can 
solve a huge problem that we have, in one of the most beautiful 
places in the world.
    Senator Feinstein. Well, Senator Tester, Senator Alexander, 
why don't we work together on some report language for the 
bill, which essentially would mandate the EPA to really do what 
Senator Tester has just suggested--take a new look at it and 
give us some findings.
    Madam Administrator, would you be responding to report 
language? We could also put in bill language, I suppose, but--
--
    Mrs. Jackson. We're already responding, and I'm happy to 
double efforts. We've agreed to do all we can working with 
Senator Baucus, and having Senator Tester's voice join in that, 
I think, can only result in more action for his constituents.
    Senator Feinstein. Right. Well, you were new, I think very 
high of you, you come so well recommended to the Federal 
Government and the problem has been that this has gone on year 
after year after year after year for a long time and I really 
think it needs to be addressed. I really think we need to have 
prohibitions extended even more. There's always an excuse as to 
why you have to use asbestos in certain things--brake linings 
or various things--and I just think we need to do more to cope 
with the threat.
    So, if you have some thoughts, please give them to us. In 
the meantime, we'll work together, and see if we can devise 
some report language which holds the EPA's feet to the fire.

                             CLEAN AIR ACT

    Senator Tester. Thank you, Madam Chair.
    Senator Feinstein. Thank you, Senator.
    Madam Administrator, if you regulate greenhouse gases, does 
the Clean Air Act give you discretion to decide which type of 
pollution sources should be prioritized for regulation? And if 
so, do you agree that the EPA should focus its resources on 
setting regulations for very large sources, instead of small 
ones?
    And if you do, what would you consider the large sources to 
be? The most priority sources?
    Mrs. Jackson. Yes, I believe there is flexibility in the 
Clean Air Act that allows for sensible regulatory approaches, 
as opposed to these maximalist approaches that we hear people 
talking about.
    Obviously, before the agency would finalize any 
regulations, it would propose those regulations, along with its 
legal thinking on the issue. I know a lot of legal minds have 
been brought to bear on how much flexibility is in the Clean 
Air Act. We currently believe that there's flexibility that 
allows us to approach the worst and biggest sources first.
    So, the answer to your second question is yes, we would use 
common sense. As we do in other regulatory programs, we would 
start with the big sources, before we would look to solve----
    Senator Feinstein. Well, what would those big sources be?
    Mrs. Jackson. Primarily sources more than 25,000 tons per 
year, and the reason I say that is because that's what we're 
going to measure under our greenhouse gas emissions rule. Those 
are utilities, those are refineries, those are the big chemical 
plants and processes that are already regulated under the Clean 
Air Act.
    Senator Feinstein. We'd also include the utilities?
    Mrs. Jackson. Utilities, and we've already talked about 
mobile sources, cars, et cetera.
    Senator Feinstein. Right.
    Mrs. Jackson. Those are the two big sectors. 
Transportation, cars, and utilities account for well more than 
half of the greenhouse gas emissions in our country.
    Senator Feinstein. Right.
    Okay, I understand that the California waiver is being 
considered by the EPA in the context of a broader effort to 
coordinate the setting of Federal Corporate Average Fuel 
Economy standards, known as CAFE, with Clean Air Act greenhouse 
gas emissions standards.
    I was the author of this latest CAFE bill, the 10 over 10--
10 mileage--10 gallons per mile improvement over 10 years, 
which actually became the law, which was--we all felt--a very 
substantial achievement. But this process should be 
coordinated, it seems to me, with that area. How do you plan to 
do this?
    Mrs. Jackson. I agree. Thank you for your work on this 
issue so far, Madam Chair. The National Highway Traffic Safety 
Administration (NHTSA) statute and the Clean Air Act are not 
identical statutes. They get at different issues. One of the 
challenges has been to coordinate two statutes that weren't 
necessarily made to work together, but in some ways overlap, in 
terms of the fact that they have profound impact on the 
domestic and international auto manufacturing industry.
    My staff has been working awfully hard with NHTSA staff 
understanding where we have identical or overlapping mandates, 
where we might have different ones, and coming up with a 
coordinated approach.
    The President has said that he wants one road map, if you 
will for the auto industry, so that they don't feel as though 
they have to please NHTSA and then try to figure out what that 
means, in terms of meeting the requirements of the Clean Air 
Act.
    Senator Feinstein. Do you believe you have the authority 
that you need to affect this coordination?
    Mrs. Jackson. Yes, so far----
    Senator Feinstein. NHTSA is NHTSA, you know, they can be--
--
    Mrs. Jackson. Well, in President Obama's administration, 
NHTSA might be NHTSA, but we all work together. We have been 
doing that.
    We feel as though right now we're having very productive 
conversations--not only with NHTSA, but with auto 
manufacturers. Obviously, we are one piece of the White House/
auto task force set of issues, and right now we do feel as 
though our Clean Air Act authorities--while they require us to 
be proactive, and require us to look at carbon, we can work in 
coordination with NHTSA.
    Senator Feinstein. And you think you can maintain high 
standards by working in coordination? That they won't, kind of, 
dumb these standards down?
    Mrs. Jackson. You know, I believe that I don't really have 
that choice. I've taken an oath to uphold the Clean Air Act. I 
have to look at standards which, at the end of the day, would 
meet the requirements of the Clean Air Act, if we were indeed 
regulating under the Clean Air Act.
    So, I don't see that working with NHTSA in any way dilutes 
that responsibility. I don't see it resulting in unduly lenient 
standards. It means that we have to do the really hard work of 
working together, and that's what's been going on.
    Senator Feinstein. I'm very pleased to hear you say that, 
because I agree with you. And I think you truly do have a 
Federal mandate. And unless we're willing to open the Clean Air 
Act and diminish that responsibility, you clearly have that 
responsibility, at least in my view.
    Mrs. Jackson. Okay, thank you.
    Senator.

                    CLEAN AIR INTERSTATE RULE (CAIR)

    Senator Alexander. Thank you, Madam Chair.
    Continuing the line of thinking that--as I heard you and 
the Administrator talking, if the EPA were to proceed on 
carbon--well, first, is there any reason you need to wait until 
we figure carbon out, in order to move on sulfur, nitrogen, and 
mercury. Can you move ahead on a CAIR fix is my question?
    Mrs. Jackson. Yes, I believe we can, and the only thing I 
would say is that it is reasonable. One of the reasons 
regulations are important is that they give certainty to 
business, they give certainty to investment, and so I'm sure 
many investors in utilities would like to see the whole answer, 
not just piecemeal, but you can move on the CAIR piece, and 
it's very important.
    Senator Alexander. And then if I heard you right, the two 
of you, there was some talk about common sense, and picking 
large segments of carbon to approach first.
    So, I've thought of looking at this, and I'm one who 
believes global warming is an issue and that man is making a 
big contribution, and that it's one problem to solve, but we 
shouldn't jump off the cliff.
    It seemed to me that a logical way to approach it would be 
smokestacks, tailpipes. Smokestacks are 40 percent of it--coal 
plants--we already regulate them, we know what we're doing 
there.
    Tailpipes are vehicles--that's 70 percent of carbon. The 
so-called economy-wide proposals that we were considering in 
the Congress only get to 80 or 85 percent, and they introduce 
an enormous amount of complexity and surprises--particularly 
for a regulatory agency, which would have a hard time 
evaluating the complexity of this economy.
    If you were to proceed, wouldn't it be wise to start with 
coal plants, and with a low-carbon fuel standard, perhaps for 
tailpipes?
    Mrs. Jackson. Well, we're giving lots of thought to the 
issue of regulation when and if we proceed with regulation. We 
are standing on the side, though, and also watching with great 
optimism and hope, the actions of Congress right now.
    There are things that a market-based solution does offer 
you. They harness, in a different way the power of the 
marketplace to place a price on carbon, that can unleash a 
variety of investments. Everything from renewable energy to 
energy efficiency, to low carbon fuel standards, to controls on 
carbon, to investments in ways to offset carbon.
    There is a broadness to it, and I don't know that we need 
to decide one or the other. It is a fact that transportation 
and the utility sector--I think my number is somewhere closer 
to 60 percent, you said 70 percent--are the majority of 
domestic greenhouse gas emissions.
    Senator Alexander. Yeah, but of carbon, it's 70--40 and 30, 
I believe, if I'm right.
    The big difference, though, between cap-and-trade on sulfur 
and cap-and-trade on the whole economy today--there are two big 
differences. One is, we had a technology, we knew what to do 
with sulfur in 1991, and we don't know what to do with carbon.
    And second, then we were talking about a market of a few 
billion dollars, and now we're talking $100 billion a year. So, 
we could make a big mistake, here, and run jobs overseas, 
overnight, if we're not careful, it seems to me.
    So, how could you impose a mandate to get rid of--that 
would put a moratorium, basically, on coal plants, when we're 
not building nuclear plants, and renewable energy, if we 
tripled it, will only amount to 7 or 8 percent? Those are the 
consequences of administrative decisions, and how do we deal 
with not having a technology to deal with carbon?
    Mrs. Jackson. The technology conundrum is an interesting 
one. I would say the following: we had a technology to deal 
with sulfur. What we learned is that once there was a market-
based program, that technology proved to be much cheaper, and 
much easier to deploy, commercially, than we previously 
thought.
    The estimates for the SO<INF>2</INF> trading program and 
the impact on the economy were much higher than they proved to 
be.
    I'm persuaded by having spoken to Secretary Chu over at 
Energy. I remember the work I did on carbon capture as part of 
gas plant when I was a summer employee. We can capture carbon 
from streams. It's the sequestration part, it's where to put it 
that we need to do a bit of work on.
    Secretary Chu believes that with the right amount of 
investment, and the market push to make that a technology that 
people will spend time and money on perfecting and 
commercializing, it will happen.
    I just wanted to address one other thing you said, Senator, 
because I think it's so important--there cannot be a global 
warming program that is predicated on the assumption that coal 
is gone. In fact, this whole exercise is about putting in place 
a regulatory feature so that coal can be part of the mix. It is 
a domestic energy source that the President has said is crucial 
for us, it breaks our dependence on foreign sources of fossil 
fuel and energy, in part, and it is part and parcel of the 
question, if you will, that does indeed require very careful 
consideration.
    Senator Feinstein. I think one thing, if I may, it's very 
interesting is whether you're going to be able to develop 
products from carbon. There is an experiment now doing on in 
California at Moss Landing, I think the company is Scolera, 
something like that, where they are effectively using carbon to 
build building blocks, and having some degree of success. It's 
an experimental program, but I think things like that are very 
interesting to watch.
    And, you know, human ingenuity can came up with a lot of 
options, so that should be interesting.
    Do you have any further questions?
    Senator Alexander. I have a couple, I don't want to keep 
you, though.
    Senator Feinstein. Well, perhaps I'll excuse myself, and 
hand you this.
    Senator Alexander. You going to trust me?
    Senator Feinstein. I trust you implicitly.
    Senator Alexander. For 5 minutes? Do you mind staying 5 
more minutes so I can ask----
    Senator Feinstein. Let me just say thank you very much.
    Mrs. Jackson. Thank you so much.
    Senator Feinstein. Thank you.
    Senator Alexander. Thank you, Dianne.
    Senator Feinstein. Thank you.

                             COAL ASH SPILL

    Senator Alexander [presiding]. Madam Administrator, I thank 
the chairman for her courtesy that's very, very, very nice of 
her. I have two questions. One is--involves the coal ash spill.
    There is a contamination in the Tennessee River, downriver 
from where this spill was, of a radioactive element called 
cesium. This is an element that was left over from the bomb 
work during World War II at Oak Ridge. And it came down through 
the Clinch River, into the Tennessee River, and it's down in 
the sediment. It's not harmful, as long as it's in the 
sediment. It could be harmful to fish and swimmers if it's 
disturbed. The spill is up river--up another river, the Emery 
River.
    So, my concern is, that the EPA and TVA make certain that 
in any work done in the Emery River and the Tennessee River, 
that we take great care not to disturb the sediment where the 
cesium is, because that could be dangerous to people in the 
area, and very unhealthy. Are you aware of the cesium issue and 
will you take steps to make certain that EPA and TVA don't 
disturb the cesium in the sediment during the TVA coal ash 
cleanup?
    Mrs. Jackson. I was aware that there was some concern about 
historic radiological contamination. That is a very valid 
concern, having worked on several dredging projects. That is 
always the issue, whether you mobilize contamination that had 
best been left immobile. The remedy selection process at that 
site, associated with the TVA's spill, will be very important 
in making sure we consider that issue. You have my commitment 
that the EPA will consider that as we move forward.

                           ACID RAIN PROGRAM

    Senator Alexander. Thank you, Madam Administrator.
    My other question is this, I mentioned earlier, the success 
of the acid rain program and how that's helped the Eastern 
United States and it's helped the Great Smoky Mountains in our 
Eastern Tennessee area, which has a special problem with air 
quality. Currently there are 12 streams in the Great Smoky 
Mountain National Park, which is the most polluted National 
Park in terms of air quality. These 12 streams violate the 
Clean Water Act because of low pH levels. In other words, 
they're too acidic. And, these come from the acid deposits from 
the air, of course, from coal plants and industrial emissions. 
Is there any way to relate the Clean Water Act and the Clean 
Air Act in some way, so that we create goals for States or 
areas or regions, to try to make sure that as we clean up the 
air, we clean up the water as a result--as we work on acid 
rain?
    It may be that simply a strong set of CAIR rules on sulfur 
and nitrogen and mercury is sufficient. But we have seen, over 
the last 15 years, that even though that cleaned up a lot of 
the Eastern United States, there are some spots left. This is 
one of the hot spots.
    So my question is, could we take a look at a program that 
relates clean air and clean water, such modeled after the 
regional haze rule, that might help us set objectives for 
cleaning up the streams in the Great Smoky Mountain National 
Park or in other areas where there's a similar problem?
    Mrs. Jackson. I think that is, Senator, a fascinating idea 
and suggestion. I think that, clearly air deposition is causing 
exceedances for water, so those two programs have to be 
assessed together. There's probably a need for additional 
monitoring. There's probably a need for those assessments to be 
done in a coordinated fashion. I'm persuaded by an announcement 
even yesterday for the Chesapeake, where we talked about the 
fact that the Chesapeake Bay, waters have exceedingly high 
levels of nitrogen.
    One of the things we're going to do, on a Federal level, is 
put in place a CAIR rule to reduce the airborne component of 
that deposition. I think you're talking about a similar 
strategy for the Great Smoky National Park, and I think that 
that makes perfect sense. I'd love to work with you on that.
    Senator Alexander. Good, I look forward to working on that. 
There's always the difficulty of imposing new standards on 
regions that can't meet those standards----
    Mrs. Jackson. Absolutely.
    Senator Alexander. Because it may not be their fault that 
they have a particular concentration of acid rain. So that 
would have to be balanced. I'm not interested in imposing on 
the State of Tennessee a standard it by itself can't meet, but 
some sort of cooperative arrangement or relationship between 
clean air and clean water might at least put a spotlight on the 
problem and make sure that when we take another look back at 
the clean air rules 10 years from now, that we look back and 
see that we've made progress on those 12 streams in the Great 
Smokies and other areas which are hot spots for acid rain 
deposition.

                                BIOFUELS

    Mrs. Jackson. Thank you.
    Senator Alexander. Now I have one little question. I know 
you have an increase of $5 million in the budget for research 
for advanced biofuels. What's that about? Is that its 
relationship to clean air or are you trying to figure out a way 
to make better advanced biofuels?
    Mrs. Jackson. I believe that is the money that is going to 
EPA's Ann Arbor lab, does that sound right? We have additional 
money, but I have $13 million there to assess the impact of 
higher percentage biofuel blends. You might know that right now 
we have public comment open, for example, on whether you can 
have more than 10 percent ethanol in gasoline.
    Senator Alexander. Yeah.
    Mrs. Jackson. There's been a request for higher blend 
levels. We have----
    Senator Alexander. So it's probably not so much to invent a 
better biofuel, but to see what the impact of the biofuel might 
be.
    Mrs. Jackson. Yes, exactly, Senator. Life-cycle analysis, 
the impact on production, is to make sure that in our Ann Arbor 
lab, that those fuels can be accepted without voiding 
warranties or causing impacts to performance of engines, and 
the risks and tradeoffs of biofuels use in production.
    Senator Alexander. Thank you.
    I appreciated, too, your comments on coal. Tennessee 
doesn't produce much coal, but the more I've studied these 
issues--and you and I have talked about this--we have our 
Energy Committee and we have our Environment Committee, you 
know, and really all the issues are at the intersection of the 
two. And we don't really have many good ways of looking at 
them, so the more I've studied it--almost the Holy Grail of our 
ability to have low-cost energy, so we don't hurt people and 
run jobs away, is having a way to deal with coal, which I'm so 
anxious to get those first three pollutants dealt with.
    And as far as the carbon, my hunch is--I just think it 
ought to be a priority. I told Dr. Chu that I thought the next 
Nobel Prize in science ought to be reserved for whoever figured 
out what to do with carbon from existing coal plants. I doubt 
it will be sticking it in the ground. I think there's too much 
of it. I think there's going to be some biological or chemical 
reaction, but I have no way of knowing. But I hope that stays a 
real priority for you, because we have very practical decisions 
to make over the next 10 years. I mean, do we build more coal 
plants? I mean, we're basically encouraging, by our rules, the 
utilities to keep open old dirty coal plants. And by the 
prospect of more rules, we're discouraging new, more efficient, 
cleaner coal plants.
    We're not building nuclear very much yet, renewable doesn't 
amount to much yet, and so we may find ourselves in a real 
dilemma, in terms of jobs and the economy. So keeping a focus 
on coal, I think, is very important.

                     ADDITIONAL COMMITTEE QUESTIONS

    I thank you for staying and I thank the chairman for 
trusting me with the gavel. I look forward to working with you.
    Mrs. Jackson. Thank you so much.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

                             CAP AND TRADE

    Question. Your budget includes a new $5 million initiative to 
prepare for a possible cap-and-trade program. How does the 
Environmental Protection Agency (EPA) plan to use those funds?
    Answer. This funding will support EPA in providing technical 
assistance and expertise to advise the administration and Congress on 
effective, environmentally sound approaches for a Greenhouse Gas (GHG) 
cap and trade program. One major area of effort will be offsets, which 
are a key component of reducing cap and trade costs while leveraging 
reduction opportunities in uncovered sectors. With these resources, EPA 
will develop protocols and methodologies that can accurately account 
for emission reductions from major offset categories, assess and 
develop options for monitoring and verifying the effectiveness of 
offset projects, and analyze and develop options to encourage early 
reductions prior to the start of a Federal regulatory program such as 
cap and trade. EPA also will assess the potential for existing and 
proposed mechanisms under the United Nations Framework Convention on 
Climate Change, such as Reduced Deforestation and Degradation (REDD), 
to provide cost reductions while guaranteeing environmental 
credibility.
    Question. Are these efforts needed if Congress enacts another type 
of regulatory framework other than a cap-and-trade program?
    Answer. The efforts the Agency proposes to undertake in fiscal year 
2010 are critical even if an approach other than cap and trade is 
ultimately pursued. Specifically, monitoring and verification, 
establishment of baselines and performance standards, and assessment of 
State, Federal, and international programs are directly relevant to 
policies such as taxes, incentives, and technology-based policies. Work 
on the international offsets and REDD issues will be needed given the 
importance of finding effective ways to support developing country 
action to reduce GHG emissions.

                             GREENHOUSE GAS

    Question. The fiscal year 2009 Interior bill included a mandate for 
EPA to publish a final mandatory reporting rule for greenhouse gases no 
later than June 26. Time is of the essence--we need this rule to be in 
place so that we are able to gather 2010 data. Is EPA on track to 
promulgate the final rule by the June 26 deadline?
    Answer. The proposal, signed on March 10, 2009, indicates that the 
data collection would start on January 1, 2010, with the first reports 
to EPA coming in on March 31, 2011. Given the schedule and the fact 
that the comment period ends on June 9, 2009, the Agency will not have 
the final rule in the Federal Register on June 26, 2009.
    Question. If not, will you commit to finalizing the rule so that 
data collection can start by January 1?
    Answer. The Agency is working towards the implementation dates in 
the proposal and recognizes the importance of collecting 2010 data.
    Question. Your fiscal year 2010 budget request includes $17 million 
to implement the greenhouse gas reporting rule, which is an $11 million 
increase over the funds I added to the fiscal year 2009 budget. I'm 
very pleased to see EPA acknowledge the importance of this rule and 
make it a funding priority. How will your budget request be used?
    Answer. EPA will devote the fiscal year 2010 President's budget 
resources to: (1) the data management system, (2) implementation, and 
(3) verification activities for the Mandatory Reporting Rule. The work 
on the data systems will include: determining requirements; designing 
the database, software, and user interface, with stakeholder input; and 
developing training tools for stakeholders. The implementation 
activities will include: developing guidance and training materials to 
assist the regulated community; responding to inquires from affected 
facilities on monitoring and applicability requirements; and developing 
tools on applicability. The verification work will include: developing 
and finalizing verification approaches and working with regional staff 
on verification, compliance assistance, and training. Also, a portion 
of the budget request will be dedicated to intramural costs to manage 
the program (e.g., salaries and travel).
    Question. Will this increase ensure that the agency has all the 
funds it needs for 2010 to implement this rule?
    Answer. Fiscal year 2010 will be a critical year for preparing for 
the implementation of the GHG Reporting Rule, and the $17 million in 
our budget request will provide us with the resources to complete the 
intensive preparation process associated with an economy-wide program.

                         STATE REVOLVING FUNDS

    Question. Your budget requests a $1.7 billion increase to the Clean 
Water State Revolving Fund (CWSRF), for a total of $2.4 billion, and a 
$671 million increase to the Drinking Water State Revolving Fund 
(DWSRF), for a total of $1.5 billion.
    Given the current fiscal climate, does EPA believe that States will 
have any difficulty meeting the required 20 percent match for these 
additional funds?
    Answer. The $1.7 billion increase to the CWSRF and the $671 million 
increase to the DWSRF reflect the urgent need for investment in 
America's aging infrastructure. If appropriated, such an increase will 
result in a nearly $475 million increase in match required, spread 
across all States and Puerto Rico, for an average of $9.3 million per 
State. EPA has not received any indication that States will have 
difficulty providing this match. States have indicated to EPA that the 
level of State Revolving Fund (SRF) increases in the fiscal year 2010 
request will help them in addressing their infrastructure needs. As a 
note, States have several options for obtaining their SRF program 
match. In addition to appropriating funds for the programs, States have 
the ability to sell bonds in order to obtain the match.

                   GREAT LAKES RESTORATION INITIATIVE

    Question. Your budget request contains $475 million for the Great 
Lakes Restoration Initiative--that's a 692 percent increase compared to 
the funding that Congress enacted for Great Lakes cleanup in fiscal 
year 2009. Given that there are other important water bodies across the 
country, why did EPA choose to focus so much of your budget increase on 
the Great Lakes clean-up rather than spreading the funds to multiple 
areas?
    Answer. The Great Lakes hold 20 percent of the world's fresh 
surface water, have more than 10,000 miles of coastline, and drain 
about 200,000 square miles of land. They are a source of drinking water 
for more than 30 million people in the United States and Canada. 
Roughly 10 percent of the United States population and more than 30 
percent of the Canadian population live in the Great Lakes basin, and 
its fishery is valued at more than $5 billion, providing jobs and 
recreation opportunities to millions of people annually.
    However, there are significant environmental stressors to the Great 
Lakes: invasive species are multiplying causing food web disruptions, 
birds are dying from avian botulism, algal mats are fouling beaches, 
and nutrient loadings have re-emerged as an environmental issue. The 
Great Lakes Restoration Initiative focuses on a set of intensifying 
stresses, which the Great Lakes scientific community has concluded are 
placing the Great Lakes at or beyond a tipping point, causing 
widespread ecosystem breakdowns. Actions taken now could prevent 
irreversible damage and will save money over the long term.
    Funding for the Great Lakes now can also be seen as an investment 
in a part of the country in great need of such investment, particularly 
in light of the problems facing the automotive industry. This 
additional funding will create green collar jobs and help protect human 
health and the environment in a region facing economic difficulties.
    Finally, Great Lakes restoration is required under a binational 
agreement (the Great Lakes Water Quality Agreement with Canada), 
section 118 of the CWA, and an Executive Order. In recent years, the 
Federal Government and stakeholders have developed a program that is 
ready to move forward in a coordinated way to protect and restore the 
Great Lakes. The Initiative builds upon 5 years of work of the Great 
Lakes Interagency Task Force and stakeholders, guided by a Great Lakes 
Regional Collaboration Strategy. The Initiative provides needed Federal 
funding to move this program forward in a well-orchestrated, well-
coordinated effort among multiple Cabinet-level departments to 
implement critical protection and restoration actions.
    Question. How can EPA be sure that such a large increase in funds 
for the Great Lakes will be spent in a timely fashion? Do you have 
specific projects that have already been prioritized for funding?
    Answer. The 2005 Great Lakes Regional Collaboration Strategy 
identifies a need of $20 billion over 5 years to address Great Lake 
environmental problems. For the most part, the environmental problems 
facing the Great Lakes, as well as their solutions, are well known and 
have been identified in existing documentation, such as the Great Lakes 
Regional Collaboration Strategy, Remedial Action Plans, and Lakewide 
Management Plans.
    In developing the Great Lakes Restoration Initiative Proposed 2010 
Funding Plan, Federal agencies drew from this existing work with 
stakeholders to identify ready-to-go programs and projects to jump 
start restoration in 2010. Where possible, the Initiative will use 
existing programs of the Federal agencies. To be ready to go, EPA is 
considering the feasibility of a request for proposals this summer in 
advance of the appropriation. Federal agencies have begun work on 
Interagency Agreements for the transfer of funding. The proposed 
administrative language accompanying the President's request will 
simplify transfers and receipt of funding by other Federal agencies and 
will provide EPA with new grant implementation authority.
    Programs prioritized for funding are identified in the ``Agency 
Actions'' document, which is available from: http://www.epa.gov/
grtlakes/glri/index.html.

                 SAN FRANCISCO BAY--DELTA WATER QUALITY

    Question. I am very pleased that EPA included $5 million in your 
budget to continue competitive grants to improve water quality in the 
San Francisco Bay. EPA's recognition that the Bay needs to be a 
priority is a big step forward toward the health of the Bay. However, I 
believe that the Federal Government also needs to do more to help the 
Sacramento and San Joaquin River Delta. Specifically, can you tell me 
how EPA is currently involved in the Bay-Delta to restore habitat and 
improve water quality? What more could EPA be doing?
    Answer. EPA has a long history of efforts to protect and restore 
the Sacramento and San Joaquin River Delta water quality. We will 
continue to work cooperatively with our agency partners and 
stakeholders to restore the critical Bay-Delta ecosystem while 
recognizing the competing needs of all stakeholders. In the next year, 
our activities will focus on supporting the efforts of the State and 
Regional Boards. We will also be a participant and a reviewer on 
several major National Environmental Policy Act documents. In all 
forums, we will continue to work with the fishery agencies to ensure an 
integrated approach (the CWA and Endangered Species Act) to water 
quality restoration. Following is a summary of EPA activities taking 
place in the Sacramento and San Joaquin River Delta. Additional 
priorities include support for coordinated monitoring and assessment; 
enhanced support of core programs such as standards, Total Maximum 
Daily Loads (TMDLs), and permitting to drive water quality restoration; 
improved science, including assessments of nutrients and climate change 
impacts; and agricultural initiatives including pesticide impact models 
and environmental stewardship assistance to growers.
    CalFed and Delta Vision.--One of the more ambitious efforts to 
protect and restore San Francisco Bay-Delta water quality was the 
CALFED Bay Delta Program, a State-Federal partnership initiated in 1995 
(following the Bay Delta Accord and EPA's promulgation of Delta water 
quality standards) to address water management and ecosystem protection 
in the entire watershed. The first phase (2000-2007) of a 30-year 
program ended in 2007. In response, in 2006, the Governor commissioned 
a blue-ribbon panel which recently delivered a ``Delta Vision Strategic 
Plan.''
    Bay Delta Conservation Plan.--As the Delta Vision process was 
underway, major water districts dependent on the Delta began a Habitat 
Conservation Planning effort (the Bay Delta Conservation Plan, or BDCP) 
with the California Department of Fish and Game, United States 
Department of the Interior (DOI) (Fish and Wildlife Service and Bureau 
of Reclamation) and National Oceanic and Atmospheric Administration 
Fisheries to address endangered species concerns. The BDCP aims to make 
sufficiently large changes in the Delta to reverse the decades of 
decline of several beneficial uses and add stability to water 
operations in the Delta. The State and Federal agencies are preparing a 
Draft Environmental Impact Report/Statement on the BDCP; EPA has agreed 
to be a cooperating agency. Our involvement to date has been largely to 
promote and support scientific review of the various actions proposed. 
We will become more involved as the Environmental Impact Statement is 
drafted and projects (which will need CWA 404 permits) are designed.
    Pelagic Organism Decline (POD).--Long-term sampling identified a 
dramatic decline of a number of fish populations beginning in 2001, 
including both endangered species and sport fisheries. EPA played a key 
role, working with the Interagency Ecological Program, in a new and 
broad scientific effort to identify causes of the crash. The POD 
investigation is in its fourth year and has been supported by more than 
$20 million in State and Federal monies. A number of water quality and 
habitat degradation concerns that have been identified are now being 
addressed by the State and regional boards. Ammonia discharges from 
wastewater treatment plants combined with low and constant flow regimes 
appear to have favored the spread of toxic blue-green alga, invasive 
clams and jellyfish over the former highly valued fish community.
    Water Quality Standards and TMDLs.--We are supporting the State and 
Regional Board on a number of activities to review and/or develop new 
water quality standards and to develop and implement TMDLs. In 2008, 
the State Water Resources Control Board and the Central Valley and Bay 
Regional Water Quality Control Boards developed a Bay Delta Strategic 
Workplan, which encompasses their ongoing efforts, as well as new work 
deemed necessary to address the Delta ecosystem decline. Some of the 
more significant efforts include: (1) review of the 2006 Water Quality 
Control Plan; (2) development of a Central Valley Drinking Water 
Policy; (3) TMDLs to address impairments in the Delta from mercury, in 
the Central Valley from pesticides, in the San Joaquin River from 
dissolved oxygen and salinity; and (4) implementation of TMDLs 
throughout the watershed.
    Monitoring.--There currently is no coordinated system for 
collecting and managing water quality data for the Delta and the 
Central Valley. EPA has been an advocate for a system similar to those 
in the Bay and on the South Coast in order to improve the quality, 
efficiency, access and use of information for planning and management. 
There are three monitoring initiatives that together cover the full 
Bay-Delta watershed: the Delta Regional Monitoring Program (RMP) 
directed by the Central Valley Regional Board; the Sacramento River 
Watershed RMP, initiated a decade ago through EPA earmarks; and the San 
Joaquin Basin Monitoring Strategy (underway through an EPA grant, in 
conjunction with the Regional Board). Technical coordination comes 
through shared support of the State's Surface Water Ambient Monitoring 
Program. All three efforts have inventoried existing monitoring and are 
aligning monitoring and assessment within the Delta watershed to 
address key issues.
    San Joaquin River Restoration.--Congress recently enacted 
significant legislation that directs restoration of the San Joaquin 
River from Friant Dam to the confluence of the Merced River, to 
implement the historic agreement reached by water users and 
environmental groups in 2006. Restoration of such magnitude will have 
ramifications for Delta water management. The Bureau of Reclamation is 
preparing a Draft Environmental Impact Statement for this program and 
we are participating as a cooperating agency, working to both leverage 
the effort for improved water quality monitoring and ensure the 
downstream water quality regulatory regime supports the planned 
reintroduction of fisheries.

  RIALTO-COLTON BASIN--NATIONAL PRIORTIES LIST/WATER REPLACMENT ORDERS

    Question. The fiscal year 2009 Interior appropriations bill was 
accompanied by report language supporting the listing of Rialto-Colton 
Basin in San Bernardino County, California to the National Priorities 
List (NPL) to remediate groundwater contamination, and encouraging EPA 
to issue water replacement orders against the parties responsible for 
trichloroethylene and perchlorate contamination of the groundwater 
basin to remain in effect until clean drinking water supplies are fully 
restored to the City of Rialto, City of Colton, West Valley Water 
District, and the Fontana Water Company.
    What progress has been made toward listing the Rialto-Colton Basin 
in San Bernardino, California, on the National Priorities List?
    Answer. EPA proposed listing the ``B.F. Goodrich'' site on the NPL 
in September 2008, which includes the ``160-acre area'', part of the 
Rialto-Colton Basin, and groundwater contamination originating on the 
160-acre area. EPA generally publishes proposed and final NPL listings 
in the Federal Register in the fall and spring and anticipates 
completing our review of the comments received before the fall listing 
update.
    Question. What progress has been made by EPA to issue water 
replacement orders?
    Answer. Based on current information, EPA has determined that water 
replacement orders are not warranted at this time as the impacted 
communities have a clean supply of drinking water. As we proceed with 
our work on the B.F. Goodrich Site, we will continue to evaluate all of 
our options and will provide for meaningful public involvement in our 
proposed remedy.
    Question. How does the EPA intend to address the Rialto-Colson 
Basin, including concrete steps that can be taken this year toward 
clean-up or water replacement?
    Answer. EPA is developing a proposal for an interim groundwater 
cleanup project in the Rialto-Colton basin, a groundwater extraction 
system within known contaminant source areas, which will go out for 
public comment later this year. We anticipate that the treated 
groundwater from this project will be provided to the local water 
purveyors for use in the regional, potable water supply system. In 
addition, we expect to spend $3 million this year to carry out and/or 
oversee four field investigations needed to develop a comprehensive 
remedy for the site. These investigations, which are currently 
underway, include the installation of up to six new groundwater 
monitoring wells to help define the extent of groundwater 
contamination, soil testing at a disposal pit used by the Goodrich 
Corporation in the 1950s and 1960s, and soil testing at locations where 
West Coast Loading Corporation operated at the site in the 1950s. Data 
from some of these investigations will be used to help develop a final 
groundwater remedy. If this final remedy includes additional 
groundwater extraction and treatment systems down gradient from the 
interim groundwater cleanup project described above, it is anticipated 
that treated water from such a remedy would also be made available to 
local water purveyors.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                           MOUNTAINTOP MINING

    Question. There is tremendous concern in West Virginia about the 
future of coal.
    I agree that we should find better ways to mine coal and reduce its 
environmental impact. However, I do not accept that job losses in the 
coal industry are an inevitable consequence of cleaner air and water. 
We must forge a consensus and strike a balance between increasing 
environmental controls, and preserving the livelihoods of West 
Virginians.
    I believe clean coal can be a ``green'' energy.
    The Environmental Protection Agency (EPA) is reviewing section 404 
permits for certain mining operations, and has invoked its authority 
under section 404(c) of the Clean Water Act (CWA) to prohibit permits 
related to surface mining operations for the filling of waters in the 
United States.
    Question. What is your long-term plan for regulating mountaintop 
mining?
    Answer. On February 13, the U.S. Court of Appeals for the Fourth 
Circuit issued an opinion upholding four permits issued by the U.S. 
Army Corps of Engineers (the Corps) under section 404 of the CWA for 
coal mine operations in the Appalachian region. Because of active 
litigation in the 4th Circuit challenging the issuance of these Corps 
permits for coal mining, the Corps has been issuing far fewer permits 
in West Virginia and elsewhere in the Appalachian coal fields since the 
litigation began in 2007. As a result, there is a significant backlog 
of permits under review by the Corps.
    EPA identified only a small subset, 6 of some 50 actions that were 
pending near-term authorization, with which the Agency had serious 
environmental concerns. EPA is not raising concern with the majority of 
pending permits which represents mines with significantly fewer 
environmental impacts. The Corps is expected to continue to issue 
permits for these surface coal mining operations that do not raise 
significant environmental concerns.
    EPA and the Corps are developing coordination procedures to help to 
ensure that permit decisions will be made consistent with the law, 
sound science and in a timely manner that avoids further delay. We 
agree with you that the permit process can protect jobs and the 
environment.
    Question. How long do you think mountaintop mining will be 
sustainable under the CWA?
    Answer. We recognize that mountaintop removal coal mining can be a 
highly destructive form of surface coal mining that buries streams and 
impacts downstream water quality. We also understand that much of the 
most accessible coal reserves have already been mined leaving surface 
coal mining methods such as mountaintop removal often the only mining 
practice that is economically practical to mine remaining reserves. As 
you have very thoughtfully recognized, there are opportunities to 
improve coal mining practices such as mountaintop removal to 
significantly reduce adverse environmental impacts, We look forward to 
working with the coal industry to implement these improvements to make 
surface coal mining practices cleaner and more environmentally 
responsible and, as a result, sustainable for years to come.
    Question. What criteria has the EPA established for section 404 
permits? Is the EPA providing specific guidance to the mining industry 
to ensure the permitting process does not stall?
    Answer. EPA has identified a set of environmental factors which we 
are using to help guide the review and evaluation of pending permit 
actions for surface coal mine operations. Our goal is to ensure a 
transparent, understandable, and predictable permit process. Based on 
these criteria, EPA is focusing its comments on mine proposals with the 
most significant environmental impacts. The key factors which we are 
considering include:
  --Length of stream impacts, in particular impacts to perennial 
        streams and critical headwater streams;
  --Number of valley fills;
  --Geographic location of the proposed action, and assessment of 
        impacts based on watershed level information, considering 
        factors such as percentage of area mined, percentage of 
        forested area, interior forest, percentage of urban area, and 
        stream density/quality, index of biotic integrity, threatened 
        and endangered (T&E) species;
  --Cumulative effects, particularly in consideration of the number of 
        proposed new mines proposed for given watershed;
  --Existing water quality and potential for water quality impacts 
        downstream of fill, in particular selenium and conductivity as 
        specific constituents of concern; and the potential impacts to 
        biotic integrity and T&E species in high-quality and State 
        outstanding resources waters;
  --Adequacy of alternative analysis; and
  --Adequacy of mitigation.
    Question. In reviewing section 404 permits, what consideration is 
given to postmining economic development?
    Answer. Postmining land use considerations were included by 
Congress in the Surface Mining Control and Reclamation Act of 1977 to 
encourage the effective use of lands for economic development after 
mining is complete. These considerations have been particularly 
important in southern West Virginia counties in desperate need of jobs 
and economic development opportunities. EPA will continue to work with 
States like West Virginia to encourage environmentally responsible 
mining that protects both jobs and the environment.
    Question. Your agency has been talking with the Army Corps of 
Engineers and Council on Environmental Quality at the White House about 
coal matters. During those meetings, what consideration is being given 
to the well-being of places like rural communities of West Virginia, 
where job retraining is not a realistic option because coal jobs, if 
lost, are unlikely to ever be replaced by other jobs?
    Answer. Interagency discussions regarding coal mining have very 
much considered the well-being of rural communities throughout 
Appalachia, including West Virginia. EPA has been impressed by the 
efforts of folks in Mingo County, West Virginia, for example, who have 
worked with us to reduce the adverse environmental impacts of coal 
mining while showing great leadership in identifying postmining land 
uses that create jobs, stimulate the local economy, and create 
opportunities for the young people of the area to remain in Mingo 
County. We believe that the Mingo County Redevelopment Commission is a 
model of how Federal, State, and local governments can work together to 
ensure environmentally responsible mining moves forward and creates 
sustainable, long-term opportunities for communities and their young 
people.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson

                       INDIRECT LAND USE CHANGES

    Question. I was encouraged that the proposed Renewable Fuel 
Standard (RFS) rule you signed on May 5, 2009, takes aggressive action 
in increasing the supply of renewable fuels to 36 billion gallons per 
year (GPY) by 2022, as required by the Energy Independence and Security 
Act of 2007 (EISA).
    The revised statutory requirements of EISA also included new 
definitions and criteria for both renewable fuels and the feedstocks 
used to produce them, including new greenhouse gas emissions (GHG) 
threshold. I am concerned that the Environmental Protection Agency 
(EPA) is taking into account indirect land use changes (ILUC) when 
determining GHG emissions associated with renewable fuels production. 
Given the complexity and uncertainty of ILUC, along with its analytical 
limitations in determining lifecycle GHG for biofuels, how is the EPA 
working to ensure this requirement be fair, consistent, objective, and 
scientifically defensible as it moves forward with the rulemaking 
process?
    Answer. EPA recognizes that it is important to address questions 
regarding the science of measuring indirect impacts, particularly on 
the topic of uncertainty. For this reason, EPA has developed a 
methodology that uses the very best tools and science available, 
utilizes input from experts and stakeholders from a multitude of 
disciplines, and maximizes the transparency of our approach and our 
assumptions in the proposed rule.
    Our analysis relies on peer-reviewed models, including 
comprehensive agricultural sector models, such as the Food and 
Agricultural Policy Research Institute model that have been used widely 
to analyze the impacts of numerous agricultural sector policies 
including recent farm bills. The Agency also has used the most current 
estimates of key trends in agricultural practices and fuel production 
technologies and has reviewed the growing body of literature on 
lifecycle analysis and indirect land use change.
    EPA has ensured that there will be multiple opportunities to 
solicit public and expert feedback on the proposed approach. In 
addition to the formal comment period on the proposed rule, on June 10 
and June 11, EPA held a 2-day workshop focused specifically on 
lifecycle analysis during the comment period to assure full 
understanding of the analyses conducted, the issues addressed, and the 
options that are discussed. EPA provided a thorough description of its 
methodology and sources of information used in conducting the lifecycle 
assessment as included in the proposal. More than 200 persons 
representing industry, academia, and other stakeholders and experts 
participated. During this workshop, EPA responded to questions from 
participants, and importantly, also heard presentations from 
stakeholders and experts including several which specifically addressed 
indirect land use assessment. The information received during the 
workshop will be part of the official record for the rule and will be 
useful as EPA works to develop its final rule analysis. The Agency 
expects that the information provided during this workshop, from EPA 
and others, will help ensure that it receives submission of the most 
thoughtful and useful comments to this proposal and that the best 
methodology and assumptions are used for calculating GHG emissions 
impacts of fuels for the final rule.
    Additionally, although our lifecycle analysis relies almost 
entirely on peer-reviewed models and data, between this proposal and 
the final rule, the Agency will conduct additional peer-reviews of key 
components of our analysis, including the use of satellite data to 
project the type of future land use changes, methods to account for the 
variable timing of GHG emissions, and how the several models the Agency 
has relied upon are used together to provide overall lifecycle GHG 
estimates.
    Question. Furthermore, if it could be demonstrated that the U.S. 
corn ethanol industry was capable of hitting its EISA target (actually 
a ``cap'') of 15 billion GPY by 2015 without the need for breaking up 
or deforesting any ``virgin'' soil, would it not be true that the ILUC 
``penalty'' would by definition have to be zero?
    Answer. No, this is not the case. Even if there was no new land 
converted between now and when the 15 billion gallons volume 
requirement was met, there could still be an indirect impact on 
agricultural production and the economy from the production of 15 
billion gallons. The indirect impacts of renewable fuel production are 
the result of interactions throughout the global agricultural commodity 
markets. Measuring these indirect impacts requires the use of economic 
models. These models capture the impacts of increased biofuel feedstock 
production on all crop production, not just biofuel feedstock. This 
allows EPA to determine secondary agricultural sector impacts, such as 
crop shifting and changes in demand due to commodity price changes. To 
estimate the impacts of biofuels feedstock production on international 
agricultural and livestock production, the Agency used the same 
methodology to assess both direct and indirect impacts including those 
due to land use change. For example, even if there was no measured land 
use change in the United States, there could be land use change 
internationally due to the impact increased ethanol production has on 
crop prices and exports.
    However, regardless of the outcome of the lifecycle analysis, there 
is not expected to be any impact on the ability for corn ethanol to 
comply with the RFS2 requirements. When Congress set aside 15 billion 
gallons for conventional biofuels that need to meet the 20 percent GHG 
threshold, they also included ``grandfathering'' provisions that would 
exempt certain renewable fuel facilities from the threshold 
requirements. There is expected to be more than 15 billion gallons of 
corn ethanol alone that will be produced by these grandfathered 
facilities, more than satisfying the mandated volume.

                        E15 CLEAN AIR ACT WAIVER

    Question. Following up on the EPA's new proposed RFS rule to 
increase the supply of renewable fuels to 36 billion gallons by 2022. 
There is concern the Clean Air Act's limitation on gasoline-ethanol 
blends has created a ``blend wall,'' the point where the RFS 
requirement exceeds the ability to blend gasoline with an ethanol 
content in excess of 10 percent (known as ``E10''), which currently 
accounts for 98 percent of ethanol usage.
    Estimates indicate the market will hit the blend wall by 2012--and 
some industry experts warn that it could come into play as early as 
next year--when the E10 market reaches saturation at approximately 12.5 
to 14 billion gallons of ethanol, causing substantial harm to our 
biofuels industry while also putting the RFS at risk.
    As you know, section 251 of the 2007 Energy bill permits the 
Administrator of the EPA to waive the Clean Air Act limitation on 
ethanol content in gasoline provided such a waiver does not affect the 
emission control systems in vehicles. It is my understanding multiple 
studies have demonstrated that E15 will not cause or contribute to the 
failure of any emission control devices or systems in vehicles; this 
includes legacy vehicles and small nonroad engines. What information 
and studies are you looking at in evaluating whether or not to grant 
the waiver and permit ethanol-gasoline blends of up to 15 percent?
    Answer. The EPA is taking an active role in implementing the new 
renewable fuel mandates set out by Congress. The ethanol waiver request 
we received from Growth Energy on March 6, 2009, is part of this 
effort. A notice of its receipt was published in the Federal Register 
on April 21, 2009. Comments are due by July 20, 2009. We recognize the 
urgency of the ``blend wall'' and the impact the waiver would have in 
delaying its arrival.
    The issues raised by the waiver request are very important and 
complex. We anticipate a significant number of comments from a wide 
range of stakeholders in response to our request for public comment. In 
addition, we continue to work closely with the Department of Energy and 
the Department of Agriculture on this issue. We have gathered data on 
testing done by others and us, but those data are limited. This 
includes the studies that Growth Energy included in their waiver 
request. We expect additional data to be submitted as part of the 
comment period as well, and that all available data will be available 
to interested stakeholders. The Department of Energy is conducting 
comprehensive testing that is estimated to be completed in about a 
year. We will take these comments and any other relevant information 
into consideration, and, using the best available technical data, make 
a determination on the waiver request.
    Question. Have you given consideration to an interim step of 
permitting gasoline blends of up to 12 or 13 percent in order to ensure 
that the biofuels industry is not harmed by the fast-approaching blend 
wall?
    Answer. With respect to allowing a 12 or 13 percent ethanol blend 
in the interim, we have assessed our authority under the act to take 
such an action outside of the waiver process. This would require a 
revision of the ``substantially similar'' interpretive rule, which 
defines the limits for the use of oxygenates in gasoline, such as 
ethanol, without the need for a waiver. The current ``substantially 
similar'' rule limits ethanol to about 7 percent by volume. Ethanol 
received a waiver in 1978 to allow 10 percent by volume. We have 
concluded that in order to have a reasonable basis to revise the 
``substantially similar'' rule to 12 or 13 percent, we would need 
similar data to that for a waiver. We are not aware of any significant 
data at 12 or 13 percent to review. Thus, absent additional data, the 
most expedient means of assessing the impacts of greater percent 
ethanol in gasoline is to consider the waiver request we received from 
Growth Energy.

                          ENDANGERMENT FINDING

    Question. Last month you signed a proposal finding that the current 
and projected concentrations of six key GHG in the atmosphere threaten 
the public health and welfare of current and future generations.
    Do you see the proposed rule granting the EPA the authority to 
regulate (GHG) under the Clean Air Act absent congressional action? 
Also, what is the EPA's understanding of the Supreme Court's finding in 
Massachusetts v. Environmental Protection Agency?
    Is it the position of EPA that the finding directed the agency to 
regulate CO<INF>2</INF>, or just that the EPA has the authority to 
regulate CO<INF>2</INF>?
    Answer. The Supreme Court in Massachusetts vs. EPA ruled that 
Carbon Dioxide (CO<INF>2</INF>) and other Greenhouse Gases (GHGs) fall 
within the Clean Air Act's definition of ``air pollutant,'' and that 
EPA must determine whether such emissions meet the endangerment test of 
section 202(a) or explain why available science is not sufficient to 
make a determination. The Supreme Court also concluded that if the 
Agency determines that emissions of those GHGs from new motor vehicles 
and new motor vehicle engines cause or contribute to air pollution that 
may reasonably be anticipated to endanger public health or welfare, 
then EPA is required to regulate CO<INF>2</INF> and several other GHGs 
under Clean Air Act section 202(a) (the provision at issue in the 
case).
    In response to the Supreme Court's decision, EPA has issued 
proposed endangerment findings under section 202(a) of the Clean Air 
Act for CO<INF>2</INF> and several other GHGs, and proposed cause or 
contribute findings for the emissions of those GHGs from new motor 
vehicles. As proposed findings, they do not provide EPA with the 
authority to regulate. Only if EPA decides, after considering public 
comment, to issue final findings that new motor vehicle GHG emissions 
meet the endangerment and cause or contribute tests of section 202(a), 
will EPA have authority to issue GHG emission standards under that 
section for motor vehicles. For EPA to issue GHG emission standards for 
other types of mobile or stationary sources, the Agency would have to 
conduct rulemakings under the specific Clean Air Act provisions that 
authorize regulation of those sources. Clean Air Act provisions vary in 
the determinations EPA must make in order to regulate.
    Question. What measures is EPA taking to account for the economic 
consequences?
    Answer. If EPA decides, after considering public comment, to issue 
final findings that GHG emissions meet the endangerment and cause or 
contribute tests of Clean Air Act section 202(a), Administrator Jackson 
will make decisions about using the Clean Air Act. In particular, 
section 202(a) provides the Administrator with the discretion to 
determine the content and timing of motor vehicle emission regulations. 
That section also directs the Administrator to make regulatory 
decisions based on cost, technological feasibility, and other relevant 
factors. Many provisions of the Clean Air Act provide similar 
discretion and direction to consider costs and other factors in 
deciding how (and in some cases, whether) to regulate under those 
provisions.
    As noted above, EPA would assess the costs of any proposed GHG 
controls as part of the rulemaking process required to issue such 
regulations under section 202(a), and the public would have an 
opportunity to comment on EPA's proposal, including its cost estimates.
    Administrator Jackson has stated that if EPA embarked on Clean Air 
Act regulation of GHGs, it would focus on the largest emission 
categories, such as motor vehicles and power plants. In an advance 
notice published in the Federal Register last year, the Agency examined 
many issues concerning the potential use of the Clean Air Act to 
regulate GHGs, including the potential for such regulation to result in 
the application of the act's permitting programs to GHGs. EPA is 
currently considering the public comments received in response to the 
notice on how the permitting programs might be tailored for GHGs to 
avoid or minimize economic consequences for smaller sources. Addressing 
small business concerns with potential GHG regulation under new 
legislation or the Clean Air Act is a priority for the Agency.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                         GULF OF MEXICO FUNDING

    Question. When I look at the funding provided by the U.S. 
Environmental Protection Agency (EPA) to its Gulf of Mexico Program 
(the EPA Program Office charged with facilitating collaborative actions 
to protect, maintain, and restore the health and productivity of the 
Gulf of Mexico in ways consistent with the economic well-being of the 
region), I see huge disparities in funding levels provided to the Gulf 
relative to other great water bodies like the Great Lakes, Chesapeake 
Bay, and Puget Sound. In fiscal year 2009, for example, the Great Lakes 
Program Office received $57 million in support, and the Gulf of Mexico 
Program Office received only $4.6 million. Such disproportionate 
funding has been the case since the Gulf Program's inception in 1988. 
It seems particularly unfair and counterproductive to the mission of 
EPA to consistently underfund such a critical and productive region.
    Can you please help me to better understand the reasoning behind 
this practice, particularly with the advancement of the President's 
initiative to spend $475 million on the Great Lakes?
    Answer. EPA has undertaken a number of strategic geographic 
initiatives throughout the country. The Agency has traditionally 
exercised the Administrator's limited authority under CWA 104(b)(3) to 
establish and maintain cooperative issue assessment and coordination of 
response planning support to these multi-state ecosystem initiatives. 
As the assessments evolve and the critical issues and tactical response 
plans are developed, Congress has, in many cases, enacted specific 
legislation through the CWA to help underwrite the execution of these 
recovery and/or conservation Action Plans (i.e., the CWA Amendment 
forming the Great Lakes Program; the Great Lakes Legacy Act; the CWA 
Amendment forming the Chesapeake Bay Program).
    The Gulf is confronted by a number of environmental issues that 
threaten both the ecology and economic sustainability of the 
surrounding coastal communities and, the Nation. The initiation and 
support over the last few years of the Gulf States Governors Alliance 
has been instrumental in rapidly advancing the action plan framework 
for this region. We understand that the Governors Alliance is preparing 
to release the next 5-year action plan on June 10, 2009.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                        COMBINED SEWER OVERFLOWS

    Question. Combined Sewer Overflows (CSOs) are an enormous problem 
in communities with older water infrastructure. In the late 19th to 
early 20th century, many communities built single sewer systems for 
both sewage from homes and storm water runoff from streets and roofs. 
During large storms these systems are overwhelmed. The excess storm 
water mixes with the raw sewage and flows into nearby bodies of water. 
Each year nearly 1 billion gallons of raw sewage from CSOs puts the 
public at risk for disease and compromises the integrity of water 
bodies throughout the Nation. How will EPA use the proposed increases 
in water and wastewater infrastructure revolving loan funds to 
eliminate this serious threat to our Nation? Since this is such a big 
problem, do you believe a dedicated fund just for CSOs is warranted?
    Answer. The Environmental Protection Agency (EPA) agrees that CSOs 
cause environmental and public health problems. Since the CSO Policy 
was finalized in 1994, EPA and the States have made substantial 
progress working with municipalities to develop long-term control plans 
to eliminate or reduce the overflows and the environmental and public 
health threat. The Clean Water State Revolving Fund (CWSRF) is designed 
to allow State programs the flexibility to direct funds to those 
projects that will have the greatest impact, considering factors 
including public health and environmental protection. EPA believes that 
funding CSO controls through the existing CWSRF would be more efficient 
than establishing a separate CSO grants program, and that the 
significant increase proposed in the CWSRF by the President will help 
address high-priority CSO problems.

                  NATIONAL MERCURY MONITORING NETWORK

    Question. I have long believed that we, as a Nation, are not paying 
sufficient attention to the dangers posed by mercury to our children 
and, in general, to all of our citizens. When I have spoken to experts 
in Maine about this problem, I have learned that each new scientific 
study finds more mercury in the environment and more affected species 
than the previous study. In 2006, when EPA released a major new mercury 
regulatory rule, its Inspector General found that data for mercury 
pollution models was severely lacking and recommended EPA implement a 
national mercury monitoring network. In 2007, to address this need for 
better data, I introduced the Comprehensive National Mercury Monitoring 
Act to ensure that we have the information we need to make decisions 
necessary to protect our people and environment. I intend to pursue 
this bill again this year.
    Do you support implementing a National Mercury Monitoring Network?
    Answer. Addressing mercury emissions is a complex and multi-faceted 
issue that necessitates evaluation of all media, including air, water, 
sediments, fish, and wildlife. EPA recognizes the pressing need for 
comprehensive, long-term mercury monitoring and has made significant 
and tangible progress toward establishing a national mercury monitoring 
network. EPA is collaborating with Federal, State, tribal agencies, and 
academic partners to provide a comprehensive understanding of mercury 
in the environment using limited existing data and monitoring 
capabilities.
    In 2003, EPA co-sponsored a workshop with the Society for 
Environmental Toxicology and Chemistry to develop a national program to 
track the changes resulting from reductions in mercury emissions in the 
U.S. Detailed recommendations for a comprehensive national mercury 
monitoring program emerged from this workshop and were published in a 
peer reviewed journal article (2005) and a subsequent book (2007).
    In response to the workshop recommendations, EPA collaborated with 
the National Atmospheric Deposition Program (NADP) membership of 
Federal agencies, States, tribes, academic institutions, industry, and 
other organizations to launch a new, coordinated network for monitoring 
mercury in the atmosphere. At present, 20 atmospheric mercury 
monitoring stations are participating in NADP to provide high-
resolution, high-quality atmospheric data. NADP plans to offer a 
publicly accessible database of long-term atmospheric mercury 
measurements.
    In 2008, EPA co-convened a workshop to design a comprehensive and 
integrated national mercury monitoring network--MercNet. The workshop 
included approximately 50 experts from Federal agencies (U.S. 
Environmental Protection Agency, U.S. Geological Survey, National 
Oceanic and Atmospheric Administration, U.S. Fish and Wildlife Service, 
National Park Service, etc.), State and tribal agencies, Biodiversity 
Research Institute, NADP, industry, and other institutions. Workshop 
scientists agreed on a goal and major design elements for a national 
mercury monitoring program, including a national distribution of 
approximately 20 intensive sites, to understand the sources, 
consequences, and trends in U.S. mercury pollution.
    EPA is committed to working with its partners, as resources permit, 
to develop a comprehensive, long-term mercury monitoring program which 
would contribute much needed information on how the environment is 
responding to changing uses and emissions of mercury.
    Question. What specific steps will the EPA take in the coming year 
to protect us against this persistent and dangerous neurotoxin?
    Answer. The Administrator has announced that EPA will be developing 
a Clean Air Act section 112(d) standard for electric utility steam 
generating units addressing all hazardous air pollutants emitted from 
these units including mercury. The Agency is currently in settlement 
negotiations with the plaintiffs in a mandatory duty lawsuit concerning 
the timing for completing this rule and does not have a schedule for 
developing the regulation at this time.
    Mercury is also among the pollutants that the Agency is, or will 
be, regulating under section 112(d) through rules for other industries 
and sectors (e.g., for the Portland cement, industrial boilers, and 
medical waste incinerators).

                     MID-LEVEL ETHANOL FUEL BLENDS

    Question. Ms. Jackson, on March 6, you were presented with a 
request for a waiver from the Clean Air Act for mid-level ethanol fuel 
blends. Subsequent to that request, a large group of interested 
organizations, including the Sierra Club, Public Citizen, and the 
American Lung Association, wrote a letter asking you to deny that 
request. They argued that these fuels have not yet received sufficient 
study to ensure that they will not pose hazards to the environment, 
health, and safety. In fact, I continue to receive complaints from my 
constituents about the performance of the current ethanol fuel blend in 
snowmobiles, boat engines, and chainsaws. These constituents have no 
fuel choices since, in Maine, only a 10 percent ethanol gasoline fuel 
blend is available at our gasoline pumps and I am very concerned about 
any potential increases in the amount of ethanol allowed in gasoline. 
Given the administration's support for policy based on good science, 
will you make certain that all of the data needed to answer questions 
about the merit of these new fuels are analyzed before permitting them 
into commerce?
    Answer. EPA is carefully considering the waiver request it received 
from Growth Energy on March 6, 2009. A notice of its receipt was 
published in the Federal Register on April 21, 2009. Comments were 
requested on a number of issues. The comment period closes on July 20, 
2009.
    The issues raised by the waiver request are very important and 
complex. The Agency is aware of the concerns raised by the 
organizations that you noted. These include the impact of E15 on 
nonroad engines such as those in snowmobiles, boats, and chain saws. As 
anticipated, the Agency is receiving a significant number of comments 
from a wide range of stakeholders in response to our request for public 
comment. In addition, the Agency continues to work closely with the 
Department of Energy (DOE) and the Department of Agriculture on this 
issue. DOE is conducting a significant amount of testing. EPA will take 
the public comments, test data, and any other relevant information into 
consideration. The Agency will use the best available technical data 
and make a determination on the waiver request based on good science.

                          SUBCOMMITTEE RECESS

    Senator Alexander. The meeting is recessed.
    [Whereupon, at 11:39 a.m., Wednesday, May 20, the hearing 
was recessed, to reconvene subject to the call of the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Tester, and Alexander.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF ABIGAIL KIMBELL, CHIEF

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Good morning.
    On behalf of the Interior Appropriations Subcommittee, I 
would like to welcome you to the hearing on the fiscal year 
2010 budget.
    Unfortunately, both Senator Alexander and I have to leave a 
little before 11 a.m. So, Ms. Kimbell, this will be necessarily 
a short hearing. I don't think you would object to that, and we 
will do what we have to do and do it efficiently, I hope.
    I am very pleased to welcome you, as Chief of the Forest 
Service, before this subcommittee.
    I would like to start by saying that I think this is a very 
good budget. It may need some changes around the edges to meet 
certain priorities, but we can talk about that.
    I would like to express my appreciation that the President 
has requested $200 million in supplemental firefighting funds 
for the Forest Service before the fire season begins in 
earnest. That is a welcome change.
    The recent fires in Santa Barbara showed it is likely that 
we are in for another brutal, expensive fire season. And so, it 
is my hope that these funds will help prevent the service from 
borrowing from other programs to pay for firefighting needs 
this year.
    The President has requested $5.226 billion for the Forest 
Service for 2010. That is a 10 percent increase, or $480 
million more than the 2009 enacted level.
    The new administration recognizes that firefighting costs 
are likely to exceed the 10-year fire suppression average and 
has submitted a budget that reflects that reality. It requests 
full funding in the 10-year average for a total of $1.128 
billion and includes a new $280 million reserve fund that is 
available for the Forest Service if its regular appropriations 
run out before the end of the fiscal year.
    It also invests in the Service's aging network of 
facilities, roads, and trails. Overall, the Service's capital 
improvement and maintenance program is funded up 10 percent, at 
$557 million more than the enacted level. And this includes $50 
million to help address the Service's $5 billion backlog of 
deferred maintenance and also to create jobs.
    In particular, this budget proposes to reduce hazardous 
fuels reduction programs by $13 million, and that is a 4 
percent cut. And I must tell you, I have a problem with that. 
In my view, this cut doesn't make sense. Particularly when we 
are pouring money into firefighting programs, we have to begin 
to manage our forests and remove hazardous fuels and be 
prepared for fire, prevent fire.
    I am also concerned that the request funds fire 
preparedness programs at $675 million, equal to the enacted 
level. This means that the Service will be forced to shift more 
costs for firefighter salaries and equipment to the fire 
suppression program, further driving up the 10-year average.
    But in summary, a 10 percent increase in this time of debt 
and deficit, is, indeed, a very good budget.

                           PREPARED STATEMENT

    So that completes my remarks, and Mr. Ranking Member, I 
would be happy to recognize you at this time.
    [The statement follows:]

             Prepared Statement of Senator Dianne Feinstein

    Good morning, ladies and gentlemen. On behalf of the Interior 
Appropriations Subcommittee, I welcome you to our hearing on the fiscal 
year 2010 budget request for the U.S. Forest Service.
    I'm pleased to welcome Gail Kimbell, Chief of the Forest Service, 
before the subcommittee.
    I'd like to start this morning by saying that I think this budget 
is a good first step toward meeting the needs of our national forests.
    Now, that doesn't mean that there isn't room for improvement, 
because there certainly is. We'll talk about some of the priorities 
that are left out of this budget. But the request lays a foundation 
that this subcommittee can build on.
    I'd also like to express my appreciation that the President has 
requested $200 million in supplemental firefighting funds for the 
Forest Service before fire season begins in earnest this year. That's a 
welcome change from the position of the previous administration.
    As the recent fires in Santa Barbara showed, it is likely that we 
are in for another brutal, expensive fire season. It is my hope that 
these funds will help prevent the Forest Service from borrowing from 
other programs to pay for firefighting needs this year.
    Turning to the particulars, the President has requested $5.226 
billion for the Forest Service for fiscal year 2010, an increase of 
$480 million more than the fiscal year 2009 enacted level. That's a 
welcome 10 percent increase.
    Most importantly, I am pleased that the new Administration 
recognizes that firefighting costs are likely to exceed the 10-year 
fire suppression average--and has submitted a budget that reflects that 
reality.
    The budget request fully funds the increase in the 10-year average 
for a total of $1.128 billion. It also includes a new $282 million 
reserve fund that's available to the Forest Service if its regular 
appropriations run out before the end of the fiscal year.
    The budget also invests in the Forest Service's aging network of 
facilities, roads, and trails. Overall, the Forest Service's capital 
improvement and maintenance program is funded at $557 million, an 
increase of 15 percent more than the enacted level. That includes a $50 
million initiative to help address the agency's $5 billion backlog of 
deferred maintenance and create jobs.
    Finally, the budget request includes a $42 million boost to State 
and private forestry programs, targeted specifically to protecting open 
spaces through conservation easements.
    These are all important priorities, and I am pleased to see them 
funded. However, at the same time, I am also concerned that the budget 
request shortchanges other priority needs to pay for these initiatives.
    In particular, this budget proposes to reduce hazardous fuels 
reduction programs by $13 million. That's a 4 percent cut to fire 
prevention--at a time when we're pouring money into firefighting. This 
cut just doesn't make any sense, and I won't support it. In fact, I 
plan to increase funds for fuels reduction in the fiscal year 2010 
Interior bill.
    I am also concerned that the request funds fire preparedness 
programs at $675 million, equal to the enacted level. That means that 
the Forest Service will be forced to shift more costs for firefighter 
salaries and equipment to the fire suppression program--further driving 
up the 10-year average.
    The request funds operating programs for national forests at $1.5 
billion, also equal to last year. That means important programs like 
forest products and law enforcement are being cut back. And other 
cooperative programs face the chopping block, including a 6 percent cut 
to State and local fire assistance and a 4 percent cut to programs that 
fight insects and disease.
    In short, I think these programs deserve more support--and I plan 
to ensure that the rising tide of this budget lifts all of the agency's 
programs, not just a select few.
    Now I'd like to turn to my Ranking Member, Senator Alexander, for 
any comments that he wishes to make.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Madam Chairman.
    Chief, it is nice to see you and to discuss the Forest 
Service.
    I completely agree with the chairman about fire. It is an 
essential part of the Forest Service program, but we don't want 
to see the U.S. Forest Service become the U.S. fire department. 
And I am also glad to see that because of the chairman's hard 
work especially, there is more money to deal with fires this 
year.
    In the East, we don't have as many public lands and Forest 
Service lands as we do in the West. And most of the Forest 
Service lands I notice, looking at the map, run up the 
Appalachian Ridge. They start down in Georgia and run up 
through in and around the Smokies, where I live, where you have 
the Cherokee National Forest. But then there is the Blue Ridge 
Parkway and on up through Pennsylvania and into the area where 
you come from, with the White Mountains and the Green 
Mountains.
    So I have a couple of questions about renewable energy that 
I would like to ask you, and then I would like to follow up, 
ask you if you don't have the answers today to perhaps provide 
me with the answers later.
    And let me start with an opportunity I think I see, and 
that is the use of biomass--wood products, wood chips--from 
Forest Service areas to create electricity by burning them. 
What are the opportunities that you see for biomass on Forest 
Service lands that might--and what might that have to do with 
reducing the danger of fire?

                  SUMMARY STATEMENT OF ABIGAIL KIMBALL

    Ms. Kimbell. Thank you, Senator.
    The Forest Service worked with a number of different 
partners to produce what we call the ``million ton report,'' 
and that has been updated. And from forested lands in the 
United States--Ron is going to produce here in a minute that 
sheet that has the numbers, the millions of tons that are 
available from sustainably managed forests across the United 
States.
    Senator Alexander. Oh, pardon me, Chief. I got carried 
away. I had about finished my opening statement, and the 
questions will come next. I was so enthusiastic.
    Ms. Kimbell. Okay.
    Senator Alexander. So I thank you for being here. Those 
will be the two areas that I would like to explore. And why 
don't we go now to the chairman, and then I will take questions 
next.
    Senator Feinstein. I am fine with you doing that, and I 
will go after you. Go right ahead, please.
    Senator Alexander. Are you? Well----
    Senator Feinstein. I am. I wouldn't say it if I wasn't.
    Senator Alexander. I think you would.
    In fact, I know you would. That is a great courtesy. Excuse 
me for doing that.
    But go ahead with your comment on biomass.

                                BIOMASS

    Ms. Kimbell. There is a biomass study that has just 
recently been updated and will be published shortly. And where 
it talks about forests in the United States being able to 
provide about 40 million tons of oven-dried biomass per year 
from sustainably managed forests.
    So that assumes things like nutrient cycling, maintenance 
of biodiversity, water quality, wildlife habitat. It assumes 
sustainable management. So 40 million tons, and this could 
produce the equivalent of about 4 billion gallons of biofuel.
    And for Tennessee alone, Tennessee could produce 2.5 
million tons, or 5 percent of the Nation's total of oven-dried 
biomass from sustainably managed forests.
    Senator Alexander. You would think of it as used for fuel 
rather than electricity?
    Ms. Kimbell. It could be--this report will actually lay it 
out in a lot of different possibilities, but either for fuel or 
for the generation of electricity.

                            RENEWABLE ENERGY

    Senator Alexander. Well, that is very helpful. I would like 
to try to get that into some perspective, and that puts it 
there. I mean, that sounds like a lot.
    On the other hand, I believe I remember--I will have to 
check my figures--that the new Southern Company's 100-megawatt 
electric plant would take 1 million tons a year just to keep it 
going of biomass. And that 100 megawatts isn't much. I mean, 
that is about \1/12\ of 1 unit of a nuclear plant. But that 
would be very helpful.
    Now let me move to another part of the renewable, and then 
that will be my other part of the question. I noticed on the 
sheet that I got, and the chairman and I have talked about this 
in general. This is the cover, Madam Chairman, of the Forest 
Service summary of all of its activities. You selected a 
beautiful view. And----
    Senator Feinstein. It might be California.
    Senator Alexander. Might be. It might be.
    Or it could be the Appalachian Range, but let us say it is 
California. And so, my concern is, and I will just speak for 
myself, is that I would like very much for us to have in this 
country as much renewable energy as we reasonably and 
appropriately can. I think, for example, biomass may be 
especially appropriate for Forest Service lands.
    But on the other hand, when I think of wind turbines, for 
example, they are three times as tall as the football stadium 
the University of Tennessee has in Knoxville, and the blades 
are as long as the football field, and you can see them for 20 
miles. And in our part of the world, they don't produce much 
electricity because the wind doesn't blow very much.
    But my concern more is with the landscape. I mean, here is 
a picture of Mars Hill, a big wind turbine right up on the 
Appalachian Trail. And I think about the time when I was on the 
Energy Committee, Madam Chairman, and someone pointed out that 
the Yellowstone Park director put a big cell tower right in 
front of Old Faithful.
    And so, my question is what does viewscape have to do with 
decisions, as you are making them, about the siting of 
renewable energy facilities like wind facilities or along the 
Appalachian Trail or solar facilities perhaps in the West, 
where it might make a difference there?
    Ms. Kimbell. The siting of any facility or any project on 
national forest goes through the environmental analysis process 
and can be documented in a number of different ways. But 
certainly, visual quality is something that is assessed for 
every project that is implemented on national forest.
    So for the siting of a cell tower, the siting of a 
windmill, the siting of a vegetation management project, the 
visual characteristics and the visual impacts of that project 
are taken into consideration in the environmental analysis and 
certainly is discussed in the public involvement and public 
input.
    And as you point out, there are some things that stand out 
more than others, and those things attract a lot of discussion 
and attention through the public involvement process and are 
considered very much in the decision to be made by the line 
officer.
    Currently, we have two proposals being considered on 
National Forest System lands--one in Vermont on the Green 
Mountain National Forest, one in Michigan on the Huron-Manistee 
National Forest. There are other locations across the National 
Forest System where there are considerations. There are permit 
applications being considered to set up the towers that would 
actually monitor wind energy and climatic conditions over a 
period of 3 to 5 years before anybody would even submit a 
permit to develop.
    But the permits to develop are in--the permit applications 
are in Vermont and Michigan, and there is public involvement, 
public comment being taken on the project in Vermont right now. 
And the forest supervisor will be considering all of that 
public comment, along with the rest of the environmental 
analysis in making a determination about whether or not there 
will be turbines sited on the Green Mountain National Forest.
    Senator Alexander. Thank you. I will come back with other 
questions later.
    Thank you, Madam Chairman.

                         FIREFIGHTER RETENTION

    Senator Feinstein. Thank you very much, Senator.
    Chief, I wanted to ask you a couple of things. Let me do 
the California material first, and that begins with the 
firefighter retention challenge.
    As I understand it, as of April 1, a CAL FIRE rank-and-file 
firefighter earned $64,760, nearly 15 percent more than a 
comparable Forest Service firefighter, which averages $56,096. 
And disparities at the captain level were even greater and 
reached $18,000 last year.
    In the continuing resolution, you provided--or we provided 
$25 million to address the problem. We then provided an 
additional $3 million in the fiscal year 2009 omnibus and 
required the agency to provide a spending plan for these funds.
    Now since then, my understanding is that you have 
implemented two main strategies--a 10 percent bonus for the GS-
5 to -8, the rank-and-file firefighters, and a conversion of 
part-time firefighters to full-time status. As of January, you 
had 4,205 firefighters onboard out of a total of 4,432.
    Now I am concerned because I think this is going to be a 
big fire year again in my State, and we need to have the 
Federal service up to par. Can you tell us that it will be?
    Ms. Kimbell. Absolutely. The firefighting effectiveness of 
the Forest Service will be up to par, is up to par for this 
oncoming season. We have been fighting fire all year across the 
South into the Southwest. And with the fire just recently in 
Santa Barbara, it was very early season but tested the 
responsiveness of the State of California, the local fire 
departments and the U.S. Forest Service.
    With the retention bonus that was provided to those grades 
5 through 8, where we saw perhaps the greatest difference in 
recruitment and retention between the Forest Service and the 
State of California, that is where we focused that retention 
bonus. And with extending tours of duty to be yearlong, it 
allowed employees then to participate in things like health 
benefits and retirement benefits yearlong rather than the 9-
month season or 6-month season that they might have been 
employed.
    It does add duties. They will be working on nonfire-related 
activities when it is no longer fire season.
    In looking at the number of firefighters in California, I 
still have to consider the number of firefighters across the 
border in Arizona, firefighters in Oregon, Nevada. When we do 
have a fire event, we bring in trained, experienced 
firefighters from all over the country. And certainly, we have 
hosted folks from all over in California over the last couple 
of years.
    I would like to--I want to believe that we won't have that 
kind of season this year, but the numbers certainly indicate 
that it will be a long season.

                 NATIONAL FORESTS BORDERING LAKE TAHOE

    Senator Feinstein. Both the Governor of Nevada and the 
Governor of California have declared the Tahoe forests, the 
three national forests around Tahoe, in a state of emergency. I 
am very concerned. When I have been to the lake--which is rare, 
I must say--but when I can go, I notice very little burning 
activity.
    I am told that this is done by contractors, and that 
contracting, seems to me, is really not what it should be. Can 
you respond to that? I mean, these forests have to get cleaned 
out of dead, dying, and down. And they aren't being, and that 
is just a fact.
    Ms. Kimbell. I just recently had the opportunity to visit 
with Terri Marceron, who is our forest supervisor in South Lake 
Tahoe. She was in here in Washington, DC, and I believe she met 
with staff from your office and with a number of other folks 
here in Washington, DC.
    And Terri shared a pretty unique program that she has 
implemented there on the Lake Tahoe basin unit, where she is 
working with two counties in California and with the prison in 
Nevada to actually have woody biomass removed. So rather than 
burning piles, we actually have crews that are packing those 
piles out of the forest and hauling them to cogeneration 
facilities.
    Senator Feinstein. Okay. I am going back to the same trail 
that I broke my ankle on last year----
    Ms. Kimbell. I think I have a briefing paper on that.
    Senator Feinstein [continuing]. Again this year. And when I 
last went, there had been some burning of piles. But there were 
10,000 piles. And they have been there for 3 years now, and 
they themselves are a fire hazard. And this is the Meeks Bay 
Trail.
    Ms. Kimbell. Yes.
    Senator Feinstein. So I am going to be watching. I am 
terribly worried about these forests because we have got a lot 
of bark beetle. We have got a lot of dead trees. We have had 
one fire. And the winds are westerly. They come over the Sierra 
Nevadas, and they blow right down into the homes and into the 
lake. And so, I hope you will give this your attention.
    I would like to talk to you for a moment about the MAFFS 
units.
    Ms. Kimbell. Yes.

              MODULAR AIRBORNE FIREFIGHTING SYSTEM (MAFFS)

    Senator Feinstein. Particularly the new MAFFS units. You 
are way down in planes. I don't have it right now, but I did 
have it. You have gone from something like 44 to 19 planes. And 
these MAFFS units are vital. Where are they in the United 
States, and are they available now, the big ones, the new ones?
    Ms. Kimbell. The new ones, I think they are called the 
MAFFS II units----
    Senator Feinstein. Right.
    Ms. Kimbell [continuing]. There are a number of them 
available. Aero Union is doing the work on that. We expect to 
have eight, a combination of the old MAFFS and new MAFFS units 
in service for this fire season, but not all of the new units 
that Aero Union has been developing, not all those units are 
going to be online.
    But we do expect to have eight MAFFS units online for 
firefighting this season.
    Senator Feinstein. And where will they be located?
    Ms. Kimbell. They are based in California, Nevada, and 
Wyoming and North Carolina are training on the original MAFFS 
systems with the Air Force Reserve and Air National Guard. And 
Colorado Springs is training on the MAFFS II systems.
    Senator Feinstein. So there are two for each of these 
bases, each where they are based?
    Ms. Kimbell. Yes.
    Senator Feinstein. Is that right?
    Ms. Kimbell. Yes. So I misspoke. Nevada is not in there.
    Senator Feinstein. Okay. How many are operational now?
    Ms. Kimbell. Eight.
    Senator Feinstein. Are operational now. The training is 
done, and they can fly?
    Ms. Kimbell. Yes, the training is ongoing because some of 
these fire seasons aren't--even though southern California 
started very early, we still have a lot of snow in the Rockies 
and across different places in the country. So I am not sure of 
the exact status of the training, but we could certainly get 
that for you.
    [The information follows:]

    MAFFS training for 2009 is complete. We have eight MAFFS available 
for 2009. Two MAFFS are stationed at each of the following locations: 
California (Port Hueneme), Wyoming (Cheyenne), Colorado (Colorado 
Springs), and North Carolina (Charlotte).

    Senator Feinstein. I would appreciate that. California is 
now in a perpetual drought, and things are very dry. And many 
of us are very worried about what this year will bring, and I 
just want to say that to the head person.
    Ms. Kimbell. Thank you.
    Senator Feinstein. That I believe it does need some special 
attention. We have lost 3 million acres in the last 2 years 
from wildfire, and what we find is the Santa Anas are blowing 
hotter. And as you know, in 2008, we had 8,000 lightning 
strikes on a given day, which started some 2,000 fires.
    I flew out with the President, flew over Shasta, and it was 
like a moonscape. Everything was burned, all around the 
reservoir. It was just--it was a horror to behold. And I think 
we are on an increasing crescendo with respect to fire in this 
State.
    So I would very much appreciate and welcome your attention 
to it.
    Ms. Kimbell. Absolutely. And Senator, if there is an 
opportunity to visit the Meeks Trail together, I would love to 
do that, and I hope that we do get the opportunity----
    Senator Feinstein. This weekend?
    Ms. Kimbell. Oh.
    I guess it would be free of snow, wouldn't it?
    Thank you so much. Thank you, Chairman.
    Senator Feinstein. Senator Alexander, you had additional 
questions?

                                BIOMASS

    Senator Alexander. Thank you, Madam Chairman.
    If I could go back to the discussion we were having before, 
I want to make sure I understood what you said. I believe you 
said your report showed that there would be 40 million tons of 
biomass a year, is that right, in the entire Forest Service 
lands?
    Ms. Kimbell. That is all forest lands. Forty million tons 
of oven-dried woody biomass would be available across the 
country from sustainably managed forests.
    Senator Alexander. Oven-dried woody what?
    Ms. Kimbell. Woody biomass.
    Senator Alexander. And that is all forests?
    Ms. Kimbell. That is all forests.
    Senator Alexander. Not just the national----
    Ms. Kimbell. Not just national forests.
    Senator Alexander. Forty million tons. And you said in 
Tennessee, it was 2.5 million tons?
    Ms. Kimbell. Two and one-half million tons.
    Senator Alexander. A year?
    Ms. Kimbell. A year.
    Senator Alexander. All right. Now the questions--well, 
would it help with fire prevention if this biomass were removed 
from the forests?
    Ms. Kimbell. Absolutely. And this has been a major focus of 
our hazardous fuel reduction over the last 10 years, and there 
are many more acres that need treatment. The estimates have run 
from 40 to 60 million acres. There are some estimates that are 
much higher.
    But there is definitely a need for treatment of acres 
across national forests, BLM, private lands. Certainly, we are 
doing a much better job today of working across landscapes than 
we were 10 years ago, just given this issue with fire and fire 
potential and the woody biomass that is on the ground. But 
having a market for this woody biomass is really critical to 
make this cost effective for the American taxpayer.
    Senator Alexander. Now the 40 million tons is on the 
ground. You are not talking about dead or dying trees?
    Ms. Kimbell. Oh, no. That does include dead and dying.
    Senator Alexander. It does include dead and dying trees. So 
you would like to see some biomass plants that would take large 
amounts of this oven-dried woody biomass and turn it into 
either fuel or electricity? That would be a help to the fire 
prevention and other aspects of your operation?
    Ms. Kimbell. Absolutely. Having a market for this woody 
biomass is really critical to make it cost effective.
    Senator Alexander. Can you tell me what size powerplant, in 
your estimation--and maybe this is a question for the 
Department of Energy--what size powerplant for electricity that 
40 million tons of oven-dried woody biomass would operate every 
year? You don't need to tell me now.
    Give me some idea of the kind of roads and trucks that 
would be involved in the hauling of all this stuff to plants. 
And any sort of judgment about whether, in the end, that whole 
process is carbon neutral?
    Ms. Kimbell. And actually, we have a couple of research 
projects that are going on, one in California, where we are 
trying to assess just exactly that. And hopefully, we will have 
results from that study. But, yes, we can provide you with that 
information.
    Senator Alexander. That would be very helpful to me because 
I think it would give all of us a lot of good information. It 
may be well worth doing even if it isn't carbon neutral, but if 
it also is carbon neutral, that would fit into the national 
debate.
    [The information follows:]

    The generating capacity depends on the facility design and 
conversion technologies used and their associated efficiencies. Some 
technologies have been proven for woody biomass through commercial 
deployment and use, while others are in the research, development, or 
testing stages. Based on conversion and efficiency factors for the 
proven technology of stand-alone wood biomass fired steam turbine 
system, and the Energy Information Administration, 40 million oven dry 
tons available annually would support an estimate of approximately 
4,550 MW generating capacity. Depending on facility design and 
operating hours, the amount could be less.
    The existing transportation infrastructure including roads and 
highways, rail, and barge, would be expected to be involved in 
delivering material to conversion facilities. It is important to 
consider that the logging operations infrastructure must be healthy and 
in place to enable sustainable harvest of the material. Life-cycle 
analysis of the biomass energy supply chain is an active area of 
research for the Forest Service and our partners. Results of forest 
management and harvest lifecycle analysis in the Pacific Northwest and 
Southeastern United States obtained to date indicate that greenhouse 
gas emissions vary between 2.5 and 12.5 percent of carbon in the wood, 
depending on management regime and transportation.

                      SITING WIND ENERGY TURBINES

    Senator Alexander. And then my last questions have to do 
with the mountaintops. And different regions of the country 
have more appropriate renewable energy. Biomass may very well 
be an appropriate one for the Southeastern United States, which 
is why the southern plant south of TVA is building its 100-
megawatt plant.
    In the West, it may be that large wind turbines are fine. I 
know at Rocky Flats, they are down on the ground. But my 
impression is that all of the class I wind areas in the Eastern 
United States are on ridge tops. Is that your impression as 
well?
    Ms. Kimbell. And I have not studied that issue carefully. 
No, I don't know.
    Senator Alexander. Well, that is my impression. And so, we 
would end up putting these massive machines on ridge tops in 
many parts of the area where the wind doesn't blow very well. 
So the questions I would like for you to try to answer for me, 
which you did to some direction, is how will your directives 
take into account the importance of protecting viewsheds?
    I mean, in our part of the world, we buy houses and live on 
roads that are named Scenic Drive and Lookout Mountain and Blue 
Ridge Parkway, and not 500-foot, 50-story tower, ``wind tower 
parkway'' with the flashing lights. How closely are you working 
with the Department of the Interior on drafting your policy?
    Should these decisions along the ridge tops of Appalachia 
from Georgia to Maine all be made by individual park 
supervisors, or should there be some review at the national 
level? Would it make more sense to first study and review all 
these lands and then come to some conclusion about what we do?
    I think you can see my own personal view is I think it is a 
preposterous idea to take land we have set aside for recreation 
and scenic and other uses and clutter it with eyesores that 
don't produce much electricity. Even if they did produce 
electricity, I think the people of our region would not want to 
see that.
    I mean, we are spending up to $40 million, for example, to 
acquire Rocky Fork in the Cherokee National Forest, and then 
the very idea of coming and putting in 50-story towers with 
long transmission lines seems to me to be a preposterous 
notion. So I would like to find some way to get an intelligent 
set of--a framework within which we can consider the 
appropriate siting of renewable energy, such as wind, on the 
Appalachian chain running from Georgia up through Maine.
    What are those considerations, and how do we make choices 
between biomass, which, in our region, seems to be a very 
appropriate form of renewable energy, and wind turbines on 
ridge tops, which seems to me not to be?
    Ms. Kimbell. Well, I believe there are two things. I think 
this whole address to energy and alternative energy is far more 
complex than maybe we have all acknowledged yet. But just all 
the different complexities with--that come with some of these 
different alternative energy sources is something that we do 
need a larger discussion about, more discussion as we talk 
about energy independence in the country.
    And yet there are still questions about where is it 
appropriate to drill for oil? Where is it appropriate to put 
out solar panel arrays? Where is it appropriate for wind 
turbines? And when are public lands appropriate for any of 
those? I think that is part of a much larger discussion that we 
are going to need to have.
    We have had some public discussion about transmission 
lines, and yet still there needs to be discussion about all 
these different energy independence opportunities.
    For wind energy, the Forest Service in 2007 posted in the 
Federal Register a proposed directive. It was to help our field 
organization have some consistency for how they evaluated wind 
energy proposals on National Forest System lands.
    We received more than 5,000 comments. We have been 
reviewing those comments. We are discussing those with the 
Department of Agriculture. We have worked closely with the BLM 
through this whole process of preparing this consistent 
direction to provide to our field for evaluating wind 
proposals.
    But always those--any of those proposals would have to be 
considered in the context of the forest plans, and those forest 
plans lay out how sustainability will be addressed on that 
particular national forest and always visual characteristics 
are something that are considered with each proposal that comes 
in as when it is evaluated for how well it meets the forest 
plan.
    So there needs to be this much larger discussion, and at 
the same time, this directive for how to analyze wind proposals 
on National Forest System land is something that we hope to 
have clarified and to the field here very soon.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Before turning to Senator Tester, Chief, would you please 
submit your statement for the record?
    Ms. Kimbell. Okay.
    Senator Feinstein. And it will be included in the record.
    Ms. Kimbell. And I do have a written statement and----
    Senator Feinstein. That is what I am referring to, right.

                           PREPARED STATEMENT

    Ms. Kimbell. Thank you. And I would like to submit it for 
the record. Thank you.
    Senator Feinstein. Yes, right. Thank you.
    [The statement follows:]

                 Prepared Statement of Abigail Kimbell

    Madam Chairwoman and members of the subcommittee, it is a privilege 
to be here today to discuss the President's budget request for the 
Forest Service in fiscal year 2010. I appreciate the significant 
support this subcommittee has repeatedly demonstrated for the Forest 
Service. Working together, this subcommittee and the Forest Service 
have served the public good by addressing issues from loss of open 
space to wildfire, from crime on national forestland to improving fish 
and other aquatic organism passage. With your continued support we will 
keep providing more of the things the American public expects and 
wants.
    With the new administration, the Forest Service advances its 
mission to sustain the Nation's forests and grasslands through direct 
stewardship of the 193 million acres of the National Forest System, 
technical assistance to State and private partners, and science. The 
Forest Service continues to manage the National Forest System to 
provide diverse benefits to the public such as clean water, fish and 
wildlife habitat, recreation, and forest products. The Forest Service 
will make progress in its partnerships with other Federal agencies, 
States, local governments, tribes, and private landowners to sustain 
forests and address climate change and other issues across the 
landscape. The Forest Service will continue to develop innovative tools 
and provide understanding of complex forest ecosystems through its 
unique research program. And the Forest Service will continue to 
advance forest management across the globe in our International 
Programs.
    The fiscal year 2010 President's budget request for the Forest 
Service totals $5.2 billion in discretionary appropriations, a 9 
percent increase more than the fiscal year 2009 enacted level. As part 
of the budget, the President is proposing three major initiatives for 
the Forest Service in addition to maintaining essential funding levels 
for critical program areas.
    Before discussing the fiscal year 2010 budget further, I would like 
to thank this committee for your support of our mission by providing 
$1.15 billion to the Forest Service through the American Recovery and 
Reinvestment Act of 2009 (ARRA). The Forest Service is using these 
funds to create more than 20,000 new private sector jobs and promote 
economic recovery, especially in those areas which the recession has 
impacted most. In addition to restoring jobs and revitalizing 
economies, the Forest Service ARRA projects will restore the land and 
improve facilities and infrastructure, augmenting critical mission 
objectives for the agency.

                        PRESIDENTIAL INITIATIVES

    The fiscal year 2010 budget for the Forest Service includes three 
Presidential initiatives: responsibly budget for wildfire suppression; 
conserve new lands; and Protect the national forests. This suite of 
initiatives addresses the challenges we face, including the three 
themes I identified before last year's budget hearings: climate change, 
water supply and quality, and loss of connection to nature, especially 
for youth.

Responsibly Budget for Wildfire
    Fires in recent years have become larger and more difficult to 
control due to a variety of factors, including climate change; 
persistent drought and hazardous fuels conditions; and the increased 
magnitude and complexity of the wildland urban interface. As these 
factors extend fire seasons and escalate cost, annual fire suppression 
expenditures have routinely exceeded the amount budgeted for 
suppression. Since 2002, the Forest Service has used the authority 
provided by Congress to transfer more than $2 billion from other 
programs to fire suppression to cover these costs. Even when the 
transferred funds are repaid through supplemental appropriations, these 
transfers result in significant disruptions in the agency's ability to 
deliver its program of work.
    Our fiscal year 2010 budget proposes a strategy to responsibly 
budget for wildfire that centers on three main tactics: fully fund the 
10-year average suppression costs, establish a discretionary 
contingency reserve account, and ensure fire management resources are 
used in a cost-effective manner in high-priority areas. The budget 
provides additional fire management resources for fire suppression that 
reduce the likelihood or magnitude of transferring funds from other 
critical Forest Service activities should fire costs exceed the 10-year 
average for suppression costs.
    The request to increase the fire suppression budget by $135 million 
more than fiscal year 2009, to fully fund the 10-year average for 
suppression costs of $1.1 billion, represents a significant shift in 
budgeting policy. In recent years, the Forest Service budget request 
reduced funding for nonfire programs to maintain funding for the 10-
year average for suppression costs, to meet an overall budget cap. This 
approach was in place even as the 10-year average cost for suppression 
rose by nearly $600 million between fiscal year 2001 and fiscal year 
2008. The approach proposed in the 2010 budget preserves funding for 
the Forest Service's nonsuppression programs despite rising fire costs.
    In addition, the fiscal year 2010 President's budget proposes a 
discretionary wildland fire contingency reserve of $282 million. The 
fund would be available to the Secretary, subject to a Presidential 
finding of need, once the suppression appropriation is exhausted and as 
long as suppression is fully funded at the 10-year average. The fund 
would enable the agency to respond to wildfires which threaten lives, 
property, and resources on more than 210 million acres of agency-
protected lands, while minimizing the potential for the transfer of 
funds from other Forest Service programs to suppression, ensuring that 
resources for other critical Forest Service activities are available. 
The request for the Department of the Interior includes a similar $75 
million proposal.
    Along with fully funding the 10-year average and the wildland fire 
contingent reserve fund, the Forest Service will continue to deploy 
analytic support tools to improve fire incident and program 
decisionmaking, cost containment, and agency accountability. A number 
of wildland fire decision support systems, such as FSPro, which models 
fire behavior, and RAVAR, which models values at risk from fire, 
provide real-time support to fire managers implementing risk-informed 
management.
    The projects accomplished through ARRA will augment these budgetary 
efforts by restoring forests to a State in which they are less prone to 
catastrophic fire. The bill provides $500 million for hazardous fuels 
reduction, forest health protection, rehabilitation, and ecosystem 
improvement. These funds will be evenly divided between Federal and 
non-Federal lands. Up to $50 million of the $500 million are available 
for wood-to-energy grants. These grants are being coordinated with 
hazardous fuels treatments to maximize biomass available for energy 
creation. We anticipate using these funds for hundreds of hazardous 
fuels reduction, forest health, and ecosystem restoration projects 
while creating jobs in economically distressed areas.

Conserve New Lands
    While Americans can take great pride in our existing National 
Forest System and other public lands, there are many landscapes and 
ecosystems at risk. Fifty-seven percent, or 430 million acres, of our 
Nation's forests are privately owned. Family forest owners and other 
landowners are facing increasing pressure to develop their land, which 
fragments ownership and converts environmentally important forests to 
nonforest use. Conservation across a landscape is essential to address 
large-scale conservation issues such as adaptation to climate change, 
conservation of water resources, reduction of wildfire risk, and 
protection of at-risk species.
    The budget includes a $34 million Presidential initiative to 
conserve new lands through the forest legacy program funded from the 
Land and Water Conservation Fund (LWCF). Funded at $91 million for 
fiscal year 2010, the forest legacy program protects forested lands 
under significant development pressures through acquisition of 
conservation easements and fee-simple purchases. The easements acquired 
protect air and water quality, provide access to national forests, and 
provide habitat for threatened or endangered wildlife and fish. This 
budget proposes spending $119 million of the LWCF through the Forest 
Service as part of broader effort to conserve land by increasing LWCF 
appropriations for the Departments of Agriculture and the Interior to 
$420 million.

Protect the National Forests
    The national forests face significant challenges to both protect 
new investments and sustain older infrastructure. Ecologically 
sustainable investments in roads, trails, and facilities made through 
ARRA require resources to protect those new assets through maintenance. 
The National Forest System has a transportation system that is not 
suited to its modern needs and requires realignment to ``right-size'' 
the system for the future. A number of Forest Service facilities have 
urgent health and safety maintenance needs that, if not addressed, 
could result in those facilities' closure.
    The fiscal year 2010 President's budget augments the work to be 
accomplished via the ARRA by including a $50 million Presidential 
initiative to protect the national forests by extending and enhancing 
those investments. This initiative demonstrates the Forest Service's 
commitment to maintaining a healthy environment by addressing critical 
maintenance and operational components of the Forest Service. These 
funds will be a cornerstone for sustaining a healthy environment, and 
will be focused on three priorities which will: protect the investments 
made through the ARRA; implement travel management plans with an 
emphasis on decommissioning unnecessary roads; and address urgent 
health and safety needs at facilities. These strategic investments will 
reduce the agency's overall maintenance and operational costs in future 
years, result in infrastructure that is more energy efficient, and 
reduce potential harm to the environment.

                  FOCAL POINTS FOR THE FOREST SERVICE

Climate Change
    Forests and grasslands produce many ecosystem services on which our 
Nation relies: clean water, clean air, wildlife habitats, biological 
diversity, recreation, and forest products. However, research shows 
that climate change is currently stressing the Nation's ecosystems and 
their ability to provide those services. These effects are very likely 
to accelerate in the future, in some cases destabilizing these forests. 
Disrupted ecosystems could have a decreased ability to provide the 
services upon which Americans rely. Many of the most urgent forest and 
grassland management problems of the past 20 years, such as wildfires, 
changes in water quality and quantity, and expanding forest insect 
infestations, have been driven, in part, by changing climate. The 
effects and magnitude of climate change vary across the country, but we 
must act now to be able to address these issues as they arise.
    The Forest Service will use the best available science to assess 
the influence of climate change on the Nations forests and grasslands. 
We will focus on how climate change affects the forests and grasslands 
as well as how land management can influence the reduction in global 
greenhouse gases. Climate change will be integrated into land 
management plans by describing desired conditions, objectives and 
standards. The Forest Service will also continue research and 
monitoring efforts to improve our understanding of climate change.
    The budget continues support for key programs that enable the 
agency to achieve these goals. The forest and rangeland research 
request includes $27 million for research programs on climate change. 
The fiscal year 2010 budget includes $25 million for revising land 
management plans and $26 million for conducting land management plan 
assessments, which enable national forests to address climate change in 
forest planning. The fiscal year 2010 budget maintains a steady $653 
million for wildlife and fisheries management; vegetation and watershed 
management; and forest products. These programs endow the agency with 
the ability to adapt to climate change's effects on National Forest 
System lands, ensuring resilient ecosystems. In fiscal year 2010, the 
Forest Service will build on a fiscal year 2009 investment of $825,000 
to promote sustainable operations in order to reduce the agency's own 
environmental footprint.

Water
    Our society requires adequate supplies of clean freshwater as a 
source of drinking water and as an engine for both agriculture and 
industry. While freshwater is a renewable resource, it is also a 
limited resource that requires careful stewardship to ensure it will 
meet the needs of present and future generations. In the last few 
years, we have seen the threats of drought to drinking water, forests, 
and agriculture throughout the country, from California to Wisconsin to 
Georgia. With the importance of this vital resource, we must act to 
ensure we are prepared to address the increasing scarcity of clean 
water.
    The Forest Service plays a significant role in management of our 
Nation's water, given that 58 percent of our water supply originates as 
precipitation on forest lands, both on State and private lands and on 
National Forest System lands. Our agency maintains partnerships that 
address nearly 560 million acres of forested watersheds on non-Federal 
lands that provide drinking water to more than 138 million people. 
Another 70 million people get their drinking water from national 
forests and grasslands.
    To ensure that National Forest System lands can continue to be a 
source for clean water, the Forest Service will conserve, maintain, and 
restore watersheds to sustain the ecosystems they support and the 
services they provide; secure water of sufficient quantity and quality 
to sustain aquatic and terrestrial life; develop and advance knowledge 
and shared learning central to managing forest and grassland water 
resources and watershed conditions expected in the future; and 
facilitate watershed-based partnerships to foster conservation and 
citizen stewardship.
    Currently, we are finalizing an inventory of the issues affecting 
National Forest System water resources, identifying actions that we can 
take to meet this crisis head-on, and developing materials to share 
with the public and our partners.
    The Forest Service supports key programs that position the agency 
to address water-related challenges. The fiscal year 2010 budget 
includes $57 million for managing aquatic habitat and $60 million for 
maintaining and improving watershed conditions. These programs provide 
the base for efforts integrated across many other programs that secure 
ample supplies of clean water.

Kids in the Woods
    As our Nation and especially our Nation's children develop more 
sedentary or more urban habits, we risk being disconnected from our 
environment. Being active in nature establishes healthy habitats and 
creates personal connections to nature, fostering a conservation ethic. 
Our Nation's urban and rural forests offer the setting for those active 
outdoor experiences, elucidating the contribution that the Forest 
Service can make to the national movement to bring children to nature 
and nature to children.
    The Forest Service budget maintains funding to engage children in 
outdoor activities that will establish a meaningful and lasting 
connection to nature. The Forest Service has been active in youth 
contact programs for decades and is active in communities throughout 
the United States. The fiscal year 2010 budget continues a $500,000 
investment for the More Kids in the Woods cost-share award program. In 
fiscal year 2008, the program, in its second year, leveraged a 3:1 
ratio of funds on 16 projects that engaged 20,000 youth with nature. 
Beyond the work done through the More Kids in the Woods cost-share 
program, the budget provides $29 million for urban and community 
forestry and $5 million for recreation research, programs that support 
this effort. The budget continues steady funding levels for recreation 
of $280 million and wildlife interpretation and education of $9 
million, forming a base of work for this effort on national forests. In 
fiscal year 2010, the Forest Service will emphasize delivery of 
conservation education programs to underserved communities in urban and 
rural settings.

                               CONCLUSION

    The Forest Service presents its fiscal year 2010 budget positioned 
to fulfill its mission of sustaining the health, diversity, and 
productivity of the Nation's forests and grasslands to meet the needs 
of present and future generations. The budget supports the priorities 
of responsible budgeting for wildfires; of proactively addressing 
infrastructure needs to protect Forest Service facilities, roads, and 
trails; of conserving new lands; and of responding to climate change. 
This suite of monetary and management emphases enable the Forest 
Service to adapt to future challenges while continuing to conduct 
ground-breaking research, provide vital assistance to landowners and 
resource managers, and sustainably steward national forests and 
grasslands. Thank you and I look forward to our dialogue today.

    Senator Feinstein. Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Well, thank you, Madam Chair.
    And it is good to have you here, Gail. I appreciate the 
opportunity to visit with you a little bit about what is going 
on.

                       HAZARDOUS FUELS TREATMENT

    And I know that Senator Feinstein talked a little bit about 
fire, and I am going to probably spend a little more time on 
that. Real quickly, looking at the budget, there is a 14 
percent increase in fire suppression. There is a $218 million 
suppression contingency amount. There is about $2.5 billion of 
the $5.2 billion budget that is going to go for wild land fire 
management.
    In Montana, and I think fair to say in a lot of other areas 
in the United States, we are experiencing a lot of disease, a 
lot of beetle kill. I flew up from Salt Lake to Great Falls 
here a month ago, looked down. That forest is dead. It is 
primarily a different color of green than what you see, and 
that is not a good thing.
    Are those kind of dollars adequate, and I am not talking--I 
think a lightning strike and a good wind, and you are not going 
to have enough money to fight anything. It is going to burn.
    But are those kind of dollars adequate not only to take 
care of regular fires, but also, more importantly, deal with 
the forest management that has to be done in our national 
forests?
    Ms. Kimbell. Well, I probably need to preface that with 
thanking the subcommittee for your support to the Forest 
Service for including us in the ARRA and the $250 million that 
is focused on hazardous fuel reduction work on National Forest 
System lands. That will be a tremendous help through 2009, 2010 
in addressing some of those hazardous fuel loading on National 
Forest System lands.
    This budget, the 2010 budget, though, is a far better 
starting point than I have been able to present to you in my 
whole tenure as chief. It does hold vegetation management flat. 
It does hold all of the National Forest System programs 
essentially flat.
    So it doesn't increase the level of activity in forest 
management work, active management work on the ground, though 
the $250 million from ARRA will be a tremendous help.
    Senator Feinstein. We may just change that, Senator, and 
increase it.

                       COLLABORATIVE PARTNERSHIPS

    Senator Tester. Okay. And I would say this--and this is no 
reflection on you, Gail. The bar was pretty low on some of 
these previous budgets. I would just tell you that.
    So I will shift gears a little bit because I know Senator 
Feinstein has the same issues with fire in the forests that we 
do in Montana, in California, and there are other areas, too.
    I want to talk a little bit about collaborative 
partnerships and how the Forest Service views groups like 
Beaverhead-Deerlodge, Quincy Library Group (QLP), Yak, and 
Blackfoot. How do you deal with those? Do you have a set of 
operating procedures to deal with collaborative groups that 
want to help, but yet you have the job, they don't?
    Ms. Kimbell. Every one of them is different because of the 
local needs, the local interests, the local energy that people 
bring to it. We encourage all folks considering in pulling 
together a collaborative group to make it as diverse as 
possible to include the diversity of interests in those public 
lands. We really welcome the energy that comes with those.
    One that happened in Montana was the group that has been 
meeting to develop restoration guidelines for Ponderosa Pine in 
western Montana, and it was a very difficult and yet fabulous 
exercise in bringing people together from all different 
interest areas to put together a common set of restoration 
guidelines. It has been fabulous work and very, very helpful.
    Senator Tester. Are you able to utilize--I mean, I think 
these folks are an asset, from my perspective, but I don't sit 
in the chair you are sitting in. Are you able to utilize when 
they do get collaborative groups together and come up with an 
agreement? How do you utilize those recommendations?
    Ms. Kimbell. The greater the diversity in the group, the 
more useful the information. So that if a group has worked to 
include the breadth of interests that we need to include when 
we consider different activities on national forests, it makes 
it more readily transferable.

                     STIMULUS PROJECTS CONTRACTING

    Senator Tester. I wanted to ask just a little bit on the 
stimulus jobs recovery monies. Away from the fire management 
for a second, then we will get back to it. But if my time has 
run out, we can come back.
    Senator Feinstein. Please, go ahead.
    Senator Tester. Okay. We can come back to this. But those 
monies are there for two reasons. Number one, it is to get 
people employed in areas where there is high unemployment and 
depressed economic conditions. And the other thing, in your 
particular case, is to get the forests cleaned up.
    Is there any assurance that, for instance, there is a fair 
amount of money that is going to be heading up to the area 
around the Yak and Libby. Can you give me any assurances that 
those jobs for cleanup, those chainsaws that are going to be in 
the forests that are going to be doing the hazardous fuel 
reduction will actually go to anybody from that area?
    Ms. Kimbell. All of these projects that are contracted will 
be contracted using the Federal acquisition regulations. And 
so, there aren't special regulations that apply to these ARRA 
projects. We expect that given places like Libby, Troy, and 
Yak, that there are a lot of people trained in those different 
kinds of activities who can compete for those jobs. But there 
is no guarantee, no, that they will go to local people.
    Senator Tester. How is the Forest Service--how are they 
letting local residents know? I mean, the people who typically 
contract, they know all the rules. They know all the hoops to 
jump through. The guy that is trying to feed his family with a 
chainsaw sitting in his hand doesn't have a whole bunch of the 
bureaucratic experience, number one, and, number two, maybe 
doesn't even have the time because he is probably working--or 
she is probably working--several other jobs.
    So how is the Forest Service reaching out in these local 
communities to let people know how to be a part of the puzzle?
    Ms. Kimbell. And I can probably get for you something far 
more specific because what I could give you today would be 
anecdotal.
    [The information follows:]

    ARRA legislation requires that we, to the maximum extent possible, 
award contracts on a competitive basis. In doing so we cannot predict 
nor directly control who is the successful bidder. We do, however, 
award based on best value, and part of the best value evaluation is the 
economic impact on small local communities. This impact can be as a 
result of direct employment, subcontracts, and purchase of supplies 
from local sources.
    On March 10, 2009, the Director of the Forest Service Acquisition 
Management Staff sent a letter to Forest Service leadership asking that 
they be innovative in preparing projects for contracts, grants, or 
agreements funded by the Recovery Act. The letter stated the following:

    ``The Forest Service is in a unique position to focus our spending 
in communities near public lands, which are unlikely to receive funding 
from other agencies. Many of these communities have high poverty rates 
and chronically high unemployment rates. The closure of just one or two 
businesses in these areas can spike local unemployment rates.
    I encourage you to be innovative in your approach to project design 
and layout, project packaging, solicitation methods, and awarding of 
grants and agreements in order to maximize economic benefit for the 
hardest hit communities.''

    Senator Tester. That would be fine.
    Ms. Kimbell. Okay.
    Senator Tester. That would be fine. I just want to make 
sure that they have a shot. Sometimes the best-laid plans end 
up going--and I agree you have to be competitive--but if you 
don't know how to get through the door, you can't be 
competitive. That is all.
    And I am not saying that is the case here at all. I just 
want to make sure that they get a shot at it.
    Ms. Kimbell. Well, my focus with ARRA from the beginning 
has been jobs, jobs, jobs. And I know that at the local level, 
our rangers, our forest supervisors, our people in the local 
communities have been talking to people and even putting 
together their project submittals and all, looking at the 
capacity in the community and really working to play to that 
capacity.
    Senator Tester. I really appreciate that. I will tell you 
in the area I am talking about, you are talking unemployment up 
16 percent and above.
    Ms. Kimbell. Yes.
    Senator Tester. And these folks are skilled, but the wood 
products industry has tanked. You know that.
    Ms. Kimbell. Yes.
    Senator Tester. And so that we could not only put people to 
work doing good work, but these folks are used to working hard 
and they are used to working with their hands.
    So thank you.
    Ms. Kimbell. Thank you, Senator.

                          QUINCY LIBRARY GROUP

    Senator Feinstein. Thank you very much, Senator Tester.
    I would like to ask one last question on a subject that I 
have had a good deal of conversation with of your forest 
supervisors, and that is the Quincy Library Group, which has 
been a very frustrating exercise.
    You know, Quincy was supposed to be about collaboration. We 
had terrible fires up in the Lassen and the Plumas forests. And 
you had the environmentalists on one side, and you had people 
who own property, who were business people on the other. And 
so, they went to the only place where they couldn't yell at 
each other, and that was the Quincy Library. And for years, 
they worked to collaborate and work out an agreement.
    And the agreement was based on putting in firebreaks in 
areas that were critical, where you could get some timbering 
from those firebreaks but, at the same time, prevent the kind 
of catastrophic hot fire, which was now built up by the 
nonnative growth down below and really taking out the canopies 
of old growth, as well as any endangered species that happened 
to reside in those canopies. And they came up with a project, 
and now it has been lawsuit after lawsuit after lawsuit.
    So I met with some of your supervisors--interestingly 
enough, all women--and it was very interesting for me and 
wonderful to see in San Francisco recently. And we went over 
how there was effective collaboration in at least two of the 
forests and, I think, some problems in the third.
    But the bottom line was that the Forest Service has 
provided my staff yesterday acreage targets having to do with 
the Lassen, which runs around 22,000 acres; the Plumas, which 
is about 7,000 acres to be treated; and the Tahoe, which is 
about 3,900 or 4,700 acres. And yet there are a number that 
still need to be agreed upon.
    And I would like to ask for your oversight in seeing that 
that gets done. Again, the worry is that we have another 
catastrophic fire, and this has been years and years of trying 
to work this out.
    Ms. Kimbell. And Senator, last year, I had the opportunity 
to be there on the Shasta-Trinity National Forest and then on 
the Plumas during that great big fire event following the June 
21 lightning storm. And I got to be in one of those areas where 
the Quincy Library Group had struggled for so long to come to 
agreement as to how it might be managed, and it had finally 
made it through all the legal process and then got caught up in 
one of those fires and burned hard. Burned very, very hard.
    I was there with the forest supervisor and the district 
ranger, and that was----
    Senator Feinstein. So if we had done it 10 years ago, when 
we tried to do it?
    Ms. Kimbell. The fire may not have been as big as it was or 
as hot as it was, and the damage that it did to the watershed. 
So this year, we are expecting to treat overall with Quincy 
Library Group 30 projects, 18,000 acres, and there is the 
potential for more if there are some things that can work 
through the collaboration. And we are very hopeful.
    Senator Feinstein. Let me ask you, is that enough to keep a 
mill alive and the jobs or not?
    Ms. Kimbell. It is 150,000 million board feet. That is a 
lot of wood, and yet given the market conditions across the 
country, it is still very difficult to keep a market alive when 
the Random Lengths Index is so very low. And with all the 
announcements that have been coming from California and from 
Montana about the competitiveness in the world, it really makes 
it hard to keep a mill open in the United States.
    Senator Feinstein. I just want to say I very much welcome 
your oversight and trying to push people. You know, there is an 
effort at collaboration. There is an effort at compromise.
    Ms. Kimbell. Yes.
    Senator Feinstein. And it seems to me that unless--if this 
fails, the only alternative is for us to go ahead with very 
stringent legislation like a categorical exemption, which 
nobody wants to do. But that is all we are left with if these 
fires keep happening, and you have got the collaboration 
between the environmentalists and others to try to solve the 
problem and they can't solve the problem.
    Ms. Kimbell. And we very much want QLG to be successful, as 
well as a number of other collaborative groups. These are 
people giving their own time, coming together weekend after 
weekend or Tuesday night after Tuesday, drinking bad coffee 
to--well, I don't know. Maybe they drink good coffee?
    Senator Feinstein. I have spoken to Senator Tester about 
this, and he has the same issues in his State. There, he really 
believes that collaboration is going to work, and I hope that 
is true because there are so many problems in these forests.
    Ms. Kimbell. Yes, and having the social license to be able 
to do the work we need to do to be able to avoid this kind of 
catastrophic damage that we have been seeing over the last 10 
years from wildfire is very, very important. We need to have a 
market that will be able to use these materials that we remove, 
and we need to have the social license to be able to remove 
those materials.
    And these collaborative groups have been a tremendous help 
in moving some of that forward.
    Senator Feinstein. That is right. Thank you.
    Senator, do you have additional questions?
    If I may, I am going to turn this hearing over to you----
    Senator Alexander. And I will be right behind you.
    Senator Feinstein [continuing]. And then if you have to 
leave?
    Senator Alexander. Jon, do you have any other questions?
    Senator Tester. I don't. Thank you.
    Senator Feinstein. I have to go to the floor. So----
    Senator Alexander. Well, I don't really have another 
question. I think you have been very helpful.
    Thank you, Madam Chair.
    Senator Feinstein. May I say thank you, Chief, very, very 
much. I have come to watch you and know you over the years and 
really believe you are doing a good job.
    Ms. Kimbell. Thank you, Madam Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. And I want to thank all of your staff 
and people for this. American forests are very important to us, 
and the work you do is very much appreciated.
    So thank you, and thank you very much.
    Ms. Kimbell. Thanks so much, Madam Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

                                 FUELS

    Question. Since 2006, more than 3 million acres have burned in my 
home State of California alone. It's clear that more progress must be 
made to treat hazardous fuels in order to deal with the dead, dying, 
and downed trees on our national forests. How many high-priority acres 
does the Forest Service have nationwide that require treatment? How 
much progress has the agency made toward treating these priority acres?
    Answer. The LANDFIRE project will provide a national appraisal of 
vegetative conditions and provide information which will allow the 
agency to make an informed assessment of the number of high-priority 
acres that need to be treated to mitigate the wildfire situation. 
Between fiscal years 2000 and 2008, the Forest Service treated more 
than 17.6 million acres of hazardous fuels nationwide across National 
Forest System lands. Treatments were conducted in high-priority areas 
to create or maintain conditions that are at a reduced risk of 
catastrophic fire. Additional funding has been provided to the States 
to reduce fire hazard on State and private lands.

                         FIREFIGHTER RETENTION

    Question. As you know, the subcommittee provided $28 million this 
fiscal year to fund recruitment and retention initiatives for areas 
like California that face staffing shortages. I have not yet received 
the final spending plan for these funds required by the 2009 Interior 
bill. What are the details of how the money will be used? How are you 
using these funds to ensure your firefighting corps is fully staffed, 
and why did you select the initiatives you chose? What evidence do you 
have that these initiatives are working?
    Answer. The Forest Service appreciates the patience of the 
Appropriations Committee in allowing the agency to develop a 
comprehensive recruitment and retention plan. The regional forester 
implemented a process across the State with line officers and employees 
to identify integrated elements for retention within his authority in 
four areas: mission related to fire suppression, workplace improvement, 
fire facilities, and pay. The approaches taken are expected to improve 
firefighter retention within the region and will be monitored to ensure 
their effectiveness. The region's efforts include:
  --Fire Suppression Mission.--The regional forester has reiterated the 
        Agency's fire suppression focus for National Forest System 
        lands and his commitment to agency policy, and the 2008 
        Wildland Urban Interface Operating Principles. Additionally, 
        the Regional Forester has reiterated the Agency's role in ``all 
        risk'' missions based on Homeland Security Presidential 
        Directive 5, including the expectation that Agency 
        participation in medical response should be by exception, and 
        not the rule.
  --Workplace Improvement.--The regional forester will implement a wide 
        range of actions including increased opportunities for 
        leadership training at all levels, authorizing additional 
        administrative and technical support personnel at local units, 
        authorizing the promotion of apprentice employees to GS-5 
        within the program, and authorizing permanent, seasonal tours 
        for firefighters outside of the Apprentice program to be 
        adjusted to permanent full-time tours (for those employees 
        wishing to do so).
  --Fire Facilities.--A list of projects that would have an impact 
        toward improving health, safety, and mission capacity has been 
        developed. Once funding is available, the regional forester 
        will provide direction to implement these projects. In the long 
        term, the regional forester will direct the region to complete 
        the strategic facility master plan, which will allow fire 
        facility needs to be analyzed on a regional scale instead of 
        the forest-by-forest process currently in place.
  --Pay.--The regional forester has taken actions within his authority:
    --Firefighter Seasonal to Permanent Full-time Tour Conversion.--On 
            March 4, 2009, the regional forester authorized forest 
            supervisors to convert permanent seasonal firefighter 
            positions to permanent full-time. Permanent seasonal 
            firefighters are those employees who normally work 6-9 
            months per year and are in a nonpay status for the balance 
            of the year. Approximately 1,555 positions are eligible for 
            the conversion, but more than 700 of those positions are 
            currently vacant and reserved for apprentice firefighters 
            who are ineligible for conversion. Apprentices will be 
            placed into those vacancies as permanent full-time 
            firefighters upon completion of their training. In fiscal 
            year 2010, the region estimates that approximately 780 
            formerly seasonal positions will have been converted to 
            full time resulting in an increased cost to the region of 
            about $9.5 million. In future years, as employee retention 
            levels increase and apprentices graduate into current 
            vacancies, the number of formerly seasonal positions that 
            have been converted to full time will increase annual costs 
            to the region. The potential increased costs to the region 
            could rise as high as $21.5 million a year if all 1,555 
            positions are eventually converted. However, these 
            employees will be available to perform project work in 
            ecosystem restoration, hazardous fuels reduction, biomass-
            to-energy, and other important agency priorities.
    --Firefighter 10 Percent Retention Incentive.--On March 1, 2009, a 
            10 percent retention incentive for GS-5 through GS-8 
            firefighters was authorized. Thirteen hundred (1,300) 
            firefighters received the benefit, which will continue to 
            be reflected in employees' paychecks. The current 
            authorization is for 1 year (26 pay periods). The retention 
            incentive will be reviewed prior to expiration in 2010 to 
            determine if it is having an effect on attrition patterns. 
            The additional cost for the 10 percent retention incentive 
            for 1 year is approximately $7 million.
    In addition, the agency is assessing the options of a new wildland 
firefighter series and a special salary rate for California. Both of 
these options will require Office of Personnel Management approval. The 
agency will evaluate the effectiveness of the recruitment and retention 
plan actions with two metrics. First, the region will assess vacancy 
rate trends in GS-6 through GS-8 positions. Second, agency will monitor 
the resignation trends of firefighters.
    Question. Does the Forest Service plan to renew retention efforts 
in California for the coming fiscal year, fiscal year 2010? Your budget 
request didn't include funds to continue retention initiatives and, in 
fact, flat-lined the fire preparedness budget at $675 million. If the 
Forest Service plans to continue these efforts, how do you propose to 
pay for them?
    Answer. The agency will assess the effectiveness of the regional 
recruitment and retention actions at the end of the fiscal year. The 
actions taken this year will increase annual baseline costs. We expect 
that any actions will be funded through regional program funding 
allocations along with carryover from the original earmark of $25 
million to cover the costs of renewing the 10 percent retention 
incentive and the projected promotion of permanent seasonal employees 
to permanent full-time status.
    Question. It is my understanding that the Forest Service is also 
continuing to look at other potential, long-term retention strategies, 
which include a special pay rate, a firefighter GS series, and a 
portal-to-portal pay system. Please provide me with specific updates on 
what steps you are taking to consider each of these strategies, 
including a timeline for review and decisionmaking for each. Please 
include any information that is available on current cost projections 
for implementing each of these strategies.
    Answer. The agency is looking at several long-term strategies.
  --Firefighter Series.--The agency is nearly finished assessing 
        options and estimating the workload necessary to develop a 
        proposal for a new wildland firefighter job series. The 
        assessment requires an extensive job analysis to determine job 
        requirements and is a Service-wide effort being coordinated 
        with other wildland fire agencies in the Department of the 
        Interior. Once the job analysis and proposal is completed, 
        Office of Personnel Management (OPM) will make the final 
        determination. Completing the analysis and gaining approval 
        from the OPM will take time.
  --Special Salary Rate.--The Forest Service currently has a special 
        salary rate for wildland firefighters in certain southern 
        California counties. For most GS grades (GS-3 through GS-9), 
        the special salary rate is slightly above the locality pay for 
        these areas. For GS grades starting at the GS-10, the locality 
        pay is actually higher than the special rate in both the Los 
        Angeles and San Diego area. The agency is currently analyzing 
        the effect of the current special salary rate and whether a 
        special salary rate for the rest of California would affect 
        recruiting and retaining firefighters. The analysis will 
        consider effects from the 10 percent retention incentive. 
        Similar to requirements for a new firefighter series, the OPM 
        requires a rigorous analysis and justification for any new 
        special salary rate. The analysis will take time for the agency 
        to prepare and work with the OPM.
  --Portal-to-Portal Pay.--This option is not being considered by the 
        agency at this time.
    The cost for each of these is not known.
             marijuana enforcement on national forest lands
    Question. Over the past 3 years, I've worked to increase the Forest 
Service's law enforcement budget by $25 million to fight marijuana 
cultivation on national forests. I'm extremely concerned that 
cultivation sites continue to be a danger to public safety, as these 
gardens are often guarded by armed drug traffickers. What progress have 
you made in eradicating these marijuana gardens? Please provide 
relevant statistics, both nationally and for California only, to 
support your response (i.e., number of plants eradicated, number of 
arrests made, number of prosecutions, etc.).
    Answer. The Forest Service has made the following progress in 
eradicating the marijuana gardens both nationally and for California as 
follows:

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                           Nationally                                  2006            2007            2008
----------------------------------------------------------------------------------------------------------------
Marijuana plants eradicated.....................................       1,221,989       2,050,368       3,295,870
Sites eradicated................................................             497             462             714
Sites tended by foreign nationals...............................             216             256             245
Felony drug arrests.............................................             327             319             424
Firearms seized.................................................             249             274             330
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                      Region 5 (California)                            2006            2007            2008
----------------------------------------------------------------------------------------------------------------
Marijuana plants eradicated.....................................       1,060,114       1,878,589       2,655,916
Sites eradicated................................................             250             328             437
Sites tended by foreign nationals...............................             197             241             208
Felony drug arrests.............................................              78              78             198
Firearms seized.................................................              37              71             154
----------------------------------------------------------------------------------------------------------------

    Question. I am very concerned about natural resource damage caused 
by marijuana gardens. I believe that efforts to clean up these sites 
will require dedicated funding. In fiscal year 2009, I provided a 
$500,000 increase to your budget specifically to clean up national 
forest lands after drug eradication operations. How will the funds be 
used? Did you continue these funds in your budget request?
    Answer. The fiscal year 2009 Omnibus Appropriation Act earmarked 
$500,000 for rehabilitation of drug cultivation sites. This earmark was 
distributed in the final allocation based on each region's percent of 
cultivation sites identified in the LEIMARS database. The following 
regions received additional funding for restoration of drug cultivation 
sites: region 3--$10,000; region 4--$15,000; region 5--$310,000; region 
8--$140,000; and region 9--$25,000. Regions were also provided 
direction that additional vegetation and watershed management program 
funds may be utilized for rehabilitation of drug cultivation sites, 
based on regional watershed restoration objectives and priorities. In 
addition to these funds, regions should utilize minerals and geology 
management program funds for the clean-up of sites contaminated with 
hazardous materials.
    The fiscal year 2010 President's budget request increased funding 
for watershed restoration activities from $57.1 million in fiscal year 
2009 to $60.2 million in fiscal year 2010. Accomplishment of drug site 
restoration would be prioritized along with other watershed restoration 
needs, including those generated by wildfire and other natural events. 
Watershed restoration needs in high-priority watersheds, such as 
municipal watersheds will receive priority for available restoration 
dollars; and this will include treatment of drug cultivation sites with 
the potential to impact water quality in these watersheds.
    Question. How much additional funding is needed to clean up 
remaining cultivation sites, both nationally and in California?
    Answer. The agency will address reclamation and restoration with 
available funding on a priority basis. Cost for individual site 
reclamation will vary greatly, and a comprehensive assessment of these 
costs has not been completed. These sites create extensive resource 
damage, such as terraced soils, access trails; stream diversions; 
vegetation and timber removed, hazardous chemicals and buried 
irrigation systems.

                      FIREFIGHTING AVIATION NEEDS

    Question. The Forest Service primarily depends on an aging fleet of 
old military P2-V and P-3 aircraft to serve as air tankers for initial 
attack on wildfires. The Forest Service is currently contracting 18 air 
tankers to fight fires--that's down from a peak of 44 aircraft in 
2002--and I am very concerned that you continue to lose more aircraft 
each year to accidents and airworthiness concerns. How long will the 
rest of your air tanker fleet be able to fly safely? Please provide 
specific data for both types of aircraft.
    Answer. The P-3 is currently supported by the manufacturer, 
Lockheed Martin, which provides service life extension programs for 
these aircraft as they approach retirement. The P2-V, however, is not 
supported by a manufacturer. We anticipate that P2-V fleet could be 
expended as early as 2022. Aircraft accidents continue to reduce 
airtanker numbers by approximately .5 aircraft per year.
    Question. What role will the Modular Airborne FireFighting System 
(MAFFS) II units need to play as the Forest Service's air tanker fleet 
ages?
    Answer. The MAFFS program has traditionally provided additional 
capacity for the Forest Service and our interagency partners. The MAFFS 
II is a significant improvement in design and operational 
effectiveness. We are looking forward to continued partnership with the 
military and the MAFFS II tanks. At this time we do not anticipate 
needing additional MAFFS units to support the wildland fire program.
    Question. In 2005, the subcommittee directed the Forest Service to 
review its fleet and analyze future firefighting aviation needs. I 
understand that effort led to the development of a new firefighting 
aviation strategy, including recommendations that pertain to the future 
of the Forest Service's air tanker fleet. You have not yet made this 
strategy public. What is the administration's timeline for the release 
of this strategy? When will you make a copy of this strategy available 
to the subcommittee and to the public?
    Answer. The Forest Service, in cooperation with our interagency 
partners, has completed an extensive Interagency Aviation Strategy 
calling for replacement of critical firefighting assets. This document 
has been forwarded to the Acting Deputy Undersecretary for Natural 
Resources and Environment, USDA for discussion. Once discussion and 
review is complete we anticipate a decision.

                            CABIN USER FEES

    Question. What is the total annual cost to the Forest Service for 
administering the recreation residence program for each of the past 5 
fiscal years, including projected costs for fiscal year 2009? How many 
full-time employees (FTE) does the program require? Please provide the 
basis for how the costs were calculated, and separate out direct and 
indirect costs.
    Answer. The Forest Service accounting system does not distinguish 
the cost of performing recreation residence permit administration from 
the cost of processing and administering recreational permits overall. 
In fiscal year 2009, the total for the administration of recreation 
special use authorizations is estimated at $43.1 million and 338 FTEs. 
Of that planned amount, approximately $6.7 million are indirect costs 
or about 15.5 percent. The fiscal year 2009 estimate for administering 
recreation special uses overall is based on regions' capability data. 
The indirect cost estimate is based on fiscal year 2008 actual 
expenditures and that same indirect cost percentage is applied to 
fiscal year 2009 planned levels.
    Question. What are the real and projected costs to the Forest 
Service for implementing the Cabin User Fee Fairness Act of 2000 
(CUFFA) for the past 5 fiscal years, including fiscal year 2009? How 
much is budgeted for fiscal year 2010? Please separate direct and 
indirect costs.
    Answer. The cost of implementing the CUFFA is reflected in the 
direct appraisal costs estimated at $7 million from fiscal year 2007 
through fiscal year 2012 and an additional $1.3 million in indirect 
costs. CUFFA did not result in a significant increase in direct 
appraisal costs per appraisal cycle, but by requiring appraisals every 
10 years as opposed to the previous policy of every 20 years, CUFFA 
effectively doubled these costs. Indirectly, CUFFA resulted in a 
significant amount of time and money devoted to the writing of 
regulations, meeting with interested parties, and responding to the 
controversy generated by its implementation. The agency does not 
separately track these costs, as it is part of overall recreation 
permit program costs.
    Question. Specifically, what are the costs of new appraisals to 
implement CUFFA in fiscal years 2007, 2008, and 2009? What appraisal 
costs are budgeted for fiscal year 2010? What is the expected total 
cost of an entire appraisal cycle for all forests? Please explain how 
the overall CUFFA implementation costs and the appraisal costs were 
determined.
    Answer. Costs of new appraisal are spread out from fiscal year 2007 
through fiscal year 2012. Our accounting system does not split out 
these specific costs, but the agency has developed the following 
estimates based on known direct contract costs and review appraiser 
costs, and then projecting forward. An estimated additional $1.3 
million more than fiscal year 2007-fiscal year 2012 is estimated for 
indirect costs.

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                      Direct         Indirect
                           Fiscal year                               estimate        estimate     Total estimate
----------------------------------------------------------------------------------------------------------------
2007............................................................           1,600             300           1,900
2008............................................................           1,800             300           2,100
2009............................................................           1,600             300           1,900
2010............................................................           1,000             200           1,200
2011............................................................             600             100             700
2012............................................................             400             100             500
                                                                 -----------------------------------------------
      Total.....................................................           7,000           1,300           8,300
----------------------------------------------------------------------------------------------------------------

    Question. How much revenue did the Federal Government receive from 
the fees paid for recreation residence permits in fiscal year 2008? 
Under current law and policies, how much revenue is the Federal 
Government projected to receive from fees paid for recreation residence 
permits in each fiscal years from fiscal year 2009 to fiscal year 2014?
    Answer. In fiscal year 2008, revenue received was $14.6 million. 
Assuming there is little change in fees from second appraisals and 
assuming the increase indicated from the completed appraisals is 
representative for the whole, the agency projects $40 million in annual 
fees upon full implementation. The last appraisals will be reviewed in 
fiscal year 2012 and will begin a 3-year phase-in in fiscal year 2014. 
Breaking out the increase over the intervening years would indicate the 
following estimates.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2009........................................              20
Fiscal year 2010........................................              22
Fiscal year 2011........................................              24
Fiscal year 2012........................................              26
Fiscal year 2013........................................              32
Fiscal year 2014........................................              35
------------------------------------------------------------------------

                                 ______
                                 
                Question Submitted by Senator Judd Gregg

                         FOREST LEGACY PROGRAM

    Question. As you know, in the East, we feel very strongly about the 
need for funds to help us leverage purchases to protect land, and the 
Forest Legacy program is a vital part of that. The administration's 
fiscal year 2010 budget includes $1 million for a new, Community 
Forests Program within Forest Legacy. Is the Forest Service committed 
to ensuring robust funding for the Forest Legacy program and also 
ensuring that funding levels for successful existing programs, such as 
Forest Legacy, will not be adversely impacted as a result of funding 
for new programs?
    Answer. Both the Forest Legacy and Community Forests programs are 
important conservation tools that the Forest Service uses to conserve 
important open space and forest resources. In addition to the $1 
million for a new Community Forests program within the Forest Legacy 
program, the President's budget also included $34 million for the 
President's ``Conserve New Lands'' initiative. This new initiative 
reflects the administration's priorities in land conservation. The 
commitment to the program is also reinforced through the participation 
from States; in fiscal year 2010, 44 States submitted 87 projects with 
a value of $194 million. While the Forest Service is dedicated to all 
of its programs, it is explicitly committed to fulfilling the 
President's goals with respect to this new effort.

                           SUBCOMMITTE RECESS

    Senator Feinstein. The hearing is recessed.
    Ms. Kimbell. Thank you.
    [Whereupon, at 10:48 a.m., Wednesday, May 20, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        WEDNESDAY, JUNE 3, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:49 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Dorgan, Reed, Tester, and 
Alexander.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. KEN SALAZAR, SECRETARY

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. The hearing will come to order, and I 
would like to say good morning to everyone. And I would 
particularly like to say this is our third and final budget 
hearing before the Interior subcommittee.
    This morning, we are honored to have our distinguished 
former colleague and now Interior Department Secretary Ken 
Salazar. Mr. Salazar said when I met him in the hall, ``Are you 
going to give me a bad time this morning?'' And I said, ``How 
can we give you a bad time?'' Right?
    I mean, I think most of us in the Senate that have worked 
with Senator Salazar believe he is really a wonderful person, 
and we are so delighted that he is Secretary of the Interior. 
So this hearing should be a piece of cake.
    Joining the Secretary at the witness table this morning is 
Pam Haze, the Department's Budget Director. And so, I would 
like to say good morning to you, Ms. Haze. And it is a pleasure 
to see you again as well.
    Mr. Secretary, the budget request you are presenting today 
totals $10.98 billion. That is an increase over last year's 
level of $904 million, or 9 percent. This is the largest budget 
increase in the past several years and represents a real push 
in the right direction in several important areas.
    First, I would like to thank you very much for requesting 
full funding for the fire suppression account. Those of us in 
the West truly know its value. The $445 million in the Interior 
budget, along with the $1.4 billion in the Forest Service 
budget, brings the administration's total fire suppression 
request to $1.8 billion. That is the same amount actually spent 
on average on each of the 3 prior fiscal years.
    So this means that, if we are lucky, neither agency will 
have to borrow from its nonfire accounts, which happens every 
year, and then hope and pray that the Congress replenishes 
these funds. That is not a good way to do business, and I would 
like to applaud you for stepping up to the plate and 
acknowledging what fire suppression really costs.
    I would also like to thank you for allocating for full 
fixed costs within your budget. As a former mayor, I know that 
setting aside funds to pay for such things as increased rent, 
utilities, and employee healthcare costs are not the fun things 
we like to put in our budgets.
    But the fact is that over the past 8 years, the Department 
has absorbed more than $500 million in unfunded fixed costs, 
and that just can't keep going on and on.
    That money came out of programs just the same as if the 
cuts had been proposed up front. So congratulations on 
reversing that trend.
    There are also substantial increases in funding for the 
Land and Water Conservation Fund, for the National Park 
Service, for energy development, and for a climate change 
initiative. All in all, you have presented us with a robust 
budget, and I think in whole that this will be favorably 
received.
    In the interest of time, Mr. Secretary, I am not going to 
go through every line in your budget, but I will say that I 
hope to engage you in questions on renewable energy 
development, abandoned mines, and drugs on public lands.
    I would now like to recognize my very distinguished ranking 
member. I welcome him to this position and enjoy working with 
him, Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thank you, Madam Chairman.
    Secretary Salazar, welcome back. It is good to see you, as 
the chairman said. We miss you, but we are glad you are able to 
make the contribution that you are today.
    I will reserve most of my comments until question time. But 
let me just mention the areas in which I am especially 
interested.
    You and I worked together on the Land and Water 
Conservation Fund, had a little success on that across the 
aisle in finding a permanent source of funding for Land and 
Water Conservation Fund. I hope that is one of your legacies as 
Secretary of the Interior, and I would like to work with you on 
that.
    I would like to talk with you a little bit about the 
funding for the Great Smoky Mountains National Park, which has 
two or three times the visitors of some of our other popular 
parks, but about half the funding just because of circumstances 
of history.
    I would like to ask you a question about helicopter 
overflights in the parks. It seems like a small item, but there 
are supposed to be plans developed for dealing with those 
things. And since the law was passed in 2000, no plans have 
been developed. I would like to find out what we can do to move 
that ahead.
    And then picking up on what the chairman said, I have got 
some questions about what I would call the upcoming renewable 
energy sprawl. Those aren't my words. Those are the words of a 
conservation group.
    We all want renewable energy, but the landscape is an 
important part of the environment as well. And you come from a 
beautiful State. I do, too. The chairman does, too. And we want 
to make sure that before we embark on these renewable energy 
projects, they are massive in size, and we know what we are 
doing and that we take time to make sure we don't destroy the 
environment in the name of saving the environment.
    And I hope another of your legacies is to take the words 
that you used when you slowed down the Utah oil and gas lease 
sales. You talked about responsibly developing oil and gas 
supplies in a thoughtful and balanced way that allows us to 
protect our signature landscapes and cultural resources. That 
applies to oil and gas, but also applies to large solar plants, 
to wind turbines on ridge tops, to how close to the shore we 
would put wind turbines as you authorize them. And that will be 
another area of my questions.
    But welcome. I look forward to working with you.
    I thank the chairman.<greek-l>
    [The statement follows:]



                        INSERT 6A FOLLOWS-- deg.

    Senator Feinstein. Mr. Secretary, welcome. We very much 
would like to hear from you.

                 SUMMARY STATEMENT OF HON. KEN SALAZAR

    Secretary Salazar. Thank you very, very much, Chairman 
Feinstein and Ranking Member Alexander. Both of you are great 
Senators and great former colleagues and present colleagues of 
mine because I view my role as Secretary of the Interior as 
being interwoven with the work of your subcommittee and your 
leadership and the work of your great staff.
    We have many chapters to write together in the years ahead 
on issues that I know we share a common value. The issues that 
we are working on are not Democratic or Republican issues, they 
are issues for America and for all of our population.
    I appreciate the opportunity to appear before you today, 
and I have a statement that I will submit for the record. And I 
would like, if it would be okay with the chairperson, to make a 
few comments about the budget overall and my priorities?
    Senator Feinstein. It would. Please proceed.
    Secretary Salazar. When I came into the position of 
Secretary of the Interior, one of the things that I wanted to 
do was to make sure that the people of this country understood 
the responsibilities of this Department. It truly is the 
Department of the Americas. We have responsibilities for 20 
percent of the landmass of the United States, and 1.75 billion 
acres of the Outer Continental Shelf (OSC), and we have 
responsibilities that go from pole-to-pole and include the 
territories of the United States.
    Some, I think, in the past have felt the Department was 
only a department for the West. But as Senator Alexander knows, 
the Great Smokies are one of the icons of our National Park 
System. The wildlife refuges of Florida or the great parks and 
assets that we have in California and the tribal issues that we 
have all over this country really mean that we are enmeshed in 
all of the great issues that cover our landscapes and the 
peoples of America.
    One of the first things I did was I went to the Statue of 
Liberty because I wanted to make sure that people understood 
that this Department was a department of the United States of 
America.
    Within the work that President Obama has asked me to do on 
behalf of this administration are the following five 
priorities, and I look forward to working very closely with all 
of you on these issues.

       CREATING A NEW ENERGY FRONTIER AND TACKLING CLIMATE CHANGE

    The first is creating a new energy frontier and tackling 
the challenges of climate change. This budget reflects our 
priorities with respect to renewable energy, how we move 
forward to harness the power of the sun, the power of 
geothermal, the power of the wind, but to do it in an 
environmentally conscious way.
    We are, as Senator Alexander spoke about and with respect 
to the statement that I said on the Utah lease sales, making 
sure that as we move forward with the development of a 
renewable energy world, which we are going to develop, that we 
are also thoughtful and mindful of making sure that we are 
protecting those landscapes that both of you have fought so 
hard for so many decades and which I believe are very much an 
important part of my role as Secretary of the Interior.

                          TREASURED LANDSCAPE

    Second, I will work very hard to establish a treasured 
landscapes agenda for the United States of America. At the 
request of Senator Alexander a few weeks ago, maybe a few 
months ago now, I met with Henry Diamond and a number of other 
people who were involved in the original creation of the Land 
and Water Conservation Fund.
    When one looks back at those conversations that took place 
in the Secretary of the Interior's office with Stewart Udall, 
you are left with a sense, given our fights together here to 
put funding into a Land and Water Conservation Fund (LWCF), 
that there truly has been a breach of the trust with the 
American people relative to the investment of resources that we 
have gotten from the Earth, which belongs to the American 
people in the form of public lands.
    When LWCF was created, the thought was that we would take 
royalties from offshore oil and gas development, as well as 
some from onshore, and we would create a trust fund from which 
would flow the investments to make the landscapes that both of 
you have fought so hard to protect a reality. The fact is, last 
year, we raised about $24 billion through the activities of the 
Minerals Management Service (MMS) and the Bureau of Land 
Management (BLM), and at the end of the day, there was only 
$255 million that was appropriated from the Land and Water 
Conservation Fund.
    I will look forward to working with both of you, working 
with the White House, and working with our colleagues in the 
House to take a moon shot with respect to investing in the 
treasured landscapes of America. That will take us to the 
restoration of great places like the Bay Delta in California 
from an ecosystem perspective, to the Chesapeake Bay, to what 
we do in the Everglades, to the kinds of investments that, 
Senator Alexander, you want to make in the heritage and future 
of the Great Smoky Mountains National Park.
    And so, there is a great agenda that I want to work on with 
you all.

                 21ST CENTURY YOUTH CONSERVATION CORPS

    Third, I will help usher in with all of you, a new 21st 
century Youth Conservation Corps that reflects the realities of 
our times here in the 21st century. We need to get our young 
people connected to our landscapes in terms of environmental 
education and understanding the importance of stewardship.
    This budget reflects that priority, for example, by 
allocating $30 million for hunting and fishing programs for 
young people in the form of a grant program that will be made 
available to the States. It also includes $20 million for 
educational and service programs for young people in the 
Department of the Interior.
    This summer alone, based on money that you made available 
and direction that we had from you and others here in the 
Congress, we will have 15,000 young people that will be working 
with us in the Department of the Interior, helping us restore 
trails and doing other kinds of service that are important in 
terms of engaging young people.

                 EMPOWERING NATIVE AMERICAN COMMUNITIES

    Fourth, we will do everything we can to empower the 
Nation's Native American communities. The issues of law 
enforcement, economic development, and education are huge 
challenges for Native Americans all across this country. Those 
issues are addressed in this budget by adding additional 
resources in law enforcement and in education. They build off 
of the investments that we made through the Recovery Act into 
those agendas.
    Assistant Secretary of Indian Affairs Larry Echo Hawk and I 
have already had several meetings on his first week of the job 
where we are moving forward with respect to the agenda on our 
Native American communities.

                                 WATER

    Finally, I will work very hard to help address some of the 
vexing water problems that face us that are connected to how we 
deal with taking care of our wildlife and our plant species. 
The Bay Delta in California is a great example of one of those 
very complex water supply issues, which also has many other 
facets to it. The issues between Florida, Georgia, and Alabama 
with respect to the allocation of water on their rivers is also 
one of those issues that we will work on.
    Those are some of my priorities. I am proud of the budget 
that we have presented to all of you. I look forward to working 
with you in the days to come.

                           PREPARED STATEMENT

    I appreciate the confirmation that you gave to Assistant 
Secretary for Policy, Management, and Budget Director Rhea Suh. 
Rhea Suh comes here, I think, in her first day on the job 
today, to hear the testimony before us.
    Rhea, I think you are here. Here she is. I want to 
introduce Rhea because she will be working with us on a lot of 
these issues.
    Thank you very much.
    [The statement follows:]

                   Prepared Statement of Ken Salazar

    Chairman Feinstein and members of the subcommittee, I am pleased to 
be here today to present the details of the 2010 budget request for the 
Department of the Interior (DOI). I want to thank the Chairman and this 
subcommittee for its interest in and support for Department of the 
Interior programs, most notably those that ensure the stewardship of 
the Nation's natural and cultural resources and our special 
relationship with Native Americans and Insular Areas. Your interest in 
this department and support for Interior's programs has helped to build 
a strong foundation for a clean energy future and to tackle climate 
change impacts, conserve our treasured landscapes, and empower Native 
American communities. I look forward to working closely with this 
subcommittee to build on that foundation.

                              INTRODUCTION

    I am honored to serve as the 50th Secretary of the Interior and to 
oversee this Department and its 67,000 dedicated employees. Our 
expansive mission stretches from coast to coast. It spans the continent 
from the subtropical Everglades in Florida, west across 12 time zones 
to the insular areas in the Pacific, and north to the vast tundra in 
Alaska. Our land and community-based programs touch the lives of most 
Americans, including 1.7 million Native Americans and Alaska Natives.
    Interior manages 500 million acres or about 1 in every 5 acres in 
the United States, including 391 National Park units, 550 wildlife 
refuges, the 27 millionacre National Landscape Conservation System, and 
other public lands. These places are treasured landscapes and serve as 
economic engines for tourism and growth opportunities for recreation, 
wildlife conservation, and responsible resource use.
    The Department's public lands and 1.7 billion acres on the Outer 
Continental Shelf (OSC) supply nearly one-third of the Nation's 
domestic energy production. These resources are vital to the Nation's 
energy security and provide economic returns to the Nation. In 2010, an 
estimated $14 billion in revenues will be generated from these lands 
and waters.
    The Department fulfills its special responsibilities to Native 
Americans managing one of the largest land trusts in the world 
including over 56 million acres held in trust for Indian tribes and 
individual Indians, over $3.4 billion of funds held in over 2,700 trust 
accounts for approximately 250 Indian tribes, and over 380,000 open 
Individual Indian Money accounts. The Bureau of Indian Education (BIE) 
school system provides services to approximately 42,000 students in 23 
States attending 183 elementary and secondary schools and supports 30 
tribally controlled community colleges, universities, and postsecondary 
schools.
    The Department of the Interior is truly the department of America. 
We are uniquely positioned to provide enduring benefits to the American 
people. Our 2010 budget will allow us to make wise and prudent 
investments that will allow us to maximize opportunities to realize the 
potential of our lands and waters, resources, and people.

                           THE FIRST 100 DAYS

    Today I celebrate my 134th day as the Secretary of the Interior. It 
has been an exciting time as we have begun to impact how the Department 
of the Interior does business. We have already implemented changes to 
improve accountability, transparency, and ethical reform; established a 
vision for a new energy frontier that will help to produce and transmit 
renewable energy from our public lands while protecting our treasured 
landscapes and environmental quality; set an agenda for protecting 
America's open spaces and treasured landscapes with stewardship and 
enhanced climate impacts management based on sound science; started 
restoring the Government-to-government relationship with Indian tribes; 
announced a new 21st Century Youth Conservation Corps; and implemented 
the President's economic recovery plan.
    We have released detailed implementation plans for $3 billion 
appropriated in the American Reinvestment and Recovery Act that could 
create as many as 100,000 jobs in communities across the Nation, while 
significantly improving the safety and energy efficiency of our 
facilities; the state of our roads and trails; and habitat for wildlife 
including endangered species. This funding will also help to 
significantly accelerate efforts to realize the clean energy potential 
of our public lands by funding environmental planning, studies, and 
analyses.
    Thanks to your support, the Recovery Act provided $2 billion for 
the programs funded by this subcommittee. Over 40 percent of these 
funds will be spent on deferred maintenance projects including road and 
trail maintenance, and 35 percent will be spent on construction and 
capital improvement projects. We are building and repairing Indian 
schools, stabilizing America's signature park structures, retrofitting 
our buildings to improve energy efficiency, restoring landscapes for 
wildlife and people, correcting safety hazards such as abandoned mines, 
and clearing trails. These projects will stimulate local economies 
across the Nation by providing employment opportunities and will make 
our parks, refuges and public lands more welcoming for over 450 million 
people that visit our lands each year.
    Throughout the development of our Recovery Act program, I worked 
closely with the Bureaus to encourage them to find the most meritorious 
projects. I believe that we have chosen well and that our projects will 
maximize job creation, help to stimulate the economy, meet the 
prescribed timeframes for completion, provide lasting benefits, and 
make you proud that you invested in our programs.
    Our Recovery Act investments in the Bureau of Land Management (BLM) 
will lay the groundwork for a critical national priority--achieving a 
clean and independent energy future. BLM will jump-start renewable 
energy development activities by conducting the regional environmental 
impact assessments and technical studies needed to pro-actively 
identify areas suitable for potential development, while ensuring we 
protect our treasured landscapes and ensure substantive public input. 
This investment is the first step to fulfill a commitment I made in a 
March 11 Secretarial Order making the production, development, and 
delivery of renewable energy top priorities for the Department. I 
established an energy and climate change task force to spur a clean 
energy future and identify specific zones on public lands where 
Interior can facilitate a rapid and responsible move to large-scale 
production of solar, wind, geothermal, and biomass energy. For these 
renewable energy zones to succeed Interior will need to work closely 
with other Federal agencies, States, and tribes to identify electric 
transmission infrastructure and transmission corridors that are needed 
to deliver these renewable resources to major population centers, while 
preserving the values of our treasured landscapes and protecting the 
environment.
    Through the investments we are making with Recovery Act funding we 
will conserve America's timeless treasures and icons of our culture and 
heritage. Our projects will restore monuments, stunning natural 
landscapes, and parks and public lands that are integral to the lives 
of communities across the country. During the first 100 days of this 
administration the Congress enacted and President Obama signed the 
Omnibus Public Land Management Act of 2009, which will help us protect 
these important assets. In addition, our Recovery Act plan includes 
2,291 projects in National Parks, refuges, and public lands. These 
projects will accelerate our efforts to restore and protect natural and 
cultural resources.
    You directed us to utilize our partnerships with the Student 
Conservation Association and other entities to expand youth engagement 
through the Recovery Act. We are using Recovery Act funding for youth 
partnerships that will launch our 21st Century Youth Conservation Corps 
initiative. This initiative will build capacity to engage young people 
in the outdoors and create a lasting interest in our treasured 
landscapes and cultural history. I have established an Office for Youth 
Programs to improve the coordination of Bureau educational and outreach 
activities in order to seize this opportunity to invite our children 
and young adults into the outdoors.
    My first 134 days sets the stage for the future of this Department, 
and our 2010 budget gives us optimism about the days ahead and our 
ability to fulfill our bold agenda.

                      OVERVIEW OF THE 2010 BUDGET

    The 2010 Interior budget request for current appropriations is 
$12.1 billion, $802 million or 7.1 percent above the level enacted by 
Congress for 2009. This comparison excludes $3 billion enacted in the 
American Recovery and Reinvestment Act of 2009. Permanent funding that 
becomes available as a result of existing legislation, without further 
action by the Congress, will provide an additional $6.1 billion, 
providing a total of $18.2 billion for Interior in 2010.
    The 2010 request includes $11 billion for programs funded by this 
subcommittee. This is an increase of $857 million above the level 
enacted for 2009. This comparison excludes $2 billion in enacted 
Recovery funding and $50 million requested by the President in 2009 
supplemental funds for wildland fire. About 19 percent of the 2010 
increase or $160.8 million will fully fund anticipated increases for 
pay, health benefits, unemployment and workers compensation, and other 
fixed costs.
    In 2010, Interior will continue an exemplary record of producing 
revenue for the American taxpayer. The estimate for revenue collections 
by the Department in 2010 is $14 billion, which exceeds the amount 
requested for current appropriations.
    The 2010 budget assumes the enactment of legislative initiatives to 
ensure better management of and a fair return for leasing on Federal 
lands and waters. These initiatives include a new fee on nonproducing 
Gulf of Mexico offshore oil and gas leases to encourage timely domestic 
energy development, repeal of oil and gas and geothermal mandatory 
spending authorizations included in the Energy Policy Act of 2005, and 
discontinuation of Abandoned Mine Land (AML) payments to certified 
States and tribes.
    The budget also anticipates increased revenues will be available 
beginning in 2010 from oil and gas royalty reform, a new fee for 
offshore facility inspections, and a fee for processing onshore oil and 
gas applications. I hope to be able to work closely with you on the 
consideration of these proposals in the budget.

                     CREATING A NEW ENERGY FRONTIER

    The energy challenges the United States faces are severe. The 
Nation has seen $4.00 per gallon gasoline and rising electricity costs. 
The Nation imports about 57 percent of the oil needed to fuel the 
country's transportation system, heat homes, and power the economy. The 
time has come to create new, clean sources of energy using the Nation's 
vast domestic resources. The President has a vision of energy 
independence driven by concerns about national security, economic 
security, and environmental health. His plan will steer the country 
onto a new energy path--one that creates new jobs and puts America out 
front in new, growing industries; one that promotes investment and 
innovation here at home; and one that makes responsible use of domestic 
resources.
    On Earth Day, the President announced the completion of new 
regulations for the development of renewable energy resources on the 
OCS. In addition, I recently reached agreement with Federal Energy 
Regulatory Commission Chairman Jon Wellinghoff on an approach to 
manage, permit, and issue licenses for hydrokinetic energy projects 
(e.g., wave or current energy projects) in offshore waters. These 
actions are setting in motion our collaborative efforts with the 
Federal Energy Regulatory Commission and others to create new 
opportunities for the production of wind, wave, and solar energy 
offshore.
    Renewable Energy.--Through its stewardship responsibilities, 
Interior is uniquely positioned to help achieve the President's vision 
of a clean and independent energy future. The BLM has identified about 
21 million acres of public land with high wind energy potential in the 
11 Western States and about 29 million acres with high solar energy 
potential in the 6 Southwestern States. There are also 140 million 
acres of public land in Western States and Alaska that have significant 
geothermal resource potential. In addition, there is considerable wind 
and wave energy potential offshore. The National Renewable Energy 
Laboratory has identified more than 1,000 gigawatts of wind potential 
off the Atlantic coast, and more than 900 gigawatts of wind potential 
off the Pacific coast.
    The 2010 budget request includes $50.1 million to invest in 
renewable energy development on Interior public lands and waters. 
Through this initiative, we will engage the combined talents of the 
Department's bureaus: facilitating the development of renewable energy 
on public lands, developing a robust OCS renewable energy program, and 
using science to identify areas with the highest potential for 
responsible energy production on public and tribal lands. We will do 
all of this in a manner that respects our treasured landscapes and 
protects the natural and cultural values of the lands and resources 
that we manage.
    The BLM and BIA will facilitate development of renewable energy 
sources such as wind, solar, and geothermal energy on public and tribal 
lands, and will address the siting challenges associated with building 
a new transmission infrastructure. The 2010 request for the BLM 
proposes an increase of $16.1 million to leverage Recovery Act funds 
and build a capacity to address anticipated needs for renewable energy 
and transmission development on the public lands. The Bureau of Indian 
Affairs (BIA) economic development program will support the informed 
development of renewable energy resources on tribal lands with an 
increase of $4 million.
    The budget for the Minerals Management Service (MMS) includes an 
increase of $24 million to begin a program for renewable energy on the 
OCS. The MMS will conduct environmental and technological studies and 
prepare environmental analyses to develop competitive renewable energy 
lease sales, and issue and monitor leases for individual projects.
    With an increase of $3 million, USGS will develop scientific 
information on the distribution of renewable energy resources, 
including geothermal, biomass, wind, and solar to ensure 
environmentally sensitive development. An increase of $3 million for 
the Fish and Wildlife Service (FWS) consultation program will assure 
that renewable energy facilities are developed with careful attention 
to the stewardship of natural resources.
    Conventional Energy.--The administration's energy strategy includes 
the continued development and, where appropriate, expansion of domestic 
production of oil and gas and other mineral resources. The 2010 budget 
request includes increases of $16.9 million for BLM and MMS to continue 
programs that support 30 percent of the domestic energy production in 
the United States. The MMS will support the development of conventional 
energy resources with an increase of $5 million to facilitate continued 
oil and gas leasing. The budget for the BLM maintains the Bureau's 
capacity to process oil and gas applications for permits to drill 
through an increase of $11.9 million in appropriations and a proposed 
increase of $9.1 million in permit fee collections. These increases 
offset 2010 reductions in mandatory spending from rental revenues 
previously supporting these activities.
    Audit and Compliance.--The budget request includes funding in three 
bureaus to improve revenue collection and oversight activities, needs 
identified by the Government Accountability Office, the Department's 
Office of Inspector General, and other independent reviewers. The MMS 
budget includes $1.7 million to provide timely and accurate production 
and gas plant accountability data and $3 million to implement a risk-
based audit and compliance protocol. There is an additional $2.5 
million requested for BLM's oil and gas management program to enhance 
production verification capabilities; and $1 million is requested in 
BIA to establish standards for renewable energy development.

                        TACKLING CLIMATE IMPACTS

    Inextricably linked with the need for a clean energy future is the 
need to tackle climate change impacts. With lands that range from the 
Arctic to the Everglades, Interior's managers observe the sometimes 
dramatic effects of a changing climate, including thawing permafrost 
and melting glaciers, changes in precipitation patterns, and sea level 
rise. In this dynamic context, Interior managers need information, 
tools, and resources to measure, understand, and respond to on-the-
ground impacts. As the largest land manager in the Nation, Interior is 
positioned to pioneer adaptive management approaches to address the 
effects of climate change.
    In April of this year, the United States Geological Service (USGS) 
released a report prepared in close collaboration with the British 
Antarctic Survey indicating that Antarctica's glaciers are melting more 
rapidly than previously known because of climate change. The USGS study 
documents for the first time that one ice shelf has completely 
disappeared and another has lost a chunk three times the size of Rhode 
Island. This research is part of a larger ongoing project that is 
studying the entire Antarctic coastline.
    This study provides the first insight into the extent of 
Antarctica's coastal and glacier change. The rapid retreat of glaciers 
demonstrates the profound effects our planet is experiencing, with 
rates of change occurring more rapidly than previously known, as a 
consequence of climate change. The scientific work of USGS combined 
with the Department's on-the-ground resource management programs and 
States and tribes, are a critical component in the administration's 
commitment to combat climate impacts.
    The 2010 budget request for the Department includes increases 
totaling $133 million to address the impacts of climate change on land, 
water, and wildlife resources. The climate impacts initiative 
integrates the activities of the BLM, USGS, FWS, NPS, and BIA to 
measure and monitor climate-induced change and share information with 
State, tribal, and other managers and to formulate strategies to 
protect wildlife and habitats through adaptive resource management. The 
budget increase will allow the Bureaus to work collaboratively to 
expand capability in climate impact science, adaptive management 
techniques, and carbon sequestration.
    Monitoring Networks and Adaptive Strategies.--Interior's climate 
impacts initiative includes $65 million to establish a strong 
monitoring network that will comprehensively track and provide 
information on climate impacts on land, water, and wildlife resources 
and to develop adaptation strategies for improved management. The BLM, 
USGS, FWS, and NPS will work together to develop scientific data about 
climate-induced changes that are occurring and those that are predicted 
to occur, and then translate this scientific input into on-the-ground 
strategies for land and water managers.
    The majority, $80 million or 60 percent, of funding proposed for 
the Climate Impacts Initiative is within the 2010 request for the FWS. 
This includes two components: $40 million for grants to States and 
tribes, provided through the FWS State and Tribal Wildlife Grants 
program, and $40 million to tackle climate impacts on refuges, 
fisheries, and other resources.
    The State and Tribal Wildlife Grants component will assist with 
planning and implementing strategies, and activities to help fish and 
wildlife adapt to the impacts of climate change. The FWS climate impact 
component includes: $20 million in the Resource Management account to 
obtain the information needed to plan and deliver conservation 
activities that address the impacts of climate change on fish and 
wildlife and Their habitat. Biological planning, conservation design, 
and monitoring will be important in formulating our response to help 
wildlife adapt. FWS will use $12 million to plan, monitor, and 
implement climate change related adaptive management strategies on 
refuge lands and another $6 million to help fish and wildlife adapt to 
the impacts of climate change on private lands. Additionally, $2 
million will be used, through the National Fish Habitat Action Plan, to 
help freshwater fish and other aquatic species adapt.
    Additional increases for the Bureau of Land Management ($15 
million), the National Park Service ($10 million), and the BIA ($6 
million) will support resource assessment, monitoring, habitat 
restoration and climate impact mitigation efforts.
    Climate Impact Science.--The 2010 USGS budget includes an increase 
of $15 million within the Climate Impacts initiative for scientific 
research, forecasting, and modeling activities to better assess climate 
change impacts on national resources and develop response strategies. 
This funding will also expand priority climate change monitoring, 
develop regional collaborative research hubs through the National 
Climate Change and Wildlife Science Center, and collaborate on climate 
impact science.
    Carbon Sequestration.--Forest and rangelands, wetlands, and other 
landscapes managed by the Interior Department play a vital role in the 
carbon cycle. These natural systems soak up carbon dioxide and thereby 
reduce the harmful effects that carbon dioxide and other heat-trapping 
gases can otherwise cause. This absorptive capacity of our landscapes 
has played a key role in reducing the negative impacts of climate 
change. The Department's bureaus will enhance the absorptive capacity 
of lands by engaging in more aggressive re-vegetation and tree planting 
strategies, ecosystem restoration, wetland protection, and similar 
strategies, to enhance the carbon cleansing capability of natural 
systems.
    The 2010 budget includes an increase of $7 million for USGS to 
research both geological and biological carbon sequestration potential. 
In 2010, with the completion of its 12-month project to develop the 
appropriate methodology, USGS will begin the initial stages of a 
national assessment of geologic sequestration of carbon dioxide in 
saline formations and depleted oil and gas reservoirs. With this new 
funding, USGS will also develop methodologies to measure and assess 
biological carbon sequestration.
    A key aspect of climate impacts, particularly in the West, is 
increased variability of water supplies. Although the Bureau of 
Reclamation (BOR) is not within the jurisdiction of this subcommittee, 
the Bureau's water conservation, water basin studies and water 
recycling and reuse activities are an important complement to the 
Department's climate impacts initiative. The 2010 budget increases 
water conservation challenge grants by $26 million. The 2010 budget for 
the BOR also requests $64 million for 7 ongoing authorized BOR rural 
water projects that will help bring reliable water supplies to tribal 
and nontribal populations.

                    PROTECTING TREASURED LANDSCAPES

    In the spirit of the bold, visionary actions that President 
Theodore Roosevelt took when he established the first National Wildlife 
Refuge at Pelican Island, Florida, and developed a framework for the 
National Park System, President Obama is committed to the preservation 
of landscapes in parks, refuges, and other public lands. President 
Obama signed the Omnibus Public Land Management Act of 2009 on March 20 
and began a new era in land management with new, organic legislation 
for BLM's National Landscape Conservation System. This landmark 
legislation added 2 million acres of new wilderness and preserved 1,000 
miles of wild and scenic rivers. This act will allow us to protect some 
of America's most special places and is a wonderful addition to the 
legacy of treasured landscapes that we already manage.
    The 2010 President's budget signals this commitment with an 
unprecedented $2.3 billion for park operations, a program increase of 
$100 million above 2009 enacted levels. Funding will be focused on 
three key areas: building a solid foundation for parks, caring for 
America's treasures, and enhancing leadership in parks. Included in the 
operations funding increase is $57.5 million for park base funding. 
These funds will be used to enhance core visitor services and resource 
protection needs at 212 parks. An additional $21.7 million will be used 
to enhance major procurement and contracting services in parks, 
increase officer and civilian staffing in the United States Park 
Police, and build organizational capacity to better serve customers and 
recruit a new and diverse workforce.
    NPS has a long and impressive history of caring for America's 
natural and historic treasures and ensuring their continued 
appreciation, understanding and enjoyment. Today, as NPS readies itself 
for the next 100 years, efforts are underway to face a new set of 
challenges. The 2010 NPS budget request includes an additional $5 
million to enhance youth environmental education, vocation, and 
volunteer service opportunities through the Department's 21st Center 
Youth Conservation Corps initiative; $10 million to monitor, adaptively 
manage, and assess the impacts of climate change on park resources as a 
part of the climate impacts initiative; $4.9 million to enhance 
critical stewardship programs at parks through research, operational, 
and educational activities; $2.2 million to expand emergency storm 
damage response capability; and $150,000 to enhance visitor health and 
safety programs.
    The 2010 budget includes $3.9 million to address one of the long-
term challenges facing NPS--the need to develop a workforce that 
reflects the changing and diverse face of America and demonstrates 
management excellence. The budget funds training for new 
superintendents and establishes a new leadership development program 
open to all employees to equip NPS managers with the skills to recruit 
and manage a diverse workforce.
    Park Partnerships.--The 2010 budget recognizes the strong American 
tradition of philanthropy for National Parks and includes $25 million 
for Park Partnership Project Grants. The combined benefit to the NPS 
would be over $50 million for signature projects or programs. This 
proposal mirrors the action that this subcommittee took in 2008 to fund 
programs and projects that will leave a lasting legacy for future 
generations.
    Any discussion of partnerships should recognize the achievements of 
our park superintendents and other land managers who work 
collaboratively with adjacent landowners, cooperating associations, 
other Federal agencies, State and local governments, and the 
communities in which they are situated. The Department recently lost 
one of its staunchest advocates for partnerships and someone who 
recognized the importance of parks as key elements of livable 
communities. Brian O'Neill served as the Superintendent of the Golden 
Gate National Recreation Area for 23 years. His vision ledto the 
realization of this diverse and creative park unit that hosts 200,000 
volunteers, the largest number of volunteer workers of any park in the 
world. Brian's leadership resulted in the successful creation of the 
Presidio partnership and turned Alcatraz from a decrepit former prison 
into a much visited tourist destination. Brian died on May 13, 2009, 
leaving a world-class legacy for future generations and models for 
partnerships that are being replicated throughout the country and the 
world.
    Investing in the Land and Water Conservation Fund.--Recognizing the 
importance of America's natural and recreational resources, in 1962 the 
Kennedy administration introduced legislation to establish a new 
Federal conservation fund. The next year, Kennedy repeated the 
proposal, writing to Congress, ``Actions deferred are all too often 
opportunities lost, particularly in safeguarding our natural 
resources.'' In 1964, Congress created the Land and Water Conservation 
Fund to conserve, develop, and utilize outdoor recreation resources for 
the benefit and enjoyment of the American people.
    The law sought to accomplish these goals by providing funds for 
acquisition and development of lands and by providing Federal 
assistance to States in recreation planning, acquiring lands and 
waters, and development of recreation facilities. These activities are 
funded through a trust fund that receives revenues primarily generated 
from OCS oil and gas drilling activities. Other funding sources include 
the sale of surplus Federal real property and taxes on motorboat fuel. 
The annual authorized level is $900 million; appropriations have been 
provided at this level only twice during the program's 45-year history. 
Over the life of the program, 7 million acres have been purchased with 
LWCF appropriations. More than 41,000 matching grants to State and 
local governments have been approved for acquisition, development, and 
planning of outdoor recreation opportunities in the United States.
    President Obama has a goal to fully fund the LWCF at $900 million 
annually by 2014. The 2010 President's budget includes $419.9 million, 
an increase of $115.8 million, as a first step toward achieving this 
goal. The 2010 budget includes $300.2 million for Interior LWCF 
programs and $119.7 million for the Forest Service. Within the Interior 
total is $170.2 million, an increase of $59.7 million, for protection 
of treasured landscapes.
    The 2010 request includes $30 million to assist States and local 
and tribal governments to protect and create park lands, open space, 
and wildlife habitat through competitively awarded LWCF grants. This is 
an increase of $11 million over the 2009 enacted level of $19 million. 
The 2010 budget request includes $27.2 million for grants and $2.8 
million for administration. An additional $10 million in State 
conservation grants is available from the LWCF in mandatory 
appropriations.
    The 2010 budget request includes $100 million, an increase of $24.5 
million over 2009, for the Cooperative Endangered Species Conservation 
Fund. This program provides grants to States for activities that 
conserve threatened and endangered species. States can, in turn, pass 
the funding on to municipalities, tribes, and private landowners to 
enlist their support in species conservation efforts.

            CREATING A 21ST CENTURY YOUTH CONSERVATION CORPS

    The future of resource conservation and management on the public 
lands depends upon the next generation's understanding of the 
importance of natural resources and cultural treasures. The 2010 budget 
includes a 21st Century Youth Conservation Corps initiative to signal a 
new emphasis on youth involvement. An Educating Young Hunters and 
Anglers component of the initiative addresses the President's Rural 
Agenda item to support the rights and traditions of sportsmen. The 21st 
Century Youth Conservation Corps initiative leverages the expansion of 
youth partnerships undertaken with Recovery Act funding and the 
creation of a new office to coordinate youth programs.
    The budget includes $50 million to develop new ways to engage youth 
and under represented groups in nature and help them to achieve 
environmental awareness and respect for America's exceptional natural 
resources. The initiative has two distinct components--educating young 
hunters and anglers and an environmental education component that will 
engage and encourage youth in environmental conservation and to seek 
careers in America's great outdoors.
    Educating Young Hunters and Anglers.--In support of the President's 
efforts to educate young hunters and anglers, the budget request 
includes $28 million for a new discretionary Federal Aid in Wildlife 
grants program to help States, territories, and tribes establish new, 
creative programs to engage young hunters, anglers, and wildlife 
managers. Special emphasis will be placed on under-represented groups. 
Included within the request is $2.8 million targeted specifically for 
grants to tribes.
    The 2010 budget request includes an increase of $1 million for the 
National Fish and Wildlife Foundation to establish a public-private 
partnership to promote these efforts. Another $1 million is included in 
the budget for the National Conservation and Training Center to provide 
workshops and other training to develop the capacity of Federal, State, 
and tribal agencies to develop new and creative methods to increase 
interest in hunting, fishing, and other wildlife management.
    21st Century Youth Conservation Corps.--Studies show that vast 
numbers of children spend much of their lives indoors playing video 
games or watching television, with little contact, understanding or 
appreciation of the natural world. A large body of evidence attributes 
improved health, particularly in youth, to nature and exposure to the 
natural environment. Childhood experiences with nature are associated 
with increased environmental awareness. An investment of $20 million 
will be made in BLM, USGS, FWS, and NPS to promote youth engagement and 
environmental awareness. Specifically, the 2010 budget identifies a 
three-pronged approach: engage youth in public service; enhance 
science-based programs offered through schools and community partners; 
and improve curricula of national environmental education programs. In 
addition to promoting health and environmental awareness, these 
resources will support efforts to develop an interest among talented 
and capable young people in entering public service as natural resource 
professionals.

                       EMPOWERING INDIAN COUNTRY

    President Obama has placed a high priority on restoring the 
Government-to-government relationship with Indian tribes. Restoring the 
relationship requires a commitment to helping Indian communities 
prosper, and the 2010 budget provides increased resources that will 
support this commitment. The 2010 budget provides increases totaling 
$102 million to strengthen law enforcement and provide expanded 
educational opportunities in the BIE school system and through tribal 
colleges and universities. The 2010 budget also funds enacted Indian 
Water Rights Settlements with an increase of $25.8 million.
    Protecting Indian Country.--The 2010 budget advances efforts to 
improve safety in Indian country with a comprehensive request to 
promote law enforcement. The 2010 budget for BIA makes new investments 
in officers on the street, specialized training, detention centers, and 
tribal courts. The 2010 proposal builds on the congressional support 
provided in 2008 and 2009, and provides an additional $30 million in 
program funding.
    The largest component of this initiative is an increase of $10.5 
million to aggressively address law enforcement staffing needs 
throughout Indian country. The additional funding will strengthen the 
law enforcement presence on Indian reservations by hiring additional 
officers. In order to meet the demand for these new officers, BIA must 
also expand its training capabilities. The budget includes $500,000 to 
establish the Indian Police Academy outreach program.
    One of the biggest challenges for Indian Affairs has been managing 
the individuals arrested as a result of increased officers and 
increased arrests. The initiative proposes $70.4 million for the 
corrections program, including an increase of $5.0 million to fund 
additional correctional officers, contracted bed space for prisoners, 
and an armed transport officer program. The initiative also includes an 
increase of $2 million above the 2009 enacted level of $6.3 million to 
specifically target the drug trade and reduce violent crime. This 
funding will advance intelligence gathering capabilities and provide 
additional support for victim and witness services.
    Another important component of the Indian Affairs justice system is 
the tribal courts program and sustained support for oversight and 
management. The initiative includes an increase of $8 million to 
improve the efficiency and operations of tribal courts and $4 million 
for the management functions.
    Advancing Indian Education.--The 2010 advancing indian education 
initiative will sustain $716.2 million enacted in 2009, and provides an 
additional increase of $72 million for education programs.
    The 2010 request of $391.7 million for the Indian Student 
Equalization Program formula funds includes an increase of $6.7 million 
in teacher pay to fund fixed costs and a $10 million program increase. 
These funds are one of the primary sources of funding for the BIE's 169 
elementary and secondary schools and 14 dormitories. Funds directly 
support schools for core operating costs, such as salaries for 
teachers, aides, administrators, support staff, and supplies and 
classroom materials. The 2010 request also includes $59.4 million for 
operation of elementary and secondary school facilities, an increase of 
$2 million above the 2009 enacted level. The program funds operational 
expenses for educational facilities at all 183 BIE schools and 
dormitories.
    The BIE is committed to assist Indian students to attain 
postsecondary educational credentials. The BIE administers operating 
grants for tribally operated colleges and universities. Included in 
this request is $64.3 million for tribal colleges and universities, an 
increase of $5 million over the 2009 enacted level. The budget also 
includes a one-time increase of $50 million to forward fund activities 
at tribal colleges and universities for the 2010-2011 school year. 
Tribal college leaders have repeatedly stated that forward funding 
provides them greater financial security to plan for the academic year. 
It is a budgeting technique widely used at educational institutions, 
including the BIE elementary and secondary school system.
    The initiative includes $34.6 million for Scholarships and Adult 
Education, $5 million above the 2009 enacted level. This funding not 
only improves opportunities for American Indians and Alaska Natives to 
attain an advanced education, it directly supports the spirit and 
intent of Indian self-determination by providing the tools to shape 
their future.
    Resolving Land and Water Claims.--The Omnibus Public Land 
Management Act of 2009 included two major Indian Water Rights 
settlements. The Northwestern New Mexico Rural Water Projects Act 
authorizes settlement of the longtime water rights claims of the Navajo 
Nation in the San Juan Basin in New Mexico. The 2010 budget includes $6 
million for this settlement.
    The Shoshone-Paiute Tribes of the Duck Valley Reservation Water 
Rights Settlement reached after a decade of negotiations, resolves 
tribal surface and groundwater claims in Nevada and establishes trust 
funds for the tribes to put water to use. The 2010 budget includes $12 
million for this settlement.

                           BUDGET PRIORITIES

    Wetlands.--In April, we celebrated American Wetlands Month, 
recognizing the importance of wetlands for economic and environmental 
well being. Wetlands are among the most productive habitats on Earth, 
providing shelter and nursery areas for commercially and recreationally 
important animals like fish and shellfish, as well as vital wintering 
grounds for migratory birds. The 2010 budget fulfills President Obama's 
commitment for wetlands preservation with an increase of $10 million 
for the North American Wetlands Conservation Fund. This increase will 
be leveraged with matching funds from partners and will protect an 
additional 45,000 acres of wetlands and associated uplands and enhance 
15,000 acres of habitat.
    Great Lakes Restoration.--The 2010 budget for the Environmental 
Protection Agency (EPA) includes a $475 million Great Lakes Restoration 
initiative. The initiative will fund a broad-based strategy to restore 
the Great Lakes in support of the President's pledge for a 
comprehensive approach to Great Lakes restoration. Working in concert 
with its Federal partners on the Great Lakes Interagency Task Force, 
EPA has identified a series of projects that will begin in 2010. EPA 
will transfer funds to Interior bureaus and other Federal agencies for 
projects that will be undertaken to target the most significant 
problems in the Great Lakes ecosystem and will demonstrate measurable 
results. EPA's 2010 request estimates funding of $15 million for USGS, 
$57.5 million for FWS, $10.5 million for NPS, and $3 million for BIA. 
Interior will use this funding to restore habitats that are important 
to the health of the Great Lakes region including wetlands, islands, 
and tributaries. Cooperative projects will be funded to combat invasive 
species, conduct scientific research to identify threats to the region, 
and develop mitigation strategies.
    Endangered Species.--As part of the 2010 budget's investments in 
the Land and Water Conservation Fund, there is an increase of $24.5 
million requested for grants to States in the FWS Cooperative 
Endangered Species Conservation Fund. This infusion of funding will 
support expanded protections for threatened and endangered species and 
help States and others with support to help reduce threats and recover 
species. The 2010 budget also includes increases of $7.4 million for 
FWS and USGS to increase population assessments, research, and 
conservation planning and actions for the polar bear and other Arctic 
species.
    Land Management.--The 2010 budget for land management operations 
reflects an increase of 7.6 percent over the level provided by the 
Congress in 2009. This request includes funding for fixed costs and 
increases to address current challenges in energy and climate impacts, 
and to improve the engagement of youth. Sustaining the operational 
budgets are key to our ongoing stewardship capacity. Within the 
operating accounts, the 2010 budget retains an increase of $7.5 million 
for BLM to accelerate inventory and remediation of abandoned hardrock 
mine sites and retains increases of $8.7 million provided to BLM, NPS, 
and the Office of the Secretary for a coordinated effort to eradicate 
drug production and related activities on public lands.
    Wild Horse and Burro Management.--The BLM manages wild horses and 
burros under the Wild Free-Roaming Horses and Burros Act, a 1971 law 
that sets forth certain protections for the animals and guides the 
BLM's management of the horse and burro populations. The 2010 budget 
includes $67.5 million, a program increase of $26.5 million over the 
2009 level, for the Wild Horse and Burro Management program. This 
significant funding increase is needed to fund increases in the costs 
to hold horses that have been removed from the range, to fund ongoing 
gathers to manage the population on the range, and to more aggressively 
implement population control efforts to help slow the growth in wild 
horse populations. We look forward to working with the subcommittee on 
a long-term solution for effective management of these populations--one 
that will allow us to operate a less costly program.
    Wildland Fire Management.--The Department's Wildland Fire program 
works collaboratively with the Forest Service to conduct effective and 
cost-efficient fire preparedness, suppression, hazardous fuels 
reduction, and other prevention activities in support of the National 
Fire Plan. Wildland fire management activities are conducted by four 
Interior bureaus including BLM, FWS, NPS, and BIA. The 2010 budget 
request of $899.8 million for Wildland Fire Management includes an 
increase of $34.6 million in Suppression Operations to fully fund the 
10-year average cost of $369.8 million. In addition, the budget 
establishes a new discretionary Wildland Fire Contingency Reserve Fund 
of $75 million for fighting catastrophic wildfires, which would be 
available after the appropriated 10-year average is exhausted and other 
specific objectives are met.
    Working Capital Fund.--The Department's 2010 budget request 
includes funding for continued deployment of an integrated business 
management system that will be used by all bureaus and offices. The 
2010 budget of $85.8 million for the Working Capital Fund is an 
increase of $12.4 million above the 2009 enacted level. Of this amount, 
$80.4 million is included to fund continued development and deployment 
of the Financial and Business Management System, an increase of $7 
million over the 2009 enacted level. This includes funding to support 
bureau efforts in preparing for deployment and transitioning to the new 
system. The budget also includes $5.4 million for costs associated with 
enterprise wide information technology enhancement requirements, which 
are needed to support investments for improved transparency and 
accountability.

                LEGISLATIVE AND ADMINISTRATIVE PROPOSALS

    The 2010 budget request is accompanied by proposals that will 
affect receipt or spending levels in 2010 or in future years. These 
proposals will be transmitted separately from the budget for 
consideration by congressional authorizing committees.
    Fee on Nonproducing Leases.--To further encourage timely domestic 
energy development, the administration will submit legislation to 
impose a new fee on nonproducing oil and gas leases in the Gulf of 
Mexico. This new fee would provide a financial incentive for oil and 
gas companies to either move leases into production or relinquish them 
so that tracts can be re-leased and developed by new parties. The 
proposal would require holders of Gulf of Mexico OCS oil and gas leases 
to pay a $4 per acre fee when leases are in nonproducing status.
    Payments to Certified States and Tribes.--The budget proposes to 
discontinue mandatory payments from the General Treasury to States and 
tribes that have certified as completing the reclamation of their 
abandoned coal mine sites. Because payments to certified States and 
tribes can be used for any purpose approved by the State legislatures 
or tribal councils, they do not contribute to the intended purpose of 
the AML program, to reclaim abandoned coal mines. This proposal would 
not affect payments to States that have not yet certified that 
abandoned coal mines have been reclaimed.
    Energy Policy Act.--The administration will submit legislation to 
repeal portions of section 365 of the Energy Policy Act, which diverted 
mineral leasing receipts from the Treasury to a BLM Permit Processing 
Improvement Fund and prohibited BLM from establishing cost recovery 
fees for processing applications for oil and gas permits to drill. Upon 
repeal of these provisions, BLM will establish fees for applications 
for permits to drill through a rulemaking process. Until these fees can 
be put in place, the budget assumes that for 2010, a permit processing 
fee will continue to be charged through an appropriations provision, 
consistent with Congress' practice for 2008 and 2009.
    Geothermal Implementation Fund and Payments to Counties.--The 
administration will submit legislation to repeal sections 224(b) and 
234 of the Energy Policy Act of 2005. Prior to passage of the Energy 
Policy Act, geothermal lease payments were split 50-50 between the 
Federal Government and States, with 50 percent directed to States, 40 
percent to the Reclamation Fund, and 10 percent to the General Fund. 
The Energy Policy Act changed this distribution to direct 50 percent to 
States, 25 percent to counties, and 25 percent to a new Geothermal 
Steam Act Implementation Fund. The repeal of sections 224(b) and 234 
will reverse these changes and restore the disposition of the 
geothermal revenue to the historical formula of 50 percent to the 
States and 50 percent to the Treasury.
    Compact with Palau.--The Office of Insular Affairs and the 
Department of State are currently engaged in an inter-agency review of 
the Compact of Free Association with the Republic of Palau. Permanent 
and indefinite funding for Palau will expire at the end of 2009. The 
inter-agency group is weighing the value of this request against the 
United States' interests. Palau has a strong track record of supporting 
the United States in the United Nations, and its location is 
strategically linked to Guam and United States operations in Kwajalein 
Atoll. The budget assumes a placeholder of $7 million in 2010 in 
recognition of these negotiations.
    The budget also assumes implementation of proposals that will 
result in increased revenue, which in some cases offset the costs of 
operations.
    Royalty Reform.--The Department is initiating a comprehensive 
review, not requiring legislation, of oil and gas leasing and royalty 
policies to consider and evaluate a range of reform options that would 
have the effect of both assuring a fair return to the American taxpayer 
and encouraging diligent development of future leases. As part of this 
review, the Department will consider the recommendations of a recent 
Government Accountability Office report that urges the Department to 
consider alternative leasing and royalty practices, such as those 
utilized by States and private landowners. Upon completion of this 
review, the Department will move forward to implement a rulemaking. The 
budget assumes these reforms will increase revenues to the Treasury by 
$1.5 billion over 10 years.
    Offshore Facility Inspection Fee.--Through appropriations language, 
the Interior department proposes to implement an inspection fee in 2010 
for each above-water OCS oil and gas facility, except mobile offshore 
drilling units, that is subject to inspection by MMS. The proposed 
inspection fee is tiered based on the number of wells per facility and 
would support Federal efforts to provide services that not only ensure 
human safety, but also protect the environment and conserve energy and 
marine resources. The budget assumes these fees will total $10 million 
in 2010.
    Application for Permits To Drill (APD).--The 2010 budget assesses 
an APD fee through appropriations language, an approach taken by 
Congress in the 2009 Appropriations Act. The 2010 budget proposes to 
raise the fee from $4,000 to $6,500 per APD, which would generate an 
estimated $45.5 million in offsetting collections, an increase of $9.1 
million over the 2009 estimate. This increase in offsetting 
collections, combined with a requested increase of $11.9 million in 
discretionary appropriations for the Oil and Gas Management program, 
will fully offset the proposed cancellation of the mandatory spending, 
thereby maintaining BLM's current capacity for processing APDs and 
other use authorizations.
    In total, these proposals are expected to generate over $300 
million in 2010 revenues that help to reduce the overall cost of 
Interior's programs. The 2010 budget also proposes over $300 million in 
cost savings resulting from the completion of one-time projects, 
elimination of funding for earmarks, and reductions to lower priority 
programs.

                               CONCLUSION

    Thank you for the opportunity to testify on behalf of the 
President's 2010 budget request for the Department of the Interior. I 
want to reiterate my appreciation for the longstanding support of this 
subcommittee. We have a tremendous opportunity to improve the future 
for our children and grandchildren with wise investments in clean 
energy, climate impacts, treasured landscapes, our youth, and the 
empowerment of Native Americans. I look forward to working with you to 
implement this budget. This concludes my written statement. I am happy 
to answer any questions that you may have.

    Senator Feinstein. Thank you very much, Mr. Secretary.

                    DRUG CULTIVATION ON PUBLIC LANDS

    I would like to begin with a subject and that is drugs on 
public lands. One of the things that has happened is that the 
cartels are extending their influence up from Mexico, running 
Mexican nationals in our National Parks and some of our State 
parks. As a matter of fact, 70 percent of the marijuana found 
is really in either Federal or State parks. It is a very real 
and growing danger.
    Last year, as part of the appropriations bill, I added $5.1 
million to the BLM budget and $3.3 million to the National Park 
Service budget so those agencies could gear up and begin a 
coordinated effort with the Forest Service and the DEA.
    Now Congress was late in passing the omnibus bill. So the 
2009 money, I understand, is just making its way out into the 
field. Can you tell us what BLM and the Park Service will do 
with these funds?
    Secretary Salazar. Senator Feinstein, you put your finger 
on a law enforcement issue that needs to be addressed. We will 
hire additional law enforcement officers with the money made 
available through last year's budget, as well as this year's 
budget, to help deal with the eradication of marijuana and drug 
interdiction not only on the border, but as well as on our 
other public lands.
    It is interesting to note that when you think about the 
Department of the Interior, sometimes people don't recognize 
the fact that we essentially have responsibility for 793 miles 
of the border between the United States and Mexico. We also 
have responsibility for great stretches of the border between 
Canada and the United States. Our law enforcement officers, 
working with the Bureau of Land Management, working with the 
BIA, are often in the midst of dealing with many of these 
issues.
    We had a National Park ranger who was killed several years 
ago involving some of the drug activity on the border. It is an 
issue which I will take seriously. It is an issue which I will 
work on with the Departments of Justice and Homeland Security 
to try to develop a coordinated effort to address these issues.
    Senator Feinstein. Yes. I just want to make the point. This 
marijuana growing is not benign. These are Mexican nationals. 
They are armed, and they are very dangerous.
    And what I am most interested in and put the money in is 
for your participation in the joint task force to go in and 
clean this stuff out of our parks and keep it that way.
    Now let me ask you, would you confirm that those funds are 
figured into your base budget in 2010?
    Secretary Salazar. Yes.
    Senator Feinstein. Okay. Now how soon do you anticipate 
that you will be up and running and participating in future 
raids with DEA and the Forest Service?
    Secretary Salazar. Senator Feinstein, we are working on a 
number of law enforcement issues within the Department of the 
Interior, some of which I can talk about, some of which I can't 
yet talk about. We will be focused on this issue as soon as we 
can, and part of what we are trying to do is to get the 
Department of the Interior stood up. And that means bringing in 
the people that can make sure that we are carrying out the 
requirements and the suggestions that we are getting from you 
on these very important issues.
    Last week, we started making some progress. We need to make 
some more progress to get it done.
    Senator Feinstein. I just want you to know that this money 
is there with the view that you will, in fact, participate in 
these raids. They have been dormant as of late, and this 
concerns me.
    Secretary Salazar. I can only tell you that we will be 
working on it. I was attorney general of my State for 6 years. 
I support law enforcement in many different ways, and this will 
be a high priority for me.

                            RENEWABLE ENERGY

    Senator Feinstein. Okay. Good. All right. Because I will 
come back and back and back.
    Your budget proposes $50 million for activities designed to 
increase the use of renewable energy. Of that, $16 million 
would go to the Bureau of Land Management so they can expedite 
200 solar projects and 240 wind projects out West. More than 
130 of those are in California.
    I spoke to you in person about this. As you know, I was the 
author of the Desert Protection Act, which created the Joshua 
Tree, Death Valley National Parks and the Mojave Preserve. For 
about 6 years in the 1990s, we raised private money, namely $40 
million, and some Federal money, $17 million, to go in and buy 
600,000 acres of in holdings held by Catellus.
    Well, one day, somebody comes in to me and says, ``Do you 
know that they are putting solar troughs in these in-holdings 
that have been purchased for conservation?'' And I said, ``You 
are kidding?'' No advance notice.
    So I went down to the desert, and I visited about 8 
projects, and I find, in fact, not only are they proposed, but 
they are enormous in size--one 15 square miles, one 8 square 
miles, one 7 square miles, one 5 square miles, and on.
    Now these are huge solar troughs, big towers, fences, steam 
plants, and all of the infrastructure. If you have a 15 square 
mile facility, and this was the Bright Source proposal, I mean, 
that has a huge mark on land that we are trying to conserve.
    I have spoken with you about it. I want to raise it in the 
public because we are about ready to introduce a monument to 
protect these lands, and we have discussed it with everybody. 
We have amended it. I had the military in yesterday. I believe 
we are going to get some good solutions out of it.
    But I think this planning process really has to be looked 
at and the size has to be looked at because you would have an, 
oh, 20-mile corridor just filled with this stuff and way more 
than the 33 percent clean fuel requirement that California has 
to make its commitment by 2020. So I would like to know how you 
are handling these permits.
    The second point is, as we traveled through this area with 
the Wildlands Conservancy, they pointed out that there was 
private land in the area which really was much more suitable 
for use for this. You know, flat, not in areas that are in a 
conservation mode, et cetera.
    And the downside of that was I was told, well, the people 
that went for private land had to go to the back of the line, 
and the BLM land was at the front of the line. I don't believe 
that is the right approach. And it seems to me that--and I know 
the environmental studies are being done. And I guess what I 
objected to most was the inordinate size of these things, just 
enormous in terms of their scope and what they do to the land.
    And then the last point is at Daggett, we saw photovoltaic 
and a solar trough and the factories, but what had happened is 
the people running it had walked away from it and just left it 
all there. So that raises the point, much like abandoned mines, 
that these developers have to be responsible.
    And if they are going to leave, vacate the site, take their 
equipment with them because the site is essentially changed 
forever from the desert topography. It is leveled. Artificial 
surface is brought in. And I am for this, but I am for it in 
moderation with size that is limited so that it doesn't really 
become an enduring blight upon the land for miles and miles and 
miles.

                            RENEWABLE ENERGY

    Secretary Salazar. I appreciate your raising this issue 
with me from I think my very first days in the Department of 
the Interior, Senator Feinstein. It is an issue that we are 
very aware of with respect to the deserts of California and 
with respect to solar siting elsewhere around the Southwest and 
wind power throughout the country.
    What I can tell you is this, that as we move forward with 
turning the new page and developing solar and wind and 
geothermal energy, that we have to do it in a way that is 
thoughtful, that is not helter-skelter, that essentially makes 
sure that we are protecting the treasured landscapes of 
America.
    Going back to Senator Alexander's statement with respect to 
oil and gas development, we have to have that same kind of 
approach with respect to renewable energy projects. Right now, 
the 240 applications that you speak about, many of those 
applications were pending when I came into office. There was 
not any kind of significant planning process with respect to 
renewable energy in the Department of the Interior, frankly, 
because it had not been prioritized.
    And we are now moving forward with the Bureau of Land 
Management, with our other agencies, Fish and Wildlife and 
National Parks, to develop a process that essentially is no 
different than the kind of process, Senator Feinstein, that you 
used as mayor of the city of San Francisco. It is a land-use 
planning process.
    But you essentially take a look at the entire landscape 
relative to what the scientists will tell you are the 
technically possible developments for renewable energy. It 
doesn't mean that you are going to develop renewable energy in 
all of those spaces because many of them are inappropriate 
because of ecological values or other national interests that 
need to be protected. You have to go through a screening 
process to determine where the best siting of these facilities 
will be.
    We are engaged in a very robust effort through the 
Renewable Energy and Climate Change Task Force that I created 
in the Department to bring all of the agencies together so we 
address the specific kinds of concerns that you are raising 
here today.
    Senator Feinstein. Thank you very much. I really appreciate 
that.
    And I hope--part of my problem was the surprise. Now here, 
I was the author of the bill who helped raise some of this 
money, and then, bingo, all of a sudden this was happening. And 
so, it was an element of surprise. I really appreciate your 
taking this action. I think it is the right way to go, and I 
will be just as supportive as I can.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.
    Mr. Secretary, let me follow up on Senator Feinstein's 
comments. I think what she describes in California is a good 
indicator of what we hope doesn't happen, and I am dead serious 
when I think one of the important legacies you could leave, in 
addition to building up the Land and Water Conservation Fund 
and the other areas you mentioned, is to be able to look back 
and say that we had an expansion of renewable energy in the 
country, but we did it in the right way.
    That we didn't--that we recognized that from the days of 
John Muir and Ansel Adams through Lady Bird Johnson that the 
great American landscape is really what you are--that is your 
job, really, and it is what we all love. And we don't want to 
destroy the environment in the name of saving the environment.
    Your statement mentioned some very big numbers. The energy 
potential you mention, especially in the West, 1,000 gigawatts 
of wind potential off the Atlantic coast, 900 gigawatts off the 
Pacific coast in terms of 21 million acres of public land with 
high wind potential.
    Senator Feinstein talked about large size. I think it is 
important for us to keep in mind the size. This is not a point 
that I am not trying to say renewable energy is good or bad. I 
think it is good.
    But let us say a nuclear power plant produces about 1,000 
megawatts of power. To get that from a solar, thermal plant 
like Senator Feinstein was discussing, you would need 30 square 
miles, which is about 5 miles on each side that would just 
equal one nuclear plant, which is 1 square mile. And you would 
still need the nuclear plant because the sun only shines part 
of the time.
    Biomass in the South is what is said would be a good 
renewable energy for us. We talked about that in our hearing 
with the Forest Service last week. There are a couple of 
million tons of biomass in Tennessee forests, so said the head 
of the Forest Service.
    That sounds like a lot, but that would produce about 200 
megawatts of power, and the TVA uses 27,000 megawatts of power 
on a regular basis. You would need a forest the size of the 
Great Smoky Mountains, which is 550,000 acres, to feed a 1,000 
megawatt plant on a sustained basis. That is one nuclear power 
plant equals a forest the size of the whole Smoky Mountains.
    On wind, it is even bigger, 270 square miles at 16 miles on 
a side to equal one nuclear unit, and an unbroken line of 500-
foot-tall wind turbines from Chattanooga to Bristol in our 
State, that is throughout all of east Tennessee, would give us 
one-fourth of the electricity from one unit of nuclear plant 
and really destroy the views that we treasure so much.
    T. Boone Pickens was asked whether he was going to put any 
of these 50-story wind turbines on his ranch, and he said, 
``Hell, no. They are ugly.'' And we agree with him in our part 
of the woods.
    And I have up here a map, and you can see the blue part 
over in the East, we were talking about the West. But in the 
East, the place where the wind turbines would go is the 
foothills of the Smokies, up through the Blue Ridge Parkway, on 
up through Pennsylvania into the White Mountains. I mean, those 
are the treasured ridge tops, and the wind turbines only go on 
ridge tops in the East because the wind doesn't blow as much. 
And in our part of the world, it only blows about 20 percent.
    And then we have the coast. Now you and I were part of 
debates about oil and gas and how far off should it go. I think 
one of the proposals that Republicans had was that oil and gas 
drilling should be at least 10 miles off the coast. Well, maybe 
wind turbines should be 15 or 18 miles off the coast. Then you 
couldn't see them.
    Then there is also the question of why do we need these 
large transmission lines to go across our densely populated New 
York City or densely populated California to bring in wind 
power from the Dakotas when you have got 900 gigawatts in the 
Pacific Ocean and 1,000 gigawatts in the Atlantic Ocean?
    The Secretary of Energy and Environment for Massachusetts 
wrote a letter and said that is a big waste of money to bring 
renewable energy from the middle of the country to the coasts, 
when the coasts have hundreds of thousands of megawatts of wind 
power of their own, if they want it. And they can use their 
money to go offshore.
    So my question is this. Tell me more about your plan. If 20 
percent of our electricity were wind, as some people say it 
should, that would be an area the size of West Virginia. I 
think you said it could be 50 percent. Or replace coal. That 
would be an area two and a half times the size of West 
Virginia.
    Where is all this stuff going to go? And can we take your 
concept of renewable energy zones, for example, and be assured 
that we don't have the kind of renewable energy sprawl that one 
major conservation group talked about?
    That we can say, yes, we are going to have this much. We 
are going to have it here. Transmission lines are going to be 
here. So we don't have to wake up in the morning and find out 
that we have got a row of wind turbines three times as tall as 
our football stadium going along the edge of the Smoky 
Mountains, as Senator Feinstein found in the deserts of 
California.
    Secretary Salazar. Thank you, Senator Alexander.
    First, let me say I appreciate, again, your advocacy for 
the landscapes of America. I remember your long history with 
respect to your involvement back in the 1980s and into the 
1990s and our work together here on the Land and Water 
Conservation Fund, I remember concerns that you raised, which I 
believe are legitimate concerns relative to the aesthetic 
issues that you talked about with respect to wind.
    Let me say I appreciate the concerns that you raise. Let me 
also say that the new energy frontier I think is here, and we 
are going to move forward in a very robust way to develop 
alternative energies, including solar, wind, and geothermal.
    Now the numbers that you speak about are numbers that are 
technically developable numbers. Those are numbers which I did 
not create. Those are numbers that came out of the National 
Renewable Energy Lab in Golden, Colorado, which they have 
worked on over the years. And that is exactly what they are.
    It doesn't mean that you are going to develop all of those 
gigawatts or megawatts of power that you spoke about because 
there are going to be limitations relative to where you 
actually do the siting of some of these facilities.
    Second of all, I want us to continue to underscore the 
connection between the new energy world and jobs here in the 
United States. We expect that hundreds of thousands of jobs 
can, in fact, be developed with respect to the renewable energy 
industry. We have approximately 160,000 jobs today in America 
that you can connect up to both the solar and the wind 
industry.
    In Tennessee, for example, Senator Alexander, there is a 
company, Hemlock Semiconductor Corporation, which has opened up 
a solar energy facility that is creating 500 jobs for the State 
of Tennessee. There are other plants that are there as well. 
The combined solar and wind companies are already providing 
significant jobs to the United States as we develop these new 
forms of energy.
    Thirdly, I want to comment on an issue that I think is 
integral to your points, and that is the question of 
transmission. How do you get the renewable energy resources 
from the places where they are produced to the places where 
they are consumed? Let me focus in specifically just on the 
Atlantic coast.
    When you look at New Jersey, Delaware, New York, Governor 
Carcieri from Rhode Island, who has been a major leader in some 
of these efforts, their view is that with the potential of the 
1,000 gigawatts of power off of the Atlantic that you 
essentially could plug that energy into the grid without having 
to build a lot of new transmission because you essentially 
would take the power from the wind turbines offshore, run a 
cable, and plug it into an already-existing grid system.
    New Jersey has a host of projects which Governor Corzine 
and others are ready to move forward with. Delaware is in the 
same position. Rhode Island is in the same position. New York 
is in the same position. We hope to be able to move forward 
with the permitting of some of these facilities in the very, 
very near future. Now as they move forward, part of what we 
will have to do is the environmental analysis to make sure that 
we are taking care of the oceans in those particular areas 
where these projects are to be planned. We now have rules that 
we have issued with respect to offshore wind in the Atlantic. 
Those rules have been held in abeyance really for the last 3 
years.
    We now have broken through the logjam. Those rules are out 
there, and we are processing the permit applications.
    In terms of the aesthetic and landscape issues, which you 
raise, off the Atlantic--as an example, New Jersey has wanted 
to locate its wind projects, and they have, I think, six wind 
projects that they hope to be able to build in the very near 
term. Their proposal is to have those projects built somewhere 
in the neighborhood of 6 to 8 miles off the coast.
    The State of Delaware has a project which is a significant 
size project in the Atlantic, and their proposal is to build 
that project 13 miles off the coast of Delaware.
    I think the issues that you are raising, Senator Alexander, 
and which Senator Feinstein has raised with me as well, is that 
there is a way in which we can move forward with this renewable 
energy revolution and at the same time make sure that we are 
doing it in a thoughtful way that provides a balance of the 
need for energy and the protection of our landscapes.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    And thank you, Secretary.
    Senator Tester, being the gentleman that he always is, will 
cede to Senator Reed because he has another appointment.
    So, Senator Reed.
    Senator Reed. Thank you. Thank you, Madam Chairman.
    Thank you, Senator Tester. Thank you very much.

                       OFFSHORE WIND DEVELOPMENT

    Welcome, Mr. Secretary. And you have already commented on 
the activities in Rhode Island to develop wind power. In fact, 
our Coastal Resources Management Council is undertaking a great 
deal of scientific studies to help site these facilities 
appropriately.
    And the Minerals Management Service is a critical component 
of any siting. They have provided technical support. They have 
consulted with Rhode Island, but it has been sporadic and 
somewhat ad hoc. And I would very much encourage you to commit 
full-time personnel coordination so that we could move these 
projects along.
    As you point out in your statement, Rhode Island and other 
States along the Atlantic coast are actively moving to get 
these wind farms into production--not theoretically, not 
conceptually, but actually moving. And the early involvement of 
the MMS would be absolutely helpful on a full-time regular 
basis. So if you could consider that, I would really appreciate 
it, Mr. Secretary.
    Now also in terms of their participation, we are doing a 
lot of scientific research, our Coastal Resource Management 
Council. But it would be unfortunate if our research didn't 
comply with what ultimately the Minerals Management Service 
considers to be appropriate. So if that could be integrated 
also?
    And in fact, I would ask very sincerely if you could 
designate a team to work full time with the State, not only to 
coordinate on all these different activities, particularly to 
verify the science. And if you could consider that, I would 
appreciate it.
    Secretary Salazar. Absolutely.
    Senator Reed. Thank you.
    Secretary Salazar. Let me just, if I can, Senator Reed?
    Senator Reed. Yes.
    Secretary Salazar. Thank you for your leadership and your 
friendship as well. Thank you for the work that you and the 
leadership in Rhode Island have already done with respect to 
wind energy. I held four hearings around the country--one in 
Atlantic City, one in New Orleans, one in San Francisco, and 
one in Alaska in Anchorage, and actually, a fifth one in 
Dillingham, Alaska, as well--with respect to the OSC.
    It was really clear to me that in the Atlantic coast area, 
there is tremendous interest on the part of the leadership to 
move forward with renewable energy and wind projects off the 
Atlantic. We have included in this budget $24 million with 
respect to moving forward with renewable energy projects on the 
offshore.
    In the interim, we are not stopping, however, and using 
resources that we already have. We broke through the logjam on 
the rules, and we look forward to working hand-in-hand with you 
and Rhode Island to make these projects a reality.
    Senator Reed. Well, thank you, Mr. Secretary.
    Again, I think a formal designation of a team, some type of 
understanding between the State to working closely together, 
and even some financial support for our efforts.
    We have already put State dollars, and it would be helpful. 
I also noted that you have talked about establishing four 
regional officers in California, Nevada, Wyoming, and Arizona 
to help speed permitting of renewable projects.
    Are you considering something on the Atlantic coast?
    Because as you point out, there is a lot of activity there.
    Secretary Salazar. I think we would probably do it. There 
will be a focus on the Atlantic because I think that is the 
primary area for wind development offshore. And so, because we 
have MMS located here in Washington in the offshore area, it 
does seem to me to make sense to have a group of people that 
are specifically assigned to working on these wind projects on 
the offshore.
    Part of the conversation I have had with some of the 
Governors on the Atlantic is to see whether we can start a 
dialogue on how we do this across the Atlantic as a whole, as 
opposed to each State doing its own thing. And so, we are 
having some conversations about that. But this I will guarantee 
you, Senator Reed, that we are focused like a laser beam on the 
wind potential off of Rhode Island, and the other States have 
shown great interest and leadership.
    Senator Reed. Thank you.
    Just one final point. That is, in all of this, we can't 
forget the equities of many different parties. One is the 
fishing industry. In fact, one of the things that the State is 
doing through their modeling, through their analysis, is trying 
to minimize the impact of these developments on traditional 
fishing grounds. And again, I think that is something that 
should be within the context of your responsibilities.
    Secretary Salazar. I agree with you, and the money that we 
are currently using as we move forward with the environmental 
analysis for these wind projects and money that we requested 
for it from the Congress in this budget with respect to 
renewable energy projects will go into those kinds of analyses.
    Senator Reed. Thank you very much, Mr. Secretary.
    Senator Feinstein. Thank you very much, Senator Reed.
    Senator Tester.
    Senator Tester. Thank you, Senator Feinstein.
    And it is good to have you here, Secretary Salazar. I 
appreciate the work that you have done in this position. I 
appreciate your work ethic. I appreciate the long hours you put 
in because I know you have, and it shows. And your answers to 
many of the questions that were asked before me, in my opinion, 
are spot on. So thank you.

                            ABANDONED MINES

    I want to talk a little bit about abandoned mine dollars. 
It was eliminated in your budget. We have about 4,000 abandoned 
mines in Montana. Many, if not most, are on Federal lands. And 
they are a problem.
    They are problem for water quality. They are a problem. 
What is the plan? Because they are not going to go away.
    Secretary Salazar. First, Senator Tester, let me say the 
issue of abandoned mines is a major issue throughout the 
country, in particular in many places in the West--Montana, 
California, New Mexico, Nevada, and Colorado. We know that 
there are not dozens, but there are really thousands of 
abandoned mines that were created at a time when we didn't have 
the kinds of environmental laws in place that we have today. 
They create threats to the public safety, and they are issues 
that we have to deal with.
    Montana has used money that it gets from the reclamation 
fees from coal to try to address this very huge problem, which 
Montana faces. Our budget, the administration's budget looked 
at what the coal program had been set up to do with respect to 
those reclamation fees and made the determination that with 
respect to coal mine reclamation, that those monies were not 
needed for that particular purpose.
    Now having said that, that does not take away or minimize 
the importance of trying to do something with respect to the 
abandoned mine issue. It is my hope that we can figure out a 
way of addressing that issue, and it may be in part what we are 
able to do through mining law reform as we move forward with 
that agenda.
    Senator Tester. Okay. It is--and I don't need to tell you 
this. You know this as well if not better than I do. The AML 
monies, and Montana has accounts set up for it. If it goes in, 
it is used for mine clean-up. It works in Montana. We didn't 
use it to back fill our general fund. We used it to clean up 
mines.
    And I would hope that we do not take our eye off the ball. 
I know from your previous statement that you know that. And I 
look forward to working with you to make sure that we continue 
that program, and I know that the chairman feels the same way 
about it as far as getting those mines cleaned up.

                      NATIVE AMERICAN COMMUNITIES

    There are several things in the budget dealing with Native 
Americans. One of them is stripped funding for community 
development programs to train American Indians as skilled 
workers. Another one is to eliminate funding for critical 
housing improvement programs, which serves the poorest of the 
poor in Indian country.
    I guess my question is, is that is this being shifted to 
another agency out of Interior, BIA over to Labor or Housing, 
or what is going on? Because these are programs that I think 
are invaluable programs. And to eliminate them without a backup 
somewhere else, and I don't want duplication, so if it is being 
shifted somewhere else, I would like to know that.
    Secretary Salazar. Senator Tester, I appreciate the 
question. I will just communicate what I said in my opening 
statement earlier, and that is the issues of empowering our 
Native American communities are very important to me. I know 
how important they are to you in Montana, how they are to North 
Dakota, California, and lots of other places.
    We will have a robust agenda relative to the economic and 
the law enforcement and educational issues for Indian country. 
We invested significant amounts of money, as you well know from 
our conversations, concerning education and housing and law 
enforcement from the recovery funds received in the Department 
of the Interior.
    We also recognize that there are other agencies that are 
involved in delivering these services to Indian Country, 
including Housing and Urban Development and Health and Human 
Services. We are working to develop a coordinated approach to 
how we deliver these services to Indian Country.
    Senator Tester. I appreciate that. Once again, just as with 
the abandoned mine monies, and I think it is ridiculous, quite 
frankly, to have as many agencies dealing with the same problem 
as we do. And so, I think consolidation and making sure that we 
get the most bang for the buck and making sure the money gets 
to the ground, that effort is a noble effort and needs to be 
done.
    And I just don't want the programs to go away without 
something back there helping Native Americans so they just 
don't have to hold the stop sign. They can actually be running 
the piece of equipment that is behind that stop sign. So, and I 
think you see it the same way. <greek-l>

                        PREPARED STATEMENT deg.

    Just in closing, real quick, thanks for coming to Montana 
in April. Appreciate the visit. Don't forget we have got to 
write up the St. Mary's plan at some point in time, your 
schedule permitting.
    Thank you. <greek-l>



                          INSERT FOLLOWS deg.

    Secretary Salazar. I will be in Montana again, Senator 
Tester--as I will in Tennessee, as I will in California.
    Senator Feinstein. Better cover them all.

                            ABANDONED MINES

    Mr. Secretary, I would like to just continue on the 
abandoned mine subject because we have 47,000 abandoned mines 
in California, and an estimated 13,000 are on BLM land. Now 
thousands have major safety or water quality hazards, and some 
of these are really in popular recreation areas.
    Earlier this year, I introduced a bill, The Abandoned Mines 
Reclamation Act. It created an abandoned mine clean-up fund. It 
established spending priorities for the clean-up fund based on 
the severity of risk to public health and safety and the impact 
on natural resources, and it would direct you to create an 
inventory of abandoned mines on all Federal, State, tribal, 
local, and private land.
    I would like to ask that you take a look at the bill. Let 
me know what you think of it. I mean, if the subcommittee 
feels, I may well try to legislate on an appropriation bill 
just to get it done. It is a possibility. So if you would look 
at it, I would appreciate it.
    In 2008, I put $1.9 million into BLM and National Park 
Service budgets to identify and remediate hazards, hazardous 
abandoned mines in California. In 2009, I added $8.1 million, 
and under the stimulus, your Department allocated a total of 
$52 million for mine clean-up work that should be getting 
underway now.
    So one of the things I would like to do is ask you how that 
is going, in other words, the money appropriated by the 
stimulus. And the second question is do you have a prioritized 
list of abandoned mines on public lands?
    Secretary Salazar. On the second question, we should have 
one. I am not aware that one exists today, but it is something 
that we will work on as soon as I get my Assistant Secretary 
for Land and Minerals, my Solicitor, and a whole host of other 
people, the BLM director, that I need really to be able to do 
the work that you and others are asking of me. We will do it, 
and we will get it done.
    On the overall issue of the abandoned mine challenge that 
we face, let me just say I will work with this subcommittee. I 
understand the importance of the issue. I understand we have a 
major role because many of these mines are located on our 
public lands. Many, most of them on BLM lands. It is something 
that is of high importance to me.
    Senator Feinstein. Well, in a nutshell, what I am saying is 
we have specifically appropriated now $62 million to get 
cracking on these mines, and I am a little bit frustrated 
trying to find out what is happening. Is there a priority list? 
There should be.
    And therefore, I don't know, maybe we should have--I would 
like to have Senator Alexander take a look at the bill. Maybe 
we need to pass it? But the money is now there. And there has 
to be a priority, prioritized list, it would seem to me. This 
is 3 years of appropriating money, and we ought to get the 
list.
    Secretary Salazar. I will see if there is a list that we 
can get to you, Senator Feinstein.
    Let me just say this. Two points. First, with respect to 
the recovery project monies, which this subcommittee worked so 
hard to get to the Department of the Interior. What we did is 
we went through those funds, including the funds that were made 
available for reclamation of abandoned mines, and selected 
those projects which were shovel-ready because that was the 
purpose which you had given us in terms of the stimulative 
consequence that you wanted from the investment of those 
monies.
    The reclamation projects for abandoned mines that will be 
funded through the recovery dollars have been identified, and 
those projects will get, in fact, done.
    Senator Feinstein. Well, then would you send us the list, 
please? I would like to see the list.
    Secretary Salazar. I will get you the list with respect to 
the recovery-funded projects.
    [The information follows:]

                 AML PROJECTS SELECTED FOR ARRA FUNDING
------------------------------------------------------------------------
                          Project title                            State
------------------------------------------------------------------------
Upper Koyukuk Mine Hazard Inventory--Verify physical hazards and      AK
 initiate remediation program...................................
Old Placer Gold Mines Restoration--Restoration of stream              AK
 channels impacted by historical placer min.....................
Red Devil Fuel Spill Remediation--Measurement of the nature and       AK
 extent of diesel fuel contamination............................
Red Devil Hazardous Waste Remediation--Treatment or disposal of       AK
 prior excavated petroleum contamination........................
Times Gulch Mine--installation of access barrier to reduce risks      AZ
 and protect wildlife habitat...................................
Times Vein Mine--installation of an access barrier to reduce          AZ
 public safety risks and protect sensitive......................
San Diego Mine (Union Pass)--installation of access barrier to        AZ
 reduce risks and protect wildlife..............................
Vulture Mine--backfill open mine shafts/install barriers to           AZ
 reduce risks and protect wildlife..............................
Thumb Butte Mine (Union Pass)--install barrier to reduce risks        AZ
 and protect wildlife habitat...................................
Mary Nevada Mine (Hualapai Mountains)--Install access barriers        AZ
 to reduce risk and protect wildlife............................
Porter Mine (N. Black Mountains)--Install access barrier to           AZ
 reduce risk and protect wildlife...............................
Fire Mountain Mine (N. Black Mountains)--Install barrier to           AZ
 reduce risks and protect wildlife..............................
Wickenburg Mill site--monitor, sample, and assess soils and           AZ
 groundwater for contaminants...................................
Gold Hill Mine and Vicinity bat gates...........................      AZ
Octave Mill Site--Complete PA/SI site characterization work of        AZ
 abandoned mine tailings........................................
Great West Mine (N. Black Mountains)--Install access barriers to      AZ
 reduce risks and protect wildlife..............................
Gigi Girl Mine (Hualapai Mountains)--Install access barrier to        AZ
 reduce risk and protect habitat................................
Swansea Mine and Adits (Lake Havasu)--Plug adits, install             AZ
 barriers, and fence to reduce risks............................
Rand Historic Mining District--Air and biological monitoring....      CA
Ruth Mine--fencing of tailings..................................      CA
Darwin Mine--tailings remediation...............................      CA
Barstow Off Highway Vehicle Physical Safety Hazards.............      CA
Palm Springs Off Highway Vehicle Physical Safety Hazards........      CA
El Centro Off Highway Vehicle Physical Safety Hazards...........      CA
Ridgecrest Off Highway Vehicle Physical Safety Hazards..........      CA
Needles Off Highway Vehicle Physical Safety Hazards.............      CA
Edith E. Mine Physical Safety Hazard............................      CA
Yuba, Nevada and Placer County Physical Safety Hazard Sites.....      CA
El Dorado and Amador County Physical Safety Hazard Sites........      CA
Calavera County Physical Safety Hazard Sites....................      CA
Tuolomne and Mariposa County Physical Safety Hazard Sites.......      CA
Archer Mine--Site cleanup and restoration.......................      CA
Contact Mine--mercury contamination--EE/CA--mine waste removal..      CA
Sonoma Mine--mercury contamination--EE/CA--mine waste removal...      CA
Helen Mine--mercury contamination--EE/CA--mine waste removal....      CA
Davis Mill Remediation--Site cleanup and removal................      CA
Longfellow Mill--heavy metal contamination, physical safety           CA
 hazard remediation.............................................
Islander Mine--install access barriers and fencing to reduce          CA
 risks and protect habitat......................................
Deer Creek Brownfield Project--mercury tailings removal and           CA
 remediation/stabilization......................................
Badger Hill Sluice Tunnel--mercury contamination................      CA
AML Project Coordinator--monitor closures, inventory projects,        CO
 coordinate NEPA and contracts..................................
Crystal Hill mine closure project...............................      CO
Club Mesa mine closure project..................................      CO
Kankakee mine closure project...................................      CO
Long Park mine closure project..................................      CO
Sillsville mine closure project.................................      CO
War Eagle mine closure project..................................      CO
Whale Hill mine closure project.................................      CO
Box Canyon Mine closure.........................................      CO
Dawson Mountain mine closure project............................      CO
Grape Creek mine closure project................................      CO
Jelly Roll mine closure project.................................      CO
Montrose City Uranium mine closure project......................      CO
Abandoned Mine Lands Grand Junction Field Office Mine Closure         CO
 and Reclamation................................................
Eveline Mine Remediation Project................................      CO
Field Validation AML Sites......................................      DC
Zortman/Landusky Mine--Install wind turbine to run acid water         MT
 treatment system; install clarifier............................
Maiden Rock Phosphate Site (Big Hole River)--Closures of              MT
 numerous physical safety hazards...............................
Maiden Rock Phosphate District Phase II (Goat Mountain, Canyon        MT
 Creek)--inventory/assess hazards...............................
Maiden Rock Phosphate District--Conduct environmental analysis        MT
 needed for mine closures.......................................
Maiden Rock Phosphate Phase II (Goat Mountain, Canyon Creek)--        MT
 close physical safety hazards..................................
East Pacific/Chartam Mine Reclamation...........................      MT
Thistle Mine Tailings Reclamation (Rochester Area)..............      MT
Great Divide Sand Tailings Removal..............................      MT
Clark County Nevada Abandoned Mine Lands--Closures to prohibit        NV
 humans/allow wildlife access...................................
Northern Nevada Abandoned Mine Lands--Install mine entrance           NV
 closures to eliminate hazards..................................
Nevada Abandoned Mine Lands Biological and Cultural Surveys--         NV
 Surveys before closure of mines................................
Ward Mountain Nevada Abandoned Mine Lands--Reclamation to             NV
 provide habitat and public safety..............................
Rip Van Winkle Nevada Abandoned Mine Lands--Cleanup, stabilize,       NV
 restore, cap shafts, fence.....................................
Golden Butte Nevada Abandoned Mine Lands--Revegetation of the         NV
 Golden Butte mines site........................................
Tuscarora Nevada Cadastral Survey--Determine boundaries before        NV
 reclaiming abandoned mines.....................................
Goodsprings Nevada Cadastral Survey--Determine boundaries before      NV
 reclaiming abandoned mines.....................................
Nelson Cadastral Survey--Determine land boundaries in advance of      NV
 reclaiming abandoned mines.....................................
Nevada American Flats/Comstock United Merger Mill Abandoned Mine      NV
 Lands--Record and remediate....................................
Caselton Nevada Tailings Abandoned Mine Lands--Update action          NV
 plan and reapply dust controls on site.........................
Almeda Mine Site--assessment for ultimate installation of system      OR
 to limit uncontrolled discharge................................
Remediation of known Abandoned Mine Sites in SW Oregon--EE/CA         OR
 for physical danger and water quality..........................
Inventory of Historic Areas for Abandoned Mine Features--             OR
 identification, prioritization, remediation....................
Utah Shaft Closures--physical safety hazards....................      UT
Physical Safety/Environmental Hazard Site Inspections--Inspect        UT
 sites 1 mile of populated areas................................
Wyoming Abandoned Mine site reclamation--Secure and seal              WY
 hazardous mine openings in WY..................................
------------------------------------------------------------------------

    Secretary Salazar. On your broader question on whether we 
have created that inventory across the country with respect to 
abandoned mines, let me take a look at that, and I will get 
additional information back to you. I understand the enormity 
of the problem and the importance of the problem.
    [The information follows:]
              Abandoned Mine Sites on National Park Lands
    Abandoned mines are in 126 National Park System units. An ongoing 
inventory in the units so far revealed an estimated 3,100 sites with 
about 8,400 mine openings, piles of tailings, and hazardous structures 
and thousands of hectares of scarred lands.
    Does the Bureau of Land Management (BLM) have an inventory of 
Abandoned Mine Land (AML) Sites, and prioritization of it?
    Yes, the BLM does have an inventory and central repository for data 
regarding AML Sites. This data is stored in the BLM's Abandoned Mine 
Land Site Cleanup Module Database. The database tracks information on 
both Abandoned Mine Land sites and hazardous material sites. Though the 
database does not rank sites; there is an AML strategic plan and manual 
that both describe prioritization of AML sites based on water quality 
and physical safety hazard degradation criterion.
    The BLM maintains an inventory of nearly 20,000 AML sites. Most 
sites are small to medium in size and environmental impact. The most 
common site features are: open adits and shafts; waste dumps; highwalls 
and pits; and tailings piles. About 25 percent of the sites have either 
been remediated, have reclamation actions planned or underway, or do 
not require further action. The remaining 75 percent require further 
investigation and/or remediation. The Abandoned Mine and Site Cleanup 
Module database houses our inventory data. In fiscal year 2009, the 
system's Project Change Management Board/Users' Group is looking to 
improve data quality and make system improvements.

    Senator Feinstein. Right. Our subcommittee clerk actually 
went and took pictures of some of these, particularly in 
California and on BLM land. So we can share those with you as 
well.
    [The information follows:]

                                          ABANDONED MINE LANDS PROJECTS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                         Project
        Region/area/district           Unit/          Unit name         State        Project title        cost
                                     facility                                                           estimate
----------------------------------------------------------------------------------------------------------------
AKR................................     DENA   Denali................      AK   Close Hazardous Mine          32
                                                                                 to Improve Visitor
                                                                                 Safety.
AKR................................     KEFJ   Kenai Fjords..........      AK   Install Gate to              179
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Remote
                                                                                 Locations (multiple
                                                                                 projects).
AKR................................     WRST   Wrangell-St. Elias....      AK   Install Gate to               71
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
MWR................................     BUFF   Buffalo National River      AR   Repair Fences to             396
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat.
IMR................................         CORCoronado..............      AZ   Install Gate to              868
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Remote
                                                                                 Locations (multiple
                                                                                 projects).
IMR................................     FOBO   Fort Bowie............      AZ   Install Gate to               54
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat.
PWR................................     PARA   Grand Canyon Para-          AZ   Install Gate to              164
                                                shant.                           Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
IMR................................     SAGU   Saguaro...............      AZ   Install Gate to              189
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
IMR................................     SAGU   Saguaro...............      AZ   Repair Fences to             324
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat.
IMR................................     SAGU   Saguaro...............      AZ   Remove Contaminated          418
                                                                                 Soil and Restore
                                                                                 Natural Landscape.
IMR................................     SAGU   Saguaro...............      AZ   Install Steel Cupola          54
                                                                                 to Protect Visitors
                                                                                 and Preserve Resource
                                                                                 Habitat.
IMR................................     SAGU   Saguaro...............      AZ   Seal Mine and Remove          54
                                                                                 Hazardous Structures
                                                                                 to Improve Visitor
                                                                                 Safety.
IMR................................     SAGU   Saguaro...............      AZ   Seal Hazardous Mine to        54
                                                                                 Protect Visitor and
                                                                                 Restore Natural
                                                                                 Landscape (multiple
                                                                                 projects).
PWR................................     DEVA   Death Valley..........        CA Install Gate to            1,688
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Keane
                                                                                 Wonder Mine.
PWR................................     DEVA   Death Valley..........        CA Install Gate to              304
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Greenwater
                                                                                 Valley.
PWR................................     DEVA   Death Valley..........        CA Install Gate to            1,958
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Skidoo
                                                                                 Mine.
PWR................................     DEVA   Death Valley..........        CA Install Gate to              939
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Remote
                                                                                 Locations (multiple
                                                                                 projects).
PWR................................     JOTR   Joshua Tree...........        CA Install Gate to            1,067
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
PWR................................     MOJA   Mojave................        CA Perform Initial            1,625
                                                                                 Temporary Mine
                                                                                 Closure (multiple
                                                                                 projects).
PWR................................     MOJA   Mojave................        CA Install Gate to              402
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Abandoned
                                                                                 Paymaster Mine.
PWR................................     MOJA   Mojave................        CA Install Gate to            4,494
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
PWR................................     MOJA   Mojave................        CA Restore Natural              308
                                                                                 Landscape and
                                                                                 Resource Habitat.
IMR................................     GRSA   Great Sand Dunes              CO Restore Natural            2,370
                                                National Preserve.               Landscape and
                                                                                 Resource Habitat.
PWR................................     LAME   Lake Mead.............      NV   Seal Hazardous Mine,         224
                                                                                 Install Gate, and
                                                                                 Restore Natural
                                                                                 Landscape (multiple
                                                                                 projects).
PWR................................     LAME   Lake Mead.............      NV   Seal Hazardous Mine           21
                                                                                 and Restore Natural
                                                                                 Landscape (multiple
                                                                                 projects).
PWR................................     LAME   Lake Mead.............      NV   Install Gate to              124
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
MWR................................         CUVCuyahoga Valley.......      OH   Close Four Hazardous         126
                                                                                 Abandoned Oil and Gas
                                                                                 Wells and Restore
                                                                                 Natural Landscape.
SER................................     BISO   Big South Fork              TN   Install Gate to              212
                                                National River and               Protect Visitors and
                                                Recreation Area.                 Preserve Resource
                                                                                 Habitat.
SER................................     BISO   Big South Fork              TN   Close Eight Hazardous      2,862
                                                National River and               Abandoned Oil and Gas
                                                Recreation Area.                 Wells and Restore
                                                                                 Natural Landscape.
IMR................................     BITH   Big Thicket...........      TX   Remove Two Oil and Gas       540
                                                                                 Wells and Restore
                                                                                 Natural Landscape.
IMR................................       GLCA Glen Canyon...........      UT   Install Gate to               81
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat.
NER................................     NERI   New River Gorge             WV   Install Gate to              226
                                                National River.                  Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
----------------------------------------------------------------------------------------------------------------

                             BRIAN O'NEILL

    Senator Feinstein. I also would like to thank you--I was 
reading your testimony--for including the statement on Brian 
O'Neill. His memorial service--this was a wonderful park 
superintendent of the Golden Gate recreation area, and he was 
enormously popular. And I think 3,000 people turned out for a 
memorial service, which is really quite unusual and wonderful. 
So thank you for your comments in your written testimony. They 
are appreciated.
    Secretary Salazar. I appreciate that, Senator Feinstein. 
Let me just say, if I may, that Brian O'Neill was one of the 
heroes of our National Park System, and one of the truths about 
this Department is the 73,000 employees, which include the 
seasonals that we have onboard, they are very good and 
wonderful public servants. And whether they work in Tennessee 
or in the Dakotas or in California, it has been one of the 
highlights of my time at Interior.
    Senator Feinstein. Thank you.
    Senator.
    Senator Alexander. Thank you.

                  GREAT SMOKY MOUNTAINS NATIONAL PARK

    Mr. Secretary, first, we very much hope you will be able to 
come to the Great Smoky Mountains 75th anniversary celebration 
in the fall. And if you can, you will be welcomed by lots of 
people. We hope the President can come as well. He has been 
invited by the Governors of North Carolina and Tennessee.
    Would you put on your list for after you get a few more 
employees onboard the Smokies, the air tour management plan, 
the overflights of the National Parks? That is an issue in some 
places, and a law was passed. Senator Akaka did a lot of work 
on it in 2000. It is an argument between the FAA and the 
National Park Service, and we can talk about it sometime. But I 
would like to get that going. I would like to see one, for 
example, for the Great Smoky Mountains area.

                            RENEWABLE ENERGY

    Second, just a couple of observations on what was said 
earlier, you mentioned Hemlock. Now I don't want to get into an 
energy debate with you because I am talking about landscape.
    We do have these two new solar plants making polysilicon in 
Tennessee. They are billion dollar investments. It goes to make 
solar cells. We are trying to be a solar hub down there of 
energy research with Oak Ridge and with Sharp Manufacturing in 
Memphis. But what is interesting to note is each of the two 
polysilicon plants, including the one you mentioned, use 120 
megawatts of electricity.
    Now the only--the Governor has started a 5 megawatt solar 
facility in Tennessee. It covers 20 acres. In other words, 
those solar jobs wouldn't be there if they were relying on 
windmills and solar energy. They have to get their energy from 
nuclear and coal and natural gas in order to be able to be in 
Tennessee. One hundred twenty megawatts is a huge amount.
    Second, I totally agree with your focus on wind power 
offshore. I mean, I think that makes the most sense. The 
question it raises to me, as you do your planning, is one 
reason we thought that 10 miles offshore might be good for oil 
and gas drilling is you couldn't see it 10 miles offshore. You 
would have to go 15 or 16 miles offshore not to be able to see 
the big wind turbines, and you might want to think about that.
    And that also raises the question to me again of if you are 
going to do that on the east coast and the west coast, then why 
would we spend hundreds of millions of taxpayer dollars and 
ratepayer dollars trying to bring wind from North Dakota to New 
York City, when all you have got to do is plug it in, as you 
have said, from out there?
    But here is my question. Listening to Senator Feinstein and 
others, someone said, I believe the chairman, that there were 
47,000 abandoned mines across the country?
    Senator Feinstein. No, in California.
    Senator Alexander. In California. Well, if 20 percent of 
our electricity is wind, that would take 130,000 wind turbines 
that are 50 stories tall, 2 megawatts each. So even if we could 
think about an appropriate place to put them, wouldn't it be a 
good idea to require the developers to put up a bond to take 
them down if they don't use them anymore?
    Because the subsidy might go away, in which case many of 
them wouldn't be viable. The price of energy might change. Let 
us say we have a breakthrough in solar power, and suddenly, it 
is cheap. Everybody says rather than put up windmills, we will 
just put panels on our rooftops.
    Or they wear out after about 15 years, and wouldn't it be a 
good idea to require a bond so that we don't have Senators 20 
years from now coming with the abandoned windmill legislation, 
like Senator Feinstein is about to come forward with the 
abandoned mine legislation?
    Senator Feinstein. And you can be assured if I am around, I 
will.
    Senator Alexander. I am sure you will be around.
    Senator Feinstein. I hope so.
    Senator Alexander. But what about the bond idea?
    Secretary Salazar. The bond idea makes sense. What we need 
to do is make sure that as we are permitting renewable energy 
projects, that we are doing it cradle-to-grave. That is to say 
from the permit and the environmental assessments to the end of 
the project and the decommissioning of the project to make sure 
that the landscape and the environment is restored back to its 
original condition. It is very much something that is on our 
agenda.
    Just very quickly, I will get back to you on the helicopter 
flights in general.
    Senator Alexander. Sure.
    Secretary Salazar. On nuclear, you raised that a couple of 
times, Senator Alexander. We are very open, as part of the 
Obama energy comprehensive plan, to look at nuclear as being 
part of our energy program for the Nation.
    And third, I want to comment just a little bit in terms of 
the Dakotas and the height and the winds from the high plains. 
There is, at the end of the day, in terms of onshore wind, what 
we have to do is deal with the reality of transmission. It may 
be that the great wind resource, which we do have in the 
Dakotas and places like Wyoming, and other places, we will be 
able to provide power into places like Chicago and the Midwest 
and tie into a system where we can move energy around.
    That is why we have to be very thoughtful with respect to 
where we are locating the renewable energy generation 
facilities, but also be very thoughtful about how we are 
placing them relative to our transmission capabilities which we 
currently have and transmission capabilities to be built in the 
future.

                    LAND AND WATER CONSERVATION FUND

    Senator Alexander. Madam Chairman, if I could only--say I 
haven't asked the Secretary questions about the Land and Water 
Conservation Fund. But he knows how interested I am in 
supporting him in those efforts, how much I enjoyed working 
with him on those items before. And I do think--and I know of 
his interest in this, and I do think he has an opportunity to 
leave a great legacy in that area. And I hope to be able to 
support that and to work with him on it as we have before.
    Senator Feinstein. Thank you very much, Senator.
    We are joined by Senator Dorgan. Senator, please, take 
over.
    Senator Dorgan. Thank you very much, Senator Feinstein.
    I apologize that I have been delayed at another hearing.
    Secretary Salazar, thank you for being with us.
    Mr. Secretary, you were in North Dakota recently visiting 
an Indian tribe and some energy projects. I want to ask you 
about something we talked about then, and it is not a big 
national policy, but it is one that is an irritant for a lot of 
folks.

                ELK AT THEODORE ROOSEVELT NATIONAL PARK

    We have the Theodore Roosevelt National Park in the 
Badlands, and we have a problem with overpopulation of elk. And 
so, the question was how do you thin the elk herd? And 
originally, the National Park Service talked about maybe hiring 
Federal sharpshooters and then using helicopters to transport 
out the carcasses, which is just completely devoid of common 
sense.
    And so, in the Grand Tetons, for 50 years, there has been 
an opportunity when they have to thin the herd, they go ahead 
and qualify certain hunters who are capable hunters, allow them 
to come in as agents and thin the herd, and take one elk 
carcass per hunter out of the park.
    Do it without any Federal cost at all, no helicopters, 
Federal sharpshooters. And so, I have been trying to get them 
to see if I could get to the same position in North Dakota, the 
Theodore Roosevelt National Park.
    So they have held a bunch of meetings now, a good many 
meetings across the State, not allowing anybody to speak at the 
meetings, which is a very curious thing. And now they are 
thinking maybe they will allow some hunters, but not allow any 
hunter to take the meat.
    So the problem is they have just got themselves wound 
around a tree, like the rope around a tree, trying to figure 
out what should take you and me about 10 minutes to come to a 
conclusion on.
    Can you help us get to a conclusion that just allows the 
Federal Government to get the elk herd thinned without spending 
Federal money and allowing qualified hunters to come in and 
take the meat home? And it is all over, and we can free up a 
little time with these big old planners down at the Park 
Service who have just met themselves coming and going trying to 
figure it out?
    Secretary Salazar. Senator Dorgan, the answer is yes. Let 
me say that I very much enjoyed my visit to North Dakota to 
review the carbon sequestration program, which is the only one 
in the Western Hemisphere which is actually up and running, and 
to do the work that we did at the Indian reservations and other 
things that we did at your invitation in North Dakota.
    The Theodore Roosevelt National Park and the elk issue is 
one I think which calls out for common sense solutions, and 
that is what we will push. I do now have a list of about 1,000 
items that have piled up from United States Senators, members 
of the United States Congress and Governors, and I need to get 
people into place so that I can start executing on some of the 
requests that have been made of me. This is one which is on my 
radar screen, as you and I had discussed.
    At Rocky Mountain National Park, we came up with a common 
sense solution that involved hunting and that uses the reality, 
which we all know, those of us who come from that background, 
that hunting is, in fact, a wildlife management tool. If we 
have elk as wildlife in our National Parks, there is a way in 
which we can do it in a common sense way that still protects 
the mission of the National Park Service and National Park 
units.
    Senator Dorgan. Mr. Secretary, I have a lot of confidence 
in you. So I look forward to working with you on that common 
sense solution.

                     INDIAN COUNTRY LAW ENFORCEMENT

    One final question. As you know, I chair the Indian Affairs 
Committee, and we have very serious law enforcement problems on 
Indian reservations. One in three Indian women will be raped or 
sexually assaulted during their lifetime. On some Indian 
reservations, on the Standing Rock Reservation that straddles 
North and South Dakota, the rate of violent crime is nearly six 
times that of the national average--not double, triple, or 
quadruple, six times.
    And you have I believe 9 law enforcement officers that are 
providing 24 hours a day, 7 days a week law enforcement on an 
area the size of the State of Connecticut. Obviously, an 
emergency call for law enforcement help might be answered in 8 
hours. It could be the next day on an emergency basis. So we 
have got all of these problems.
    We have a place called Artesia, New Mexico, training tribal 
police candidates. They get about 150 people a year into 
Artesia and graduate about 50 percent of them. So we get about 
80 new graduates each year in tribal law enforcement issues.
    And we need to establish a second area. I have talked to 
you about that. And I just wanted to especially call your 
attention to the need in the BIA that you are involved with 
down at Interior to help us address this serious law 
enforcement problem. It is urgent on many reservations in many 
States across the country.
    And if you would work with us on that, I would sure 
appreciate it. And we do need to establish a second location 
for an Indian police academy. We obviously need to be 
graduating more than 80 a year, and you and I have talked about 
that as well.
    So you inherit a pretty big job. And by the way, 
congratulations on your selection for the head of the BIA, the 
Assistant Secretary's job that has been open and vacant for 
half of the last, I believe, 5 or 6 years, which is shameful. 
But you have a good candidate that we have now moved through 
the United States Senate. I think that is going to help a great 
deal.
    Secretary Salazar. Thank you, Senator Dorgan.
    And let me say thank you as well for your leadership and 
advocacy in getting Larry Echo Hawk confirmed as Assistant 
Secretary for Indian Affairs. I have already met with him. This 
was his first week on the job, and we have placed these issues 
on his agenda.
    Since the Assistant Secretary for Policy, Management, and 
Budget was just confirmed and is sitting right behind me, I 
will ask Rhea Suh to take a look at the very question which you 
raise. I think we have a $500,000 increase to provide an 
outreach program for police training from the current existing 
academy.
    Senator Dorgan. That is correct.
    Secretary Salazar. It seems to me the concept that you 
raise of having an academy that is not in Artesia, New Mexico, 
but an additional one up in the northern part of the country is 
one that makes some sense conceptually. Let me put that on 
Rhea's screen and Larry Echo Hawk's screen and let us come back 
to you with something that we might be able to do.

                           ENERGY DEVELOPMENT

    Senator Dorgan. And one final thank you. On energy 
development, particularly oil development--in our State, as you 
know, oil development was occurring north, south, and west of 
the Indian reservation Three Affiliated Tribes.
    It was the largest assessed recoverable oil reserve in the 
history of the Lower 48 States, called the Bakken Shale.
    We had up to 100 rigs drilling new wells every 30 or 35 
days and moving. And if you got a map and see where they are 
going to drill the new wells, they weren't drilling them on the 
Indian reservation, despite the fact that was right in the 
middle of ground zero. It was because there was a 49-step 
process and 4 different Federal offices that had to do with all 
kinds of issues, and so the result was we didn't have any wells 
up there that were being drilled.
    You and your former Interior Secretary have addressed this, 
and we now have some capability, and we are seeing some wells 
drilled finally on the reservations. So that is a big start.
    I hope you will pay a lot of attention to that because the 
bureaucracy is like walking through wet cement. You have got a 
49-step process and 4 different agencies inside of the Interior 
that have to do approvals. We need to streamline that somehow 
because we need to have energy development on these Indian 
reservations as well.
    So thanks for your work on it, and your predecessor did 
some good work as well. We appreciate that.
    Secretary Salazar. I agree.

                     POINT REYES NATIONAL SEASHORE

    Senator Feinstein. If I might, Mr. Secretary, you might 
want to take a look overall at the policies. I think I told you 
about the whitetail deer in the Point Reyes National Seashore, 
and there was helicopters shooting of these deer by the Park 
Service.
    They are not a native species. They are loved by the 
residents. They are beautiful deer. And so, the Park Service 
decided they were going to shoot them all, and they put out the 
helicopters. And I heard immediately from the residents who 
were very upset about it, and it was a tussle. But finally, the 
way it was resolved was that the helicopters shooting would 
stop and that birth control would take care of the remaining 
population.
    But it is really concerning. I think there ought to be a 
review of what these policies are because elk is good to eat, 
too. Why shouldn't hunters be able to do some hunting on a 
regulated basis and take home the meat?
    I mean, this business of running helicopters over and 
shooting whitetail deer, I mean it is terrible.
    Senator Dorgan. Senator Feinstein, if I might just yield on 
that point? We generally have a no hunting provision in the law 
with respect to National Parks, but that should not apply to a 
program by which the Park Service or those that are running the 
parks decide they have got to thin a herd. Why would they not 
then use qualified hunters?
    But this nutty idea of going out and hiring a bunch of 
Federal sharpshooters and helicopters, you know, the sky is the 
limit apparently with the budgets of some of these agencies. 
All we need is just a good strong dose of common sense to fix 
these things.

                      WILD HORSE AND BURRO PROGRAM

    Senator Feinstein. One last issue, if I might? And that is 
the Wild Horse and Burro Program. This is run by the BLM, and 
it is proposed to increase from $41 million to $67 million. It 
is a 63 percent increase.
    And the budget attributes the problem to a dramatic 
increase in holding costs resulting from a decline in the 
adoption market. And it goes on to say that program costs--and 
this is a quote--``would continue to increase significantly in 
future years unless new and innovative management approaches 
are implemented.''
    So these costs are rising steadily. There is an 
alternative, and I would like to hear your thought.
    Madeleine Pickens has come in and spoken with me, proposing 
to create a horse sanctuary. I believe she is actually looking 
at some land in Nevada, whereby she would take many of the 
horses currently being held by the Government and allow them to 
roam free. This is a 540,000-acre ranch in Nevada. And in 
return, and the Government would give her $500 per head in an 
animal stipend.
    Now are you familiar with this proposal? Have you had a 
chance to look at it?
    Secretary Salazar. I am familiar, first, with the problem, 
and second, I am familiar with Ms. Pickens's proposal. I am not 
pre-judging what we will do there, but it, frankly, strikes me 
that paying $500 a year per horse, you will soon in 10 years 
pay $5,000 per horse. In 20 years, it is $10,000. In 30 years, 
it is $30,000.
    Senator Feinstein. So the problem is that $500?
    Secretary Salazar. Frankly, I think we need a whole new 
strategy with respect to how we deal with this mushrooming 
problem on our public lands. I can think of the needs that you 
have to balance out here in Congress, we have to balance in the 
administration.
    Frankly, having us come before you today and say $41 
million is not sufficient, we need $67 million in order to deal 
with the wild horse and burro problem, I think, is a reflection 
of a failed strategy that we have had with respect to wild 
horses and burros.
    I will, as soon as I have an Assistant Secretary for Land 
and Minerals and a BLM Director, put them on task to come up 
with a new strategic plan on how we deal with this issue.
    Senator Feinstein. Right. I would appreciate your keeping 
me advised. As an old horse person, these wild horses have a 
real place in our country. And I understand the growth, but 
there might be some response in terms of a proposal from the 
Government to her.
    I understand your per-head cost. Maybe it is a fixed fee 
for over a period of the next 5 to 10 years or something like 
that. If she were to obtain the ranch and run it, I mean, she 
would have to provide the people and the food, the feed, which 
is not inexpensive for so many horses.
    Secretary Salazar. If I may, Senator Feinstein, I would 
like to comment. The problem that we have with horses out in 
the wild range is that, frankly, because of the cost of feed, 
what many people have done who are horse owners is basically 
turn these horses out onto the public lands. What was once a 
horse owned in private ownership essentially becomes a charge 
of the Federal Government. I think there is an unfairness with 
respect to that.
    Senator Feinstein. That is right. I would agree.
    Secretary Salazar. It is no different, in fact, than what 
is happening in the Everglades, where Senator Nelson has made a 
legitimate significant issue of the Burmese python, where 
people with pythons have essentially decided that they are 
going to turn their pythons out into the Everglades. Today, we 
have 150,000, it is estimated, pythons that are taking over the 
Everglades. A nonnative invasive species.
    Senator Feinstein. Oh, my goodness.
    Secretary Salazar. And those are the kind of problems that 
end up becoming charges of the Federal Government, which then 
we have to deal with. Those are the kinds of issues that I 
think require us to do some strategic thinking about how we are 
going to deal with them, and I will do that.
    Senator Feinstein. I appreciate it. Thank you very much.
    Do you have any other comments?
    Senator Alexander. Only to say to the Senator from North 
Dakota, we will take some of the elk. We have been trying to 
get more into the Smokies.
    And second, we have some old boys in east Tennessee who 
they give night goggle visions to and they go out and shoot 
hogs at night, and that is how we get rid of them. And we will 
loan them to you.
    Senator Dorgan. We have got plenty of hunters in North 
Dakota that will find their mark. But are you looking for live 
elk or dead elk?
    Well, then you just send some trucks.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Well, we may have accomplished something 
this morning after all.
    Thank you very much, Mr. Secretary. It is good to have you 
aboard. It is good to work with you, and this subcommittee 
looks to do right by you, too. So thank you very much.
    Secretary Salazar. Thank you very much, Senator Feinstein, 
Alexander, Dorgan, and Reed, everybody else who is here.
    Senator Feinstein. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Questions Submitted by Senator Byron L. Dorgan

                     INDIAN GUARANTEED LOAN PROGRAM

    Question. The Department's Office of Indian Energy and Economic 
Development provides much needed access to capital in Indian country 
through its Indian Guaranteed Loan Program. This program provides 
access to financial capital by guaranteeing and insuring loans and 
tribal bonds to promote reservation economic development. The Program 
supports the development of Indian-owned businesses, which in turn 
creates reservation jobs. This program has proven to be one of the most 
successful Federal economic development programs in the Nation. The 
Program currently leverages appropriated dollars at a 13 to 1 ratio. 
This program has generated jobs and employment opportunities from the 
resulting growth and expansion of reservation economies. The default 
rate under this program is less than 1.5 percent annually, far 
outperforming other federally guaranteed loan programs. The Program has 
been underutilized in recent years. In fiscal year 2008, more than a 
dozen traditional and renewable energy projects were not funded because 
of the Office's limited budget. In addition, this effective program has 
historically not kept up with inflation.
    Are you able to meet demand for this program?
    Answer. In 2008 and 2009 the Department of the Interior worked with 
potential borrowers and lenders interested in the Guaranteed Loan 
Program to identify qualified projects and allocate the available loan 
ceiling for each fiscal year. Projects that could not be serviced 
during a given fiscal year are addressed the next fiscal year to the 
greatest extent possible.
    Question. What is the percentage of applications you are able to 
finance each fiscal year?
    Answer. In 2008, we were able to fund 27 guaranteed loans and 18 
insured loans and expend 100 percent of our loan ceiling. Because of 
the nature of the program and our hands-on coordination with the 
lenders, it is not possible to provide a percentage answer. During 
preliminary discussions, we indicate to the lending community whether 
or not the project would qualify for the program and if it does what 
the likelihood would be of obtaining an allocation during that fiscal 
year.
    Question. Are you able to finance energy projects with the current 
funding?
    Answer. We are able to fund projects similar to those we have 
funded in the past. This includes energy projects.
    Question. Would you support doubling or tripling the funding for 
the Indian Guaranteed Loan Program so that it can accommodate demand 
and energy projects that require greater capital investment?
    Answer. Development of renewable and conventional energy resources 
in an ownership position is critical for many tribes who rely on these 
resources for economic development or economic diversity. We would be 
able to manage any increased funding and have the technical staff 
available to evaluate energy development projects for inclusion in the 
Guaranteed Loan Program.

                       ADMINISTRATIVE COST GRANTS

    Question. Administrative Cost Grants are used by those self-
governance tribes who take over the operation of Bureau of Indian 
Education schools. The Administrative Cost Grant funds are used to 
cover the costs of the vital administrative, management, auditing, and 
fiscal accounting functions that tribal school boards must perform 
pursuant to Federal law and prudent management practice. Currently, 
these costs are being funded at only 62.36 percent. This level of 
funding creates a shortfall that the tribe either must make up from 
some other funding source, or services to students must be cut back. 
The funding for administrative cost grants has not been increased since 
2003.
    In the fiscal year 2010 budget request, the administration did 
propose an increase in Bureau of Indian Affairs contract support costs 
of $5.5 million, and an increase of $107 million for Indian Health 
Service support costs. However, no increase was proposed for 
Administrative Cost Grants.
    Could you please explain the administration's reasoning in 
requesting increases in Bureau of Indian Affairs and Indian Health 
Service support costs, but not for tribally operated schools?
    Answer. The 2010 President's budget addressed many of the 
challenges in Indian Country. The $5.5 million increase for Contract 
Support and the $2 million increase for the Indian Self-Determination 
Fund support tribal management activities, and provide the resources 
necessary for tribes to manage their own programs.
    Although there is not an increase for Administrative Cost Grants, 
the 2010 President's budget sustains congressional increases for the 
Bureau of Indian Education (BIE) in 2009, and provides an additional 
increase of $72 million for several key activities that will improve 
Indian education. The 2010 request includes $391.7 million for Indian 
Student Equality Program (ISEP) formula funds, an additional $17 
million over 2009. This is one of the primary sources of funding for 
the BIE's 169 elementary and secondary schools and 14 dorms. Funds 
directly support schools for core operating costs, such as salaries for 
teachers, aides, administrators, support staff, and supplies, and 
classroom materials.
    Facility Operations, under Elementary and Secondary Programs, is 
provided an additional $2 million in this request. The program funds 
operational expenses, such as electricity and custodial services, for 
educational facilities at all 183 BIE schools and dormitories. Schools 
are operated and maintained in order to ensure their continued safety 
and usefulness for educational purposes. Additional funds are included 
in the construction program for major and minor improvement projects.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson

    Question.  It is my understanding that the United States Geological 
Survey (USGS) and the University of Nebraska--Lincoln have completed a 
major global climate change/water study that is designed to form the 
basis for a major cooperative research agenda for the Platte River and 
the High Plains. As you know this is a very productive and ecologically 
diverse area. What are your plans for this study and have you included 
any funding in the fiscal year 2010 budget for pursuing 
recommendations?
    Answer. In 2009, the USGS is completing a science plan for the 
Great Platte River Basin to address the effects of climate impacts on 
sensitive ecosystems, natural resources, and human infrastructure. The 
report, Climate-Impacts Science Plan for the Greater Platte River 
Basin, is to be published by early 2010. The 2010 budget request does 
include funds for efforts such as this; however, project funding levels 
have yet to be determined.
    Question.  Since water availability and use are of increasing 
concern. There are many competing uses for water. Climate variability 
and land use are having an impact. How do you see the role of the 
Department of the Interior evolving or changing with respect to water? 
How do you expect to interact with other departments and agencies?
    Answer. USGS scientists are increasing their research focus on the 
links between water availability and climate change, climate 
variability and land use. Our studies have demonstrated a number of 
emerging problems associated with the effects of earlier snowmelt and 
increased rainfall versus snowfall in western mountains on water 
supply. A recent example of improved collaboration among Federal 
agencies (USGS, Bureau of Reclamation, NOAA, and U.S. Army Corps of 
Engineers) led to the 2009 USGS publication of ``Climate Change and 
Water Resources Management: A Federal Perspective'', jointly authored 
by the four agencies as USGS Circular 1331.
    To focus our efforts on the issue of water availability and water 
use, the USGS is preparing an implementation plan for a National Water 
Availability and Use Assessment of the United States as called for in 
both the USGS Science Strategy, Circular 1309, Facing Tomorrow's 
Challenges--U.S. Geological Survey Science in the Decade 2007-2017 and 
in the Omnibus Public Land Management Act of 2009 (Public Law 111-11) 
signed by the President on March 30, 2009.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester

    Question. If the Department of the Interior were to cut AML funding 
from certified States does the agency have plans for providing 
additional resources to cleanup mine sites in States like Montana?
    Answer. The President's budget for fiscal year 2010 proposes to 
eliminate payments to certified States and tribes. Therefore, the 
projection for payments to be made to States and tribes in fiscal year 
2010 will decrease by $141.5 million, to $232.4 million. The 
elimination of these payments will focus AML funding on the most 
hazardous coal sites and high-priority coal problems.
    Question. Has the Department considered alternative proposals that 
would ensure that all AML funding for certified States is directed 
toward either coal or hardrock mine cleanup to meet the original goals 
of the reclamation program to reduce threats to health and safety and 
clean up our air and water?
    Answer. The Surface Mining Control and Reclemation Act of 1977 
amendments allow certified States and tribes to use their AML funding 
for coal on hard rock mine reclamation. The President's budget for 
fiscal year 2010 proposes to eliminate payments to certified States and 
tribes. Therefore, the projection for payments to be made to States and 
tribes in fiscal year 2010 will decrease by $141.5 million, to $232.4 
million. The elimination of these payments will focus AML funding on 
remaining high-priority coal problems.
    Question. How will the Department make up for the critical shift in 
funding away from housing improvement in the Housing Improvement 
Program (HIP), which helps the poorest of the poor in Indian country?
    Answer. The 2010 President's budget requests $12.6 million for the 
HIP, and an additional $1.1 million in regional oversight for the 
management of the program. This combined funding of $13.7 million is 
equivalent to the 2009 enacted level. The reduction of $1.1 million 
from the HIP line item in 2010 and the corresponding $1.1 million 
increase in regional oversight was a necessary shift in funding to fill 
a gap in the oversight of the program.
    Question. What is the Department schedule for spending Recovery Act 
funds on replacement school construction, given the dramatic cut in the 
Education Construction budget for fiscal year 2010? If appropriated, 
will your budget eliminate the current school construction back-log? If 
not, how can you justify this Indian Country funding cut, given the 
well-documented need?
    Answer. The Replacement School Construction program provides for 
replacement of existing school campuses based on a pre-established 
priority list of 14 schools published in the Federal Register on March 
24, 2004. The priority is based on addressing the overall condition of 
education facilities.
    The first four schools on the priority list have already been 
funded. The fifth school received funding in fiscal year 2009 and 
planning for the sixth school is scheduled for fiscal year 2010. The 
next three replacement schools on the priority list were selected for 
funding under the Recovery Act, as well as two components of prior 
replacement schools.
    The 2010 Education Construction budget is funded at $113 million, 
$15.8 million below the 2009 enacted level. This reduction takes into 
account the five schools that will be replaced with Recovery Act 
funding. The budget still funds planning and design for three schools, 
provides funding for three school facility replacements, and maintains 
necessary annual school maintenance funding.
    Question. Given the well-documented need to improve Indian 
healthcare and economies, why did you eliminate funding for the Inter 
Tribal Bison Cooperative (ITBC), a group that enables tribes to produce 
culturally appropriate, reduced fat meats, while supporting tribal 
agricultural business enterprises?
    Answer. The Bureau of Indian Affairs Natural Resources Management 
program assists tribes in the management, development, and protection 
of Indian trust land and natural resource assets. The fiscal year 2010 
budget provides over $23 million for this crucial work. As in prior 
years, programs including the ITBC will be considered for funding via a 
merit-based process that considers programs with existing memoranda of 
understanding, legal settlements, treaty rights, or that have shown to 
be of merit in the past. The fiscal year 2010 BIA budget does not 
contain specific funding for the ITBC, however the ITBC has fared well 
in previous merit-based review processes.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander

    Question. The last Environmental Impact Statement (EIS) that was 
conducted by the Department of the Interior concerning the impacts of 
coal mining in Tennessee was done in 1985. Many things have changed 
since that time. These changes include developments in the technology 
and methods used for mining, changes in marketplace conditions, new 
effluent standards developed by EPA, new information about threatened 
and endangered species, and the experience of both the State and the 
Office of Surface Mining (OSM) in regulating mining.
    Does OSM believe that a new EIS needs to be undertaken?
    Answer. After careful review, the OSM determined that preparing a 
comprehensive programmatic EIS to address all Federal regulation of 
coal mining in Tennessee under the National Environmental Policy Act of 
1969 (NEPA) is not warranted.
    Question. If not, why not?
    Answer. Under section 702(d) of the Surface Mining Control and 
Reclamation Act of 1977, adopting or revising a Federal program for a 
State is not a ``major Federal action'' subject to section 102 of NEPA. 
Hence, revising the Tennessee Federal program at 30 CFR Part 942, 
including the State-specific standards and procedures contained in it 
would not be a ``major Federal action'' under NEPA subject to 
preparation of an EIS. Further, OSM already complies fully with NEPA 
for every permitting action under the Tennessee Federal program. Each 
environmental review under NEPA for permitting actions takes into 
account all relevant information, including site-specific information 
needed to ensure the validity of our NEPA evaluation.
    Question. If the agency believes it's necessary, when could the 
agency begin this process?
    Answer. For the reasons stated in the two previous questions, OSM 
does not believe the process is necessary.
    Question. How long would it take?
    Answer. For the reasons stated in the two previous questions, OSM 
does not believe the process is necessary.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. Mr. Secretary, Ship Island, one Mississippi's Gulf Coast 
barrier islands, is an extremely popular beach and tourist spot. Since 
Hurricane Katrina hit in 2005, Ship Island has received too little 
attention from the National Park Service (NPS). Two years passed before 
temporary bathrooms and temporary shade structures were put on the 
island. Now Fort Massachusetts, a historic Civil War site, is in danger 
of losing its structural foundations due to severe beach erosion. Does 
the National Park Service plan to address this situation?
    Answer. Hurricane Katrina dealt a very serious blow to the Gulf 
Coast. Reconstruction efforts were slow to start, but will be completed 
at the Gulf Island National Seashore in May of 2010. NPS has begun 
repairs and rehabilitation efforts at Fort Massachusetts and 
obligations to date equal $34,263. The current approved budget is 
$730,000. This project will be completed in two phases with phase I due 
to be completed in 2009 and phase II due to be completed in May of 
2010.
    Question. The National Heritage Area Program has become 
increasingly popular, and funding for the program in your budget has 
remained static. Now that there are 49 heritage areas across the United 
States (including three in Mississippi), most areas are hardly funded, 
and the program office is understaffed. How does the Department of the 
Interior intend to solve these fundamental and growing problems with 
this program?
    Answer. The 2009 Omnibus Appropriations Act, Congress directed NPS 
to develop new guidelines for the Heritage Partnership program which 
require self-sufficiency plans for all areas within a reasonable period 
of time. It further directed NPS to require the adoption of a credible 
self-sufficiency plan or satisfactory work towards development of such 
a plan to be a condition of continued funding for all plans after 
fiscal year 2009. These guidelines and the plans will assist NPS to 
better manage this program.
    Question. Mr. Secretary, I have been working for several years to 
protect Cat Island within the NPS' Gulf Islands National Seashore in 
Mississippi. In 2008, I secured $2 million in NPS Land Acquisition 
funding for Cat Island and expected this project to be completed at the 
end of last year. I now understand the long-term protection of Cat 
Island has been tied up by an issue within the Department of the 
Interior's Appraisal Services Directorate. This is one of many projects 
across the country that has been delayed by appraisal issues within the 
Department. Given your interest in ramping up funding for the Land and 
Water Conservation Fund as illustrated by the Department's fiscal year 
2010 budget, how do you plan to address appraisal issues and the 
Appraisal Services Directorate to ensure projects such as Cat Island 
are completed on a timely basis while maintaining full accountability 
in the DOI appraisal process?
    Answer. Due to the unique requirements of the Cat Island project, 
the standard appraisal process was not required and the current status 
of the project is not a result of the appraisal process. Rather than 
have Appraisal Services provide a list of qualified appraisal 
contractors, the Conservation Fund selected the appraiser. The State of 
Mississippi conducted the initial review of the appraisal. However, 
because of internal concerns with the appraisal, the NPS subsequently 
requested a technical review by the Department's Appraisal Services 
Directorate (ASD). This technical review identified some issues that 
needed to be resolved, and options were identified to move the process 
forward but the family was not willing to consider these options.
    The appraisal process plays a significant role in the mission of 
Interior by identifying the fair market value of parcels of land for 
acquisition or exchange to protect stakeholder interests. To support 
the Presidential initiative to increase the LWCF, the budget request 
included additional funding for the ASD to increase capacity. The 
additional funding will be used to hire two expert appraisers to manage 
complex projects. The Department will also continue efforts to refine 
business processes and streamline contracting. Interior will examine 
process improvements, assess cycle times at each of the levels of the 
appraisal process and ultimately ensure cost effectiveness. We are 
working to improve the process to provide fair analysis; however, a 
detailed appraisal that incorporates evaluations of resource issues may 
take time to complete.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

    Question. I am pleased you are taking a thorough and careful 
approach to develop a program for energy development on the Outer 
Continental Shelf (OCS). Our Nation must work together on 
comprehensive, long-term actions that will stabilize gas and oil 
prices, prevent energy shortages, and achieve national energy 
independence. Resources on the OCS can contribute to these goals. The 
State of Maine has tremendous potential for offshore wind and tidal 
energy. Offshore wind resources just off the coast of Maine could 
provide more than 150 gigawatts of clean, renewable energy. Maine also 
has considerable potential for tidal energy. Yet, the OCS off the coast 
of Maine is not included in the potential areas of interest for 
renewable energy identified in your Draft Proposed Program (DPP) for 
OCS energy resources. When you release a revised program plan, will you 
add the tremendous resource off the coast of Maine to the areas of 
interest for renewable energy development?
    Answer. The DPP proposes an OCS Oil and Gas Leasing Program 
covering the years 2010-2015. In addition to OCS Lands Act statutory 
considerations, the DPP considers OCS renewable energy opportunities 
and denotes the potential for renewable energy development offshore of 
the State of Maine. Material Management Services (MMS) encourages 
States interested in developing renewable resources to submit comments 
to the DPP and the Department has extended the public comment period 
through September 21, 2009, for this purpose. The MMS will include in 
its analysis the considerable potential for renewable energy offshore 
of Maine and consider projects for which information is available.
    Question. I am a strong supporter of the National Park Service 
Centennial Initiative. This program would celebrate the 100th 
anniversary of the National Park System (NPS) by infusing our parks 
with a $1 billion mandatory spending fund over 10 years, which will be 
matched by an additional $1 billion in private donations. Eligible 
projects will be prioritized through input from both the public and a 
broad cross-section of NPS employees. My State of Maine is home to the 
first National Park east of the Mississippi River, Acadia National 
Park, a true gem on Maine's rocky coast. I believe this Challenge Fund 
should remain a priority for the National Park Service, but I 
understand there has been some difficulty identifying offsets for it. 
Will you work with Congress to identify offsets for the Centennial 
Challenge Fund so that we can support this important infusion of parks 
funding?
    Answer. In 2008, the Centennial Challenge invited individuals, 
foundations, businesses, and the private sector to contribute at least 
$100 million annually to support signature programs and projects in our 
National Parks. To encourage philanthropy and partnerships, the 2008 
budget proposed a new National Park Centennial Fund of $100 million 
that would match up to $100 million of mandatory funding annually for 
the next 10 years. In the 2008 appropriations act, Congress supported 
the concept and funded this initiative at $24.6 million through 
discretionary funds.
    The NPS went out to the public with their request and received 
tremendous response from the public and State and local governments. 
The response proposed matching funds for projects and programs totaling 
$380 million. The NPS went through a rigorous process to select the 
signature projects and programs to fund and leveraged the $24.6 million 
in Federal dollars with the proposed matching funds resulting in $52 
million invested in National Parks.
    In 2010, NPS has requested $25 million in discretionary funding for 
this program that will require at least $25 million in matching funds. 
If enacted, NPS will again go out to the public and the State and local 
governments to seek proposals.
    No offsets are needed for this program.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. The subcommittee will stand in recess.
    [Whereupon, at 11:08 a.m., Wednesday, June 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]

            Prepared Statement of the 1854 Treaty Authority

    The 1854 Treaty Authority is an inter-tribal natural resource 
organization which implements the off-reservation hunting, fishing, and 
gathering rights of the Grand Portage and Bois Forte Bands of the Lake 
Superior Chippewa in the area ceded to the United States in the Treaty 
of 1854. Our program is partially funded by a Public Law 93-638 
contract with the Bureau of Indian Affairs. The 1854 Authority 
respectfully requests an increase of $270,000 to our existing base 
funding in order to meet the increased cost of fulfilling our court-
ordered responsibilities.
    For background purposes, the Grand Portage, Bois Forte, and Fond du 
Lac Bands are signatories to the Treaty of September 30, 1854, 10 Stat. 
1109. In that Treaty the Bands ceded approximately 5,000,000 acres in 
northeastern Minnesota, reserving the right to hunt, fish, and gather 
in that territory. For most of the 20th century, those off-reservation 
rights lay dormant and unrecognized and tribal subsistence activities 
were relegated to lands within reservation boundaries.
    In 1985 the Bands went to Federal court seeking a declaratory 
judgment that the 1854 Treaty did indeed reserve these off-reservation 
rights and that the State of Minnesota had no authority to regulate 
tribal hunting, fishing, and gathering in the ceded territory. In the 
course of that litigation, the Bands and the State entered into 
negotiations concerning the exercise of treaty rights in the ceded 
territory. The negotiations resulted in an agreement which was approved 
by both the Minnesota Legislature and the tribal governments. The 
agreement was then entered as a consent decree in the Federal 
litigation such that the obligations of the parties are enforceable in 
court.
    One of the Bands' obligations under the agreement and court order 
was to create a means by which the Bands could effectively regulate 
Band member activities. After the Fond du Lac Band exercised its right 
to opt out with notice, the two remaining Bands formed the 1854 Treaty 
Authority. To this day, the 1854 Treaty Authority is the entity 
responsible for management of the Bands off-reservation hunting, 
fishing, and gathering rights.
    The 1854 Treaty Authority employs 10 full-time employees, 
consisting of an Administrative Division (3), a Resource Management 
Division (4) and an Enforcement Division (3). Two of the Resource 
Management positions are grant (temporary) funded. The organization is 
overseen by a Board of Directors comprised of the elected Tribal 
Councils of the Grand Portage and Bois Forte Bands. The 1854 Treaty 
Authority also has a judicial services division which retains a judge 
to hear matters arising under the tribal code.
    The 1854 Treaty Authority is a shining example of cooperation as we 
gather and share biological information with State, Federal, local, and 
other tribal governmental units. The 1854 Treaty Authority is 
authorized through a Joint Powers Agreement with the State of Minnesota 
to enforce State natural resource laws over non-tribal users and State 
Officers are authorized to enforce tribal law applicable to tribal 
users. The 1854 Treaty Authority has also conducted many natural 
resource improvement and research projects with the previously 
mentioned government entities, as well as organizations from the 
private sector.
    However, the 1854 Treaty Authority has struggled to maintain its 
full-time staff as we have not had an increase in base funding for our 
programs of any significance in many years, and in fact the base 
funding has decreased the last seven funding cycles. Simultaneously, 
cost of living expenses have been increasing at a regular rate, and 
some expenses have been increasing at an alarming rate (e.g., health 
insurance, vehicle insurance, fuel, etc.). Staff pay costs (wages plus 
benefits) combined with a decrease in base funding has compelled the 
Treaty Authority to absorb all the cost increases internally at the 
expense of other programs and services. However, in 2007 we were unable 
to do so and two vacated positions (one biologist and one enforcement) 
remain unfilled due to lack of funding. Of particular concern is the 
fact that our current enforcement staffing level (three officers) is 
woefully inadequate to cover the 5 million acres of ceded territory. 
The funding would go toward filling the two current vacancies and 
adding an additional officer.
    I understand that this is not a unique situation as budgets are 
tight everywhere, but at the same time the Federal Government has a 
trust responsibility to protect and preserve treaty rights. Those 
rights will be jeopardized if the 1854 Treaty Authority cannot fulfill 
its obligations as an effective manager of treaty resources. We 
strongly believe that we can continue to be an integral and positive 
component of natural resource management in northeastern Minnesota. As 
history shows in the short 20 years of our existence we have been able 
to establish the Bands rightful place among all stakeholders and 
provide services that stretch beyond tribal benefit. In short, the work 
we do benefits all users and citizens of this region.
    Without an increase in base funding, the Treaty Authority will be 
forced to make further changes that will result in diminishment of 
services to the Band members and lose the Bands' ability to participate 
meaningfully in natural resource management and conservation in 
northeastern Minnesota.
    Finally, I would like to close with a sincere thank you for the 
years of funding which have enabled the tribes success in this area and 
respectfully reiterate the request of an additional $270,000 in base 
funding to continue our work in the natural resource realm which is a 
positive for everyone.
                                 ______
                                 
 Prepared Statement of the American Association of Petroleum Geologists

    To the chair and members of the subcommittee: Thank you for this 
opportunity to provide testimony on behalf of the American Association 
of Petroleum Geologists (AAPG) about the importance of the geological 
programs conducted by the U.S. Geological Survey (USGS).
    AAPG is the world's largest scientific and professional geological 
association. The purpose of the association is to advance the science 
of geology, foster scientific research, and promote technology. AAPG 
has more than 34,000 members around the world, with roughly two-thirds 
living and working in the United States. These are the professional 
geoscientists in industry, government, and academia who practice, 
regulate, and teach the science and process of finding and producing 
energy resources from the Earth.
    AAPG strives to increase public awareness of the crucial role that 
the geosciences, and particularly petroleum geology, play in our 
society. The USGS is crucial to meeting these societal needs, and 
several of its programs deserve special attention by the subcommittee.

                     GEOLOGIC RESOURCE ASSESSMENTS

Energy Resources Program
    The USGS Energy Resources Program (ERP) conducts both basic and 
applied geoscience research focused on geologic energy resources (both 
domestic and international), including oil, natural gas, coal, coalbed 
methane, gas hydrates, geothermal, oil shale, bitumen, and heavy oil. 
ERP also conducts research on the environmental, economic, and human 
health impacts of the production and use of these resources. This 
research provides both the public and private sectors with vital 
information.
    An urgent problem that the ERP is currently working on is the 
preservation of geological and geophysical data. The Energy Policy Act 
of 2005 (EPACT 2005, Public Law 109-58) includes section 351 
Preservation of Geological and Geophysical Data. This program is 
designed to preserve geological, geophysical data, and engineering 
data, maps, well logs, and samples. It further envisages creating a 
national catalog of this archival material, and providing technical and 
financial assistance related to the archival material. As the act 
stipulated, the USGS has developed a plan to conduct this program, and 
is ready to go. It awaits sufficient appropriated funds to achieve the 
goals and objectives set forth in EPACT 2005.
    Why is preservation important? Responsible management and efficient 
development of natural resources requires access to the best available 
scientific information. Over many years industry, such as petroleum and 
mining companies, has invested billions of dollars to acquire 
geological and geophysical data. Because of changing company focus and 
economic conditions this data may no longer have value to the company 
that acquired it, and is in jeopardy of being discarded.
    But this data still has value to society. The data is valuable for 
further natural resources exploration and development, and can be 
applied to basic and applied earth systems research, environmental 
remediation, and natural-hazard mitigation. It is the type of data that 
will enable future generations of scientists and policy makers to 
address the Nation's energy, environmental, and natural-hazard 
challenges of the 21st century.
    The EPACT 2005 section 351 program was authorized at $30 million 
annually from fiscal year 2006 through fiscal year 2010. Historical 
allocations for this program have ranged from $750,000 to $1,000,000 
per year. These funding levels are inadequate to achieve this program's 
objectives.
    AAPG supports President Obama's fiscal year 2010 request to fund 
the Energy Resources Program activities at $29.7 million, and asks the 
subcommittee to additionally appropriate $30 million authorized by 
EPACT 2005 for the preservation of geological and geophysical data, 
bringing the total Energy Resource Program budget to $59.7 million.

                       MINERAL RESOURCES PROGRAM

    The USGS Mineral Resources Program (MRP) is the only Federal source 
for comprehensive information and analysis of mineral commodities and 
mineral materials. The United States is the world's largest consumer of 
mineral commodities, and processed materials of mineral origin 
accounted for more than $575 billion of the U.S. economy in 2007.
    It is therefore essential to this Nation's economic and national 
security that the Federal Government understands both the domestic and 
international supply and demand for minerals and mineral materials. 
This data is used throughout Government (Departments of Commerce, the 
Interior, Defense, and State; the Central Intelligence Agency; the 
Federal Reserve) and the private sector. There is no other source for 
this data and information.
    AAPG supports President Obama's fiscal year 2010 request for the 
Mineral Resources Program at $53.1 million, and urges the subcommittee 
to appropriate at that level.

               GEOLOGIC LANDSCAPE AND COASTAL ASSESSMENTS

National Cooperative Geologic Mapping Program (NCGMP)
    AAPG supports the NCGMP. This unique partnership between the 
Federal and State governments and the university community further 
demonstrates of the importance of geoscience to society. The geologic 
maps produced by this program are used for natural resource management, 
natural hazard mitigation, water resource management, environmental 
conservation and remediation, and land-use planning.
    NCGMP deserves special commendation for its EDMAP initiative. This 
university partnership enables students, working in a close mentoring 
relationship with faculty, to produce maps while learning essential 
mapping skills. As such, the program delivers an immediate return on 
the Federal investment in terms of beneficial maps, as well as a future 
return in the form of a trained and competent next generation 
workforce.
    AAPG supports President Obama's request of $28.1 million in funding 
for the NCGMP in fiscal year 2010, and to consider future increases to 
this program.
    Thank you for the opportunity to present this testimony to the 
subcommittee. And thank you for your leadership and support for the 
geosciences. As you deliberate appropriate funding levels for these 
USGS programs, please consider the important public policy implications 
these choices entail.
                                 ______
                                 
     Letter from the Alliance for Community Trees; American Forest 
   Foundation; City of Chicago Department of Streets and Sanitation, 
   Bureau of Forestry; City of Milwaukee Department of Public Works, 
     Forestry Division; Davey Institute; International Maple Syrup 
      Institute; National Association of State Foresters; Natural 
  Biodiversity; The Nature Conservancy; New York State Department of 
 Environmental Conservation; North American Maple Syrup Council, Inc.; 
   Partnership for Saving Threatened Forests; The Pennsylvania Game 
  Commission; Purdue University, Department of Entomology; Society of 
   Municipal Arborists; The State University of New York College of 
Environmental Science and Forestry; Union of Concerned Scientists; and 
 the University of Georgia, Center for Invasive Species and Ecosystem 
                                 Health
                                                     April 7, 2009.
Hon. Dianne Feinstein, 
Chairperson, Subcommittee on Interior, Environment, and Related 
        Agencies,
Washington, DC.
Hon. George Voinovich, 
Ranking Member, Subcommittee on Interior, Environment, and Related 
        Agencies,
Washington, DC.

RE: Fiscal year 2010 appropriation for the USDA Forest Service
    Dear Chairperson Feinstein and Ranking Member Voinovich: We urge 
the subcommittee on Interior, Environment, and Related Agencies to 
appropriate adequate funding for the USDA Forest Service to manage 
nonnative insects and plant diseases that threaten America's forests. 
We recommend an fiscal year 2010 appropriation of $140 million for the 
USDA Forest Service forest health management program. This level is 
about $17 million more than the current level of funding. In addition, 
we ask that you provide an increase of $3 million more than the fiscal 
year 2008 appropriations level for the ``Invasives R&D'' line item 
within the Forest Service research program.
    Our proposed funding levels would maintain at approximately current 
levels research aimed at improving detection and control methods for 
the emerald ash borer, hemlock woolly adelgid, sudden oak death (also 
called the phytophthora leaf and stem blight pathogen), gypsy moth, and 
other nonnative forest pests and diseases. Funding at our recommended 
level would also allow expanded research on the Sirex woodwasp, which 
poses a serious threat to pine resources across the continent.
    Our proposed significant increase in funding for the forest health 
protection program is intended to allow expanding that program so that 
it may address several newly detected pests (such as the ``1000-
canker'' disease killing black walnuts and the goldspotted oak borer in 
southern California) while simultaneously increasing efforts targeting 
the Asian longhorned beetle and maintaining programs that help contain 
the sudden oak death pathogen, emerald ash borer, hemlock woolly 
adelgid, Sirex woodwasp, laurel wilt disease, gypsy moth, wiliwili gall 
wasp, and ohia rust.
    The forest health program provides vital expertise in forest pests' 
biology and detection and management methodology that is crucial to the 
success of pest eradication and containment programs implemented by the 
USDA Animal and Plant Health Inspection Service (APHIS). As these 
forest pests are detected in new areas, the importance of the Forest 
Service's contribution rises. A particularly significant expansion is 
needed for forest health programs targeting the Asian longhorned beetle 
as a result of the detection in 2008 of a well-established and large 
infestation in Worcester, Massachusetts. This infestation places the 
Asian longhorned beetle on the very edge of the highly vulnerable 
northern hardwood forests reaching from New England into Minnesota. 
These forests support hardwood timber, maple syrup, and autumn foliage 
tourism industries as well as important biological and watershed 
values. The forest health program must significantly increase its 
funding for detection and control methods, which in recent years have 
received only $200,000.
    The USDA Forest Service has the lead responsibility for detecting 
and responding to any outbreaks of sudden oak death in the hardwood 
forests of the East. These detection programs must not be halted as 
infected plants continue to appear in Eastern States as a result of the 
movement of infected nursery plants.
    The emerald ash borer has now been detected in nine States. The 
Forest Service's forest health protection program provides expertise in 
detecting this elusive insect, in developing more effective tools to 
curtail its spread, and in advising landowners on how to respond to the 
threat. For example, the Forest Service helps to fund a Web site 
maintained by the Continental Forest Dialogue 
(www.dontmovefirewood.org) in order to educate the public not to 
transport possibly infested wood that can spread pests. It is vitally 
important that the Forest Service effort targeting this insect not be 
reduced.
    Finally, the forest health management program needs adequate 
funding to expand its early detection project. This program has been 
responsible for detecting more than a dozen introduced insects, 
including two which threaten the economically important pine forests of 
the Southeast: the Sirex woodwasp and Mediterranean pine beetle. The 
detection program now covers all States on a 3-year rotation. It now 
must develop and deploy methodologies to detect the highly damaging 
wood-boring beetles.
    The agency bearing the principal responsibility for eradicating 
newly introduced forest pests is not the USDA Forest Service, but 
rather the USDA APHIS, an agency under the jurisdiction of the 
Agriculture Appropriations subcommittee. The USDA Forest Service plays 
a critical support role by providing both management expertise and 
critical research--in close coordination with APHIS plant protection 
and quarantine and through cooperative funding agreements with State 
forestry, State departments of agriculture and State Land Grant 
Universities.
    Nevertheless, the subcommittee cannot achieve its goal of 
protecting the Nation's forests' health as long as funding shortfalls 
undermine USDA APHIS eradication programs. We encourage the 
subcommittee to work with the Agriculture, Rural Development, Food and 
Drug Administration, and Related Agencies Appropriations Subcommittee 
to find ways to increase funding for forest pest line items in the USDA 
APHIS emerging plant pest account.
            Sincerely,
                    Alice Ewen Walker, Executive Director, Alliance for 
                            Community Trees; Drue DeBerry, Senior Vice 
                            President--Conservation, American Forest 
                            Foundation; Joseph J. McCarthy, Senior City 
                            Forester, Bureau of Forestry, City of 
                            Chicago Department of Streets and 
                            Sanitation; David B. Sivyer, Forestry 
                            Services Manager, Forestry Division, City 
                            of Milwaukee Department of Public Works; 
                            Anand B. Persad, Ph.D., B.C.E., Regional 
                            Technical Advisor, Davey Institute; Gary 
                            Gaudette, President, International Maple 
                            Syrup Institute.
                    Jay Farrell, Executive Director, National 
                            Association of State Foresters; Kristin 
                            Sewak, Director, Natural Biodiversity; 
                            Robert L. Bendick, Director, Government 
                            Relations, The Nature Conservancy; Robert 
                            K. Davies, New York State Forester, New 
                            York State Department of Environmental 
                            Conservation; Michael A. Girard, President, 
                            North American Maple Syrup Council, Inc.; 
                            Fred Hain, Director, Partnership for Saving 
                            Threatened Forests.
                    Carl G. Roe, Executive Director, The Pennsylvania 
                            Game Commission; Steve Yaninek, Professor 
                            and Head, Department of Entomology, Purdue 
                            University; Dan Hartman, President, Society 
                            of Municipal Arborists; Cornelius B. 
                            Murphy, Jr., Ph.D., President, The State 
                            University of New York College of 
                            Environmental Science and Forestry; Phyllis 
                            N. Windle, Director, Invasive Species, 
                            Union of Concerned Scientists; Dr. G. Keith 
                            Douce, Co-Director, Center for Invasive 
                            Species & Ecosystem Health, and Professor 
                            of Entomology, College of Agricultural & 
                            Environmental Sciences, University of 
                            Georgia.
                                 ______
                                 
            Prepared Statement of the Americans for the Arts

    Americans for the Arts is pleased to submit written testimony to 
the Senate Appropriations Subcommittee on the Interior, Environment, 
and Related Agencies supporting fiscal year 2010 funding for the 
National Endowment for the Arts (NEA) at a level of $200 million.
    In March, my organization hosted Arts Advocacy Day on Capitol Hill, 
an annual grassroots gathering cosponsored by 82 national organizations 
representing dance, theatre, music literature, visual, and media arts--
the full landscape of American culture. Collectively, these groups 
represent tens of thousands of nonprofit and governmental cultural 
organizations at the State and local levels across the country. The 
united request that I present today is the result of the collaborative 
work of these passionate groups. My gratitude goes to all my colleagues 
who worked on bringing this important summit together.
    Last year Americans for the Arts testimony was devoted to the 
argument that the arts are a driver of industry whose jobs and 
collateral expenditures are proven economic catalysts that are the 
rival of any other segment of our economy. A year later I ask you to 
continue to help save those jobs which are still integral parts of the 
solution in solving this severe downturn.
    Trying economic times; a phrase I use intentionally not only for 
dramatic effect, but for the unavoidable truth of knowing that this 
testimony is offered to a subcommittee that deals with our country's 
purse strings. There will be no unseen elephant in the room about the 
severe economic downturn that is gripping our country--we know the 
elephant is in the room. The Nation's financial crisis is indeed having 
a devastating effect on our families, jobs, and communities and is 
appropriately at the forefront of all of our minds. And this 
subcommittee has shown leadership in advancing increased Federal 
resources for the arts and arts jobs during these most trying of 
economic times as we saw recently with the $10 million increase in this 
year's fiscal year 2009 omnibus bill and with the $50 million 
appropriation in the economic recovery bill.
    The arts community is eternally grateful for the congressional 
effort to preserve jobs in the cultural sector with the $50 million in 
the American Recovery and Reinvestment Act for the NEA. These funds 
will throw a much needed lifeline to the thousands of cultural 
institutions, artists, and community businesses that rely on a robust 
arts sector. It is hard for me to put into the proper context how 
grateful the creative community is that our sometimes overlooked 
contribution to the Nation's workforce was recognized by the new 
administration and Congress.
    This sentiment also extends, of course, to the $10 million boost to 
the annual NEA appropriation as well. Madam Chairman, your leadership 
has set a direct course toward restoring the NEA to the $176 million 
level it once had, and I hope that we will soon be looking beyond that 
marker in the years to come.
    The NEA, more so than many Federal agencies, has the infrastructure 
and dexterity to expedite relief to workers immediately, in accordance 
with the Obama administration's wishes that that these expenditures are 
of a quick and stimulative nature. And these are real jobs--jobs that 
cannot be outsourced. Creating the ability to extend production seasons 
means the employment of not just performers but of the entire apparatus 
that it takes to execute high-quality performances. These jobs are 
created in the United States and stay in the United States. I spoke 
earlier of the collateral benefits of cultural centers, but they are 
not the only beneficiaries of the recovery effort. By keeping those 
artists, artisans, production crews, educational programs, and local 
businesses working, you are relieving the burden on local governments 
as tax revenue keeps coming to the public coffers and eases pressure on 
the social safety net. This, of course, is like any other industry. NEA 
funding can be directly related to that effort.
    At the core of our membership are 4,000 local arts agencies. A 
local arts agency (LAA) is a community organization, or an agency of 
local government that supports cultural organizations, provides 
services to artists and/or arts organizations, and presents arts 
programming to the public. One of the most valuable aspects of an LAA 
to the community it serves is its ability to take public funds and 
responsibly re-grant the funding to grant applicants, often building in 
a requirement for those funds to be matched by corporate or private 
contributions. The NEA's economic recovery funding strategy recognized 
this and provided a grant category specifically for LAA's as a method 
of providing $100,000 or $250,000 grants at the local level. These 
grants awarded to LAAs will (a) speedily disburse local funding to all 
the arts disciplines; (b) help preserve and in some cases restore jobs 
for artists and administrators in the cultural workforce; and (c) serve 
to increase access to the arts by continuing their high-quality 
programs for audiences in towns across the country. I want to encourage 
this subcommittee to create a formal re-granting partnership program 
for local arts agencies to help the NEA better serve arts organization 
of all sizes in communities across the country.
    Local arts agencies also have their ear closest to the ground to 
provide Federal and State agencies with programmatic trends and a 
snapshot of the health of the arts field in every discipline. For 
example, in February, the Seattle Mayor's Office of Arts and Cultural 
Affairs, the Seattle Foundation, 4Culture, and the Paul G. Allen 
Foundation commissioned Helicon Collaborative to provide a quick scan 
of the key impacts that the economic recession has had on the cultural 
communities in the Pacific Northwest. Measuring the effects on revenue, 
programming, personnel, venues, and audiences revealed a multi-layer 
dilemma that is in direct consequence to the economic downturn. Decline 
in ticket sales to events ranges from 5 percent to 30 percent; 
contributed income is down 7 percent to 20 percent; and corporate 
donations and sponsorships a whopping 20 percent-50 percent. Arts 
organizations in previously immune cultural hub communities like 
Seattle have been cancelling or curtailing programming, and delaying 
openings of new installations and concert series.\1\
---------------------------------------------------------------------------
    \1\ The Economic Recession's Impact on Cultural Organizations in 
the Puget Sound, February, 2009.
---------------------------------------------------------------------------
    Here are some recent examples of the downturn's effects on specific 
institutions in communities across the country:
  --The City of Riverside, California funded the arts and cultural 
        affairs division at a limited level of $3 million last year. 
        This year's budget is expected to drop 7 percent.
  --Some of the largest Tacoma-area businesses have eliminated or 
        curtailed performing arts sponsorships for this year, and 
        possibly longer, including Russell Investments and Boeing.
  --Staff reductions and layoffs have taken place at the Phoenix Art 
        Museum, Phoenix Symphony, and Free Arts of Arizona.
  --Theatre West Virginia in Beckley was forced to sell off its assets 
        due to the loss of a $100,000 State grant. The 38-year-old 
        company's shows benefit the entire economy of the region--from 
        hotels to gas stations and restaurants.
  --The Tennessee Art Commission and Community Foundation grants saw a 
        9 percent cut in their grants budget.
  --The United Arts Council of Greensboro, North Carolina was forced to 
        cut 5 percent from the grants it planned to give to 13 local 
        arts groups. The council was forced to cut its budget by 12 
        percent for the year.
    But we do not believe that Government is the only answer in 
addressing the gaps in funding. Arts organizations are tightening their 
belts and using their creative talents to try and keep delivering the 
same high-quality productions, services and programming our communities 
have been used to. But Government is a necessary and vital partnership 
that is the catalyst for the large majority of the art community's 
support, the private sector, and individual giving.
    Earlier this year, the National Governor's Association issued a 
report titled, ``Arts & the Economy: Using Arts and Culture to 
Stimulate State Economic Development'' which provides excellent 
strategies to assist State governments in their efforts to develop new 
cultural assets and increase revenue streams. The report states, 
``Governors increasingly recognize the importance of the creative 
sector to their states' economy and ability to compete in the global 
marketplace.''
    In March, I had the opportunity to testify before the House 
Education and Labor Committee and Chairman George Miller on the impact 
of the arts in the economy and workforce. The Committee is charged with 
the authorization of the NEA and in my testimony it was incumbent on me 
to demonstrate how the vast diversity of support that enables the 
cultural sector to flourish is actually sparked by the infusion of 
Federal, State, and local government dollars.
    As much benefit as the arts provide to their communities, Federal 
funding has failed to keep pace to capture these upsides of the arts--
neither in terms of tracking with inflation, nor with as a steady share 
of the nonmilitary discretionary spending. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Thirty years ago, the NEA received a modest 12 cents per $100 of 
nonmilitary discretionary spending. Today, that is just 3 cents per 
$100. If the NEA simply maintained its 1979 percentage of discretionary 
funding (0.12 percent), its 2008 budget would have been $613 million.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    If the NEA's 1992 budget had merely kept pace with inflation, its 
2009 budget would be $265 million instead of $155 million.
Conclusion
    The arts must not be taken for granted. They are not only integral 
to our lives but also to our economy. Most citizens throughout America 
appreciate the arts for their intrinsic values--their beauty, vision, 
and inspiration; their ability to open new horizons and sharpen and 
challenge our thinking.
    But everyone should understand the essential contribution of the 
arts to the growth of our economy. The arts are not a frill. Rather, 
they provide cultural and economic benefits, and real jobs for real 
people. They are at the heart of countless U.S. industries that rely on 
talents fueled by design and creative content. Arts-centric jobs are 
core to building a new kind of workforce to compete in the 21st century 
global economy. The arts are fundamental to putting Americans back to 
work.
                                 ______
                                 
  Prepared Statement of the Association of Fish and Wildlife Agencies

    On behalf of the national Teaming with Wildlife Steering Committee, 
we urge you to support the president's request of $115 million for the 
State and Tribal Wildlife Grants program in the fiscal year 2010 
Interior, Environment, and Related Agencies Appropriations Act. This 
funding level would enhance the ability of State fish and wildlife 
agencies and their partners to implement Comprehensive Wildlife 
Conservation Strategies (State Wildlife Action Plans) and address the 
impacts of climate change on wildlife and their habitats.
    Teaming with Wildlife (www.teaming.com) is a coalition of more than 
6,000 organizations and businesses who support increased funding for 
State-level wildlife programs aimed at keeping wildlife from becoming 
endangered. The Teaming with Wildlife coalition includes a diverse 
partnership of organizations and businesses that represent hunters and 
anglers, birdwatchers, hikers, nature-based businesses, community 
organizations like visitors' bureaus, zoological institutions, and 
other conservationists who are working together to advance proactive 
wildlife conservation.
    The State and Tribal Wildlife Grants Program is the only Federal 
program dedicated to implementation of State Wildlife Action Plans, 
designed to conserve declining species and to keep more common species 
common. Congress required State and territorial fish and wildlife 
agencies to develop and implement these plans to reverse the decline of 
at-risk fish and wildlife. These plans are being used across the 
country to prioritize and guide wildlife conservation work. This work 
is helping to protect vital ecosystem services and recreational 
opportunities that are valued in the hundreds of billion of dollars and 
helping to sustain an economic engine that contributes millions of jobs 
to the economy.
    Addressing climate change is one of the most daunting tasks facing 
the conservation community. We support the addition of $40 million in 
climate change funding through the State Wildlife Grants program that 
will provide States and tribes with the resources they need to plan and 
implement conservation actions needed to mitigate the impacts of 
climate change and help wildlife adapt. However, State fish and 
wildlife agencies are facing significant budget declines during the 
economic downturn making it increasingly difficult to secure matching 
funds. Therefore, we respectfully ask that the subcommittee consider 
reducing the Federal:State match requirement for climate change 
activities to 90:10.
    The State and Tribal Wildlife Grants program makes efficient and 
effective use of scarce Federal resources and puts them on the ground 
in a smart and proactive manner before species become imperiled. 
Efforts to restore wildlife are often more costly and less successful 
after they become severely imperiled. Through conserving wildlife and 
therefore providing opportunities for hunting, fishing, and wildlife 
viewing, the State and Tribal Wildlife Grants program is helping to 
sustain an economic engine that contributes millions of jobs to the 
economy. The State and Tribal Wildlife Grants program provides States 
with a tool to avoid conservation catastrophes, concurrently saving 
wildlife and taxpayer dollars.
    Conservation organizations and private foundations are doing their 
part to augment Federal funding provided to State and Tribal Wildlife 
Grants Program. One such example is the Wildlife Opportunities Action 
Fund which has, since 2006, supported more than 35 grants and provided 
$3.2 million to a variety of local, regional, and national nonprofit 
conservation organizations for projects that strive to implement 
priority conservation activities outlined by the State Wildlife Action 
Plans.
    Following are two examples of projects funded by the State and 
Tribal Wildlife Grants program:

Conserving Tri-colored Blackbirds
    California is home to 99 percent of the world's population of 
tricolored blackbirds, which are listed as a State species of special 
concern. Along with the decline of native wetlands in California's 
Central Valley, the Tricolored Blackbird population has dropped 
severely in the last 60 years. While recent trends appear to indicate 
that the species population has stabilized at 250,000-300,000 birds, 
these numbers are far below the population in the 1930s. The birds 
commonly nest in silage fields, ditches and other areas around dairy 
farms in the San Joaquin Valley and in limited areas in southern 
California. This presents a serious risk when fields are ready for 
harvest and young birds cannot yet fly. An alliance of 16 partners have 
come together to conserve habitat and restore tricolored blackbird 
populations without listing the species as threatened or endangered. 
This diverse partnership includes the California Department of Fish and 
Game, Audubon California, California Farm Bureau, California 
Cattlemen's Association, Pacific Gas & Electric Company, and University 
of California. This voluntary and proactive effort will conserve the 
tricolored blackbird and may avoid another costly endangered species 
listing.

                       RECLAIMING AQUATIC HABITAT

    Panther Branch, a tributary to Island Creek, Morgan County, 
Tennessee had been severely impacted by acid mine drainage (AMD) and 
mine refuse from old underground mine workings. The mining activity 
occurred in the early 1900s and the workings have been abandoned for 
about 100 years. During the mining process thousands of cubic yards of 
refuse was produced and disposed of in the channel of Panther Branch. 
Acid mine drainage lowered the pH of the water to an uninhabitable 
level. The stream was virtually devoid of aquatic life. Using State 
Wildlife Grant funds, the Tennessee Wildlife Resources Agency partnered 
with the Tennessee Department of Environment and Conservation, to 
remove the refuse, restructure the stream channel, build an alkaline 
drainage system to reduce water acidity, and construct artificial 
wetlands to remove any dissolved metals. Completed in the spring of 
2007, Panther Branch is recolonizing with aquatic life.
    We are grateful for your past leadership in providing funding for 
the State and Tribal Wildlife Grants program. You have helped make this 
program and its emphasis on preventive conservation a priority for the 
U.S. Fish and Wildlife Service. We look forward to the U.S. Congress 
continuing to provide reliable and adequate funding to ensure the 
continued success of fish and wildlife conservation in all 50 States, 
the District of Columbia, and territories. Thank you for your time.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences (AIBS) encourages 
Congress to provide the Environmental Protection Agency's (EPA) Office 
of Research and Development (ORD) with at least $700 million for fiscal 
year 2010. Within this amount, we encourage you to provide at least 
$190 million for human health and ecosystem research. This funding 
level would help restore past funding cuts and make an important 
investment in our Nation's environmental sciences research enterprise.
    AIBS is a nonprofit scientific association dedicated to advancing 
biological research and education for the welfare of society. Founded 
in 1947 as a part of the National Academy of Sciences, AIBS became an 
independent, member-governed organization in the 1950's. AIBS is 
sustained by a robust membership of some 5,000 biologists and nearly 
200 professional societies and scientific organizations; the combined 
individual membership of the latter exceeds 250,000.
    As EPA's scientific division, ORD supports valuable extramural and 
intramural research that is used to understand, prevent, and mitigate 
environmental problems facing the United States. ORD research informs 
decisions made by public health and safety managers, resource managers, 
businesses, and other stakeholders concerned with climate change, air 
and water pollution, land management and restoration, and environmental 
contaminants. In short, ORD provides the scientific basis upon which 
EPA monitoring and enforcement programs are built.
    Unfortunately, a lack of investment in EPA science in recent years 
has hindered ORD's ability to fully meet its mission. Funding for 
research programs at EPA peaked in fiscal year 2004, when ORD was 
funded at $646.5 million. Since then, the budget has declined by more 
than $100 million. These budget cuts have come at the expense of the 
research needed by EPA to address emerging environmental challenges.
    Within ORD, research on human health and ecosystems has also been 
negatively affected by a shrinking budget. These programs have 
collectively suffered a 15 percent decline in their budgets since 
fiscal year 2004. Restoration of funding to at least the fiscal year 
2004 levels, as adjusted for inflation, would be an important first 
step to meeting our Nation's environmental science research needs.
    The Ecosystem Services Research (ESR) program is one of the 
important areas within ORD that would benefit from increased funding. 
The ESR is responsible for enhancing, protecting, and restoring 
ecosystem services, such as clean air and water, rich soil for food and 
crop production, pollination, and flood control. Research conducted by 
the ESR program provides scientific data, methods, models, and tools 
needed by State and local resource managers to account for the cost and 
benefits of using and preserving ecosystem services.
    Another key program affected by the declining human health and 
ecosystem research budget is the Science To Achieve Results (STAR) 
Graduate Fellowship. This program supports graduate students pursuing 
an advanced degree in environmental science. Since the program's 
inception in 1995, EPA has awarded STAR Fellowships to 1,500 promising 
scientists who have gone on to pursue careers as scientists and 
educators. This fellowship contributes to the role of the United States 
as a world leader in scientific discovery and innovation. Despite the 
program's success, the STAR Graduate Fellowship has lost approximately 
35 percent of its funding in real dollars between fiscal year 2004 and 
fiscal year 2008. Even with repeated restorations of funding by 
Congress, the number of STAR Fellowships awarded each year has been 
drastically reduced, down from 124 fellowships in 2004 to 32 
fellowships in 2008. The President's budget request of $10.9 million 
for the program will restore funding to the fiscal year 2005 level and 
provide 131 new fellowships.
    Revitalization of ecosystem research has also been a concern of the 
EPA Science Advisory Board. Over the past several years, the EPA 
Science Advisory Board has made multiple requests to then-EPA 
Administrator Stephen L. Johnson for increased funding for ecological 
research. In a letter dated May 2008, Dr. M. Granger Morgan, Chair of 
the EPA Science Advisory Board, expressed grave concerns about EPA's 
funding declines. He stated his concern about not being able to 
adequately address future problems due to current underinvestment of 
emerging scientific needs. Dr. Morgan stated that we ``run the risk of 
incurring much larger future costs because we do not understand the 
subtle intricacies of these risks and hence could blunder into 
difficulties . . . from which it may be much more expensive to 
recover.'' Clearly, the EPA Science Advisory Board feels that the 
current funding levels are jeopardizing the EPA's ability to fulfill 
its missions down the road.
    We urge Congress to consider the Board's concerns and provide EPA 
with at least $700 million for ORD for fiscal year 2010 and at least 
$190 million for human health and ecosystem research. Providing these 
amounts to ORD will restore them to fiscal year 2004 levels and begin 
to provide the resources needed to address a backlog of research needs.
    Thank you for your thoughtful consideration of this request and for 
your past support of EPA science programs.
                                 p_____
                                 
 Prepared Statement of the American Indian Higher Education Consortium

                            REQUEST SUMMARY

    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which compose the American Indian Higher Education Consortium (AIHEC), 
thank you for this opportunity to present our fiscal year 2010 
appropriations recommendations for the 28 colleges funded under the 
Tribally Controlled Colleges and Universities Assistance Act (Tribal 
College Act), the two Bureau of Indian Education postsecondary 
institutions, and the Institute of American Indian Arts. The U.S. 
Department of the Interior, Bureau of Indian Education (BIE), 
administers these programs, save for the Institute of American Indian 
Arts, which is funded directly by the Interior Department.
    In fiscal year 2010, TCUs seek $80.6 million to fund all of the 
programs under the Tribally Controlled Colleges and Universities 
Assistance Act of 1978 or Tribal College Act. Specifically, we seek $78 
million for institutional operations grants; of which, $53.3 million 
for title I grants (25 TCUs); $17.7 for title II (Dine College); and $7 
million for title V ($4.5 million for United Tribes Technical College 
and $2.5 million for Navajo Technical College). This request represents 
an increase of $6.9 million for title I grants; $5.4 million for Dine 
College; and an increase of $1 million for title V, more than fiscal 
year 2009 levels. Additionally, we seek $601,000 for the technical 
assistance contract authorized under the act, which is the same level 
as annually appropriated since fiscal year 2006, and $2 million to help 
the TCUs establish and fund endowments under title III of the act, 
which has been severely cut over the past few budget cycles.
    AIHEC's membership also includes three other TCUs funded under 
separate authorities within Interior appropriations, namely: Haskell 
Indian Nations University; Southwestern Indian Polytechnic Institute; 
and the Institute of American Indian Arts. AIHEC supports the 
independently submitted requests for funding of the institutional 
operations budgets of these institutions.
    Forward Funding of Institutional Operations Grants.--For the past 
several years, basic institutional operations funding has not been 
available to the TCUs until well after October 1 of the relevant fiscal 
year.
  --In fiscal year 2006, despite the early August enactment of the 
        Interior spending bill, almost 2 months prior to the start of 
        the fiscal year, funds were not made available to the TCUs 
        until late November, 2 months into the new fiscal 3 months into 
        the academic year.
  --In fiscal year 2007, due to the protracted appropriations process, 
        TCUs did not receive basic operating funds until mid-March; 5 
        months into the fiscal year and 6 months after the academic 
        year began.
  --In fiscal year 2008, TCUs did not gain access to any institutional 
        operations funds made in order under the first continuing 
        resolution until mid-December, almost a full month after the 
        second continuing resolution had been enacted. Once again, the 
        TCUs were more than 2 months into the new fiscal year, and more 
        than 3 months into their academic year and unable to access 
        even a partial payment toward their basic day-to-day operating 
        budgets.
  --As for this year, the fiscal year 2009 omnibus appropriations 
        legislation was only signed into law on March 11, 2009, more 
        than 5 months after the start of the fiscal year and more than 
        6 months into the academic year. Most of the TCUs had to obtain 
        costly lines of credit, cancel programs, and/or make temporary 
        staff layoffs in order to keep their doors open for the 
        remainder of the academic year, which for many will end in the 
        very near future or have already ended.
    The President's budget includes a one-time payment of $50 million 
to transition TCU institutional operations grants to a forward funded 
program, which would correct this most unfortunate cycle of delayed 
payments, expensive short-term loans, and layoffs that perennially 
plague TCUs. Additionally, it would, for the first time, give these 
institutions the resources they need at the beginning of each academic 
year. Forward funding is authorized under the Tribal College Act (25 
U.S.C. 1810(b)(2)) and is consistent with the existing funding 
practices of other Indian education operating accounts within the 
Department of the Interior, BIE.

                   BACKGROUND AND FUNDING DISPARITIES

    Today there are 36 TCUs located in 14 States, which were begun 
specifically to serve the higher education needs of American Indians. 
Annually, these institutions serve students from more than 250 
federally recognized tribes, more than 80 percent of whom are eligible 
to receive Federal financial aid.
    TCUs are accredited by independent, regional accreditation agencies 
and like all institutions of higher education, must undergo stringent 
performance reviews on a periodic basis to retain their accreditation 
status. In addition to college-level programming, TCUs provide much 
needed high school completion (GED), basic remediation, job training, 
college preparatory courses, and adult education.
    Title I of the Tribal College Act authorizes funding for the basic 
institutional operating budget of one qualifying institution per 
federally recognized tribe based on a full-time American Indian student 
enrollment formula. Despite the much appreciated increases that 
Congress has appropriated over the last several years, TCUs remain 
chronically underfunded. Distribution of funds under title I of the 
Tribal College Act is enrollment driven. In fiscal year 2009, the 25 
title I institutions received $5,494 per Indian student toward their 
operating budgets. If you factor in inflation, 28 years later the 
buying power of this appropriation is $1,115 LESS per Indian student 
than it was in the initial fiscal year 1981 appropriation, which was 
$2,831 per Indian student. While the other TCUs' operations funding is 
not enrollment driven and therefore the disparity is not as easily 
illustrated, they too suffer from a lack of adequate basic operating 
funds. This is not simply a matter of appropriations falling short of 
an authorization; it effectively impedes our institutions from having 
the necessary resources to grow their programs in response to the 
changing needs of their students and the communities they serve.

                             JUSTIFICATIONS

    TCUs provide critical access to vital postsecondary education 
opportunities. TCUs provide access to higher education for American 
Indians and others living in some of the Nation's most rural and 
economically depressed areas. The 2000 Census reported the annual per 
capita income of the U.S. population as $21,587. However, the annual 
per capita income of Native Americans was $12,923 or about 40 percent 
less. In addition to serving their students, TCUs serve their 
communities through a variety of community outreach programs.
    TCUs are producing a new generation of highly trained American 
Indians as teachers, tribal government leaders, engineers, nurses, 
computer programmers, and other much-needed professionals. By teaching 
the job skills most in demand on their reservations, TCUs are laying a 
solid foundation for tribal economic growth, with benefits for 
surrounding communities. In contrast to the high rates of unemployment 
on reservations, graduates of TCUs are employed in ``high-need'' 
occupational areas such as Head Start teachers, elementary and 
secondary school teachers, and nurses/healthcare providers. Just as 
important, the vast majority of tribal college graduates remain in 
their tribal communities, applying their newly acquired skills and 
knowledge where they are most needed.
    TCUs meet the strict standards of mainstream accreditation boards 
offering top quality academic programs and serve as effective bridges 
to 4-year institutions of higher learning. A growing number of TCUs 
have attained a 10-year accreditation term, the longest term granted to 
any higher education institution. While most TCUs are 2-year 
institutions offering certificates and associate degrees, their 
transfer function is significant. A survey of TCU graduates conducted 
by Harder + Company Community Research, San Francisco, California, for 
the American Indian College Fund, indicated that more than 80 percent 
of respondents who attended a mainstream college prior to enrolling at 
a TCU did not finish the degree they were pursuing at the mainstream 
college. The rate of completion markedly improved for those who 
attended a TCU prior to beginning a degree program at a mainstream 
institution. After completing tribal college coursework, less than half 
of respondents dropped out of mainstream colleges and nearly 40 percent 
went on to earn a bachelor's degree. This illustrates TCUs' impact on 
the persistence of American Indian students in pursuit of baccalaureate 
degrees. The overwhelming majority of respondents felt that their 
tribal college experience had prepared them well for further education 
and noted that it had a very positive impact on their personal and 
professional achievements.

                         SOME ADDITIONAL FACTS

    Enrollment Gains and New TCUs.--Compounding existing funding 
disparities is the fact that although the numbers of TCUs and students 
enrolled in them have dramatically increased since 1981, appropriations 
have increased at a disproportionately low rate. Since they were first 
funded, the number of tribal colleges has quadrupled and continues to 
grow; Indian student enrollments have risen by more than 310 percent. 
Between fiscal year 2005 and fiscal year 2009, four more TCUs became 
eligible to receive funds under title I of the Tribal College Act. TCUs 
are in many ways victims of their own successes. The growing number of 
tribally chartered colleges and universities and added students have 
forced TCUs to slice an already inadequate annual funding pie into even 
smaller pieces.
    Local Tax and Revenue Bases.--TCUs cannot rely on local tax base 
revenue. Although tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. On reservations where TCUs are located, the 
unemployment rate can well exceed 60 percent. In comparison, the 
current national unemployment rate is 8.1 percent.
    Trust Responsibility.--The emergence of TCUs is a direct result of 
the special relationship between American Indian tribes and the Federal 
Government. TCUs are founded and chartered by their respective American 
Indian tribes, which hold a special legal relationship with the Federal 
Government, actualized by more than 400 treaties, several Supreme Court 
decisions, prior congressional action, and the ceding of more than 1 
billion acres of land to the Federal Government. Beyond the trust 
responsibility, the fact remains that TCUs are providing a public 
service that no other institutions of higher education are willing, or 
able, to provide by helping the Federal Government fulfill its 
responsibility to the American people, particularly in rural America. 
Despite the fact that only enrolled members of a federally recognized 
tribe or the biological child of a tribal member may be counted as 
Indian students when determining an institution's share of the 
operating funds, TCUs have open enrollment policies. Approximately 20 
percent of TCU enrollments are non-Indians. These institutions are 
simply and effectively providing access to quality higher education 
opportunities to reservation community residents.

                THE PRESIDENT'S FISCAL YEAR 2010 BUDGET

    The President's fiscal year 2010 budget includes $62.5 million for 
the institutional operations of 26 TCUs. Over the past few years 
several new TCUs have become eligible for funding under title I of the 
Tribal College Act. In fiscal year 2009, White Earth Tribal and 
Community College in Mahnomen, Minnesota joined the list of eligible 
institutions, with Keweenaw Bay Ojibwa Community College in Baraga, 
Michigan expected to be eligible in fiscal year 2010. We are hopeful 
that Congress will build on the President's fiscal year 2010 budget. 
The President's fiscal year 2010 budget also includes $50 million to 
transition the TCUs' institutional operating grants to a forward funded 
program finally giving these institutions the resources they need at 
the beginning of each academic year. Additionally, funding is included 
in the budget for institutional operations funding for two tribally 
controlled postsecondary career and technical institutions, two BIE-
operated postsecondary institutions, and the Institute of American 
Indian Arts.

              APPROPRIATIONS REQUEST FOR FISCAL YEAR 2010

    TCUs respectfully request the following for the programs authorized 
under the Tribal College Act (25 U.S.C. 1801 et seq.): $78 million for 
fiscal year 2010 institutional operations grants; of which, $53.3 
million for title I grants (25 TCUs); $17.7 for title II (Dine 
College); and $7 million for title V ($4.5 million for United Tribes 
Technical College and $2.5 million for Navajo Technical College). 
Additionally, we seek $601,000 for the technical assistance contract 
authorized under the act, which is the same level as annually 
appropriated since fiscal year 2006, and increased funding to help the 
TCUs establish and fund endowments under title III of the Tribal 
College Act, which has been dramatically reduced in the past few 
budget/appropriations cycles. We also request a one-time appropriation 
of $50 million, which is included in the President's fiscal year 2010 
budget and authorized under the act (25 U.S.C. 1810(b)(2)), needed to 
transition basic institutional operating grants to a forward-funded 
program.

                               CONCLUSION

    TCUs provide quality higher education to many thousands of American 
Indians who might otherwise not have access to such opportunities. The 
modest Federal investment that has been made in TCUs has paid great 
dividends in terms of employment, education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's TCUs and your serious consideration of our fiscal year 2010 
appropriations requests.
                                 ______
                                 
          Prepared Statement of the Appalachian Mountain Club

    Dear Madam Chairwoman and honorable members of the subcommittee: On 
behalf of our almost 90,000 members, the Appalachian Mountain Club 
(AMC) is honored to present this testimony in support of much needed 
funding for conservation programs in the fiscal year 2010 Interior, 
Environment, and Related Agencies appropriations bill, including:
  --$125 million for the USDA Forest Service Forest Legacy Program 
        (FLP);
  --$450 million for the Department of the Interior Land and Water 
        Conservation Fund (LWCF) (including $325 million for Federal-
        side and $125 million for stateside programs);
  --$11 million for the Department of the Interior Highlands 
        Conservation Act;
  --$12 million for the National Parks Service (NPS) Rivers, Trails, 
        and Conservation Assistance Program.
  --$75 million for the Community Forest and Open Space Conservation 
        Program.
    The above programs are essential to a healthy, happy, and thriving 
populous and provide economic, ecological, and recreational benefits to 
Americans across the country. Land conservation and recreational 
program support are vital to maintaining the health and well being of 
the Nation's lands and our citizens. The demands on these programs 
continue to grow despite the fact that funding for most of these 
programs have declined in recent years. There is a great need to fund 
these programs at the above requests and to work toward their full 
funding. The availability of public open space amid the populous 
Northeast and Mid-Atlantic regions benefits the well-being of the 
regions' citizenry and economy.
    The AMC is the Nation's oldest recreation and conservation 
organization. Founded in 1876, our mission is to promote the 
protection, enjoyment, and wise use of the mountains, rivers and trails 
of the Appalachian region. With 12 chapters from Maine to Washington, 
DC, AMC is proud of our long tradition of stewardship and engagement in 
the outdoors.
    Open space conservation in the East is a vital investment that 
ensures clean air and water, a sustainable supply of timber products 
produced from private and public forests, local food and farm products 
for millions of people, and diverse recreational opportunities 
including hiking, cross-country skiing, wildlife viewing, photography, 
and paddling. Conservation of these resources is needed now more than 
ever. According to a report by the U.S. Forest Service (USFS), Forests 
on the Edge, more than 44 million acres of private forests in the East 
will be developed in the next 30 years.
Priority Fiscal Year 2010 FLP Needs in the Northeast
    For fiscal year 2010, we have assembled a list of exemplary FLP 
projects in the Northeast and Mid-Atlantic. Some of these projects, 
like the Katahdin Forest, Mahoosuc Gateway II, Musconetcong and 
Rockaway Rivers Watersheds are in need of funds to be completed. Others 
projects, such as the Tulmeadow Farm and Wolf Hill in Connecticut are 
new priorities that would protect unique and critical forests in the 
Eastern United States.
    AMC respectfully requests a substantial increase in overall funding 
for the FLP at no less than $125 million in fiscal year 2010. The FLP 
has protected more than 1.7 million acres of forestland since 1990. For 
fiscal year 2010, the USFS received 84 project proposals from 44 States 
and territories to protect 288,530 acres with a total project value of 
more than $363 million. The FLP conserves working forests threatened by 
conversion to development or other uses, and promotes economic 
viability as well as recreational open space and wildlife protection. 
Public lands provide innumerable social and economic benefits including 
a healthy lifestyle, protection of watersheds and drinking water 
supplies, wildfire reduction and prevention, and assistance to wildlife 
and fisheries as they adapt to climate change.
    For fiscal year 2010, the AMC supports funding requests for the 
following FLP projects:

------------------------------------------------------------------------
                   State                               Project
------------------------------------------------------------------------
ME........................................  Katahdin Forest
ME........................................  Rangeley High Peaks
NH........................................  Cardigan Highlands
NH........................................  Mahoosuc Gateway II
MA........................................  Monson Forest Lands
MA........................................  Southern Monadnock Plateau
                                             Phase II
MA........................................  Metacoment-Monadnock Forest
NY........................................  Follensby Pond
CT........................................  Tulmeadow Farm
CT........................................  Wolf Hill
NJ........................................  Musconetcong and Rockaway
                                             Rivers  Watersheds
------------------------------------------------------------------------

Priority Fiscal Year 2010 LWCF Program Needs in the Northeast
    AMC respectfully requests a substantial increase in overall funding 
for the LWCF specifically $325 million for the Federal LWCF and $125 
million for the LWCF stateside program, in the fiscal year 2010 
Interior, Environment, and Related Agencies appropriations bill. We 
applaud the LWCF funding increases provided by this subcommittee in 
fiscal year 2009. And, we are most thankful that the Obama 
administration budget recognizes the importance of this program by 
proposing significant increases for fiscal year 2010 and setting a goal 
to achieve full funding of the LWCF in the next 5 years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units, and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. The LWCF will provide important funds to 
obtain inholdings and lands adjacent to Federal lands such as the White 
Mountain National Forest, Silvio O. Conte National Wildlife Refuge 
(NWR), Wallkill NWR and Monongahela National Forest.
    The LWCF stateside program provides close-to-home recreation 
through thousands of State and local parks across the country. These 
parks provide millions of urban and suburban residents the benefits of 
access to natural areas while promoting much needed tourism in local 
communities.
    In fiscal year 2010, the AMC supports the following LWCF projects 
in our region:

------------------------------------------------------------------------
                   State                          Federal land unit
------------------------------------------------------------------------
ME........................................  Rachel Carson NWR
ME/NH.....................................  White Mountain National
                                             Forest
NH, VT, CT, MA............................  Silvio O. Conte NWR
NH........................................  Lake Umbagog NWR
NH........................................  Mahoosuc Gateway I
CT........................................  Stewart McKinney NWR
NJ........................................  Wallkill NWR
NJ........................................  Great Swamp NWR
MD........................................  Blackwater National Wildlife
                                             Refuge
WV........................................  Monongahela National Forest
------------------------------------------------------------------------

Fiscal Year 2010 Highlands Conservation Act (HCA) Needs
    AMC respectfully requests a substantial increase in overall funding 
for HCA, including $10 million for land conservation and $1 million for 
USFS technical assistance funding. The HCA, passed in 2004, authorizes 
land conservation partnership projects and open space purchases from 
willing sellers in the four State Highlands region of Pennsylvania, New 
Jersey, New York, and Connecticut. The HCA includes authorization of 
$10 million in annual grants to the Highlands States and nonprofit 
conservancies from the Department of the Interior for land acquisition 
and easements. It also includes $1 million annually in technical 
assistance from the USFS to work with Highlands States and local 
municipalities to implement the conservation strategies outlined in the 
three comprehensive USFS studies of the region completed in 1992, 2002, 
and 2008.
    This program has received only $5.25 million since it was initiated 
5 years ago. While we greatly appreciate the subcommittee's efforts to 
support this program, and are thrilled that the program had its own 
line-item in the fiscal year 2009 omnibus bill, we are in dire need of 
additional funds to fulfill the purposes of the HCA and complete 
projects that have strong public support. According to a study by the 
USFS, open space in New York and New Jersey alone is disappearing at a 
rate of 5,000 to 6,000 acres a year. The four State Highlands Region is 
the backyard for the more than 25 million people living in or around 
the large cities of the Mid-Atlantic States, and provides critical 
drinking water, wildlife habitat, and abundant and accessible 
recreation opportunities. Current projects in Pennsylvania, New Jersey, 
New York, and Connecticut share strong local support, commitments from 
State and private sources to provide matching funding, and will protect 
important water supplies, forests, farmland, recreational opportunities 
and wildlife habitat.
    In fiscal year 2010, the AMC supports funding for the following HCA 
projects:

------------------------------------------------------------------------
                   State                               Project
------------------------------------------------------------------------
CT........................................  Ethel Walker II
CT........................................  Naugatuck/Mad River
                                             Headwaters
NY........................................  Greater Sterling Forest
NJ........................................  Northern Highlands
PA........................................  Texter Mountain
------------------------------------------------------------------------

Fiscal Year 2010 Community Forest and Open Space Conservation Program 
        Needs
    AMC respectfully requests funding of $75 million for this important 
new program. The Community Forest and Open Space Conservation Program 
will provide communities matching funds to purchase critical forestland 
tracts and provide technical assistance through State forestry agencies 
for outstanding forest management. The program provides 50-50 matching 
funds to help local governments, tribes, and nonprofit organizations 
acquire forest areas that are economically, culturally, and 
environmentally important to that locality and threatened by 
development. The program differs from the FLP by providing grants 
directly to local governments and nonprofits for full fee acquisition, 
not conservation easements. The program's criteria are built around 
evaluation of a project's community impact and it requires public 
access and active community engagement in forest planning for parcels.
Priority Fiscal Year 2010 Recreational Programs Needs
    In addition to the important land conservation projects from the 
Katahdin Forest in Maine to Texter Mountain in Pennsylvania, the AMC 
respectfully urges the subcommittee to ensure the viability of programs 
that support outdoor recreation in America. The AMC echoes the 
testimony of the American Hiking Society in support of diverse and 
strong funding levels for important recreational priorities.
Fiscal Year 2010 Rivers, Trails and Conservation Assistance Needs
    AMC respectfully requests a substantial increase in overall funding 
for Rivers, Trails Conservation Assistance program and requests $12 
million nationwide. Through this NPS program, partners protect 700 
miles of rivers, create 1,300 miles of trails and conserve more than 
60,500 acres of open space annually, promote alternative 
transportation, brownfield redevelopment, youth conservation and 
floodplain planning. Funding would counteract the steady erosion of 
funding and reduced staffing. This program receives less than 1 percent 
of NPS funding, but Federal funds are leveraged many times over with 
State, local, and partnership cooperation and in-kind matches.
    Thank you for the opportunity to submit this testimony for your 
consideration.
                                 ______
                                 
              Prepared Statement of Amigos de la Sevilleta

    Dear Madam Chairman and members of the subcommittee: I would like 
to thank you for the opportunity to present testimony in support of an 
appropriation of $2 million from the Land and Water Conservation Fund 
(LWCF) to protect land at the Sevilleta National Wildlife Refuge (NWR) 
in New Mexico. This funding will allow the U.S. Fish and Wildlife 
Service (FWS) to acquire the 250-acre first phase of the Indian Hill 
Ranch property.
    Before I begin describing this project, I would like to discuss the 
importance of the LWCF to Sevilleta NWR and to national wildlife 
refuges around the country. The LWCF is the premier Federal land 
protection program and enables refuges to protect vital wildlife 
habitat, water resources, and recreational lands and improve public 
access and land management by consolidating holdings and acquiring 
inholdings.
    I respectfully urge a substantial increase in overall funding for 
the LWCF, specifically urging the subcommittee to provide $325 million 
for the Federal LWCF in the fiscal year 2010 Interior, Environment, and 
Relted Agencies appropriations bill. And, we are most thankful that the 
Obama administration budget recognizes the importance of these programs 
by proposing significant increases for fiscal year 2010 and setting a 
goal to achieve full funding of the LWCF in the next 5 years.
    Covering an area of approximately 360 square miles and located just 
40 miles south of Albuquerque, the largest city in the State, the 
Sevilleta NWR serves as a vast, protected landscape in the heart of New 
Mexico. The refuge supports four major ecological habitats, 
encompassing two mountain ranges and containing approximately 4 miles 
of the Rio Grande River. Much of the refuge is managed to enhance 
riparian habitat and compensate for marsh loss along the Rio Grande 
basin. The refuge provides important habitat for a large variety of 
birds, insects, reptiles, and mammals such as beaver, coyote, bobcat, 
fox, jackrabbit, and elk. Parts of the refuge are flooded from November 
to February in order to provide habitat for migrating shorebirds and 
waterfowl including herons, ducks, geese, and sandhill cranes. The 
refuge is also managed to combat nonnative species such as the 
extremely invasive salt cedar. This nuisance species is being cleared 
and replaced with native willow and cottonwood to restore the natural 
bosque/riparian habitat native to the area.
    Available for acquisition in fiscal year 2010 is the first phase of 
the 1,250-acre Indian Hill Farms property, which lies adjacent to 3 
miles of the Rio Grande as well as current refuge lands. Indian Hill 
Farms comprises more than 600 acres of prime irrigated farmland and a 
very significant quantity of senior water rights which will provide the 
refuge with excellent opportunities for the creation of wildlife 
habitat, including moist soils, wetlands, and restored river bosque. 
The Sevilleta NWR is home to the second largest population of the 
endangered southwestern willow flycatcher along the Rio Grande River. 
If Indian Hill Farms is added to refuge ownership, there are plans to 
restore a portion of the property to provide additional prime 
flycatcher habitat. Because the farm is the first to take water rights 
off the important San Acacia Dam, located just off the edge of the 
farm, control of the water rights by the FWS should also provide 
additional protection and benefit to the endangered silvery minnow, 
found within portions of the Rio Grande that run through the refuge.
    Given the water rights associated with the property and its 
location along the Rio Grande, acquisition of the Indian Hill Farms 
property could provide the refuge system a tremendous opportunity for 
habitat manipulation for a number of different wildlife uses, including 
endangered species habitat, wintering waterbird habitat, migratory 
landbird use, as well as raptor and resident big game habitat. Its 
location between two major wintering waterfowl areas, Ladd S. Gordon 
Complex to the north and Bosque del Apache NWR to the south, makes this 
a key acquisition to enhance waterfowl populations in the Middle Rio 
Grande area.
    Currently, Sevilleta NWR offers limited public access as much of 
its acreage has been designated to ongoing research projects. Sevilleta 
NWR is the host to the University of New Mexico's (UNM) Long-Term 
Ecological Research program initiated in 1988 and funded through the 
National Science Foundation. This program focuses on examining the 
responses of different ecological communities to climate change, among 
other topics, and UNM has expressed great interest in research projects 
that would be associated with the planned conversion of farmland to 
wildlife habitat should Indian Hill Farms be acquired by the refuge.
    An appropriation of $2 million in fiscal year 2010 will ensure that 
the first phase of the Indian Hill Farms property is protected in 
perpetuity. The FWS is pursuing the administrative steps necessary to 
include the Indian Hill Farms property within refuge boundaries. The 
addition of this priority parcel to the Sevilleta NWR will allow for 
the creation and restoration of important wildlife habitat types along 
the Rio Grande River, increase public access to refuge lands, and 
increase unique research opportunities for local scientists.
    Thank you again, Madam Chairman, for the opportunity to present 
this testimony in support of the acquisition effort at Sevilleta NWR in 
New Mexico.
                                 ______
                                 
  Prepared Statement of the Association of Performing Arts Presenters

    The Association of Performing Arts Presenters (Arts Presenters) 
urges the subcommittee to approve fiscal year 2010 funding for the 
National Endowment for the Arts (NEA) at a level of $200 million. With 
audiences of 6 million people per week for performances in virtually 
every community in the Nation, the American performing arts presenting 
industry has combined annual expenditures in excess of $9.8 billion. 
The performing arts presenting field supports more than 900,000 jobs, 
including the employment of artists and those who help manage and 
present them, and supports many more services related to performing 
arts events, such as hotel stays, restaurants, transportation, and 
parking.
    Many of the organizations in the performing arts presenting field 
offer educational outreach to school children, programs for the 
elderly, and provide artists who reach deeply into their communities to 
bridge social gaps and improve the quality of life for those who may be 
less advantaged. Founded in 1957, Arts Presenters is the national 
service organization for the field of performing arts presenting. 
Nearly 2,000 members represent the Nation's leading performing arts 
centers, civic and university performance facilities, amphitheaters, 
college and university theatres, local arts agencies, festivals, fairs, 
park sites, and museums. Arts Presenters also provides services to 
touring artists and companies, their managements and agents. Our 
membership includes a range of organizations with multi-million dollar 
budgets to budgets of $3,000 and individuals who are artists or 
independent performing arts professionals; two-thirds of the membership 
and wider presenting field are organizations with small budgets under 
$1.5 million (the largest segment of which is under $500,000).
    We continue to track the value and impact of the performing arts to 
communities, including our economic impact, and recent survey 
indicators point to an industry concerned with the overall impact the 
current economic crisis has on the operating environment for our field 
and the increased difficulty of resolving the many challenges 
presenting organizations already faced before the deep recession. We 
must ensure that every performing arts presenter continues to build 
upon and contribute to the economic engine and cultural infrastructure 
in those communities in which they serve.
    While we are far from achieving a cultural democracy, the idea that 
arts and culture be woven into all aspects of life is essential to both 
preparing an innovative workforce in the 21st century and bridging the 
deep socioeconomic gaps that continue to plague underserved and 
underprivileged communities in various pockets of the country. As a 
Nation, we are wise to look back on our rich history of integrating the 
arts and culture in times of need to help us move forward. Like many of 
the cultural projects President Franklin Roosevelt launched to get the 
United States out of the Great Depression, and the decades of United 
States Information Agency support of arts encounters and exchanges that 
provided powerful images of a diverse American citizenry and cultural 
landscape, the NEA should have an opportunity to expand its ability to 
serve the American public with an increased level of funding to help 
projects that capture the spirit, optimism, creativity, and imagination 
as well as demonstrate the value the performing arts offer in critical 
times to a Nation in crisis.
    In the most completed grant year, fiscal year 2008, the NEA's 
Grants to Organizations included 90 grants to 85 Arts Presenters 
organizations and the communities they serve, supporting arts education 
for children, adults, disabled, underserved and underprivileged, 
preserving great classical, jazz and choreography works, fostering the 
creative endeavors of contemporary classical musicians and composers, 
and expanding public access to performances and exhibitions.

                      2009 NEA FUNDING HIGHLIGHTS

Learning in the Arts for Children and Youth
    A grant designed to advance arts education for children and youth 
in school-based or community-based settings, this category supports in-
depth, curriculum-based arts education experiences that occur over an 
extended period.
    (Burlington, Vermont). Flynn Center for the Performing Arts, Ltd. 
(Consortium)
    To Support Words Come Alive.--Designed and implemented in 
partnership with the Burlington School District, summer training, 
workshops, and classroom collaborations will be featured activities for 
elementary school teachers in theater and dance--$45,000
American Masterpieces: Presenting
    A grant designed to celebrate the extraordinary and rich 
contribution that presenters make in American communities.
    (Hanover, New Hampshire). Dartmouth College (on behalf of Hopkins 
Center).
    To Support Presentations of Influential Works and Residency 
Activities at the Hopkins Center.--Performer Meredith Monk, Pilobolus 
Dance Theatre, Vanguard Jazz Orchestra, and choreographer Trisha Brown 
will participate in workshops, postperformance discussions, school 
visits and matinees, master classes, and public discussions--$60,000
Challenge America
    A grant designed to identify and support projects that connect the 
arts--and artist--to their broader communities through collaborative 
works.
    (Billings, Montana). Alberta Bair Theater Corporation.
    To support New Music for the Old West, a concert series featuring 
diverse musical styles. Proposed guest artists ScrapArtsMusic (rooted 
in world music traditions), the string quartet Ethel, jazz vocalist 
Rachael Price, Edgar Meyer, and Mike Marshall (masters of modern 
acoustic music), and the American Chamber Players will perform and 
participate in outreach activities for audiences from Montana and 
northern Wyoming--$10,000
Access to Artistic Excellence
    A grant designed to encourage and support artistic creativity, 
preserve our diverse cultural heritage and make the arts more widely 
available in communities throughout the country, especially by 
providing access to underserved populations.
    (San Francisco, California). Yerba Buena Center for the Arts (aka 
YBCA) (Consortium).
    To Support the African Consortium.--In partnership with Mapp 
International Productions in New York City, the international exchange 
initiative is designed to create a new level of artistic collaboration 
between artists and arts organizations and develop cultural dialogue 
between the United States and African countries through activities such 
as panels, seminars, workshops, performances, residencies, interview, 
and a Web site--$40,000
    (Providence, Rhode Island). FirstWorks.
    To Support the Production of FirstWorksProv Festival 2009.--The 
program of performing arts premieres will be accompanied by community 
and outreach activities, such as forums, workshops, master classes, 
school programs, and discounted admissions--$15,000
    (Helena, Montana). Helena Presents (aka Myrna Loy Center).
    To Support a Series of Commissioning, Presenting, and Residency 
Projects at the Myrna Loy Center.--Guest artists will create new works 
in collaboration with local and regional artists. $35,000
State Partnership Grants
    Arkansas Arts Council; Little Rock, Arkansas; $697,800 to support 
Partnership Agreement activities
    California Arts Council; Sacramento, California; $1,194,800 to 
support Partnership Agreement activities
    I would like to thank you for this opportunity to reinforce the 
positive and meaningful contributions the NEA makes to ensure access to 
participation in the performing arts for tens of millions of Americans 
throughout the country each year and for thousands of performing arts 
presenters to serve the millions of audience members they directly 
reach across the country. We believe that arts experiences exemplify 
and ignite the ingenuity and creativity needed to prepare a competitive 
workforce ready to meet existing and emerging global challenges. We 
also believe access to quality arts programs for students of all ages 
enrich their academic achievements and advance their overall 
development. The Endowment provides an exemplary platform for upholding 
the highest standards for artistic endeavors while increasing access to 
and participation in the arts for the underserved and underprivileged 
communities. Together with the NEA, we are committed to building and 
supporting a strong cultural infrastructure nationwide and 
opportunities for direct participation in the arts in each and every 
community. We urge you to actively support the funding level increase 
for fiscal year 2010 by approving $200 million in funding for the NEA.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of more than 2,000 
municipal and other State and locally owned utilities throughout the 
United States (except but Hawaii). Collectively, public power utilities 
deliver electricity to 1 of every 7 electric consumers (approximately 
45 million people), serving some of the Nation's largest cities. 
However, the vast majority of APPA's members serve communities with 
populations of 10,000 people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2010 funding priorities within the jurisdiction of the 
Interior, Environment, and Related Agencies Subcommittee.

         ENVIRONMENTAL PROTECTION AGENCY: ENERGY STAR PROGRAMS

    APPA was pleased that the American Recovery and Reinvestment Act of 
2009 included $300 million for the Energy Star program. We urge the 
subcommittee to allocate the same amount for fiscal year 2010 for 
Energy Star program.
    Energy Star is a voluntary partnership program pairing the 
Environmental Protection Agency (EPA) with businesses and consumers 
nationwide to enhance investment in underutilized technologies and 
practices that increase energy efficiency while at the same time 
reducing emissions of criteria pollutants and greenhouse gases. In 
particular, APPA member systems across the country have been active 
participants in a subset of the Energy Star program called ``Green 
Lights.'' The Green Lights program encourages the use of energy 
efficient lighting to reduce energy costs, increase productivity, 
promote customer retention, and protect the environment.
    According to the EPA, Energy Star is saving businesses, 
organizations, and consumers more than $9 billion a year, and has been 
instrumental in the more widespread use technological innovations like 
LED traffic lights, efficient fluorescent lighting, power management 
systems for office equipment, and low-standby energy use.

   ENVIRONMENTAL PROTECTION AGENCY: LANDFILL METHANE OUTREACH PROGRAM

    APPA supports robust funding for the Landfill Methane Outreach 
Program (LMOP) at EPA under the Environmental Program Management, 
Climate Protection Program budget. While we recognize that LMOP is not 
a budget line-item, APPA encourages the subcommittee to highlight the 
importance of LMOP by including report language directing the EPA to 
provide adequate funding for the program. The Landfill Methane Outreach 
Program helps to partner utilities, energy organizations, States, 
tribes, landfill gas industry, and trade associations to promote the 
recovery and use of landfill gas as an energy source. According to the 
EPA, LMOP has more than 700 partners that have signed voluntary 
agreements to work with EPA to develop cost-effective, landfill-gas-to-
energy (LFG) projects. There are approximately 445 operational LFG 
energy projects in the United States with approximately 110 projects 
currently under construction or exploring development options and 
opportunities. LMOP has also developed detailed profiles for more than 
1,300 candidate landfills.
    Landfill gas is created when organic waste in a landfill 
decomposes. This gas consists of about 50 percent methane and about 50 
percent carbon dioxide. Landfill gas can be captured, converted, and 
used as an energy source rather than being released into the atmosphere 
as a potent greenhouse gas. Converting landfill gas to energy offsets 
the need for nonrenewable resources such as coal and oil, and thereby 
helps to diversify utilities' fuel portfolios and to reduce emissions 
of air pollutants from conventional fuel sources.
    In 2005, all operational LFG energy projects in the United States 
prevented the release of 19 million metric tons of carbon equivalent. 
This reduction is the carbon equivalent of removing the emissions from 
13.3 million vehicles on the road or planting 19 million acres of 
forest for 1 year. This reduction also has the same environmental 
benefit as preventing the use of 162 million barrels of oil or 
offsetting the use of 341,000 railcars of coal.
    As units of local and State governments, APPA's member utilities 
are uniquely positioned to embark on LFG projects. EPA's LMOP 
facilitates this process by providing technical support and access to 
invaluable partnerships to our members and the communities they serve.

                 COUNCIL ON ENVIRONMENTAL QUALITY (CEQ)

    APPA is disappointed with the enacted level of $2.7 million for 
fiscal year 2009 for the White House's CEQ, and urges the subcommittee 
to consider allocating at least $3.2 million for this office. Public 
power utilities have experienced a general lack of consistency in 
Federal Government regulations, particularly involving environmental 
issues. While additional layers of government should be avoided, a 
central overseer can perform a valuable function in preventing 
duplicative, unnecessary and inconsistent regulations. CEQ is 
responsible for ensuring that Federal agencies perform their tasks in 
an efficient and coordinated manner.

     UNITED STATES GEOLOGICAL SURVEY: CARBON SEQUESTRATION STUDIES

    APPA urges the subcommittee to include at least the fiscal year 
2009 funding level of $3 million to implement the required geological 
and biological carbon sequestration studies as required in the Energy 
Independence and Security Act of 2007. As the Federal Government moves 
to enact legislation to address global climate change, the research the 
United States Geological Survey (USGS) is doing on carbon sequestration 
will become increasingly important. The USGS has been doing research on 
storing CO<INF>2</INF> in depleted oil and gas reservoirs, deep coal 
seams, and brine formations.
                                 ______
                                 
                 Prepared Statement of American Rivers

    American Rivers, on behalf of our 65,000 supporters nationwide 
urges the subcommittee to provide $5,684,662,000 for the following 
programs in the Interior, Environment, and Related Agencies 
appropriations bill for fiscal year 2010. I request that this testimony 
be included in the official record.

                    ENVIRONMENTAL PROTECTION AGENCY

    The Clean Water State Revolving Fund (SRF) provides capitalization 
grants to States, which in turn provide low-cost loans to communities 
for a variety of programs to clean up impaired water bodies and protect 
pristine waters. This program has been extremely effective in helping 
communities to improve water quality and provide safe drinking water. 
The annual need for clean water funding is close to $20 billion. 
Historically, the Federal Government has provided between 10 and 20 
percent of those funds or what should be $2 to $4 billion. The SRF 
programs have also been used to fund nonstructural projects that reduce 
nonpoint source pollution, protect estuaries, prevent contamination of 
drinking source waters, and reduce polluted runoff by protecting 
natural areas and other ``green infrastructure,'' such as stream 
buffers. These approaches are often more cost-effective then 
traditional pipe and cement options and provide a wide array of 
environmental and social benefits, including open space, wildlife 
habitat, recreation, and improved water supply. American Rivers urges 
the subcommittee to appropriate $2.4 billion for the Clean Water SRF 
and $2 billion for the Drinking Water SRF in fiscal year 2010. 
Additionally, within the funds appropriated for the Clean Water SRF at 
least 20 percent should be dedicated to low-impact development or 
nonstructural green infrastructure to deal with stormwater run-off and 
combined sewer overflows; and within the funds appropriated for the 
Drinking Water SRFs at least 20 percent should be dedicated to water 
efficiency projects that reduce overall demand for clean drinking 
water.
    WaterSense is modeled on the highly successful, universally 
recognized and sought after EnergyStar program--it works with local 
water utilities, product manufacturers, and retailers to encourage the 
use of water-efficient products and practices among individuals and 
developers. Water efficiency is a much more cost-effective way to help 
local markets manage water supplies than developing new sources. Water 
supply infrastructure is a major local and Federal cost across the 
United States, and water efficiency can lessen the stress on both water 
treatment and wastewater treatment systems and extend their useful 
life. Environmental Protection Agency (EPA) estimates that if all U.S. 
households installed water-efficient appliances, the country would save 
more than 3 trillion gallons of water and more than $18 billion per 
year, and reduce Americans' water and sewer bills by one-third. 
American Rivers urges the subcommittee to appropriate $7.5 million for 
the WaterSense program in fiscal year 2010.
    The establishment of Total Maximum Daily Loads (TMDLs) allows 
States and the EPA to identify all sources of water quality impairment 
to rivers, streams and lakes that do not meet water quality standards, 
develop specific goals for improvement, and design plans to reduce 
pollutant loads into receiving water bodies. The development of strong 
TMDLs by the States done through funding under section 106 of the CWA 
requires a commitment of adequate resources. American Rivers urges the 
subcommittee to appropriate $250 million for State Program Management 
Grants in fiscal year 2010.
    Nonpoint Source Management Program (Clean Water Act, section 319) 
grant money that States, territories, and Indian tribes can use for a 
wide variety of nonpoint source pollution reduction activities 
including technical and financial assistance, education, training, 
technology transfer, demonstration projects, and monitoring. American 
Rivers urges the subcommittee to appropriate $250 million for section 
319, the Non-point Source Management Program in fiscal year 2010.
    The Targeted Watersheds Grants program provides direct grants to a 
limited number of watershed groups, tribes, and communities working to 
improve water quality. Portions of these funds are designated for 
technical assistance programs and to train community groups engaged in 
watershed-level protection and restoration projects. This training is 
essential to protect and restore the Nation's rivers and watersheds. 
American Rivers urges the subcommittee to appropriate $35 million, 
including $3.5 million dedicated to technical assistance for Targeted 
Watersheds Grants in fiscal year 2010.

                         WILD AND SCENIC RIVERS

    The National Wild and Scenic Rivers System protects free-flowing 
rivers with outstandingly remarkable scenic, recreational, geologic, 
fish and wildlife, historic, cultural, or other similar values. The 
Bureau of Land Management (BLM), Fish and Wildlife Service (FWS), 
National Park Service (NPS), and Forest Service (USFS) share 
responsibility for conducting studies to determine if rivers qualify 
for designation, and administering and developing river management 
plans for designated rivers. Unfortunately, none of these agencies 
receive sufficient funding to adequately protect the Wild and Scenic 
Rivers System, as Congress intended. Streams are becoming degraded and 
restoration is needed in many locations. Increased funding will allow 
these agencies to better manage and protect designated rivers and 
promote their values to the public. American Rivers urges the 
subcommittee to appropriate a total of $38.862 million for the 
management of the Wild and Scenic River System fiscal year 2010. These 
funds should be split as follows: USFS--$9 million for wild and scenic 
river management, $6 million for the completion of river studies and 
the creation of river management plans; BLM's National Landscape 
Conservation System--$7 million for WSR management and $5 million for 
completion of WSR studies; FWS--$1,787,000 for wild and scenic river 
management, restoration and studies; NPS Rivers and Trails Studies--$1 
million for wild and scenic rivers studies and $16 million for wild and 
scenic river management; NPS Partnership Wild and Scenic Rivers--$2.746 
million for management of the wild and scenic rivers.

                       KLAMATH RIVER RESTORATION

    PacifiCorp operates five mainstem dams--two in Oregon and three in 
California--on the Klamath River. These dams cut off more than 300 
miles of once-productive salmon spawning and rearing habitat in the 
Upper Klamath. The dams also create toxic conditions in the reservoirs 
that threaten the health of fish and people. Salmon populations have 
plummeted to less than 10 percent of historic numbers, and the 
commercial salmon fishing industry was virtually shutdown along 700 
miles of coastline in California and Oregon in 2006. The fishery 
closure caused more than $100 million damage to California and Oregon 
economies, and harmed numerous fishing communities. Native American 
tribes throughout the Klamath basin have treaty rights to fish salmon, 
but lower basin tribes have had to drastically reduce their catch to 
protect the salmon runs, and upper basin tribes have not seen salmon in 
their waters for nearly 100 years. The Agreement in Principle released 
November 13, 2008 is intended to guide the development of a final 
settlement agreement in June 2009 and includes provisions to remove 
PacifiCorp's four mainstem dams in 2020. The Restoration of the Klamath 
River will represent the biggest dam removal and river restoration 
effort the world has ever seen. PacifiCorp will be responsible for much 
of the costs, but the Department of the Interior will be required to 
provide on the ground support and technical assistance. American Rivers 
urges the Committee to appropriate the Klamath River Restoration $7.5 
million in fiscal year 2010 through the Department of the Interior.

                                  FWS

    The National Fish Passage Program has opened more than 3,750 miles 
of river and restored 69,000 acres of wetlands for fish spawning and 
rearing habitat. Restoring fish migration enhances entire watersheds 
and benefits birds and mammals, such as eagles, ospreys, herons, 
kingfishers, brown bears, otters, and mink. Since its inception in 
1999, working with local, State, tribal, and Federal partners, the Fish 
Passage Program has leveraged Federal dollars nearly 3 to 1. The Fish 
Passage Program is also one-half (with NOAA) of the $12 million Open 
Rivers Initiative which will provide grants to communities and local 
dam owners to remove their dams that no longer make sense. Many others 
are either dilapidated, having outlived their 50-year life expectancy, 
or are no longer providing the benefits for which they were built. 
These dams are unnecessarily degrading the riverine ecosystem and 
holding up economic development. These restoration projects provide 
significant environmental improvements and offer noteworthy economic 
and societal benefits. They create new opportunities for recreational 
fishing, river rafting, and kayaking; provide cost savings by 
eliminating the need for dam repairs; and remove safety and liability 
risks associated with outdated structures. American Rivers urges the 
subcommittee to appropriate the National Fish Passage Program $11 
million in fiscal year 2010, of which $6 million should be dedicated to 
the implementation of the Open Rivers Initiative.
    The Partners for Fish and Wildlife Program provides financial and 
technical assistance to landowners to restore degraded habitat on their 
property. The program completed thousands of projects across the 
country, restoring more than 150,000 acres of wetlands and more than 
300 miles of riverine habitat. American Rivers urges the subcommittee 
to appropriate $52 million for the Partners for Fish and Wildlife 
program in fiscal year 2010.
    The Coastal Program is an effective partnership that brings 
together FWS scientists, land trusts, biologists, and other 
conservation partners to protect and restore habitat in coastal regions 
and coastal rivers. These partnerships allow the Coastal Program's 
dollars to be matched at least 2 to 1 for on-the-ground work. The 
Coastal Program completed hundreds of projects in across the country, 
restored more than tens of thousands of acres of wetlands and miles of 
riverine habitat. American Rivers urges the subcommittee to fund the 
FWS's Coastal Program at $15 million in fiscal year 2010.

                                  NPS

    The Rivers, Trails and Conservation Assistance Program (RTCA) has 
helped produce some of the best examples of conservation based local-
Federal partnerships by providing communities with assistance to help 
revitalize riverfronts, protect open space, and build trails and 
greenways. If funded at $12 million, RTCA could expand to assist 
approximately 200 additional projects in new and currently underserved 
locations. American Rivers urges the subcommittee to fund the RTCA 
program at $12 million in fiscal year 2010.
    Elwha River Restoration.--Removal of Glines Canyon and Elwha dams 
will restore salmon access to the Elwha river's wilderness heart in the 
Olympic National Park for the first time in 100 years. This dam removal 
will produce a landmark in river restoration for our national parks and 
an unprecedented opportunity to study a large dam removal and its 
impact on the river and wild salmon populations. American Rivers urges 
the subcommittee to provide $40 million to complete the restoration of 
the Elwha River ecosystem and its fisheries in fiscal year 2010.

                         U.S. GEOLOGICAL SURVEY

    These water resource investigation programs provide a strong and 
unbiased source of information on water quality conditions and trends 
on the health of our Nation's rivers and water supply. American Rivers 
urges the subcommittee to provide the following amounts in fiscal year 
2010:
  --National Water Quality Assessment Program: $70 million
  --Toxic Substances Hydrology Program: $17.4 million
  --National Streamflow Information Program: $28.4 million

                    LAND AND WATER CONSERVATION FUND

    LWCF provides much-needed dollars for purchasing ecologically 
important watersheds. LWCF has proven highly successful, projects have 
helped States and localities purchase millions of acres of land and 
advanced river restoration through acquisition of riverside lands to 
serve as buffer zones. The highest-priority projects for river 
conservation are the FWS's $2.5 million need for the acquisition of the 
500-acre Bower Hill parcel to add to the Rappahannock River NWR in 
Virginia; NPS's $3.1 million need to complete the 95 acres acquisition 
of the Hyde Farm parcel to add to the Chattahoochee River NRA in 
Georgia, $2.69 million need for the acquisition of the 1,840 acres of 
the Riverstone tract to be part of the Congaree NP in South Carolina, 
$1 million for the acquisition of 534 acres to be added to the New 
River Gorge National River in West Virginia; BLM's $1.2 million need 
for the acquisition of 101 acres along the Crooked River Canyon to add 
to Oregon's Wild & Scenic Rivers; and USFS's $1.5 million need for the 
acquisition of the 901 acres Cedar Creek parcel to add to 
Chattahoochee/Oconee Riparian Project in Georgia, $1.2 million to 
acquire the 84 acres of Bear Mountain adding to the Charrahoochee NF in 
Georgia, $8 million to acquire 5,025 acres of the Little Truckee & 
Middle Yuba Headwaters to add to the Sierra Checkerboard, Tahoe NF in 
California, $4 million to purchase 735 acres of Reeb Mining Claims to 
protect three headwater tributaries of the Yellowstone and Stillwater 
Rivers adding to the Custer and Gallatin NF in Montana, $3 million to 
purchase 7,800 acres of the Bear Creek Ranch adding to the Gila 
National Forest in New Mexico, $4.5 million to purchase 5,000 acres 
along the John Day River adding to the Malheur National Forest in 
Oregon, $5 million to purchase 2,700 acres along the Blackwater River 
adding to the Monongahela National Forest in West Virginia, and $2.2 
million need for the acquisition of the 160 acres Morgan Ranch parcel 
to add to Idaho Wild & Scenic Rivers in Idaho. American Rivers urges 
the subcommittee to appropriate at least $450 million for the LWCF in 
fiscal year 2010.
                                 ______
                                 
         Prepared Statement of the American Society of Agronomy

    Dear Chairwoman Feinstein, Ranking Member Alexander, and members of 
the subcommittee: On behalf of the American Society of Agronomy, Crop 
Science Society of America, Soil Science Society of America (ASA-CSSA-
SSSA), I am pleased to submit comments in strong support of enhanced 
public investment in the U.S. Forest Service (USFS), U.S. Geological 
Survey (USGS), and U.S. Environmental Protection Agency (EPA) as 
critical components of Federal appropriations for fiscal year 2010 and 
beyond. With more than 25,000 members and practicing professionals, 
ASA-CSSA-SSSA are the largest life science professional societies in 
the United States dedicated to the agronomic, crop and soil sciences. 
ASA-CSSA-SSSA play a major role in promoting progress in these sciences 
through the publication of quality journals and books, convening 
meetings and workshops, developing educational, training, and public 
information programs, providing scientific advice to inform public 
policy, and promoting ethical conduct among practitioners of agronomy 
and crop and soil sciences.

                                SUMMARY

    ASA-CSSA-SSSA understand the budgetary challenges the Senate 
Appropriations Interior, Environment, and Related Agencies Subcommittee 
faces in fiscal year 2010. We also recognize that the Interior, 
Environment, and Related Agencies appropriations bill has many valuable 
and necessary components, and we applaud the efforts of the 
subcommittee to fund the USFS, USGS, and EPA.
    USFS sustains the health, diversity, and productivity of the 
Nation's forests and grasslands to meet the needs of present and future 
generations. Soils are a vital component of forest management, and 
their understanding is essential to achieve USFS's strategic goals, yet 
vital programs that are essential for improved soil quality have been 
consistently under-funded. The Societies are concerned with past 
transfers of funding for USFS away from base programs to support 
wildland fire suppression. ASA-CSSA-SSSA appreciate the more than 3 
percent increase provided by the subcommittee to USFS core (without 
wildland fire management funds) programs which brought fiscal year 2009 
funding to $2,614,164,000. For fiscal year 2010, we recommend 
$2,875,580,400, a 10 percent increase more than fiscal year 2009, thus 
putting USFS back on track toward properly managing the 749 million 
acres of forests in the United States for the services they provide: 
clean water and air; recreational opportunities; hunting; fishing; 
forest products; and scenic values.
    USGS provides reliable scientific information to describe and 
understand the Earth; minimize loss of life and property from natural 
disasters; and protect the Nation's natural resources. ASA-CSSA-SSSA 
applaud the subcommittee's support for an additional $200 million in 
the American Recovery and Reinvestment Act of 2009 to repair and 
modernize USGS science facilities and equipment and support other 
areas. For fiscal year 2010, we recommend $1.3 billion for USGS, a 24.5 
percent increase more than the fiscal year 2009 level of $1.043 
billion. Only a concerted, long-term effort to boost USGS funding will 
produce the knowledge and tools needed to appropriately manage and meet 
the many challenges facing the Nation's water, biological, energy, and 
mineral resources, while enhancing and protecting our quality of life.
    In order to fulfill its mission, the EPA needs increased 
investments in socioeconomic, sustainability, ecological, and 
exploratory research as well as partnerships with academia and State 
and local government. These areas are essential to move environmental 
protection from a command-and-control regulatory system to a more 
rational, compliance-based approach. For EPA Science and Technology for 
fiscal year 2010, ASA-CSSA-SSSA recommend a funding level of 
$845,354,570, a 7 percent increase more than fiscal year 2009 and for 
Environment Programs and Management, $2,559,524,000, also a 7 percent 
increase.

                                  USFS

Forest and Rangeland Research
    The Forest Service Research (FSR) soils program examines key 
environmental issues: nutrient cycling, impact of acid rain on soil 
function, management impacts on soil productivity, plant nutrition, 
soil moisture, plant growth relationships, soil microbial functions, 
and soil quality concepts. Past investments in soils research have 
yielded great benefits to the Nation, e.g., Research soil scientists 
described the environment-plant-soil carbon relations in the very 
carbon-rich black spruce forests needed to assist forest managers in 
understanding how to manage the soil carbon pool after fire 
disturbance, which is predicted to increase in a warming climate. ASA-
CSSA-SSSA applaud the more than 3 percent increase provided by the 
subcommittee for Forest and Rangeland Research in fiscal year 2009, and 
for fiscal year 2010 we recommend increasing Forest and Rangeland 
Research funding by 7 percent ($20,746,600) bringing total funding to 
$317,126,600. Within Forest and Rangeland Research, we urge the 
subcommittee to fund Resource Management and Use at the highest level 
possible. If funding increases do not occur, USFS will be unable to 
replace recently retired research soil scientists, and there will also 
be a loss of capability to maintain measurements on the national Long 
Term Site Productivity study that guides USFS sustainability 
requirements.

                      NATIONAL FOREST SYSTEM (NFS)

    Fresh water is a critical resource that is becoming scarce in many 
regions. It is essential that we continue to manage our forests to 
promote healthy watersheds, through effective monitoring. ASA-CSSA-SSSA 
support a funding level of $179,310,000, a 7 percent increase, for 
inventory and monitoring program in fiscal year 2010. We also recommend 
$193,067,590, a 7 percent increase, in funding for vegetation and 
watershed management. Soil is the natural filter, often overlooked, 
vital for healthy watersheds. Past investments in NFS have yielded 
enormous benefits to society--Soil scientists annually provide critical 
soil resource information to Burned Area Emergency Response teams 
evaluating the environmental effects and developing rapid management 
responses for hundreds of wildfires. Strong funding for NFS will allow 
USFS to start a resource inventory of the remaining 59.7 million acres 
of National Forest land currently scheduled; adequately continue 
monitoring the effects of land management activities on forest and 
range sustainability as required by the National Forest Management Act 
of 1976; and maintain a viable scientific knowledge base when retiring 
soil scientists are not replaced.

                                  USGS

Geographic Research, Investigations, and Remote Sensing
    Land use and change are major issues of concern for the Nation. 
Satellite imagery is used by a variety of stakeholders: Government 
agencies such as the USGS, EPA, National Science Foundation (NSF), and 
United States Department of Agriculture (USDA); Universities-land 
grants and private; and private sector environmental managers and 
planners. Precision agriculture utilizes remote sensing, in combination 
with GIS and GPS, to develop farm-specific management maps reducing 
over-application of nutrients and loss in sensitive areas. ASA-CSSA-
SSSA are concerned with the 6.96 percent ($5,407,000) cut made to 
geographic research, investigations, and remote sensing in fiscal year 
2009. We urge the subcommittee to fund the geographic analysis and 
monitoring program at $11,339,860, a 7 percent increase more than 
fiscal year 2009. This funding level will help ensure access to a 
common set of current, accurate, and consistent data and scientific 
information that describe the Earth's land surface to help inform 
decisions by policymakers, resource managers, researchers, citizens, 
and the private sector.

                     WATER RESOURCES INVESTIGATIONS

    Water is a limiting resource for many regions of the United States; 
certain regions have been in a sustained drought for several years. 
ASA-CSSA-SSSA recommend $161,962,960 in funding, a 7 percent, for 
hydrologic, monitoring, assessments and research (HMAR) for fiscal year 
2010. Within HMAR, critical programs--ground water resources, toxic 
substances hydrology, and hydrologic research and development--deserve 
special funding consideration. ASA-CSSA-SSSA appreciate the 
subcommittee's support for National Water Quality Assessment (NAWQA) 
program which raised total funding to $65,056,000 for fiscal year 2009. 
For fiscal year 2010, we recommend an additional $4,553,920 (7 percent 
increase) for NAWQA which will bring total funding to $69,609,920. This 
strong funding level will significantly increase the ground water 
monitoring capacity in USGS and allow for annual monitoring at the 113 
active sites, demonstrating the Government's commitment to providing 
clean available water under increasing demands. Aquifers are the 
leading source of fresh water across the country and it is essential we 
monitor and maintain this ecosystem service. Nutrient loading of the 
Mississippi River has been linked to the hypoxia zone in the Gulf of 
Mexico. January 2008, NSF released a press release (08-010) that 
concluded agriculture is changing the chemistry of the Mississippi 
River due to increased carbon and water loading. As more farm acreage 
is converted to biofuels, there is increasing potential for these 
systems to load major river systems. ASA-CSSA-SSSA request a funding 
level of $8.8 million, a 35 percent ($2,300,000) increase more than 
fiscal year 2009, for the Water Resources Research Institutes which 
assist Federal and State agencies in promoting and facilitating the 
research and technology transfer they need to carry out their missions 
to protect human health, environmental resources, and economic 
sustainability.

                          BIOLOGICAL RESEARCH

    For fiscal year 2010, ASA-CSSA-SSSA recommend funding for 
biological research be increased by $12,973,000 (7 percent) which will 
provide $198,303,000 in total funding and thus strong support for 
biological research and monitoring, biological information management 
and delivery, and cooperative research units.

                            SCIENCE SUPPORT

    Climate change is a major focus for many agencies in fiscal year 
2010 and ASA-CSSA-SSSA which are interested in the role agriculture can 
play to mitigate climate change. ASA-CSSA-SSSA are pleased to see 
overwhelming support provided by the subcommittee to global climate 
change research which brought funding from $7,383,000 in fiscal year 
2008 to $40,628,000 for fiscal year 2009, an increase of $33,245,000 
(450 percent). Support for the geographic research program is critical 
to provide the United States the ability to effectively reduce domestic 
greenhouse gas emissions in agriculture. The geographic research 
program contributes to the Carbon Research Program, carried out by 
USGS, USDA, and other international partnerships. We recommend 
increasing funding levels for terrestrial carbon research to $2,000,000 
to develop new tools and understanding of the role that our managed 
lands play in carbon sequestration.

                                  EPA

    In order to fulfill its mission, EPA needs increased investments in 
both its intramural and extramural science programs as well as 
associated services such as environmental education and libraries. 
Long-term, deep budget cuts in research areas are devastating and 
compromising EPA's ability to adequately monitor and safeguard and the 
Nation's air, soil, and water resources. ASA-CSSA-SSSA recommend that 
EPA increase investments in socioeconomic, sustainability, ecological, 
and exploratory research as well as partnerships with academia and 
State and local government. These areas are essential to move 
environmental protection from a command-and-control regulatory system 
to a more rational, compliance-based approach. For EPA science and 
technology for fiscal year 2010, ASA-CSSA-SSSA recommend a funding 
level of $845,354,570, a 7 percent increase more than fiscal year 2009. 
We urge the subcommittee to fund environment programs and management at 
$2,559,524,000, a 7 percent increase more thanfiscal year 2009.
    Thank you for your thoughtful consideration of our requests.
                                 ______
                                 
   Letter from the Association of State Drinking Water Administrators
                                                   January 5, 2009.
Hon. Dianne Feinstein,
Chairman, Interior, Environment, and Related Agencies Appropriations 
        Subcommittee,
Washington, DC.
    Dear Madam Chair: I am writing on behalf of the membership of the 
Association of State Drinking Water Administrators (ASDWA) to request 
the opportunity to present oral testimony at the forthcoming Senate 
Appropriations hearings regarding the Environmental Protection Agency's 
fiscal year 2010 budget. ASDWA members are responsible for implementing 
the numerous provisions of the Safe Drinking Water Act (SDWA) in the 50 
States, territories, the Navajo Nation, and the District of Columbia. 
In continuing their efforts to implement the act's provisions, the 
States are looking to Congress for additional support.
    Since enactment of the 1996 SDWA amendments, State drinking water 
programs responsibilities have continued to grow as we strive to ensure 
that public health is protected through clean and safe drinking water. 
These time and resource intensive responsibilities extend beyond 
traditional activities such as working with utilities to ensure 
compliance with both new and existing drinking water regulations. They 
also include undertaking initiatives to protect source waters; working 
to ensure that drinking water systems can demonstrate that they have 
adequate technical, managerial, and financial capabilities to meet 
Federal and State requirements; and ensuring that drinking water system 
operators are adequately trained and certified. Since September 11, 
2001, and underscored in recent years by the growing number of large 
natural disasters, these responsibilities have expanded to include 
additional initiatives directed toward ensuring the safety and security 
of our Nation's drinking water supplies. State drinking water programs 
are also being directed to focus limited resources on issues such as 
water quantity issues associated with climate change, carbon 
sequestration, energy conservation, and sustainable infrastructure.
    Federal funding to administer these critical State efforts through 
the Public Water Supply Supervision is woefully inadequate to the task 
at hand and has actually remained the same or declined since fiscal 
year 2004. Similarly, Federal funding for the Drinking Water State 
Revolving Loan fund is clearly insufficient to bridge the 
infrastructure ``gap'' in the United States and, in fact, has never 
been appropriated at authorized amounts.
    Today, State drinking water programs are experiencing extreme 
fiscal constraints that affect their ability to undertake federally 
mandated responsibilities for drinking water protection without 
additional Federal funding support. As a result, State drinking water 
programs are being forced to prioritize their public health protection 
initiatives. This situation cannot and must not be allowed to 
deteriorate to the point where public health is compromised or where 
States will have to return the drinking water program to the Federal 
Government. ASDWA, through its testimony, would like to provide the 
subcommittee with a realistic picture of State activities and needs for 
the coming year as well as about critical drinking water infrastructure 
needs associated with the Drinking Water State Revolving Loan Fund.
    Thank you for your consideration of ASDWA's request to provide oral 
testimony during the forthcoming budgetary hearings. I look forward to 
learning the specifics of the hearing schedule and the possibility of 
securing time on the agenda.
            Sincerely,
                                             James D. Taft,
                                                Executive Director.
                                 ______
                                 
   Letter from the Alliance to Save Energy; American Council for an 
  Energy-Efficient Economy; Environmental and Energy Study Institute; 
     Green Buildings Initiative; Johnson Controls, Inc.; National 
    Association of State Energy Offices; North American Insulation 
       Manufacturers Association; and U.S. Green Building Council

    Dear Chairwoman Feinstein and Ranking Member Alexander: We the 
undersigned represent a broad-based coalition of hundreds of energy 
efficiency and environmental organizations, public interest 
organizations and corporations. We write to commend the success of the 
EPA Energy Star Program to date and ask for its continued support. We 
request that the subcommittee approve funding in the amount of $100 
million for the EPA Energy Star Program in fiscal year 2010, an 
increase of $49.3 million more than the President's fiscal year 2010 
budget request.
    The EPA Energy Star Program is the single most effective Federal 
consumer information program on energy efficiency. Indeed it is one of 
the most successful efforts anywhere to promote marketplace solutions 
for greater energy efficiency. The program works with thousands of 
business partners to make it easy for consumers to find and buy energy-
efficient products, buildings, and services by awarding the well-known 
Energy Star label and by providing other consumer information. The 
Energy Star program reduces energy demand, lowers energy bills, and 
helps avoid pollution and greenhouse gas emissions.

                   ABOUT THE ENERGY STAR PARTNERSHIPS

    These initiatives have proven to be an extremely effective way for 
us to capitalize on the potential of energy efficiency as a resource. 
Energy Star's voluntary partnership program, which includes Energy Star 
Buildings, Energy Star Homes, Energy Star Small Businesses, and Energy 
Star Labeled Products, works by removing marketplace barriers to 
existing and emerging technologies, providing information on technology 
opportunities, generating awareness of energy-efficient products and 
services, and educating consumers about life-cycle energy and cost 
savings.
    Energy Star serves broad constituencies in every State in the 
country. The program currently has more than 14,000 partners who are 
committed to improving the energy efficiency of our homes, businesses, 
and products. Among those partners are more than 2,000 manufacturing 
partners who make and market more than 40,000 different models of 
Energy Star qualifying products, and more than 1,000 retail partners 
representing thousands of storefronts, as well as building owners and 
operators, utilities, State and local governments, and nonprofit 
organizations. Energy Star counts more than 5,000 builder partners and 
partners who supply products and services for energy-efficient home 
construction. More than 840,000 families now live in Energy Star 
Homes--locking in financial savings for homeowners of more than $200 
million annually.

                       MUCH HAS BEEN ACCOMPLISHED

    The program helps consumers to visualize the long-term benefits, 
through lower energy bills, that can be realized through investment in 
energy efficient appliances. Approximately one-third of U.S. consumers 
report using the Energy Star label as an information tool for making 
purchase decisions, and an even higher number report using Energy Star 
as an information tool to help them save energy. With this high level 
of consumer awareness, the potential for Energy Star to tap into even 
greater energy efficiency is limited only by the availability of 
resources to fund its programs. The return on investment in EPA Energy 
Star is unparalleled: The EPA estimates that for every Federal dollar 
spent on the Energy Star program, $75 or more in consumer energy bills 
is saved, and about 3.7 tons of carbon dioxide emissions is avoided.
    In 2007 alone, Energy Star helped Americans save 35,000 megawatts 
of peak power, avoiding the need for about 70 new power plants. The 
electricity savings--180 billion kilowatt-hours--represent 5 percent of 
total 2007 electricity use. Working together with Energy Star, 
Americans prevented the emission of 40 million metric tons of 
greenhouse gas emissions, which is equivalent to removing 25 million 
cars from the road. And Americans, with the help of Energy Star, saved 
$16 billion on their energy bills. As these statistics exemplify, the 
Energy Star program is helping millions of Americans get the energy 
they need, while saving money and avoiding pollution.

                    HUGE POTENTIAL REMAINS UNTAPPED

    Although EPA Energy Star is already making a tremendous impact on 
U.S. energy consumption, many opportunities exist to expand existing 
programs and initiate new efforts, greatly increasing the energy 
savings potential. Funding for the Energy Star Program declined 
precipitously in the last several years.
    The fiscal year 2008 funding level of $43.9 million was a reduction 
of more than 25 percent from fiscal year 2002 levels, after accounting 
for inflation. We were pleased to see an increase in funding to $50 
million in fiscal year 2009, but this level still represents a decrease 
from fiscal year 2002 levels in real dollars. The recommended increase 
of only $700,000 in the fiscal year 2010 administration budget request 
is insufficient. Dramatic increases in the program are necessary for 
the program to fully utilize the opportunities to reduce energy 
consumption that still remain untapped. A $100 million budget in fiscal 
year 2010, representing a $50 million increase more than fiscal year 
2009 funding, will enable the program to label additional products, 
update its criteria, increase its consumer outreach, and address 
energy-efficient home improvements nationwide.

                            RECOMMENDATIONS

    We recommend that the funding for the Energy Star Program be 
increased to $100 million. The $50 million in increased funding that we 
are requesting should in our view be directed to the following 
initiatives:
  --An expanded program for improvements to energy-inefficient existing 
        homes: $12.5 million
    Homeowners can save 10 to 20 percent on their home energy bills--
which now average $2,100 a year--with a set of new Energy Star programs 
that go beyond the labeling of efficient products. These include:
    --Home Performance with Energy Star (HPES).--HPES is a whole-home 
            retrofit program that can be offered by a State, utility, 
            or other local program sponsor in partnership with EPA. It 
            gives homeowners access to trained building professionals, 
            information on the best home improvement projects for their 
            home, and quality assurance and quality control on the work 
            performed, which commonly includes adding insulation and 
            sealing ductwork and air leaks. This program is being 
            offered in a dozen locations around the country and is 
            providing homeowners with an average of 20 percent savings 
            on their home energy bills.
    Additional funding would bring this program to many more cities and 
homeowners around the country. HPES is uniquely valuable to homeowners 
because it goes beyond household appliances to improve the residential 
building envelope holistically, while offering consumers the confidence 
that comes with the Energy Star name.
    --Quality Installation of Heating and Cooling Equipment.--Ensuring 
            that heating and cooling equipment is of appropriate size 
            and that it is correctly installed and maintained is 
            essential to getting the most out of energy efficiency. 
            Many air conditioners are oversized and improperly 
            installed, so often even high-efficiency units consume much 
            more energy than necessary. Cooling and heating equipment 
            are key drivers of peak demand, and therefore improving the 
            effective efficiency of this equipment can decrease the 
            need for new power plants.
    EPA Energy Star and its partners have developed and piloted 
programs to address the challenges to proper equipment sizing, 
installation and maintenance. Additional funding would enable Energy 
Star to spread these program models across the country, ensuring that 
gains in appliance efficiency are not mitigated by a failure to address 
these challenges.
  --An expanded program for rating the energy performance of all 
        building types: $7.5 million
    Providing a comprehensive yet simple measurement of building energy 
consumption is a powerful tool in motivating energy efficiency 
improvements. EPA Energy Star has established a performance rating 
system that offers a standardized, consistent measurement of energy use 
for more than 60 percent of U.S. commercial building space, and this 
system has already been used to assess the energy consumption of about 
10 percent of U.S. building space. Additional funding would expand this 
system to apply to the vast majority of the Nation's buildings, and 
would help Energy Star to partner with States, local governments, 
builders, and other groups to make effective use of the rating system.
  --An expanded focus on medium and small manufacturing and small 
        business: $10 million
    EPA Energy Star has developed specialized approaches for working 
with medium-sized manufacturers and with small businesses to improve 
their energy efficiency. These efforts could be greatly expanded. 
Energy Star could enlist many small businesses as partners in the 
proper delivery/installation of high-efficiency services and products 
since small businesses constitute about half the economy and consume 
about half the energy
  --A new program to aid sponsors of emerging energy efficiency 
        programs in program development and implementation: $10 million
    EPA already partners with hundreds of utilities, States, local 
governments, and other organizations to help them run their efficiency 
programs. There is growing interest, especially at the State level, in 
funding organized energy efficiency programs. The Energy Star energy 
efficiency platform can help these emerging program sponsors to develop 
new programs quickly and to build on existing best practices, leading 
to greater program effectiveness and cost-effectiveness. EPA Energy 
Star should target its outreach toward programs for elementary and 
secondary schools, among others.
  --An expanded outreach effort to State and local governments: $10 
        million
    State and local governments can save significant energy and money 
through investments in energy efficiency. State and local governments 
could dramatically enhance attractive investments in energy efficiency 
through expanded outreach and sharing of best practice policies and 
programs, including improving the efficiency of water and wastewater 
treatment facilities, alternative financing approaches, effective 
school energy efficiency programs, etc. Matching funds for innovative 
State programs could be established.
  --An expanded focus on exploring new technologies and practices: $5 
        million
    In many sectors technology is advancing at lightning speed, 
offering opportunities to improve the energy efficiency of new homes, 
buildings, and products. Additional funding would expand EPA Energy 
Star's ability to study these innovations and focus earlier in the 
technology development process on how best to bring them into the 
Energy Star program and deploy them in the marketplace. This would 
speed the adoption of the most energy-efficient products and drive 
further innovation.

                               CONCLUSION

    The Energy Star program proves that we can protect the environment 
while simultaneously saving consumers money on their energy bills and 
enhancing the economy. Energy Star provides the catalyst for many 
businesses, State and local governments, and consumers to invest in 
energy efficiency, which in turn yields multiple private and public 
benefits. It does this by providing access to information, improving 
brand recognition, and providing positive publicity.
    While there are many demands on the country's financial resources, 
Energy Star has proven tremendously cost-effective, and it returns 
important benefits to the Nation. Every added Federal dollar invested 
in Energy Star in fiscal year 2010 will return a significant and cost-
effective yield in pollution reduction, economic stimulation, energy 
security, and consumer savings. On behalf of the Energy Efficiency 
Coalition, we strongly urge the subcommittee to approve $100 million in 
funding for the EPA Energy Star Program in fiscal year 2010.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2010 appropriation for the 
U.S. Environmental Protection Agency (EPA) research and education 
programs. ASM is the largest single life science membership 
organization in the world with more than 43,000 members. ASM mission is 
to enhance the science of microbiology, to gain a better understanding 
of life processes, and to promote the application of this knowledge for 
improved health and environmental well-being.
    ASM urges Congress to support essential research and provide at 
least $595 million for the ORD in fiscal year 2010, the same as the 
funding level provided in fiscal year 2006. While EPA received 
substantial funding in both the American Recovery and Reinvestment Act 
of 2009 and the Omnibus Appropriations Act of 2009, the need remains 
for a steady annual increase of fiscal year appropriations funding, to 
offset the past detrimental trend of budget cuts and loss of EPA's 
spending power to inflation.
    The EPA relies on sound science to safeguard both human health and 
the environment. The EPA Office of Research and Development (ORD) 
sponsors leading-edge research that provides a solid underpinning of 
science and technology for EPA's regulatory and public outreach 
activities. ORD conducts research on pollution prevention, human health 
protection, and reduction of risks from a variety of hazardous 
chemicals and microbes. The work at ORD laboratories, research centers, 
and offices across the country helps optimize use of our natural 
resources and improve the quality of the Nation's air, water, and soil. 
Excellence in research is crucial to ORD's mandated responsibilities:
  --Perform research and development to identify, understand, and solve 
        current and future environmental problems;
  --Provide responsive technical support to EPA's mission;
  --Integrate the work of ORD's scientific partners (other agencies, 
        nations, private sector organizations, and academia); and
  --Provide leadership in addressing emerging environmental issues and 
        in advancing the science and technology of risk assessment and 
        risk management.
    ASM is very concerned with the trend in recent years of decreasing 
the annual budget for EPA's research and development programs. Optimal 
EPA oversight of public health and the environment clearly depends upon 
EPA's access to exemplary scientific expertise within and outside the 
EPA, as well as the ability to respond quickly to our changing 
environment.
    Both access to expertise and timely response to the environment 
depend on sufficient and sustained investments in research and 
development programs. The fiscal year 2009 budget allocation for the 
ORD was $541 million, a significant 1.3 percent decrease from fiscal 
year 2008. These funding decreases will likely undermine the basic 
scientific foundation essential for the EPA to make decisions and 
formulate regulations to protect both human health and the environment. 
The fiscal year 2009 decreases are part of a longer-term pattern of 
funding erosion that is cause for serious concern.

        SCIENCE TO ACHIEVE RESULTS (STAR) GRANTS AND FELLOWSHIPS

    ASM urges Congress to increase funding for the STAR grants program 
to at least the fiscal year 2002 level of $102 million. The fiscal year 
2009 budget continued a disturbing 7-year trend of shrinking STAR 
resources by recommending only $61 million for STAR, a 4.6 percent 
reduction from fiscal year 2007. Currently, the STAR program focuses 
research on drinking water, water quality, global climate change, human 
health risk assessment, children's health, and the health effects of 
particulate matter, among other equally important areas. Cuts to STAR 
funding will have almost certain detrimental effects on both human 
health and the environment.
    The STAR grants support extramural research in numerous 
environmental science and engineering disciplines, awarded through a 
competitive solicitation process and independent peer review. The 
program engages the Nation's best scientists and engineers in targeted 
research that complements EPA's own intramural research and that 
conducted by partners in other Federal agencies. Cuts to the STAR 
program significantly reduce American competitiveness in the important 
areas of scientific research and discovery, an effect that cannot be 
ignored in the current economic climate.
    Reductions in the STAR program will severely limit EPA's ability to 
draw upon critically needed scientific expertise from the academic 
community, a valuable source of research insights and personnel for EPA 
programs. Reductions will also limit U.S. competitiveness in the areas 
of environmental research, training, and development of new 
technologies for solving environmental problems. The STAR program 
revitalizes all areas of EPA research and its fellowships foster 
workforce development in environmental science and technology.

                          CLEAN AND SAFE WATER

    The EPA is tasked with ensuring the safety of our drinking and 
recreational waters, an enormous regulatory task that is entirely 
reliant on sufficient funding. Through Amendments to the Safe Drinking 
Water Act (SDWA), Congress has mandated that the EPA must conduct 
adequate research to ensure a solid scientific foundation for EPA's 
mission of reducing and limiting public exposure to dangerous drinking 
water contaminants. ASM is concerned with adverse impacts of past ORD 
budget cuts on EPA's Drinking Water and Water Quality programs.
    The Drinking Water Program has suffered the greatest reductions, 
with an 8 percent decrease from fiscal year 2008 to 2009. Such 
decreases in the Drinking Water Program severely compromise the EPA's 
ability to ensure safe drinking water for all Americans. Health 
problems from microbial contamination of drinking water are 
demonstrated by localized outbreaks of waterborne disease. Many of 
these outbreaks have been linked to contamination by bacteria or 
viruses, likely from human or animal wastes. For example, in 1999-2000, 
there were 39 reported disease outbreaks associated with drinking 
water, some of which were linked to public drinking water supplies.
    ASM supports the following as priority research areas for the 
fiscal year 2010 budget for drinking water and water quality: (1) 
studies on impacts of subsurface carbon dioxide (CO<INF>2</INF>) 
storage on drinking water quality; (2) analysis of aquatic life 
guidelines, recreational water criteria, the effects of emerging 
contaminants, nutrients, biocriteria, and multiple stressor effects on 
stream biota; (3) watershed management research that supports diagnoses 
of impairment, mitigations, and pollutant load reduction in headwater 
streams and isolated wetlands; and (4) improvements in the control of 
microbial releases from publicly owned treatment works during periods 
of significant wet weather events. It is also imperative that the EPA 
continues to develop analytical methods for accurately measuring 
contaminant levels in drinking water and surface water; that the EPA 
ensures proper certification and assessment of laboratories that 
analyze drinking-water samples; and that the EPA conducts research that 
strengthens the scientific basis for standards that limit public 
exposure to contaminants. Topics of growing concern include: the 
dissemination of diverse anthropogenic compounds, such as 
pharmaceuticals and estrogens or estrogen-like compounds into the 
environment through water and wastewater treatment systems. These 
compounds are now ubiquitous, but their fates in the environment and 
impacts on humans and other organisms are inadequately known.
    ASM also supports increased funding for the Water Quality program. 
Expanding ORD-supported research is needed to more fully protect the 
Nation from waterborne illnesses that persist in our environment. For 
example, according to the Centers for Disease Control and Prevention 
(CDC), cryptosporidium, a protozoan parasite causing gastroenteritis in 
humans, has become the leading cause of recreational water-associated 
outbreaks of gastrointestinal illness. In 2003-2004, this parasite 
accounted for 61 percent of gastrointestinal outbreaks associated with 
disinfected swimming venues, such as swimming pools and water parks--
likely due to the parasite's high resistance to free chlorine, the main 
barrier to infectious disease transmission in pools. Since 2005, 
reports of cryptosporidiosis have increased substantially. Clearly, the 
EPA needs continued support to address water-borne diseases such as 
this.

             RENEWABLE ENERGY AND WASTEWATER INFRASTRUCTURE

    The EPA is a stakeholder in ensuring a sustainable environment, 
meeting the needs of the present without compromising the ability of 
future generations to meet their own needs. Renewable energy research 
is essential for ensuring sustainability, and ASM encourages EPA to 
pursue collaborative efforts in this area with the National Science 
Foundation (NSF), the Department of Energy (DOE), and the U.S. 
Department of Agriculture (USDA).
    In order to provide safe and secure drinking water for its 
citizens, the Nation must improve the sustainability and energy 
efficiency of its water distribution systems from sources to ``sinks.'' 
Energy efficiency is an important but often overlooked consideration 
when addressing the Nation's water supply. At present, the Nation's 
water distribution infrastructure consumes approximately 5 percent of 
total electricity use. The development of nonfossil fuel energy sources 
for water distribution cannot only contribute to a more secure water 
supply, but can also contribute to the Nation's energy security. 
Coupling microbial activity during wastewater treatment to electricity 
generation provides one example for increasing energy efficiency.
    Researchers, supported by the NSF and the USDA have made great 
strides in advancing the technology of microbial fuel cells to benefit 
wastewater treatment plants. Microbial fuel cells work through the 
action of bacteria, which can produce electricity in fuel cells. In the 
process, the bacteria consume organic matter in the wastewater and thus 
improve water quality. This approach uses the bacteria that naturally 
occur in wastewater, requiring no special bacterial strains or unusual 
environmental demands. The benefit of microbial fuel cell applications 
is that they purify wastewater while generating electricity; water 
purification, the goal of wastewater treatment facilities, normally 
requires the consumption of energy.
    ASM urges Congress to support a collaborative relationship between 
the EPA and the DOE, the NSF, and the USDA to explore energy production 
from waste treatment, and to develop mechanisms for improving energy 
efficiency in water distribution.

                             CLIMATE CHANGE

    Climate change affects all of earth's life, including the 
ubiquitous microbes that dominate the living mass of many ecosystems. 
While climate-related disturbances can have many effects, it is 
abundantly clear that they directly and indirectly affect the incidence 
of serious infectious diseases. Climate changes can also impact air and 
water pollution, which adversely affect human health. The effects of 
these changes on microbial activities are often unpredictable, but 
microbes nonetheless play major roles in water quality, environmental 
integrity and human health. Thus, it is essential that the EPA retains 
and expand its ability to support research on climate change, including 
the subsequent impacts on beneficial and pathogenic microorganisms.
    ASM is concerned that past budget reductions to the Global Climate 
Change research program at ORD will limit its ability to understand 
links between certain diseases and pathogens and climate change. The 
Intergovernmental Panel on Climate Change noted in 2007 that the global 
population at risk from vector-borne malaria would increase by between 
220 million and 400 million in the next century. Other vector-borne 
diseases, such as dengue fever, yellow fever, and encephalitis, are 
also projected to spread into new areas due to global warming. Climate 
change may increase the risk of other infectious diseases, particularly 
those diseases that appear in warm areas and are spread by aquatic 
pathogens. For example, shellfish-borne outbreaks of gastroenteritis 
caused by the aquatic bacterium Vibrio parahaemolyticus have been 
associated with temperature increases in United States coastal waters 
in recent years. In addition, increased frequencies of harmful algal 
blooms in warmer waters, particularly in areas subject to nutrient 
pollution, can lead to more frequent outbreaks of diseases like 
cholera. Thus, ASM supports the administration's dedication to slow 
global warming, and asks Congress to provide sufficient funding for the 
ORD to continue this important research.

                               CONCLUSION

    The EPA requires sound scientific information to meet its mandates 
to protect human health and the environment. The ORD is an integral 
component for conducting research needed to answer many of the 
challenges we face, such as climate change, renewable energy, and 
provision of clean and safe water. ASM urges Congress to provide at 
least $595 million for the ORD in fiscal year 2010. ASM appreciates the 
opportunity to provide written testimony and would be pleased to assist 
the subcommittee as it considers the fiscal year 2010 appropriation for 
the EPA.
                                 ______
                                 
        Prepared Statement of the Appalachian Trail Conservancy

    Dear Madam Chair and members of the subcommittee: On behalf of the 
Appalachian Trail Conservancy (ATC), for reasons described below, I am 
requesting a fiscal year 2010 appropriation from the Land and Water 
Conservation Fund (LWCF) in the amount of $2.625 million for the 
National Park Service (NPS) and $15.02 million for the USDA Forest 
Service (USFS) for the acquisition of lands and interests in lands 
surrounding or bordering the Appalachian National Scenic Trail (ANST) 
in the States of New Hampshire, Vermont, Tennessee, and North Carolina. 
ATC also is supporting two fiscal year 2010 Forest Legacy Program (FLP) 
projects in Maine and New Hampshire totaling $7.613 million.
    Background.--The Appalachian Trail (AT) is America's premier long-
distance footpath. Initially established between 1923 and 1937 as a 
continuous footpath extending from western Maine to northern Georgia, 
the trail gained Federal recognition in 1968 with the passage of the 
National Trails System Act. Amendments to that act in 1978 expanded the 
authorization for Federal and State land acquisition to establish a 
permanent, publicly owned right-of-way as well as a protective corridor 
or ``greenway'' along the trail. Since 1978, with the strong support of 
the subcommittee and the Congress as a whole, the ANST land-acquisition 
program of the NPS and USFS has become one of the most successful land-
conservation efforts in the Nation's history with the acquisition of 
more than 189,000 acres, more than 3,360 parcels, in 14 States. Today, 
only approximately 5 miles of the 2,178-mile AT remain to be protected 
through public ownership.
    Resource Characteristics.--The AT is a 2,178-mile footpath 
extending along the crests and valleys of the Appalachian Mountains 
through 14 States from Maine to Georgia. Often characterized as a 
``string of pearls,'' the trail, which is considered a unit of the 
National Park System, connects 8 National Forests, 6 other units of the 
National Park System, and approximately 60 State parks, forests, and 
game-management units. With an estimated 3 to 4 million visitors per 
year, it ranks among the most heavily visited units of the National 
Park System and also ranks among the top 10 units from the standpoint 
of natural diversity.
    The AT is equally well known as a remarkable public/private 
partnership. Since the initial construction of the trail in the 1920s 
and 1930s, volunteers affiliated with the ATC have constructed, 
reconstructed, and maintained the footpath as well as a system of more 
than 250 shelters and associated facilities such as privies, improved 
campsites, bridges, signs, and parking lots. In 2008, for example, more 
than 6,000 volunteers contributed more than 203,000 hours of labor 
along the trail. As an outgrowth of an agreement between the NPS and 
ATC, the Conservancy has accepted management responsibility for most 
lands acquired by that agency along the trail. ATC, through its network 
of 30 club affiliates, is now responsible for virtually all phases of 
``park'' operations, ranging from trail and facility maintenance and 
construction to land and resources management to visitor education and 
services. ATC also provides ongoing, volunteer-based stewardship for 
other trail lands, totaling more than 250,000 acres.
    Need for Appropriations.--As noted previously, while the ANST 
protection program represents one of the most successful land-
acquisition programs in the history of the conservation movement in the 
United States, that program is not yet complete. Although our hope had 
been to complete the program by the year 2000, escalating land values 
coupled with diminished administrative capacity in the affected 
agencies have conspired to delay full program completion. Nevertheless, 
a number of critical parcels are now ``ripe'' for land acquisition from 
willing sellers and we are seeking fiscal year 2010 LWCF appropriations 
to secure those properties. A brief description of each of those 
critical parcels follows.
    Rangeley High Peaks Project Phase I, Maine.--ATC is supporting a 
request by the State of Maine and the Maine Appalachian Trail Land 
Trust to acquire conservation easements affecting three large parcels 
totaling 13,446 acres in the towns of Rangeley and Madrid and Mount 
Abrams Township in the Rangeley Lakes region of western Maine utilizing 
fiscal year 2010 FLP funding. The three properties are known as the 
Ridge, Orbeton, and Rangeley properties. Of particular interest is the 
Ridge tract, which borders the AT corridor near Saddleback Mountain and 
Mt. Abram and includes an important snowmobile crossing of the AT. It 
abuts other lands acquired by the NPS and the ATC. ATC is supporting a 
request for $4.613 million from the fiscal year 2010 USDA FLP.
    Mahoosucs Gateway/Success Township, New Hampshire.--This project 
affects a 20,000-acre project area that has been the focus of 
conservation and economic-development efforts by a consortium of 
conservation organizations as well as several local communities. The 
Mahoosuc Mountain Range is one of the most remote and rugged areas 
along the AT. Straddling the border between New Hampshire and Maine, it 
provides a scenic gateway to both States. In partnership with a 
timberland owner an opportunity exists to conserve 4,772 acres in fee-
simple and an additional 15,200 acres under easement for 6 miles along 
the northern edge of the narrow AT corridor there, including two of the 
most prominent mountain peaks in the area: Bald Cap and North Bald Cap. 
Conservation of the property would provide protection for a number of 
existing side trails in the area as well as the watersheds of numerous 
streams flowing into the Androscoggin River. The fee-simple portions of 
the property require Federal LWCF monies, while the easement portions 
will rely on additional funding through the FLP. Approximately one half 
of the LWCF monies were provided in the fiscal year 2009 omnibus 
appropriations bill. ATC and The Conservation Fund (TCF) are requesting 
a fiscal year 2010 LWCF appropriation of $1.375 million for the NPS to 
complete the fee-simple portion of the project. ATC also is supporting 
a request by TCF for $3 million in fiscal year 2010 FLP funding for 
acquisition of easements affecting the remaining 15,200 acres.
    Chateauguay-No Town Project, Vermont.--This project involves four 
parcels, totaling 1,000 acres, in the towns of Barnard and Bridgewater, 
Vermont. Negotiations have been spearheaded for several years by TCF, 
which also has secured a $500,000 private contribution toward the 
project. The four properties straddle more than 1\1/2\ miles of the AT 
in an area where earlier acquisitions by the NPS provided only a narrow 
buffer for the footpath. They include a high-value wetland complex and 
feeding habitat for migratory birds, black bears, and moose as well as 
the headwaters of the Locust Creek watershed, a Vermont Class A stream. 
ATC and TCF are requesting an fiscal year 2010 LWCF appropriation of 
$1.25 million for the NPS for this project.
    Rocky Fork, Tennessee/Cherokee National Forest.--In mid-December, 
2008, the USFS acquired approximately 2,200 acres of this 10,000-acre 
property in eastern Tennessee situated midway between Johnson City and 
Asheville, North Carolina, and adjacent to Interstate 26. TCF provided 
bridge funding to acquire the balance of the property in anticipation 
of future sale to the USFS and the State of Tennessee. The property 
includes many game and nongame wildlife values, including 16 miles of 
``blue-ribbon'' trout streams and outstanding black bear, white-tailed 
deer, and wild turkey habitat. The property also includes 1.2 miles of 
the ANST and its recent acquisition will permit the construction of a 
5-mile relocation to provide a much-improved alignment for the 
footpath. Total costs for the acquisition were approximately $43 
million and ATC is working closely with TCF, the Southern Appalachian 
Highlands Conservancy, and a number of other conservation and sportsmen 
organizations to complete the overall funding package for the project. 
ATC and TCF are requesting an fiscal year 2010 LWCF appropriation of 
$13.5 million for the USFS which will permit the USFS to acquire the 
eastern portion of the property while the central portion will be 
acquired by the State of Tennessee.
    Rich Mountain, Tennessee/Cherokee National Forest.--This 100-acre 
privately-owned in-holding is situated in the northwest corner of the 
Rocky Fork property (see previous) and unfortunately was carved out by 
New Forestry, LLC--the previous owners of the Rocky Fork property--at 
the time the remainder of the property was sold to the USFS and TCF. It 
includes the highest point of land for the overall property as well as 
prominent cliffs locally known as Buzzard Rock. The cliffs are only a 
short distance from the AT through a high-elevation health bald. The 
property provides sweeping views of the Sampson Mountain Wilderness and 
northeast Tennessee/southwest Virginia. ATC is requesting an fiscal 
year 2010 LWCF appropriation of $600,000 for the USFS to acquire this 
critical in-holding.
    Shook Branch, Tennessee/Cherokee National Forest.--This 20-acre 
property is situated in eastern Tennessee in the Cherokee National 
Forest. The AT currently follows a dangerous road-walk and crosses US 
321 at a location with limited site distances to on-coming traffic. A 
proposed new route has been identified and a number of parcels have 
been acquired by the USFS to establish the route. The Shook Branch 
property is necessary in order to complete the proposed relocation. The 
current property owner has expressed a willingness to sell the 
property. ATC is requesting an fiscal year 2010 LWCF appropriation of 
$500,000 for the USFS.
    Buck Mountain, Tennessee/Cherokee National Forest.--This is an 18-
acre property situated in rural northeast Tennessee near the Village of 
Roan Mountain. The southern boundary of the property is within 10 yards 
of the AT and is clearly visible as it occupies the high ground above 
the AT for about one-quarter mile. The property includes views of Beech 
Mountain, Hump Mountain, and the Highlands of Roan. Previously devoted 
to Christmas tree and ornamental shrub agriculture, the area is under 
development pressure due to the outstanding views and proximity to the 
Cherokee National Forest. ATC is requesting an fiscal year 2010 LWCF 
appropriation of $150,000 for the USFS to acquire the property from a 
willing seller.
    Wesser Bald, North Carolina/Nantahala National Forest.--This 82-
acre property is situated in western North Carolina in the Nantahala 
National Forest. The AT passes within 100 feet of the property and 
affords a number of outstanding scenic views at several locations along 
the northern portion of the property and from a viewing platform atop 
the Wesser Bald fire tower with 360-degree views encompassing the Great 
Smoky Mountains skyline, the Nantahala Mountains, and northern Georgia. 
The upper 35 acres was acquired in fee in 2007 by the Southern 
Appalachian Highlands Conservancy (SAHC) with the aid of a bridge loan 
from TCF and the requested LWCF appropriation will be used to 
repurchase that portion of the property at a bargain-sale price with 
ownership transferred to the USFS. SAHC also has secured a conservation 
easement affecting an additional 41 acres of the property. The total 
value of the fee and easement interests is $950,000. ATC is requesting 
an fiscal year 2010 LWCF appropriation in the amount of $270,000 for 
the USFS.
    With the acquisition of the previously described properties, ATC 
hopes to complete a substantial portion of the remaining land-
acquisition needs in the ANST program. Again, we respectfully request 
an fiscal year 2010 LWCF appropriation of $2.625 million for the NPS 
and $15.02 million for the USFS. We also support a total of $7.613 
million in fiscal year 2010 Forest Legacy funding for the Rangeley High 
Peaks project in Maine and the Mahoosucs Gateway/Success Township 
project in New Hampshire.
    Thank you for the opportunity to submit this testimony and for your 
consideration of our request.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute

    The Animal Welfare Institute (AWI) respectfully requests that the 
Senate Appropriations Subcommittee on Interior, Environment, and 
Related Agencies appropriate a total of $83.1 million to the U.S. Fish 
and Wildlife Service (FWS) including an additional $45 million to 
increase and expand activities of the Office of Law Enforcement, $26 
million for special agents, $3.1 million for ports of entry, $5 million 
for the Clark R. Bavin National Fish and Wildlife Forensics Laboratory 
and $4 million for the Multinational Species Conservation Fund. The 
President's fiscal year 2010 proposed budget falls far short of 
providing the funds needed by agencies within the Department of the 
Interior to protect, preserve, recover, and manage America's wildlife, 
including threatened and endangered species, as required by law and by 
their public trust obligations to the American people. AWI also asks 
Congress to reign in the Bureau of Land Management (BLM) by including 
language preventing funds from being used to kill healthy horses as a 
way to balance its books or implement sales authority language.
    Office of Law Enforcement (OLE).--An apparent increase for this 
function in the President's budget is actually a decrease when higher 
uncontrollable and fixed costs are taken into account. AWI requests 
that an additional $45 million be allocated to the FWS to increase and 
expand the activities of its OLE in its critical role of combating 
wildlife crime. The OLE investigates both domestic and international 
wildlife crimes that involve the transgression of more than one dozen 
Federal wildlife and conservation laws. Though it is well known that 
the illegal trade in wildlife and wildlife products is third only to 
the illicit trade in narcotics and weapons in terms of revenue 
generated globally, and despite the fact that the United States remains 
a source of or destination for much of this contraband, the OLE has 
consistently been underfunded and understaffed and, thus, shortchanged 
in its efforts to combat this illegal trade.
    The FWS has cut its covert wildlife crimes investigation unit in 
half. Given the severity of illegal wildlife trade and its inherent 
underground nature, covert investigations are essential for enforcing 
wildlife laws and, capturing as well as prosecuting those guilty of 
wildlife crimes. The OLE and its employees cannot effectively enforce 
Federal wildlife laws without a covert investigations unit. Congress 
must direct the Secretary of the Interior to reinvigorate the OLE, 
including its covert investigations unit and provide the funding 
necessary to restore the OLE as the pre-eminent wildlife law 
enforcement organization in the world.
    FWS Special Agents.--Wildlife law enforcement agents perform what 
is consistently ranked as one of the most dangerous jobs as they 
attempt to fulfill their mandate to protect our wildlife heritage. In 
fiscal year 2007, FWS agents pursued more than 12,000 investigations 
resulting in more than$14 million in fines, 32 years of jail time for 
the perpetrators, and 557 years of probation. FWS cases documented 
illegal trafficking in U.S. leopard sharks, coral reef organisms, live 
reptiles, and paddlefish. On the global front, agents broke up 
smuggling rings dealing in sea turtle skins and products from Mexico 
and sea turtle shell from China. They snared smugglers dealing in over 
$540,000 worth of sperm whale teeth and sent individuals trafficking in 
endangered live eagle owls eggs to prison. Despite these impressive 
statistics, the illegal trade in wildlife and wildlife products 
continues to imperil wildlife species in the United States and around 
the world. The ability of the OLE to expand its efforts to combat this 
trade requires far greater funding than what has been proposed in the 
fiscal year 2010 budget.
    Currently, there are only 191 FWS agents responsible for the 
enforcement of Federal wildlife laws throughout the entire United 
States. This number is 11 fewer than in fiscal year 2007, which was 16 
fewer than existed in 2006. There are 70 agent vacancies. Filling these 
vacancies is essential to protecting wildlife and stemming the 
increasing threat of illegal trade. AWI respectfully requests an 
additional $14 million ($200,000 each) to fill these 70 agent vacancies 
and an additional $12 million to ensure sufficient operational funds 
for existing agents and for those hired in the future.
    Port Inspectors.--Given the events of September 11, 2001, and the 
recent scrutiny applied by Congress on the security of U.S. ports, the 
value of FWS inspectors should be indisputable. In addition to being 
the first and only line of defense against the illegal import of 
protected wildlife and wildlife products into this country, FWS 
inspectors along with their colleagues from the U.S. Coast Guard, 
Department of Homeland Security, and other agencies involved in port 
inspections, represent America's best hope of intercepting bioterrorism 
agents or items that may represent a security threat to America. Often 
contraband is hidden in the body cavities of wildlife or in their 
transport containers; who except FWS inspectors are willing to look 
inside the box of a poisonous snake or other dangerous animal?
    Though it may be hard to see that thwarting an illegal shipment of 
wildlife is as important as thwarting an illegal shipment of weapons, 
wildlife pose much greater risks to America due to the potential for 
the wildlife to be vectors for non-native diseases or insects that 
could pose a threat to public health (e.g., avian flu), wildlife and 
livestock health (e.g., Newcastle's disease, foot and mouth disease), 
or to our native flora. According to a news report, ``five of the six 
diseases the [CDC] regards as top threats to national security are 
zoonotic.'' Because legal shipments, which amounted to 650 million 
animals in the last 3 years, are not screened properly, Americans are 
left ``vulnerable to a virulent disease outbreak that could rival a 
terrorist act.'' Couple the threats from legal trade with those from 
illegal trade, including the amount of illicit bushmeat entering the 
country, and the threat to public health is potentially catastrophic.
    The North American Free Trade Agreement has exacerbated the problem 
through increased movement of wildlife and wildlife products across the 
United States border with Mexico. Such contraband includes highly 
endangered neotropical parrots, cacti, reptiles, and exotic wildlife 
leather products. The United States border with Canada is a conduit for 
the illegal import of a variety of international species including the 
Asian arowana fish, the rare Madagascar radiated tortoise, and 
protected corals and domestic species including black bear gall 
bladders, bald eagle parts, and other wildlife products. The current 
lack of sufficient operational funds for the FWS port inspection 
program weakens FWS efforts to promote the conservation of species of 
international concern, to protect all natural resources, and to sustain 
biological processes. The virtually unregulated smuggling of parrots 
not only has put new pressure on Western Hemisphere parrot species, 30 
percent of which are already on the brink of extinction, but also 
presents a disease transmission risk to the U.S. poultry industry and 
native U.S. birds. The illegal import of parrots into California has 
been linked to an outbreak of Newcastle's disease in that State. 
Moreover, smugglers are dealing in both illegal wildlife and illegal 
aliens. For example, a cooperative investigation by FWS, Immigration 
and Customs Enforcement (ICE), and the U.S. Coast Guard documented the 
smuggling of illegal aliens and live Clarion angelfish from Mexico, 
resulting in a Los Angeles man being sentenced to 46 months in prison 
and fined $60,000.
    In fiscal year 2007, Service wildlife inspectors processed more 
than 179,000 wildlife shipments entering or leaving the United States. 
An example of how understaffed the FWS port inspection staff can be 
found at the United States/Canada border crossing at Blaine, 
Washington, where a single inspector is responsible for inspecting all 
imports even though that point of entry has experienced a 45 percent 
increase in the number of wildlife shipments in the past decade. 
Clearly, then, to protect domestic and international wildlife and to 
secure our borders, Congress must provide the funding to hire and train 
a sufficient number of FWS inspectors to ensure round-the-clock 
coverage at each designated U.S. port of entry. $3.1 million is 
requested for the ports of entry.
    The Clark R. Bavin National Fish and Wildlife Forensics 
Laboratory.--The FWS forensic laboratory is a key resource used by FWS 
agents and inspectors for prosecuting wildlife crimes. It uses complex 
tests and tools to identify wildlife products as to species, determine 
cause of death, and make other findings critical to a successful legal 
case. All such findings must adhere to exacting evidentiary standards 
to be used in court, thus increasing the cost of testing each sample. 
Due to an increasing backlog of samples, the lab as a whole is running 
4 to 8 months behind in its casework, causing FWS investigators, 
inspectors, and Federal prosecutors to wait longer to continue their 
investigations or initiate prosecutions. Analysis of newly submitted 
computer-based illegal wildlife trade cases is backlogged 7 to 8 months 
and the analysis itself takes another 4 to 5 months to complete. The 
new protocols that will be needed in the crackdown on shark finning 
will only worsen this problem.
    This lab is the only such facility in the world and it has 
historically aided the fish and game departments of all 50 States and 
the 175 Convention for International Trade in Endangered Species 
(CITES) member countries. The backlog, however, jeopardizes this 
cooperation and has forced it to stop accepting samples from State and 
international wildlife investigators, weakening the long-standing 
partnerships supporting cooperative conservation efforts in this 
country and around the world. The backlog is largely a product of 
staffing shortages. These shortages, combined with a loss of expertise 
when seasoned veteran forensics experts retire before new experts are 
trained, threaten the lab's ability to solve wildlife crimes. To reduce 
both these staffing shortages and existing analytical workload and 
backlog, $5 million is requested for the lab. Such funds would allow 
for the construction of a new 8,000 square feet building to house the 
lab's critical comparison standards collection ($2.2 million), the 
hiring of six forensic scientists (forensics branch chief, senior plant 
morphologist, and four forensic examiners in the areas of birds, 
reptiles, plants, and analytical chemistry), four new technicians, and 
much needed spending on training, travel, equipment and supplies.
    Wild Free-roaming Horses and Burros Act.--BLM uses the majority of 
its budget to round up and warehouse wild horses and burros, despite 
the fact that numerous herds have been eliminated. In 2004, the BLM 
embraced a devastating congressional rider requiring the sale of 
certain wild horses and burros without restriction. With no legal 
authority to protect these horses once sold, they very likely will end 
up at the slaughterhouse--the very outcome which prompted Congress to 
act to protect wild horses more than 35 years ago. Further, in 2008 the 
BLM announced they were considering mass euthanasia of horses in its 
holding facilities as a means of dealing with the program's dire 
financial situation--the direct effect of the BLM's overzealous removal 
of the animals from the range. While congressional and public outrage 
at such a proposal was swift and clear the BLM has never withdrawn the 
possibility so the Congress and public must remain vigilant. For years, 
AWI worked with Congress to ensure language was included in the annual 
Interior Appropriations bill to prevent such a travesty from occurring. 
The language was maintained until former Senator Conrad Burns removed 
it while inserting his ``sales authority'' language back in 2004. AWI 
requests that this ``no-kill'' language be reinserted to ensure the BLM 
does not kill healthy wild horses and burros:

    ``Provided, that appropriations herein made shall not be available 
for the sale of wild horses and burros pursuant to 16 U.S.C. 1333(e) or 
for the destruction of healthy, unadopted, wild horses and burros in 
the care of the Bureau of Land Management or its contractors.''

    With almost as many animals in holding facilities as are in the 
wild today, AWI respectfully requests that Congress instruct the BLM 
that, until such time as the agency either finds qualified adopters for 
those animals now being held and/or returns animals to suitable herd 
areas (particularly those from which all wild horses and burros have 
been removed or whose populations are not self-sustaining), that no 
funds be used to conduct further round-ups. In addition, Congress 
should instruct the BLM to designate ranges on public lands for the 
protection and preservation of wild horses and burros as provided in 
the act.
    Yellowstone Bison.--The National Park Service/Yellowstone National 
Park (NPS/YNP) is the lead agency in a failed cooperative State/Federal 
bison management plan that, since 2000, has resulted in the unnecessary 
killing of nearly 3,500 park bison. Yellowstone bison represent the 
last continuously free-roaming herd of bison in the United States. They 
are of immense scientific, aesthetic, and spiritual value to millions 
of people from around the world. The current bison management plan has 
cost the American taxpayer up to $3 million per year since it was 
implemented in 2000 yet the three-step plan remains largely mired in 
step 1. In addition, though based on the concept of adaptive 
management, the plan has only recently been adjusted, albeit minimally, 
largely in response to criticisms of the plan made in a 2008 Government 
Accountability Office report. These adjustments, however, have not 
addressed the compelling new evidence documenting the existence of at 
least two genetically distinct bison subpopulations in the park. By 
ignoring this new evidence, the agencies, led by the NPS, may be 
permanently and adversely impacting the genetic health and viability of 
park bison as a consequence of their lethal management actions. To 
prevent the ongoing misuse of Federal taxpayers' dollars and to protect 
park bison from the very agency that is mandated to conserve and 
protect park wildlife, AWI respectfully requests that Congress include 
language in the fiscal year 2010 Interior, Environment, and Related 
Agencies appropriations bill to specify that no Federal funds are to be 
used by the NPS for the purpose of killing or participating in the 
killing of YNP bison.
    Multinational Species Conservation Fund.--Since 1988, the U.S. 
Congress has made clear its commitment to global conservation efforts 
through the passage of a number of funds to benefit specific species. 
These funds include the African Elephant Conservation Fund, the Asian 
Elephant Conservation Fund, the Rhinoceros and Tiger Conservation Fund, 
and the Great Ape Conservation Fund. To address these problems, AWI 
respectfully requests that Congress appropriate an additional $4 
million more than the President's request for each of these funds.
                                 ______
                                 
              Prepared Statement of the Beartooth Alliance

    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to provide testimony on behalf of an 
important land acquisition funding need on the Gallatin National Forest 
in Montana. An appropriation of $4 million from the Land and Water 
Conservation Fund (LWCF) is requested in fiscal year 2010 for the U.S. 
Forest Service to complete the acquisition of mining claims near Cooke 
City. We were very pleased to learn that your subcommittee provided $4 
million to begin this project in fiscal year 2009.
    Roughly the same size as West Virginia, the Greater Yellowstone 
Ecosystem (GYE) encompasses approximately 18 million acres in Wyoming, 
Montana, and Idaho. The GYE includes Yellowstone and Grand Teton 
National Parks, portions of seven different national forests, and three 
national wildlife refuges. The headwaters of the Yellowstone, Missouri, 
Snake, and Green rivers are found in its mountains; these rivers lead 
to the Gulf of Mexico, Pacific Ocean, and the Gulf of California in 
Mexico. The varied topography of the GYE consists of arid high plains, 
verdant river valleys, high-elevation plateaus, and spectacular 
mountain ranges, as well as the most diverse and intact collection of 
geysers and hot springs in the world. Additionally, the Greater 
Yellowstone is one of the largest, relatively intact, temperate zone 
ecosystems remaining in the world.
    Remarkably diverse, the GYE provides some of the best wildlife 
habitat in the country, including home for one of the last viable 
grizzly bear populations in the lower 48 States. It hosts the largest 
elk and free-roaming bison herds in North America, and provides the 
only U.S. wintering ground for the rare trumpeter swan. Wolverines, 
lynx, fishers, and pine martens still roam the GYE's mountains, as do 
bighorn sheep, black bears, and mountain goats. Other flourishing 
species include pronghorn antelope, wolves, moose, mountain lions, mule 
deer, beavers, coyotes, osprey, bald eagles, and peregrine falcons. The 
GYE hosts a total of 316 bird, 94 mammal, 24 reptile and amphibian, and 
more than 1,700 vascular plant species. The rich, biological diversity 
of the GYE is truly exceptional--nowhere else in the lower 48 States 
can you find a large and relatively intact ecosystem containing nearly 
all the living organisms present in pre-Columbian times.
    In addition to its impressive wildlife values, the GYE offers some 
of the best recreational opportunities in North America. Its fisheries 
are world-renowned and attract fly fishers from all over the globe. Big 
game hunting opportunities are abundant. In addition to these sporting 
opportunities, the GYE offers a wide range of backcountry recreational 
opportunities including skiing, snowshoeing, snowmobiling, hiking, 
camping, whitewater rafting, horseback riding, and wildlife viewing.
    Available within the GYE in fiscal year 2010 is the phase II 
acquisition of 735 acres of mining claims located near Cooke City just 
outside Yellowstone National Park in Montana. In 1989, a massive mining 
enterprise was proposed near Cooke City, Montana, next to the Absaroka-
Beartooth Wilderness Area and only 2 miles from the northeastern 
boundaries of the National Park. The plan to mine gold, silver, and 
copper so close to the National Park and three important headwater 
tributaries of the Yellowstone River sparked an international 
controversy.
    As the controversy grew, it reached the attention of officials in 
Washington, including President Bill Clinton, who visited the site in 
1995. In August 1996, after months of talks, President Clinton, mining 
company officials, and a coalition of environmental groups announced 
that they had reached an agreement that would cease development of the 
mine. In return for $65 million in Federal land and other assets, the 
mining company agreed to suspend the project and create a special $22.5 
million fund to clean up past contamination. But in a potentially fatal 
flaw, Crown Butte failed to consult with a retired Livingston, Montana 
schoolteacher named Margaret Reeb, who owned most of the claims that 
Crown Butte had the right to mine and wanted to hand over to the U.S. 
Government as part of the deal.
    The daughter of a pioneering mining family that had owned claims in 
the Cooke City region for decades, Ms. Reeb quietly acquired additional 
claims in the area long after most of the old mines had been shut down 
in the years after World War II. New survey technologies later revealed 
that the old prospectors had just missed striking the mother lode and 
that an immense body of ore still remained buried in the ground.
    In the wake of the agreement between the Federal Government, the 
mining companies, and environmental organizations, Ms. Reeb continued 
to hold onto her claims. Even though the mining company eventually 
convinced Ms. Reeb to sign an agreement that prohibited her and her 
successors from developing a mine on her claims, the risk of mining 
remains very real since the agreement specifically States that the ban 
can be overturned by Federal statute. Moreover, the majority of Ms. 
Reeb's claims are highly developable and would make a perfect place to 
build backcountry homes and cabins.
    Ms. Reeb died in 2005 at the age of 91, leaving her estate to her 
nephews, who have finally agreed to sell their aunt's mining claims so 
that they can be put into public ownership as originally proposed. 
Recognizing this opportunity, Congress appropriated $4 million to the 
project in fiscal year 2009. An appropriation of $4 million in fiscal 
year 2010 from the LWCF for phase II is needed to ensure this project 
is brought to a successful close. Inclusion of the Reeb Mining Claims 
project in the President's fiscal year 2010 budget recommendation, 
within the Forest Service's LWCF account, recognizes the national 
significance of this purchase to Yellowstone National Park and the GYE. 
However, the project needs an appropriation of $4 million to be 
completed, rather than the $1 million level included in the President's 
proposal. Not only will successful purchase of the Reeb property 
permanently remove the threat of future mining and conserve incredible 
scenery and wildlife habitat next to Yellowstone National Park, but it 
will also bring a happy ending to one of the most contentious and hard 
fought land use battles in the American West.
    I also respectfully request a substantial increase in overall 
funding for the LWCF, specifically urging the subcommittee to provide 
$325 million for the Federal LWCF in the fiscal year 2010 Interior, 
Environment, and Related Agencies appropriations bill. I applaud the 
LWCF funding increases provided by this subcommittee in fiscal year 
2009, which included the funds for this project. And, we are most 
thankful that the Obama administration budget recognizes the importance 
of these programs by proposing significant increases for fiscal year 
2010 and setting a goal to achieve full funding of the LWCF in the next 
5 years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in National Parks, national wildlife refuges, national forests, 
Bureau of Land Management units, and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. Public lands provide innumerable social and 
economic benefits including a healthy lifestyle, protection of 
watersheds and drinking water supplies, wildfire reduction and 
prevention, and assistance to wildlife and fisheries as they adapt to 
climate change. We urge you to renew this wise investment in America's 
natural heritage and take steps to toward full and consistent funding 
of these vital programs.
    Madam Chairman and distinguished subcommittee members, I want to 
thank you for this opportunity to testify on behalf of this important 
national protection effort in Montana. On behalf of the Beartooth 
Alliance, I thank you for your consideration of this funding request.
                                 ______
                                 
          Letter from the Bird Conservation Funding Coalition
                                                      May 15, 2009.
Hon. Dianne Feinstein,
Chairwoman, Interior, Environment, and Related Agencies Appropriations 
        Subcommittee,
Washington, DC.
Hon. Lamar Alexander,
Ranking Member, Interior, Environment, and Related Agencies 
        Appropriations Subcommittee,
Washington, DC.
    Dear Chairwoman Feinstein and Ranking Member Alexander: The Bird 
Conservation Funding Coalition (BCFC) consists of national 
organizations that, together, advocate for Federal funding to advance 
bird conservation. This year we ask that you once again provide funding 
to programs we believe are crucial for maintaining healthy and abundant 
bird populations throughout the United States. These programs are:
   neotropical migratory bird conservation act grants program (nmbca)
    NMBCA supports partnership programs to conserve birds in the United 
States, Latin America and the Caribbean, where approximately 5 billion 
birds representing 341 species spend their winters, including some of 
the most endangered birds in North America. Projects include activities 
to benefit bird populations and their habitats such as research and 
monitoring, law enforcement, outreach, and education. The BCFC 
respectfully requests the subcommittee prioritize fiscal year 2010 
funding for the NMBCA at $6.5 million, an increase of $1.75 million 
from the appropriated amount in fiscal year 2009.

                             JOINT VENTURES

    Joint ventures are regionally based partnerships of public and 
private organizations dedicated to the delivery of bird conservation 
within their boundaries. Originally formed to support programs 
involving waterfowl and wetlands, the migratory bird joint ventures 
have recently adopted a 5-year growth strategy to embody an ``all-bird 
approach,'' to provide additional capacity for partnership development 
and enhancement, and to expand monitoring and assessment efforts. The 
BCFC respectfully requests the subcommittee allocate $19 million for 
fiscal year 2010, an increase of $6.5 million from the appropriated 
amount in fiscal year 2009.

                         SCIENCE AND MONITORING

    Science and monitoring done within the U.S. Fish and Wildlife 
Service (USFWS) Office of Migratory Bird Management provides invaluable 
information on the status and trends of bird species necessary for 
sound management decisions. This scientific information helps to ensure 
that funds are allocated wisely within all other BCFC priorities. The 
slight increase in funds requested by the BCFC will help to close a 
multimillion dollar shortfall which currently exists within the Office 
of Migratory Bird Management. Therefore, the BCFC respectfully requests 
the subcommittee provide $36 million for this important program, an 
increase of approximately $6.2 million from the appropriated amount in 
fiscal year 2009.

            NORTH AMERICAN WETLANDS CONSERVATION ACT (NAWCA)

    NAWCA provides funding for conservation projects for the benefit of 
wetland-associated migratory birds in the United States, Canada, and 
Mexico. Unfortunately, more than half of the original wetlands in the 
United States have been lost, contributing to the steady decline of 
migratory birds. NAWCA, in existence since 1989, has preserved more 
than 24.8 million acres of wetlands by leveraging $945.2 million in 
Federal funds with more than $1.94 billion in partner contributions. 
The BCFC respectfully requests the subcommittee prioritize fiscal year 
2010 funding for NAWCA at $50 million, an increase of $7.4 million from 
the level appropriated in fiscal year 2009.

                         STATE WILDLIFE GRANTS

    State Wildlife Grants fund is the Nation's core program for 
preventing wildlife from becoming endangered, and supports a wide 
variety of wildlife-related projects by State fish and wildlife 
agencies throughout the United States. In order to receive Federal 
funds through the State Wildlife Grants Program, Congress charged each 
State and territory with developing an ``action plan.'' Every State and 
territory submitted their wildlife action plan to the USFWS for review 
(and approval) by the October 1, 2005 deadline. The State Wildlife 
Action Plans are the result of a collaborative effort by scientists, 
sportsmen, conservationists, and other members of the community. The 
BCFC respectfully requests the subcommittee allocates $85 million for 
fiscal year 2010, an increase of $10 million from the level 
appropriated in fiscal year 2009.

    INTERNATIONAL AFFAIRS WITHIN THE U.S. FISH AND WILDLIFE SERVICE

    Wildlife Without Borders (WWB), which is within the USFWS Division 
of International Conservation, is a mainstay of bird conservation in 
Mexico, Central America, and the Caribbean. Since the termination of 
the USAID funding to the National Fish and Wildlife Foundation for its 
Neotropical Migratory Bird Program, funding for the WWB program is more 
critical than ever. These programs, which typically leverage $4 for 
every appropriated $1, are a foundation for long-term conservation 
efforts, because they focus on developing in-country capacity. At this 
time, there are four WWB programs, each covering an extensive area: 
Latin America and the Caribbean; Mexico; Russia and East Asia; the Near 
East, South Asia, and Africa. The BCFC respectfully requests the 
subcommittee prioritize fiscal year 2010 funding at $21 million which 
is an increase of $7.8 million from the level appropriated in fiscal 
year 2009.

         INTERNATIONAL PROGRAMS WITHIN THE USDA FOREST SERVICE

    International Programs within the USDA Forest Service support an 
array of extremely effective bird conservation projects with a 
relatively small budget. Among these are restoration of Kirtland's 
Warbler with programs in Michigan and the Bahamas, and conservation of 
breeding habitat in Canada's Boreal Forest. The BCFC supports an 
increase in funds which would expand and accelerate work on these 
projects, as well as projects benefiting the rapidly declining Cerulean 
Warbler and the mangroves and wetlands of Mexico's Sonora Coast and San 
Pedro River watershed. The BCFC respectfully requests the subcommittee 
provide $14 million for fiscal year 2010, an increase of $5.5 million 
more than fiscal year 2009.

                USGS AMERICAN BREEDING BIRD SURVEY (BBS)

    BBS has been providing data crucial for migratory bird conservation 
planning since 1966. Today, the BBS provides the foundation for 
nongame, land bird conservation in North America with more than 3,200 
skilled volunteer participants sampling 3,000 routes annually across 
the continental United States and Southern Canada. The BCFC 
respectfully requests the subcommittee provide this important program 
with the highest possible level of funding.
    Again, we thank you for your steadfast support of these critically 
important programs.
            Sincerely,
                                    George Fenwick,
                                                 President,
                                         American Bird Conservancy.
                                 Mary Beth Beetham,
                           Director of Legislative Affairs,
                                             Defenders of Wildlife.
                                    Ellie M. Cohen,
                                         President and CEO,
                                         PRBO Conservation Science.
                                    Robert Bendick,
                       Director, U.S. Government Relations,
                                            The Nature Conservancy.
                                Thomas M. Franklin,
                                                 President,
                                              The Wildlife Society.
                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association

    This testimony pertains to the Biomass Energy Research 
Association's (BERA) recommendations for fiscal year 2010 (fiscal year 
2010) in support of appropriations for the U.S. Department of 
Agriculture (USDA) that are related to bioenergy. This includes the 
conduct of bioenergy-related research by the Agricultural Research 
Service (ARS) and the National Agricultural Statistics Service (NASS) 
under Research, Education and Economics programs of the USDA. Also 
covered are programs under USDA rural development and the USDA Forest 
Service (FS) Forest Products Laboratory (FPL). In total, BERA 
recommends that $157,000,000 be appropriated for fiscal year 2010 for 
the specified efforts below. Specific line items are as follows:

                 USDA RESEARCH, EDUCATION AND ECONOMICS

    $25,000,000 to support ARS new products/product quality/value added 
to maximize production, harvesting, and storage of plants for bioenergy 
purposes. The current budget proposes $11 million for bioenergy plant 
R&D, with too little on high-yield energy crop development.
    $20,000,000 to support environmental stewardship and facilitate 
sustainable agricultural practices, particularly for the production of 
crops and plants for the use of biofuels. This is an increase of $11 
million more than the request of $9 million.
    $5,000,000 to support agricultural estimates/bioenergy statistics 
by the NASS, specifically related to bioenergy crop production and use. 
This is an increase of $3.15 million over the current budget, which 
includes only $1.85 million to establish data related to bioenergy 
production and utilization.
    $7,000,000 for the NASS agricultural chemical use program and its 
restoration to enable support for sustainable production of crops and 
plants for bioenergy.

                              USDA FS FPL

    $20,000,000 to expand and continue microbial and biochemical 
research at the USDA FS FPL to enable the application of biotechnology 
in wood conversions, and to develop improved fermentation and other 
technologies to convert low-grade wood cellulose into fuels and 
chemicals.

                         USDA RURAL DEVELOPMENT

    $80,000,000 to further support the Rural Energy for America Program 
(REAP), specifically to include an additional $20 million for loan 
guarantees under the Biorefinery Assistance Program (BAP).

                               BACKGROUND

    On behalf of BERA's members, we would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
board of directors for the high-priority programs that we strongly urge 
be continued or started. BERA is a nonprofit association based in the 
Washington, DC area. It was founded in 1982 by researchers and private 
organizations conducting biomass research. Our objectives are to 
promote education and research, development, and demonstration (RD&D) 
of the economic production of energy and fuels from freshly harvested 
and waste biomass, and to serve as a source of information on biomass 
RD&D policies and programs. BERA does not solicit or accept Federal 
funding for its efforts.
    There is a growing urgency to diversify our energy supply, develop 
technologies to utilize indigenous and renewable resources, reduce 
United States reliance on imported oil, and mitigate the impacts of 
energy on climate and the environment. The benefits will be many--
support for economic growth, new American jobs, enhanced environmental 
quality, and fewer energy-related contributions to climate change. 
Economic growth is fueled and sustained in large part by the 
availability of reliable, cost-effective energy supplies. The import of 
oil and other fuels into the United States is growing steadily, despite 
increased volatility in supply and prices, especially petroleum and 
natural gas. This creates an economic burden on industry and consumers 
alike, and adversely impacts our quality of life. A diversified, 
sustainable energy supply is critical to meeting our energy challenges 
and maintaining a healthy economy with a competitive edge in global 
markets. Biomass can diversify U.S. energy supply in several ways:
  --Biomass is the single renewable resource with the ability to 
        directly replace liquid transportation fuels.
  --Biomass can be used as a feedstock to supplement the production of 
        chemicals, plastics, and materials now produced from crude oil.
  --Gasification of biomass produces a syngas that can be utilized to 
        supplement the natural gas supply, generate electricity, or 
        produce fuels and chemicals.
    While biomass will not solve all our energy challenges, it can 
certainly contribute to the diversity of our supply, and do so in a 
sustainable way, while minimizing impacts to the environment or 
climate. The Energy Independence and Security Act (EISA) of 2007 
mandates increased use of alternative fuels, with a substantial portion 
to come from cellulosic biomass. To meet the ambitious EISA goals will 
require aggressive support for RD&D to move technology forward and 
reduce technical and economic risk. We also support the energy 
provisions of the American Reinvestment and Recovery Act of 2009 
(ARRA), particularly those that provide loan guarantees for new plants 
and research for renewable energy.
    Biomass energy plantations that provide feedstocks for forest 
biorefineries producing paper products as well as fuels and biopower 
could make an important contribution to our energy supply while 
providing a boost for rural economies wood also can be used instead of 
petroleum and natural gas to produce many high-value products such as 
plastics and chemicals. However, targeted research is needed to make 
this a reality. Other cellulosic feedstocks, such as agricultural 
residues and dedicated energy crops (short rotation poplar, 
switchgrass) are expected to be a primary resource for bioenergy in the 
future. However, research will be needed to overcome issues of 
recalcitrance, low yields, cost-effective harvesting and storage, and 
other challenges to ensure these resources are viable as future 
bioenergy feedstocks. Some of this research is ongoing at the U.S. 
Department of Energy; however, there is a strong role for R&D in this 
area at USDA as well, particularly in harvesting and storage, and basic 
plant science and breeding. Without additional targeted research with 
significant Federal investment, the ambitious goals set by the RFS will 
not likely be met, nor will the real promise of a bioindustry be 
realized.

          OVERALL BERA RECOMMENDATIONS FOR USDA BIOENERGY R&D

    BERA's recommendations support key areas that will contribute to 
sustainable forestry and agriculture, as well as the creation of viable 
renewable resources as part of a diversified energy supply. Specific 
recommendations are:
    Support and Expand Bioenergy Energy Research by the Agricultural 
Research Service (ARS) and FPL.--This important research is needed to 
maximize production, harvesting, and storage of plants for bioenergy 
purposes. While the focus is on R&D to effectively use energy crops and 
residues and maximize their conversion to biofuels and bioenergy, there 
is also the need to develop the production equipment and practices 
needed to ensure a viable supply infrastructure at the large volumes 
necessary for an expanded bioindustry. In addition to the existing 
program, we are recommending research be initiated, in collaboration 
with programs at the U.S. Department of Energy, on harvesting and other 
production equipment as well as storage and transportation. This 
research should include demonstration and validation of systems at the 
appropriate scale needed to support the large volumes of biomass 
feedstock needed meet the new RFS.
    R&D is needed to enhance the use of energy crops and crop residues 
as viable energy resources. We recommend that the major thrust be on 
increased energy crop yields per acre, for both woody and herbaceous 
crops. This effort should include research, development and some large-
scale (500-acre units) plantings of species/genomes selected through 
R&D and assessment.
    Support Sustainability in Agriculture and Forestry for Bioenergy.--
We recommend that research and development activities include a focus 
on the ecological and environmental sustainability of using energy 
crops and residues for bioenergy, including impacts to water, soil, and 
the carbon balance. Definitive and long-term research is needed, and 
should be initiated now, to understand the true impacts of removing 
agricultural residues from the soil, increased burdens on the water use 
and aquifers, and the potential environmental issues of increasing use 
of fertilizers, pesticides, and other agricultural chemicals that may 
result from residue removal. This research should go beyond models and 
simulations to real world testing and monitoring of soil and water 
conditions under residue removal scenarios. ARS is developing crops 
that can thrive in variable and extreme environments to expand the 
options for ensuring that food, feed, fiber, and biofuels production 
can meet market demands despite the risks of climate change, and this 
important focus should be maintained. Research should also focus on 
developing mitigation strategies due to climate-driven pest outbreaks 
as well as ensuring the adequate availability of water quantity and 
quality under changing climatic conditions.
    NASS Bioenergy Data Collection.--BERA requests that USDA increase 
its support for new data collection activities related to bioenergy 
crop production by NASS. Creating a baseline now will be critical to 
understanding our progress in using bioenergy, the impacts on soil and 
water, and the impacts on rural economies. It will also help us to more 
accurately predict the future potential of biomass as an energy 
resource, and the related impacts on crops for food and feed 
production. It will enable farmers to judge the feasibility of energy 
crops and have data available to select crops and operations based on 
experience. Specific areas to be researched should include: data on the 
production, stocks, and utilization of biomass materials and annual 
maps of county-level crop production with overlays of major 
transportation corridors, as well as current and proposed ethanol 
plants.
    Continue Rural Development Programs to Support Bioenergy.--The 2010 
budget requests $68 million in discretionary funding for the Rural 
Energy for America Program (REAP) that will support a program level of 
$246 million for loan guarantees and $34 million in grants, a 
substantial increase over 2009. This program is highly successful and 
historically over-subscribed, requiring additional investments. We 
advocate a substantial increase in funding to support the active 
interest in this program and renewable energy sources, including 
biofuels. This includes funding for biofuels under both REAP and the 
Biorefinery Assistance Program (BAP), more than the mandatory funding 
provided by the 2008 farm bill.

                              CONCLUSIONS

    Expansion of the USDA programs as recommended by BERA enables a 
considerably higher probability of significantly increasing the 
contribution of biomass to primary U.S. energy demand through energy 
crops, encouraging sustainable energy crop production, improving the 
cost effectiveness and diversity of biomass resources for bioenergy, 
and providing opportunities for rural development.
    BERA recommends that all aspects of the feedstock infrastructure--
from sustainable production of high-yield crops to cost-effective 
delivery of those crops to the bioenergy customer--be developed with 
support from USDA, as outlined previously. While grain crops are a 
viable solution for the near term for bioenergy, they do not provide a 
sustainable solution at the large volumes needed to really impact our 
energy use. Thus, BERA includes R&D recommendations to ensure the 
availability of a wide diversity of non-food cellulosic feedstocks for 
bioenergy, such as dedicated energy crops and agricultural residues, 
while considering the challenges of environmental and societal 
sustainability and maintaining the economic vitality of America's 
farmers.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement

    Chairwoman Feinstein, Ranking Member Alexander, and members of the 
subcommittee: Thank you for the opportunity to offer comments on the 
fiscal year 2010 Interior, environment, and related agencies 
appropriations bill. The National Wildlife Refuge System (NWRS) stands 
alone as the only land and water conservation system with a mission 
that prioritizes wildlife and habitat conservation and wildlife-
dependant recreation. Since 1995, the Cooperative Alliance for Refuge 
Enhancement (CARE) has worked to showcase the value of the Refuge 
System and to secure a strong congressional commitment for conserving 
these special places. Located in every U.S. State and territory, 
refuges conserve a diversity of America's environmentally sensitive and 
economically vital ecosystems, including oceans, coasts, wetlands, 
deserts, tundra, prairie or forests. We respectfully request a funding 
level of $514 million for the operations and maintenance accounts of 
the NWRS for fiscal year 2010.
    This testimony is submitted on behalf of CARE's 22 member 
organizations, which represent more than 14 million Americans 
passionate about wildlife conservation and related recreational 
opportunities.
  --American Birding Association
  --American Fisheries Society
  --American Sportfishing Association
  --Association of Fish and Wildlife Agencies
  --Congressional Sportsmen's Foundation
  --Defenders of Wildlife
  --Ducks Unlimited, Inc.
  --Izaak Walton League of America
  --Marine Conservation Biology Institute
  --National Audubon Society
  --National Rifle Association
  --National Wildlife Federation
  --National Wildlife Refuge Association
  --Safari Club International
  --The Corps Network
  --The Nature Conservancy
  --The Wilderness Society
  --The Wildlife Society
  --Trout Unlimited
  --U.S. Sportsmen's Alliance
  --Wildlife Forever
  --Wildlife Management Institute
    CARE deeply appreciates the subcommittee's vision and leadership 
regarding the funding increases realized in fiscal year 2008 and fiscal 
year 2009 and the 2009 American Recovery and Reinvestment Act (ARRA). 
While it does not reduce the annual needs of the Refuge System, the 
ARRA will provide a jolt to local economies by providing refuges across 
the country with the means to hire local contractors and purchase local 
materials for important infrastructure and habitat restoration 
projects. Following a period of essentially flat annual budgets, the 
recent increases in annual appropriations allowed for the suspension of 
workforce downsizing plans that called for an eventual 20 percent 
reduction in overall staffing levels. But with more than 10 percent of 
staff already eliminated since 2004, additional funding increases that 
build upon the last 2 years are essential if this valued system of 
conservation lands is to rebound to its full potential. With the goal 
of fulfilling the progressive conservation vision that President 
Theodore Roosevelt first espoused more than a century ago, CARE 
respectfully requests a fiscal year 2010 funding level of $514 million 
for the operations and maintenance accounts of the NWRS.
    The $514 million for fiscal year 2010 is considered an essential 
next step on a long path toward adequate funding. CARE is currently re-
assessing the budget and staffing needs of the NWRS and the analysis, 
to be explained in our upcoming 2009 CARE report, shows the need for at 
least $765 million and likely more by fiscal year 2013. This annual 
funding is needed to properly patrol and enforce laws on 150 million 
acres, provide nature programs to the public, complete habitat 
restoration projects, address scores of mothballed mission-critical 
projects, respond to the adverse impacts of climate change, and more.
    An appropriation of $514 million in fiscal year 2010 would 
stabilize the workforce by keeping the workforce downsizing plans 
securely on the shelf and thereby reducing pressure on the U.S. Fish 
and Wildlife Service (FWS) to cut refuge staff below already 
insufficient levels. This funding level would enable FWS staff to 
return to what they do best: protecting, restoring, and enhancing 
America's wildlife and habitat, providing a haven for a growing list of 
threatened and endangered species, and guaranteeing a positive 
experience for more than 41 million annual visitors, whether hunting, 
fishing, watching wildlife, or learning from educational programs.
    Prior to fiscal year 2008, several years of appropriations failed 
to even cover inflation for fixed costs. Simply to keep fuel in the 
trucks, pay for rising utilities and building rent, allow for salary 
adjustments and other fixed costs, the NWRS needs at least a $15 
million annual increase.
    While the appropriation for fiscal year 2008 and fiscal year 2009 
helped immensely, too many visitors still show up to find roads and 
visitor centers closed, viewing platforms and hiking trails in 
disrepair, and habitat restoration and nature education programs 
eliminated. Many prior years of inadequate budgets ballooned the 
operations and maintenance backlog to $3.5 billion, where it hovers 
still, and forced many refuges to cut staff.
    Today, more than 35 percent of America's wildlife refuges have no 
on-site staff; nobody to unlock the gates, teach the schoolchildren, 
administer the hunting programs, or control the invasive weeds, let 
alone recover endangered species or perform major habitat restoration 
projects. Nonnative, invasive plants have infested more than 2.3 
million acres (only 14.6 percent of this acreage was treated in 2008). 
Further, a crippling deficiency of law enforcement officers has led to 
a rise in illegal activities such as drug cultivation, plant and 
wildlife poaching, smuggling through the southern border refuges and 
many types of natural resource violations. Currently, only 205 full-
time law enforcement officers are tasked with responsibilities and 
risks that the International Association of Chiefs of Police suggests 
be tackled by a force of 845 professional officers.
    When refuges are short-staffed, not only are activities inside 
refuge boundaries affected, but refuge employees are unable to devote 
sufficient attention to threats beyond refuge boundaries, such as water 
rights disputes, upstream contamination, or encroaching developments. 
Overworked staff cannot take advantage of land acquisition or easement 
opportunities and conservation opportunities often slip away. When 
staff levels are reduced to only one or a few people per refuge, 
opportunities to partner with other interested stakeholders are lost, 
dramatically and adversely affecting volunteer involvement and the 
leveraging of additional dollars. For example, consider that the 
relatively well-staffed San Luis Refuge Complex in central California 
is often able to triple its annual budget through creative 
partnerships. With this extra income, large-scale tree plantings are 
restoring wildlife habitat and vacuuming up atmospheric carbon, 
invasive species are being eradicated, waterfowl hunting programs are 
thriving, and staff can more closely monitor outside threats to 
resources such as water quantity and quality. This situation 
demonstrates how much is possible when a critical mass of staff is able 
to capitalize on funding and partnering opportunities, and just how 
much is now being lost at most wildlife refuges today.
    In addition to their integral role in American wildlife 
conservation, refuges are critically important on local and regional 
scales. Visitors in 2006 generated more than $1.7 billion in sales to 
local economies, creating more than 27,000 U.S. jobs and $543 million 
in personal income. While these figures are undeniably significant, it 
is widely recognized that the NWRS's potential remains largely untapped 
and unquantified. In addition to being local economic engines, the 
sustainable use of natural resources on America's refuges provides 
innumerable environmental benefits to communities. For example, many 
refuges in urban or suburban settings filter storm water before it runs 
downstream to municipal water supplies and, in many areas, reduce 
flooding by capturing excess rainwater and attenuating coastal storm 
surges. The vegetation on America's refuges captures atmospheric carbon 
while natural filtration and sound water management promotes healthy 
fisheries within and beyond refuge boundaries.
    Of increasing importance, national wildlife refuges provide a way 
for children to connect with the natural world. There is a refuge 
within an hour's drive of most metropolitan areas in the United States. 
As today's children spend more time inside on computers, watching 
television or playing video games, the need for a place to bring our 
younger generations to experience and explore the outdoors has never 
been more important. Many refuges work with local volunteer 
organizations such as ``Friends groups'' to provide environmental 
education programs to local schools; but when budgets are tight, they 
are often the first programs to be curtailed.
    In a Nation with ever-shrinking natural areas, we must act quickly 
to safeguard our unique natural heritage for the benefit of wildlife 
and millions of present and future Americans. It was President Theodore 
Roosevelt who reminded America that ``our duty to the whole, including 
the unborn generations, bids us restrain an unprincipled present-day 
minority from wasting the heritage of these unborn generations.'' CARE 
agrees that 41 million annual visitors and all future generations 
deserve the opportunity to see and appreciate 150 million acres of the 
most visually stunning and biologically rich lands and waters in North 
America. Simply put, the way to ensure a future with clean water, 
thriving wildlife populations, and hunting and fishing opportunities is 
to increase the NWRS's fiscal year 2010 appropriation to $514 million 
and continue the restoration of America's commitment to healthy public 
lands.
    On behalf of our more than 14 million members and supporters, CARE 
thanks the subcommittee for the opportunity to offer comments on the 
fiscal year 2010 Interior, environment, and related agencies 
appropriations bill and extends our sincere appreciation for the 
subcommittee's strong commitment to the NWRS.
                                 ______
                                 
 Prepared Statement of the Central Arizona Water Conservation District

    The Central Arizona Water Conservation District (CAWCD) is pleased 
to present written testimony regarding the fiscal year 2010 proposed 
budget for the Bureau of Reclamation (BOR). Preparing testimony on the 
fiscal year 2010 budget is somewhat hampered by the fact that the 
President's complete budget request will not be delivered to Congress 
until late April or early May. Therefore, our testimony is based on 
past budget requests, the fiscal year 2009 omnibus appropriations bill, 
and the summary version of the fiscal year 2010 budget request. CAWCD 
may wish to add additional information or comments to this testimony 
after the final version of the complete budget has been released.
    CAWCD is a political subdivision of the State of Arizona, governed 
by an elected 15-member board of directors. CAWCD was created in 1971 
for the purpose of contracting with the United States to repay the 
reimbursable construction costs of the Central Arizona Project (CAP) 
authorized by the Colorado River Basin Project Act of 1968. CAWCD 
subsequently assumed the responsibility for operating and maintaining 
the CAP. CAWCD has and continues to meet its repayment responsibility. 
In addition to a $175 million upfront contribution from CAWCD, BOR has 
been paid about $820 million in principal and interest since repayment 
began in January 1994.

                                  BOR

    CAWCD generally supports BOR's budget request. However, we believe 
that there are opportunities in the Colorado River Basin to more 
effectively use the limited funds available. The Colorado River system 
is still feeling the effects of one of the most severe droughts in its 
recorded history. In December 2007 BOR adopted new guidelines for 
managing the Colorado River system reservoirs. The Guidelines include 
Lower Basin shortage declaration and shortage sharing criteria. As the 
largest junior water rights contractor in the Lower Basin, these 
shortage criteria are essential for CAWCD to plan its water future. But 
it is just as important that BOR act affirmatively to preserve, enhance 
and more efficiently manage the Colorado River water supply. 
Accordingly, it is imperative that BOR's Lower Colorado River 
Operations budget include sufficient funds for structures and programs 
to improve operational efficiency and augment supplies. We urge the 
subcommittee to reorder priorities in BOR's budget to emphasize these 
important strategies for the Lower Colorado River.

                LOWER COLORADO RIVER WATER CONSERVATION

    Specifically, we are concerned about the lack of concrete focus on 
preserving storage capacity in Lake Mead by undertaking activities that 
would augment water availability and improve system operational 
efficiency.
    Congress is well aware of the huge impacts that a multi-year 
drought has imposed on this region, and of the significant drawdown of 
stored water in the river's reservoirs that has resulted from this 
drought. A significant amount of water has been released over these 
years from Hoover Dam that could have been retained if effective 
downstream strategies had been implemented.
    One example of an effective strategy to save water is the 
construction of an off stream regulatory storage reservoir near Drop 2 
of the All-American Canal. This reservoir was identified as capable of 
saving approximately 70,000 acre-feet of Colorado River water each 
year. Construction of this critical reservoir is well underway using 
contributed funds available from Southern Nevada Water Authority 
(SNWA), the CAWCD and the Metropolitan Water District of Southern 
California in exchange for a portion of the conserved water. The 
estimated cost is about $172 million.

                       YUMA DESALTING PLANT (YDP)

    Another effective strategy to conserve additional water is the 
operation of the YDP. Unfortunately, we believe that BOR will not 
request the funds necessary to operate the YDP. Every year that the YDP 
remains idle results in the loss of more than 100,000 acre-feet of 
Colorado River water, enough water to supply the annual water needs of 
half a million people. BOR's budget justification concerning the YDP 
continues to be disingenuous. BOR continues to say that the plant is in 
``ready reserve'' status, but also states it would take 4 years and 
adequate funding to have the YDP fully operational. Despite this 
admission, none of the funding necessary to make YDP operational is 
identified or requested. Decisions need to be made and resources need 
to be applied to bring the YDP into actual operation. The 
appropriations bill for fiscal year 2009 directed BOR to make the YDP 
operational at one-third capacity by June 30, 2009 and to report 
formally to Congress concerning the status of the YDP by September 30, 
2009. At this late date in 2009, it is clear that BOR will not meet the 
directive of operation at one-third capacity in 2009. Lessons learned 
from the pilot operations in fiscal year 2007 identified what actions 
are needed to make the plant fully operational. We believe that the 
fiscal year 2010 budget request contains no requests for funds and no 
stated intention to operate the YDP in the future. The Lower Basin 
States, along with BOR, are developing alternate plans for one or all 
of the States to fund the rehabilitation and operation of the YDP at 
partial capacity. Nonetheless, it is the responsibility of the United 
States to operate the YDP at full capacity to satisfy the Mexican 
Treaty obligation without using additional system water. We urge the 
subcommittee to direct BOR to make the YDP operational at one-third 
capacity, to initiate regular operations as soon as possible, and to 
seriously explore other opportunities to enhance the Colorado River 
supply.

                      COLORADO RIVER AUGMENTATION

    CAWCD would like to call the subcommittee's attention to the 
provisions of sections 201, 202 and 203 of title 1 of the Colorado 
River Basin Project Act of 1968 (Public Law 90-537). These provisions 
call for studies and actions to augment the supply of water available 
for distribution within the Colorado River Basin. These provisions 
specifically make satisfaction of the obligations of the 1944 Treaty 
with Mexico a national obligation and anticipate that such obligation 
will be met through augmentation of the Colorado River supply. The 
Seven Basin States (States) have completed a process, led and funded 
primarily by the SNWA, to review previous augmentation studies and 
evaluate new concepts. BOR participated in this process. A final report 
was completed in fiscal year 2008. The States, using funding from a 
variety of State and local organizations, are actively involved in 
cloud seeding and control of nonnative, water-wasting plants, such as 
salt cedar. At the very least, BOR needs to commit sufficient funds to 
support implementation of some of these programs beginning in fiscal 
year 2010. CAWCD recommends that at least $500,000 be committed from 
BOR's overall appropriations for such activities as general planning, 
research and development, or the Water for America Institute. CAWCD 
urges the subcommittee to direct BOR to take action and provide funding 
to fulfill the commitment Congress made 40 years ago to augment the 
water supply in the Colorado River Basin.

                           TUCSON RELIABILITY

    We believe BOR has requested almost $3 million in fiscal year 2010 
for ``Tucson Reliability.'' We strongly support that request. The local 
Reclamation office is working with CAWCD and the Tucson-area CAP water 
users to identify the facilities necessary to provide those users the 
same degree of CAP reliability enjoyed by CAP users in the Phoenix 
area. We expect that the fiscal year 2010 funding will be sufficient 
for Reclamation to determine the cost and cost sharing requirements for 
a complete program. Once a complete program has been identified, CAWCD 
is willing to address the associated increase in our repayment 
obligation. It is time to determine what will be done concerning 
``Tucson Reliability'' and allow the water providers to move ahead with 
their plans.

                LOWER COLORADO RIVER OPERATIONS PROGRAM

    BOR's fiscal year 2010 budget request for the Lower Colorado River 
Operations Program is anticipated to be about $20 million for the Lower 
Colorado River Multi-Species Conservation Program (MSCP), which 
includes just over $7 million from the non-Federal partners. The MSCP 
is a cost-shared program among Federal and non-Federal interests to 
conserve endangered species and their habitat along the Lower Colorado 
River from Lake Mead to Mexico. CAWCD is one of the cost-sharing 
partners. This program will provide habitat for threatened and 
endangered species and, at the same time, allow current water and power 
operations to continue. CAWCD supports BOR's budget request for the 
Lower Colorado River Operations Program. This funding level is 
necessary to support the MSCP effort as well as environmental measures 
necessary to fully implement the interim surplus criteria for the Lower 
Colorado River. These are critical programs upon which Lower Colorado 
River water and power users depend.

        INCREASED SECURITY COSTS FOR BOR HYDRO POWER FACILITIES

    We continue to oppose the funding of post-9/11 increased security 
costs for BOR facilities through hydropower rates. The increased costs 
are being incurred for national security reasons, not project 
maintenance or operation. Details of these costs must be kept secret 
and cannot be disclosed like other data in Power Marketing 
Administration rate cases, raising serious due process issues. Other 
project beneficiaries are not and, in some cases, cannot be charged a 
fair share of these costs. Congress should make these increased 
national security costs nonreimbursable. We acknowledge and appreciate 
efforts by Congress to cap these costs.

                               CONCLUSION

    We have worked for more than three decades with the Congress and 
all the succeeding administrations to make the CAP a reality, as 
envisioned by Congress in the 1968 Act, and to ensure its contribution 
to the economic welfare of the State of Arizona. Improving the ability 
of the Lower Colorado River system to conserve and store precious 
Colorado River water supplies is central to our mission and, we 
believe, a core directive of the 1968 Act. The lengthy drought on the 
Colorado River has proven the need for the CAP and the wisdom of 
Congress in passing the 1968 Act. It is time to move forward to 
aggressively accomplish the additional tasks that have been identified. 
We look forward to working with the Congress, the BOR, the other 
Federal agencies and the Basin States to get this additional work done.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network

    The Children's Environmental Health Network (CEHN) appreciates this 
opportunity to comment on the fiscal year 2010 appropriations to the 
Departments of Health and Human Services and Education for activities 
that protect children from environmental hazards.
    CEHN is seeking additional resources for the Office of Children's 
Health Protection (OCHP), the Children's Environmental Health Research 
Centers of Excellence, the Pediatric Environmental Health Specialty 
Units (PESHU), and full funding of the Environmental Protection 
Agency's (EPA) school environmental health programs as well as support 
for the National Children's Study (NSC) and for efforts to protect 
children in the child care setting.
    CEHN appreciates the wide range of priorities that you must 
consider for funding at the EPA. We urge you to give priority to those 
EPA programs that directly protect and promote children's health. In so 
doing, you will protect all populations as well as our environment.
    CEHN is a national organization whose mission is to promote a 
healthy environment and to protect the fetus and the child from 
environmental health hazards. CEHN's board and committee members 
include internationally recognized experts in children's environmental 
health science and policy who serve on key Federal advisory panels and 
scientific boards. We recognize that children, in our society, have 
unique moral standing. CEHN was created to promote the incorporation of 
basic pediatric facts such as these in policy and practice:
  --Children's bodies and behaviors differ from adults. In general, 
        they are more vulnerable than adults to toxic chemicals.
  --Children are growing. Pound for pound, children eat more food, 
        drink more water, and breathe more air than adults. Thus, they 
        are likely to be more exposed to substances in their 
        environment than are adults. Children have higher metabolic 
        rates than adults and are different from adults in how their 
        bodies absorb, detoxify, and excrete toxicants.
  --Children's systems, including their nervous, reproductive, 
        digestive, respiratory and immune systems, are developing. This 
        process of development creates periods of vulnerability when 
        toxic exposures may result in irreversible damage when the same 
        exposure to a mature system may result in little or no damage.
  --Children behave differently than adults, leading to a different 
        pattern of exposures to the world around them. For example, 
        they exhibit hand-to-mouth behavior, ingesting whatever 
        substances may be on their hands, toys, household items, and 
        floors. Children play and live in a different space than do 
        adults. For example, very young children spend hours close to 
        the ground where there may be more exposure to toxicants in 
        dust, soil, and carpets as well as low-lying vapors such as 
        radon, mercury vapor, or pesticides.
  --Children have a longer life expectancy than adults; thus they have 
        more time to develop diseases with long latency periods that 
        may be triggered by early environmental exposures, such as 
        cancer or Parkinson's disease.
    Clear, sound science underlies these principles. A solid consensus 
in the scientific community supports these concepts. The world in which 
today's children live has changed tremendously from that of previous 
generations. There has been a phenomenal increase in the substances to 
which children are exposed. According to the EPA, more than 83,000 
industrial chemicals are currently produced or imported into the United 
States. Thousands of chemicals are ubiquitous in our environment 
worldwide. Traces of hundreds of chemicals are found in all humans and 
animals. Every day, children are exposed to a mix of chemicals, most of 
them untested for their effects on developing systems. Many of these 
chemicals are readily passed across the placenta to the fetus, to the 
infant via breast milk, or via food, toys and other children's 
products. Many of these chemicals are also ingested in food and water. 
Many also are absorbed by children through the lungs by respiration of 
contaminated air.
    We urge the subcommittee to provide the necessary resources for the 
Federal programs and activities that help to protect children from 
environmental hazards. The key programs that are in your subcommittee's 
jurisdiction are listed below. We also urge the subcommittee to direct 
the EPA to assure that all of its activities and programs--including 
regulations, guidelines, assessments, and research--specifically 
consider children. Our traditional approaches have been to use a one-
size-fits-all template, and that template is usually the healthy adult 
male. The EPA's work must always assure that children and other 
vulnerable subpopulations are protected, especially poor children, 
minority children, farmworker children, and others at risk.

                                  OCHP

    Since 1997, EPA's efforts to protect children from environmental 
hazards have been led by the OCHP, which was highly effective and well-
regarded. Funding for OCHP has been level, at approximately $6 million 
since its creation. Even worse, over time the office's resources were 
further diluted by the addition of new and unrelated missions, without 
any increase in resources.
    We strongly urge the subcommittee to provide additional resources 
dedicated to children's health protection for the office, and to 
restore a strong focus on children by the EPA.

     CHILDREN'S ENVIRONMENTAL HEALTH RESEARCH CENTERS OF EXCELLENCE

    The Children's Environmental Health Research Centers, funded by the 
EPA and the National Institute of Environmental Health Sciences 
(NIEHS), play a key role in providing the scientific basis for 
protecting children from environmental hazards. With budgets of $1 
million per year per center (unchanged over more than 10 years), this 
program generates valuable research. A unique aspect of these centers 
is the requirement that each center actively involves its local 
community in a collaborative partnership, leading both to community-
based participatory research projects and to the translation of 
research findings into child-protective programs and policies. 
Researchers have chosen to participate in the center funding mechanism 
because of the ability to do interdisciplinary research, to break 
ground in a relatively new field and to be involved in the community--
all things that are not easy to do using other grant mechanisms. The 
scientific output of these centers has been outstanding. For example, 
four of the Centers had findings that clearly showed that prenatal 
exposure to a widely used pesticide affected developmental outcomes at 
birth and early childhood. This was important information to EPA's 
policy makers in their consideration of this pesticide. Another recent 
example is the finding of a biomarker in newborns for childhood 
leukemia, firmly establishing the important role of prenatal 
environment factors in causation of this disease.
    Unfortunately, almost all of the existing 12 centers are currently 
operating on no-cost extensions. We strongly support the center concept 
and the value of a network of centers. We also support current efforts 
by the EPA and the NIEHS to competitively renew and to expand this 
valuable program by adding four formative centers. However, only five 
of the existing centers are to be renewed. If centers are shuttered, we 
will lose access to valuable populations such as children with asthma 
or growing up with pesticide exposure in farm communities. We will lose 
the ability to learn about issues like early puberty concerns, 
exposures in school settings, and pre-adolescent and adolescent 
outcomes.
    Thus, we urge the subcommittee to appropriate at least $15 million 
for EPA's share of funding to match the NIEHS contribution to assure 
that an adequate number of centers (old and new) will have funding in 
fiscal year 2010.

                                  NSC

    NSC is examining the effects of environmental influences on the 
health and development of more than 100,000 children across the United 
States, following them from before birth until age 21. This landmark 
longitudinal cohort study--involving a consortium of agencies including 
the EPA--will be one of the richest research efforts ever geared toward 
studying children's health and development and will form the basis of 
child health guidance, interventions, and policy for generations to 
come.
    This study may be the only means that we will have to find answers 
to some key questions regarding links between exposures and health 
effects on children. CEHN urges the subcommittee to fund EPA at a level 
that provides the EPA with the resources it needs to participate in the 
NCS as a lead partner. Past funding to EPA for the NCS was $1 million.

                                 PEHSUS

    A key, but dramatically underfunded, program is the PEHSU network. 
Funded by the EPA and the Agency for Toxic Substances and Disease 
Registry, the PEHSUs form a network with a center in each of the U.S. 
Federal regions, plus one center in Canada and one in Mexico. PEHSU 
professionals provide quality medical consultation for health 
professionals, parents, caregivers, and patients. PEHSUs are also 
dedicated to increasing environmental medicine knowledge among 
healthcare professionals as well as providing information and resources 
to school and community groups to help increase the public's 
understanding of children's environmental health.
    Last year, the entire program, covering the United States--10 
centers-- received less than $2 million. Each center received only 
$120,000, reduced from $132,000. These centers, all based in 
universities, have done tremendous work, covering large geographic 
areas, on these small budgets. As university budgets get tighter, the 
need for Federal support of this program has increased. We urge the 
subcommittee to restore EPA's funding for this vital program in fiscal 
year 2010 to at least $200,000 per center.

               SCHOOL AND CHILD CARE ENVIRONMENTAL HEALTH

    Each school day, about 54 million children and nearly 7 million 
adults--20 percent of the total U.S. population--spend a full week 
inside schools. Thirteen million preschoolers--60 percent of young 
children--are in child care. Unfortunately, many of the Nation's 
121,000 public and private K-12 school facilities are shoddy or even 
``sick'' buildings whose environmental conditions harm children's 
health and undermine attendance, achievement, and productivity. In 1996 
the then General Accounting Office reported that more than 13 million 
children were compelled to be in schools that threatened their health 
and safety. No data exist on the conditions in child care centers.
    We urge the subcommittee to appropriate the $10 million authorized 
for EPA under the healthy schools provisions of the High Performance 
Green Buildings Act. This statute authorizes EPA to create Federal 
guidelines on school siting and (advised by the Centers for Disease 
Control and Prevention) school environmental health programs. This 
statute also authorizes an important study of the impacts of green 
schools on the health of children and communities.
    These programs are especially vital in light of the ``stimulus'' 
funds for school modernization or renovation. The stimulus bill does 
not require consideration of environmental health or children's health 
and safety. Yet, without specific consideration of health, steps to 
``green'' a school--such as increasing insulation at a school to 
improve energy efficiency--can have unintended harmful side effects, 
such as creating or exacerbating indoor air quality problems.
    Millions of preschoolers--our youngest and most vulnerable 
population--enter care as early as 6 weeks of age and can be in care 
for more than 40 hours per week. Yet little is known about the 
environmental health status of our child care centers nor how to assure 
that they are protecting this important group of children. CEHN is 
working to correct these gaps.
    We ask the subcommittee to direct the EPA to report on their 
activities to protect children from environmental hazards in child care 
settings as well as to assess the EPA's needs for assuring that 
children in these settings are protected from such hazards.
    In conclusion, investments in programs that protect and promote 
children's health will be repaid by healthier children with brighter 
futures, an outcome we can all support. That is why CEHN asks you to 
give priority to these programs.
    Thank you for the opportunity to testify on these critical issues.
                                 ______
                                 
        Prepared Statement of the Center for Plant Conservation

    We respectfully request increased appropriations to a total of $10 
million for the Bureau of Land Management (BLM) Native Plant Materials 
Development Program (NPMD) and $5 million for the U.S. Forest Service 
(USFS) NPMD Program. In addition we request $5 million in increased 
funding for the endangered species program in the BLM to begin to 
address dramatically increasing plant conservation needs. Further, we 
request an increase of a minimum of $100 million in additional funding 
for the U.S. Fish and Wildlife Service (FWS) Recovery Program budget to 
help address the imbalance in funding for recovery plan development and 
implementation for plants. We also appeal to the subcommittee to revise 
the current definition of wildlife used in the State Wildlife Grant 
Program, which excludes plants. Current guidance does not allow these 
funds to be expended for projects whose main objective is recovery of 
declining plants, and has further aggravated the imbalance in plant 
conservation activities and availability of resources at the State 
level.
    The Center for Plant Conservation (CPC) is a conservation 
organization whose mission is to conserve and restore the rare native 
plants of the United States. We are a coordinated, science-based 
network of 36 botanical institutions working for the recovery of our 
most imperiled native species on public and private lands nationwide. 
Our network represents a wealth of expertise and experience. Our 
organization works through professional staff in botanical 
institutions, hand-in-hand in productive partnerships for plant 
conservation and recovery. We have provided match resources of nearly 
$750,000 in our cooperative work with the BLM, USFS, and National Park 
Service in the last few years, and implement approximately $3 million 
in plant recovery research and restoration each year.
    We rely on our public agencies as administrators of our public 
natural resource laws, and stewards of our public land plant trust 
resources. Public lands are instrumental in maintaining healthy 
environmental systems and serve as a primary source of the increasingly 
valuable natural resource plant biodiversity represents for the Nation.

                              NPMD PROGRAM

    CPC regards the NPMD Program as one of the most significant public 
works projects of our times, and has been an active partner for 5 
years. The NPMD Program works to collect, develop, and distribute 
native plant seed to agency partners and industry for increase and use 
in Federal land restoration efforts following fire and other 
disturbances. Expanding the variety and quantity of native plant 
materials will create new business opportunities for the private 
sector, reduce cost for Federal land restoration, and improve 
availability for public and private uses.
    In 2001, Congress directed the BLM and the USFS, working through 
the Plant Conservation Alliance, to develop a long-term program to 
manage this effort. The program is funded through ``burned area 
rehabilitation program funds'' in both the Department of the Interior 
BLM appropriations and the Department of Agriculture USFS (NFN3 line 
item) in appropriations bills. Program success is contingent on 
consistent and increased funding.
    While seed collection has moved forward well, more work is needed, 
as well as seed increase projects before seed can be released to the 
commercial sector. These projects require several more years of effort 
to reach target needs.
    BLM developed a 10-year funding strategy, identifying a need for a 
relatively modest $120 million from 2003-2012. In spite of great 
progress, to date the BLM's NPMD Program has received only 
approximately $32 million. The BLM strategy works with a nationwide 
collaboration of partners to secure seed, and has engaged many 
organizations. Positive collaborative partnerships for public lands 
have been fostered nationwide, and partners have invested more than $5 
million of non-Federal match, making the program cost effective. CPC is 
one of the largest contributing partners in this important effort.
    In addition to the fire rehabilitation program, other BLM programs 
will benefit from improved native plant materials (oil and gas, range, 
wildlife, and recreation) and current funding could be increased 
through their fiscal participation. We request an appropriation of $10 
million for the BLM NPMD Program appropriation. In the President's 
budget $0 has been recommended for the USFS program. Abandonment of 
this USFS program which has made significant progress in developing new 
stocks for public and private benefit is fiscally wasteful. We request 
continued funding for the USFS NPMD Program (line item NFN3 in their 
budget) as well, in the amount of $5 million.

                  BLM PLANT CONSERVATION PROGRAM NEEDS

    The President's energy plan will increase significant disturbance 
of large areas of BLM lands for energy development. Challenges to the 
integrity and productivity of BLM lands from invasive species and 
global climate change have also increased potential impacts to 
significant numbers of federally listed and BLM special status plant 
species.
    The BLM is one of our largest Federal landholders, and therefore 
one of our most significant agencies in conserving plant biodiversity. 
The CPC recognizes the leadership of the BLM in establishing a Plant 
Conservation Program to take an integrated approach to these 
significant issues. This agency needs increased funding to evaluate 
impacts, secure wild populations, and plan and implement restoration 
and management practices to preserve valuable plant biodiversity on the 
262 million acres of BLM lands.
    Additional botanists are needed for BLM field offices, as well as 
funds to support planning and implementation of identified program 
needs. We request an increase of $5 million in BLM Endangered Species 
Program funds (approximately 2 cents an acre) to help address these 
emerging needs, and recommend these funds be administered through the 
Plant Conservation Program.
    Given the extensive land holdings of BLM, they have a large 
responsibility for plant biodiversity in the United States. Their Plant 
Conservation Program has provided integrated programmatic leadership 
and support for the rehabilitation and management of plant 
biodiversity. This program would benefit from a dedicated sub-activity 
within BLM appropriations for this valuable and innovative approach. A 
dedicated sub-activity would provide stability for the program and 
greater certainty for investing partners seeking long-term benefits. 
This would increase the effectiveness of the program for management of 
trust plant resources through increasing partnerships and resources.

                          FWS RECOVERY PROGRAM

    Our federally listed plants are historically underfunded and 
underserved in recovery programs. While 57 percent of the federally 
listed species under the Endangered Species Act (ESA) are plants, they 
historically receive only 3-5 percent of Federal agency expenditures 
for listed species recovery.
    Our research has demonstrated that approximately 75 percent of our 
federally listed plant species have fewer than 100 individuals 
remaining in the majority of remaining sites, and are at a high risk of 
extinction within 20-25 years unless intervention is initiated quickly. 
We have also shown that 87 percent of federally listed plant species 
are very closely related to agronomically important species. Given the 
high natural resource value of our wild plants for healthy air and 
water, mediating global climate change, the raw material for plant 
breeding in support of sustainable agriculture, and potential medically 
and economically significant products, this imbalance presents a real 
threat to the future economic well-being of our Nation. More botanists 
and more dollars for recovery actions are needed.
    As noted above, CPC renders tremendously valuable public benefits 
in recovery efforts for our most imperiled plants, but we cannot garner 
the resources to solve this problem for the Nation solely through 
private efforts. The backlog of work needed to properly respond to 
recovery needs for all federally listed species has been estimated to 
be well more than $300 million.
    An increase in the USFWS recovery program budget is needed to begin 
to address the most critically imperiled plant and animal species. We 
are requesting an increase of $100 million in the USFWS recovery 
program budget. Further, we believe $80 million should be dedicated to 
implementation of recovery activities for priority listed plant 
species, which have been so long neglected. At least $20 million of 
this appropriation should be designated for recovery for Hawaiian plant 
species, as Hawaii has long been documented as our greatest national 
treasure for plant biodiversity.
    Thank you for the opportunity to present testimony regarding the 
proposed Department of the Interior appropriations. We hope you will be 
able to respond to these urgent needs for these valuable national 
resources.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

    This testimony is in support of fiscal year 2010 funding for he 
Bureau of Land Management (BLM) for the subactivity that assists title 
II of the Colorado River Basin Salinity Control Act (Public Law 92-
500). This successful and cost-effective program is carried out 
pursuant to the Colorado River Basin Salinity Control Act and the Clean 
Water Act (Public Law 92-500).
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California and the other six Basin States through the 
Colorado River Basin Salinity Control Forum (Forum), the interstate 
organization responsible for coordinating the Basin States' salinity 
control efforts, established numeric criteria in June 1975, for 
salinity concentrations in the River. These criteria were established 
to lessen the future damages in the Lower Basin States, as well as, 
assist the United States in delivering water of adequate quality to 
Mexico in accordance with Minute 242 of the International Boundary and 
Water Commission. California's Colorado River water users are presently 
suffering economic damages in the hundreds of million of dollars per 
year due to the river's salinity.
    The BLM's budget justification document has stated that the BLM 
continues to implement on-the-ground projects, evaluate progress in 
cooperation with the U.S. Bureau of Reclamation (USBR) and the U.S. 
Department of Agriculture (USDA), and report salt retaining measures in 
order to further the Plan of Implementation of Federal Salinity Control 
Program in the Colorado River Basin. The BLM budget, as proposed by the 
administration in the BLM budget justification document, calls for five 
principal program priorities within the soil, water, and air management 
Program. One of the priorities is reducing saline runoff in the 
Colorado River Basin to meet the interstate, Federal, and international 
agreements to control salinity of the Colorado River.
    As you are aware, BLM is the largest landowner in the Colorado 
River Basin. Due to geological conditions, much of the lands that are 
controlled and managed by the BLM are heavily laden with salt. Past 
management practices have led to human-induced and -accelerated erosion 
processes from which soil and rocks, heavily laden with salt have been 
deposited in various stream beds or flood plains. As a result, salts 
are dissolved into the Colorado River system causing water quality 
problems downstream.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by the Bureau of Reclamation (Reclamation) through its 
Basin-wide Program and by the U.S. Department of Agriculture through 
its on-farm Environmental Quality Incentives Program.
    In keeping with the congressional mandate to maximize the cost-
effectiveness of the salinity control program, the Forum at its meeting 
in October 2008 in San Diego, California, recommended that Congress 
appropriate $5,900,000 to BLM in fiscal year 2010 for activities that 
help control salt contributions from BLM-managed lands in the Colorado 
River Basin. In the past, BLM has used $800,000 of this funding for 
proposals submitted by BLM staff to the BLM's salinity control 
coordinator for projects that focus on salinity control. The Colorado 
River Basin Salinity Control Advisory Council report states that the 
BLM has now identified projects that in fiscal year 2010 could use $1.5 
million. The Colorado River Board requests that Congress appropriate 
$5,900,000 to BLM in fiscal year 2010. The Colorado River Board urges 
the subcommittee to specifically designate $1,500,000 for the Colorado 
River Basin Salinity Control Program as has been the direction to BLM 
from the subcommittee in past years.
    Since the congressional mandates of more than two decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. Reclamation estimates that the quantified economic impacts and 
damages to water users in the United States alone is about $376 million 
per year. However significant unquantified damages also occur. For 
example, damages can be incurred related to the following activities:
  --A reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration;
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are an additional $75 million damages within the 
United States. In addition, the Federal Government has made significant 
commitments to the Republic of Mexico and to the seven Colorado River 
Basin States with regard to the delivery of quality water to Mexico. In 
order for those commitments to be honored, it is essential that in 
fiscal year 2010, and in future fiscal years, that the Congress 
provides adequate funds to BLM for its activities related to salinity 
control in the Colorado River Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California, 
including municipal, industrial, and agricultural water users in 
Imperial, Los Angeles, Orange, Riverside, San Bernardino, San Diego, 
and Ventura Counties. Preservation and improvement of Colorado River 
water quality through an effective salinity control program will avoid 
the additional economic damages to users in California and the other 
States that rely on Colorado River water resources.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

    In support of $5,900,000 to assist in Colorado River Salinity 
Control, title II from the soil, water, and air management effort, and 
with support for the President's request for that activity. Also, a 
request that $1,500,000 be spent on identified salinity control related 
projects and studies.
    This testimony is in support of funding for the Bureau of Land 
Management (BLM) for the subactivity that assists the Colorado River 
Basin Salinity Control Program authorized by the Congress. The BLM 
budget, as proposed by the administration in the BLM budget 
justification document, calls for five principal program priorities 
within the soil, water, and air management program. One of these 
priorities is reducing saline runoff to meet the interstate, Federal 
and international agreements to control salinity of the Colorado River.
    The BLM's budget justification documents have stated that the BLM 
continues to implement on-the-ground projects, evaluate progress in 
cooperation with the U.S. Bureau of Reclamation (USBR) and the U.S. 
Department of Agriculture (USDA), and report salt-retaining measures in 
order to further the Plan of Implementation of the Federal Salinity 
Control Program in the Colorado River Basin. The Colorado River Basin 
Salinity Control Forum (Forum) believes that fiscal year 2010 funds 
appropriated by the Congress for the soil, water, and air management 
program should be used, in part, for reducing saline runoff in the 
Colorado River Basin.
    The seven Colorado River Basin States, through the Forum, have 
engaged the BLM in a partnership with the Basin States as has been done 
previously with the two other Federal agencies implementing salinity 
control in the Basin. The Forum has requested and the BLM has selected 
a salinity control coordinator for this basinwide effort. This person 
now serves with the two full-time coordinators in place for the USBR 
and the USDA efforts. This enhanced working relationship has taken 
advantage of the availability of Basin States' cost-sharing monies to 
leverage Federal funds. The Forum is encouraged by the words in the BLM 
budget document. The Forum supports the funding request for the soil, 
water, and air management subactivity. As 1 of the 5 principal soil, 
water, and air program priorities, the Forum believes that the BLM 
needs to specifically target $5,900,000 to activities that help control 
salt contributions from BLM managed lands in the Colorado River Basin. 
In the past, the BLM has used $800,000 of the soil, water and air 
program funding for proposals submitted by BLM staff to the BLM's 
salinity control coordinator for projects that focus on salinity 
control. The Colorado River Basin Salinity Control Advisory Council has 
recognized that the BLM has now identified projects that in fiscal year 
2010 could use $1.5 million. For years, Congress has dedicated $800,000 
on the effort and now the Forum believes $1.5 million should be so 
designated.
    The success of the BLM in controlling erosion and, hence, salt 
contributions to the Colorado River and its tributaries is essential to 
the success of the Colorado River Basin Salinity Control Program, 
including adherence to the water quality standards adopted by the seven 
Colorado River Basin States and approved by the U.S. Environmental 
Protection Agency (EPA). Inadequate BLM salinity control efforts will 
result in very significant additional economic damages to water users 
downstream. The Forum submits this testimony in support of adequate 
funding so that the BLM program can move ahead at a pace that is needed 
to sustain these water quality standards.

                                OVERVIEW

    This testimony is in support of funding for a portion of the title 
II program. The Colorado River Basin Salinity Control Program was 
authorized by the Congress in 1974. The title I portion of the Colorado 
River Basin Salinity Control Act responded to commitments that the 
United States made, through a minute of the International Boundary & 
Water Commission, to Mexico specific to the quality of water being 
delivered to Mexico at the international boundary. Title II of the act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly enacted Clean Water Act. Initially, the Secretary of 
the Interior and the USBR were given the lead Federal role by the 
Congress.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. In response to the Basin States' requests, the Congress 
revised the act in 1984 to give new salinity control responsibilities 
to the USDA and to the BLM. That revision, while leaving implementation 
of the salinity control policy with the Secretary of the Interior, gave 
new salinity control responsibilities to the USDA and to the BLM. The 
Congress has charged the administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin States are strongly supportive of that concept and 
have proceeded to implement salinity control activities for which they 
are responsible in the Colorado River Basin.
    Since the congressional mandates of over two decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
The USBR estimates that the quantified economic impacts and damages to 
United States' water users alone is about $353 million per year and 
there are very significant additional damages yet to be quantified. 
Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water, and water 
        softeners in the household sector;
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration;
  --increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah, and Wyoming. The Forum 
has become the seven State coordinating body for interfacing with 
Federal agencies and the Congress in support of the implementation of 
the Salinity Control Program. In close cooperation with the EPA and 
pursuant to requirements of the Clean Water Act, every 3 years the 
Forum prepares a formal report analyzing the salinity of the Colorado 
River, anticipated future salinity, and the program elements necessary 
to keep the salinities at or below the concentrations in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 review of water quality standards 
includes an updated Plan of Implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed-upon plan. If 
adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.

                             JUSTIFICATION

    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the BLM is heavily laden with salt. Past management practices, which 
include the use of lands for recreation; for road building and 
transportation; and for oil, gas, and mineral exploration have led to 
man-induced and accelerated erosional processes. When soil and rocks 
heavily laden with salt erode, the silt is carried along for some 
distance and ultimately settles in the streambed or flood plain. The 
salts, however, are dissolved and remain in the river system causing 
water quality problems downstream.
    The Forum believes that the Federal Government has a major and 
important responsibility with respect to controlling salt contributions 
from public lands. The Congress has explicitly directed specific 
Federal agencies, including the BLM, to proceed with measures to 
control the salinity of the Colorado River, with a strong mandate to 
seek out the most cost-effective options. It has been determined that 
rangeland improvements can lead to some of the most cost-effective 
salinity control measures available. These salinity control measures 
may be more cost-effective than some now being considered for 
implementation by the USBR and by the USDA. They are very 
environmentally acceptable as they will prevent erosion, enhance 
wildlife habitat, increase dependable stream flows, and increase 
grazing opportunities.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado and Wyoming, consortiums of Federal and State agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the Administration allocate adequate funds to 
support the BLM's portion of the Colorado River Salinity Control 
Program as set forth in the Forum's adopted Plan of Implementation.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission

    Dear Madam Chair and members of the subcommittee, the Columbia 
River Inter-Tribal Fish Commission (CRITFC) is pleased to share its 
view on the Department of Interior, Bureau of Indian Affairs' (BIA) 
fiscal year 2010 budget and has specifically identified two funding 
needs:
  --$7,712,000 (an increase of $4,500,000 more than fiscal year 2009) 
        for Columbia River Fisheries Management under the Other 
        Recurring Programs, Wildlife and Parks, Rights Protection 
        Implementation areas to restore base program funding to the 
        Commission and the fisheries programs of its member tribes to 
        meet management obligations, including efforts for species 
        listed under the Endangered Species Act, and;
  --$,4,800,000 (an increase of $2,530,000 more than the fiscal year 
        2009) for United States/Canada Pacific Salmon Treaty under the 
        Other Recurring Programs, Wildlife and Parks, Rights Protection 
        Implementation areas to restore base program funding and to 
        implement new obligations under the recent agreement adopted by 
        the United States and Canada under the Treaty.
    CRITFC was founded in 1977 by the four Columbia River treaty 
tribes: Confederated Tribes of the Umatilla Indian Reservation, 
Confederated Tribes of the Warm Springs Reservation of Oregon, 
Confederated Tribes and Bands of the Yakama Nation, and Nez Perce 
Tribe. CRITFC provides coordination and technical assistance to the 
tribes in regional, national, and international efforts to protect and 
restore our shared salmon resource and the habitat upon which it 
depends. The collective ancestral homeland of the four tribes covers 
nearly one-third of the entire Columbia River Basin in the United 
States.
    In 1855, the United States entered into treaties with the four 
tribes \1\ whereupon we ceded millions of acres of our homelands to the 
United States. In return, the United States pledged to honor our 
ancestral rights, including the right to fish. Unfortunately, a 
perilous history brought the salmon resource to the edge of extinction 
with 12 salmon and steelhead populations in the Columbia Basin listed 
under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    Today, the CRITFC tribes' are leaders in fish restoration efforts 
and work with State, Federal, and private entities. CRITFC's member 
tribes are principles in the region's efforts to halt the decline of 
salmon, lamprey, and sturgeon populations and rebuild them to levels 
that support ceremonial, subsistence, and commercial harvests. To 
achieve these objectives, the tribes' actions emphasize supplementation 
of natural stocks, healthy watersheds, and collaborative efforts.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. We have successfully 
secured other funds to support our efforts, including funds from the 
Bonneville Power Administration, the Pacific Coastal Salmon Recovery 
Fund, and the Southern Fund of the Pacific Salmon Treaty, to name a 
few. Our programs are integrated as much as possible with State and 
Federal salmon management and restoration efforts. Following several 
years of court-supervised collaboration our member tribes have 
successfully forged three key 10-year agreements including a 
coordinated plan for salmon restoration to meet the objectives for the 
Biological Opinion on the Federal Columbia River Power System, while 
ensuring protection of our treaty reserved rights.
    Columbia River Fisheries Management Program Needs Under the Other 
Recurring Programs, Wildlife and Parks, Rights Protection 
Implementation.--Tribal natural resource funding is not keeping pace 
with inflation. Funding shortfalls are undermining efforts to fulfill 
tribal self-determination goals for fisheries management, ESA recovery 
efforts, protecting nonlisted species, conservation enforcement, and 
treaty fishing access site maintenance. Since fiscal year 2003, our 
funding has decreased under the weight of inflation and rising 
operation costs. We are seeking an increase of $4,500,000 more than 
fiscal year 2009 for a new program base of $7,712,000 for Columbia 
River Fisheries Management as explained below:
    Restore Base Program and Meet Unfunded Program Needs.--The BIA's 
Columbia River Fisheries Management line item is the base funding that 
supports the fishery program efforts of CRITFC and the four member 
tribes. Unlike State fish and game agencies, the tribes do not have 
access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux funding. 
Three million, six hundred thousand dollars of the increase will be 
directed to support the core functions of the fisheries management 
programs of the Commission's member tribes.
    In 2008, CRITFC and its member tribes successfully concluded 
lengthy negotiations resulting in three landmark agreements: (1) a 
Columbia Basin Fish Accords with Federal action agencies overseeing the 
Federal hydro system in the Columbia Basin; (2) a Ten-Year Fisheries 
Management Plan with Federal, tribal, and State parties under United 
States v. Oregon; and (3) a new Chinook Chapter of the Pacific Salmon 
Treaty. These agreements establish regional and international 
commitments on harvest and fish production efforts, commitments to 
critical investments in habitat restoration, and resolving contentious 
issues by seeking balance of the many demands within the Columbia River 
basin. While the Accords commit substantial Federal resources to on-
the-ground actions, the responsibilities of the tribal programs to 
fully implement the trio of agreements has grown significantly, but 
without commensurate increases in base funding capacity.
    The funding provided through the BIA to support tribal fishery 
programs is crucial to the tribes' and CRITFC's ability to successfully 
carry out these agreements by providing sound technical, scientific, 
and policy products to diverse public and private forums. Lost buying 
power through rising costs, inflation, and lack of pay-cost adjustments 
to tribal funding has further challenged us to deliver these essential 
services.
    Compounding the challenges in successfully implementing these 
agreements are the impacts that climate change will have on the 
interior Columbia Basin and the tribe's treaty resources. The 
University of Washington Climate Impact Group predicts new challenges 
to salmon management due primarily to thermal effects and runoff timing 
changes. The CRITFC is being asked to develop mitigation and adaptation 
strategies on behalf of our member tribes. CRITFC and its member tribes 
currently have insufficient funds to do the technical work and allow 
policy-level participation in the co-management arena.
    Public safety continues to be a high priority for CRITFC and the 
four tribes. Unfortunately, in 2008 three tribal fishermen were lost 
while exercising their treaty fishing rights. CRITFC conservation 
officers were the cornerstone of the search and rescue, and 
subsequently recovery, efforts. In the popular and heavily used 
Columbia Gorge they provide the most continuous on-river presence for 
both the tribal and nontribal community who depend on the river for 
commercial, cultural, and recreational opportunities.
    The Columbia River in lieu and treaty fishing access sites were 
authorized by Congress to fulfill the promises beginning in 1939 when 
the U.S. Government built the first of four Federal dams that flooded 
traditional fishing sites and villages on the lower Columbia River. 
After nearly 70 years, 29 sites are in place with one and perhaps two 
more sites remaining to fulfill the Government's pledge. Eighteen of 
the sites are along the Washington shores of the Columbia River between 
Bonneville and McNary Dams. Tribal fishers from the four tribes use the 
sites to support their harvest for ceremonial, subsistence and 
commercial purposes. The sites vary with improvements including boat 
launches, fish drying sheds, fish cleaning stations, and camping 
facilities. The funding will assure that there will be sufficient 
support for operation and maintenance of the sites through 2045.
    United States/Canada Pacific Salmon Treaty Under the Other 
Recurring Programs, Wildlife and Parks, Rights Protection 
Implementation.--For tribal participants in the Pacific Salmon Treaty, 
the U.S. section has identified a program need of $4,800,000 through 
the BIA.
    The United States and Canada entered into the Pacific Salmon Treaty 
in 1985 to conserve and rebuild salmon stocks, provide for optimum 
production, and control salmon interceptions. The treaty established 
the Pacific Salmon Commission (PSC) as a forum to collaborate on 
intermingled salmon stocks. The U.S. section of the PSC annually 
develops a coordinated budget for tribal, State, and Federal programs 
to ensure cost and program efficiencies. Congress increased funding in 
2000 in order to implement the 1999 agreement, but funding has 
significantly eroded since then, As of December 2008, the United States 
and Canada have adopted a new long-term Treaty agreement after nearly 3 
years of negotiations. Both parties agreed to significant new 
management research and monitoring activities to ensure the 
conservation and rebuilding of the shared salmon resource
    The $4,800,000 provides for direct tribal participation with the 
Commission, panels, and technical committees. The funding enables the 
tribes to assist in Treaty implementation and facilitates management 
coordination to protect trust resources. This funding maintains tribal 
resource assessment and research programs structured to fulfill 
required Treaty implementation activities. Reductions of $1,772,000 in 
the fiscal year 2009 BIA base funding for Pacific Salmon Treaty 
implementation is causing the tribes to limit participation in the 
Pacific Salmon Treaty processes. We are currently seeking to restore 
this capacity through reprogramming existing BIA funds in a manner 
consistent with policy and law. The fiscal year 2010 recommended level 
for this program is an increase of $686,000 more than the fiscal year 
2008 enacted level and includes pay cost adjustments and brings the 
program back in line with previous levels of participation.
    Pacific Salmon Treaty obligations add significantly to the tribes' 
administrative management, and research responsibilities. To 
effectively implement the treaty, tribal representatives must meet 
frequently to review technical information and develop informed policy 
input for use by the tribes' Pacific Salmon Commission representatives. 
These treaty-mandated responsibilities result in additional expenses 
for the tribes. Because each of the 25 tribes covered by this funding 
source is a separate government and manages its own fisheries, these 
obligations require direct tribal involvement.
    The tribal management programs provide needed and beneficial and 
technical support to the U.S. section. The Pacific Salmon Commission 
relies heavily on the various technical committees established by the 
Treaty. The work of these committees is integral to the task of 
implementing fishing regimes consistent with the Treaty and the goals 
of the Parties. Numerous tribal staff appointed to these committees and 
all of the tribal programs generate data and research to support their 
efforts. For example, indicator stock tagging and escapement monitoring 
provides key information for estimating the parties' annual harvest 
rates on individual stocks, evaluating impacts of management regimes 
established under the Treaty, and monitoring progress toward the 
Chinook rebuilding program started in 1984. Select Chinook stocks from 
major regions have been selected as ``indicator'' stocks to represent 
all stocks that are the focus of the rebuilding program. Tribal 
hatchery facilities are the source of several of these indicator stocks 
and this funding provides support for this work.
    In summary, through combined efforts of the four tribes supported 
by a staff of experts, we are proven natural resource managers. Our 
activities benefit the region while also essential to the U.S. 
obligation under treaties, Federal trust responsibility, Federal 
statutes, and court orders. We ask for your continued support of our 
efforts. We are prepared to provide additional information you may 
require on the Department of the Interior's BIA budget.
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission

    The Chugach Regional Resources Commission (CRRC) requests that the 
subcommittee restore $350,000 in recurring base funding in the Bureau 
of Indian Affairs (BIA) Trust-Natural Resources budget. CRRC also seeks 
an additional $150,000 to support the Alutiiq Pride Shellfish Hatchery.
    CRRC is an Alaska Native nonprofit organization created by the 
seven Villages of the Chugach Region (Tatitlek Village IRA Council, 
Chenega IRA Council, Port Graham Village Council, Nanwalek IRA Council, 
Native Village of Eyak, Qutekcak Native Tribe, and Valdez Native Tribe) 
to address environmental and natural resource issues and to develop 
culturally sensitive economic projects within our communities that 
support the sustainable development of Alaska's natural resources. The 
mission of CRRC is to work with our seven-member villages to promote 
and develop sound economic resource-based projects and to work 
collectively to address any natural resource- and environment-related 
issues that affect the Native people of the Chugach Region.
    The CRRC has received contractually obligated funding for its base 
operations through a self-determination contract with the Department of 
the Interior (DOI) since 1993. However, beginning in fiscal year 2003, 
the BIA has repeatedly withheld or cut funding to CRRC, despite its 
contractual obligations. The program was restored each year with the 
help of Congress. However, the BIA attempted to discontinue CRRC's 
contract in fiscal year 2008, forcing CRRC to begin litigation against 
the BIA. While the BIA signed a legally binding agreement with CRRC to 
comply with its contractual obligations, we fear we will be forced to 
sue the BIA every year to obtain our legally obligated funding.
    Funding History.--CRRC receives its base funding through a self-
determination contract with Interior. The Indian Self-Determination and 
Education Assistance Act (Act), Public Law 93-638, authorizes the 
Secretary of the Interior to enter into contracts with Indian tribes 
and tribal organizations to deliver services that would otherwise have 
been delivered by the BIA. CRRC entered into its original 3-year 
contract in 1993, and that contract has been renewed by the Secretary 
every 3 years since.
    The act requires DOI to provide at least the amount the 
``appropriate Secretary would have otherwise provided for the operation 
of the programs'' supported by the contract (the so-called 
``Secretarial Amount'') plus additional contract support costs. 25 
U.S.C. Sec. 450j-1(a)(1)-(2). The act further specifies that DOI 
generally cannot reduce the contract funding amount from one year to 
the next. Despite this legal obligation to provide consistent annual 
funding to CRRC through the contract, the BIA has repeatedly tried to 
avoid its obligation by failing to request funding for CRRC in its 
budget. The BIA has done so even after it signed a legally binding 
agreement with the CRRC to restore it's funding under the contract. If 
the BIA does not request this funding, it must take the funds from its 
other programs to fulfill its legally obligated duty to the CRRC, which 
would take money from other BIA programs. We ask Congress to restore 
this funding to assist the BIA in meeting its legal obligation without 
negatively impacting other BIA programs.
    CRRC received funding as part of the BIA's base budget from fiscal 
year 1994 through fiscal year 2002. Beginning in fiscal year 2003, CRRC 
was not included in the BIA budget (despite its contractual 
obligations), but the program was restored each year with the help of 
Congress.
    In fiscal year 2007, Congress again provided $300,000 for CRRC, but 
the BIA seized on the absence of associated earmark language to 
redirect CRRC's funding elsewhere in its budget.
    In fiscal year 2008, the BIA not only sought to withhold all 
funding, but in fact tried to terminate CRRC's contract. This is 
illegal under the Self-Determination Act. CRRC filed suit to obtain an 
agreement with the BIA that it will supply CRRC's legally-obligated 
funding for fiscal year 2007 and fiscal year 2008. The BIA resolved 
this lawsuit and agreed it would continue to provide funding to CRRC. 
We ask Congress to add an additional $500,000 to the Natural Resource 
Programs to ensure that other programs do not suffer because of the 
BIA's obligation to CRRC.
    Community Projects.--Over the past 16 years, CRRC funding has 
supported the development and operation of many programs that have not 
only assisted our communities in providing meaningful employment 
opportunities, but also providing valuable services and products to the 
State of Alaska, including:
  --Alutiiq Pride Shellfish Hatchery.--CRRC operates the only shellfish 
        hatchery in the State of Alaska, the Alutiiq Pride Shellfish 
        Hatchery. The 20,000 sq. ft. shellfish hatchery, located in 
        Seward, Alaska, houses shellfish seed, brood stock, and algae 
        production facilities and employs three individuals. Alutiiq 
        Pride is undertaking hatchery, nursery, and grow-out operations 
        research to adapt mariculture techniques for the Alaskan 
        shellfish industry. The hatchery has also been successful in 
        culturing geoduck and razor clam species, and is working to 
        develop techniques to raise sea cucumbers.
  --King Crab Research.--Recently, CRRC staff have begun conducting 
        scientific research on blue king crab and red king crab. This 
        research is part of a larger federally sponsored program, and 
        Alutiiq has led the way in culturing blue and red king crab as 
        part of the Alaska King Crab Rehabilitation Biology Project. 
        Because Alutiiq Pride is the only shellfish hatchery in the 
        State, CRRC is the only organization in Alaska that can carry 
        out this research.
  --Natural Resource Curriculum Development.--Partnering with the 
        University of Alaska, Fairbanks, and the National Oceanic and 
        Atmospheric Administration, CRRC is developing and implementing 
        a model curriculum in natural resource management for Alaska 
        Native students, integrating traditional knowledge and Western 
        science. The goal of the program is to encourage more Native 
        students to pursue careers in the sciences. So far, there are 
        15 students enrolled in the program who have earned a total of 
        nine university credits each that can be applied toward a 
        certificate in natural resource management.
  --Alaska Migratory Bird Co-management Council.--CRRC is a member of 
        the Council responsible for setting regulations governing the 
        spring harvest of migratory birds for Alaska Natives.
    Hatchery Operations Funding.--CRRC also seeks annual funding of 
$150,000 for hatchery operating expenses and research and development 
funding to develop new shellfish species until we are self-sustaining. 
Once the hatchery is self-sustaining, CRRC plans to expand its 
production so that it can support some of CRRC's base operating costs. 
Alutiiq Pride has been successful in culturing geoduck and razor clam 
species but additional research and development funding is needed to 
assist in the nursery, growth and marketing stages. In 2007, Alutiiq 
Pride produced 4 million oyster seed. Production increased to 8 million 
oyster seed the following year. Revenue from such sales, however, is 
quite modest ($35,000). By comparison, the geoduck shellfish farming 
industry is expected to grow rapidly and will produce more revenue. If 
Alutiiq Pride can sell geoducks and razor clam seeds, the production 
potential from only 2 million seed sales can approach $400,000--a 
tenfold revenue increase.
    The shellfish industry in Alaska has not yet grown to the point 
where seed sales cover the cost of operations. Oyster sales have 
matured and geoduck seed sales will coincide with the expected growth 
of that industry. Until the hatchery is self-sufficient, expected in 2-
4 years, it requires operations, research and development funds if it 
is to meet the State's growing demand for shellfish seed.
    Budget.--CRRC's base operating funding supports the continued 
operation of these community projects. The total operating budget for 
CRRC, Alutiiq Pride, and all of our community projects is close to $2 
million. Specific projects receive independent funding from sources 
such as the Administration for Native Americans, Environmental 
Protection Agency, NOAA, and the FWS. However, base operating funding 
is essential to continue work on these projects. CRRC has been 
immensely successful building several community programs and 
partnerships by building on this base budget.
    Our base budget is as follows:

------------------------------------------------------------------------
                                                          Projected cost
------------------------------------------------------------------------
Chugach Region Shellfish Mariculture Development........         $75,000
    Oyster grow-out operations in Tatitlek
    Oyster marketing
Nanwalek Sockeye Salmon Development Project.............          20,000
    Seek funds for disease-free water engineering study
    Operate smolt out-migration weir
Port Graham Pink Salmon Hatchery........................          75,000
    Broodstock development
    Sockeye and pink salmon fry production
    Training and education for hatchery crew
Program Development/Regional Office Operations..........         180,000
    One staff person/supplies/quarterly board meetings
    Biological Professional Assistance
    Project Development and Planning
    GIS Mapping
    Resource Evaluation and Management
                                                         ---------------
      Total direct costs................................         350,000
Indirect cost (27.7 percent)............................          96,950
                                                         ---------------
      Total projected base budget.......................         446,950

Alutiiq Pride Shellfish Hatchery Operations.............         150,000
                                                         ---------------
      Total.............................................         596,950
------------------------------------------------------------------------

    We humbly request $500,000.
                                 ______
                                 
    Prepared Statement of the Confederated Tribes of Siletz Indians
    My name is Delores Pigsley. I am the Tribal Council Chairman for 
the Confederated Tribes of Siletz Indians. The Siletz Tribe is an 
active participant in the National Congress of American Indians (NCAI) 
and we fully support the NCAI's fiscal year 2010 budget request. My 
remarks highlight specific budget areas critical to our tribe's goal to 
move from surviving and toward thriving as a tribal nation. To help you 
understand this, I need to impart some history.
    There was a time when our tribal ancestors knew only a life of 
interconnectedness. They understood the cycle of life, they moved with 
the seasons. Tribal values were embodied in ceremonies, songs, and 
culture. Our people lived healthy, balanced lives. With the coming of 
explorers and settlers this changed. Most of you are familiar with the 
failed Federal policies of broken treaties, removal, assimilation, and 
termination.
    Tribes suffered great losses during these times--of people, land, 
language, culture, religion, family structure, and self-governance--our 
entire way of life. Tribal life was disrupted by so many traumas. 
People often responded with unhealthy coping mechanisms: self-
medicating with alcohol and drugs, denial, depression, helplessness, or 
violence. Over time these responses created intergenerational trauma in 
tribal families. That trauma shows up today in rates for unemployment, 
alcoholism, domestic violence, mental illness, infant mortality, 
diabetes, heart disease, foster care, poverty, and other socioeconomic 
risk factors that are higher than those found in other minority 
populations and the general American population. For the Siletz Tribe, 
the termination of our status as a federally recognized tribe in 1955 
further amplified these impacts. For 22 years, we had no land base, no 
government. We were not even officially allowed to call ourselves 
``Indian.'' Against the odds, we retained our ties to one another and 
to our original reservation and ancestral lands, and we fought hard to 
reverse termination.
    We won restoration of our status as a federally recognized tribe in 
1977 and we have been working diligently ever since then to build an 
effective tribal government and administration with programs that 
respond to our people's many needs. I relate this history to you to 
show you the enormity of the challenges facing tribes. We have 250 
years of historic and recent trauma to overcome. The path to a 
``thriving'' tribe will be guided by those cultural values that 
protected us and allowed the tribe to survive through every challenge.
    Supporting Tribal Governments.--Today, as a self-governance tribe, 
under the authority of the Indian Self-Determination and Education 
Assistance Act (ISDEAA), the Siletz Tribe compacts with the Federal 
Government to administer trust programs to benefit our members. 
However, Interior has never fully funded the contract support cost 
(CSC) needed for personnel administration, financial management, and 
procurement related to implementing programs. Instead, we cope with CSC 
shortfalls by reducing direct service spending, using limited tribal 
dollars, or sometimes we must forego compacting a program. It is 
essential that the Bureau of indian Affairs (BIA) and Indian Health 
Services (IHS) fully fund these costs for tribes to administer quality 
services to tribal members.
    Indian Child Welfare.--Historically, child welfare and human 
services programs have been under-funded and tribal children have been 
over-represented in the child dependency systems. The Siletz Tribe's 
Indian Child Welfare (ICW) program is piecemeal funded, using seven 
Federal and State funding streams, which means increased administrative 
costs with different reporting requirements for each funding agency. 
The ICW director and one case manager share 45 cases, while the State 
of Oregon's standard is 16 cases per worker. Our ICW staff is in travel 
status nearly every week to conduct home visits, appear in court, and 
attend family decision meetings throughout Oregon, with additional 
cases in California, Washington, and Idaho. We need at least one more 
caseworker now, just to keep pace with the current caseload. The tribe 
supports increasing ICW funding by $45 million so tribes can provide 
adequate services to ensure safe and positive outcomes for our 
children.
    DHHS Behavioral Health Services.--Native youth and adult rates for 
alcohol and substance abuse and mental illness are higher than the 
national average. Yet DHHS's Behavioral Health Services has not funded 
the Substance Abuse and Mental Health Services Administration (SAMHSA) 
grant programs that cover alcohol and substance abuse prevention and 
treatment and for mental health and treatment of mental illness. Tribal 
clients compete with non-Indians for scarce State and county treatment 
funding. Our alcohol and drug program clients are often on treatment 
waiting lists for 4 to 6 months; on average, we have eight clients on 
the waiting list at any given time. Like many States, Oregon is cutting 
treatment services. Our tribe has one mental health worker to provide 
services to adults and youth and he doubles as the tribe's youth 
correctional liaison. The Siletz Tribe asks Congress to appropriate $15 
million for SAMHSA Behavioral Health Services grants.
    Juvenile Justice.--The tribe receives no on-going funds for youth 
crime prevention or diversion services. Tribal youth must compete with 
nontribal youth for access to State and county prevention programs. Due 
to a $3.3 billion shortfall for the 2009-2011 budget, Oregon is cutting 
back on open and closed custody detention beds. While the tribe's 
preference is for prevention and treatment, we know that sometimes 
detention is the only option. That being the case, we see the need for 
culturally relevant regional tribal facilities. The Siletz Tribe 
supports increasing the DOJ's Tribal Youth Program to $36,000,000 with 
a 10 percent tribal set-aside and separate construction funds for 
regional tribal juvenile facilities.
    Public Safety.--Tribal law enforcement is terribly under-funded, 
even though reservations experience high rates of violent crime. 
Underfunding is worsened by the disparities in law enforcement funding 
between non-Public Law 280 tribes and Public Law 280 tribes like 
Siletz. The UCLA School of Law's National Native Law and Policy Center 
has found that while Public Law 280 tribes constitute 8.2 percent of 
the reservation-based Indian population, they received only 1.6 percent 
of BIA law enforcement funds. This translated as $101.13 per capita for 
non-Public Law 280 tribes and $19.40 for tribes whose lands were wholly 
within a Public Law 280 State. State police services do not make up the 
difference. The report concluded that Public Law 280 jurisdictions do 
not receive sufficient support to operate their own police systems, 
even though reservation residents report they are more satisfied with 
services from tribal agencies.
    This report validates the Siletz Tribe's experience. For a number 
of years the tribe operated our own police department, using COPs 
grant, Indian Housing Development Block Grant, and BIA Self-governance 
funding. However, time-limited COPs funds ended and remaining funds 
were insufficient to cover operations. In 2006 the tribe began 
contracting with a nearby city police department to provide 120 hours 
of coverage a week. While community members have expressed gratitude 
for even this limited contract law enforcement presence, we would 
prefer to have our own full-time tribal police department. The tribe 
supports a 10 percent increase in BIA tribal law enforcement funding, 
with continued increases until tribal programs are fully supported and 
can offer decent public safety for all tribal people.
    Endangered Species.--Siletz tribal lands currently support habitat 
for three species listed as threatened under the Endangered Species 
Act: marbled murrelet, northern spotted owl, and Oregon Coast coho 
salmon. Before any ground disturbing activities can occur on Tribal 
trust land, the tribe must conduct and evaluate surveys for each of 
these species. We must then consult with either U.S. Fish and Wildlife 
Service for the murrelet and owl or National Marine Fisheries Service 
for the coho--and both agencies require extensive information prior to 
consultation and ongoing monitoring. The tribe does not receive any 
money from the Federal wildlife agencies or the BIA to carry out these 
tasks. Yet we are not allowed to harvest timber, build houses or 
conduct any other major ground disturbing activities on tribal trust 
lands without performing those functions. This unfunded mandate 
directly impacts our ability to govern our own affairs. The total 
annual cost to employ a tribal biologist to carry out the needed 
endangered species functions and to conduct other required surveys is 
$115,000. In 2002, the budget contained $3,000,000 for all of the 
required national endangered species work; funding began a steady 
decline to just $1,228,000 in 2008. The Siletz Tribe recommends a 
return to 2002 level of $3,000,000.
    Natural Resources.--The tribe currently receives approximately 
$23,000 a year in BIA forest development funds. This money must be used 
for timber stand improvement activities like reforestation and pre-
commercial thinning, but it only covers about 80 acres of treatment 
annually. Unfortunately, our current backlog of pre-commercial thinning 
needs exceeds 1,000 acres. Failure to complete these projects puts 
forest health and future timber revenues in jeopardy due to 
overcrowding, insect attack vulnerability, and fire hazard. This has a 
direct impact on Tribal self-sufficiency, because the Siletz Tribe, 
like other Northwest tribes, relies heavily on our timber revenue. 
Despite attempts to include funding for these types of projects in the 
economic stimulus packages, no additional money has been allocated to 
the BIA or to tribes to address the backlog. The Siletz Tribe needs at 
least $250,000 to erase our current pre-commercial thinning backlog. 
Nationally, tribal management/development should be funded at 
$50,000,000 to support tribes in managing our resource 
responsibilities.
    Education.--The Siletz Tribe does everything we can to support 
lifelong learning. Beginning with our smallest members, the Siletz 
Tribe operates four Head Start Classrooms located in cities with major 
tribal populations--one near the reservation and the others located 100 
to 150 miles from the reservation where significant numbers of tribal 
families live. Head Start funding has declined every year for 14 years 
and the tribe has subsidized increasing administration costs each of 
those years, budgeting $90,000 in tribal funds for 2009. Our program 
has a waiting list every year. We recommend that you appropriate 
$10,000,000 for Head Start. As for our older children, we note that a 
2007 National Indian Education study found that fourth and eighth grade 
Native students scored significantly lower than their peers for reading 
and math. Yet Johnson-O'Malley (JOM) funding has been frozen at 1995 
levels, which translates to $83,000 a year for the Siletz Tribe. This 
does not cover staff time and services for our tribal children who are 
located throughout an 11-county service area; the funds are used to 
offer limited tutoring services. The tribe recommends that JOM be 
funded at $24.3 million to address student needs. The tribe received 
$175,000 in BIA funding for Higher Education for 2009 and supplemented 
this with $600,000 of tribal revenues, yet these resources do not meet 
the estimated need of $925,000. We strongly recommend $32,000,000 for 
title III funding under the Higher Education Act.
    Housing.--The tribe receives funding through an Indian Housing 
Block Grant from HUD. Over the past 20 years, those funds have provided 
for construction of 52 low rent and 83 home ownership units on 
reservation land. Because many of our members reside off the 
reservation, we also provide a housing voucher program for 80 tribal 
families. Despite these accomplishments, we have 100 families on our 
low rent waiting list, 82 on the voucher list, and 31 on the home 
ownership list. The IHBG program addresses an essential need for tribal 
families. We urge continued funding of $854,000,000 for this critically 
needed program.
    Health Services.--The Siletz Tribe manages our health programs 
under a Public Law 93-638 Compact with DHHS. Our Contract Health 
Services program struggles every week to determine the appropriate 
level of care given the lack of resources to cover medically necessary 
requests. Implementation of Medicare-Like Rates in 2007 gave us more 
ability to cover priority-level care, but expansion of MLR to 
outpatient services would benefit our CHS program even more. The Siletz 
Tribe has committed more than $4 million of its own resources to a new 
health facility. Adequate staffing and equipment dollars in the amount 
of $3 million would enable the expansion of health services and 
alleviate the reductions that were necessary due to inadequate 
inflationary adjustments to our recurring budgets. IHS sustained $711 
million in lost purchasing power during the past administration. The 
Siletz Tribe recommends that Congress provide at least $469,781 to fund 
mandatory costs associated with maintaining current services, and that 
it restore the appropriation by providing adequate increases over the 
next 2 fiscal years. We also recommend that you exempt the IHS budget 
from ``across the board'' cuts. Finally, it is imperative to preserve 
the basic health program funded in fiscal year 2010 by providing an 
increase of at least $470 million to the IHS budget. This 
recommendation is based on true inflationary rates developed using the 
CPI's medical components. Anything less than $470 million will leave 
IHS and tribal programs with no alternative but to cut health services 
to Indian people. There simply is no other way for tribes to absorb 
these mandatory costs.
    In closing, I urge the subcommittee to give thoughtful review to 
the NCAI Indian country fiscal year 2010 budget request, which would 
provide tribes the resources needed to rebuild our tribal communities. 
Thank you for your time; I would be happy to answer any questions.
                                 ______
                                 
   Prepared Statement of the Confederated Tribes of the Warm Springs 
                         Reservation of Oregon

                                SUMMARY

    Madam Chairman, I am Ron Suppah, Chairman of the Confederated 
Tribes of the Warm Springs Reservation of Oregon. I hereby present the 
following requests for the fiscal year 2010 Bureau of Indian Affairs 
(BIA) and Indian Health Services (IHS) appropriations:
  --In BIA forestry, significantly increase the BIA basic Tribal 
        Priority Allocations (TPA) forestry budget.
  --In BIA forestry projects, restore the $1 million cut to the Timber 
        Harvest Initiative (THI) and add $5 million for forest 
        development.
  --In BIA, provide $5 million for endangered species funding, 
        including $2.3 million for Northern Spotted Owl and marbled 
        murrelet surveys.
  --In BIA law enforcement, provide $750,000 for Warm Springs more than 
        fiscal year 2008 amounts.
  --In BIA, fund Johnson O'Malley (JOM) at $25 million, Housing 
        Improvement Program (HIP) at $20 million, and welfare 
        assistance at $80 million.
  --In IHS, increase contract healthcare funding by $110 million.
  --In IHS, require that contract support cost (CSC) appropriations for 
        new contracts be used for those purposes, and increase CSCs by 
        $143.3 million.
  --In BIA forestry, significantly increase the BIA basic TPA forestry 
        budget.
    Madam Chairman, members of the subcommittee, BIA's basic TPA 
forestry budget has steadily and seriously eroded. The administration's 
BIA forestry requests over the past many years have failed to even keep 
pace with inflation, so that today, this key trust program, which has a 
long history of insufficient funding, is only falling further and 
further behind.
    In 2003, a blue ribbon independent review of Indian forests and 
forestry, the 2003 Report of the Indian Forest Management Assessment 
Team (IFMAT report), found that Indian forestry per-acre funding is 
only one-third of that provided for the U.S. Forest Service's (USFS) 
National Forest System (NFS). That represents no improvement over the 
first IFMAT report, mandated by statute, issued in 1993, and presented 
to Congress, which found the same level of disparity.
    Over the past 5 years, inflation has increased 14.1 percent. Over 
the same period, funding for BIA TPA forestry, which is supposed to 
fund basic on-going timber harvest and forest administration, has only 
increased 3.8 percent. BIA personnel continue to receive cost of living 
increases, but those mandatory costs are not fully funded and eat up 
more and more of the forestry program.
    At Warm Springs, where the BIA directly administers our forest, 
that has real and increasingly serious consequences. Eleven of the 
BIA's 27 full-time forestry positions for Warm Springs are now, 
essentially, permanently unfunded and, if the BIA forestry budget 
continues on its now well-established trend of significantly lagging 
mandatory cost increases, that will only grow worse. Fewer people are 
being required to do more and more, and as they get spread thin, the 
BIA's ability to sufficiently manage our forest has been declining. The 
BIA's hands are full just trying to administer our forest on a day-to-
day basis, and there is no time or personnel to engage in the longer-
term planning that forests, particularly commercial forests, require.
    The 2003 IFMAT 2 report identified an annual $120 million increase 
as necessary to bring Indian forestry to parity with comparable USFS 
activity. That is a large number. But I urge the subcommittee to review 
the report and evaluate the differences between BIA forestry funding 
and that for the NFS, and, working with the tribes and the BIA, fashion 
a plan to correct the glaring and insupportable deficiency in BIA 
forestry funding.
  --In BIA forestry projects, restore $1 million cut to the THI and add 
        $5 million for forest development.
    In fiscal year 2008 and fiscal year 2009, the administration cut $1 
million from the BIA's $1.8 million THI Program, and the funds have not 
been restored. The THI, carried in BIA forestry projects, in intended 
as flexible funding to supplement timber harvest budgets and manpower 
at tribal locations with harvest backlogs to provide a needed short-
term boost to eliminate the backlog and bring the reservation's forest 
back into compliance with its management plan. But with the BIA regular 
forestry budget lagging ever further behind, it is likely more forested 
reservations will be unable to process their harvest and will try to 
turn to the THI to try to make up some of the difference. Even if basic 
BIA TPA forestry funding receives the substantial increase it requires, 
the THI will still be needed at its previous full funding of $1.8 
million to address backlogs and expedite sales, particularly when the 
timber market recovers.
    Also in forestry projects, we agree with the Intertribal Timber 
Council that the forest development budget be increased by $5 million 
to initiate a program to eliminate the million acre national forest 
development backlog. The increase, along with the $1 million requested 
for the THI, will begin the needed restoration of the forestry projects 
line item, which has fallen from $17.8 million in fiscal year 2004 to 
$17.6 million in fiscal year 2009, while inflation has increased by 
14.1 percent.
    The Forest Development Program is a national program to thin and 
replant the 1 million acre backlog of Indian trust commercial timber 
land in need of these activities. At Warm Springs, BIA has not been 
able to reduce our forest development backlog of 60,000 acres due to 
flat funding over the past 8 years. These functions are essential if 
our timber stands are to be productive and healthy in the future. 
Moreover, thinning is particularly needed if we are to avoid 
catastrophic wildfire. Much of the Warm Springs' 440,000 acre forest, 
including our 250,000-acre commercial forest, is overcrowded, loaded 
with fuels and dead and dying trees. Current forest development 
funding, in combination with BIA fuels reduction funds, falls woefully 
short of being able to significantly reduce the wildland fire threat 
that could devastate our principal economic resource. Finally, the 
woody biomass produced by thinning operations will help provide fuel to 
the 20 megawatt biomass electric generation facility we are developing 
at our sawmill. So, for the current health of our forest and to foster 
its future productivity, to help avoid a devastating wildfire and 
contribute toward fulfilling the Federal trust responsibility, and even 
to contribute to our local generation of renewable electricity, we urge 
the addition of $5 million to the forest development budget starting in 
fiscal year 2009.
  --In BIA, provide $5 million for endangered species funding, 
        including $2.3 million for Northern Spotted Owl and marbled 
        murrelet surveys.
    The Endangered Species budget item is the only BIA funding for 
tribal Endangered Species Act (ESA) compliance for the Northern Spotted 
Owl and marbled murrelet in tribal forests. Funding for this mandate 
was initiated in fiscal year 1993 by this subcommittee. Fourteen years 
ago in fiscal year 1995, Congress provided $1.83 million for tribes 
affected by the Northern Spotted Owl and the marbled murrelet. In 
fiscal year 2002, Congress provided a total of $3 million for the BIA's 
national Endangered Species program. Since then, the administration has 
succeeded in driving the appropriation down to the point that, in 
fiscal year 2007, there was zero funding directed to reservation-level 
ESA work anywhere in the United States.
    For fiscal year 2008 and fiscal year 2009, Warm Springs deeply 
appreciates the work of this subcommittee to restore $1 million for the 
BIA's ESA program. We understand the BIA distributes that funding to 
more than 31 locations nationwide, of which Warm Springs received 
$45,000. Regretfully, that amount can only address a fraction of our 
ESA needs, and is less than one-half of what we were receiving for the 
Northern Spotted Owl back more than 12 years ago, without factoring in 
inflationary adjustments.
    For fiscal year 2010, we do not know what the administration may be 
requesting for BIA endangered species mandates on Indian land, but Warm 
Springs requests that the subcommittee provide at least $5 million for 
the BIA Endangered Species budget nationwide, and that at least $2.3 
million of that be designated for Northern Spotted Owl and marbled 
murrelet surveys on affected reservations. These species are still 
listed and ESA compliance is required for our forest management and our 
timber harvest. I must also note that our reservation is affected by 
listed spring Chinook and summer steelhead. Currently on our 
reservation, these are pure unfunded mandates, and compliance either 
goes lacking or other desperately needed services for our community 
must be reduced. To correct this on a nationwide basis, we roughly 
estimate that Indian country easily needs a total of $5 million in 
fiscal year 2010 for ESA activities, with $2.3 million denoted for the 
Northern Spotted Owl and the marbled murrelet.
  --In BIA law enforcement, provide $750,000 for Warm Springs more than 
        fiscal year 2008 amounts.
    Madam Chairman, the Warm Springs Tribe welcomes the $24 million and 
$25.5 million increases this subcommittee has made to BIA law 
enforcement for fiscal years 2008 and 2009, and we look forward to the 
details on the law enforcement portion of the administration's 
announced $100 million fiscal year 2010 increase for BIA law 
enforcement and education. A wide array of criminal activity is 
unfortunately rampant throughout Indian Country, and that includes Warm 
Springs, where gangs, meth labs, and marijuana farms are a large and 
persistent problem on our lightly patrolled reservation.
    Beginning in the early 1960s, BIA shifted most of its law 
enforcement support away from Warm Springs as our tribe began to assert 
more jurisdiction and authority over reservation law enforcement. But 
in more recently years, our diminishing tribal budget is sharply 
reducing our ability to meet our reservation law enforcement 
requirements. Warm Springs law enforcement needs are severe. Our tribal 
police force is overextended. We desperately need assistance from BIA. 
Unfortunately, we received little relief in fiscal year 2008's $24 
million increase, and while we would like to remain optimistic about 
more substantial participation in fiscal year 2009's omnibus increase 
and the fiscal year 2010 increase, to assure we receive the increase 
necessary to improve our basic law enforcement patrol and 
infrastructure, we ask the subcommittee to direct that, for fiscal year 
2010, Warm Springs BIA law enforcement be at least $750,000 more than 
that provided our tribe for fiscal year 2008. This will adjust for 
whatever further assistance we might receive for fiscal year 2009, and 
make certain that, in fiscal year 2010, the BIA will be moving toward 
adequate law enforcement service on our reservation.
  --In BIA, fund JOM at $25 million, the HIP at $20 million, and 
        welfare assistance at $80 million.
    Madam Chairman, we do not expect this administration to request the 
elimination of funding for BIA's JOM education program, HIP, and 
Welfare Assistance Program. We very much appreciate this subcommittee's 
willingness to rebuff those past year proposals and restore those 
funds. For fiscal year 2010, we urge that you fund JOM with at least 
$25 million. These are the only BIA elementary and secondary education 
funds available to the great majority of tribes, including those in the 
Northwest, and they also are the only education funds subject to tribal 
direction for tribal students in local public schools. The $25 million 
will make up for the past administration's reluctance to fund JOM and 
address the growth in the number of Indian school age children.
    Warm Springs also urges that the BIA HIP be funded at least at $20 
million and that Welfare Assistance be provided $80 million.
  --In IHS, increase Contract Health Services (CHS) funding by $110 
        million.
    The Warm Springs Tribe applauds the subcommittee for adding $46 
million to IHS CHS for fiscal year 2009. Unfortunately, the program is 
in such dire need that we ask in fiscal year 2010 for a further 
addition of at least $110 million, as recommended by the National 
Indian Health Board. With no IHS hospital in the Northwest, tribes in 
our region are particularly dependant on CHS funding for at least 
minimum healthcare. While we understand the new administration is to 
request a substantial increase for IHS fiscal year 2010 funding, we do 
not know any details, and so urge the subcommittee to add $110 million 
to CHS for fiscal year 2010 in any event, to assure the reduction of 
CHS healthcare rationing.
  --In IHS, require that CSC for new contracts be used for those 
        purposes, and increase CSC by $143.3 million.
    For years, IHS has declined a new 638 proposal from our tribe 
because, they say, they have no contract support funds for new 
contracts. Congress has appropriated funds for new contracts, but IHS 
cites ambiguous language to thwart our request. So, we ask two things: 
First, that IHS appropriations language be changed from ``may'' to 
``shall'' to mandate that appropriations for new or expanded CSCs 
``shall''--not ``may''--be used for new or expanded contracts. Second, 
we ask that fiscal year 2010 IHS CSC be increased by $143.3 million, as 
recommended by the National Indian Health Board, to allow ourselves and 
other tribes to fully participate in the benefits of the Public Law 93-
638.
    Thank you.
                                 ______
                                 
             Prepared Statement of the Close Up Foundation

    Mr. Chairman, my name is Timothy S. Davis, President and CEO of the 
Close Up Foundation and I submit this testimony in support our $1.4 
million appropriations request for the Close Up Insular Areas Program 
that is funded through a grant from the Department of the Interior, 
Office of Insular Affairs Technical Assistance account.
    Close Up Foundation is a nonprofit, nonpartisan educational 
organization dedicated to the idea that, within a democracy, informed, 
active citizens are essential to a responsive Government. Close Up 
works to include students from underserved communities to motivate them 
to become active citizens through experiential learning activities.
    The Close Up Insular Areas Program allows students and educators 
from American Samoa, the Commonwealth of the Northern Mariana Islands, 
Guam, the Federated States of Micronesia, the Republic of the Marshall 
Islands, the Republic of Palau, and the United States Virgin Islands to 
participate on Close Up's Washington civic education programs. 
Additionally, the program provides for Close Up staff to work with 
these communities in funding local civic education programs, providing 
educational materials, conducting workshops and attending educational 
conferences on the Islands.
    For more than two decades, the Close Up Foundation has worked with 
the Department of the Interior, Office of Insular Affairs to address 
the civic education needs of insular area communities. Close Up is 
proud of the work that has been accomplished in the Pacific and the 
U.S. Virgin Islands where the name ``Close Up'' is synonymous with 
civic education and government studies.
    The goals of the Close Up's Insular Areas Program for students and 
teachers are to:
  --demonstrate how the United States' model of democracy functions and 
        to foster the interest, knowledge, and skills needed to 
        effectively participate in a democracy;
  --address the academic needs of the insular areas and to provide 
        training and materials to improve teacher civic education 
        skills; and
  --increase mutual understanding between the United States' diverse 
        citizenry with a special emphasis on public policy concerns and 
        culture.
    The principal components of the Close Up Insular Areas Program are:
  --participation of students from the islands under the jurisdiction 
        of the Department of the Interior, Office of Insular Affairs in 
        Close Up Washington High School Programs;
  --participation of teachers from these jurisdictions in a parallel 
        Close Up Washington Program for Educators;
  --participation of students and teachers in local-based civic 
        education programs; and,
  --participation of students in a Close Up Student Civic Education 
        Forum at the annual Pacific Resources for Education and 
        Learning's Pacific Education Conference to be held this year in 
        July in Guam.
    The program has had a significant effect on the education and world 
experience of its thousands of participants and has had a significant 
multiplier effect on the islands' education systems and populaces. 
These areas suffer from geographic isolation and a depressed economy. 
Close Up's civic education programs, in Washington and in the Island 
communities, have helped thousands gain knowledge of governmental 
processes and become active in improving the lives of their families 
and their communities.
    Recent Close Up surveys indicate that among Close Up Insular Areas 
Washington Program student participants there was a 19 percent increase 
in those who stated that they understood their islands' relationship to 
the United States Government and a 23 percent increase in those with an 
ability to explain their islands' political status.
    Many Close Up Insular Affairs Washington Program students 
participants continue their civic involvement back home. For instance, 
the Guam Southern H.S. Close Up Club has organized numerous park clean-
ups and tree plantings and has worked with local branches of the 
Salvation Army and Habitat for Humanity.
    Each year since fiscal year 1988 Congress has appropriated funds 
for the Close Up Insular Areas Program. During those two decades Close 
Up Foundation has worked with the Department of the Interior, Office of 
Insular Affairs to bring almost 4,000 students and teachers to 
Washington as well as reaching countless thousands through our local 
efforts.
    Close Up Foundation respectfully requests an appropriation of $1.4 
million for the fiscal year 2010 Close Up Insular Areas Program. Close 
Up appreciated language inserted into the fiscal year 2009 omnibus 
report requesting an increase of $200,000 for Insular student 
educational travel. Due to this support from Congress, the Interior 
Department increased the Close Up grant from $800,000 in fiscal year 
2008 to $900,000 in fiscal year 2009. The increased funding is allowing 
Close Up to provide the opportunity to participate in this program to a 
greater number of students.
    Unfortunately, the costs of conducting this valuable program have 
skyrocketed as rising airfare, local transportation, food, and hotel 
costs raise the costs of conducting the program. In recent years, Close 
Up was able to conduct a fall Washington program that provided an 
addition and an alternative to our traditional spring Insular Areas 
programs. However, rising costs have made it impossible for Close Up to 
conduct a fall program this year within the budget of the fiscal year 
2008 grant and may render it impossible again with the fiscal year 2009 
funding. Simply put, a level funded grant results in a decrease in the 
number of students that can participate on the program.
    The requested increase will be used to offset the skyrocketing 
costs of conducting the program--especially in the areas of airfare, 
food, accommodations and local transportation--and to expand the 
program to meet the tremendous demand in the insular areas for greater 
participation levels.
    In order to combat rising travel costs Close Up is working to 
increase its reach with local programming. While local programming 
cannot replace the educational value or experience of the Washington 
program it does provide a prudent way of using limited grant funds to 
reach a greater number of students. Close Up is working with its island 
partners to increase participation in its summer Student Forum and the 
number of local ``mini-Close Up'' programs conducted by the various 
Departments of Education.
    Close Up asks that the Appropriations Committee be explicit in the 
amount of funding to be provided to the Foundation from the Office of 
Insular Affairs technical assistance account. This would add certainty 
to the process and greatly lengthen the planning and fundraising 
process for these civic education programs.
    Close Up asks the Appropriations Committee to consider placing this 
program on a forward-funded basis by doubling the grant amount for 1 
year. The lengthened Federal budget process of recent years and the 
accompanying later grant award dates has made it increasingly difficult 
for the Foundation to secure airline seats and hotel accommodations on 
a time- and cost-effective basis. Additionally, as Close Up delays in 
announcing program dates to the islands communities it makes it 
impossible for those communities to organize and raise funds--
leveraging the Federal grant--that would otherwise increase the level 
of participation of students and their teachers.
    For instance, prior to the passage of the fiscal year 2009 omnibus 
appropriations bill Close Up was operating under a partial grant of 
$333,333 from the Department of the Interior representing the prorated 
share under the Continuing Resolution of the expected full grant 
amount. To maintain its schedule, Close Up conducted Insular Areas 
programs in February and March, prior to receiving the full grant 
amount, in essence lending the funds in anticipation of a later award. 
Close Up is now conducting an additional program in June as a result of 
the $100,000 in increased funding provided in the final grant amount. 
The timing of appropriations legislation and the Department's grant 
process forces the Foundation to either move forward without the 
guarantee of a Federal grant or delay programming.
    Close Up is very proud of our long-standing involvement with the 
Insular Areas and the impact that our two decades of work has made on 
the civic life of these communities. Close Up is grateful to Congress 
for its continued support of these programs and look forward to 
continuing this program into the future.
                                 ______
                                 
         Prepared Statement of the Civil War Preservation Trust

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony. My name is James Lighthizer, 
and I am the president of the Civil War Preservation Trust (CWPT). I am 
writing to respectfully request that the Senate Appropriations 
Subcommittee for Interior, Environment, and Related Agencies fully fund 
the Civil War Battlefield Preservation Program (CWBPP), financed 
through the Land and Water Conservation Fund in the Department of the 
Interior, at its authorized amount of $10 million.
    I would like to start by providing a little information about our 
organization. CWPT is a 55,000-member nonprofit organization--the only 
national one of its kind--dedicated to preserving America's remaining 
Civil War battlefields. To date, CWPT has permanently protected more 
than 25,000 acres of hallowed ground in 19 States, most of it outside 
National Park Service (NPS) boundaries.
    I am writing to you about the small, but highly effective Federal 
land conservation program that has made much of our success possible: 
CWBPP. This matching grants program encourages cooperative partnerships 
between State and local governments and the private sector to preserve 
targeted, high-priority Civil War battlegrounds. Since it was first 
funded in fiscal year 1999, the program has been used to protect more 
than 15,300 acres of hallowed ground nationwide.
    Time is running out for our remaining Civil War battlefields. We 
estimate that even in this depressed economy, 30 acres of battlefield 
land are lost every day. If we are to save these sites so that future 
generations may visit them and learn from them, the time to act is now. 
We estimate that in the next 5 to 10 years the fate of many of these 
battlefields will be determined.

                         ORIGINS OF THE PROGRAM

    In 1990, Congress created the Civil War Sites Advisory Commission 
(CWSAC), a blue-ribbon panel composed of lawmakers, historians and 
preservationists. Its goal: determine how to protect America's 
remaining Civil War battlefields. In 1993, CWSAC released a study 
entitled ``Report on the Nation's Civil War Battlefields.'' The report 
identified the 384 most historically important Civil War battlegrounds 
and further prioritized them according to preservation status and 
historic significance. Sixteen years later, this landmark report 
remains our guide for determining which battlefields should be 
preserved.
    In addition to creating a prioritized list of battlefield 
preservation targets, CWSAC also recommended that Congress establish an 
``emergency'' $10 million-a-year Federal matching grant program for 
acquisition of battlefield land outside NPS boundaries. The intent of 
the matching grants formula was to encourage private sector and State 
and local government involvement in battlefield acquisition. CWSAC's 
proposal for an emergency Federal matching grant program was the 
genesis of the CWBPP.

               CONGRESSIONAL FUNDING AND FIRST SUCCESSES

    Five years after the ``Report on the Nation's Civil War 
Battlefields'' was released, Congress acted upon CWSAC's recommendation 
by setting aside $8 million from the Land and Water Conservation Fund 
for Civil War preservation matching grants. This first appropriation 
for the program was made available over 3 years, and required a 2 to 1 
non-Federal/Federal match. Grants were competitively awarded through 
the American Battlefield Protection Program (ABPP), an arm of NPS. 
Funding was solely for acquisition of properties outside NPS boundaries 
at battlefields identified in the 1993 report. Land could be purchased 
from willing sellers only; there was--and there remains--no eminent 
domain authority.
    Thanks to the new program, there began an unprecedented and almost-
immediate surge in Civil War battlefield preservation. The $8 million 
appropriation generated $24 million for land acquisition by encouraging 
State and private investment in battlefield land protection. The 
program inspired the Virginia and Mississippi legislatures to 
appropriate $3.4 million and $2.8 million, respectively, to meet the 
Federal match. CWPT alone contributed $4 million in private sector 
funds to meet the match.
    As a result of the non-Federal funds generated by the program, 
battlefields like Virginia's Brandy Station and Manassas received a new 
lease on life. In addition, other sites such as Prairie Grove in 
Arkansas, Champion Hill in Mississippi, and Bentonville in North 
Carolina--just to name a few--were substantially enhanced. Largely 
because of the success of those first 3 years, Congress appropriated an 
additional $11 million for the program in fiscal year 2002, this time 
with a more attractive 1 to 1 non-Federal/Federal match requirement.

                       AUTHORIZATION OF THE CWBPP

    After approval of the fiscal year 2002 appropriation, authorization 
of the CWBPP seemed the next logical step. Supporters on Capitol Hill 
felt that authorization of the program would convey to the Department 
of the Interior congressional intent regarding the program's goals and 
objectives. Further, authorization would provide funding predictability 
for the program's non-Federal partners, encouraging them to continue 
their involvement in battlefield preservation.
    The authorization bill, entitled the Civil War Battlefield 
Preservation Act of 2002, was introduced in the House and Senate in the 
summer of 2002. The bipartisan bill formally tied the program to the 
1993 CWSAC report, creating a Federal conservation program with a 
highly focused, prioritized list of acquisition targets. It also 
provided for an annual appropriation of up to $10 million per year--the 
level originally recommended by CWSAC in 1993. The Civil War 
Battlefield Preservation Act was passed with the unanimous consent of 
both the House and Senate in the fall of 2002, and was signed into law 
by President Bush on December 17, 2002 (Public Law 107-359).

          ADDITIONAL SUCCESSES AND REAUTHORIZATION LEGISLATION

    Since the program was first funded in fiscal year 1999, CWBPP 
grants have been used to protect 15,300 acres of hallowed ground in 14 
States. Among the many battlefields that have benefited from this 
program are: Antietam, Maryland; Averasboro, North Carolina; 
Chancellorsville, Virginia; Chattanooga, Tennessee; Corinth, 
Mississippi; Harpers Ferry, West Virginia; and Perryville, Kentucky.
    One of the program's most notable successes occurred in 2006, when 
the Department of the Interior awarded a $2 million grant to help save 
the Slaughter Pen Farm on the Fredericksburg Battlefield in Virginia. 
This property, soaked with the blood of 5,000 men in blue and gray, was 
nearly lost to industrial development. Five Medals of Honor were earned 
by Union soldiers for heroism on that field.
    Anticipating the expiration of the CWBPP's original authorization 
on September 30, 2008, legislation reauthorizing the program was 
introduced in June 2007. This legislation was nearly identical to the 
original authorization bill, calling again for $10 million per year for 
5 years. The bipartisan, noncontroversial reauthorization bill was 
received very favorably on Capitol Hill--the legislation was ultimately 
cosponsored by 108 Members of Congress and 33 Senators, including 8 
members of the Senate Appropriations Committee.

                     CURRENT STATUS OF THE PROGRAM

    Unfortunately, after nearly a decade of successes as a historic 
preservation tool, the CWBPP hit an unanticipated snag in the past 
year. Although the House passed the reauthorizing legislation (H.R. 
2933) before the end of the fiscal year, the Senate was unable to do so 
for reasons unrelated to the popularity of the program. As a result, 
the CWBPP temporarily expired on September 30, 2008.
    Due to the lapse in the program's authorization, and a sunset 
provision that had been included in the original authorization 
legislation, all monies unobligated when the program temporarily 
expired, a total of $5.1 million, reverted back to the Treasury 
Department. However, it is important to note that these monies were 
only technically unobligated--in fact, grant applications for that 
amount were in the pipeline when the program expired. In some cases, 
these applications were within weeks of being obligated by the Interior 
Department, and were held up because of technicalities.
    There is currently $12.5 million worth of grant applications either 
before ABPP or waiting to be submitted for consideration. Of these, 14 
applications for $3.98 million in grants will consume entirely the 
recently approved fiscal year 2009 appropriation for the program. The 
remaining $8.5 million in land deals will have to be funded in fiscal 
year 2010 or beyond.
    It is important to note that these grant applications represent 
actual land acquisition deals that are nearly all closed or under 
contract by nonprofit organizations like CWPT. These are real deals 
that would result in the preservation of more than 3,279 acres of 
hallowed ground in Arkansas, Georgia, Kentucky, Minnesota, Mississippi, 
North Carolina, Tennessee, and Virginia.
    The good news is that, earlier this year, Congress acted to 
officially reauthorize the CWBPP. The program's reauthorization was 
included in the Omnibus Public Land Management Act of 2009 (H.R. 146) 
which passed the Senate on March 19 by a vote of 77-20 and the House on 
March 25 by a vote of 285-140. It was signed into law by President 
Obama on March 30, 2009 (Public Law 111-11).

      FISCAL YEAR 2010 AND FISCAL YEAR 2011 APPROPRIATIONS REQUEST

    We respectfully ask the Senate Appropriations Subcommittee on 
Interior, Environment, and Related Agencies to fully fund the CWBPP at 
its authorized amount of $10 million. Please note that a letter signed 
by 16 Senators was delivered to both the subcommittee and full 
Committee. The Member letter requested that the program be fully funded 
at its authorized amount of $10 million in fiscal year 2010.
    However, we recognize that in these difficult economic times the 
subcommittee may not be able to fully fund the program at its 
authorized amount. Under these circumstances, we would ask the 
subcommittee to consider alternate scenarios designed to help the 
program recoup the technically unobligated but very-much-committed 
monies lost when the program temporarily expired in the fall of 2008. 
An ideal solution would be to appropriate at least $9 million for the 
CWBPP in fiscal year 2010, which represents an additional $5 million on 
top of the program's baseline $4 million average annual funding. 
However, if such an appropriation in a single fiscal year is not 
possible, we would ask the subcommittee to consider replacing the money 
over a 2-year period, in fiscal year 2010 and fiscal year 2011. Such a 
solution would result in annual appropriation of $6.5 million in each 
of the next 2 fiscal years ($2.5 million a year more than the $4 
million the program usually receives on average).
    We feel this is a sensible approach since the $5.1 million that 
reverted back to the Treasury was lost due to circumstances beyond the 
control of the nonprofit sector. Further, reauthorization of the 
program last month underscores that it was never the intent of Congress 
to allow the program to lapse and lose the $5.1 million noted 
previously. Please note that President Obama also requested funding for 
the program in his fiscal year 2010 budget for the Department of the 
Interior.

                               CONCLUSION

    There is no question that the Civil War was a defining moment in 
our country's history. For 4 long years, North and South clashed in 
hundreds of battles that reunited our Nation and sounded the death 
knell for slavery. More than 625,000 soldiers and 50,000 civilians 
perished as a result of the war.
    Preserved battlefields not only honor the memory of our Civil War 
ancestors, but all of our Nation's brave men and women in uniform. 
Further, preserved battlefields serve as outdoor classrooms to teach 
new generations of Americans about the significance of the Civil War--
and remind them that the freedoms we enjoy today often came at a 
terrific price.
    I sincerely hope this subcommittee will consider our request to at 
least fund the CWBPP at its annual average level of $4 million plus 
replace the $5 million lost last year as the result of a technicality. 
This is especially important as the Nation begins to prepare for the 
upcoming sesquicentennial commemoration of the Civil War, beginning in 
2011. The commemoration is expected to stimulate renewed interest in 
the conflict and generate unprecedented visitation to preserved Civil 
War battlegrounds. We look forward to working with this subcommittee on 
battlefield protection and other historic preservation issues. Thank 
you for the opportunity to provide testimony.
                                 ______
                                 
              Prepared Statement of Defenders of Wildlife

    Madam Chairman, Ranking Member, and members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. 
Founded in 1947, Defenders of Wildlife has more than 1 million members 
and activists across the Nation and is dedicated to the protection and 
restoration of wild animals and plants in their natural communities.
    We continue to be deeply grateful for the subcommittee's leadership 
on climate change, and we ask that you maintain your excellent 
leadership on this critically important issue. We thank the 
subcommittee for the significant increase provided to the U.S. 
Geological Survey (USGS) National Climate Change and Wildlife Science 
Center in the final fiscal year 2009 bill and ask that funding be 
increased by $10 million to $20 million for fiscal year 2010, and 
gradually raised to $50 million annually by fiscal year 2013. The new 
Center is developing well and will be a critical front in the battle to 
help wildlife adapt to climate change, supporting research needs of 
both Federal and State agencies in dealing with a threat in which we 
have no analogous experience. Defenders also very much appreciates the 
direction given to the Secretary of the Interior in the fiscal year 
2009 bill ``to initiate development of a national strategy to assist 
fish, wildlife, plants and associated ecological processes in becoming 
more resilient, adapting to, and surviving the impacts of climate 
change'' in consultation with other Federal agencies, States, tribes, 
and other stakeholders and with the assistance of a science advisory 
board. We urge the subcommittee to exert its oversight authority to 
monitor this effort, to continue the direction in the fiscal year 2010 
bill, and to provide $5 million to ensure that the Secretary has the 
resources to effectively work with other agencies and stakeholders to 
achieve this critically important mission. Finally, while we still 
await the details of the President's budget, we were very pleased that 
funding for adaptation of fish, wildlife, and habitats to climate 
change was among the priorities for the Department of the Interior, and 
we support the requested $130 million increase.
    Defenders thanks the subcommittee for its efforts to restore the 
operational capacities of the natural resource management and science 
agencies that were decimated for a number of years and to fully fund 
fixed costs which typically increase by 3-5 percent yearly, and we urge 
you to continue this progress. Robust operational accounts for the 
agencies will become increasingly important as our Nation fights to 
protect wildlife from the ravages of climate change. Our primary 
concerns are with the programs of the U.S. Fish and Wildlife Service 
(FWS), our Nation's premier agency for the conservation of wildlife and 
habitat, and wildlife-related programs in the other natural resource 
management and science agencies as detailed below. We know that the 
subcommittee must operate within the constraints of its 302(b) 
allocation, but we ask you to do as much as possible.
    We urge the subcommittee to continue to rebuild the FWS which has 
suffered substantial losses in both staffing, an 8 percent reduction 
from 2004-2007, and capability to carry out important projects. We are 
particularly concerned about the loss of biological capacity and 
research grade scientists in the FWS. We urge the subcommittee to 
provide the following increases:
  --To address the needs of our Nation's most vulnerable plants and 
        animals, a total of $217 million for the endangered species 
        operating accounts, an increase of $59 million more than fiscal 
        year 2009, allocated as follows: $15 million for candidate 
        conservation, an increase of $4.3 million; $32 million for 
        listing, an increase of $12.7 million; $95 million for 
        recovery, an increase of $20.4 million; and $75 million for 
        consultation, an increase of $21.5 million. These amounts will 
        help FWS to make progress on listing the 252 candidates 
        awaiting protection under the Endangered Species Act (ESA), 
        overseeing recovery of listed species, adequately addressing 
        the workload of consultations, and effectively monitoring 
        hundreds of Habitat Conservation Plans covering millions of 
        acres and Federal projects subject to section 7 consultation. 
        We further ask the subcommittee to work with the new 
        administration to develop a schedule for determinations on the 
        current candidate list.
  --To continue efforts to restore the integrity of the National 
        Wildlife Refuge System (NWRS), a total of $514 million, an 
        increase of $51.1 million more than fiscal year 2009. The 
        recommended level for fiscal year 2010 will allow incremental 
        progress toward a yearly level of at least $765 million needed 
        to allow the NWRS to achieve the mission set forth in the 
        landmark 1997 National Wildlife Refuge System Improvement Act, 
        as recommended by the diverse coalition of 23 national 
        conservation, sporting, and scientific organizations in the 
        Cooperative Alliance for Refuge Enhancement.
  --To restore the ``Thin Green Line'' held by the Office of Law 
        Enforcement (OLE) between federally and internationally 
        protected animals and plants and the ruthless poachers and 
        smugglers who traffic in them, a total of $72.8 million, an 
        increase of $10.1 million, to support hiring, training and 
        equipping 24 special agents, 10 additional port inspectors, 12 
        critically needed scientists for the forensics laboratory and 
        to support recent amendments to the Lacey Act to ban 
        international imports of illegally sourced timber and plant 
        products. The special agent force plunged to a 30-year low in 
        2008. Continued attention must be paid to this issue since, on 
        average, 14 agents are lost yearly through attrition--even with 
        the addition of a new class of 24 every 2 years, the force 
        still would suffer a net loss of 4 agents over that same time 
        period.
  --To build the international affairs program, a total of $21 million, 
        an increase of $7.8 million, that will support boosts to the 
        regional Wildlife Without Borders programs, implementation of 
        treaties for which the program currently receives little 
        funding, listing, and permitting actions to address a backlog 
        of foreign species awaiting ESA protection, and replacement of 
        key personnel. We are pleased with the subcommittee action in 
        the fiscal year 2009 bill to move international affairs out of 
        general operations and establish it as a separate subactivity 
        under the same activity as migratory bird management and the 
        OLE.
  --To support the Migratory Bird Management program in halting the 
        decline of migratory birds, a total of $61.2 million, an 
        increase of $15.3 million, that will allow for implementation 
        of completed plans for focal species and continued development 
        of plans for the rest of the 139 focal species, enhanced 
        inventory and monitoring including increased costs for 
        operations of survey planes, ``Urban Conservation Treaties'' 
        that aid participating cities in reducing migration hazards and 
        conserving birds, increased permitting demands under the Bald 
        and Golden Eagle Protection Act, and the Joint Venture program.
  --To provide for critical FWS grant programs, a total of $85 million 
        for the State and Tribal Wildlife Grant program (STWGP), an 
        increase of $10 million; $110 million for the Cooperative 
        Endangered Species Fund, an increase of $34.5 million; $6.5 
        million for the Neotropical Migratory Bird Conservation Fund, 
        an increase of $1.7 million; and $15 million for the 
        Multinational Species Conservation Fund, an increase of $5 
        million. The STWGP was established to serve the Federal 
        interest by conserving species before they decline to the point 
        where they need ESA protection. As always, we appreciate the 
        subcommittee's strong oversight of the implementation of the 
        action plans created through STWGP and ask that it be 
        continued.
    The multiple-use lands of the Bureau of Land Management (BLM) and 
the U.S. Forest Service (USFS) are becoming increasingly crucial to the 
conservation of wildlife and habitat in the United States. Yet these 
agencies lack the resources and adequate tools to fulfill this 
important aspect of their multiple use missions. Staff of the BLM and 
USFS declined 9 percent and 35 percent, respectively, under the prior 
administration. In particular, given the recent order by the Secretary 
of the Interior to promote development of renewable energy on public 
lands, the availability of resources to ensure ability to maintain 
sustainable wildlife populations as this effort proceeds is absolutely 
crucial. To begin to fill this gap, we urge the subcommittee to provide 
the following amounts:
  --For BLM Wildlife and Fisheries Management, a total of $66.1 
        million, an increase of $17.6 million more than fiscal year 
        2009 and for BLM Threatened and Endangered Species Management, 
        a total of $33.2 million, an increase of $11.5 million. These 
        increases would support needed recovery efforts for threatened 
        and endangered species on BLM lands; additional staff; 
        monitoring and habitat restoration for species at risk; 
        restoration of fish passage; inventory and improvements for 
        wetlands, lakes, and streams; and other critical needs. 
        Defenders understands that the practice of diverting 30 to 50 
        percent of program resources to pay for compliance activities 
        of BLM's energy, grazing, and other nonwildlife-related 
        programs continues despite efforts by the subcommittee to 
        correct it. We appreciate the subcommittee's work on this issue 
        and ask that efforts to address this harmful practice be 
        redoubled, including consideration of a review by the 
        Government Accounting Office.
  --For the BLM Challenge Cost Share (CCS) program, a total of $29.3 
        million, an increase of 19.8 million, with the entire increase 
        directed to wildlife. Given the diversion of resources in the 
        other programs, CCS is the primary means through which 
        proactive wildlife conservation work is accomplished.
  --For BLM plant conservation, a total of $26 million, an increase of 
        $21.4 million. Defenders appreciates the decision by the 
        subcommittee to transfer the funding for the native plant 
        materials development program out of wildland fire management 
        and into the wildlife account in the fiscal year 2009 bill. We 
        ask that this move be a first step in establishing a separate 
        plant conservation activity or subactivity that would encompass 
        both a program to conserve sensitive plants on BLM lands and 
        the Native Plant Materials Development program. The amounts 
        recommended above would provide $5 million for the Plant 
        Conservation program, $15 million for the Native Plant 
        Development program, and one time construction funding of $6 
        million for seed storage facilities.
  --For BLM resource management planning, a total of $52.5 million, an 
        increase of $4.4 million more than fiscal year 2009; for USFS 
        land management planning, a total of $58.8 million, an increase 
        of $10 million; and for USFS inventory and monitoring a total 
        of $175 million, an increase of $7.4 million. Science-based 
        planning, including targeted monitoring and state-of-the-art 
        analysis, is fundamental to effectively conserve fish and 
        wildlife on BLM and USFS lands. We ask the subcommittee to 
        consider directing or encouraging the two agencies to 
        cooperatively link species and ecosystem data collection, 
        analysis, planning, and decisionmaking processes in meaningful 
        and cost-efficient manners.
  --For BLM Landscape Scale Habitat Conservation/``Healthy Lands,'' a 
        total of $30 million, an increase of $25 million to support the 
        BLM in addressing large-scale regional planning and 
        conservation efforts at the landscape level. Related to the 
        item previously mentioned, this funding potentially could be 
        targeted for interagency efforts to incentivize needed cross-
        cutting work across levels of government and land ownerships.
  --For USFS forest and rangeland research R&D programs, $260.8 
        million, an increase of $25.2 million that includes $30.3 
        million for Global Change Research and $35.5 million for Fish 
        and Wildlife R&D. These amounts are needed to provide on-the-
        ground forest managers with decision support tools that enable 
        effective and efficient fish and wildlife management, and 
        assist them in understanding the impacts of climate change on 
        forests, and identifying adaptive management strategies that 
        help forests and wildlife survive increasing stresses.
  --For USFS wildlife and fisheries habitat management, a total of 
        $197.4 million, an increase of $58 million. With the exception 
        of the increase provided in the fiscal year 2009 bill, this 
        program was flat funded for 7 years, falling far behind.
    The core of scientific expertise regarding fish, wildlife and 
plants within the Department of the Interior is found within the 
Biological Research Discipline (BRD) of USGS. BRD scientists are 
responsible for research, development of analytical tools, and sharing 
of information needed to manage and conserve these biological 
resources. However, support to carry out these activities and to ensure 
adequate scientific staff and expertise has steadily eroded over the 
last 8 years. Restoring funding to these programs is essential so that 
BRD can provide the natural resource management agencies with the 
scientific expertise, analysis and information necessary for 
conservation of fisheries and wildlife populations and habitat. To meet 
these needs, we urge the following increases:
  --For the BRD Research and Monitoring Program, a total of $155 
        million, an increase of $8.6 million more than the fiscal year 
        2009 level. Over the last decade, this program has declined 12 
        percent when adjusted for inflation and increases are needed to 
        (1) identify factors that contribute to or limit conservation 
        and recovery efforts for terrestrial plant and wildlife 
        species-at-risk; (2) institute an adaptive science approach to 
        support the management of terrestrial plants and wildlife and; 
        (3) provide technical assistance to natural resource managers.
  --For the BRD Cooperative Fish and Wildlife Research Units (CFWRUs), 
        a total of $20 million, an increase of $3.1 million. 
        Approximately one-fifth of all CFWRU scientist positions are 
        vacant, and these amounts are needed to restore this true 
        Federal/State/university/private partnership that leverages 
        more than $3 for every appropriated $1.
    We urge the subcommittee to continue restoration of the Land and 
Water Conservation Fund (LWCF) and urge a total of $450 million for 
fiscal year 2010, $325 million for Federal LWCF and $125 million for 
stateside. We were extremely pleased to see the increases proposed for 
LWCF in the President's budget and strongly support their proposal to 
fully fund the LWCF by 2014.
    Finally, we deeply appreciate the subcommittee's continued 
attention to the impacts of illegal immigration and related enforcement 
on sensitive land and wildlife resources along the Southwest border, 
and we urge continued oversight and funding increases. Funding is 
needed through the natural resource management agency budgets to 
address ongoing damage, including tons of trash, hundreds of miles of 
illegal trails and roads, hundreds of abandoned vehicles, fouled water 
sources, vandalized and stolen facilities and equipment, and degraded 
habitat across the landscape. In addition, we urge the subcommittee to 
work with the DHS appropriations subcommittee to ensure that any 
construction or installation of border security infrastructure is 
carried out with the proper environmental safeguards and that DHS 
provides funding to mitigate for any impacts, including following up 
with its commitment to provide up to $50 million to the Department of 
the Interior to mitigate for adverse impacts on federally listed 
threatened and endangered species from wall and road construction.
                                 ______
                                 
      Prepared Statement of the ``Ding'' Darling Wildlife Society

    I represent the ``Ding'' Darling Wildlife Society, an all-volunteer 
group with more than 2,000 members whose mission is to support the JN 
``Ding'' Darling National Wildlife Refuge complex. Our organization is 
greatly concerned about the major funding deficit for operations and 
maintenance (O&M) facing the National Wildlife Refuge System (NWRS), 
and the severe impact this is having on JN ``Ding Darling National 
Wildlife Refuge complex and other refuges in the NWRS. Our request is 
that O&M funding be increased to $514 million in fiscal year 2010.
    We do thank the subcommittee for your support over the past 2 
fiscal years in recommending increases in funding for the NWRS. Those 
increases have helped stabilize a critical funding deficit which 
resulted in major losses of personnel and significant loss of 
capability to manage refuges. While the increases have provided some 
relief, major funding problems still exist and sizeable annual 
increases in O&M funding must be forthcoming if the NWRS is ever to 
even approach its full potential.
    Past inadequate funding has severely hampered the ability of the 
U.S. Fish and Wildlife Service (FWS) to effectively manage refuges. The 
current backlog of approximately $3.5 billion in operations and 
maintenance needs is a direct result of many decades of neglect in the 
budgetary arena. This backlog must be addressed in an aggressive 
manner.
    On our local level, inadequate funding has resulted in staff 
reductions. Recent funding increases have allowed stabilizing the 
employees but at an inadequate level. We simply don't have the manpower 
needed to do an acceptable job of refuge management. Of major concern 
is the lack adequate law enforcement to address violations of refuge 
regulations and a second biologist.
    The role refuges can play in helping to alleviate current economic 
problems should not be overlooked. There are major economic factors 
associated with the management of refuges. NWRS attracts 41 million 
visitors annually who generate more than $1.7 billion for local 
economies, including 27,000 jobs and $185 million in tax revenues. 
Further, according to the 2007 report, Banking on Nature, on the 
average refuges return $4 of economic activity for each $1 appropriated 
for their operation. Continued underfunding of refuges will result in 
negative impacts on local economies--something to consider during the 
tough economic times facing our country.
    Invasive species are a major continuing problem facing refuge 
managers. Despite added emphasis on identification and control, 
valuable wildlife habitat continues to be lost. We urge the 
subcommittee to continue its strong support for the control of invasive 
species
    We urge the subcommittee to support an allocation of $100 million 
in the FWS budget for land acquisition through the Land and Water 
Conservation Fund (LWCF). The acquisition of important habitat for 
endangered species and other fish and wildlife has been severely 
reduced in recent years due to very low allocations and this situation 
must be addressed.
    The inequitable distribution of resource management dollars among 
the four Federal land managing agencies remains to be a serious 
concern. On a per-acre basis, funding to manage units of the NWRS is 
significantly lower than that allocated to manage national forests, 
national parks, and Bureau of Land Management lands. For example, when 
including the recently added 54 million acres of national monuments, 
the NWRS receives slightly more than $3 per acre, by far the lowest of 
the four agencies. I am not suggesting that the funding level should be 
the same far all, as the missions vary; however, the current disparity 
defies reason. I request that the subcommittee and the Congress should 
provide some reasonable level of equity as it contemplates future 
allocations.
    In summary, the NWRS is facing a severe funding deficit which must 
be addressed. I ask that the subcommittee support increased O&M funding 
for the NWRS to $514 million in fiscal year 2010. Further, I ask that 
that the subcommittee supports the goal of reaching an O&M funding 
level of $765 million by fiscal year 2010. And finally, we urge the 
subcommittee to support an allocation of $100 million from the LWCF for 
refuge land acquisition in fiscal year 2010.
                                 ______
                                 
 Prepared Statement of the Dzilth-Na-O-Dith-Hle Community Grant School 
                          of the Navajo Nation

    Greetings from Dzilth-Na-O-Dith-Hle Community Grant School (DCGS) 
on the Navajo Reservation in Bloomfield, New Mexico. Our testimony will 
focus on three areas of the Bureau of Indian Education (BIE) funding 
which negatively impact our efforts in helping our students achieve 
Adequate Yearly Progress (AYP), and practice sound management 
principles in school operations. These areas are--
  --an ever-increasing shortfall in Administrative Cost Grants (ACG), 
        requiring at least $58.6 million to achieve full funding;
  --the low student transportation dollars per mile rate, which should 
        be funded at a minimum of $3.15/mile; and
  --inadequate funding for facilities operation, maintenance, and 
        repairs, which requires a good deal more than the fiscal year 
        2009 $84.9 million in order to address the significant BIE-wide 
        backlog and meet the rising costs of utilities.
    Our school offers both academic programs serving grades K-8 and 
residential programs for students in grades 1-12. The residential 
students in grades 9-12, however, attend the local public school. 
Currently, 205 students are enrolled in our academic program, and 56 
students are housed in the campus dormitories. Our all-Navajo Board 
operates the DCGS through a Grant issued by the BIE under the Tribally 
Controlled Schools Act. Our mission at DCGS is to make a difference in 
the educational progress of our students and we believe that all our 
students are capable of achieving academic success.
    To say the new administration's fiscal year 2010 BIE budget request 
is a disappointment is an understatement. We had hoped it would provide 
desperately needed funding increases for critical programs to overcome 
the barriers that have for years impeded our ability to fully meet our 
school mission and our ability to successfully operate our program 
under the Indian Self-Determination policy. Most unfortunately, our 
hopes were not fulfilled. Thus, we must look to Congress to recognize 
that this chronic underfunding places our school system in jeopardy, 
and to ask you to take steps to fulfill the United States' obligation 
to the tribes who operate schools and the Indian children who attend 
them.

ACGs
    The ACGs provided for tribally operated schools is supposed to 
provide funding for the administrative costs incurred in the operation 
of school programs. Unfortunately, for the last several fiscal years, 
past administrations have not requested any increases for the ACG 
funding; despite the fact BIE knew there was already a funding 
shortfall. It is very disappointing that, even with the new 
administration, the fiscal year 2010 budget request for ACG will once 
again be flat funded at the fiscal year 2003 level of $43.3 million.
    It is even more disheartening that tribally operated schools are 
being forced to absorb millions in shortfalls when the administration 
is proposing an fiscal year 2010 increase of $5.5 million in order to 
pay BIA contract support costs (CSC) at 77.4 percent, and requests an 
additional $2 million for the Indian Self-Determination Fund to pay CSC 
of new contractors. For IHS contract support costs, the administration 
seeks a staggering $107 million increase.
    In comparison, for school year 2007-2008, the BIE provided only 
65.75 percent of ACG need, and in school year 2008-2009 the rate was a 
paltry 62.36 percent. The level of need for each school is determined 
by the statutorily mandated formula for calculation of ACGs. Yet, with 
each passing year, the tribally operated schools have had to re-direct 
more and more funds from our classroom budgets to cover essential 
services such as insurance, fiscal management, audits, and other 
overhead services. The failure to seek additional ACG funds will 
further reduce funding provided to existing tribally operated schools.
    At our school some of the increased costs we've had to absorb are 
$15,000 for audit costs; $38,000 for liability, property, vehicle and 
employee bonding insurances; and $5,200 for background checks on 
potential hires that would have direct contact with the students. We 
have had to scale back on publishing vacancy notices (thereby limiting 
the applicant pool) and increased the duties of the limited school 
administration and management staff. Lack of funding has meant having 
less people to complete the myriad compliance requirements such as 
shepherding the background checks, equipment inventory, financial 
accountability, and Federal program requirements. Our ability to 
maintain prudent internal controls and checks-and-balances is 
compromised. Cutting corners on school administration and having to let 
go or over-extend valued employees is not how DCGS wants to operate, 
but it is a necessity in order to minimize the amount of school program 
funds that have to be redirected to cover our ACG shortfall.
    If Congress accepts the proposed fiscal year 2010 ACG amount, it 
would most likely drop the percentage paid below 60 percent. We urge 
that this Congress take a new direction and finally meet the terms of 
the ACG statute by providing the full amount of AC Grants need 
(estimated at $58.6 million).

Student Transportation
    We appreciate the $2.7 million increase in student transportation 
funds provided for school year 2009-2010 in the fiscal year 2009 
Omnibus Appropriations Act. The increases produced a $2.91/mile rate 
for school year 2008-2009. This is at best a slightly more than the per 
gallon rate for fuel in our area. We are disappointed the fiscal year 
2010 budget request does not seek a programmatic increase in order to 
continue the efforts to provide a reasonable per mile rate in order 
that our students are afforded a safe transportation system.
    As you know, our student transportation funds are used to cover not 
just the fuel costs, but also the GSA rental/lease fees for school 
vehicles, vehicle maintenance and repair, and bus driver salaries. Here 
again our costs are ever increasing, to the point that we have had no 
choice, but to use our school program funds to make up the shortfall. 
Last year we paid $107,000 to GSA alone, and we had to increase our pay 
scale for CDL-qualified bus drivers in order to attract qualified bus 
drivers to work in the remote area where our school is located. As you 
can imagine, our unpaved roads, which are turned into ``wash boards'' 
by mud and snow, take a tremendous toll on our buses, resulting in 
greater maintenance and repair costs.
    Despite the small increases Congress has provided in fiscal year 
2008 and fiscal year 2009, we anticipate a continued shortfall in 
transportation funding so we will institute yet another cost savings 
measure by reducing our bus routes from five to three. While this may 
not outwardly appear to be significant, it will mean even longer bus 
rides for our students. This will undoubtedly adversely impact student 
learning since they will be weary from the longer ride to get to 
school-even in the best of weather, much less in winter or during 
storms. Sadly, this cost-cutting measure must be instituted at a time 
when our students have met AYP in all areas except Math.
    We ask for Congress's help in getting our Indian students to school 
so that they too are able to receive the type of education that 
prepares them for success in higher education and participation in the 
global economy as envisioned by the new administration. To assure that 
BIE schools do not have to ``dip'' into the education budget to provide 
basic transportation services, please fund Student Transportation at a 
level that will result in at least $3.15/mile.

Facilities Operation and Maintenance
    The DCGS has been in operation more than 40 years, which means our 
facilities are also more than 40 years old and showing their age. The 
meager facilities operations and maintenance funding has not been 
enough to even ``keep up appearances,'' much less address the serious 
deficiencies that come with aging electrical, heating, cooling and 
plumbing systems. Last year we talked about our inadequate electrical 
system that can't support the educational technology necessary for 
today's students. This year we regret that due to insufficient funds, 
we could not alleviate the classroom climate problems resulting from 
outdated, unreliable heating and cooling systems. Nor could we address 
the even more worrisome problem of leaking sewer lines.
    The heating and cooling system problems have resulted in some parts 
of the school being very hot while other classrooms are very cold. As 
you can imagine, not only are students and staff uncomfortable, there 
are many more getting sick due to the frequent temperature changes. The 
more serious issue is the leaks in the cast iron sewer lines--which run 
under the school and the residential building. The smells alone are 
making students and staff ill, and the growing mold compounds the 
problem. Due to the funding shortage, we are not able to remediate 
these issues and, since we have had to institute a facilities personnel 
cut-back, temporary repairs take even longer to institute.
    Nearly all of our facilities operations funds must be used to pay 
basic utility costs. For the past 20 years, this budget category has 
not been fully funded. In fact, in school year 2007-2008, we were 
provided only 51.9 percent of our need amount. Since utility costs 
continue to rise, we can expect our ``need'' amount will be even 
greater. For example, in the last school year we spent nearly $200,000 
for electricity and natural gas combined, and the utility companies are 
vying to increase their rates.
    Congress appropriated $450 million in Bureau of indian Affiars 
construction funds under the American Economic Recovery and 
Reinvestment Act (Public Law 111-05), with $143.1 million allocated for 
school improvement and repairs. With so many of the BIE-funded schools 
having backlogs of necessary facility repairs, we are sure the need 
will be greater than the amount apportioned to the BIE school system. 
Therefore, we urge that Congress provide more than the $2 million 
increase requested in the fiscal year 2010 budget proposed for 
facilities operations and maintenance--to a level that will enable us 
to not only bring these facilities to a safe and healthy level, but to 
begin preventive maintenance initiatives.

Conclusion
    It is our hope that under the leadership of the Obama 
administration and this Congress, there will be a change for the better 
for BIE-funded schools. Change that enables our school system to 
provide the type of education and services that will help our Indian 
students reach their potential. Our children's needs have been 
overlooked for far too long. We look forward to working with you on the 
fiscal year 2010 budget for the BIE.
                                 ______
                                 
 Prepared Statement of the Evansville Audubon Society, Friends of the 
 Patoka River National Wildlife Refuge, Hoosier Environmental Council, 
Indiana Division Izaak Walton League, Indiana Wildlife Federation, Knox 
    County Quail Unlimited, and Pike Gibson Citizens for a Quality 
                              Environment

    The undersigned organizations urge you to appropriate $1.5 million 
for land acquisition for the Patoka River National Wildlife Refuge 
(U.S. Fish and Wildlife Service) in southwestern Indiana. 
Appropriations for the Patoka refuge have been supported in past 
requests by Senator Richard Lugar, Senator Evan Bayh, and Congressman 
Brad Ellsworth.
    This funding would be used to acquire a 1,150-acre Peabody Coal Co. 
parcel adjacent to Snakey Point Marsh, a large and diverse wetland area 
that is part of the Patoka River National Wildlife Refuge. This land 
would be a very valuable addition to the Patoka refuge.
    The biological importance of the Patoka River National Wildlife 
Refuge is well documented. Established in 1994 with the purpose to 
restore bottomland hardwood forest habitats, the refuge's purchase 
boundary covers 22,472 acres, including 30 miles of the Patoka River, 
and at least 7,000 acres of bottomland forested wetlands, the most 
imperiled wetland type in Indiana and the American Midwest. To date, 
6,149 acres have been purchased for the refuge. Willing sellers are 
plentiful, but there has been no congressional appropriation for land 
acquisition for the Patoka since fiscal year 2005. The Peabody land has 
been available for several years, but the company has recently 
announced plans to find another buyer in fall 2009 if the U.S. Fish and 
Wildlife Service is unable to commit to its purchase by then.
    The Patoka River National Wildlife Refuge is truly one of Indiana's 
natural treasures, as well as an essential component of our national 
system of conservation lands. We believe that funding for its 
completion should be a high priority for the U.S. Congress. Please 
include an appropriation of $1.5 million in the fiscal year 2009 and/or 
fiscal year 2010 Interior, Environent, and Related Agencies 
appropriations bill.
                                 ______
                                 
     Prepared Statement of the Environmental Council of the States

    The Environmental Council of the States (States) are integral 
partners and co-regulators with the Environmental Protection Agency 
(EPA) in the implementation of the Nation's environmental laws. States 
in fact conduct on EPA's behalf most of the permitting, enforcement, 
inspections, monitoring, and data collection required by those laws. In 
this document, the States respectfully submit their budget proposal for 
the categorical grants portion of the EPA's budget that supports State, 
tribal, and local governments, known as the State and Tribal Assistance 
Grants (STAG).
    For 2010, the States request $1.992 billion for 25 categorical 
program grants for State and tribal governments.
    We present a summary of our budget justifications for the amounts 
requested. These are based on the workload that EPA has indicated it 
will expect of the States in fiscal 2010. This budget is a joint 
product of the Environmental Council of the States, the Association of 
State and Interstate Water Pollution Control Administrations, the 
Association of State Drinking Water Administrators, the Association of 
State and Territorial Solid Waste Management Officials, The Association 
of American Pesticide Control Officials, and the National Association 
of Clean Air Agencies.

Clean Air Programs
    EPA has delegated authority for primary implementation of the 
programs authorized in the Clean Air Act to all 50 States. Recent 
annual appropriations have been approximately $200 million to $220 
million, rather than the $600 million that is needed to support these 
important programs. While significant funding increases are warranted, 
we recognize not only the many competing priorities for Federal 
assistance, but also the state of the current economic climate means 
that full funding is not viable at this time. Therefore, for fiscal 
year 2010, the States ask for a more modest increase in Federal grants 
to State and local clean air agencies under sections 103 and 105, to 
$270 million ($53 million more than fiscal year 2008 levels). 
Additionally, the States recommend that particulate matter and lead 
monitoring programs be funded under section 103 authority.
    In addition to the ongoing activities for which funding is 
inadequate, including monitoring emissions, developing emissions 
inventories, conducting sophisticated modeling of emissions impacts, 
inspecting sources of pollution, conducting oversight and enforcement, 
providing technical assistance to regulated sources and responding to 
citizens' complaints, State and local agencies will face additional 
responsibilities related to the development of State Implementation 
Plans (SIPs) for the 2006 PM<INF>2.5</INF> revise SIPs to include a new 
interstate transport rule if the EPA replaces CAIR, designate lead 
nonattainment areas, prepare for future GHG regulation, address 
emissions of hazardous air pollutants from small, or ``area'' sources, 
necessitating significant effort and resources to address emissions and 
issue permits, as needed, for literally thousands of sources, and 
prepare for and adjust to the new MACT standard that the EPA will use 
to replace the vacated Industrial Boiler standard in the summer of 2010
Clean Water Programs
    Section 106.--Section 106 of the Clean Water Act authorizes funding 
to the States and Interstate Commissions to assist them in preventing, 
reducing, and eliminating pollution of the Nation's waters, including 
enforcement. In a very direct way, inadequate funding adversely impacts 
the quality of the Nation's waters. EPA has not requested the increased 
funding needed for section 106 in the Federal budget process. In fact, 
the only limited requests that EPA made to increase funding over the 
past several years have been for specific new EPA initiatives. In 
addition, the critical funding shortage is more exacerbated when EPA is 
inflexible about how certain funding can be used.
    Section 319.--Nationally, Clean Water Act (CWA) Sec. 319 funds are 
used for protection and restoration efforts for water bodies primarily 
impaired by nonpoint sources. In the last 5 years, the annual 
appropriation for CWA Sec. 319 has not been sufficient to run a 
comprehensive nonpoint source program. For example, States in the 
Northeast have reported that they could utilize 100 percent to 500 
percent more Sec. 319 funding than is currently allocated to them. The 
projections are likely much larger for Midwestern States.
Drinking Water Programs
    The categorical grant for Public Water System Supervision (PWSS) is 
the principal source of Federal funding for State drinking water 
programs to administer all of the 90+ Federal rules and requirements. 
All but one State (Wyoming) has taken on ``primacy'' obligations to 
implement the Federal rules.
    A survey of all 50 States conducted in 2004 estimated a nationwide 
gap of $360 million between the funds needed to administer their clean 
water programs and available funds.
    In addition to the ongoing need to adequately fund existing 
responsibilities and obligations, several new ``risk-based'' Federal 
rules have been promulgated in the past few years. In other words, the 
actual on-the-ground implementation of the rule needs to be tailored to 
the health risk posed at individual drinking water utilities. State 
drinking water programs are the entities that must undertake this work. 
The new lead and copper rule and the Disinfection By-Products/Microbial 
Contaminants Phase 2 Rules are the most prominent of the new 
requirements mandated by Federal Government.
    In order to implement these new requirements the States will need 
$40.7 million in addition to the fiscal year 2009 State request of 
$124.3 million. Furthermore, the States will also require $25 million 
for PWSS program activities not specifically covered by new rule 
estimates and not already addressed--these include: Small System 
Support Mechanisms, Data Management Support, and Integrating Security 
into Water Programs. With these additional costs, the total PWSS annual 
financial need of the States is $200 million.
Waste and Related RCRA Programs
    In 2006, the States conducted a pilot program to determine the cost 
to States for implementing a complete and adequate RCRA Subtitle C 
Program (hereafter referred to as ``RCRA C'' or ``RCRA''). The report 
entitled State RCRA Subtitle C Core Hazardous Waste Management Program 
Implementation Costs--Final Report (January 2007) revealed that the 
cost to States of implementing a complete and adequate RCRA Program in 
2006 was approximately $255 million.
    A data collection project by the States shows that, for fiscal year 
2006, States contributed approximately $25 million more than the 
required cost share toward the RCRA Subtitle C Program in their efforts 
to ensure program effectiveness. Clearly, additional resources are 
needed to fully fund the RCRA C program. However, the RCRA C STAG 
appropriations have continued to fall far short of the needed level. 
Furthermore, the currently available Federal and State resources 
provide only about 74 percent of what is needed to run an effective and 
adequate RCRA C Core Program. This doesn't consider important new 
initiatives such as Sustainability and the Resource Conservation 
Challenge, and implementation of the new ``definition of solid waste 
rules.'' At a minimum, $367 million in State and Federal funding is 
needed to run State RCRA C programs (100 percent funding rather than 
the current 74 percent that was being spent by States in 2006 which was 
$255 million or $273 million in 2008 dollars). The State share should 
be at least $92 million, which is half of what the States spent in 
fiscal year 2006. In order to enable States to implement effective RCRA 
C programs, States request that $275 million be appropriated for State 
Hazardous Waste Financial Assistance grants.
    The Energy Policy Act of 2005 Public Law 109-58 (EPAct) imposed 
several significant new underground storage tank regulatory 
requirements on the States. It requires States to inspect all regulated 
underground storage tanks (USTs) every 3 years. In addition to the new 
3-year inspection cycle, EPAct also requires that States: (1) require 
operator training; (2) implement a delivery prohibition for 
noncomplying facilities; and (3) require secondary containment or 
financial responsibility for tank manufacturers and installers. All of 
these requirements impose significant fiscal burdens on the States. The 
amount appropriated for EPAct requirements is about half of what is 
needed for the 3-year inspection cycle alone. For that reason, the 
States request that a total of $63.1 million be appropriated for State 
UST programs. An increase of $29.4 million is for the Federal share of 
the 3-year inspection cycle (State share is $9.8 million) and the 
remaining $33.7 million will fund other State UST and EPAct 
requirements. Most of these funds are currently appropriated from the 
Leaking Underground Storage Tank Trust Fund, not STAG.

Flexibility To Implement LEAN Programs
    State environmental agencies are very excited about the utility of 
LEAN exercises in reducing costs and improving service delivery. A LEAN 
process entails the review of processes for specific permitting or 
other programs that States and the EPA implement. Some States have been 
able to implement this review process to reduce the cost of 
implementing environmental programs, improve service to the public, 
improvement State-Federal relations, and even improve staff morale. 
ECOS and EPA strongly support the use of LEAN to help us meet our 
missions in a cost-effective manner. States are highly interested in 
this process, but have difficulties in finding funds to conduct these 
intensive sessions.
    In this budget request, we ask Congress' approval to allow States 
to use up to 1 percent of their categorical grant award for 2010 to 
conduct these efforts.

      A STAG CATEGORICAL GRANTS BUDGET TO MEET INCREASING REQUIREMENTS--STATE AND TRIBAL ASSISTANCE GRANTS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                   Percentage
                                                                  Fiscal year       States'       change (2009
                           Programs                              2009 enacted    proposal 2010   enacted to 2010
                                                                                                    proposal)
----------------------------------------------------------------------------------------------------------------
Categorical Grants:
    State and Local Air Quality Management....................        $224,080        $270,300             +20.6
    Public Water System Supervision [PWSS]....................          99,100         200,000            +101.8
    Brownfields CG............................................          49,495          50,000              +1
    Hazardous Waste Financial Assistance......................         101,346         275,000            +171.3
    Underground Storage Tanks (Note 1)........................           2,500           2,550              +2
    Nonpoint Source (Sec. 319)................................         200,857         408,000            +103.1
    Pollution Control (Sec. 106)..............................         218,495         540,000            +147.1
    Pesticides Enforcement....................................          18,711          22,103             +18.1
    Pesticides Program Implementation.........................          12,970          15,321             +18.1
    Environmental Information.................................          10,000          10,000  ................
    Beaches Protection........................................           9,900           9,900  ................
    Homeland Security.........................................           4,950           4,950  ................
    Lead......................................................          13,564          29,370            +116.5
    Toxics Substances Compliance..............................           5,099           5,099  ................
    Pollution Prevention......................................           4,940           4,940  ................
    Radon.....................................................           8,074           8,074  ................
    Tribal Air Quality Management.............................          13,300          13,300  ................
    Tribal General Assistance Program.........................          57,925          57,925  ................
    Underground Injection Control [UIC].......................          10,891          10,891  ................
    Water Quality Cooperative Agreements......................  ..............           9,844  ................
    Wetlands Program Development..............................          16,830          32,000             +90.1
    Wastewater Operator Training..............................  ..............           2,000  ................
    Sector Program............................................           1,828  ..............            -100
    Targeted Watersheds.......................................  ..............  ..............  ................
    Local Government Climate Change...........................          10,000          10.000  ................
                                                               --------------------------------
      Subtotal, Categorical Grants............................       1,094,855       1,991,567             +81.9 
----------------------------------------------------------------------------------------------------------------
Note: In the 2008 budget, a substantial amount of the funding for this program was shifted to the LUST Trust
  Fund. We recommend retaining that approach with $63.1 million in the UST fund for UST Grants. These are actual-
  year dollars, not adjusted.

                                 ______
                                 
   Prepared Statement of the Emissions Control Technology Association

    Thank you for the opportunity to submit written testimony to the 
subcommittee. My name is Tim Regan and I am the president of the 
Emissions Control Technology Association (ECTA) and an executive with 
Corning Incorporated. ECTA is a trade association that promotes public 
policies to improve air quality by reducing mobile source emissions 
through the use of advanced technologies. ECTA represents the companies 
that have been at the cutting edge of mobile source emissions control 
technology for three-and-a-half decades. Our members invented and 
developed the core, specifically the substrate and the catalyst, of the 
catalytic converter.
    I appreciate the opportunity to discuss funding for the Diesel 
Emission Reduction Act (DERA) and to personally thank you for the 
commitment this subcommittee has repeatedly shown to funding diesel 
emission reduction programs. We are incredibly grateful for the $300 
million in funding that you included in the American Recovery and 
Reinvestment Act of 2009 (ARRA) as well as the $75 million that you 
included in the fiscal year 2009 budget for diesel emission reductions.
    The $300 million that you included in the ARRA bill will not only 
assist in cleaning the air and protecting public health, but it is also 
presents a unique opportunity to stimulate the economy in a timely and 
targeted manner.
    The Environmental Protection Agency (EPA) is already well on its 
way to ensuring that this funding is distributed both quickly and 
efficiently to maximize the economic benefits. Since mid-January, EPA 
has engaged in extensive outreach and communication activities 
including holding more than 50 meetings, webinars, workshops, and 
conference calls in locations across the country, which included 
briefing more than 2,000 potential grantees and providing guidance on 
how to apply for ARRA DERA funding. On March 19, EPA released its 
Request for Application (RFA) for the National Grant program, the 
Emerging Technology program and the Smartway Financing program. 
Applications for the National Grant program and the Smartway Financing 
Program were due on Tuesday, April 28, while the Emerging Technology 
program applications were due a week later on May 5.
    Just over $88 million of these ARRA funds were set aside directly 
for the States. All 50 States and the District of Columbia requested 
these funds and each was told in early March that it would be receiving 
just more than $1.7 million for reducing diesel emissions. EPA has 
already begun awarding these grants.
    As you can see, excellent progress has been made by EPA to ensure 
that these funds are prudently managed, while also being awarded 
expeditiously. As an industry, we are grateful for the sense of urgency 
expressed both by Congress in appropriating the funds and by EPA in 
administering the DERA grants.
The Challenge
    Thirty years ago, when the catalytic converter was first 
introduced, our industry was faced with the challenge of reducing 
nitrogen oxides from the transportation sector. Today, the challenge is 
to reduce the black smoke and smell from diesel exhaust. Once again, 
our industry has risen to the challenge by developing a full range of 
devices, commonly known as ``after-treatment'' technology, that remove 
fine particulate matter and other pollutants in diesel exhaust.
    Our technology is required equipment on all new on-road heavy duty 
vehicles entered into service after January 1, 2007. This will make a 
significant contribution toward cleaner air and better health. In fact, 
EPA estimated at the time the so-called 2007 Highway Rule was 
promulgated that the technology would generate $66 billion in economic 
and health benefits annually when the new vehicles significantly 
penetrated the fleet after the year 2020.\1\
---------------------------------------------------------------------------
    \1\ See Environmental Protection Agency (July 7, 2005), ``2007 
Heavy-Duty Highway Final Rule,'' i.e., http://www.epa.gov/OMSWWW/
diesel.htm.
---------------------------------------------------------------------------
    Obviously, there is a cost associated with installing this 
equipment on new vehicles, but the payoff is significant. EPA estimates 
that for every $1 spent on the technology, $16 of economic benefit will 
be generated.\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    The challenge that we continue to face is how to retrofit this new 
technology onto existing vehicles and engines that are being used 
today. These vehicles and engines do not have the emissions control 
technology that is required for new vehicles. Consequently, they are 
the ``dirtiest'' diesel devices in use, and there are a lot of them.
    EPA estimates there are currently more than 11 million heavy duty 
diesel engines in use today; the so-called ``legacy fleet.'' Because 
diesel engines are so durable, the existing equipment in the fleet will 
not be fully replaced until the year 2030.\3\ The best way to clean up 
the legacy fleet is to retrofit it with the same kind of technology 
that is being installed in new ones. This retrofit equipment could 
include after-treatment devices, such as a diesel particulate filter or 
a diesel oxidization catalyst. It also could include vehicle 
replacement, engine replacement, engine rebuilds, and engine repair.
---------------------------------------------------------------------------
    \3\ See Senator Voinovich Press Release (June 16, 2005), http://
voinovich.senate.gov/news_center/record.cfm?id=238996&
---------------------------------------------------------------------------
    Unfortunately, the cost of purchasing and installing diesel 
retrofits oftentimes does not introduce enough operational efficiency 
to generate a return on the investment. So, equipment owners are 
understandably reluctant to invest in a retrofit unless they are given 
some form of financial assistance to help defray the cost. And, it 
makes sense for the public to help finance retrofits because they 
generate benefits in the form of cleaner air for all of society.
Congressional Action
    To the credit of Congress, it has acted to provide the necessary 
financial assistance to promote the deployment of diesel retrofits. As 
you know, this subcommittee started addressing this problem as far back 
as fiscal year 2003. At that time, $5 million was appropriated to 
provide the original funding for the Clean School Bus USA program.
    Based on the positive experience with the Clean School Bus USA 
program, Congress took another big step in 2005 to advance the 
deployment of diesel retrofits. Specifically, as part of the Energy 
Policy Act, Congress proposed and passed DERA. This provision of law 
authorized the expenditure of $1 billion over 5 years to finance diesel 
retrofits through grants and revolving loans. The authorization calls 
for the appropriation of $200 million per year for fiscal year 2007 
through fiscal year 2011.
    This subcommittee has done a valiant job in trying to find the 
resources to fund DERA. These are difficult financial times. All 
Federal accounts are under stress, especially those under the 
jurisdiction of this subcommittee. But under Chairman Feinstein's 
leadership, this subcommittee has continued to approve funding for this 
extremely important and cost-effective program. We appreciate the 
subcommittee's efforts.
The Problem
    Unfortunately, the resources available to fund diesel retrofits far 
exceeds the demand, even with the $300 million of funding included in 
the fiscal stimulus package. Despite increased funding in recent years, 
the DERA program continues to be oversubscribed. For the fiscal year 
2008 National Program grants, EPA received more than 230 proposals, 
requesting a total of more than $140 million. With $27.6 million 
available for this component of DERA, that's $5 requested for every 
available $1.
    This is not new. The DERA program has always been oversubscribed. 
The best example of this is what has happened with the Clean School Bus 
USA program. During the first 3 years of the program, 292 grant 
applications for a total of $106 million were submitted to EPA. Because 
of funding constraints, only 72 awards were made from the 292 
applications, a 25 percent grant rate. In terms of funding, only $17.3 
million was awarded from the $106 million requested, a 16 percent 
success rate.
Our Request and Rationale
    In light of this strong demand for funding, we respectfully request 
that the subcommittee fully fund DERA at the authorized level of $200 
million for fiscal year 2010. We believe that this proposed increased 
level of funding is reasonable and appropriate for several reasons.
    First, the money will be well spent because diesel retrofits have 
been proven to be one of the most cost-effective emission reduction 
strategies. Studies have shown that emission reduction strategies which 
involve the use of diesel retrofit technology can, in almost every case 
analyzed, achieve lowest cost-per-ton of emissions reduced compared to 
a long list to other strategies for reducing emissions from the 
transportation sector.\4\ For example, installing a diesel particulate 
filter on a Class 7 heavy duty truck is 15 times more cost-effective 
than replacing a conventional bus and 46 times more cost-effective than 
building an HOV lane.\5\
---------------------------------------------------------------------------
    \4\ See ECTA comments (February 20, 2007) in Federal Highway 
Administration Docket No. FHWA-2006-26383, http://dmses.dot.gov/
docimages/p89/454896.pdf, http://dmses.dot.gov/ docimages/p89/
454899.pdf
    \5\Ibid, Table 4, p. 10, http://dmses.dot.gov/docimages/p89/
454896.pdf
---------------------------------------------------------------------------
    Second, DERA represents a unique opportunity to stimulate the U.S. 
economy. DERA funding targets industries undergoing significant 
dislocation and layoffs. In particular, as a study by Keybridge 
Research notes, ``the economic impact is likely to be the greatest in 
auto parts manufacturing and heavy-duty truck (e.g., school bus) 
manufacturing sectors, which have sustained job losses at nearly 9-
times and 7-times the national rate.'' Employing a methodology based on 
the use of standard economic multipliers provided by the Bureau of 
Economic Analysis's RIMS II model, Keybridge Research concluded that 
DERA is likely to generate approximately $6 of increased economic 
output for every $1 of Federal expenditures.
    Third, spending on diesel retrofits generates a substantial return 
on an investment of 13-to-1. When DERA was enacted, EPA estimated that, 
if fully implemented, the program would generate $20 billion of 
economic and health benefit for $1.5 billion of cost. In other words, 
for every $1 of Government money spent, $13 of economic and health 
benefit would be generated.\6\
---------------------------------------------------------------------------
    \6\ See Supra, Note 4. The 13 to 1 is for the Diesel Emission 
Reduction Act (DERA) while the 16 to 1 cited earlier was for new 2007 
engine technology. It is likely that the differences in these numbers 
relates to the remaining useful life of the equipment, which will 
logically be shorter for a retrofitted vehicle.
---------------------------------------------------------------------------
    Fourth, because DERA sets aside 30 percent of its funds for a State 
Grant Program, it can be used to help States bring their air quality in 
to conformity with Federal standards for particulate matter. Moreover, 
by providing additional Federal monies to States that match the DERA 
funds, the DERA State Grant program provides incentives to States to 
more proactively address diesel emissions in their region.
    Finally, DERA has a very broad base of support. From the beginning, 
DERA enjoyed strong support from both sides of the aisle in Congress 
and from the entire range of private interests and nonprofit public 
interest groups. As evidence of this, more than 300 businesses, trade 
associations, and environmental groups cosigned a letter asking for 
$1.5 billion for DERA in the stimulus package.\7\ Few environmental 
programs enjoy such widespread support.
---------------------------------------------------------------------------
    \7\ See DERA Coalition Letter to Senate dated January 16, 2009 
available at http://www.ectausa.com/documents/
CoalitionLettertoSenateonERecwithadd.pdf
---------------------------------------------------------------------------
               STATE AND LOCAL AIR QUALITY GRANTS (STAG)

    ECTA would also like to endorse the request for increased funding 
to support State and local air quality grants that is being requested 
by the National Association of Clean Air Agencies (NACAA) in their 
written testimony submitted to the subcommittee. State and local 
governments hold primary responsibility for preventing and controlling 
air pollution and they rely on grants to carry out their core 
obligations under the Clean Air Act. For fiscal year 2010, NACAA 
recommends that grants within the STAG program for State and local air 
pollution control agencies under sections 103 and 105 of the Clean Air 
Act be $270 million, which is $46 million more than the fiscal year 
2009 appropriation. We support NACAA in this request.

                               CONCLUSION

    Thank you again for the opportunity to submit written testimony to 
the subcommittee. In closing, we urge you to fully fund DERA at $200 
million for fiscal year 2010 because it will result in the most cost-
effective use of Federal funds to achieve emission reductions from the 
transportation sector.
                                 ______
                                 
          Prepared Statement of the Eastern Forest Partnership

    Mr. Chairman, and distinguished members of this subcommittee, we 
are grateful for the opportunity to submit testimony today on behalf of 
the member organizations of the Eastern Forest Partnership (EFP).
    The EFP is a coalition of 20 national, regional, and local 
organizations working to advance permanent protection of forests in the 
Eastern United States. The partnership seeks to raise awareness about 
the value and importance of these forests and to promote sound public 
policy in order to conserve these lands.
    We are encouraged by the proposed increases for the Land and Water 
Conservation Fund (LWCF) and the Forest Legacy Program (FLP) in the 
fiscal year 2010 budget, as well as the Obama administration's 
commitment to reach full funding for the LWCF in the next 5 years.
    However, we are concerned about the President's proposed fiscal 
year 2010 budget and its deep cuts in the U.S. Forest Service (USFS) 
LWCF program. This severe reduction will greatly hamper the program and 
reduce its capacity at a time when the opportunities and challenges are 
at their greatest.
    Protection of our natural resources has reached a critical point. 
Four decades of suburban sprawl have changed our natural landscapes and 
reduced our open spaces. We are now beginning to clearly witness the 
negative repercussions of wholesale land use changes. In 2005, the USFS 
released a report, Forests on the Edge, which predicts that 44 million 
acres of private forest nationwide will be converted to nonforest uses 
by 2030. Today less than twenty per cent of eastern forests are 
permanently protected for future generations. Without a robust 
investment of both private and public funding, these forests will very 
likely be developed and lost forever.
    In every state in the nation, LWCF and FLP funds have ensured that 
all Americans have access to lands where they can hunt, fish, play 
ball, hike, bird watch, paddle, ride a bike, and picnic or take photos. 
Working only with landowners who are willing sellers, Federal, State, 
and local agencies are attempting to protect the best of what remains 
so that future generations can also reap the benefits of access to 
outdoor recreation, America's unique historic and cultural sites and 
protected wildlife.

                                  LWCF

    Established in 1965, the LWCF has served the national interest as 
the primary source of Federal land conservation efforts. Through this 
fund, States throughout the country have preserved critically important 
lands including national forests, wilderness areas, historic and 
cultural sites, significant battlefields, trails, and recreation areas. 
In addition, the stateside portion of this program accounts for the 
creation of thousands of local park and recreation projects such as 
ball fields and community parks.
    The LWCF also provides funds to the Highlands Conservation Act 
(HCA). The HCA became law in 2004 and authorizes $10 million in land 
acquisition and $1 million technical assistance to the States of 
Pennsylvania, New Jersey, New York, and Connecticut. Traversing more 
than 3 million acres the Highlands provide clean drinking water, local 
food, and close-to-home recreation to the more than 25 million 
residents living within an hour's drive of this nationally significant 
landscape.
    In addition, our protected Federal lands and waterways provide an 
opportunity to address the unprecedented challenges that climate change 
poses to our forests, fish and wildlife, and riparian resources. These 
natural areas also store carbon, buffer flooding, conserve water, and 
support healthy fisheries and wildlife populations.

                                  FLP

    Established in the 1990 farm bill, the FLP is a partnership program 
that ``protects `working forests' . . . those that protect water 
quality, provide habitat, forest products, opportunities for recreation 
and other public benefits.'' To date, this program has protected more 
than 1.7 million acres in 36 States and Puerto Rico. Every Federal 
dollar invested in this program is matched 1:1 by private or non-
Federal Government funding, making it a sound use of public resources.
    Land conservation programs such as the LWCF and FLP are needed now 
more than ever. Without these programs the widespread loss of forests 
and open spaces to development, especially in the East, will continue. 
As forests and other natural areas are cleared for development, 
significant amounts of carbon are released into the atmosphere and 
future carbon sequestration potential is lost, contributing to global 
warming. Additional investment in public land is also essential to 
protect habitat and migration corridors necessary for wildlife to adapt 
to climate change.
    We are pleased that the President's budget includes funding for the 
new Community Forest and Open Space land protection program; authorized 
as part of the 2008 Farm Bill, this new grant program will give 
communities matching funds to purchase critical forestland tracts and 
provide technical assistance through State forestry agencies for 
outstanding forest management. However, we are concerned that the 
proposed new funding appears to be coming from the FLP. While both 
programs are aimed at conserving forestland, they are distinct in their 
approach and eligibility requirements, and are intended as 
complimentary, not overlapping. We urge you to ensure that funding for 
the Community Forest and Open Space Program is not made available at 
the expense of funding for the FLP.
    As the subcommittee works to consider and establish funding levels 
for fiscal year 2010, please keep the myriad benefits of these two 
programs in mind. The LWCF and FLP have historically been the most 
significant Federal sources of funding to support land conservation, 
and park and recreation projects. These programs protect America's 
natural heritage and increase the health and quality of life for all 
Americans. We urge you to consider funding these programs at levels 
sufficient to meet the demand and therefore recommend increasing the 
funding of the Federal LWCF to $325 million, stateside LWCF to $125 
million, $125 million for the FLP, and $11 million to the HCA.
    Below is a list of specific projects recommended by our member 
organizations that we believe merit funding through these programs.
LWCF Projects
  --CT--Stewart B. McKinney NWR ($11 million)
  --FL--Timucuan Ecological & Historic Preserve Seaton Creek I ($3 
        million)
  --GA--Chattahoochee and Oconee NF ($4 million)
  --GA--Chattahoochee River NRA ($3.1 million)
  --MD--Blackwater National Wildlife Refuge ($2 million)
  --ME--Rachel Carson NWR ($3.5 million)
  --ME--Maine Coastal Islands NWR ($1.65 million)
  --NC--Uwarrie National Forest ($1 million)
  --NC--Catawba Falls Access ($750,000)
  --NH--Mahoosuc Gateway I ($1.375 million)
  --NH-ME--Umbagog NWR ($4.5 million)
  --NH-VT-CT-MA--Silvio O.Conte NWR ($2.965 million)
  --NH--Lake Umbagog National Wildlife Refuge ($5 million)
  --NJ--Great Swamp NWR ($2.4 million)
  --NJ--Wallkill River NWR ($2.8 million)
  --SC--Congaree National Park ($2.7 million)
  --TN--Rocky Fork ($13.5 million)
  --VT--Green Mountain NF ($2.25 million)
  --VT--Chateauguay--No Town ($1.25 million)
  --WV--Monongahela NF ($985,000)
HCA Projects
  --CT--Ethel Walker, Naugatuck, and Scoville ($2.5 million)
  --NY--Greater Sterling Forest ($2.5 million)
  --NJ--Northern Highlands ($2.5 million)
  --PA--Texter Mountain ($2.5 million)
  --All States--Technical Assistance ($1 million)
FLP Projects
  --AL--Cumberland Mountains Preserve ($637,500)
  --AR--Maumelle Water Excellence ($3.58 million)
  --CT--Tulmeadow Farm ($1.4 million)
  --CT--Wolf Hill ($600,000)
  --FL--St. Vincent Sound-to-Lake Wimico Ecosystem ($5 million)
  --FL--Northeast Florida Timberlands ($2.65 million)
  --FL--Osceola NF buffer ($1.87 million)
  --GA--Murff tract-Rayonier Forest ($4.5 million)
  --GA--Ft. Stewart ACUB 1 ($805,300)
  --MA--Monson Forest Lands ($2.3 million)
  --MA--Southern Monadnock Plateau Phase II ($3.3 million)
  --MA--Metacoment-Monadnock Forest ($1.6 million)
  --ME--Katahdin Forest Expansion ($3.7 million)
  --ME--Rangeley High Peaks ($3.5 million)
  --NH--Cardigan Highlands ($3.8 million)
  --NH--Mahoosuc Gateway II ($5 million)
  --NJ--Musconetcong and Rockaway Rivers Watersheds ($7 million)
  --NY--Follensby Pond ($7 million)
  --PA--Little Bushkill Headwaters Forest Reserve ($3.5 million)
  --PA--Greystone Forest ($355,000)
  --SC--Belfast ($2 million)
  --TN--North Cumberland Conservation Area ($9 million)
  --VT--Eden Forest ($2.2 million)
  --VT--Adams Pond ($1.6 million)
  --VA--Chowan River Headwaters ($2.24 million)
  --VA--New River Corridor ($520,000)
  --WV--Sleepy Creek ($755,000)
    Thank you for the opportunity to submit this testimony for your 
consideration.
         member organizations of the eastern forest partnership
    American Forests; Appalachian Mountain Club; Appalachian Trail 
Conservancy; Carolina Mountain Land Conservancy; Environmental Defense; 
Highlands Coalition Land Trust Alliance; Land Trust of Central North 
Carolina.
    Natural Lands Trust; National Wildlife Federation; Northern Forests 
Alliance; North Carolina Coastal Land Trust; Pinchot Institute; South 
Carolina Coastal Conservation League.
    Southern Appalachian Forest Coalition; Southern Environmental Law 
Center; The Wilderness Society; Tennessee Parks and Greenways 
Foundation; Trust for Public Land; Western Pennsylvania Conservancy.
                                 ______
                                 
         Prepared Statement of the Endangered Species Coalition

    The Endangered Species Coalition--the national network of more than 
400 conservation, scientific, religious, sporting, outdoor recreation, 
business, and community organizations--urges you to fully fund programs 
of the Endangered Species Act in fiscal year 2010. We are calling for a 
total appropriation of $391.2 million for the Fish and Wildlife Service 
(FWS) and Bureau of Land Management (BLM), as detailed in the text and 
table below.
    The Endangered Species Act (ESA) is a safety net for wildlife, 
plants and fish that are on the brink of extinction. The act has been 
successful in preventing the extinction of many of our Nation's 
species, including Bald Eagles, Peregrine Falcons, wolves, grizzly 
bears, and wild salmon. In today's era of global warming, it is needed 
more than ever. However, for years the ESA has been underfunded, making 
it increasingly difficult for Federal experts to carry out their 
responsibilities under the ESA. We appreciate your efforts in the 
fiscal year 2009 omnibus bill to begin to reverse this trend and we are 
calling for the funding crisis to be completed addressed over the next 
4 years. The funding levels detailed below are designed to be the next 
step in addressing this problem. Each succeeding year should have a 
steadily increasing budget to reach the fiscal year 2013 funding levels 
detailed in the chart that will allow the endangered species programs 
to be appropriately implemented and managed.

                  CORE ENDANGERED SPECIES PROTECTIONS

    Four FWS endangered species operating accounts are key to effective 
implementation of the ESA. All four program areas have reportedly 
experienced a 30 percent staffing shortage in recent years due to 
budget constraints, an unacceptable vacancy rate. To adequately 
implement the endangered species program, a total of at least $305.9 
million is needed for the four main accounts by 2013, an increase of 
$148 million more than fiscal year 2009.
    Listing.--This account funds protections by identifying new plants 
and animals in need of protection under the ESA, as well as identifying 
habitat critical for recovery. Currently, more than 250 species sit on 
the candidate list waiting for protection, creating an estimated 
backlog of more than $160 million. Candidate species wait an average of 
19 years to be listed and since 1975, 64 have gone extinct while 
waiting--7 times the number that have disappeared under the full 
protection of the ESA. To eliminate this backlog over the next 4 years, 
we request a $12.7 million increase this year for a fiscal year 2010 
appropriation of $32 million.
    Recovery.--While the ESA has been extremely successful at 
preventing wildlife from going extinct, the purpose of the act is to 
protect and recover endangered and threatened fish, plants, and 
wildlife. It is difficult to estimate the true needs for the recovery 
program--current estimates place it at approximately $100 million per 
year. Our coalition would like to see the recovery program funded at no 
less than $121.6 million by 2013 (the increased level over $100 million 
accounts for fixed costs increases needed over that time period) 
therefore, we request recovery be funded at $95 million for fiscal year 
2010, an increase of $20.4 million.
    Consultation.--The consultation program is an important part of the 
checks and balances system to ensure that endangered fish, wildlife, 
and plants are protected on the ground. There has been a dramatic 
increase in demand for consultations recently, jumping from 40,000 in 
1999 to 67,000 in 2006. Shortage of personnel in this program area 
causes delays of project reviews thus creating conflicts between 
agencies. The consultation budget also funds FWS's work with non-
Federal entities for permitting and development of Habitat Conservation 
Plans. Lack of funding prevents FWS from ensuring that these plans are 
properly developed, implemented, and monitored. To adequately implement 
the consultation program would require an overall program budget of 
$122.4 million by 2013. We request $75 million for fiscal year 2010 , 
an increase of $21.5 million.
    Candidate Conservation.--This program protects species before they 
are actually listed, thus, in theory, averting the need to ever list 
them at all. As mentioned above though, fish, plants, and wildlife on 
the candidate list go extinct at a much higher rate than those with 
full protection--in part because of severe understaffing for this 
program. A doubling of this program's staff is justified to ensure 
adequate implementation. This would require $25.4 million annually. Our 
coalition again requests this increase be accomplished over the next 4 
years and, therefore, we request the program be funded at $15 million 
for fiscal year 2010, an increase of $4.3 million over fiscal year 2009 
levels.

               ADDITIONAL ENDANGERED SPECIES PROTECTIONS

    Cooperative Endangered Species Fund.--This fund provides grants to 
States for wildlife and habitat conservation activities on non-Federal 
lands for listed and candidate species. At least 65 percent of 
federally listed species are found on non-Federal land. Without the 
proposed increases States will fall further behind in their ability to 
independently work to protect at-risk species. Crucial conservation 
activities funded by these grants include: research, species status 
surveys, habitat restoration, captive propagation and reintroduction, 
planning assistance, and land acquisition by States for Habitat 
Conservation Plans and recovery. To adequately fund State endangered 
species conservation activities a total of at least $160 million is 
needed by 2013. We therefore request an increase of $34.5 million this 
year for a total appropriation of $110 million in fiscal year 2010.
    Landowner Incentive and Private Stewardship Grants.--These grants 
provide funding for voluntary conservation actions taken by landowners 
to conserve at-risk plants and animals on private lands, which benefits 
us all. The Landowner Incentive Program awards competitive grants to 
State and tribal conservation agencies for their work with private 
landowners and tribal lands, while the Private Stewardship Program 
provides funding directly to individuals and groups implementing 
private land conservation actions. In 2007, funding was awarded to 
efforts in 46 States. Regrettably, neither program was funded in the 
fiscal year 2008 Interior appropriations bill due to budget 
constraints; these important programs should be restarted in fiscal 
year 2010. The demonstrated need for these programs has far outstripped 
available funding in the past--the amount requested for worthy projects 
totaled two to three times the yearly available funding. To support 
private landowners in their voluntary conservation efforts, a gradual 
increase to $77 million is needed by fiscal year 2013 in these two 
incentive programs. We request that these programs be restored to their 
fiscal year 2007 levels of $23.7 million for the private landowner and 
tribal lands grants and $7.3 million for the stewardship grants. 
However, while these voluntary incentives programs are important for 
the recovery of our Nation's imperiled species, they should not be 
funded at the expense of the FWS's core endangered species programs.
    BLM-threatened and Endangered Species Management.--BLM controls 
habitat that supports more than 300 federally listed or candidate 
species. This program, along with their fisheries and wildlife 
management program, funds inventory and monitoring, habitat 
restoration, endangered species recovery, and other proactive 
conservation activities vital to maintaining healthy, functioning 
ecosystems and fish, wildlife, and plant populations. Recently, an 
average of 30 percent of these funds have been used to pay for the 
compliance activities of the BLM's energy, grazing, and other 
nonwildlife-related programs. Traditionally, funding for compliance 
work has come from benefiting programs. In addition, the programs are 
substantially understaffed. For example, the BLM has only one biologist 
per 591,000 acres of land, and more than $60 million is needed annually 
just to implement actions assigned to BLM in recovery plans for listed 
species. In addition to restoring the funds diverted to benefit other 
program areas, we request an increase of $12.6 million to begin meeting 
this program's needs, for a total appropriation of $33.2 million in 
fiscal year 2010.
    The ESA is a broadly supported law and has been very successful in 
preventing extinctions. But without the necessary funding, the act's 
true goal of restoring endangered species to healthy populations will 
be much more difficult to accomplish. We ask you, as members of the 
Appropriations Committee, to fully fund ESA programs this year. Thank 
you.

                                       ENDANGERED SPECIES-RELATED FUNDING
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year                                    Green budget
                                    Fiscal year        2010         Fiscal year   Budget request    compared to
                                   2009 omnibus     President's    2013 funding     fiscal year     fiscal year
                                       level          budget           need          2010 \1\          2009
----------------------------------------------------------------------------------------------------------------
Fish and Wildlife Service
 candidate conservation:
    Candidate conservation......          10,670          10,592          25,400          15,000           4,330
    Listing.....................          19,266          20,103          36,500          32,000          12,734
    Consultation................          53,462          56,863          22,400          75,000          21,538
    Recovery....................          74,575          76,599         121,600          95,000          20,425
    Eco services total..........         157,973         164,157         305,900         217,000          59,027
    Cooperative endangered                75,501         100,000         160,000         110,000          34,499
     species fund...............
    Landowner incentive grants..  ..............  ..............          50,000          23,700         ( \2\ )
    Private stewardship grants..  ..............  ..............          27,000           7,300         ( \2\ )
BLM: Threatened and endangered            20,582          26,000  ..............          33,200          12,618
 species management
----------------------------------------------------------------------------------------------------------------
\1\ These requests match those in the Green Budget, which is endorsed by 27 conservation and environmental
  organizations.
\2\ Equal to fiscal year 2007 levels.

                                 ______
                                 
   Prepared Statement of the Environmental Service Research Institute

Summary
    We respectfully request the subcommittee's support for a multi-
year, Government-wide effort to build a national Geospatial Information 
System (GIS), led by the Secretary of the Interior through his role as 
chairman of the Federal Geographic Data Committee (FGDC) under OMB 
circular A-16, and the United States Geological Survey (USGS). The 
total cost of the program, as detailed below, is expected to be 
approximately $1.2 billion spread over 3 years. For fiscal 2010, we 
urge the subcommittee to provide $210.5 million for the portions of 
this project within your jurisdiction.

Proposal
    The stimulus plan recently approved by Congress and the incoming 
Obama administration is an enormous undertaking to revive the American 
economy. Potentially, it will involve thousands of infrastructure and 
other projects intended to create jobs and restart economic growth 
while producing things of lasting value to American taxpayers. The 
challenge to properly manage and execute this effort will be daunting, 
requiring unprecedented access to data and information at all levels of 
government and the private sector.
    This is the moment for America to build a national GIS, that is, a 
unified, up-to-date, publiclyaccessible national digital map, enriched 
with data from all available sources, and supported by GIS technology. 
This system can be built quickly, immediately creating high-tech jobs, 
and will serve as a public resource for project planners to support 
transportation infrastructure, alternative energy research, and project 
siting. It will also provide a foundation for monitoring the U.S. 
economic recovery across our communities, allowing activities to get 
underway as soon as possible and leaving a legacy for the future.
    The benefits of a national GIS are universal. The Western 
Governor's Association declared GIS a key component of our national 
critical infrastructure. The National Geospatial Advisory Committee 
(NGAC) adopted a set of transition recommendations that represent a 
broad consensus among the key public and private stakeholders in the 
geospatial technology field and form a principal basis for this 
proposal.

Why a National GIS Should Be Completed
    Agencies have been laying the foundation for national GIS for 
years. It falls within umbrella names like Imagery for the Nation, The 
National Map, the National Spatial Data Infrastructure, and the 
pioneering work of by the USGS, the Department of Commerce (DOC) Census 
Bureau and the National Oceanic and Atmospheric Administration and the 
Departments of Homeland Security, Agriculture, and the Interior, among 
others. It is supported by technical studies from the NGAC, the 
National Research Council, the FGDC, and the National States Geographic 
Information Council (NSGIC). Now is the time to pull them together.
    GIS technology is uniquely capable of providing unity both to the 
complex new stimulus plan as well as other ongoing initiatives. GIS can 
integrate data from agencies across all levels of government, providing 
decisionmakers a powerful tool to marshal knowledge on items as diverse 
as personnel, finance, economics, infrastructure, and resources, all 
organized within maps or images showing geographic basics such as 
topography, roads, parcels, buildings, utility networks, landmarks, 
soil types, and political and physical land divisions. It brings 
together all key national datasets to support action--which is why it 
is considered a must for emergency response organizations across the 
country. A national GIS will place at our fingertips a comprehensive 
description of our Nation's assets, resources and operations, all 
linked geographically. Once completed, it will be a priceless national 
resource and an indispensable tool for planners and business alike.
    A national GIS can be built immediately, engaging hundreds of 
private firms. It will speed the start of job-rich infrastructure 
projects. Its biggest impact will be on projects critical to energy 
development, homeland security, defense, climate change, healthcare 
delivery, telecommunications, transportation, and the environment. 
Without national GIS as a management tool, efforts will be haphazard 
and project planners will be hamstrung. A national GIS must be a 
cornerstone program funded by the stimulus plan, a fulcrum to wring the 
greatest result for each $1 spent.

Technical Fundamentals of a National GIS
    A GIS system integrates information from many sources and authors 
using standardized protocols so that information can be harmonized and 
incorporated into a consistent framework to support multiple missions 
at all levels of government and private business. It can be built and 
maintained largely using on-going business processes such as The 
National Map initiative of Interior Department's USGS, and it can rely 
heavily on existing software, hardware, and networks, integrated by a 
lead organization setting standards and protocols. Existing modern GIS 
server technology, together with open standards and Services Oriented 
Architecture (SOA), can provide enabling components for a national GIS 
immediately. This architecture maximizes collaboration among government 
and private entities. Guarantees of privacy, confidentiality, 
protection of proprietary financial data, and similar concerns can be 
built in at the foundation and at every level. This national system 
will result in the following:
  --A series of standard geographic datasets (framework layers 
        described below);
  --A series of workflows that transactionally maintain (update) these 
        datasets;
  --A system for data management responsibility (FGDC governance);
  --A suite of tailored applications;
  --A designated Federal entity to oversee the effort; and
  --The necessary technology to support a national GIS system.

Leadership and Cost for a National GIS
    Both the NGAC and the Department of the Interior have developed 
detailed recommendations on how to build a national GIS. A key first 
step is to implement fully the Imagery for the Nation initiative, an 
intergovernmental plan to create a full Federal-level GIS based on 
nationwide aerial imaging and mapping, participation by agencies across 
the Federal landscape, and technological consistency.
    Next, a comprehensive national updating of mapping and 
topographical information is essential to create a complete current 
portrait of America--what is referred to as The National Map. This 
step, along with outreach to incorporate key additional databases 
maintained by State and local governments and the private sector, and 
elements such as parcels, transportation, hydro, elevation, critical 
habitat and boundaries, will be needed to make the system most 
effective for project decisionmakers and infrastructure planners. We 
anticipate the total cost to be approximately $1.2 billion, spread over 
3 years. We can provide detailed cost breakdowns upon request.
    Interagency plans, contracts, and management systems are already in 
place today to implement this initiative. Overall management could be 
provided by the Secretary of the Interior, who chairs the FGDC, with 
significant involvement from USDA, DOC, and DHS/FEMA. In addition, 
program funding can be leveraged through cooperative efforts with 
partners in State and local government and the private sector. The NGAC 
can provide ongoing strategic and recommendations program design and 
implementation.
        a national gis: key framework data and system technology
    We propose focusing on the development of five key digital layers 
or initiatives as initial steps toward a national GIS: imagery, parcel 
data, elevation, and wildlife habitat, and Recovery.gov.

Imagery
    Imagery for the Nation (IFTN) is an intergovernmental initiative to 
address the Nation's basic business needs for aerial images. Imagery is 
used for countless applications in all levels of government and the 
private sector, embraced by the public through online tools such as 
Google Earth and Microsoft Virtual Earth. Partnerships between levels 
of government to acquire imagery data have lowered costs, reduced 
duplication, and allowed greater data standardization. IFTN will 
maximize the impact of taxpayer investments through a coordinated 
national acquisition program. The IFTN initiative was originated by the 
National States Geographic Information Council, been endorsed by the 
FGDC and the NGAC, and involves a heavy investment from the U.S. 
Department of Agriculture. The approximate 3-year total cost for this 
activity is $140 million, equally split between the Departments of the 
Interior and Agriculture. For fiscal year 2010, we urge the 
subcommittee to provide $23.4 million for Interior's component.

Parcel Data
    Based on the National Academies of Science, National Research 
Council (NRC) recent report ``National Land Parcel Data: A Vision for 
the Future,'' the land parcel data layer (also known as cadastral data) 
is used by governments to make decisions on land development, business 
activities, regulatory compliance, emergency response, and law 
enforcement. The NRC report concludes that nationallyintegrated land 
parcel data is necessary, feasible, and affordable. Development of a 
national land parcel system would also provide an invaluable analytical 
tool to help manage the mortgage crisis. The NGAC endorsed the 
recommendations in the NRC report in October. The approximate 3-year 
total cost for this activity is $200 million for the Department of the 
Interior. For fiscal year 2010, we urge the subcommittee to provide $67 
million for Interior's component.

Elevation
    Today, high-density digital elevation models are produced by a 
technology called LiDAR and IfSAR, an aerial mapping technology that 
provides highly accurate mapping of ground elevations. FEMA currently 
uses LiDAR data for flood mapping whenever such data are available. 
LiDAR data are also being utilized extensively in natural resource 
management, and new uses are being demonstrated for emergency response 
and homeland security purposes. An investment in a national elevation 
initiative would produce consistent elevation dataset encompassing the 
entire country. The approximate 3-year total cost for this activity is 
$300 million, equally split between the Department of the Interior and 
the National Oceanic and Atmospheric Administration. For fiscal year 
2010, we urge the subcommittee to provide $50 million for Interior's 
component.

Wildlife Corridor/Crucial Habitat
    The pressure for rapid economic development and increased energy 
production threatens our natural resources. The Western Governors' 
Association has recommended a Wildlife Corridor and Crucial Habitat 
Decision Support System. This system will support informed decisions on 
community growth, alternative energy expansion, biodiversity 
preservation, and resolving water resource issues. This effort will 
produce a consistent nationwide wildlife map and GIS management system. 
The approximate 3-year total cost for this activity is $110 million for 
the Department of the Interior. For fiscal year 2010, we urge the 
subcommittee to provide $36.7 million for Interior's component.

System Technology/National Base Map
    In order to create a national GIS it is necessary to update and 
integrate the many currently existing individual agency map layers into 
a consistent, integrated whole. USGS would lead this effort and combine 
information into a consistent geospatial foundation. This component 
will, over the next 3 years, require an additional $450 million spread 
over a variety of Federal Departments and agencies, including the 
Departments of the Interior ($100 million), Agriculture ($50 million), 
Commerce ($50 million), Homeland Security ($50 million), and others 
($200 million). For fiscal year 2010, we urge the subcommittee to 
provide $33.4 million for Interior's component.

A GIS-based recovery.gov
    Finally, President Obama has insisted that stimulus spending be 
subject to maximum transparency and accountability, enabling citizens 
to understand how their funds are being spent and how their communities 
will be affected. Recovery.gov, the Web-based tool being launched by 
the Office of Management and Budget for this purpose, must provide 
complete, understandable, authoritative and actionable information and 
analysis to elected and appointed officials, and to ordinary citizens. 
We propose that Recovery.gov be equipped with interactive maps and 
geospatial analytic tools that will substantially improve understanding 
and effectiveness of Recovery Act execution. An interactive map 
provides an intuitive foundation to understand, integrate, and 
interrogate this disparate and overwhelming amount of information, and 
to support better and timelier analysis and decisions. The application 
of GIS technology would allow public users to access and view Recovery 
Act spending patterns against established goals and underlying local 
and national conditions. In this way, it will allow the public to 
evaluate whether the Government is making the right choices on where 
money is spent, and whether spending is yielding the right results. The 
approximate 3-year total cost for this activity is $10 million.

                               CONCLUSION

    The key step is to get it done now. America's financial crisis 
today, the worst since the end of World War II, will force difficult 
actions and decisions. Large expenditures of taxpayer money must be 
designed to yield products of long-term benefit to the country. America 
has an information economy, and a robust geospatial infrastructure 
(system of digital maps and tools) is just as vital to its continued 
development as was the physical infrastructure to the industrial 
economy. A national GIS, properly designed and effectively implemented, 
providing public access and using best technologies, will speed 
economic recovery by producing jobs and putting shovels in the ground 
more quickly. It will also leave the country with a public utility, a 
modern geospatial information system, that itself can become a 
foundation for new generations of industries and technologies in the 
future.
                                 ______
                                 
      Prepared Statement of the Enewetak/Ujelang Local Government

    Madam Chairman and distinguished members of this subcommittee: 
Thank you for providing us this opportunity to the people of Enewetak 
to describe issues that relate to our ability to live on our homeland 
of Enewetak Atoll, which was used as a nuclear test site by the United 
States from 1947 to 1958.
    As the only people ever resettled on a nuclear test site, we face 
many challenges. Life on Enewetak Atoll is made possible through 
support provided by the congressionally funded Enewetak Food and 
Agriculture Program. That program provides funding for imported food, 
an agriculture rehabilitation program, and the operation of a vessel. 
We request that funding for that program for fiscal year 2010 be 
increased by the amount of $500,000, the same amount of increase as 
provided by Congress in fiscal year 2009. Also, we hope that this 
subcommittee will support continued funding of the health program for 
the four nuclear affected atolls of which we are one, and funding for 
the environmental monitoring by the Department of Energy of the Runit 
Island nuclear waste site which is on our atoll.
    Before we discuss the particulars of this request, we would first 
like to thank you, Madam Chairman, and members of this subcommittee, on 
behalf of the Enewetak people, for your support in funding the food and 
agriculture program for my people in the Compact of Free Association. 
We also thank you for your past support in assuring that the Enewetak 
Food and Agriculture Program is adequately funded, particularly your 
support for the $500,000 increase for fiscal year 2009 and your 
approval of our request to purchase a replacement vessel during fiscal 
year 2008 from previously appropriated program funds.
    As you know, Enewetak Atoll was the site of 43 of the 67 nuclear 
tests the United States conducted in the Marshall Islands. We were 
removed from our land by the U.S. Government to make that testing 
possible. We were exiled from our land for a period of more than 33 
years--a period in which we suffered near starvation, poor health, and 
lack of education.
    In 1980, after a significant cleanup, soil rehabilitation, and 
resettlement effort undertaken by the United States, we were able to 
return and live on only a part of our land. A large part of our land 
and environment remain contaminated making it impossible for us to rely 
on our natural food resources and preventing us from developing a 
fishing or tourist economy.
    We now live on a former nuclear test site. In fact, we are the only 
people ever resettled on a nuclear test site. The Enewetak Food and 
Agriculture Program makes life on Enewetak possible. And that is why we 
are so thankful to you for assuring funding in the minimum amount of 
$1.3 million for the program in the Compact.
    However, the program was funded at a level of approximately $1.8 
million in fiscal year 2009 and close to that amount for the past 
several years. That funding level needs to continue to maintain the 
minimum components of the program which include a soil and agriculture 
rehabilitation program, the importation of food, and the operation of a 
vessel. Therefore, we request your support for the additional $500,000 
for the program for fiscal year 2010 so that the components of the 
program will be funded in the total amount of $1.8 million, as has been 
the case these past several years.
    In 2008, we faced a challenge with regard to the transportation of 
food, material, equipment, supplies, and transport of people to and 
from our atoll. Our atoll is the most distant atoll from Majuro Atoll, 
the capital of the Marshall Islands. In fact, the distance between 
Majuro and Enewetak is 600 miles one way. All of our food, material, 
supplies, and equipment are sent to Majuro for further trans-shipment 
to Enewetak. Consequently, a reliable vessel is a lifeline for us. The 
vessel available to us up to fiscal year 2009 was so old that parts 
were difficult if not impossible to find. Therefore, we were in the 
market for a replacement vessel that would be even more suitable for 
voyages between Enewetak and Majuro than the vessel we had. We found a 
suitable vessel and greatly appreciate the approval provided by this 
subcommittee to purchase the replacement vessel from previously 
appropriated program funds. That vessel was in service as of 2008 and 
provides the necessary sea transport to support each of the components 
of the program.
    A final comment on the Enewetak Food and Agriculture Program: This 
program is a true success story. It allows us to live on our homeland 
while providing the resources which allow us to attempt to accomplish 
some of the rehabilitation required to transform part of the atoll from 
a severely damaged nuclear test site to a place that more resembles 
home. The additional $500,000 to maintain current funding levels will 
ensure the continued success of this program.
    Now we would like to briefly address the four atoll healthcare 
program. Funding for fiscal year 2010 is necessary to continue the 
program. We appreciate the funding for such program provided by the 
Congress in the amount of $1 million for fiscal year 2009. However, 
continued funding is required to maintain the key elements of the 
program which provide for an on-site physician for each of the four 
atolls, necessary medicines and supplies, funding for a health aide for 
each atoll, and funding for care of the people of the four atolls at 
the hospitals in the Marshall Islands when required.
    Lastly, we need to mention the nuclear waste site on Runit Island. 
That site was built by the United States and contains more than 110,000 
cubic yards of material including plutonium and other radioactive 
debris. This site needs to be monitored to assure the integrity of the 
structure and to assure that no health risks from the radioactive waste 
site are suffered by us. To effect the foregoing, a long-term 
stewardship program of Runit Island needs to be implemented by the 
United States.
    Again, Madam Chairman, we thank you and members of this 
subcommittee for your support which makes life possible for us on our 
home atoll of Enewetak.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa

    I am Karen R. Diver, Chairwoman of the Fond du Lac Band of Lake 
Superior Chippewa. Thank you for considering our testimony on fiscal 
year 2010 appropriations. The Fond du Lac Band provides health, 
education, social, and other governmental services to 6,500 Indian 
people living on or near our reservation in northeastern Minnesota. 
These programs are essential to our ability to educate our children, 
care for our elderly and infirm, prevent crime, and protect and manage 
natural resources, but have long been under-funded.
    Bureau of Indian Education (BIE): Education.--The Fond du Lac Band 
relies on Bureau of Indian Education funding for the operation of the 
Band's pre-K through grade 12 Ojibwe School. We fully support the 
President's proposal to increase funding for Indian education as these 
increases are badly needed. The Ojibwe School serves approximately 320 
students most of whom are tribal members or descendants of tribal 
members. Most come from very low-income households; 92 percent of our 
students qualify for free or reduced-rate lunch. Although American 
Indian students are the most at-risk group of students in our Nation, 
funding shortfalls have forced us to layoff 7 FTE and reduce working 
hours for 20 education personnel. If our students are to succeed, our 
schools need a commitment of high-priority support so that we can pay 
competitive salaries to attract and retain skilled teachers; invest in 
research-based reading and math curricula; keep pace with costs of 
student transportation; and provide early childhood development 
programs.
    Increases in the BIE Indian School Equalization Program formula 
funds are critical part of this. We also support increased funding for 
school construction and repair as past funding has failed to keep pace 
with the growing backlog of Indian schools and facilities needing 
replacement or repair. Increases are also needed for both scholarships 
and student transportation. Unpredictable rising fuel costs and the 
lack of a formula that accounts for the need to replace vehicles 
creates a risk that we will not be able to provide safe and reliable 
transportation services to our students. In addition, we support the 
President's proposal to continue to fund the Johnson O'Malley program. 
This program addresses the unique educational and cultural needs of 
American Indian children attending both public and tribal schools 
through the use of Indian parent committees. Decades of research 
confirm positive results from parental involvement in student 
education.
    Finally, we ask that education programs be determined locally by 
the schools and not dictated by the central office as the schools are 
often in the best position to know what works. In this regard, we were 
very pleased to hear that the President proposes to eliminate the prior 
administration's Reading First program. We fully support that decision 
as that program had been shown to be ineffective but was still imposed 
on our schools. We urge Congress to replace failed programs with funds 
that can be targeted to effective ones as determined by the schools 
themselves.
    Bureau of Indian Affairs (BIA): Public Safety and Justice.--We 
fully support the President's proposal to increase BIA funding for law 
enforcement. We also ask that Congress increase the Band's base funding 
by $2 million for court operations and law enforcement, and provide a 
one-time appropriation of $8 million to allow us to expand the facility 
that houses our law enforcement department but which is completely 
inadequate for that purpose.
    We continue to face massive unmet needs for law enforcement. We had 
to assume responsibility for law enforcement after the Minnesota 
Supreme Court ruled that the State did not have jurisdiction to enforce 
traffic laws on roads within Indian reservations, State v. Stone, 572 
N.W. 2d 725 (Minn. 1997). We have done this using a combination of 
tribal and Federal funds (made available through the Community Oriented 
Policing Services program and the BIA), and by cooperative agreements 
with local law enforcement agencies. But because of the insurgence of 
methamphetamine, alcohol, illegal prescription drug use, and gang-
related activities on our reservation our law enforcement 
responsibilities continue to grow. Prescription drug abuse is an 
epidemic. Increasing numbers of our elders and others are the victims 
of more frequent assaults and robberies that are prescription drug-
related. Our officers are responding to a growing number of drug 
related overdoses and deaths, as well as juvenile offenses involving 
drugs, alcohol, thefts, assaults, and burglaries.
    To address these problems, we need to increase our law enforcement 
staff so that we can station police officers in specific locations, 
such as near elderly housing, and ensure effective law enforcement 
coverage 24/7. But we do not have the funds to do this. We currently 
employ 12 patrolmen, 1 investigator, 1 school resource officer 
(assigned to the Ojibwe school to try and stem the tide of juvenile 
crime), a Chief of Police, and 3 administrative staff. Our goal is to 
schedule 3 officers per shift, but we do not have sufficient funds to 
do this around the clock. Fewer officers on duty means serious safety 
issues for both officers and the people we need to protect. Our limited 
staff also means that we cannot implement pro-active measures, such as 
youth education and outreach programs, and assistance to the clinics in 
developing means for identifying and preventing prescription drug 
abuse. To effectively address law enforcement, we need approximately 20 
officers but do not have the funding for this.
    Federal funding is also vital for law enforcement equipment. To 
effectively address crime, we must periodically upgrade or replace 
patrol cars, radar equipment and car radios. We need new computer 
software to integrate the Band's dispatching system with that used by 
the counties as well as a T-1 communications line to establish a more 
secure connection to that system.
    Finally, we need a new facility for our law enforcement department. 
The department is now housed in a 6-room building which we share with 
the Band's housing program, and which has no room for investigative 
interviews, nor office space for specialty positions such as 
investigators. The evidence room and reception area are all completely 
inadequate for law enforcement purposes. A new building is essential.
    BIA: Natural Resources.--We support the President's proposal to 
increase funds for BIA Natural Resource programs. At Fond du Lac, we 
need long-term funding to pay for staff and equipment to adequately 
manage natural resources. Natural resources, both within and outside 
the reservation are essential to tribal members' subsistence, culture, 
and employment and the Band's right to access these resources was 
reserved by our Treaties with the United States in 1837 and 1854. In 
connection with these rights, the Band is responsible for managing 
natural resources and for enforcing conservation laws that protect 
natural resources and regulate tribal members who hunt, fish, and 
gather those resources within and outside the reservation. Funding is 
essential for that work. We request that $2 million be added to our 
base budget for Resource Management programs, as funds for this program 
have not been increased since 1991.
    BIA: Tribal Forestry.--Fond du Lac's forest management program has 
been funded through a self-governance compact since 1994 but funding 
for the base forestry program has remained flat and can no longer 
support the original positions of a Forest Manager and a Technician. An 
additional $69,000 is needed to fully fund the original two forestry 
positions.
    BIA: Mapping Native Plant Communities.--The Band requests $150,000 
to map native plant communities on the reservation. Mapping native 
plant communities (or Habitat Typing) is an important tool in forest 
management and in managing wildlife habitat and ecological functions. 
The Band would use these funds to do a complete inventory of the native 
plant communities cross referenced with an index of important Ojibwa 
plants. The inventory and maps would be made available to the Fond du 
Lac public through the Internet. Knowledge of the distribution of 
native plant communities will help managers determine appropriate 
future habitats.
    BIA: Circle of Flight.--We also urge Congress to restore funding to 
the Circle of Flight Tribal Wetland & Waterfowl Enhancement Program. 
Congress did not fund this program in fiscal year 2009 appropriations. 
Circle of Flight has been one of Interior's best performing trust 
natural resource programs. In 2008, Fond du Lac was able to use funds 
from this program to restore 41 acres of wild rice habitat in 
partnership with Minnesota, the Fish and Wildlife Service, and the 
USDA. The preservation and restoration of wetlands are important in 
providing flood control, clean water and recreation, benefiting tribes 
and other residents up and down the Mississippi Flyway.
    BIA: Human Services.--We urge Congress to increase funding for 
Human Services programs including those funded through TPA, such as the 
Indian Child Welfare Act (ICWA) program. Increases are needed to 
address the impact that the methamphetamine epidemic has on not only 
public health and safety, but also on child protection, child welfare 
and foster care services. Increased funding for Social Services and 
ICWA programs are essential if tribes are to have any realistic hope of 
protecting Indian children, preventing domestic violence, and fostering 
Indian families.
    Indian Health Service (IHS).--We support the President's proposed 
increase in funding for IHS. This increase is essential to address the 
high rates of medical inflation and the substantial unmet need for 
healthcare among Indian people. Indians at Fond du Lac, like Indians 
throughout the Nation, continue to face disproportionately higher rates 
of diabetes and the complications associated with diabetes, than the 
rest of the population. Heart disease, cancer, obesity, chemical 
dependency, and mental health problems are also prevalent among our 
people. While other Federal programs, like Medicare and Medicaid, have 
seen annual increases in funding to address inflation, the budget for 
IHS has never had comparable increases, and, as a result, IHS programs 
have consistently fallen short of meeting the actual needs. All Indian 
tribes should receive 100 percent of the Level of Need Formula (LNF), 
which is absolutely critical for tribes to address the serious and 
persistent health issues that confront our communities. The Band serves 
approximately 5,900 Indian people at our clinics, but the current 
funding level meets only 38 percent of our healthcare funding needs. In 
addition, the Band requests an increase in funding for substance abuse 
and mental health programs in order to combat the growing 
methamphetamine problem on our reservation.
    Environmental Protection Agency (EPA): Tribal Air Quality 
Management.--We urge Congress to increase funding for Tribal air 
quality management. We have operated an air quality monitoring program 
since 1999, and the demands on our program have increased over time. A 
growing number of large industries are located within 60 miles of the 
reservation and impact our air quality. These include Excelsior Energy 
(a coal-gasification plant), Minnesota Steel (new taconite plant), 
Polymet (Cu-Ni mine), Enbridge pipeline expansion, Mittal Steel 
(taconite plant), and U.S. Steel-Keetac (taconite mine expansion). 
Because of this, we test for mercury and operate ambient monitors for 
nitrous oxides, ozone, and fine particulate matter. In addition, we run 
indoor air programs on lead, radon, and mold and provide outreach 
services to tribal members. Demand for the indoor air programs is 
increasing with new housing construction on our reservation.
    Unpredictable funding and, in particular, funding reductions are 
very disruptive to a program's success. As a result of a 25 percent 
funding cut in 2008, we lost experienced staff. We are also concerned 
that there may be less money available for Tribal Air Program grants 
through our region (region 5) in 2009, which may force further cuts. 
Given the critical need to protect reservation air quality, we urge 
that fund levels for Tribal Air Quality programs be increased.
    EPA: Clean Water and Drinking Water Programs for Tribes.--We 
support the President's proposal to increase funding for Clean Water 
and Drinking Water Programs and urge that these include increases to 
the funding for tribally administered programs The Fond du Lac Band 
administers a water quality program within the reservation. Forty-four 
percent of the lands within our reservation are wetlands which, in 
turn, support many natural resources on which our tribal members depend 
for subsistence--wild rice, fish, wildlife, and culturally important 
plants. These resources, however, are being adversely affected by 
mining activities which, although outside the reservation, directly 
affect the watersheds upstream of the reservation. Current program 
funding levels are not sufficient to support surface water quality and 
wetland program implementation. And additional funding is needed to 
conduct the necessary environmental reviews, water quality tests, 
mapping, and analysis to enable us to identify environmental impacts of 
proposed projects outside the reservation on tribal resources, so that 
we can provide recommendations on project planning, mitigation, and 
alternatives to avoid adverse environmental impacts.
    In conclusion, the needs at Fond du Lac and throughout Indian 
country remain massive. Your support on these funding issues is 
essential to our ability to maintain vitally important programs and 
improve the delivery of services to Band members. Miigwech. Thank you.
                                 ______
                                 
 Prepared Statement of the Friends of Alaska National Wildlife Refuges

    Mr. Chairman and members of the subcommittee: On behalf of the 
Friends of Alaska National Wildlife Refuges, I wish to express our 
appreciation for the opportunity to provide this statement concerning 
the fiscal year 2010 appropriations for the National Wildlife Refuge 
System (NWRS). We urge adoption of a funding level of $514 million for 
fiscal year 2010 for the NWRS, the amount advocated by the Cooperative 
Alliance for Refuge Enhancement and the House National Wildlife Refuge 
Caucus. This funding level will help to address recent reductions of 
staffing and programs vital to ensuring the NWRS's wildlife and habitat 
conservation mission and will put the NWRS on the path to reach 
adequate baseline funding of $765 annually by fiscal year 2013.
    The Alaska Friends is a 501(c)(3) nonprofit organization composed 
of individuals who reside throughout the State of Alaska and many lower 
48 States. We work on a volunteer basis to assist the U.S. Fish and 
Wildlife Service (FWS) to accomplish their congressionally mandated 
mission for the 16 Alaska National Wildlife Refuges. The Alaska Refuges 
encompass more than 77 million acres and comprise approximately 83 
percent of the lands in the NWRS, but they receive approximately 12 
percent of the total budget for the NWRS.
    We appreciate the foresight of your subcommittee in successfully 
spearheading the critically needed budget increases for fiscal year 
2008 and fiscal year 2009 to the current level of $463 million. 
However, a funding level of $514 million for fiscal year 2010 is needed 
to avert continuing reductions in personnel and operations. Every year, 
the FWS needs at least a $15 million increase just to maintain current 
personnel and operations, and that is likely to increase as energy 
costs and inflation rise. In response to past budget shortfalls, FWS 
has been forced to downsize and eliminate staff, resulting in 
completely destaffing scores of refuges and requiring: remote 
management of many refuges; major reductions in visitor services, 
wildlife and habitat management, conservation, and restoration; 
diminished hunting and fishing opportunities; limited ability to 
control damaging invasive species; curtailment of environmental 
education programs; and reductions in law enforcement.
  --The NWRS tracks its backlog of needs in two major areas:
    Deferred Maintenance.--Needs associated with maintaining 
constructed assets, such as administrative and visitor buildings, 
roads, levees, water control structures, visitor facilities, and 
underground water lines. This work is considered ``deferred'' because 
it is overdue and funding resources are not currently available to 
complete the work.
    Operations.--Needs associated with the annual operation of a refuge 
in all respects. These include staffing needed to manage habitat, 
provide law enforcement, provide services to visitors, and maintain 
assets. These needs can also be contracts or projects, such as 
controlling invasive species, monitoring habitat, restoring wetlands, 
and developing an environmental education curriculum. These needs are 
calculated in dollars as well, but it can be in the context of staff 
salaries, contracts, or supplies and materials needed to complete 
projects.
  --The NWRS's deferred maintenance backlog tracked in the Service 
        Asset and Maintenance Management System database has hovered 
        around $2.5 billion for the past few years.
  --The NWRS's operations backlog is tracked in the Refuge Operating 
        Needs System database (RONS). For several years the operations 
        backlog has hovered around $1 billion, and a portion of that $1 
        billion has been assigned a higher-priority status called 
        Mission Critical. For the past few years the Mission Critical 
        part of the backlog was approximately $335 million. When 
        refuges updated their highest-priority needs in RONS in late 
        2008, the Mission Critical part of the backlog grew to $355 
        million.
  --The increase in the Mission Critical backlog is primarily due to 
        the addition of refuges and the use of models that more 
        accurately predict staffing needs. However, the backlog figures 
        do not reflect the needs for 50 million acres recently added to 
        the NWRS through the designation of the three new marine 
        monuments (Rose Atoll, Mariana Trench, and Pacific Remote 
        Islands).
    As of January 2009, the RONS projects in Alaska Refuges totaled 
$272 million. Alaska's wildlife refuges have special management and 
budgetary needs because they occupy a unique place within the NWRS. 
This is clearly illustrated by the Alaska Maritime Refuge, which is 
headquartered in Homer. Spread out along most of Alaska's 47,000 miles 
of coastlines, the Maritime Refuge includes some 2,500 islands, islets, 
pinnacles, active volcanoes, and headlands that are home to 40 million 
seabirds (80 percent of all seabirds in North America) and significant 
populations of marine mammals, including fur seals, otters, whales, and 
Steller sea lions. The Maritime Refuge stretches from Forrester Island 
in the southeastern corner of Alaska north to Point Barrow on the 
Arctic Ocean and west to Attu Island at the end of the Aleutian Chain 
in the Eastern Hemisphere. The distances are daunting; traveling east 
to west across the Refuge is approximately the same distance as a trip 
from the Atlantic Coast of Georgia to the Pacific Coast of California, 
and logistically much more complex and expensive.
    Management and monitoring of the far-flung Maritime Refuge is a 
prodigious and costly task. This requires long-term scientific studies 
and monitoring of populations, habitat, and trends in the ocean 
environment; eradication of destructive invasive species, such as 
farmed foxes, rats, and invasive plants; restoration of habitat damaged 
by cattle, horses, and the increasing threat of oil spills; and 
restoration of native species exemplified by the successful 20-year 
effort that brought the Aleutian cackling goose back from the brink of 
extinction. The Maritime Refuge's 120-foot research vessel Tiglax 
travels up to 22,000 nautical miles in a single year to support such 
activities. These types of activities on Alaska's refuges require 
substantial resources in terms of personnel, equipment, travel, fuel, 
supplies, and maintenance. Thus, any direct or indirect reductions in 
budgets can have severe effects on the management capability of 
Alaska's refuges and long-lasting impacts on the wildlife and habitat 
that play a central role in the biological health of the entire 
continent.
    To effectively manage the Alaska Refuges, the Alaska region has 
adopted a goal of devoting 30 percent of its budget to Management 
Capability (MC) and 70 percent to personnel, as compared to a national 
target of 20 percent and 80 percent, respectively. This greater 
allocation to MC is necessitated by the inherently higher costs of 
equipment, such as boats and airplanes rather than trucks, higher fuel, 
and other utility costs for the more remote offices and stations 
located in Alaska Refuges, and higher costs of repairs and maintenance 
of equipment and buildings in the many remote areas. For example, in 
2006 the Tiglax required $98,000 and refuge aircraft required $506,000 
in fuel with major increases in the past 2 years, and remote refuge 
offices pay a premium to operate in rural Alaska.
    In recent years, budget reductions and lack of funding to meet 
increased costs of operations and maintenance caused by inflation have 
placed a great strain on these resources. This led to continuing staff 
reductions to maintain the MC level that is necessary to implement the 
basic programs of the 16 Alaska Refuges. For 10 years, the Alaska 
region has been actively working to maintain its MC at 30 percent. 
Since 1999, it has made ``full inflation offsets'' a top priority. When 
the RONS increases began to dwindle in 2003, the Alaska region began 
the process of abolishing positions and using the savings to fund 
inflation offsets. During fiscal year 2005 through 2007, downsizing 
resulted in the elimination of 29 positions, including assistant 
managers, education specialists, and biologists, and the salary savings 
were rolled into inflation offsets for all 16 Alaska Refuges.
    The 16 Alaska Refuges provide a myriad of opportunities to more 
than 1.3 million visitors each year. There are summer science camps and 
local environmental education programs, mainly in rural areas and 
native communities and schools; outstanding recreational opportunities, 
such as fishing, hunting, hiking, boating, wildlife viewing, and 
photography; important subsistence activities that support the 
traditional lifestyles of Alaska Natives and other rural residents; 
partnering with native corporations and local governments that provide 
valuable experiences and job opportunities, such as Refuge Information 
Technicians; and cooperative programs and matching grants with the 
Alaska Friends to conduct rural outreach and environmental education 
programs and to remove invasive species that threaten the health and 
integrity of refuge ecosystems. The contribution of refuges to local 
economies is illustrated by the Kenai Refuge where every $1 spent by 
the Refuge produces almost $15 in local recreational expenditures and 
more than $12 million in local tax revenues.
    Invasive plant species are advancing northward and threatening the 
habitats of Alaska Refuges. With 50 percent cost-share funding for the 
3 years, Alaska Friends volunteers have removed invasive species 
affecting six Alaska refuges. In conjunction with these activities, we 
organized public meetings to inform the local populace about their 
refuges and the opportunities and challenges they provide. This year, 
we have several similar projects underway. Without matching funding, 
these volunteer programs could not continue the work to protect our 
valuable wildlife habitats from destructive invasives.
    In addition to the traditional refuge programs and activities, the 
Alaska Refuges are uniquely situated to contribute information and 
expertise to major national and worldwide problems. The mounting 
scientific evidence of global warming has shown that northern Alaska is 
experiencing far greater impacts than other regions. The rate of 
temperature increase in Alaska is twice that of the lower 48 States. 
Coastlines, nesting areas, and villages are being severely damaged by 
the decreasing size of polar icepacks and the longer ice-free periods, 
which increase the severity and destructiveness of coastal storms. 
Homes, offices, and other structures are being destroyed by the melting 
of permafrost, and plant and animal species are advancing northward to 
areas where they have been unknown in human history. These changes not 
only interfere with the subsistence way of life of rural Alaskans, but 
they impede and increase the costs of refuge research, management, and 
maintenance. Given adequate budgetary support, the Alaska Refuges can 
provide extremely valuable biological and climatological studies and 
monitoring to increase our understanding of the processes and hopefully 
design and implement mitigation projects to reduce the impacts of 
global climate change.
    The Alaska Refuges are also on the frontlines of potential 
transmission of avian influenza by migratory birds from Asia. Since a 
major portion of these populations depends on refuge habitats during 
migration and breeding, early detection can be improved by monitoring 
programs conducted within the refuges. There is presently some funding 
available to support such monitoring programs, but continued or 
increased funding may be necessary to provide adequate early warning 
capability.
    Failure to increase the budget of the Alaska National Wildlife 
Refuges will result in:
  --reduced subsistence and recreational opportunities;
  --fewer visitor services;
  --loss of important environmental education and science camps, 
        especially for children and youth in rural native villages;
  --increased maintenance backlogs;
  --reduction of important scientific studies, such as wildlife 
        population and habitat monitoring and enhancements that assist 
        in understanding global climate change and avian influenza; and
  --overall degradation and decay of the NWRS and public enjoyment of 
        the resources
    Finally, the Alaska Friends is strongly opposed to a provision 
included in the 2009 Public Lands Omnibus bill that may result in a 
land exchange for a road through the Izembek National Wildlife Refuge, 
Alaska. We believe that the $37.5 million Congress appropriated in 1998 
for a solution to the transportation needs of the town of King Cove has 
already addressed the town's health and safety needs by resulting in: 
an upgraded medical clinic; purchase of a state-of-the-art hovercraft 
that has met every medical evacuation need since it became operational 
in February 2007, and construction of a marine terminal and road to 
access the terminal. We urge the subcommittee to prohibit funds for 
activities that would advance a road, and feel it is particularly 
difficult to rationalize this questionable expenditure given the budget 
shortfalls the FWS is facing.
    We urge you to adopt the recommended $514 million appropriation for 
the NWRS which will allow necessary programs to be maintained and 
enhanced for our magnificent National Wildlife Refuges. We have an 
obligation to provide future generations the same opportunities to 
learn and benefit from our NWRS that all of us enjoy today.
                                 ______
                                 
             Prepared Statement of the Friends of Back Bay

    I am Molly Brown from Virginia Beach, Virginia. I am the President 
of Friends of Back Bay, a group of more than 400 dedicated volunteers 
who are committed to the protection of the Back Bay National Wildlife 
Refuge. Located in southeastern Virginia Beach, Back Bay National 
Wildlife Refuge (Refuge) was established on February 29, 1938, as a 
4,589-acre refuge and breeding ground for migratory birds. We thank 
Congress for their continued support of this project. The Director of 
the U.S. Fish and Wildlife Service approved a Refuge boundary expansion 
on May 7, 1990. The expansion area includes 6,340 acres of important 
wildlife habitat. To date the Fish and Wildlife Service (FWS) has been 
able to acquire 4,980 acres.
    In order to continue the Back Bay Refuge expansion project, we 
respectfully request $1.5 million for fiscal year 2010. This money will 
help to fill in the mosaic pattern of small land parcels from willing 
sellers who have been waiting patiently to sell their land to the 
Refuge. This continuing project was first funded by Congress in 1990. 
With only a few remaining parcels to purchase, we hope Congress will 
want to see this Back Bay project completed.
    The enclosed map gives a visual description of the acquisitions 
through 2008 and the remaining parcels by priority to be purchased from 
willing sellers within the Back Bay National Wildlife Refuge proposed 
acquisition boundary. Here is a brief description of each parcel.
    Priority 1--Sanford.--Twenty-six acres, much of which is valuable 
riparian/wetland habitat on the northern bank of Nanney's Creek This 
Creek has been identified as one of Virginia Beach's ``impaired 
waterways'' by the State DEQ. Cooperative efforts by private landowners 
(mostly farmers), the City of Virginia Beach, the State of Virginia and 
Back Bay NWR are ongoing to restore the water quality of this tributary 
of Back Bay. Existing Refuge property is immediately adjacent to this 
tract on its east and west boundaries.
    Priority 2--Griffith.--One hundred five acres of emergent marsh 
habitat on the east side of Back Bay This property already supports a 
wide variety of nesting and wintering migratory birds, especially 
waterfowl.
    Because this parcel is located on the bay side of the highly 
developed Sandbridge area of Virginia Beach, failure to acquire this 
piece could result in increased private recreational boating facilities 
by individuals who own lots/houses adjacent to this property.
    Priority 3--Van Nostrand.--Fifteen acres of timbered wetlands on 
the west side of Back Bay. This property has been cleared, and is ready 
for farming and/or development. Although the current habitat has little 
wildlife value, reforestation of this parcel, as Back Bay NWR has done 
with so many other parcels, will serve as quality habitat for a variety 
migratory birds, especially neotropical migrants. This property has an 
approved appraisal, and the landowner has been presented with an option 
to buy.
    Priority 4--Rice.--Eight acres, much of which is valuable riparian/
wetland habitat on the southern bank of Nanney's Creek This Creek has 
been identified as one of Virginia Beach's ``impaired waterways'' by 
the State DEQ. Cooperative efforts by private landowners (mostly 
farmers), the City of Virginia Beach, the State of Virginia and Back 
Bay NWR are ongoing to restore the water quality of this tributary of 
Back Bay. This property is adjacent to existing Refuge property on its 
north and east boundaries.
    Good things continue to happen at Back Bay. A new educational 
project to enhance the wildlife viewing opportunities of the public is 
the ``windows on wildlife.'' This one-way glass will allow the public 
to watch migratory birds without being seen by and thus disturbing the 
waterfowl. This project opened this winter. On a recent January day, 
the pond featured a visual smorgasbord of tundra swans, Canada geese, 
black sucks, snow geese, mallards, and pied-billed grebes. A red-tail 
hawk flew close to the building and landed on the branch of a nearby 
tree.
    This March the Back Bay Restoration Foundation is conducting its 
8th annual Back Bay Forum 2009. There were presentations on research 
and data collected within the Back Bay watershed, followed by an 
opportunity for participants to identify future research and action 
needed for the health of the bay system. Scientists stated that 
conditions are improving since last year. The water clarity is better 
and vital underwater grasses are growing again. Large numbers of ducks 
are coming back. The local hunters had a very successful season.
    I wish to extend my appreciation for the funding that you 
appropriated through fiscal year 2008. The $505,000 that was 
appropriated in fiscal year 2008 has purchased 47 acres of a key parcel 
along Nanney's Creek. To date we have purchased 4,980-acres of the 
proposed 6,340-acre expansion. This means that this project is more 
than 78 percent completed in 17 years. Thank you for the opportunity to 
comment on this important project.
                                 ______
                                 
   Prepared Statement of the Friends of Blackwater National Wildlife 
                                 Refuge

    Mr. Chairman and members of the subcommittee: On behalf of the 
Friends of Blackwater National Wildlife Refuge located near Cambridge, 
Maryland, I am submitting testimony for the Senate Appropriations 
Subcommittee on Interior, Environment, and Related Agencies concerning 
the fiscal year 2010 budget for the National Wildlife Refuge System 
(NWRS). We respectfully request that the subcommittee support the 
following funding levels:
  --$514 million in fiscal year 2010 for the U.S. Fish and Wildlife 
        Service's (FWS) NWRS Operations and Maintenance (O&M) account;
  --$60 million for the Partners for Fish and Wildlife Program, of 
        which $2 million be allocated to conduct strategic habitat 
        conservation around national wildlife refuges in strategic 
        partnerships among the FWS, refuge Friends and other national, 
        regional and local interests;
  --$1 million for the Volunteer Invasive Monitoring Program and grants 
        for invasive species work with Friends;
  --$900 million over the next 5 years, as President Obama has 
        requested for the Land and Water Conservation Fund, and for 
        fiscal year 2010, $100 million for the FWS land acquisition 
        budget to acquire habitat and marshlands from willing sellers 
        across the country;
  --$10 million for the National Fish and Wildlife Foundation (NFWF) in 
        the FWS's resource management general administration budget.
    It is necessary that the NWRS budget by $15 to $20 million each 
year in order to maintain services and programs from the previous year. 
The $15 to $20 million increase accounts for cost-of-living increases 
for FWS personnel, growing rent and real estate costs and other cost 
increases, while sustaining current levels of visitor services and 
wildlife management. Funding the O&M account at $514 million would 
allow the NWRS to avoid further employee layoffs and reductions in 
services that are important at the Blackwater NWR, and the more than 
150,000 who visit the Blackwater NWR each year, while also preventing 
the approximately $3.5 billion NWRS O&M backlog from growing larger. 
While refuges received an increase for fiscal year 2009, the National 
Wildlife Refuge System is still not funded at the level it was in 
fiscal year 2003 when adjusted for inflation. Because of this, refuges 
such as ours, the Blackwater NWR, struggle to meet their most basic 
wildlife conservation objectives.
    Refuges are also vital economic engines in the local economy, 
fueling hotel stays, restaurant patronage and much, much more. 
According to Banking on Nature, a 2007 report by the FWS, recreational 
visits to national wildlife refuges generate substantial economic 
activity. Nearly 35 million people visited national wildlife refuges in 
2006, generated more than $1.7 billion for local economies--including 
27,000 jobs and $185 million in tax revenues. Eighty-seven percent of 
all economic activity generated by refuges is from nonresident 
visitation. These visitors contribute to the local economy through 
patronage of local hotels, restaurants, outfitters, and gas stations to 
name just a few examples. We simply cannot afford to lose these local 
economic engines. Supporting our refuges with adequate funding is an 
effective method of resisting the economic depression with which the 
Nation is currently struggling.
    While providing adequate funding to operate and maintain the NWRS 
is of vital importance, most refuges are too small in size to achieve 
their conservation mission and objectives alone. Their integrity 
depends on the health of surrounding State, Federal, and private lands 
and waters. Consequently, there is a growing need to provide funding to 
ensure that lands and waters beyond refuge boundaries are conserved. 
Today, the alarming rush to convert rural land to subdivisions and 
strip malls has caught wildlife managers off guard and requires quick 
action. Accordingly, for fiscal year 2010 we respectfully ask that the 
subcommittee appropriate $60 million for the Partners for Fish and 
Wildlife Program, of which $2 million be allocated specifically to 
conduct strategic habitat conservation around national wildlife refuges 
that engages refuge Friends and other national, regional, and local 
interests that work with States, counties and municipalities to 
identify, prioritize, and implement land and water conservation 
opportunities beyond refuge boundaries. These local initiatives will 
result in strategic visions which will serve as blueprints for use of 
State, Federal, and private conservation dollars, and will expedite 
implementation of State Wildlife Action Plans.
    The Senate Appropriations Subcommittee on Interior, Environment, 
and Related Agencies should provide strong funding for Refuge System 
Visitor Services programs and visitor facility enhancement projects. 
Visitor services funding pays for many Friends and volunteer programs. 
We depend on this funding for programs that allow us to remain 
effective stewards of our refuge.
    Recognizing invasive species as a top threat to our refuge lands, 
we also ask the subcommittee to continue their support by again 
providing $1 million ``for cooperative projects with Friends groups and 
volunteers on invasive species control''. This funding supports worthy 
programs like competitive grants for Friends groups and the Volunteer 
Invasives Monitoring Program. Utilizing the energy and enthusiasm of 
Friends and volunteers is a proven, effective and economical 
partnership for the NWRS and FWS.
    We encourage the subcommittee to allocate sufficient funding to 
assess and purchase high-priority water rights and high-priority lands 
and conservation easements through the Land and Water Conservation Fund 
(LWCF), $100 million. Inadequate water quantity and quality represent 
some of the biggest obstacles for refuges to overcome and 
unfortunately, many refuges do not own the water rights on the refuge 
or they are not guaranteed an allocation of water from a river or 
stream. The FWS is currently compiling a needs-based priority database 
of where water rights need to be secured, and we urge the subcommittee 
to allocate sufficient funding to allow the FWS to acquire these 
essential rights while they are available and affordable. Also, NWRS 
land acquisition backlog is estimated at more than $4 billion, with 
more than 15 million acres remaining to be acquired within approved 
refuge boundaries. While a full suite of conservation strategies should 
be employed in working with private landowners, in cases where fee 
title acquisition is preferred by the landowner and the refuge has 
identified it as a top priority, the FWS should acquire the land.
    We encourage the subcommittee to allocate $10 million for the NFWF 
through the FWS' resource management general administration 
appropriation. Each year, NFWF receives more project proposals than 
they are capable of funding. Adequate funding will ensure NFWF has the 
ability to leverage resources to fund projects that directly benefit 
diverse species in, around and outside of national wildlife refuges 
across the country.
    In this era of uncertainty related to climate change, we urge the 
subcommittee to allocate $30 million in dedicated funding to allow the 
FWS to create a plan for how to manage refuges in such a way that would 
allow them to adapt to anticipated changes. Work currently conducted by 
scientists including Dr. Michael Scott, senior scientist with the U.S. 
Geological Survey and professor of wildlife biology at the University 
of Idaho, show how models for individual refuges can be made that 
simulate rising water levels, increased temperatures, and how species 
are expected to react. While these innovative tools are now readily 
available, without dedicated funding, refuge staff is simply unable to 
take full advantage of it. Refuges are perhaps our best natural 
laboratories on a national level to assess impacts to wildlife and 
habitat as a result of global climate change; a small investment could 
yield valuable insights that will guide wildlife management and land-
use planning well into the future.
                                 ______
                                 
            Prepared Statement of Friends of Congaree Swamp

    Madam Chairman and members of the subcommittee: We appreciate this 
opportunity to present testimony in support of an appropriation of 
$2.69 million from the Land and Water Conservation Fund (LWCF)--to 
enable the National Park Service (NPS) to complete acquisition of the 
1,840-acre Riverstone tract for Congaree National Park in South 
Carolina.
    Congaree Swamp National Monument was authorized as a NPS unit in 
1976. In 2003, Public Law 108-108 elevated Congaree to a National 
Park--South Carolina's only National Park--and authorized a boundary 
expansion of 4,576 acres.
    Congaree National Park.--on the floodplains of the Congaree and 
Wateree rivers--is recognized as an international biosphere reserve, a 
national natural landmark, a wilderness area, and a globally important 
bird area. All waters within the park's pre-2003 boundary are 
designated outstanding resource waters, and much of Cedar Creek within 
the park is designated outstanding national resource waters. Congaree 
River Blue Trail, bordering the park for more than 25 miles, is a 
national recreation trail.
    With more than 75 species of trees, Congaree hosts the Nation's 
largest tract of old-growth bottomland hardwood forest. The trees 
growing in this floodplain forest are some of the tallest in the 
Eastern United States, forming one of the highest temperate deciduous 
forest canopies in the world--higher than old-growth forests found in 
Japan, the Himalayas, Southern South America, and Eastern Europe.
    More than 195 species of birds have been observed within the park. 
Following rediscovery of the Ivory-billed Woodpecker in Arkansas, 
Congaree National Park is considered prime habitat for recovery of this 
species. The South Carolina Ivory-billed Woodpecker Working Group 
coordinates research within Congaree National Park.
    Congaree National Park also offers excellent opportunities for 
recreation. A 2.5-mile boardwalk loop provides easy access into 
Congaree's forest, and more than 20 miles of trails are available for 
hiking. Visitors enjoy canoeing and kayaking on Cedar Creek, the only 
outstanding national resource waters in South Carolina. Outdoors 
enthusiasts can also enjoy fishing, camping, birding, and picnicking.
    In fiscal year 2005, Congress appropriated $6 million from the LWCF 
to purchase the 2,395-acre Bates Fork tract--at the confluence of the 
Congaree and Wateree rivers. This is the largest tract within the 
Congaree park boundary expansion authorized in 2003. NPS purchased the 
Bates Fork tract in November 2005.
    Fiscal year 2010 presents the opportunity to complete acquisition 
of the 1,840-acre Riverstone tract--the second-largest tract within the 
park boundary expansion authorized in 2003. The Riverstone tract will 
connect the previously acquired 21,786 acres of Congaree National Park 
with the 2,395-acre Bates Fork tract. The Bates Fork tract, in turn, 
adjoins the 16,700-acre Upper Santee Swamp Natural Area, owned by the 
South Carolina Public Service Authority. So, the Riverstone tract is 
the link to connect a conservation corridor of more than 42,000 acres 
along the Congaree, Wateree, and upper Santee rivers.
    In addition to its biological resources, the Riverstone tract has 
significant geological and hydrological resources, including Running 
Lake, Little Lake, Big Lake, Running Creek, and Bates Old River. Bates 
Old River is a 4-mile-long oxbow lake, the former channel of the 
Congaree River. This oxbow is flanked by the best-defined ridge and 
swale topography in the Congaree floodplain. No other oxbow lake in the 
Congaree floodplain can compare to Bates Old River in size, 
hydrological dynamics, accessibility, or as a recreational resource.
    The Riverstone tract also has significant cultural and historical 
resources, including a prehistoric mound from the Woodland Period (1000 
B.C. to A.D. 1000). The history of McCord's Ferry (established before 
1750 as Joyner's Ferry) is intertwined with the Riverstone tract. 
Patriot and British forces used McCord's Ferry during the American 
Revolution.
    Accordingly, acquisition of the Riverstone tract will add to 
Congaree National Park's opportunities for visitor access, education, 
recreation, and research.
    The purchase price of the Riverstone property is $5.88 million, 
based on a federally approved appraisal. Recognizing the Riverstone 
tract as a key priority for acquisition, the NPS identified and 
committed $500,000 in existing funds in May 2008 toward purchasing this 
tract. Accordingly, the NPS's funding shortfall became $5.38 million.
    Public Law 111-8 (the recent Omnibus Appropriations Act, 2009) 
allocated $2.69 million to Congaree National Park--the first half of 
the $5.38 million needed to complete Riverstone acquisition for 
Congaree National Park.
    We are delighted that President Obama's fiscal year 2010 budget 
recognizes the Riverstone acquisition at Congaree National Park as a 
national priority for the NPS. However, to complete the second and 
final phase of the acquisition in fiscal year 2010, the project needs 
an LWCF appropriation of $2.69 million, rather than the $1.32 million 
included in the administration's budget proposal. For fiscal year 2010, 
please allocate $2.69 million to enable the NPS to complete Riverstone 
acquisition, thereby permanently protecting the tract's outstanding 
natural and cultural resources, and connecting the 22,000 acres upriver 
with the 19,000 acres downriver.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony and for your consideration of our request.
                                 ______
                                 
           Prepared Statement of Friends of Rachel Carson NWR

    Madam Chairman and honorable members of the subcommittee: I thank 
you for the opportunity to present to the subcommittee testimony in 
support of the acquisition of the 110-acre Timber Point property at the 
Rachel Carson National Wildlife Refuge in Biddeford and Kennebunkport, 
Maine. An appropriation of $3.5 million from the Land and Water 
Conservation Fund (LWCF), to be matched by an equal amount of private 
funds, is needed to protect this exceptional coastal property. I also 
support a funding level of $514 million in fiscal year 2010 for the 
U.S. Fish and Wildlife Service's (FWS) National Wildlife Refuge System 
Operations and Maintenance (O&M) account.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the Nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the FWS, Rachel 
Carson became entranced with Maine's coastal habitat, leading her to 
write the international best-seller The Sea Around Us. This landmark 
study, in combination with her other writings, The Edge of the
    Sea and Silent Spring, led Rachel Carson to become an advocate on 
behalf of this Nation's vast coastal habitat and the wildlife that 
depends on it. With the celebration of the 100th anniversary of Rachel 
Carson's birth in 2007, her legacy lives on today at the refuge that 
bears her name and is dedicated to the permanent protection of the salt 
marshes and estuaries of the southern Maine coast.
    Consisting of meandering tidal creeks, coastal upland, sandy dunes, 
salt ponds, marsh, and productive wetlands, the Rachel Carson NWR 
provides critical nesting and feeding habitat for the threatened piping 
plover and a variety of migratory waterfowl, and serves as a nursery 
for many shellfish and finfish. The salt marsh habitat found at Rachel 
Carson NWR is relatively rare in Maine, which is better known for its 
dramatic, rocky coastline. Upland portions of the landscape in and 
around the refuge host a unique, unusually dense concentration of 
vernal pools that provide habitat for several rare plant and animal 
species. Located along the Atlantic flyway, the refuge serves as an 
important stopover point for migratory birds, highlighted by shorebird 
migration in the spring and summer, waterfowl concentrations in the 
winter and early spring, and raptor migrations in the early fall. In 
fact, southern Maine contains a greater diversity of terrestrial 
vertebrates, threatened and endangered species, and woody plants than 
any other part of the State.
    Previous years' appropriations have allowed the FWS to conserve 
several properties within the refuge at Biddeford Pool and Parson's 
Beach, providing an important buffer between the intense development 
pressure along the southern Maine coast and its fragile coastal 
estuaries. With towns in the area growing rapidly--at rates ranging 
between 11 percent and 32 percent over the next 10 years--development 
pressures continue to spiral upwards and additional coastal properties 
are under threat.
    The Refuge is unique to the fact that its acquisition zone and land 
division ownership is distributed in more than 11 different towns, 
villages, and cities, therefore creating uncommon municipal 
partnerships with the Federal Government acting through the local 
refuge headquarters in Wells, Maine. In the Timber Point Initiative, we 
have working partnerships established with the town of Kennebunkport 
and its Selectmen, the city of Biddeford and its Mayor and Conservation 
Commission, the Kennebunkport Conservation Trust, National and Maine 
Audubon, the National Wildlife Refuge Association and the Trust for 
Public Land, to name a few. The importance of community involvement and 
cooperation is crucial to the success of this urgent project. Available 
for immediate acquisition from a single willing-seller landowner in 
fiscal year 2010, the 110-acre Timber Point tract is one of the last 
large, undeveloped properties along the 50 miles of coastline from 
Kittery to Cape Elizabeth and a longstanding priority for the refuge. 
It is being offered to the WS at a significant discount through the 
generosity of the landowner and the support of the local community.
    Located in the Little River Division of the refuge near 
Kennebunkport, Timber Point is comprised of a large peninsula and a 
small island that is effectively connected to the peninsula at low 
tide. All told, the property includes more than 2.25 miles of 
undeveloped coastline, an enormous amount for southern Maine. Unlike 
much of the State's southern coastal areas, Timber Point' coastline is 
mostly rocky, making it an ideal location for eider nesting and 
wintering purple sandpipers. The Timber Point peninsula hugs the 
mainland, offering both rocky oceanfront shoreline and a sheltered, 
sandy cove. Wintering black ducks, assorted sea ducks, and migratory 
shorebirds feed and roost along the shoreline while sanderlings 
frequent the sandy cove during migration. In addition, the rocky 
offshore habitat serves as a productive lobster nursery.
    In addition to the abundant wildlife which benefits from this 
virtually undeveloped coastline, upland habitats harbor many species of 
conservation concern as well. Habitats represented on Timber Point are 
diverse and include shrubby wetlands, early successional thickets and 
grassy openings, forested wetlands, and mature white pine forests. 
Early successional habitats are home to breeding American woodcock, 
willow flycatcher, eastern towhee, chestnut-sided warblers, gray 
catbirds, and bobolink. Upland forests and forested wetland habitats 
are likely to be used by breeding scarlet tanagers, northern flickers, 
and Baltimore orioles. On occasion, there are bald eagles and seahawks 
(ospreys) nesting on both the island and peninsula.
    Refuge-owned lands already protect the headwaters of the Little 
River, which empties into the Atlantic at Goose Rocks Beach--a popular 
public swimming area adjacent to Timber Point. Once acquired, the 
Timber Point parcel will enhance the refuge's ability to protect water 
quality in the estuary and important wildlife habitat by linking it to 
already conserved refuge lands in the Little River Division of the 
refuge. Currently, the FWS holds an easement on just 35 of the 110 
acres at Timber Point; this proposed acquisition would recombine the 
easement with full fee ownership and permanently protect the entire 
property--save 11 acres, which members of the family would retain with 
a conservation easement preventing any further development of the 
parcel. Located in a rapidly developing part of Maine, this acquisition 
offers the refuge an outstanding opportunity to conserve southern 
Maine's coastal landscape and further consolidate the fragile habitat 
that exists on the marshes, uplands, creeks, and the estuaries of the 
coast.
    Given the development pressures in this part of the State, the 
opportunity to permanently protect this unique coastal property exists 
only for a limited time. An appropriation of $3.5 million for the 
Rachel Carson NWR in fiscal year 2010 will be matched by an equal 
amount of private philanthropy, offering a once-in-a-lifetime 
opportunity that will yield enormous public benefits for generations to 
come.
    I also respectfully request a substantial increase in overall 
funding for the LWCF, specifically urging the subcommittee to provide 
$325 million for the Federal LWCF in the fiscal year 2010 Interior, 
Environment, and Related Agencies appropriations bill. I applaud the 
LWCF funding increases provided by this subcommittee in fiscal year 
2009. And, we are most thankful that the Obama administration budget 
recognizes the importance of these programs by proposing significant 
increases for fiscal year 2010 and setting a goal to achieve full 
funding of the LWCF in the next 5 years. The LWCF should be fully 
funded at $900 million annually--the congressionally authorized level.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. Public lands provide innumerable social and 
economic benefits including a healthy lifestyle, protection of 
watersheds and drinking water supplies, wildfire reduction and 
prevention, and assistance to wildlife and fisheries as they adapt to 
climate change. We urge you to renew this wise investment in America's 
natural heritage and take steps to toward full and consistent funding 
of these vital programs.
    With a $3.5 million appropriation for the Timber Point Project, a 
regional collaboration between the public and private sector will only 
enhance Governor Baldacci's Quality of Place Initiative that he put 
forth last year. This would be a fantastic story for protecting crucial 
habitat for the wildlife at Rachel Carson NWR.
    Thank you again, Madam Chairman, for the opportunity to present 
this testimony in support of this important project.
                                 ______
                                 
        Prepared Statement of the Friends of the Columbia Gorge

    Thank you for the opportunity to submit written public testimony in 
support of public land acquisition projects in the Columbia River Gorge 
National Scenic Area. Friends of the Columbia Gorge is requesting an 
appropriation of $6 million from the Land Water Conservation Fund to 
allow the United States Forest Service (USFS) to purchase land with a 
high conservation value. The requested funding will go a long way to 
protect a number of identified high-priority properties totaling 2,191 
acres in the Columbia River Gorge National Scenic Area. This project is 
authorized by the Columbia River Gorge National Scenic Area Act, Public 
Law 99-663, section 16 (a).
    Friends of the Columbia Gorge (Friends) is a nonprofit group with 
approximately 5,000 members who live in the Columbia River Gorge, the 
States of Oregon and Washington and across the country. We are 
dedicated to the protection and enhancement of the scenic beauty and 
natural and cultural heritage of the Columbia River Gorge. Friends 
works to promote responsible stewardship of Gorge lands and waters and 
encourage public ownership of sensitive areas. Throughout the year, 
Friends leads more than 70 hikes and stewardship events that are open 
to the public.

Introduction
    The Columbia Gorge, shared and cherished by both Oregon and 
Washington, is truly one of America's natural scenic treasures. As the 
only sea-level passage through the Cascade Mountain range, the Columbia 
River Gorge has 5 distinct ecosystems. These ecosystems support more 
than 800 species of flowering plants, including 16 that are found 
nowhere else in the world, more than 300 species of birds and provides 
critical habitat for threatened fish and wildlife, such as the western 
pond turtle, Larch Mountain salamander, western gray squirrel, 
steelhead, Chinook, coho, and chum salmon.
    The Gorge has been inhabited by humans for at least 11,000 years. 
Important cultural resources are found throughout the Gorge, including 
a high concentration of Native American rock carvings and paintings, 
called petroglyphs and pictographs, in the eastern end of the Gorge. 
Several tribes retain treaty rights in the Gorge, including the 
preservation of hunting, fishing, and gathering rights on the lands 
ceded to the United States in their respective treaties. In addition, 
the Gorge ranks as the most recognizable natural site along the Lewis & 
Clark trail.
    In 1986, Congress and the States of Oregon and Washington 
recognized the outstanding scenic beauty and natural and cultural 
heritage of the Gorge by designating it as a National Scenic Area. The 
Columbia River Gorge National Scenic Area Act (Act) was passed ``to 
protect and provide for the enhancement of the scenic, cultural, 
recreational, and natural resources of the Columbia River Gorge'' and 
to encourage economic growth in nearby urban areas. Today, driving east 
from Portland or Vancouver toward the Columbia Gorge, through miles of 
subdivisions and strip development, one passes the National Scenic Area 
Boundary and is awestruck by the instantaneous transition from an urban 
to a rural setting. The Scenic Area protects nearly 300,000 acres in 
both Oregon and Washington and receives hundreds of thousands of 
visitors annually.

Land Acquisition
    Although The Columbia River Gorge Scenic Area enjoys national 
protection, preservation of its outstanding natural and scenic 
resources requires proactive management. Section 9(a) of the act, 
created a unique regulatory scheme, which allows conservation in 
partnership with private landowners. The Act also recognized that some 
lands should be in public ownership and that some landowners would 
prefer to sell their property rather than fall under Scenic Area 
regulations, or to insure its future protection. The desire to conserve 
key properties and to provide regulatory relief to landowners led 
Congress to create this special land acquisition program. The act 
further specifies that if the USFS does not acquire land offered by 
sellers within 3 years of an offer, then the land changes to a General 
Management Area (GMA) designation, which is less restrictive, giving 
landowners more flexibility and making it more likely that these lands 
will be logged, mined, or developed.
    Since 2001, more than 4,000 acres of ``high-priority'' private land 
worth an estimated $35 million have been offered for sale to the USFS, 
yet Congress has only appropriated $17.5 million to date.

Fiscal Year 2010 Request
    USFS's Columbia River Gorge National Scenic Area office has 
expressed the need for $6 million in fiscal year 2010 to carry out its 
land-acquisition activities. Currently, USFS has identified 10 
properties in 4 counties located in Oregon and Washington for 
acquisition in fiscal year 2010. The public purchase of these 
properties would protect some of the most scenic Gorge views and 
provide future recreation opportunities, both of which are key to 
maintaining the economic health of local communities. Many of these 
properties are threatened by logging, mining, or development and our 
opportunity to preserve these critical lands could be lost forever. 
This appropriation will go far in supporting willing land sellers and 
protecting this important national treasure.

Conclusion
    Funding land acquisition in the Gorge is important for three 
reasons. First, these offers represent a commitment to landowners by 
the Federal Government. Second, these lands have critical scenic, 
natural, cultural and recreational values that need to be conserved. 
Finally, these acquisitions are part of the overall strategy to ensure 
that the Columbia River Gorge is a good place to live, work, and visit.
    Funding land acquisition in the National Scenic Area fulfills the 
commitment Congress made in 1986 when they passed the Columbia Gorge 
National Scenic Area Act to protect and enhance the natural, scenic, 
cultural and recreational resources of the Gorge. Please consider our 
request of $6 million to ensure that the Gorge remains a place apart 
for future generations to enjoy.
    Thank you for the opportunity to provide testimony supporting 
public land acquisition in the Columbia River Gorge National Scenic 
Area.
                                 ______
                                 
 Prepared Statement of the Friends of Wertheim National Wildlife Refuge

    I am submitting testimony to the Senate Interior, Environment, and 
Related Agencies Appropriations Subcommittee on behalf of Friends of 
Wertheim National Wildlife Refuge. We support a funding level of $514 
million in fiscal year 2010 for the U.S. Fish and Wildlife Service's 
(FWS) National Wildlife Refuge System (NWRS). The $514 million accounts 
for cost-of-living increases for FWS personnel, while maintaining 
current levels of visitor services and wildlife management. Funding 
NWRS at $514 million would allow the NWRS to do its job of protecting 
habitat and wildlife in a much more responsible way. It is of the 
utmost importance that our Nation protects and enhances our NWRS for 
future generations.
    We ask the Senate Interior, Environment, and Related Agencies 
Appropriations Subcommittee to provide strong funding for Refuge System 
Visitor Services programs and Visitor Facility Enhancement Projects. In 
the last few years many refuges have lost staff due to insufficient 
funding. This has resulted in loss of protection, maintenance, and care 
of the most valuable assets we have in the United States. Visitor 
Services funding pays for many Friends and volunteer programs. The 
Friends depend on this funding for programs that allow us to remain 
effective stewards of our refuge.
    Recognizing invasive species as a top threat to our refuge lands, 
we also ask the subcommittee to continue their support ``for 
cooperative projects with Friends groups on invasive species control''. 
This funding supports worthy programs like competitive grants for 
Friends groups and the Volunteer Invasive Monitoring Program. Utilizing 
the energy and enthusiasm of Friends and volunteers is a proven, 
effective and economical partnership for the NWRS and U.S. Fish and 
Wildlife Service (FWS).
    Friends of Wertheim NWR feels that the NWRS deserves $514 million 
in Federal funding for fiscal year 2010 because FWS is the Federal 
agency charged with conserving, protecting and enhancing the Nation's 
fish, wildlife, and plants for the continuing benefit of the American 
people. Another top priority of FWS is connecting people with nature: 
ensuring the future of conservation. Therefore, a priority of Federal 
funding must be to take action. While there is no doubt that our public 
lands need to be managed through community partnerships/community 
resources, the Federal Government should be the catalyst on Federal 
lands to make this happen.
    When the funding for the NWRS is compared to the entire national 
spending it is not even a ``blip on the radar screen''. The NWRS is one 
of our ``National Treasures'' and the dedicated Refuge staff, Friends 
and volunteers do so much with so little. It is our hope that in 2010 
and beyond there is increased funding that will do more than maintain 
what we had last year; we need your help to address the $2.7 billion 
backlog. Only by being ``faithful stewards'' of all of the NWRS in the 
United States will we ensure that they will be here for our children 
and our children's children. This is why we ask that you support our 
NWRS with adequate funding, $514 million for fiscal year 2010. On 
behalf of Friends of Wertheim NWR we thank you for your consideration 
of our request.
                                 ______
                                 

   Prepared Statement of Friends of Wallkill River National Wildlife 
                                Refuges

    Dear Madam Chair and honorable members of the subcommittee: I am 
grateful you are holding public witness day, once again. I am 
requesting $514,000,000 for all National Wildlife Refuges for 
operations and maintenance, for fiscal year 2010. I would also like to 
request emergency funding, now, for the United States Fish and Wildlife 
Service and United States Geological Survey (USGS), to address the 
White Nose Bat Syndrome (WNS) crisis: $2,500,000. For my own refuge, 
Wallkill River National Wildlife Refuge, I request $3,280,000 for land 
acquisition.
    In these trying economic times it seems arrogant to ask for funds 
for National Wildlife Refuges (NWR), something that might seem a 
luxury. In fact our NWRs are a necessity. The United States Fish and 
Wildlife Service (USFWS) are the people we have charged with protecting 
and preserving our most sensitive habitats and wildlife. These are the 
people who monitor and manage the wildlife and environment for current 
and future generations of Americans. Today, they face challenges that 
were inconceivable 20 years ago.
    I would like to draw your attention to some very serious trends in 
occurring in our environment, the ramifications of which are beyond 
frightening This is not alarmism; its the reality of globalization. We 
are seeing plagues of fungi and other pathogens wreaking devastating 
mortality in our environment. In the late 1980's, a fungus called 
Chytrid started killing off amphibians in Costa Rica, now it has spread 
all over this country, South America, and parts of Europe and Africa. 
In 2006, we saw colony collapse among the honey bees. Also in 2006, a 
killing fungus got a foot hold on the cave dwelling bat species in the 
caves near Albany, New York. This flesh eating fungus has now been 
confirmed as having killed tree dwelling bats as well, meaning all bat 
species are vulnerable. This fungus thrives in the cool, dark, damp 
climate of caves and abandoned mines. Now that fungus, called WNS has 
spread like wild fire and we are seeing 95-100 percent mortality of 
several species of bats in 10 States. This has destroyed cave dwelling 
bat populations from New Hampshire, south to West Virginia. These 
plagues are just the tip of the iceberg, the first clear warnings of 
what will affect the human populace sooner or later. Scientists fear 
extinction of many bat species if we can not stop this within a year. I 
encourage you to attend USFWS and USGS briefings May 1.
    USFWS and the USGS are the Federal Emergency Management Agency 
(FEMA) of the environmental world. These agencies have been 
understaffed for far too long and now we are seeing the ramifications. 
We have acted as if the environment were a luxury we could ignore. 
Instead we are seeing just the beginning pathogens and invasive species 
that can travel anywhere humans do. These are the agencies we entrust 
to research and manage invasive species and endangered species. They 
don't have the manpower or the funding to even begin to address these 
catastrophes, spreading beyond control. We are in this situation 
because we undervalued science and how the environment affects human 
quality of life. We know very little about these aggressive fungi and 
pathogens, how long before one arrives that wreaks havoc on the human 
populace? We don't know the answer to that or how climate change will 
affect the environment and impact on human life. We all assume there 
are omniscient scientists lurking somewhere keeping us all safe; the 
somebodies that: ``somebody should do something'' is referring to. They 
aren't there, we didn't hire them, we didn't see that funding as a wise 
investment in the well being of present and future American people.
    These plagues on the environment are our wake-up call. White Nose 
Bat Syndrome, (WNS) is killing literally all cave dwelling bats from 
New Hampshire to West Virginia. Little Brown bats eat 500-1,000 
mosquitoes per hour. They live about 30 years and produce only one baby 
per year. If, we are able to stop WNS now, it would take at least 100 
years for the populations to rebound to previous population levels. In 
the region affected by WNS, there are mosquito transmitted diseases of: 
West Nile Virus and Eastern Equine Encephalitis. Is our only option to 
cover every thing with even more pesticides? What will that do to 
pollinators? How will the ramifications of indiscriminate pesticide use 
affect human health? Is it a risk we can afford to take? These are the 
questions our scientists must address and answer. But, we do not now 
have the scientific infrastructure to resolve these issues or to 
prepare and prevent future catastrophes. It is time to establish a 
National Laboratory, a central station housing these scientists from 
these agencies.
    What we Need.--Hearings on WNS; emergency funding for manpower and 
research now; dedicated funds for 2010; enactment of the North American 
Migratory Bat Act; maintaining captive breeding populations; and a 
national laboratory.
    A century ago the most dominant tree was the American chestnut, now 
there are thought to be less than 500 known trees in existence. 
Billions were killed off by a fungus that was inadvertently brought 
over from Japan. Hemlock forests have been devastated by an insect 
thought to be accidentally introduced from Asia. Likewise, elm trees 
have also been destroyed by a fungus first discovered in Holland, but 
originating in Asia. These are examples of the ramifications of 
globalization, we are not prepared to address these issues.
    We are only beginning to see the ramifications of climate change, 
whether the cause is natural or human induced, we still have to address 
those issues. There will need to be migratory corridors for wildlife 
focusing on efforts in restoration and acquisition. We will see more 
species appearing on the endangered species list as development 
encroaches on what habitat is left. These changes will require careful 
monitoring; it is the USFWS and USGS whose responsibility it is to 
monitor, research, and access conditions and threats for the well being 
of the American people.
    In December 2007, you voted to give the NWR another $39 million 
slated for alleviating staffing shortages. Those funds had the effect 
of stopping the hemorrhaging of staff positions; the USFWS was able to 
stop downsizing. All Regions were able to reach their 75 percent 
manpower-25 percent operations budget. Alaska is 70 percent-30 percent 
because of the higher costs there. It did nothing to restaff refuges 
that had previously been unstaffed due to funding shortages. There are 
approximately 30 percent of all refuges that are tier 1 or focus 
refuges in the system, the refuges that are fully staffed. 
Approximately 35 percent are tier 2 refuges meaning there are a few 
staff members. There are approximately 35 percent tier 3 refuges which 
have no staff and are not planned to have staff, if they will be 
staffed at all, it will be after all of the tier 2 and tier 1 refuges 
are staffed. The 1997 Refuge Improvement Act requires that ``each 
refuge shall be managed'', to the criteria set forth in the act. The 
USFWS is underfunded and can not meet the mandates of the Act with 
current funding. As things are now, only one third of all refuges can 
meet the mandates of the act.
    In reality we are seeing 640,000 new unemployment claims, in the 
United States, as of the week of April 18, 2009. We are at a 
frightening 8.5 percent unemployment rate by household survey, 
nationally. In southern New Jersey the rates are as high as 12 percent 
unemployment. The USFWS currently has approximately 2,871 full time 
employees. With funding of $514,000,000.00 it would allow the USFWS to 
add 529 employees; that's almost one per refuge. According to CARE 
data, the USFWS is understaffed by 2,867 personnel.
    We are seeing increasingly more flooding conditions in our country. 
Flood plains are also known as wetlands, swamps, river basins, and 
watersheds. These just happen to be many of the most desired lands for 
protection of endangered species and migratory bird habitat. I have 
seen far too many times where FEMA funds have been distributed to flood 
victims living in flood prone areas. These areas can flood again and 
again. In some cases the home owners can no longer get insurance and 
they can not sell their homes, FEMA digs them out when the floods come. 
As a taxpayer I would prefer to see these lands paid for once, becoming 
part of the National Wildlife Refuges System (NWRS) where these waters 
have the ability to replenish the aquifer and reservoirs.
    Wallkill is the primary Refuge in the area designated by the New 
York, New Jersey, Pennsylvania, and Connecticut Highlands. The newest 
refuge: Cherry Valley in Pennsylvania, is also in this area. These 
areas have been protected because of their habitat for wildlife and 
water recharge values. These areas are in the most congested areas of 
the East Coast and warrant funds and manpower for safeguarding these 
lands and wildlife in these areas.
    We are requesting $3,280,000 for land acquisition for the Wallkill 
River Refuge for 2010. Our fiscal year 2010 Land Water Conservation 
Fund (LWCF) request for the Wallkill River National Wildlife Refuge 
will allow the USFWS to acquire three critical resource and recreation 
properties. They include the 324-acre Armstrong Bog with important bog 
turtle habitat, the 52-acre Whispering Hills property supporting State 
and federally listed species including the Indiana bat and wood turtle, 
the 68-acre Wild Stone Canyon tract. These properties include rivers 
streams, aquifer recharge zones, and critical wetlands to protect the 
integrity of the Wallkill River National Wildlife Refuge and provide 
habitat and migratory corridors for fish and wildlife. These wetlands, 
watersheds, and forestlands helps filter pollution prevents erosion and 
decreases the costs and damage from floods. Further, the protection of 
forests and wetlands that protect and retain water provide significant 
economic benefits to our communities by lowering water treatment costs. 
Protection of clean drinking water is of the utmost concern to the 
American public. Purchases of land and water with the LWCF--such as 
these proposed at the Wallkill River National Wildlife Refuge--will 
help maintain the long-term integrity of water quality and quantity at 
the Refuge and in our surrounding New Jersey communities.
    We thank you for your consideration of this LWCF funding request. 
We are delighted to see the LWCF program identified as a top priority 
for Secretary of the Interior, Kenneth Salazar, and join other groups 
of the LWCF Coalition in urging support for increased overall funding 
of the LWCF to meet needs at the Wallkill River National Wildlife 
Refuge and refuges across the nation.
    Wallkill is the primary Refuge in the area designated by the New 
York, New Jersey, Pennsylvania and Connecticut Highlands. The newest 
refuge: Cherry Valley in Pennsylvania, is also in this area. These 
areas have been protected because of their habitat for wildlife and 
water recharge values. These areas are in the most congested areas of 
the East Coast and warrant funds and man power for safeguarding these 
lands and wildlife in these areas.
    Thank you for your time and consideration.
                                 ______
                                 
         Prepared Statement of The Fort Peck Indian Reservation

    The Fort Peck Tribes are pleased to present testimony on the fiscal 
year 2010 budget. The Fort Peck Reservation encompasses 2.09 million 
acres of which only 378,000 are tribally owned, with another 548,000 
held as individual allotments. The Reservation population is 11,000 
people. The tribes' unemployment rate on the Reservation is 57 percent 
(BIA Labor Force Report, 2005). Of our tribal members who are working, 
approximately 43 percent live below the poverty level (BIA Labor Force 
Report, 2005). Given the enormous unemployment and poverty rates on the 
Reservation, our needs for both Bureau of Indian Affairs (BIA) and 
Indian Health Service (IHS) programs and services is substantial.
    So many of the tribes' needs are for basic services; safe drinking 
water, healthcare, law enforcement services, and safe, modern 
facilities to house our program staff so that our members will utilize 
the services and programs we have available. If the Federal Government 
could assist the tribes with these core governmental services, our 
members would be so much better off. Here are a few of our key funding 
requests which ask the Congress and the administration to support.

                                  BIA

    The Fort Peck Reservation Rural Water System.--The tribes request 
$457,809 for the operation, maintenance, and replacement (OM&R) of the 
Fort Peck Reservation Water System. Congress enacted the Fort Peck 
Reservation Rural Water System Act of 2000, Public Law 106-382, to 
ensure safe and adequate municipal, rural, and industrial water supply 
to all of the residents of the Fort Peck Indian Reservation. The law 
directs that funding for the operation of the water system is to come 
from the BIA. The tribes and the Bureau of Reclamation have completed 
construction of many components of this important project, including 
the raw water intake facility, and we now seek funding for the 
operation, maintenance, and replacement costs for these components as 
required by the act. It is important that our water treatment plant 
staff have the resources they require to properly maintain this multi-
million dollar investment to provide safe drinking water to the 
reservation and surrounding communities.
    Funding for Law Enforcement Programs.--The need for increased law 
enforcement remains a priority for the Fort Peck Tribes. While we 
greatly appreciate the increases Congress provided last year, including 
the increase for Meth Hot Spots and to address domestic violence on 
Reservations, the amounts are insufficient to fulfill the United 
States' basic trust responsibility in the areas of health and safety. 
An independent ``Gap Analysis'' study prepared in 2006 for the BIA's 
Office of Law Enforcement Services confirms the glaring shortage of law 
enforcement officers in Indian country. The BIA's Office of Law 
Enforcement Services divides Indian country into six districts. Montana 
is located in district 5. In 2006, district 5 had 87 law enforcement 
officers, including criminal investigators and telecommunication 
operators. To reach the recommended level of 3.3 law enforcement 
officers per 1,000 population, District 5 would need to increase its 
law enforcement personnel by 135 to reach 222 law enforcement officers. 
Of this amount 111 or 50 percent would be police officers. Unlike far 
less violent non-Indian communities, which have 2.9 officers to every 
1,000 inhabitants, Indian country averages about 1.3 officers for every 
1,000 inhabitants. The Gap Analysis revealed that BIA District 5 is at 
39 percent capacity for law enforcement. That is one of the primary 
reasons our crime statistics are so poor. What has the BIA done with 
this 2006 Gap Analysis report. Apparently, not much.
    On the seven reservations in Montana for the 2-year period of 2004-
2005 (the period for which we have the most complete data), there were 
10 murders, 62 forcible rapes, 1,147 aggravated assaults, and 529 
burglaries. In 2007, the tribes' Public Safety Department was 
responsible for addressing 3,956 offenses committed on the Fort Peck 
Reservation, including 595 violent or serious offenses and 1,004 
juvenile offenses. The BIA has reported that the Fort Peck Reservation 
crime data ranks us in the top 10 for the worst crime areas in all of 
Indian country. We need more resources in every area of law enforcement 
from police staffing, tribal courts, detention, and equipment.
    In the area of staffing, the Fort Peck Tribes' Public Safety 
Department currently has 22 sworn personnel, less than half the number 
needed to provide adequate coverage for our large reservation. These 
officers cannot adequately patrol a 2 million acre reservation with a 
population of more than 11,000 and a high incidence of substance abuse 
and violent crimes. A survey of current officers has shown that they 
will not continue to work for the tribes under conditions where they 
must patrol alone, respond to calls without backup, and work longer 
hours for the same or less pay.
    To address this need, the Fort Peck Tribes request $1 million to be 
added to the tribes' law enforcement base budget to ensure the 
continued staffing and operation of the Fort Peck Tribes' Public Safety 
Department. Without these funds, the Fort Peck Tribal Council will 
reluctantly be forced to consider returning the operation and 
management of the law enforcement department, which the tribes have 
operated under an Indian Self-Determination Act contract since 1995, to 
the BIA.
    One issue that I would like to bring to the attention of the 
subcommittee is the issue of how crime data is reported from the BIA to 
the Federal Bureau of Investigation (FBI). Currently, the BIA reports 
Indian country crime data to the FBI in the aggregate form, rendering 
the data useless to the FBI. Consequently, tribal nations have missed 
out on Department of Justice funding because DOJ relies on State and 
tribal specific crime data in the distribution of funds. In Montana 
alone, Montana tribal agencies may have been eligible for more than 
$700,000 in stimulus Byrne/JAG direct allocation funding had the BIA 
reported the district 5 data individually to the FBI. We would urge the 
subcommittee to direct the BIA to work with the Department of Justice 
to correct this and properly report tribal crime data so that it can be 
utilized in allocating this desperately needed funding.
    Equally as important as funding for law enforcement programs is the 
funding for tribal courts. There has not been a significant increase in 
the BIA tribal courts budget in almost 20 years. This is true despite 
the fact that tribal court dockets have substantially grown in the last 
20 years. Tribal courts serve an important and vital role in dispensing 
justice in Indian country and must be fully funded.
    Finally, in the area of law enforcement, I would be remiss if I did 
not call for increased funding for detention facilities, for operation 
and maintenance and construction. As the subcommittee well knows, 
detention facilities in Indian country are overcrowded and in many 
instances simply not safe for the inmates or the personnel. At Fort 
Peck, we frequently have to release inmates before their release date 
because we have to make room for other more violent offenders. This is 
not safe for our community. Do not let the United States violate its 
trust responsibility to us on so important an issue as public safety 
and justice.
    Tribal Colleges.--Tribal colleges are important institutions in the 
remote tribal communities that they serve. On our Reservation, we 
operate the Fort Peck Tribal College, a fully accredited institution 
that offers associate degrees in arts, science, and applied sciences.
    The college offers our students an opportunity to obtain a higher 
education without having to leave their homes and families, which can 
strain important cultural ties. The need for rural tribal colleges is 
critical for many of our students, especially our single-parent 
students who need family members in close proximity so that they can 
assist in childcare duties. These students do not have the resources or 
the network to attend school in Billings or Missoula. If it weren't for 
our tribal college they would have no opportunity to improve their 
lives through higher education. Today, with the economy shedding too 
many jobs each month, we strongly urge the subcommittee to increase 
funding for this vital program that is improving the lives of Indian 
people.
    Land Consolidation.--The tribes are very disappointed that Congress 
failed to fund the Indian Land Consolidation Program. The failure of 
the BIA to properly manage trust resources is in large measure the 
result of land fractionation and the inability of the Department to 
properly track the numerous interest holders of land. It has been well 
proven that the only way to avert this continuing problem is to 
consolidate these interests into tribal ownership. Indian Land 
Consolidation makes both good financial and land management sense. We 
would urge the subcommittee to restore funding for this important 
program.

                                  IHS

    While we are not familiar with the exact details of the President's 
fiscal year 2010 budget request, we are encouraged by the outlines that 
have been released. The proposed $400 million increase in IHS funding 
will finally begin to address the staggering health deficits 
experienced in Indian country.
    The health indicators in Indian communities consistently 
demonstrate higher infant mortality, teenage suicide, accident, 
alcoholism, diabetes, and heart disease rates among Indian people when 
compared with other minorities and the general American population. Yet 
money directed to healthcare, especially preventative care--such as 
routine checkups and health education--that clearly improves the 
quality of life and helps avoid more expensive healthcare costs in the 
future, has not been provided. The Federal Government has a trust 
responsibility--reaffirmed through treaties, legislation, executive 
orders, congressional policies and Presidential administrations--to 
provide healthcare to Native Americans, an obligation that was paid for 
by the Native people of this county with millions of acres of land, 
resources, and our traditional way of life. We fully support President 
Obama's position that healthcare is a critical element to having a 
healthy workforce.
    Contract Health.--The Fort Peck Tribes alone need a near doubling 
of our inadequate Contract Health Care budget--to $11 million--to meet 
the growing health demands of our more than 11,000 tribal members. Far 
too many members are not referred out for Contract Health Care Services 
that their primary healthcare professionals determine are medically 
necessary because we are at level 12. Members are told that no funds 
are available for Contract Health Services. Patients requiring 
surgeries are mostly given prescriptions for pain instead of receiving 
Contract Health Services.
    Our community suffers from unusually high cancer death rates, and 
we fear that it is because the patients are not referred to outside 
providers until they have reached the inoperable stage. The crisis is 
so acute that in July 2008, the tribes declared a healthcare emergency. 
We would urge Congress to double the funding for Contract Health Care. 
Healthy families will help strengthen the social and spiritual fabric 
of our reservation.
    Facilities Construction.--The need for Contract Health Care funding 
only highlights the tribes' need for a fully staffed and equipped 
health facility capable of providing a full range of medical services. 
The IHS needs to evaluate and plan the process for new in-patient 
facilities in Montana.
    I return to the original point in my testimony; the United States 
must assist tribes address basic governmental services such as safe 
drinking water, safe streets and communities, fair judicial systems, 
healthcare. More than 20 years ago, an earlier Congress noted that when 
there is community stability--with core governmental services being 
met--``Indian tribes are in the best position to implement economic 
development plans, taking into account the available natural resources, 
labor force, financial resources and markets.''
    The United States boasts the best healthcare system in the world. 
The time for improved healthcare services in Indian country is long 
overdue.
    Thank you for providing me the opportunity to present the views of 
the Fort Peck Tribes.
                                 ______
                                 
   Prepared Statement of the Friends of Virgin Islands National Park

    Madam Chairman and honorable members of the subcommittee: We 
appreciate the opportunity to provide testimony on behalf of an 
important land acquisition funding need at Virgin Islands National 
Park. An appropriation of $6.75 million from the Land and Water 
Conservation Fund (LWCF) is requested in fiscal year 2010 to continue 
the acquisition of the unique Maho Bay property by the National Park 
Service (NPS). We were very pleased to learn that your subcommittee 
provided $2.25 million to begin this project in fiscal year 2009.
    I represent the Friends of Virgin Islands National Park, a 
501(c)(3) nonprofit organization, dedicated to the protection and 
preservation of the natural and cultural resources of Virgin Islands 
National Park and to promoting the responsible enjoyment of this 
national treasure. We have more than 3,000 members--20 percent of whom 
live in the Virgin Islands and the balance represent every State in the 
Union.
    We carry on the rich tradition of using private philanthropy for 
the betterment of this park as well as mobilize volunteers and 
community participation. In our 19 years of work in support of Virgin 
Islands National Park we have been involved in many initiatives, 
projects, and activities that help this park be a model of natural 
resource protection and cultural preservation--but none have been as 
important as our work in support of the acquisition of Estate Maho Bay 
and its incorporation within the park.
    We have played the important role of informing and motivating the 
community about the issues related to the preservation of Estate Maho 
Bay. But motivation was hardly needed; the preservation of Estate Maho 
Bay and ensuring unimpeded access to this spectacular area enjoys near 
unanimous support among native St. Johnians, residents who have moved 
here from mainland United States and visitors alike--no easy feat for a 
community that prides itself in its diversity of opinions.
    Virgin Islands National Park, located on the island of St. John, is 
a tropical paradise preserved for the enjoyment and edification of the 
public. Beautiful white sand beaches, protected bays of crystal blue-
green waters, coral reefs rich in colorful aquatic life, and an on-
shore environment filled with a breathtaking variety of plants and 
birds make St. John a magical place. More than 800 species of trees, 
shrubs, and flowers are found in the park, and more than 30 species of 
tropical birds breed on the island, which was designated an 
international Biosphere Reserve by the United Nations in 1976. St. John 
is also home to two species of endangered sea turtles--the hawksbill 
and the green. In addition, the park contains archeological sites 
indicating settlement by Indians as early as 770 B.C. The later 
colonial history of St. John is also represented by remnants of the 
plantations and sugar mills established by the Danes in the 18th and 
19th centuries.
    One of St. John's most popular eco-campgrounds sits on a cliff 
overlooking Maho Bay and its pristine white sand beaches. The bay's 
campgrounds create memorable vacations in the beautiful setting of St. 
John without sacrificing the delicate ecosystem of the island. Few 
places on earth match the breathtaking beauty of Maho Bay. A lush 
forested slope rising nearly 1,000 feet rims its crystal waters and 
soft white beaches. Hundreds of tropical plant species and more than 50 
species of tropical birds fill these lands on the island of St. John, 
at the heart of the American paradise of Virgin Islands National Park. 
Just offshore are seagrass beds, green turtles, and magnificent coral 
reefs. This fragile area contains large nesting colonies of brown 
pelicans, as well as the migratory warblers and terns that winter on 
St. John. In addition to its natural treasures, the largest 
concentration of historic plantations and ruins on the island is found 
within this area.
    Available within the Virgin Islands National Park boundaries in 
fiscal year 2010 is the second phase of a 207-acre acquisition at Maho 
Bay. This Maho Bay property offers spectacular views of the bay and 
includes some beachfront. It is extremely important because of their 
relationship to the whole undeveloped area and its cultural resources.
    Though the park boundaries cover a broad area of St. John, NPS 
actually owns two separated blocks of land. A smaller block covers the 
northeastern shore of the island, and a larger, more contiguous block 
extends from the southern to northwestern side. The acquisition of the 
Maho Bay property would be the first link of these two blocks, ensuring 
future access, resource connectivity, and seaside protection.
    Wetlands in the lower portion of the watershed provide adequate 
sediment retention for the undeveloped nature of this area. As a result 
of long-term geological processes, the topography created by these 
processes and the historical rise of sea level during the past 5,000 
years, a large, rare, and complicated freshwater dominated wetland 
developed throughout the basin. It represents a natural stage wetland 
typical of large watersheds with relatively flat basin topography. The 
Maho Bay wetland is the largest of this type on St. John and along with 
the Magens Bay wetland on St. Thomas, one of only a few of this type in 
the territory. These wetlands provide habitat to numerous species of 
shorebirds, water fowl and other wildlife, several listed as endangered 
under the V.I. Endangered and Indigenous Species Act. Others are 
protected under various Federal laws and treaties.
    The land was historically used during the plantation era for 
agricultural activities such as sugar cane, coconut, and cotton 
cultivation. The lands include portions of several historic plantation 
era sugar estates. The Maho Bay area contains the highest density of 
plantation era estates on St. John. Preservation of these sites is 
important in reconstructing the history and heritage of St. John. With 
increasing growth and investment throughout the Caribbean--including 
places not far from the unspoiled beauty of St. John--this vulnerable 
land has been the focus of intense development threats. In recent 
years, more than one investor envisioned private development along 
these shores, which would have jeopardized the unique character of Maho 
Bay. Once this land is acquired by the park, future visitors will be 
treated to spectacular views of Maho Bay and some of the most 
accessible and scenic shoreline and waters on St. John.
    The total estimated fair market value of the 207 acres is $18.6 
million. This property is being made available to NPS for a total of $9 
million over 2 years, with the balance to be provided through private 
donations of cash and land value. As $2.25 million was provided in 
fiscal year 2009, this year, an appropriation of $6.75 million is 
needed from the LWCF toward the purchase of the remaining 181 acres of 
these valuable lands.
    I also respectfully request a substantial increase in overall 
funding for the LWCF, specifically urging the subcommittee to provide 
$325 million for the Federal LWCF in the fiscal year 2010 Interior, 
Environment, and Related Agencies Appropriations bill. I applaud the 
LWCF funding increases provided by this subcommittee in fiscal year 
2009, which included the funds for Virgin Islands National Park. And, 
we are most thankful that the Obama administration budget recognizes 
the importance of these programs by proposing significant increases for 
fiscal year 2010 and setting a goal to achieve full funding of the LWCF 
in the next 5 years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. Public lands provide innumerable social and 
economic benefits including a healthy lifestyle, protection of 
watersheds and drinking water supplies, wildfire reduction and 
prevention, and assistance to wildlife and fisheries as they adapt to 
climate change. We urge you to renew this wise investment in America's 
natural heritage and take steps to toward full and consistent funding 
of these vital programs.
    Madam Chairman and distinguished subcommittee members, I want to 
thank you for this opportunity to testify on behalf of this important 
national protection effort in Virgin Islands National Park. On behalf 
of the Friends of Virgin Islands National Park and the more than 1 
million visitors to the park each year, I appreciate your consideration 
of this funding request.
                                 ______
                                 
    Prepared Statement of the Great Lakes Geologic Mapping Coalition

    Background and Funding History.--The Great Lakes Geologic Mapping 
Coalition was established in 1997 by the Illinois, Indiana, Michigan, 
and Ohio State Geological Surveys, in partnership with the U.S. 
Geological Survey (USGS). In January 2008, it expanded to include the 
Minnesota, New York, Pennsylvania, and Wisconsin State Geological 
Surveys. The central task of the Coalition is to make three-dimensional 
(3-D) geologic maps characterizing the region's near-surface deposits 
to depths of several hundred feet for decisionmakers. From fiscal year 
2000-2008, the Coalition program was a $500,000 line item in the Earth 
Surface Dynamics Program of the USGS, and from fiscal year 2004-2008 
was included in the President's budget. In the fiscal year 2009 
President's budget request, the $500,000 was removed, and then restored 
and increased to $750,000 in the House Appropriations Committee mark. 
The Coalition also was programmatically relocated to the USGS' National 
Cooperative Geologic Mapping Program (NCGMP). On March 30, 2009, the 
National Geologic Mapping Reauthorization Act (containing the NCGMP) 
was signed into law by President Obama as part of the Omnibus Public 
Lands Act with $750,000 for the Coalition and required match funds from 
the States. The $750,000 for the Coalition is included in the NCGMP in 
the fiscal year 2010 President's budget.
    Programmatic Funding Request.--For fiscal year 2010, the Coalition 
requests an incremental programmatic increase of $4,250,000 in the 
Senate Interior, Environment, and Related Agencies appropriations bill 
that places specific funds for the Great Lakes Geologic Mapping 
Coalition within the USGS' National Cooperative Geologic Mapping 
Program. We urge the subcommittee to recognize the value that geologic 
mapping provides in addressing issues such as natural resources, water, 
and sustainability. To supplement Federal funds, Coalition members have 
dedicated millions of their State funds to this mapping. However, 
additional Federal funds are needed to ramp up the program so it can 
provide economically and environmentally important information in a 
timely fashion to local and State decisionmakers in the Great Lakes 
region.
    Justification.--The 3-D maps produced by the Coalition not only 
show the various materials lying at land surface, they also show ``what 
lies beneath''. For example, aquifers containing water resources can 
now be delineated in much greater detail than previously possible. A 3-
D map gives water resource planners the tools to determine potable 
water supplies, ascertain their sustainable capacity, and ensure a 
balance between water use and protection from potential contamination. 
It also provides planners with the information necessary to avoid areas 
(and future costly liabilities) where natural hazards might exist at 
and below the surface, such as loose soils that enhance earthquake 
shaking, and terrain subject to erosion, flooding, or subsidence. 
Finally, regional and national concerns addressed by the Coalition 
include rapidly increasing water demands of energy facilities, 
including CO<INF>2</INF> sequestration, ethanol plants, and coal-to-
liquid/gas facilities. These demands, as well as those for high-water-
use industries, require information about the extent, continuity, and 
thickness of the geologic materials that provide their water supplies. 
Findings also provide critical information related to Global Climate 
Change (e.g., evaluating water as an impacted resource) and Homeland 
Security (e.g., water resource assessment, displaced populations, 
infrastructure support, etc.) both significant Federal issues. 
Appropriate funding for the Coalition will help provide all of this 
information in a timely fashion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Priority areas for geological mapping in the Coalition States were 
determined by each State geological survey in cooperation with their 
federally mandated Mapping Advisory Committee, composed of individuals 
from the private sector, State universities, county governments, and 
other State agencies. Priority areas include urban/suburban areas 
experiencing rapid growth and concurrent water resource challenges, 
areas of high recreation use, transportation corridors, regions with 
known energy development, and areas with environmental and homeland 
security demands.
    The Coalition States are unique within the United States because 
they have (1) thick, complex, multiple layers of sediments deposited 
during several glacier advances; the glacial sediments laid down during 
each of these glaciations contain groundwater resources used by a large 
percentage of their residents; (2) high population (about 80 million); 
(3) a long-standing tradition of light and heavy industry; (4) serious 
brownfield redevelopment issues; (5) high agricultural productivity; 
and (6) considerable demands on water resources from the energy sector. 
Unfortunately, only a small percentage of the surface deposits of these 
States has been mapped to address critical land- and water-use 
decisions that State and local officials must make to cope with these 
unique and interrelated regional geological and cultural 
characteristics.
    No single agency among the Coalition partners has the financial, 
technical, or physical resources to conduct a massive geological 
mapping effort at the national standard scale of 1:24,000 (1 inch' on 
the map is equal to 2,000 feet on the ground). Therefore, the Coalition 
relies on the combined physical and intellectual resources of all 
agencies, in concert with increased Federal funding. This combination 
allows 3-D geological mapping to be conducted in the most cost-
efficient manner as it provides critical information to county/
municipal decisionmakers, developers, and industrial/commercial 
concerns.
    The Coalition's mapping program commenced in 2000 with 3-D mapping 
of pilot areas in county-sized regions of Illinois, Indiana, Michigan, 
and Ohio. For several years, Coalition members have dedicated millions 
of State dollars to this mapping effort. We estimate that it will 
require $40 million per year over 15 years to complete mapping in the 
highest-priority areas of the 8 States. This figure is the optimum 
amount needed to produce new information in a timely fashion. At the 
present level of Federal funding, the Coalition estimates that it will 
take more than 100 years to produce 1:24,000-scale, 3-D geological maps 
of the high-priority areas. Even with the infusion of millions of State 
dollars already committed to this task, critical land- and water-use 
decisions that may have negative impacts on the region's long-term 
economic development and environmental security, will be made in 
ignorance of basic geologic facts. Particularly, it is well-known that 
important economic development opportunities in these States have 
already been lost because geologic information was lacking and economic 
development opportunities located elsewhere.
    A thorough economic assessment of statewide mapping was conducted 
for Kentucky, the only State to be completely geologically mapped at 
the 1:24,000-scale. Based on extensive polling of map users, 
professional economists conservatively concluded that each Federal and 
State dollar invested in geological mapping generated $25-$39 in 
economic benefits. Furthermore, the Kentucky maps, originally intended 
to boost the State's mineral and energy industries, primarily have been 
used to address water supply and protection issues, growth and 
development concerns, environmental problems, and mitigation of a 
variety of natural hazards.
    Senate and House offices for the last 2 years have received 
hundreds of supportive constituent letters for the Coalition from 
State, county, and municipal agencies, county and regional economic 
development corporations, regional government entities, universities, 
consulting companies, soil and water conservation districts, 
professional associations, environmental groups, State and local 
political office holders, and private practicing geologists. There is 
no known opposition to this program.
    Finally, although funding constraints necessarily have slowed the 
pace of mapping, the Coalition has achieved significant milestones over 
the last 12 years. It has significantly improved the efficiency of 
geological mapping and map production, and shown its capacity to 
perform and produce at appropriate funding levels.
  --The long-term Lake County, Illinois land-use plan requires 
        Coalition information for future development planning because 
        the location of buried aquifers, recharge areas, and 
        vulnerability of aquifers to potential contamination are major 
        issues. Geologists have been working closely with Lake County 
        municipalities to help delineate groundwater resources, model 
        groundwater flow, and ascertain long-range growth and 
        development plans. Lake County government officials have stated 
        that geologic information is as basic to a county's needs as 
        soil information and air photos and have pressed us to speed up 
        our mapping program. Illinois has also initiated mapping within 
        the city of Chicago to address brownfield re-development 
        concerns, Lake Michigan shoreline issues (erosion, shoreline 
        protection, sedimentation, beach replenishment, redevelopment, 
        and near-shore lake bottom paving), construction favorability 
        conditions, contamination hazards, aggregate for construction, 
        and land suitability for open space and wetlands.
  --In northeastern Indiana, 3-D geologic mapping of glacial sediments 
        has been initiated to develop models of how these materials 
        were deposited. The materials enclose a major aquifer system 
        that has experienced a long-term decline in groundwater levels. 
        The 3-D geologic interpretation is the first step in developing 
        a model for the aquifer system, which will help in 
        understanding groundwater flow and recharge. In addition, the 
        Coalition completed an educational and outreach effort focused 
        on Allen County, where Fort Wayne, Indiana's second largest 
        city, is located. A Web site was created to disseminate much-
        needed geologic information about accessing and protecting 
        groundwater and mineral resources. This Web site, written for 
        the general public and water- and mineral-resource, 
        environmental, planning, and public health professionals, 
        includes an Internet map server where online maps can be 
        constructed and with Web pages containing educational summaries 
        and discussions of the geology of Allen County. It also offers 
        databases that can be downloaded by any user.
  --In Berrien County, Michigan, 3-D geologic mapping saved the village 
        of Coloma more than $50,000 by using newly available aquifer 
        information when an elementary school discovered contamination 
        in their groundwater supply well. The same map was also used to 
        exclude the location of a ``peaker'' power plant in an area of 
        inadequate groundwater for cooling water needs. Consultants 
        used the information to help cleanup a Superfund site in Benton 
        Harbor, as well as locate an irrigation well for a planned golf 
        course. Also, real estate developers have recognized that 
        Berrien County geological maps are important for understanding 
        land use and development potential. Spin-off products have 
        included maps showing directions and rates of groundwater flow 
        in the county, as well as primary areas of groundwater 
        recharge, all essential for assessing water resource 
        availability and ensuring ``green'' economic development. 
        Preliminary mapping on the border of Manistee and Wexford 
        Counties has located a huge, previously unknown reserve of 
        high-quality foundry sand for the automotive industry.
  --In central Erie County, Ohio, the Coalition completed 3-D geologic 
        mapping that delineates the area's most important buried 
        aquifer. Advanced groundwater flow modeling performed by 
        Coalition partners at the Indiana Geological Survey, based on 
        the 3-D geology, provided information on the aquifer's 
        groundwater flow contributions to Lake Erie, as well as 
        sustainability for public water supplies and vegetable crop 
        irrigation. In addition, this work has provided the data needed 
        for assessing aquifer vulnerability, particularly in connection 
        with a county landfill and two SuperFund sites that are in the 
        mapping area. These innovative 3-D mapping processes first 
        employed to digitally model the surface deposits of Erie County 
        now have been implemented in Delaware and Pickaway Counties in 
        central Ohio, thereby increasing the speed at which mapping can 
        be completed. Also, shallow geophysical methods capable of 
        penetrating to depths of 100 feet are now being used for 
        surface/groundwater interaction studies, depth to bedrock 
        investigations, determining seismic risk potential, and 
        ascertaining the thickness of potential sand and gravel 
        deposits for resource studies.
    Congressional allocation of an additional $4,250,000, will allow 
further implementation of the above and expansion of the Coalition 
program to other regions of the four original Coalition States, as well 
as initiate new programs in the four newly added States. Your 
consideration regarding our request is greatly appreciated.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

 AGENCIES--BUREAU OF INDIAN AFFAIRS (BIA) AND ENVIRONMENTAL PROTECTION 
                              AGENCY (EPA)

    BIA Treaty Rights Protection/Implementation.--$4,327,000 ($452,000 
more than fiscal year 2009 appropriation).
    Agency/Program Line Item.--Department of the Interior, BIA, 
Operation of Indian Programs, Trust-Natural Resources Management, 
Rights Protection Implementation, Great Lakes Area Resource 
Management.\1\
---------------------------------------------------------------------------
    \1\ The requested BIA funds reflect Great Lakes Indian Fish and 
Wildlife Commission's (GLIFWC) allocation of this line item that also 
funds the 1854 Treaty Authority.
---------------------------------------------------------------------------
    Funding Authorizations.--Snyder Act, 25 U.S.C. Sec. 13; Indian 
Self-Determination and Educational Assistance Act, 25 U.S.C. 
Sec. Sec. 450f and 450h; and the treaties between the United States and 
GLIFWC's member Ojibwe Tribes, specifically Treaty of 1836, 7 Stat. 
491, Treaty of 1837, 7 Stat. 536, Treaty of 1842, 7 Stat. 591, and 
Treaty of 1854, 10 Stat. 1109.\2\
---------------------------------------------------------------------------
    \2\ The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities, have been affirmed 
by various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
    EPA Environmental Programs and Management.--$300,000 (fiscal year 
2004 enacted).
    Agency/Program Line Item.--EPA, Environmental Programs and 
Management (funneled through the EPA's Great Lakes National Program 
Office).
    Funding Authorizations.--Clean Water Act, 33 U.S.C. Sec. 1268(c); 
and treaties cited above.

  GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION'S (GLIFWC) GOAL--A 
             SECURE FUNDING BASE TO FULFILL TREATY PURPOSES

    As Congress has recognized for 25 years, funding for GLIFWC's 
conservation, natural resource protection, and law enforcement programs 
honors Federal treaty obligations to 11 Ojibwe tribes and provides a 
wide range of associated public benefits. GLIFWC seeks an inflation-
adjusted secure funding base to: (1) implement Federal court orders and 
intergovernmental agreements governing the exercise of treaty-
guaranteed hunting, fishing, and gathering rights; and (2) participate 
in management partnerships in Wisconsin, Michigan, and Minnesota.

                  ELEMENTS OF GLIFWC'S FUNDING REQUEST

    BIA Treaty Rights Protection/Implementation.--$4,327,000. As its 
primary Indian Self-Determination and Educational Assistance Act 
funding base, GLIFWC seeks to maintain consistent, stable funding, 
restore and protect jobs, and restore diminished service capacity, 
including:
  --$227,000 \3\ to restore base funding to 2002 levels--to restore two 
        full-time equivalent positions and related costs, replace four 
        vehicles and restore diminished services including cuts to 
        scientific research and monitoring activities;
---------------------------------------------------------------------------
    \3\ This amount includes $151,000 in fixed pay costs that the 
Bureau has been providing but that needs to be preserved in future 
appropriations.
---------------------------------------------------------------------------
  --$150,000 for conservation enforcement and emergency services--to 
        restore two full-time equivalent positions and related costs 
        and provide digital radio upgrades; and
  --$75,000 for cultural infusion programs--to retain one full-time 
        equivalent position and related costs to implement programs to 
        sustain and foster inter-generational transfer of Chippewa 
        language, lifeways and traditional ecological knowledge.
    EPA Environmental Programs and Management.--$300,000. As an EPA 
funding base for its primary environmental program elements, GLIFWC 
seeks to:
  --Provide $190,000 for basic scientific/technical capabilities to: 
        (1) including the Binational Program to Restore and Protect 
        Lake Superior and other Great Lakes regional protection and 
        restoration initiatives); (2) carry out habitat and human-
        health related research; and (3) provide the requisite analysis 
        and data to support participation in regional initiatives and 
        to assess the impact of particular projects on tribal treaty 
        rights.
  --Provide $110,000 to undertake three habitat and human health-
        related research projects regarding: (1) GLIFWC's fish 
        consumption mercury advisory program; (2) invasive species 
        impacts on the Lake Superior food web; and (3) a global climate 
        change pilot project.
       ceded territory treaty rights--glifwc's role and programs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Established in 1984, GLIFWC is a natural resources management 
agency for its 11-member Ojibwe tribes regarding their ceded territory 
(off-reservation) hunting, fishing and gathering treaty rights. Its 
mission is to: (i) ensure that its member tribes are able to exercise 
their rights for the purposes of meeting subsistence, economic, 
cultural, medicinal, and spiritual needs; and (ii) ensure a healthy, 
sustainable natural resource base that supports those rights. GLIFWC is 
a ``tribal organization'' within the meaning of the Indian Self-
Determination and Educational Assistance Act (Public Law 93-638). It is 
governed by a Constitution developed and ratified by its member tribes 
and by a board comprised of the chairs of those tribes.
    GLIFWC operates a comprehensive ceded territory hunting, fishing, 
and gathering rights protection/implementation program through its 
staff of biologists, scientists, technicians, conservation enforcement 
officers, policy specialists, and public information specialists. Its 
activities include: (1) natural resource population assessments and 
studies; (2) harvest monitoring and reporting; (3) enforcement of 
tribal conservation codes in tribal courts; (4) funding for tribal 
courts and tribal registration/permit stations; (5) development of 
natural resource management plans and tribal regulations; (6) 
negotiation and implementation of agreements with State, Federal, and 
local agencies; (7) invasive species eradication and control projects; 
(8 biological and scientific research, including fish contaminant 
testing; and (9) development and dissemination of public information 
materials.

              JUSTIFICATION AND USE OF THE REQUESTED FUNDS

    For 25 years, Congress has recognized GLIFWC as a cost-efficient 
agency that plays a necessary role in: (1) meeting specific Federal 
treaty and statutory obligations toward GLIFWC's member tribes; (2) 
fulfilling conservation, habitat protection, and law enforcement 
functions required by Federal court decisions affirming the tribes' 
treaty rights; (3) effectively regulating harvests of natural resources 
shared among the treaty signatory tribes; and (4) serving as an active 
partner with State, Federal, and local governments, with educational 
institutions, and with conservation organizations and other nonprofit 
agencies.
    Particularly relevant to the requested EPA funds, tribal members 
rely upon treaty-protected natural resources for religious, cultural, 
medicinal, subsistence, and economic purposes. Their treaty rights mean 
little if contamination of these resources threatens their health, 
safety, and economy, or if the habitats supporting these resources are 
degraded.
    With the requested stable funding base, GLIFWC will:
  --Maintain the Requisite Capabilities To Meet Legal Obligations, To 
        Conserve Natural Resources and To Regulate Treaty Harvests.--
        Without an increase in its base funding, GLIFWC is at risk of 
        losing 10 percent of its full-time employees through attrition 
        or job cuts. Flat-line funding, annual across-the-board budget 
        cuts, contract support cost shortfalls, rising fixed costs, and 
        diminishing ``soft funding'' sources have combined to undermine 
        GLIFWC's capacity to fulfill its obligations under a number of 
        Federal court decisions and intergovernmental agreements, 
        namely to provide a wide range of natural resource management 
        and conservation law enforcement services that must be in place 
        before tribal members may exercise their treaty rights. These 
        cuts also undermine GLIFWC's capacity to sustain conservation 
        partnerships and cooperative management responsibilities with 
        State, Federal, and local governments, with educational 
        institutions, and with conservation organizations and other 
        nonprofit agencies.
  --Remain a Trusted Environmental Management Partner and Scientific 
        Contributor in the Great Lakes Region.--With the requested EPA 
        funding base, GLIFWC would maintain its ability to bring a 
        tribal perspective to the interjurisdictional mix of Great 
        Lakes managers.\4\ It also would use its scientific expertise 
        to study issues and geographic areas that are important to its 
        member tribes but that others may not be examining.\5\
---------------------------------------------------------------------------
    \4\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Regional 
Collaboration, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \5\ With the requested fiscal year 2010 EPA funds, GLIFWC would: 
(1) continue its long-standing program to collect and test fish for 
mercury and to communicate testing results through healthcare providers 
and GIS maps; (2) document the diet of important species of Lake 
Superior fish in order to understand potential changes over time due to 
invasive species or other causes; and (3) identify climate variables 
that affect the presence, health, and abundance of selected natural 
resources that are harvested by GLIFWC member tribes.
---------------------------------------------------------------------------
    The lack of a secure, ongoing EPA funding base jeopardizes GLIFWC's 
role as a trusted environmental management partner and scientific 
contributor in the Great Lakes region. This is particularly true given 
important recent initiatives such as the Great Lakes Regional 
Collaboration in which GLIFWC participates as a full partner. A secure 
funding base is crucial to provide the basic infrastructure that allows 
access to competitive project funding and discretionary grants.
    Maintain the Overall Public Benefits That Derive From its 
Programs.--Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management, in emergency services networks, 
and in providing accurate information to the public. Because of its 
institutional experience and staff expertise, GLIFWC provides 
continuity and stability in interagency relationships and among its 
member tribes, and contributes to social stability in the context of 
ceded territory treaty rights issues.
    Over the past 25 years, GLIFWC has built many partnerships that: 
(1) provide accurate information and data to counter social 
misconceptions about tribal treaty harvests and the status of ceded 
territory natural resources; (2) maximize each partner's financial 
resources; (3) avoid duplication of effort and costs; (4) engender 
cooperation rather than competition; and (5) undertake projects and 
achieve public benefits that no one partner could accomplish alone.

                 OTHER RELATED APPROPRIATIONS CONCERNS

    Full Funding of BIA Contract Support Costs.--GLIFWC seeks full 
funding of its contract support costs as required by the Indian Self-
Determination and Educational Assistance Act. The BIA has consistently 
failed to fully fund indirect contract support, despite GLIFWC's 
uniformly low indirect cost rates--proposed at 16.3 percent for fiscal 
year 2009. GLIFWC estimates its direct and indirect contract support 
shortfall at approximately $280,000 for fiscal year 2009. This 
shortfall cuts significantly into program funding.
    BIA Circle of Flight Tribal Wetland and Waterfowl Initiative.--
Congress should restore and fully fund this long-standing tribal 
contribution to the North American Waterfowl Management Plan that was 
eliminated in 2009.
                                 ______
                                 
             Prepared Statement of the Green Mountain Club

    Madam Chairman and honorable members of the subcommittee: Thank 
you, Madam Chairman, for the opportunity to present this testimony in 
support of the Eden Forest project in Vermont. An appropriation of $2.2 
million is needed from the Forest Legacy Program (FLP) to protect the 
second phase of the 5,727-acre Eden Forest property.
    I also respectfully urge a substantial increase in overall funding 
for the FLP, specifically urging the subcommittee to provide $125 
million for the program in the fiscal year 2010 Interior, Environment, 
and Related Agencies Appropriations bill. I applaud the FLP funding 
provided by this committee in fiscal year 2009, including $1.8 million 
for the first phase of this project. We are thankful that the Obama 
administration budget recognizes the importance of this and other 
Federal land conservation programs by proposing significant increases 
for fiscal year 2010.
    The FLP in Vermont seeks to protect large contiguous and productive 
forest blocks, wildlife habitat dependent on large contiguous forest 
blocks, threatened and endangered species habitat, State fragile areas 
and undeveloped shoreline, significant wetlands, and important 
recreation corridors.
    The State's top FLP priority for fiscal year 2010 is the 5,727-acre 
Eden Forest. Situated on the spine of the northern Green Mountains in 
Eden and Johnson, this large contiguous timber tract is truly a high-
quality forest, which contains two unique natural communities known as 
red spruce hardwood swamp and semi-rich northern hardwood forest. The 
property has been managed for timber for more than 50 years and has 
valuable forest and forest roads.
    Eden Forest is adjacent to 24,188 acres of conserved land and 
shares a common boundary with the Long Trail State Forest and the Long 
Trail corridor itself for approximately 4 miles. The Long Trail is the 
Nation's oldest long-distance hiking trail and one of Vermont's most 
cherished cultural resources. The property also contains portions of 
both Bowen and Butternut Mountain summits. Its protection would create 
a 30,000-acre block of protected land, a significant unfragmented 
``core'' forest in Vermont's northern woods.
    Eden Forest's close proximity to the Babcock Nature Preserve, the 
Atlas Timberlands, and Green River Reservoir State Park, coupled with 
the large unfragmented nature of the property will provide a haven for 
many wildlife species. More than 5,000 acres of the property is 
considered ``core'' habitat and has received a high wildlife linkage-
value rating by the Vermont Department of Fish and Wildlife. The 
property has 120 acres of beaver wetlands that provide habitat for wood 
ducks, wood turtles, and many species of warblers. A rookery for great 
blue herons, a rare species in Vermont, was found at one of the 
property's wetland complexes.
    The Eden Forest property also encapsulates almost the entire 
watersheds of two Gihon River headwater streams, Stony Brook and Wild 
Brook. It also contains approximately one-half mile of frontage on both 
sides of the Gihon River itself, which is a tributary of the Lamoille 
River, and abuts Vermont's scenic Route 100. The property also includes 
more than 46 miles of streams and wetland areas that make up part of 
the Gihon River headwaters. The Lamoille County watershed plan 
recognizes the importance of protecting the Gihon River headwaters area 
for its near-pristine natural condition, wildlife and fish habitat 
value, timber value, and location adjacent to a core of protected land. 
Numerous wetlands dot the extensive property, including the 6-acre 
Lanpher Meadow.
    Historically, the Eden Forest property has also provided numerous 
recreational activities such as hiking, hunting, and cross-country 
skiing. Snowmobiling is also allowed, and the property hosts trails 
that are managed by the Vermont Association of Snow Travelers (VAST). 
These activities all make up an important part of the local tourist 
economy.
    Eden Forest is under immediate pressure from development. According 
to 2000 census data, the town of Eden has the second highest percentage 
of population growth in Lamoille County, and its projected population 
growth through 2015 is expected to continue at a higher rate than 
almost any other town in the county. Eden also had a 25 percent 
increase in the number of housing units from 1990 to 2000, indicating a 
high demand for new homes in the area. This type of sprawl is largely 
to blame for the fragmentation of Vermont's forests and farms. With its 
first-rate access to Route 100, low-elevation open meadows, well-
developed road network, southern exposure, scenic views, and proximity 
to the major cities in Vermont, Eden Forest is vulnerable to 
fragmentation.
    Recognizing the importance of protecting crucial forest resources, 
Congress appropriated $1.8 million in fiscal year 2009 to begin the 
acquisition of a conservation easement on Eden Forest. In fiscal year 
2010, $2.2 million is requested from FLP funds to complete the 
protection of the vast 5,727-acre Eden Forest property.
    Thank you, Madam Chairman, for the opportunity to submit testimony 
in support of a worthy FLP in Vermont.
                                 ______
                                 
            Prepared Statement of the Georgia River Network

    Madam Chairman and honorable members of the subcommittee: Thank you 
for the opportunity to present this testimony in support of two 
national forest land conservation projects in Georgia. An appropriation 
of $1.5 million is needed to acquire the 450-acre first phase of the 
Cedar Creek property in the Oconee National Forest (NF), and an 
appropriation of $1.2 million is needed to protect the 84-acre Bear 
Mountain tract in the Chattahoochee NF. These funds from the Land and 
Water Conservation Fund (LWCF) will allow the Forest Service to acquire 
these important inholdings.
    I also respectfully request a substantial increase in overall 
funding for the LWCF, specifically urging the subcommittee to provide 
$325 million for the Federal LWCF in the fiscal year 2010 Interior and 
environment appropriations bill. I applaud the LWCF funding increases 
provided by this committee in fiscal year 2009. And, we are most 
thankful that the Obama administration budget recognizes the importance 
of these programs by proposing significant increases for fiscal year 
2010 and setting a goal to achieve full funding of the LWCF in the next 
5 years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units, and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. Public lands provide innumerable social and 
economic benefits including a healthy lifestyle, protection of 
watersheds and drinking water supplies, wildfire reduction and 
prevention, and assistance to wildlife and fisheries as they adapt to 
climate change. We urge you to renew this wise investment in America's 
natural heritage and take steps to toward full and consistent funding 
of these vital programs.
    The Chattahoochee-Oconee NFs encompass the ridges and valleys of 
the southern Appalachians in north Georgia as well as significant 
recreational, historical, and natural resources in the Georgia 
Piedmont. These forests provide important habitat for more than 500 
wildlife species, including many unique mountain species of plants, and 
contain more than 1,000 miles of primary trout and warm-water streams.
    The watersheds within the Chattahoochee-Oconee NFs supply the 
drinking water for the largest urban areas in the State of Georgia. 
These watersheds not only provide recreational opportunities, but also 
critical habitat for dozens of threatened, endangered, and sensitive 
aquatic species. The Chattahoochee-Oconee NFs are also featured in the 
2007 Forest Service publication, National Forests on the Edge, a report 
that examines the challenges faced by the national forest system due to 
the high growth in housing density projected to occur on adjacent 
private land between 2000 and 2030. Georgia as a whole has a very high 
rate of population growth; according to the 2000 census, it is one of 
the top 10 States in terms of such growth. Private lands within the 
national forest boundaries are at very high risk for development due to 
proximity to the fast-growing cities of Atlanta, Athens, and Macon. 
Already, the building of second homes threatens the forests by 
fragmenting wildlife habitat, complicating wildfire management, and 
increasing the amount of nonpoint source pollution in the area.
Oconee NF
    In central Georgia, lands within the Oconee NF are threatened by 
such growth. The Ocmulgee River flows through the forest, as well as 
important tributaries of the Oconee River, such as the Little River. 
These waters offer outstanding recreational opportunities for residents 
of the nearby population centers of Atlanta and Macon, as well as the 
more closely situated towns of Milledgeville and Monticello. The Oconee 
NF offers excellent canoeing, hiking, horseback riding, and hunting. It 
contains one of the most productive and diverse fisheries in the 
Georgia Piedmont. Bottomland hardwood stands of red oak, beech, and 
tulip support abundant wildlife, including turkey, beaver, wood duck, 
and other indicator species for habitat quality.
    Available for acquisition by the Oconee NF in fiscal year 2010 is 
the first phase of a 901-acre property along Cedar Creek, which drains 
into Lake Sinclair in the Oconee River watershed. Located in Putnam and 
Jones counties within the Oconee NF boundaries, this parcel is 
surrounded almost completely by already protected Forest Service land. 
Its acquisition will further the consolidation of public lands--thus 
helping to reduce management challenges--and protect the water quality 
of Cedar Creek, Lake Sinclair, and the Oconee River. The Forest Service 
has designated Cedar Creek as an ``outstandingly remarkable stream'' 
within the Chattahoochee-Oconee NF. Preventing the development of the 
Cedar Creek property will also protect more habitat for wildlife such 
as the red-cockaded woodpecker, wood stork, and gray bat--all federally 
listed endangered species.
    The current owner of the Cedar Creek property is a timber company 
seeking to sell off its inholdings. Unless the Forest Service is able 
to acquire and protect this land, it will very likely be developed in 
the near future. In fiscal year 2010, $1.5 million is needed from the 
Forest Service through the LWCF to acquire and conserve the first 450 
acres of the Cedar Creek property. When completed, this acquisition 
will provide recreational opportunities, protect clean drinking water, 
and facilitate improved management of national forest lands in Georgia.
Chattahoochee NF
    Available for acquisition by the Forest Service in fiscal year 2010 
is the 84-acre Bear Mountain property, an inholding of the 
Chattahoochee NF. The tract is completely surrounded by Forest Service 
lands. Almost all of the property, 83 acres, is located in Dawson 
County, while a small 1-acre tract is across the line in Gilmer County. 
A road through the national forest connects the inholding via the 
historic High Falls Church to the nearby road network at Amicalola 
Falls State Park. The property was used in the 1990s as a wilderness 
camp for boys, who helped to construct several buildings on the tract. 
The property contains stunning mountaintop views, two pristine streams, 
a 60-foot waterfall, and a 2-acre pond.
    The Bear Mountain property is accessible through one of the major 
recreational gateways to the Chattahoochee NF, Amicalola Falls State 
Park. The 729-foot Amicalola Falls--named for a Cherokee word meaning 
``tumbling waters''--is the tallest cascading waterfall east of the 
Mississippi River. The park features a popular lodge with more than 50 
rooms for overnight stays and halls for meetings and conferences. 
Campsites and cottages are also available for visitors. The State park 
is also a major entrance for hikers to the Appalachian Trail (AT). 
Though the southern terminus of the trail is at Springer Mountain to 
northeast, it is difficult to reach via automobile. A nearly 9-mile 
approach trail connects Springer Mountain to the facilities and parking 
at the State park. This trail passes about 1 mile east of the Bear 
Mountain property near Frosty Mountain.
    Also to the east of the property is Ed Jenkins National Recreation 
Area. Created by Congress in 1991 and operated by the Forest Service, 
the 23,300-acre area protects abundant natural, scenic, wildlife, 
historic, and watershed resources, as well as Springer Mountain and the 
AT terminus. The park is named for Ed Jenkins, a Georgia congressman 
who served eight terms from 1977 to 1993.
    Because of the road access through the Amicalola Falls State Park 
and its proximity to the surrounding recreational opportunities, the 
inholding is under threat of development. If not for the current 
slowdown in the real estate market, this tract would probably already 
be developed with home sites.
    An appropriation of $1.2 million from the LWCF in fiscal year 2010 
is needed to protect this critical inholding of the Chattahoochee NF in 
northern Georgia.
    Thank you, Madam Chairman, for the opportunity to present testimony 
in support of these two important Forest Service acquisition projects 
in Georgia.
                                 ______
                                 
        Prepared Statement of the Geological Society of America

                                SUMMARY

    The Geological Society of America (GSA) urges Congress to 
appropriate at least $1.3 billion for the U.S. Geological Survey (USGS) 
in fiscal year 2010. The USGS is one of the Nation's premier science 
agencies. It addresses many of the Nation's greatest challenges, 
including energy resources, climate change, water resources, and 
natural hazards. The need for USGS science and information in these and 
other areas has increased dramatically as its budget has stagnated in 
real dollars for more than a decade (see Figure 1).
    GSA supports strong and growing investments in earth science 
research at the USGS and other Federal agencies. Substantial increases 
in Federal funding for earth science research are needed to ensure the 
health, vitality, and security of society and for stewardship of Earth. 
The USGS has a unique combination of biological, geographical, 
geological, and hydrological programs that enables it to address 
interdisciplinary research challenges that are beyond the capabilities 
of most other organizations. The need for USGS science and information 
has never been greater. The USGS benefits every American every day.
    GSA, founded in 1888, is a scientific society with more than 22,000 
members from academia, Government, and industry in all 50 States and 
more than 90 countries. Through its meetings, publications, and 
programs, GSA enhances the professional growth of its members and 
promotes the geosciences in the service of humankind. GSA encourages 
cooperative research among earth, life, planetary, and social 
scientists, fosters public dialogue on geoscience issues, and supports 
all levels of earth science education.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1.--USGS funding in constant 2009 dollars, fiscal year 
1996--fiscal year 2009. EI is Enterprise Information and GC is Global 
Change.

    Source: USGS Budget Office.

                               RATIONALE

    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investment in 
research pays substantial dividends. According to a recent report by 
the National Academies, ``. . . the economic value of investing in 
science and technology has been thoroughly investigated. Published 
estimates of return on investment (ROI) for publicly funded R&D range 
from 20 to 67 percent'' (Rising Above the Gathering Storm, 2007).
    The earth sciences are critical components of the overall science 
and technology enterprise. Substantial increases in Federal funding for 
earth science research are needed to ensure the health, vitality, and 
security of society and for Earth stewardship. Earth science research 
provides knowledge and data essential for developing policies, 
legislation, and regulations regarding land, mineral, and water 
resources at all levels of government. Growing investments in earth 
science research are required to stimulate innovations that fuel the 
economy, provide security, and enhance the quality of life.

                 BROADER IMPACTS OF THE EARTH SCIENCES

    It is critically important to significantly increase funding for 
the USGS to meet challenges posed by human interactions with Earth's 
natural systems in order to help sustain these natural systems and the 
economy. Additional investments in the USGS are necessary to address 
such issues as natural hazards, energy, water resources, and climate 
change.
  --Natural hazards, such as earthquakes, tsunamis, volcanic eruptions, 
        floods, droughts, and hurricanes, remain a major cause of 
        fatalities and economic losses worldwide. An improved 
        scientific understanding of geologic hazards will reduce future 
        losses through better forecasts of their occurrence and 
        magnitude. Ongoing volcanic activity in Alaska and ongoing 
        flooding in North Dakota illustrates the value of robust 
        natural hazards monitoring systems and the need for increased 
        Federal investments in the USGS.
  --Energy and mineral resources are critical to the functioning of 
        society and to national security and have positive impacts on 
        local, national, and international economies and quality of 
        life. Improved scientific understanding of these resources will 
        allow for their better management and utilization, while at the 
        same time considering economic and environmental issues. This 
        is particularly significant because shifting resource demands 
        often reframe our knowledge as new research-enabling 
        technologies become available.
  --The availability and quality of surface water and groundwater are 
        vital to the well being of both society and ecosystems. Greater 
        scientific understanding of these critical resources--and 
        communication of new insights by geoscientists in formats 
        useful to decisionmakers--is necessary to ensure adequate and 
        safe water resources for the future.
  --Forecasting the outcomes of human interactions with Earth's natural 
        systems, including climate change, is limited by an incomplete 
        understanding of geologic and environmental processes. Improved 
        understanding of these processes in Earth's history can 
        increase confidence in the ability to predict future States and 
        enhance the prospects for mitigating or reversing adverse 
        impacts to the planet and its inhabitants.
  --Research in earth science is also fundamental to training and 
        educating the next generation of earth science professionals.
    USGS should be a component of broader initiatives to increase 
overall public investments in science and technology. For example, 
earth science research should be included in a recommendation by the 
National Academies to ``increase the federal investment in long-term 
basic research by 10 percent each year over the next 7 years . . .'' 
(Rising Above the Gathering Storm, 2007). Likewise, implementation of 
the America COMPETES Act, which authorizes a doubling of the budgets of 
key science agencies in 7 years, should encompass earth science 
research and education programs in the USGS.

                           BUDGET SHORTFALLS

    President Obama's fiscal year 2010 budget request for USGS is 
$1.098 billion, an increase of $54 million, or 5.2 percent, more than 
the enacted level in the fiscal year 2009 Omnibus Appropriations Act. 
Budget increases are proposed for Secretarial Initiatives in climate 
change ($22 million), energy ($3 million), and youth conservation corps 
($2 million). Budget increases are also proposed for the national 
stream gage network ($5 million), arctic ecosystem studies ($4 
million), staffing for biology cooperative research units ($2 million), 
extended continental shelf studies ($1 million), and sustainable energy 
development ($0.7 million). The budget request would provide full 
funding for increases in ``fixed costs'' totaling $21 million. These 
proposed investments deserve the full support of Congress.
    We urge Congress to increase the USGS budget beyond the President's 
budget request for fiscal year 2010. After years of stagnant budgets 
(see Figure 1) and absorption of fixed cost increases, the USGS has a 
large and growing backlog of monitoring and science needs. Although the 
fiscal year 2010 budget request would provide all USGS programs with an 
increase for fixed costs, most programs would receive no increase for 
program changes. Science cannot thrive on increases in fixed costs 
alone. Congress has an historic opportunity to meet fundamental 
national needs by providing program increases in such areas as 
earthquake hazards, volcano hazards, mineral resources, ground-water 
resources, national water-quality assessment, toxic substances 
hydrology, and hydrologic research, and development.
    The fiscal year 2010 USGS budget request would reduce staff in 
water resources programs by 12 FTE. Congress should monitor the 
continuing decline in staff of USGS water programs.
    The fiscal year 2010 budget request comes at a critical juncture in 
the history of the USGS. From fiscal year 1996 to 2008, funding for the 
USGS declined by 1 percent while total Federal funding for research and 
development increased by 54 percent in real dollars. The decline in 
funding for the USGS during this time period would have been greater if 
Congress had not repeatedly restored proposed budget cuts. The USGS 
budget declined in real dollars for 6 consecutive years from fiscal 
year 2003 to fiscal year 2008 (see Figure 1). In real terms, funding 
for the USGS is at its lowest level since fiscal year 1997, the year 
after the National Biological Service was integrated into the USGS.
    GSA joins with the USGS Coalition and other organizations in 
recommending an appropriation of $1.3 billion for the USGS in fiscal 
year 2010. This budget would enable the USGS to strengthen core 
programs, accelerate the timetable for deployment of critical projects, 
and launch science initiatives that address new challenges.
    GSA is grateful to the Senate Appropriations Subcommittee on 
Interior, Environment, and Related Activities for its past leadership 
in increasing the budget for the USGS. We are also grateful to the 
subcommittee for its leadership in providing $140 million in stimulus 
funds for the USGS under the American Recovery and Reinvestment Act of 
2009. Thank you for your thoughtful consideration of our request. For 
additional information or to learn more about the Geological Society of 
America, please visit www.geosociety.org.
                                 ______
                                 
  Prepared Statement of the Greasewood Springs Community School Board

    Greasewood Springs Community School, Inc. (GSCS) is located in the 
central part of the Navajo Nation in Northern Arizona. GSCS was built 
in 1963 as a Bureau of Indian Affairs (BIA) school. Presently GSCS is a 
Bureau of Indian Education (BIE) funded Public Law 100-297 grant school 
serving the educational needs of approximately 175 Navajo students from 
kindergarten through 8th grade and approximately 60 students in a home 
living program which serves children in a residential setting. I am 
requesting no less than $30 million to rebuild our aging, dilapidated 
facilities and full funding of grant school Administrative Cost Grants 
(ACG) at no less than $68 million, both under the fiscal year 2010 BIE 
budget contained in the Interior, Environment, and Related Agencies 
appropriations.
    GSCS was built in 1963. Although GSCS has had the benefit of a 
hardworking, dedicated facilities department its facilities, through 
use and age, are beyond worn out. The BIA/Office of Facilities 
Management and Construction (OFMC) has declared the buildings and 
infrastructure for the campus beyond repair. However, this past year 
BIA/OFMC also has taken steps to revoke and rescind a $10,000,000 
facilities improvement and repair grant that was previously granted to 
repair GSCS. Further, BIA/OFMC has given little, if any, hope of any 
new facility being built in the foreseeable future. GSCS is being left 
to die on the vine by the BIA/OFMC action to refuse to provide 
facilities that are habitable or even slightly competitive with 
alternative, but more distant, State-funded schools. The BIA/OFMC 
action is tantamount to failure to assist.
    This apparently intentional closure of GSCS by refusing to 
construct a safe, modern, habitable facility in which the school's 
educational and residential programs can be provided is compounded by 
the BIE's chronic and downwardly progressive underfunding of the ACG. 
(See attached explanation.) GSCS has, as with all other schools, 
administrative needs. Although GSCS has 100 percent needs in ACG it was 
only funded at approximately 62.3 percent of that need this school year 
due to an arbitrary ceiling that has been placed on ACG by the Federal 
Government. The result of this chronic underfunding is clear, grant 
schools are provided a fraction of their ACG need. This arbitrary, 
increasingly downward underfunding of Public Law 100-297 grant schools' 
ACG will eventually lead to the demise of GSCS and other grant schools; 
there is no other foreseeable alternative for grant schools, but 
intentional extinction. We had hoped the new administration would 
similarly seek a significant increase for ACG as it has for the BIA and 
Indian Health Service (IHS) contract support costs ($5.5 million for 
on-going BIA contracts and $2 million for new contractors, and $107 
million more for IHS contract support). The GSCS is greatly 
disappointed the administration, instead, seeks to flat fund ACG , 
which will only continue the shortfalls at the school level. If the 
number of grant schools increases in the coming year and the ACG 
funding remains the same, the ACG need of each of these school will be 
even further reduced because the same ``pie'' will have to be cut into 
ever more smaller pieces to provide a ``slice'' for each grant school.
    The above instances of underfunding are further compounded by 
facilities operations grants funded at 52 percent (operations funds go 
to pay for such necessities as electricity, gas and other utilities but 
for which the administration seeks only a $2.4 million increase) and 
transportation funding (slated only for a small increase to cover fixed 
costs in fiscal year 2010) which ignores rural and remote settings in 
which buses must traverse unpaved roads subject to extreme weather and 
road conditions.
    The foregoing has lead to a systematic strangulation and extinction 
of the BIA-funded school system by underfunding. This reality is in 
stark contrast to the language of the United States Congress in which 
it stated in the Native American Education and Improvement Act of 2001 
as follows:
  --Congress declares that the Federal Government has the sole 
        responsibility for the operation and financial support of BIA-
        funded schools system that it has established on our near 
        Indian reservations and Indian trust lands throughout the 
        Nation for Indian children. Public Law 101-17(E) section 1120.
    This obligation arises from GSCS's and the Navajo nation's treaty 
rights. The Federal Government has expressly stated that the quality of 
the ``Bureau funded school system'' that they are to provide due to the 
trust responsibility it assumed pursuant to Treaty negotiations as 
follows: ``ensuring that the programs of the Bureau of Indian Affairs-
funded school system are of the highest quality.''
    Further in section 112(a) of the act Congress further states that 
the purpose of accrediting these schools is to ``ensure that Indian 
students being served by a school funded by the Bureau of Indian 
Affairs are provided with educational opportunities that equal or 
exceed those for all other students in the United States.''
    These have proven to be empty promises. Our demands are simple: 
provide us what you promised and continue to promise and provide us 
with what we bargained for in our good faith negotiations in agreeing 
to our Treaty. We are not asking for charity. We are not asking for a 
handout. We are not asking for new programs. We made a deal. We gave up 
much in reliance on your promises. You are not keeping your promises.
    GSCS offers an invaluable service to our students and community. We 
are carrying out the Federal Government's responsibility pursuant to 
the Indian Self-Determination and Tribally Controlled Schools Grant 
Acts. In the introductory language of those Acts the Federal Government 
admits it has failed in its trust responsibility to educate Native 
American children. It further states, unequivocally, that this 
responsibility remains ``solely'' that of the United States Government. 
However, the Federal Government is using these Acts as a front to 
slowly strangle these schools by chronically underfunding and failing 
to construct habitable facilities. As stated, we are not requesting new 
programs or charity or anything else but what we bargained for and the 
Federal Government agreed to provide.
    We are a local community school. Our children live in and around 
this community and attend our school in lieu of bus rides that may last 
hours. Further, this school is the center of our community. Parents and 
grandparents support this school and come to this school to support and 
ensure their children are prepared for the future the best way 
possible. To callously extinguish and close this school does violence 
to our community and our way of life. Our demands are simple and 
justified and are listed as follows:
  --GSCS must be rebuilt. No where but on an Indian reservation would 
        children be required to attend a school as old and in such 
        condition as ours. We have been diligent in caring for our 
        school; however, it must be replaced now. Children should not 
        have to sacrifice adequate facilities to attend GSCS. The 
        language quoted above clearly states that our Greasewood Spring 
        children should have the highest-quality educational facilities 
        and opportunity available.
  --The condition of our facilities is particularly galling given that 
        BIA/OFMC officially stated that our facility is in dire shape 
        and needs to be replaced; awarded GSCS a $10 million FI&R grant 
        to fix the worst problems and is now reneging on that grant 
        with no commitment to repairs on a new school in the future. 
        The land for construction is available and set aside, our 
        program of requirements is completed, we do not need a 
        gymnasium. This project could be expedited and completed in 18 
        months.
  --Our administrative costs needs must be 100 percent funded. It is 
        disingenuous to state that the Federal Government has the sole 
        responsibility for the operation and financial support of a 
        school system of the highest quality and then for that same 
        Government to fund the administrative cost at 64 percent of 
        need. Actions must back up these promises and words. Our school 
        is channeled toward failure because of this chronic, 
        debilitating underfunding. 100 percent funding of 
        administrative cost need must begin immediately if the Federal 
        Government's promises and agreements mean anything.
  --Full Funding for Operations and Maintenance.--Again it is absurd to 
        pledge an absolute commitment to providing a quality 
        educational program and then fund the operations portion of 
        that program at 52 percent. Operations costs have spiraled. The 
        gross underfunding that has occurred in the past few years is 
        unconscionable. We must heat our schools, have electricity and 
        provide other basics. The strain placed on GSCS and similarly 
        situated Grant Schools to find ways to provide the basic 
        necessities to its students and staff is indefensible. Again, 
        we are not requesting new additional benefits or anything that 
        resembles extravagancies. We are only requesting the essentials 
        as have been promised.
  --GSCS receives significantly less per student than other schools. 
        The result of this is less funds and therefore lower salaries 
        in the competition for the limited pool of highly qualified 
        teachers that will teach in a remote setting. Salaries for BIA-
        operated school employees are substantially higher than those 
        for grant school employees. Again the chronic underfunding will 
        lead to a foreseeable result, the demise of grant schools. Due 
        to our remote, rural setting our costs are higher and 
        recruitment more difficult. Due to these and other factors we 
        should receive higher student funding. However, we merely ask 
        that per student funding be at least commensurate with that 
        received in the State and our neighboring States.
  --Transportation must be adequately funded. Without our efforts our 
        community's children will be left behind. They will be left 
        without options. They will either be forced to leave their 
        homes or forego schooling. We service remote rural communities 
        without paved roads. Due to the conditions, the maintenance 
        required on our buses and school vehicles is much greater than 
        in urban settings. Due to our remote rural location we are at a 
        competitive disadvantage for fuel and supplies. Our 
        transportation needs are great and once again are substantially 
        underfunded.
    The above scenarios demonstrate a system of schools that are set up 
to fail. By chronic underfunding at all levels these schools will 
eventually fail and the Federal Government's trust responsibility will 
be extinguished with them. This institutionalized war of attrition will 
be successful. Promises will be unmet. These shameful outcomes must not 
be allowed to occur. We respectfully and sincerely request that the 
promises made be supported by action. We request that the bargain made 
in establishing our Treaty be honored. The full funding as noted above 
is what the Federal Government has stated they are solely obligated to 
provide. Providing what was promised must begin immediately.

                       ADMINISTRATIVE COST GRANTS

    Issue.--Grant and Contract schools' Administrative Cost Grants have 
been grossly underfunded for the past 10 years. Currently, 
administrative cost grants are funded at approximately 62.5 percent of 
need. Grant and contract schools need to be funded at the 100 percent 
level to experience success and to meet the needs of native students.
    Background.--The ACG authorized by Public Law 100-297 was provided 
to tribal grant and contract schools to cover their school 
administration costs. Public Law 100-297 directed the establishment of 
a funding formula for the distribution of the ACG funds. Per the 
established funding formula, the calculated need for ACG has been $60 
million plus on an annual basis. However, the ACG has been funded at 
the 100 percent level only once since it was enacted. Forty million 
dollars plus ($40,00,000 +) has been appropriated for the last 10 years 
(fiscal year 2007/$44,060 million; fiscal year 2008/$43,373 million 
fiscal year 2009--the President's request is $43,374 million). The 
number of grant schools has increased to 123 out of 185 BIE-funded 
schools and keeps increasing. The funding amount remains arbitrarily 
capped and grossly insufficient. The ACG has remained at the same 
funding level while the number of BIE schools becoming grant schools 
and taking from this static amount has greatly increased. The share of 
the ACG funds for grant school each year has substantially decreased. 
Under these circumstances, grant schools cannot operate effectively or 
provide the administrative functions and services necessary to meet AYP 
as required under the No Child Left Behind Act.
    Impact.--The Navajo Nation has 29 grant schools and 2 contract 
Navajo schools. Navajo schools lost -$19,847,550 in 4 years due to the 
chronic underfunding of the ACG. In the 2004-2005 school year the 
schools' actual funding was $11,940,500; a 76.05 percent level of 
funding compared to the formula generated amount of $15,701,853; a loss 
of -$3,761,353. In school year 2005/2006, the actual funding was 
$11,251,100, a 71.66 percent level compared to formula generated amount 
of $15,699,740; a loss of -$4,448,640. In the 2006-2007 school year the 
actual funding level was $11,937,000, a 64.99 percent funding level 
compared to the formula generated amount of $18,319,671; a loss of 
-$5,224,215 for the 2006-2007 school year. In the 2007-2008 school 
year, the actual funding level was $11,906,330 at a 64.99 percent 
funding level compared to the formula generated amount of $18,319,671 a 
loss of -$6,413,341 for the 2007-2008 school year. It is estimated that 
due to an increase in grant schools the ACG will be funded at 62.5 
percent of need this year.
    The decreasing amount of ACG funds is not the only problem the 
schools face. The amount distributed to each school has been impacted 
when more schools are allowed to join the grant school system. The 
amount of funds distributed to each school becomes smaller and smaller 
as more schools join the grant system. Consequently, schools are forced 
to dip into other accounts not intended to cover the administrative 
costs such as funds from facilities, academic and even title programs. 
The cost of mandated programs such as health insurance, worker's 
compensation insurance, pensions, personnel services, utility costs, 
human resource, accountants, and property management are not covered 
due to the budget constraints caused by underfunding the ACG.
    Recommendations.--Immediate action to: (1) Increase the ACG funds 
to $68 million to cover 100 percent ACG funding level for schools and 
continue 100 percent funding of the ACG under the formula and (2) Place 
a moratorium on BIE-operated schools converting to Public Law 100-297 
grant school system until such a time ACG funds are appropriated and 
available to cover the incoming schools.
                                 ______
                                 
         Prepared Statement of the Gathering Waters Conservancy

    Madam Chairman and honorable members of the subcommittee: I want to 
thank you, Madam Chairman, for the opportunity to present this 
testimony in support of the Chippewa Flowage project in Wisconsin. An 
appropriation of $6 million is needed from the Forest Legacy Program 
(FLP) to protect the 18,259-acre property.
    I also respectfully urge a substantial increase in overall funding 
for the FLP, specifically urging the subcommittee to provide $125 
million for the program in the fiscal year 2010 Interior, Environment, 
and Related Agencies appropriations bill. I applaud the FLP funding 
provided by this subcommittee in fiscal year 2009. In addition, we are 
most thankful that the Obama administration budget recognizes the 
importance of this and other Federal land conservation programs by 
proposing significant increases for fiscal year 2010.
    Gathering Waters Conservancy's mission is to help communities, land 
trusts, and landowners protect the places that make Wisconsin special. 
We do this in the following ways: supporting more than 50 private, 
nonprofit land trusts serving communities across Wisconsin; working 
with private landowners and their advisors to protect individual 
parcels of land; promoting land conservation policies and programs at 
all levels of government; and fostering innovative public-private 
partnerships around conservation goals. The Chippewa Flowage project 
will protect one of Wisconsin's most special places, and we strongly 
support the appropriation from the FLP.
    The variety of forest types within Wisconsin's northern forest is 
virtually unmatched elsewhere in the United States. The north woods 
boast towering stands of balsam and spruce, a variety of hardwoods such 
as red and sugar maples, hemlock and birch, and swamp forests 
containing black spruce, larch, and white cedar. The combination of 
forestland with an abundance of lakes, rivers, and streams offers some 
of the best recreational opportunities in the country, especially 
fishing and canoeing. Recognizing the unique attributes of its forests, 
the State of Wisconsin is focused on the protection of undeveloped 
lakefront properties and the acquisition of easements that benefit 
recreational and natural resources. The Wisconsin Department of Natural 
Resources has proposed FLP projects over the last several years to 
implement this critical protection effort.
    This year, there is an opportunity to add more than 18,000 acres of 
Forest Legacy conservation easement lands to create a unified block of 
more than 1 million acres of protected forest and natural lands in the 
Chippewa Flowage watershed. The Chippewa Flowage is one of the wildest 
lakes in Wisconsin, drawing recreationists from around the world for 
its muskie fishing. It is an ecological gem, more than 12,000 acres of 
which are managed jointly by the Wisconsin Department of Natural 
Resources, the U.S. Forest Service, and the Lac Courte Oreilles Band of 
Lake Superior Chippewa (LCO). The western boundary of this property 
adjoins nearly 24,000 acres of LCO tribal land, which is primarily 
natural land. This property extends the critical migratory corridor 
surrounding the Chequamegon portion of the Chequamegon-Nicolet National 
Forest, which covers 858,400 acres in 6 northwestern Wisconsin 
counties.
    Many natural resources used by the LCO tribe traditionally and 
currently are found on the property and adjoining tribal lands, 
including birch and pole oak for wigwam poles, morel mushrooms, and 
abundant wildlife for trapping and hunting. Pipestone rock, used to 
craft peace pipes, holds traditional significance for the LCO tribe and 
is present in the northwest corner of the property where it borders the 
Chippewa Flowage. The Village of Radisson's municipal water flows from 
parts of this property as well.
    Fishing, hunting, and wildlife viewing generate $8 million annually 
in Wisconsin, and the Chippewa Flowage is a major tourist destination. 
The public access allowed on this 18,259-acre property will continue to 
support the local economy. Forest-based recreation accounts for about 
$5.5 billion of the $14 billion spent on recreation in the State. The 
Wisconsin Northwoods is a common destination for migratory and forest 
interior birdwatchers. Wisconsin ranks third in the Nation for the 
number of residents and tourists engaged in bird watching and it adds 
$1 billion to the State's economy. This property delivers wood to 66 
different customers. Raw material has been provided for products such 
as coated paper, corrugated packaging, pallets, oriented stand board, 
cabinets, flooring, lumber, moldings, paneling, and many others. If 
this property is not protected by the FLP, it will be divided and sold 
like other nearby timberlands.
    The protection of these forest lands will have significant local 
and regional benefit. An appropriation of $6 million in fiscal year 
2010 from the FLP will conserve 18,259 acres of Wisconsin forest. 
Protecting these parcels by conserving unprotected lands in the 
checkerboard of public and private ownerships preserves vast wildlife 
habitat, ensures public access for recreation, and maintains the 
practice of sustainable forestry that supports the local economy.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony in support of this important FLP project in Wisconsin.
                                 ______
                                 
             Prepared Statement of the Highlands Coalition

    Dear Madam Chairwoman and honorable members of the subcommittee: On 
behalf of the Highlands Coalition, which includes more than 200 
organizations working together to conserve nationally important natural 
resources in the Highlands region of Pennsylvania, New Jersey, New 
York, and Connecticut we would like to thank you for the opportunity to 
provide testimony on the fiscal year 2010 Department of the Interior, 
Environment, and Related Agencies appropriations bill.
    Our top priorities for fiscal year 2010 include:
  --$11 million for the HCA, including $10 million for land 
        conservation partnership projects through the U.S. Fish and 
        Wildlife Service (FWS), and $1 million for USDA Forest Service 
        (FS) technical assistance and research programs in the 
        Highlands;
  --$125 million in land acquisition funding for the Forest Legacy 
        program (FLP);
  --$450 million for the Land and Water Conservation Fund Act Federal 
        and stateside land acquisition program.

                                  HCA

    In November 2004, Congress enacted the HCA, recognizing the 
national significance of the 3.5 million acre Highlands. This region 
has abundant resources providing clean drinking water, productive 
forests and working farms, wildlife habitat, and recreational 
opportunities for the 25 million people who live within an hour of this 
incredible landscape. The Highlands lie in the shadow of some of the 
largest cities in the nation including Philadelphia, New York City, and 
Hartford. The HCA authorizes $100 million over 10 years to assist the 
Highlands States in conserving priority lands from willing landowners, 
and $10 million over 10 years to continue vital USDA FS research and 
technical assistance to private landowners in the Highlands. Under the 
act, the four States acquire the lands with Federal assistance and are 
required to match those Federal funds for land conservation partnership 
projects on an equal basis to greater leverage these funds. Often the 
State match is double or triple the Federal share. Private foundations, 
counties and local governments have also matched the Federal funds. The 
HCA is a great partnership and brings multiple parties into the funding 
effort thereby highly leveraging the Federal investment.
    We are deeply grateful to the subcommittee for the inclusion of 
$1.5 million for the HCA in the fiscal year 2009 omnibus bill and 
equally pleased that act was included as its own line item. However, as 
the subcommittee may know the cost of land acquisition in the Highlands 
is extraordinary with land as costly as $15,000 an acre. Lands and 
waterways in this highly fragmented landscape are disappearing at an 
alarming rate and funds are needed urgently to protect these areas 
before they are developed. Therefore, we strongly urge the subcommittee 
to provide full funding for the HCA at a total of $11 million with $10 
million in land acquisition funding for the FWS, and $1 million for the 
USDA FS's technical assistance program in the Highlands.
    The Governors of the four Highlands States have jointly submitted 
land conservation projects totaling $10 million to the Department of 
the Interior for funding in fiscal year 2010, including: Texter 
Mountain (Pennsylvania), Northern Highlands (New Jersey), Greater 
Sterling Forest (New York) and Ethel Walker property, Scoville 
Property, and Naugatuck/Mad River Headwaters (Connecticut).

                            FLP AND PROJECTS

    In order to ensure that there is adequate program funding for these 
critical projects in the Highlands, we urge your support for funding 
the FLP at $125 million in fiscal year 2010. We support this funding as 
it will serve to provide support for important Forest Legacy projects 
in the Highlands region including three exemplary projects: Tulmeadow 
Farm (Connecticut), Wolf Hill (Connecticut), and Musconetcong and 
Rockaway Rivers Watersheds (New Jersey).
    FLP has protected more than 1.7 million acres of forestland since 
1990. For fiscal year 2010, the USFS received 84 project proposals from 
44 States and territories to protect 288,530 acres with a total project 
value of more than $363 million. FLP conserves working forests 
threatened by conversion to development or other uses, and promotes 
economic viability as well as recreational open space and wildlife 
protection. Public lands provide innumerable social and economic 
benefits including a healthy lifestyle, protection of watersheds and 
drinking water supplies, wildfire reduction and prevention, and 
assistance to wildlife and fisheries as they adapt to climate change.

                LAND AND WATER CONSERVATION FUND (LWCF)

    We respectfully request a substantial increase in overall funding 
for the LWCF specifically $325 million for the Federal LWCF and $125 
million for the LWCF stateside program, in the fiscal year 2010 
Interior, Environment, and Related Agencies appropriations bill. We 
applaud the LWCF funding increases provided by this subcommittee in 
fiscal year 2009. And, we are most thankful that the Obama 
administration budget recognizes the importance of this program by 
proposing significant increases for fiscal year 2010 and setting a goal 
to achieve full funding of the LWCF in the next 5 years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units, and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. The LWCF will provide important funds to 
obtain inholdings and lands adjacent to Federal lands in the Highlands 
such as the Wallkill and Great Swamp National Wildlife Refuges in New 
Jersey.
    The LWCF stateside program provides close-to-home recreation 
through thousands of State and local parks across the country. These 
parks provide millions of urban and suburban residents the benefits of 
access to natural areas while promoting much needed tourism in local 
communities.
    Without adequate funding to the HCA, FLP and LWCF, precious natural 
treasures of the Highlands may be developed and lost to conservation 
forever.
    Thank you for the opportunity to submit this testimony on the 
fiscal year 2010 Interior, Environment, and Related Agencies 
appropriations bill.
                                 ______
                                 
 Prepared Statement of The Humane Society of the United States; Humane 
         Society Legislative Fund; and Doris Day Animal League

    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations with a combined membership of more than 11 million 
supporters nationwide. We urge the subcommittee to address these 
priority issues in the fiscal year 2010 Department of the Interior 
appropriations bill.
Bureau of Land Management (BLM)--Wild Horse and Burro Program
    The BLM is charged with the management of approximately 33,000 wild 
horses in 10 Western States, but the current program is grossly 
underfunded. While we support a reduction in the number of annual 
roundups, depending on rounding up horses without implementing any 
active program for preventative herd growth is an unsupportable wild 
horse management approach because it leads to a continual cycle of 
roundups and removals rather than the use of long-term, cost-efficient, 
and humane management strategies. The BLM should focus on five 
mechanisms for managing wild horses and burros: (1) preserving free-
roaming wild horse and burro populations through the use of humane 
birth control; (2) recolonizing any of the more than 19 million acres 
of zeroed-out habitat with wild horses and burros from the short and 
long-term holding facilities; (3) identifying new, appropriate 
rangelands and establishing sanctuaries for wild horses and burros; (4) 
continuing long-term, humane pasturing for equines that must be removed 
from the range utilizing birth control on these captive animals; and 
(5) implementing creative and more aggressive marketing strategies to 
increase adoption rates for captured equines.
    The BLM's current focus on roundup and adoption tools has resulted 
in an increasing number of wild horses being permanently warehoused in 
BLM-sponsored holding centers, at a cost of $27 million annually 
(representing almost 75 percent of the BLM's $36.2 million wild horse 
management budget). Peer-reviewed studies have shown that costs to 
manage the herd could decrease significantly by treating more mares 
with the immunocontraceptive porcine zona pellucida (PZP) and returning 
them to the range, rather than detaining them indefinitely in holding 
centers, and through the wide-scale marketing of the BLM's Adopt-a-
Horse program. According to a paper published in the Journal of 
Wildlife Management in 2007, contraception on-the-range could reduce 
total wild horse and burro management costs by 14 percent, saving $6.1 
million per year (Bartholow, J. 2007. Economic benefit of fertility 
control in wild horse populations. J. Wildl. Mgmt. 71(8):2811-2819.). 
This study demonstrates conclusively that the use of 
immunocontraception could easily result in a reduction in the 
continuing long-term expenses associated with the BLM's current wild 
horse management program.
    In October 2006, The Humane Society of the United States (HSUS) and 
the BLM signed a memorandum of understanding (MOU) to facilitate the 
use of contraceptive vaccines as a key component for managing wild 
horses on public lands. And this year, the Annenburg Foundation pledged 
$1.6 million to a project launched by The HSUS and the BLM to promote 
the use and application of contraceptives to manage wild horses 
throughout the West. The BLM and The HSUS have an opportunity to 
revolutionize the course of wild horse population control from a 
standard that is often inefficient, costly, and cruel to one which is 
technologically advanced, cost effective, and humane. We urge the 
subcommittee to take advantage of the demonstrated cost savings 
associated with the use of immunocontraceptives by directing BLM and 
the Environmental Protection Agency (EPA) to take action to facilitate 
the implementation of The HSUS/BLM Research Project, and by increasing 
BLM's budget for PZP research and development programs by $1.5 million.
    The subcommittee's support would encourage greater cooperation 
between the BLM, the EPA, and The HSUS in the implementation of a 
program that we believe will be of great benefit not only to our 
Nation's beloved wild horse populations, but also to the American 
taxpayer.

                Restoring Longstanding Protections for Wild Horses and 
                    Burros
    Wild horses and burros have been protected from commercial sale and 
slaughter since the passage of the 1971 Wild Free-Roaming Horses and 
Burros Act. However, in 2004, an extremely controversial rider--
commonly referred to as the ``Burns Amendment''--was inserted into the 
fiscal year 2005 Omnibus Appropriations bill by Senator Conrad Burns 
(R-MT). This amendment directed the BLM to sell ``without limitation'' 
animals who were either more than 10 years old or had been passed over 
for adoption at least 3 times.\1\ As a result, approximately 8,400 wild 
horses and burros became eligible for sale in 2005, and since then, BLM 
has sold more than 2,700 horses and burros under this authority.
---------------------------------------------------------------------------
    \1\ 16 U.S.C. Sec. 1333(e)(2).
---------------------------------------------------------------------------
    As amended, the 1971 act requires the BLM to destroy excess animals 
and/or sell them without limitation. Due to concerns about public and 
congressional reaction to the massive slaughter of healthy horses, BLM 
has chosen not to destroy excess animals or sell them without 
limitation. But in an effort to comply with the law and reduce costs 
associated with caring for an increasing number of wild horses in 
short- and long-term holding facilities, the BLM announced that for 
fiscal year 2009, they would consider euthanizing about 2,300 horses in 
short-term holding (about one-third of the animals currently in short-
term holding) and selling, without limitation, about 8,000 animals from 
both short- and long-term holding.
    We firmly believe that no horse should pay the ultimate price for 
the agency's mismanagement and that killing horses, or allowing them to 
be sold to slaughter, is not the answer. The BLM made a social contract 
with Americans when it placed horses in long-term care: The horses 
would be cared for life, and the commitment should be honored.
    Therefore, we ask the subcommittee to consider including the 
following funding limitation in the fiscal year 2010 Interior, 
Environment, and Related Agencies appropriations bill:

    Provided, That appropriations herein made shall not be available 
for the sale of wild horses and burros pursuant to 16 U.S.C. 1333(e) or 
for the destruction of healthy, unadopted, wild horses and burros in 
the care of the Bureau of Land Management or its contractors.''

Law Enforcement Division of the Fish and Wildlife Service
    After illegal drugs and arms, trade in wildlife parts is the third 
most lucrative smuggling enterprise in this country. The United States 
remains one of the world's largest markets for legal and illegal trade 
in wildlife and wildlife products. New technology and a full complement 
of special agents are essential if law enforcement is to have any hope 
of effectively enforcing the Nation's endangered species trade laws. We 
are concerned that there are 70 wildlife law enforcement agent 
vacancies and encourage the subcommittee to fully fund the law 
enforcement division.

EPA--Office of Research and Development
    In 2000, the Interagency Coordinating Committee on the Validation 
of Alternative Methods, ICCVAM Authorization Act (Public Law 106-545), 
created a new paradigm for regulatory toxicology, by promoting chemical 
testing methods that are often faster and more economical than existing 
methods. The new paradigm requires Federal agencies to ensure that new 
and revised animal and alternative test methods be scientifically 
validated prior to recommending or requiring use by industry. All 15 
Federal regulatory and research agencies that compose the ICCVAM agree 
on a common definition of validation as ``the process by which the 
reliability and relevance of a procedure are established for a specific 
use.''
    Several years ago, thanks to the leadership of Representatives 
James Walsh and David Price, Congress provided specific funding for 
research, development, and validation of nonanimal and other 
alternative test methods that replace, reduce, or refine the use of 
animals in toxicity testing. To augment that funding, EPA must increase 
its fiscal commitment to the Computational Toxicology Program to add to 
its value to regulatory toxicology. We urge the subcommittee to 
consider the following report language:

    ``The Committee recognizes the EPA's commitment to developing a 
Computational Toxicology Program to reduce the use of animal testing 
and the cost of such testing. It is the subcommittee's expectation 
that, commensurate with Committee support for fully funding the 
Computational Toxicology Program for the last several years, EPA 
demonstrate real progress not only in development of computational 
toxicology methods, but importantly, in validation of new and revised 
test methods, nonanimal methods, and alternative methods with the 
purpose of being utilized in regulatory program activities. The 
Committee encourages EPA to develop, integrate, and implement specific 
plans for validation studies of new and revised, non-animal and 
alternative methods for chemical screening and priority setting within 
the Agency's Computational Toxicology Program. The Committee requests 
that EPA submit an annual report, due by March 31 of the following 
fiscal year, detailing results of its Computational Toxicology program, 
to include a section on EPA's overall activities and itemized 
expenditures in a manner where both specific activities and specific 
expenditures devoted to validation of new, revised test methods, non-
animal methods, and alternative methods are broken out from 
expenditures on research and development.''

    Additionally, finalization of the MOU between the EPA and the FDA, 
under which the EPA will assume the primary authority to review and 
register therapeutic and other products geared toward humane methods of 
population control, should be expedited in order to allow PZP to be 
utilized in a management capacity, rather than an investigational one.
Multinational Species Conservation Fund
    The HSUS joins a broad coalition of organizations in requesting an 
increase over the administration's request for the Multinational 
Species Conservation Fund (MNSCF) and Wildlife Without Borders. The 
MNSCF was established by Congress to benefit African and Asian 
elephants, rhinos, tigers, great apes, neotropical migratory birds, and 
marine turtles. Congress has been very supportive of these programs in 
the past. Unfortunately in past years, the funding has been 
considerably less than the amounts necessary to carry out these 
valuable missions. We ask that you continue to support these highly 
threatened mammals and birds in fiscal year 2010 by appropriating $2.75 
million each for the Asian Elephant, African Elephant, Marine Turtle, 
and Great Ape Conservation Funds, $4 million for the combined 
Rhinoceros and Tiger Conservation Fund, and $6.5 million for the 
Neotropical Migratory Bird Conservation Fund. We also request $4 
million for the Wildlife Without Borders regional program.
    While we wholeheartedly support increased funding for the MNSCF, we 
are concerned about past incidents and future opportunities for funds 
from these conservation programs to be allocated to promote trophy 
hunting, trade in animal parts, and other consumptive uses--including 
live capture for trade, captive breeding, and entertainment for public 
display industry--under the guise of conservation for these animals. 
Grants made to projects under the MNSCF must be consistent with the 
spirit of the law.

Protection for Walruses
    We urge this subcommittee to appropriate $500,000 in fiscal year 
2010 to fund the continuation of much-needed research on the Pacific 
walrus. New promising methodologies for surveying walrus populations 
have been developed and require sustained funding support. A 
comprehensive walrus survey was begun in 2005--the effort must receive 
continued support to maximize the utility of its results. Walruses are 
targeted by Native hunters for subsistence, despite a paucity of data 
regarding their current population status or population structure. 
Hundreds of walruses are killed annually; in some years this number has 
climbed to as many as 7,000. Moreover, in some hunting villages, 
females and their calves are preferentially killed, against the 
recommendation of the Fish and Wildlife Service and standard management 
practice. A portion of the research funds could also be used to improve 
the Walrus Harvest Monitor Project, which collects basic management 
data.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission

    My name is Gregory E. Conrad and I am Executive Director of the 
Interstate Mining Compact Commission. I appreciate the opportunity to 
present this statement to the subcommittee regarding the views of the 
Compact's member States on the fiscal year 2010 budget request for the 
Office of Surface Mining (OSM) within the U.S. Department of the 
Interior. In its proposed budget, OSM is requesting $71.3 million to 
fund title V grants to States and Indian tribes for the implementation 
of their regulatory programs and $32.1 million to fund discretionary 
spending for the title IV abandoned mine land (AML) program, which 
includes some State grants. Our statement will address both of these 
budgeted items.
    The Compact is comprised of 24 States that together produce some 95 
percent of the Nation's coal as well as important noncoal minerals. The 
Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving, and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive, and economically viable mining 
industry.
    OSM has projected an amount of $71.3 million for title V grants to 
States and tribes in fiscal year 2010, an amount which is matched by 
the States each year. As you know, these grants support the 
implementation of State and tribal regulatory programs under the 
Surface Mining Control and Reclamation Act (SMCRA) and as such are 
essential to the full and effective operation of those programs.
    In fiscal year 2009, Congress approved an additional $1 million 
increase for State title V grants over the fiscal year 2008 enacted 
level, for a total of $65.5 million. The States are greatly encouraged 
by the significant increase in title V funding approved by Congress in 
both fiscal year 2008 and 2009. Even with mandated rescissions and the 
allocations for tribal primacy programs, the States saw a $7 million 
increase for our regulatory programs over fiscal year 2007 levels. As 
we noted in our statement on last year's budget, State title V grants 
had been stagnant for more than 12 years and the gap between the 
States' requests and what they received was widening. This debilitating 
trend was compounding the problems caused by inflation and 
uncontrollable costs, thus undermining our efforts to realize needed 
program improvements and enhancements and jeopardizing our efforts to 
control the impact of coal extraction operations on people and the 
environment.
    In its fiscal year 2010 budget, OSM has followed the example 
established by Congress over the past 2 years and proposed an increase 
of approximately $6 million for State and tribal title V regulatory 
grants, which will, for the first time, fully fund actual State 
requests. This is a welcome shift in direction that recognizes the 
important role played by the States in implementing the environmental 
protection provisions of SMCRA. We strongly endorse this meaningful 
increase in funding and urge Congress to support it. The States are 
still in the process of putting the recent improvements in funding to 
work in their programs through the filling of vacant positions and the 
purchase of much-needed equipment and supplies (including computers and 
vehicles). As States prepare their budgets for the next few years, 
there is an expectation and hope that the recent increases approved by 
Congress will become the new base on which we will build into the 
future. Otherwise we find ourselves reversing course and creating a 
situation where layoffs would occur for those who were just hired.
    The States continue to face significant cost increases in their 
programs due to inflation, especially increased fuel and equipment 
costs. Health insurance premiums and cost of living adjustments are 
also significant factors in the annual operation of State programs, 
especially with personnel expenses representing some 80 percent of 
total program costs. A new challenge has come in the form of 
retirements, where States are faced with buy-outs, paying for unused 
annual leave, and replacing an aging work force. These are substantial, 
often unanticipated, costs that are wreaking havoc on State budgets.
    It is essential that we maintain consistent, inflation-adjusted 
funding from year to year in order to deploy resources for our 
programs. This is especially true with regard to hiring new staff to 
fill vacancies or to supplement understaffed areas of the programs. We 
cannot afford to invest money in these positions and then face 
potential layoffs the next year because funding is not maintained. As 
it is, State agencies are continually faced with making the case to 
State legislatures and budget officers to support their regulatory 
programs through matching State funds, particularly in the difficult 
fiscal climate being faced by the States. A clear message from Congress 
that reliable, consistent funding will continue into the future will do 
much to ensure that States can continue to implement these vital 
programs.
    It must be kept in mind that State coal regulatory program 
permitting and inspection workloads are in large part related to coal 
mine production. In general, as coal production increases, the need for 
additional permitting and operational inspections also increases. State 
programs must be adequately funded and staffed to insure that 
permitting and inspection duties are both thorough and timely as States 
experience the reality of accelerating coal mine production and 
expansion activities. If program funding shortfalls continue, the 
Nation risks the possibility of delayed production of a critical energy 
source and negative impacts to the environment. Stressing existing 
program resources also results in the delay or elimination of lower-
priority program functions.
    There continues to be no disagreement about the need demonstrated 
by the States. In fact, in OSM's budget justification document, the 
agency states that:

    ``. . . the states have the unique capabilities and knowledge to 
regulate the lands within their borders. Providing a 50 percent match 
of Federal funds to primacy States in the form of grants results is the 
highest benefit and the lowest cost to the Federal Government. If a 
state were to relinquish primacy, OSM would have to hire sufficient 
numbers and types of Federal employees to implement the program. The 
cost to the Federal Government would be significantly higher.'' (page 
62 of OSM's Budget Justification)

    For all the above reasons, we urge Congress to approve OSM's 
proposed budget for State title V regulatory grants in the amount of 
$71.3 million, as fully documented in the States' estimates for actual 
program operating costs.
    With regard to funding for State title IV AML program grants, 
congressional action in 2006 to reauthorize title IV of SMCRA has 
significantly changed the method by which State reclamation grants are 
funded. Beginning with fiscal year 2008, State title IV grants are 
funded primarily by permanent appropriations. As a result, the States 
should have received a total of $373 million in fiscal year 2010. 
Instead, OSM has budgeted an amount of $232.4 million based on an ill-
conceived proposal to eliminate mandatory AML funding to States and 
tribes that have been certified as completing their abandoned coal 
reclamation programs. This $141 million reduction flies in the face of 
the comprehensive restructuring of the AML program that was passed by 
Congress in 2006, following over 10 years of congressional debate and 
hard fought compromise among the affected parties. While we have not 
seen the details of the proposal, which will require adjustments to 
SMCRA, it will clearly undermine the delicate balance of interests and 
objectives achieved by the 2006 amendments. It is also inconsistent 
with many of the goals and objectives set forth in the budget 
resolution for fiscal year 2010 and the American Recovery and 
Reinvestment Act. These include environmental stewardship, cleaning up 
abandoned coal and hardrock mines nationwide, creating green jobs, 
sustainable development, infrastructure improvements, alternative 
energy projects, pumping dollars into local communities by putting 
money to work on the ground in an expeditious manner, and protecting 
public health and safety and improving the environment. We urge the 
Congress to reject this unjustified proposal, delete if from the budget 
and restore the full mandatory funding amount of $373 million.
    Included in the mandatory funding mentioned above is supplemental 
funding for ``minimum program'' States. Under the funding formula 
contained in the 2006 amendments to SMCRA, all of the States will 
receive sizeable funding increases except for minimum program States. 
We urge Congress to fund these States at the statutorily authorized 
level of $3 million in fiscal year 2010 so as allow these States to get 
on with the critical AML projects awaiting funding. The current phase-
in approach limits funding to $2.25 million which greatly inhibits the 
ability of these States to accomplish much in the way of substantive 
AML work--especially given their inventory of remaining high-priority 
problems.
    We also urge Congress to approve continued funding for the AML 
emergency program. In a slight-of-hand move, OSM's budget would 
completely eliminate funding for State-run emergency programs and also 
for Federal emergency projects (in those States that do not administer 
their own emergency programs). OSM accomplishes this by interpreting a 
congressional rescission of $8.5 million in the carryover balance for 
emergencies in fiscal year 2009 as a reduction in the base for 
emergency funding, which was not Congress' stated intent. When combined 
with an additional $12 million reduction in funding, OSM completely 
eliminates funding for the AML emergency program. (See page 31 of OSM's 
budget justification document.) When further combined with the great 
uncertainty about the availability of remaining carryover funds, it 
appears that the program has been decimated.
    Funding the OSM emergency program should be a top priority for 
OSM's discretionary spending. This funding has allowed the States and 
OSM to address the unanticipated AML emergencies that inevitably occur 
each year. In States that have federally operated emergency programs, 
the State AML programs are not structured or staffed to move quickly to 
address these dangers and safeguard the coalfield citizens whose lives 
and property are threatened by these unforeseen and often debilitating 
events. And for minimum program States, emergency funding is critical 
to preserve the limited resources available to them under the current 
funding formula.
    Section 410 of SMCRA establishes an emergency reclamation procedure 
for AML sites that pose a ``sudden danger with a high probability of 
substantial physical harm to the health, safety or general welfare of 
people before it can be abated under normal program operation 
procedures''. (OSM Directive AML-4). The funding for the emergency 
program is separate from the State and tribal nonemergency AML grant 
funding since it comes from the Secretary's ``discretionary share''. 
Funding for emergencies is provided for in section 402(g)(3) of SMCRA 
and is used for the purposes described therein and with monies 
remaining after the distributions required under sections 402(g)(1), 
(g)(2), and (g)(5). Section 402(g)(1)(C) specifically requires that the 
nonemergency State share be used only for annual reclamation project 
construction and administration costs. The nonemergency Federal share 
allocated to the States in section 402(g)(5) is used to supplement the 
State share received under 402(g)(1) until the priorities set forth in 
section 403(a)(1) and (2) are met. Emergencies do not fall under 
section 403, but are provided for only in section 410.
    While there were several significant changes to the AML program 
under SMCRA as a result of the 2006 amendments, there were absolutely 
no changes to the emergency program under section 410 of the act. In 
fact, significant funding increases were approved by Congress that 
would allow the States to address long-overdue reclamation problems 
including landslides, contaminated drinking water, refuse piles, 
dangerous highwalls, mine fires, and exposed mine portals. Diverting 
these monies to the emergency program, as suggested by OSM's budget, 
would impede the progress the States are now making to address AML 
problems that have been awaiting funding for years. In this regard, new 
section 402(g)(1)(D)(2) requires that the Secretary ensure ``strict 
compliance'' by the States in their use of nonemergency grant funds for 
the priorities listed in section 403(a). For the States to do otherwise 
would require at the least a rulemaking by OSM, if not legislative 
adjustment. It would also reverse 30 years of official guidance and 
practice by OSM. We therefore request that Congress restore $12.4 
million for the AML emergency program in OSM's fiscal year 2010 budget 
and direct the agency to restore an additional $8.5 million that was 
misallocated last year.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as EPA's 319 program. Until fiscal year 2009, language 
was always included in OSM's appropriation that encouraged the use of 
these types of matching funds, particularly for the purpose of 
environmental restoration related to treatment or abatement of acid 
mind drainage (AMD) from abandoned mines. This is a perennial, and 
often expensive, problem, especially in Appalachia. IMCC therefore 
requests the subcommittee to include language in the fiscal year 2010 
appropriations bill that would allow the use of AML funds for any 
required non-Federal share of the cost of projects by the Federal 
Government for AMD treatment or abatement.
    We also urge the subcommittee to support funding for OSM's training 
program, including monies for State travel. These programs are central 
to the effective implementation of State regulatory programs as they 
provide necessary training and continuing education for State agency 
personnel. IMCC also urges the subcommittee to support funding for 
TIPS, a program that directly benefits the States by providing needed 
upgrades to computer software and hardware. We also urge support of the 
Watershed Cooperative Agreement program in the amount of $1.5 million.
                                 ______
                                 
        Prepared Statement of the InterTribal Bison Cooperative

                      INTRODUCTION AND BACKGROUND

    My name is Ervin Carlson; I am a member of the Blackfeet Nation in 
Montana and the president of the InterTribal Bison Cooperative (ITBC). 
Please accept my sincere appreciation for this opportunity to submit 
written testimony to the honorable members of the subcommittee, ITBC is 
a Native American nonprofit organization, headquartered in Rapid City, 
South Dakota, comprised of 55 federally recognized Indian tribes in 18 
States. On behalf of the member tribes of ITBC I would like to address 
the following issues: (1) request an appropriation of $3,000,000 for 
fiscal year 2010, from the Department of the Interior, Bureau of Indian 
Affairs, Operation of Indian Programs, to continue our restoration 
effort, to continue to provide highly qualified technical assistance, 
providing implement our marketing initiative and to continue our health 
initiative which utilizes buffalo to teat and prevent diet-related 
diseases among Native Americans; (2) explain to the subcommittee the 
unmet needs of the members of ITBC; and (3) update the subcommittee on 
the present initiatives of ITBC.
    Federal appropriations have allowed ITBC to successfully restore 
buffalo to more than 50 reservations, thereby preserving the sacred 
relationship between Indian people and the buffalo. The respect that 
Indian tribes have maintained for the buffalo has fostered a very 
serious, high level of commitment by ITBC member tribes for successful 
buffalo herd development. With healthy, viable buffalo herds, 
opportunities now exist for tribes to utilize buffalo for prevention 
and treatment of the diet-related diseases that gravely impact Native 
American populations such as diabetes, obesity, cardiovascular disease 
and others. Viable buffalo herds also offer tribes the opportunity to 
develop sustainable economic development projects surrounding the 
buffalo. The primary focus of ITBC is to help develop tribal herds that 
are able to provide a wholesome healthy meat product to the tribal 
members while remaining economically viable in the reservation 
landscape. This will allow the tribes to utilize a culturally relevant 
resource in a manner that is compatible with their spiritual and 
cultural beliefs and patterns as a means to achieve self-sufficiency.

                            FUNDING REQUEST

    ITBC respectfully requests an appropriation for fiscal year 2010 in 
the amount of $3,000,000. This amount would restore ITBC nearly to the 
fiscal year 2006 appropriation level and is greatly needed to 
successfully accomplish our goals and objectives. This request will 
help balance our continuing growth in membership with our funding 
level. The $3,000,000 funding level would restore vital funding that 
has been cut from the administrations fiscal year 2007, fiscal year 
2008 and fiscal year 2009 budgets. Our requested funding level of 
$3,000,000 will allow our member tribes to continue their successful 
restoration efforts, to restore our marketing initiative and to restore 
the health initiative for the prevention and treatment of diet-related 
diseases among Native American populations, while simultaneously 
building economic sustainability for the tribal projects.

                    FUNDING SHORTFALL AND UNMET NEED

    In fiscal year 2006, ITBC and it member tribes were funded through 
appropriations at $4,150,000. The President's budget in fiscal year 
2007 and fiscal year 2008 eliminated funding for ITBC. ITBC was funded 
$1,000,000 in fiscal year 2007 and fiscal year 2008 through a 
congressional appropriation. In fiscal year 2009 ITBC was funded 
$1,000,000 through a congressional appropriation and $421,000 from BIA 
carryover funds from fiscal year 2008. The cuts came just as ITBC had 
started a successful Marketing Program and Health Initiative that 
addressed diet-related health problems that are epidemic on most of our 
reservations in a manner that would provide economic stability to the 
tribal programs.
    Without the restoration of funding close to the fiscal year 2006 
level new member tribes will not receive adequate funding to begin 
buffalo restoration efforts. Tribes that have successfully restored 
buffalo to tribal lands will not receive adequate technical assistance 
and resource development funds to ensure the sustainability of existing 
herds. Furthermore, the investment made by Congress in fiscal year 2006 
toward ITBC's healthcare initiative has been cut to the point of almost 
being nonexistent. This was designed to utilize buffalo for prevention 
and treatment of diet-related diseases among Native American 
populations.
    ITBC is structured as member cooperative and 100 percent of the 
appropriated funds are expended on the development and support of 
tribal buffalo herds and buffalo product business ventures. ITBC 
funding is distributed to ITBC member tribes via a Herd Development 
Grant program developed by the consensus of the members. ITBC surveys 
member tribes annually to determine unmet project needs and currently 
the total unmet needs for ITBC member tribe's projects is $10,000,000.

                       ITBC GOALS AND INITIATIVES

Economic Development
    In 1991, seven Indian tribes had small buffalo herds numbering less 
than 1,600 animals. The buffalo provided little or no economic benefit 
to the tribal owners. ITBC has proven extremely successful at buffalo 
restoration in its 15 years of existence. Today, with the support and 
technical assistance of ITBC and its fellow member tribes, 57 Indian 
tribes are engaged in raising buffalo or developing plans to raise 
buffalo and incorporate them into their daily lives. ITBC and the 
member tribes have restored approximately 15,000 buffalo back to tribal 
lands for use by the tribes and their members.
    Many of these tribal buffalo programs have developed herds large 
enough to justify plans for marketing products as a step toward self-
sufficiency. Because of the depressed economies on the reservations 
jobs are scarce and in this arena buffalo restoration efforts on the 
reservations have created hundreds of direct and indirect jobs relating 
to buffalo management and production. As a result, a significant amount 
of revenue derived from buffalo products is beginning to circulate 
through Indian Reservation economies.
    However, tribes must have the resources to build solid foundations 
for this new industry to become fully self-sufficient and maintain 
sustainable buffalo herds. ITBC provides critical technical assistance 
to member tribes that have developed sustainable management and 
infrastructure development plans. Additionally, ITBC provides training 
curriculum for the newly created jobs and marketing plans as tribal 
herds reach marketing capabilities. ITBC has begun implementation of a 
marketing initiative to provide member tribes with viable marketing 
options for utilization of buffalo as economic development efforts. 
This marketing initiative is in an infancy stage and renewed funding is 
critical to achieve success.

Tribal Buffalo Marketing Initiative
    ITBC member tribes face a multitude of obstacles when trying to get 
their buffalo to market. The remoteness of the reservations means 
having to transport buffalo long distances to processing plants and 
this results in higher operating costs. The quality of meat is also 
negatively impacted by introducing an increased amount of stress on the 
buffalo. Further compounding the problem is the reluctance of some 
processing plants to process range-fed buffalo and the requirements of 
some buyers that animals be corn-finished in a feedlot situation. Some 
buyers also require USDA certification which means USDA inspected 
processing plants must be used which increases transport time. ITBC 
believes this lack of a constant supply chain that is cost effective is 
what is limiting the economic development of tribal buffalo herds.
    ITBC has assisted the Gros Ventre and Assiniboine Tribes of the 
Fort Belknap Indian Community in northern Montana with the development 
of a meat-packing facility acquired by the tribe in Malta, Montana. 
They have also begun to operate a smoke house in addition to the 
packing plant. ITBC has assisted the Cheyenne River Sioux Tribe in 
South Dakota with operation of their meat packing facility. ITBC has 
provided assistance to the Ponca Tribe of Nebraska for a tannery that 
the tribe has started to produce brain tanned hides. ITBC has set up an 
arrangement in which the Yakama Nation of Washington supplies buffalo 
meat to a tribal enterprise of the Confederated Tribes of Umatilla in 
Oregon. ITBC believes the creation of locally driven, regional 
marketing plans will help to overcome the remoteness of the 
reservations. Tribally owned processing plants would decrease the 
transportation time and increased cold storage capacity would also be 
very beneficial to ensuring a consistent supply of product for 
marketing ventures. ITBC will provide technical assistance in the areas 
of meat processing, cold storage facility development, processing plant 
enhancement, development of distribution and supply systems for buffalo 
meat and by-products, and development of a cooperative brand name with 
standards and labeling guarantees for Native American produced buffalo.

Preventive Healthcare Initiative
    ITBC is committed to providing buffalo meat to Indian Reservation 
families both as an economic development effort for Native American 
producers and, more critically, as a healthy food to reintroduce into 
the diets of Native American populations. Current research indicates 
that the diet of most Indian Reservation families includes large 
amounts of high cholesterol, processed meats that contribute to 
diabetes, obesity, cardiovascular disease, and other diet-related 
illnesses.
    ITBC member tribes were just beginning to implement a preventive 
healthcare initiative with fiscal year 2006 funding that provided easy 
access to buffalo meat on Indian Reservations and educated Indian 
families on the health benefits of range fed buffalo meat. The decrease 
in funding has led to the elimination of the majority of the program 
with only the educational program still inexistence. A restoration of 
the funds will allow the program to operate at the fiscal year 2006 
level.
    Generally, buffalo meat is not sold in small quantities at the 
reservation grocery and convenience stores which leaves Indian families 
with few alternatives to the high-fat, high-cholesterol, processed 
meats stocked in reservation stores. Buffalo meat if available is 
usually priced out of the affordable price range of the tribal 
families. ITBC seeks to remedy this concern by providing buffalo meat 
in family sized quantities to reservation markets and interact with the 
Federal food programs. ITBC will work with Federal food programs to 
make buffalo meat available through the local school systems and local 
community health networks working on addressing diabetes and other 
health issues.

                               CONCLUSION

    ITBC and its member tribes have created a new reservation industry, 
tribal buffalo production, resulting in new money for reservation 
economies. In addition, ITBC continues to support methods to market 
buffalo meat by providing easy access to meat on the reservations and 
education efforts about the health benefits buffalo meat can bring to 
the native diet. The ultimate goal is to restore the tribal herds to a 
size large enough to support the local health needs of the tribal 
members and also generate revenue through a cooperative marketing 
effort to achieve economic self-sufficiency.
    ITBC and it member tribes are appreciative of past and current 
support from the Congress and the administration. I urge the 
subcommittee to consider restoring ITBC funding close to the fiscal 
year 2006 level of $3,000,000, which will allow ITBC to continue the 
restoration efforts and restore the marketing and health initiative 
program started in fiscal year 2006.
    I would like to thank this subcommittee for the opportunity to 
present testimony and the members of ITBC invite the honorable members 
of the subcommittee to visit our tribal buffalo projects and experience 
first hand their successes.
                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council

                                SUMMARY

    Madam Chairman, I am Nolan C. Colegrove, Sr., president of the 
Intertribal Timber Council (ITC). I am a member of the Hoopa Tribe and 
serve as its forest manager. I am pleased to submit this testimony for 
the subcommittee's formal fiscal year 2010 hearing record with the 
following recommendations for fiscal year 2010 Indian forestry-related 
activities in the Bureau of Indian Affairs (BIA), the Office of the 
Special Trustee (OST), and wildland fire management:
  --In BIA natural resources management, increase BIA tribal priority 
        allocations (TPA) forestry by at least $2.6 million to adjust 
        for the 14.1 percent consumer price increase since fiscal year 
        2003 and up to an additional 25 percent to maintain the pace of 
        appropriations provided for the Forest Service (USFS) and 
        Bureau of Land Management (BLM). The glaring gap in per-acre 
        appropriations for Indian forests compared to those provided 
        for USFS and BLM lands continues to widen. From fiscal year 
        2004 to fiscal year 2009, BIA TPA forestry funding increased 
        only 3.8 percent, compared to 25.5 percent for the USFS timber 
        harvest budget and 26.5 percent for BLM public domain forest 
        management. We request that the subcommittee initiate a 5-year 
        program to fund Indian forestry at per-acre levels comparable 
        to the USFS and BLM so as to honor the trust responsibilities 
        of the United States.
  --In BIA natural resources management, restore $1 million to the 
        Timber Harvest Initiative, and increase forest development by 
        $5 million, to begin making-up for an outright funding decline 
        from fiscal year 2004 to fiscal year 2009.
  --In BIA natural resources management, provide $4.7 million for the 
        Endangered Species Act, including $2.3 million for Northern 
        Spotted Owl and marbled murrelet.
  --In OST, restore land consolidation to the fiscal year 2007 $59.5 
        million level, and direct priority for Youpee interests and 
        forest and other high-value lands.
  --For wildland fire, continue to support preparedness, standardize 
        USFS and Department of the Interior (DOI) fire cost accounting 
        and business principles, and direct fire 638 indirect costs to 
        the BIA indirect cost pool.

                             ITC BACKGROUND

    ITC is a 33-year-old organization of 70 forest-owning tribes and 
Alaska Native organizations that collectively manage more than 90 
percent of the 18 million acres of timberland and woodland that are 
under BIA trust management. These lands provide vitally important 
habitat, cultural and spiritual sites, recreation and subsistence uses, 
and through commercial forestry, income for the tribes and jobs for 
their members. In Alaska, the forests of Native corporations and 
thousands of individual allotments are equally important to their 
owners. To all our membership, our forests and woodlands are essential 
to our physical, cultural, and economic well-being, and their proper 
management is our foremost concern.
  --In BIA natural resources management, increase BIA TPA forestry to 
        adjust for inflationary costs and increase funding to levels 
        comparable to those provided to the USFS and BLM. From fiscal 
        year 2004 to fiscal year 2009, BIA TPA forestry funding has 
        increased only 3.8 percent, while the USFS timber harvest 
        budget has increased 25.5 percent and BLM public domain forest 
        management has increased 26.5 percent.
    Last year, the ITC testified that a 2003 independent report noted 
that BIA forestry receives only about one-third of the funding provided 
to the USFS. Now, a comparative review of Federal agency forestry 
budgets from fiscal year 2004 to fiscal year 2009 shows the situation 
is becoming much worse for BIA forestry.

----------------------------------------------------------------------------------------------------------------
                                                Fiscal year      Fiscal year                        Percentage
                                                    2004             2009          Difference       difference
----------------------------------------------------------------------------------------------------------------
BLM public domain forest management.........       $8,093,000      $10,242,000      +$2,149,000          +26.550
USFS NFS forest products....................      265,013,000      332,666,000      +67,653,000          +25.528
BIA TPA forestry............................       24,641,000       25,574,000         +933,000           +3.786
BIA forestry projects.......................       17,758,000       17,629,000  -129,000<bullet          -0.726
                                                                                              >
----------------------------------------------------------------------------------------------------------------
U.S. Department of Labor, Bureau of Labor Statistics, Consumer Price Index increase from October 2003 (start
  fiscal year 2004) to January 2009: 14.1 percent.

    Madam Chairman, it is startling and grossly unfair that BIA TPA 
forestry has only received a 3.8 percent funding increase over the past 
5 years while the BLM public domain forest management and the USFS 
forest products timber sales budgets, which perform roughly equivalent 
functions, have received increases of 26.5 percent and 25.5 percent, 
respectively. The United States has a trust responsibility for our 
forests, and is liable for any mismanagement. Our tribal governments, 
often among the neediest in the country, rely on our forest revenues to 
provide basic services, and our forests are very hard-working, 
providing commodity production, clean air, water, fish and wildlife 
habitat, and cultural values. From our 18 million forest acres, our 
fiscal year 2008 harvest is estimated at 500 million board feet, on a 
per-acre basis, about 250 percent of the harvest from the 193 million 
acres of USFS forest lands. Each year we are being required to do more 
with less funding than is being provided for USFS and BLM lands. Given 
the fiduciary trust responsibility of the United States, our forests 
should be receiving the resources necessary to ensure first-class 
management.
    Chronic underfunding of BIA forestry is stripping personnel from 
our forests. Anecdotal data indicates a large and increasing number of 
professional forestry positions are going unfilled in Indian country 
because funding is decreasing. Insufficient fixed cost increases eat 
into the program. Management capacity is seriously eroding. At current 
funding levels, we are struggling just to provide basic management 
functions, and important issues such as adaptive adjustments for 
climate change, which other Federal forest management agencies are now 
focusing on, are left unattended.
    To begin to correct this disparity, the ITC urges the addition of 
$2.6 million to BIA TPA forestry to offset inflationary costs of 14.1 
percent from fiscal year 2004 to fiscal year 2009 (reported by the 
Department of Labor) and that BIA forestry be increased by at least 25 
percent to provide funding increases on a par with those provided for 
the USFS and BLM since fiscal year 2003. We would welcome an 
opportunity to sit down with the subcommittee to learn why these 
disparities have persisted and grown, and what might be done to 
eliminate them.
  --In BIA natural resources management forest projects, restore $1 
        million to the Timber Harvest Initiative, and increase forest 
        development by $5 million, to begin making-up for an outright 
        funding decline from fiscal year 2004 to fiscal year 2009.
    From fiscal year 2004 to fiscal year 2009, the BIA forestry 
projects budget has declined outright from $17.8 million to $17.6 
million, impairing BIA's ability to perform forestry project trust 
functions. To begin to address this problem, the ITC requests that $1 
million be restored to the Timber Harvest Initiative and $5 million be 
added for BIA forest development.
    Since the early 1990s, the Timber Harvest Initiative has provided 
additional forest harvest capacity to those reservations with a timber 
harvest backlog, so they can both meet demand and come into compliance 
with the forest management plans. In fiscal years 2008 and 2009, 
funding for this initiative was cut from $1.8 million to $800,000. 
While we recognize that the timber market is currently depressed, we 
anticipate that the timber market will rebound and Indian country needs 
to have projects prepared and ready for sale. We urge that $1 million 
be restored to the Timber Harvest Initiative to assure BIA can flexibly 
manage trust harvest obligations.
    The ITC also requests that BIA Forest Development funding be 
increased by $5 million. Currently, about one-sixth of the Indian trust 
commercial forest needs either replanting or thinning. This backlog 
must be reduced to improve the productivity of Indian forest lands and 
reduce the threat of catastrophic loss due to insects, disease, and 
wildfire. In fiscal year 2005, the BIA Forest Development budget 
treated 58,000 acres. For fiscal year 2009, BIA's goal is to treat 
52,000 acres, a reduction of more than 10 percent from fiscal year 
2005. With a 1 million acre backlog, more acres must be treated, not 
less. A $5 million increase for fiscal year 2010 will treat an 
additional 30,000 acres, and will increase Indian timber harvest and 
value, improve the health or our forests, contribute to carbon 
sequestration, and produce woody biomass to advance the Nation's 
renewable energy initiatives.
  --In BIA natural resources management, provide $4.7 million for ESA, 
        including $2.3 million designated for Northern Spotted Owl and 
        marbled murrelet surveys.
    Madam Chairman and members of the subcommittee, the ITC wishes to 
express our great appreciation for this subcommittee's addition of $1 
million to BIA ESA funding for both fiscal year 2008 and fiscal year 
2009. Without that restoration, there would be no BIA endangered 
species activities in the field, where the listed species are and the 
various surveys and protocols must occur.
    In fiscal year 1991, Congress initiated BIA ESA funding with $1 
million in forestry for the Northern Spotted Owl. In fiscal year 1995, 
the marbled murrelet increased that to $1.83 million. In fiscal year 
2002, BIA moved those funds from Forestry to a new office and increased 
funding for all ESA activities to $3 million, acknowledging the 
substantial ESA needs throughout BIA's 56 million trust acres. But 
thereafter, funding steadily declined, and despite continuing ESA 
mandates, among the forestry tribes with the Northern Spotted Owl and 
the marbled murrelet, our field-level funding declined precipitously--
to zero in fiscal year 2007. While we are pleased with the 
subcommittee's restoration of $1 million in fiscal years 2008 and 2009, 
we are concerned that the BIA now distributes these funds nationwide, 
paying little regard to the Northern Spotted Owl and marbled murrelet 
purpose for which the funds were initially sought and provided.
    For fiscal year 2010, we ask that BIA endangered species be funded 
at least at $4.7 million. That is based on the $21.7 million provided 
for BLM ESA in fiscal year 2009, or 8.4 cents per acre for BLM's 258 
million acres, applied to BIA's 56 million acres, or $4.7 million. 
Within that $4.7 million, we also ask that $2.3 million be designated 
for the Northern Spotted Owl and marbled murrelet, so that tribes that 
initiated the program can have their funds restored to inflation 
adjusted levels provided in fiscal year 1995.
  --In the OST, restore land consolidation at the $59.5 million level, 
        and direct consolidation priority for acquisition of Youpee 
        interests and forest and other high-value lands.
    We ask that the land consolidation program be restored to the $59.5 
million level requested in fiscal year 2007. Land fractionation is a 
root cause for many of the DOI's high costs and difficulties in trust 
fund and trust asset administration, and must continue to be 
aggressively addressed. We are not aware of any land consolidation 
program problems over its 9-year history that warrant its elimination, 
and we are not aware of any OST out-reach to tribes to discuss the need 
for an ``alternative approach.'' In reviving $59.5 million to land 
consolidation, the ITC urges that it focus not only on highly 
fractionated properties, but also on (a) purchase of the so-called 
Youpee interests to avoid the enormous cost of un-doing the previous 
acquisition of highly fractionated interests through escheat; and (b) 
consolidation of high value lands, including forest lands, before they 
become so fractionated that productive use of the property becomes 
problematic.
  --For wildland fire, continue to support preparedness, standardize 
        USFS and DOI's fire cost accounting and business principles, 
        and direct fire 638 indirect costs to the BIA indirect cost 
        pool.
    The ITC appreciates the subcommittee's maintenance of preparedness 
funding in fiscal year 2009 and urges it be expanded in fiscal year 
2010 by implementing the following recommendations.
    The ITC recommends that USFS and DOI's fire cost accounting and 
business practices be standardized, particularly given the idea that 
the USFS could be moved to DOI. Current accounting differences result 
in significant cost allocation differences between the Departments. The 
charging of Indian hot shot crews to BIA's preparedness budget, when 
USFS crews are charged to suppression, is one such example. The hiring 
of Indian hot shot crews is truly a national suppression resource, and 
requiring BIA to charge those crew costs to preparedness is 
inappropriate and a needless penalty on tribal preparedness funding. 
Hot shot crews, regardless of their origin or Department, should be 
charged as suppression resources.
    We also ask that Congress direct BIA to charge 638 indirect costs 
for tribal wildland fire contracts to the BIA indirect cost pool, 
rather than the preparedness account. This preserves BIA preparedness 
funding's effectiveness and brings 638 tribal wildland fire contracting 
activities into congruence with other BIA contracting indirect cost 
practices.
                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team

    Thank you for the opportunity to testify today and address the 
serious funding needs that have limited and continue to hinder the 
operations of tribal judicial systems in Indian country. I am the 
Leader of the Independent Tribal Court Review Team (ITCRT). I am here 
today to request that this subcommittee increases funding for tribal 
courts by at least $50 million in fiscal year 2010 and maintain the 
tribal courts set-aside.
    We support an increase in funding for:
  --Hiring and Training of Court Personnel.--Tribal Courts make do with 
        underpaid staff, underexperienced staff and minimal training. 
        (We have determined that hiring tribal members limits the 
        inclination of staff to move away; a poor excuse to underpay 
        staff.)
  --Salary Increases for Existing Judges and Court Personnel.--Salaries 
        should be comparable to local and State court personnel to keep 
        pace with the non-tribal judicial systems and be competitive to 
        maintain existing personnel.
  --Tribal Courts Need State-of-the-Art Technology (Software, 
        computers, phone systems, tape recording machines, etc.).--Many 
        tribes cannot afford to purchase or upgrade existing court 
        equipment unless they get a grant. This is accompanied by 
        training expenses and licensing fees which do not last after 
        the grant ends.
  --Security and Security Systems To Protect Court Records and Privacy 
        of Case Information.--Most tribal courts do not even have a 
        full-time bailiff, much less a state-of-the-art security system 
        that uses locked doors and camera surveillance. This is a 
        tragedy waiting to happen.
  --Tribal Court Code Development.--Tribes cannot afford legal 
        consultation. A small number of tribes hire on-site staff 
        attorneys. These staff attorneys generally become enmeshed in 
        economic development and code development does not take 
        priority. Tribes make do with underdeveloped codes. The Adam 
        Walsh Act created a hardship for tribes who were forced to 
        develop codes, without funding, or have the State assume 
        jurisdiction. (States have never properly overseen law 
        enforcement in a tribal jurisdiction.)
  --Financial Code Development.--We have rarely seen tribes with 
        developed financial policies. The process of paying a bond, for 
        example, varies greatly from tribe to tribe. The usual process 
        of who collects it, where it is collected and how much it is, 
        is never consistent among tribes.
Department of the Interior, Bureau of Indian Affairs: More than $100 
        Million for Increased Law Enforcement
    The fiscal year 2010 budget provides increases in law enforcement 
and detention (which we support as needed and necessary costs for 
tribes). Individuals get to detention from law enforcement through 
tribal courts. Tribal courts, located in the Federal budget within law 
enforcement, need a similar proportionate funding boost and we request 
that the fiscal year 2010 budget includes a $50 million increase for 
tribal courts.
    For the past 3 years, the ITCRT has been traveling throughout 
Indian country assessing how tribal courts are operating. During this 
time, we have completed some 50 court reviews. There is no one with 
more hands-on experience and knowledge regarding the current status of 
tribal courts than our review team.
    We have come into contact with every imaginable type of tribe; 
large and small, urban and rural, wealthy, and poor. What we have not 
come into contact with is any tribe whose court system is operating 
with financial resources comparable to other local and State 
jurisdictions.
    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to send 
additional funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and Judges from political 
pressure. No longer in Indian country are Judges automatically fired 
for decisions against the legislature.
    Our research indicates tribal courts are at a critical stage in 
terms of need. Nationwide, there are 156 tribes with courts that 
receive Federal funding. These tribes divide a mere $11.9 million in 
Federal funds. It is the strong recommendation of the ITCRT that the 
Federal tribal courts budget be substantially increased in the 
President's budget.
    Assessments have indicated that the Bureau of Indian Affairs only 
funds tribal courts at 26 percent of the funding needed to operate. The 
remainder is funded by the tribes. Tribes who have economic development 
general subsidize their tribal courts. On the flip side, tribes who 
cannot afford to assist in the financial operations of the court are 
tasked with doing the best they can with what they have even at the 
expense of decreasing or eliminating services elsewhere. This while 
operating at a disadvantage with already overstrained resources and 
underserved needs of the tribal members. The assessment suggests that 
the smaller courts are both the busiest and most underfunded.
    We thank this subcommittee for additional funding in fiscal year 
2008. These funds were a godsend to tribes. Even minimal increases were 
put to good use:
  --In 2006, a fire destroyed the White Mountain Apache Court. A 
        previously condemned building, it went up like a tinder box. An 
        extra $200,000 bought the White Mountain Apache Tribe a modern 
        digital tape recording machine, a video surveillance security 
        system, a telephone system, new computers, and helped restore a 
        building so the court had somewhere to go. The chief judge even 
        did some of the carpentry work in the two newer courtrooms. 
        That's what additional funding does.
  --In Fort Yates and the Standing Rock Sioux Tribe, a tribal official 
        wept when we told her the Tribe would receive an extra 
        $300,000. Law enforcement was increased from 7 to perhaps 30. 
        The court ran every day of the week, including Sunday, to 
        account for the new cases. Law enforcement response time to a 
        phone call for assistance went from 5 hours, if anyone came at 
        all, to 15 minutes. Once again there was law and order in 
        Standing Rock. That's what additional funding does.
    The grant funding in the Department of Justice is intended to be 
temporary, but instead it is used for permanent needs; such as funding 
a drug court clerk who then is used as a court clerk with drug court 
duties. When the funding runs out, so does the permanent position. We 
have witnessed many failed drug courts, failed court management 
software projects (due to training costs) and incomplete code 
development projects. When the Justice funding runs out, so does the 
project.
    As a directive from the Office of Management and Budget, our 
Reviews specifically examined how tribes were using Federal funding. In 
the last 3 fiscal years (fiscal year 2009 is partial) there was only 
one isolated incident of a 3 percent questionable expenditure of 
Federal funds. It is speculated that because of our limited resources, 
we compromise ones due process and invoke ``speedy trials'' violations 
to save tribal courts money. Everyone who is processed through the 
tribal judicial system is afforded their constitutional civil liberties 
and civil rights.
    We do not wish to leave an entirely negative impression about 
tribal courts. Tribal courts need an immediate, sustained, and 
increased level of funding. True. However, there are strong indications 
that the courts will put such funding to good use.
    The Shoshone-Bannock of Fort Hall, Idaho holds court in a condemned 
building, built in 1888, full of so much mice droppings and bat guano 
that you cannot use the lower floor. They recently had a building 
closed because of the threat of Hanta Virus. They have been unable to 
hire a tribal prosecutor for 2 years because of their remoteness and 
inability to pay a competitive salary. Still, they operate a court as 
best they can and dream of the day they will complete their detention 
center which, after years of waiting, they are paying for themselves. 
Their need exceeds 100 percent.
    The Cheyenne River Sioux Tribe in Eagle Butte, South Dakota (like 
several other places we have reviewed) is fortunate to have dedicated 
court clerks who work for salaries below the poverty level, most at 
less than $10 an hour. Their need exceeds 100 percent.
    Turtle Mountain Chippewa Tribe of North Dakota must operate even 
when the courts' electricity is periodically turned off because they 
can't pay their light bill. Their need exceeds 100 percent.
    There are tribes like the Fort Belknap Tribe of Montana whose chief 
judge manages both offices and holds court in an old dormitory that 
can't be used when it rains because water leaks into the building and 
the mold has consumed one wall. Their need exceeds 100 percent.
    And, there are tribes like the isolated Havasupai, located in the 
bottom of the Grand Canyon. They can only afford a judge 1 day a month. 
Their computers only work sporadically because of the fine layer of 
dust that appears to cover everything. They have a single, underpaid 
clerk, who remains dedicated to her job, even though her employment 
experience means she could make twice as much working out of the Canyon 
away from home. When she goes to pick up her children at school, the 
court must close, because she is the only one there. Their need exceeds 
100 percent.
    Tribal courts have other serious needs. Tribal appellate court 
judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts offer jury trials. In many courts, one sustained jury trial will 
deplete the available budget. The only place to minimize expenses is to 
fire staff. Many tribal courts have defense advocates. These advocates 
are generally law trained and do a good job protecting an individual's 
rights (including assuring speedy trial limitations are not violated.) 
However, this is a large item in court budgets and if the defense 
advocate, or prosecutor, should leave, the replacement process is slow.
    I come here today to tell Congress these things. We feel it is our 
duty to come here on behalf of tribes to advocate for better funding. 
Tribes ask us to tell their stories. They open their files and records 
to us and say, ``We have nothing to hide''. Tell Congress we need 
better facilities, more law enforcement, more detention facilities, 
more legal advice, better codes. the list goes on and on. But, as we 
have indicated, it all involves more funding. This Congress and this 
new administration can do something great. Put your money where your 
promises have been.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America

    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2010 for 
various agencies and programs under the jurisdiction of the 
subcommittee. The League is a national, nonprofit organization founded 
in 1922. We have nearly 37,000 members and more than 270 community-
based chapters nationwide. Our members are committed to advancing 
common sense policies that safeguard wildlife and habitat, support 
community-based conservation, and address pressing environmental 
issues. The following pertains to programs administered primarily by 
the U.S. Fish and Wildlife Service (USFWS) and the U.S. Environmental 
Protection Agency (EPA).

      DEPARTMENTS OF THE INTERIOR AND AGRICULTURE, LAND AND WATER 
                           CONSERVATION FUND

    The League is very encouraged by the President's proposal to 
increase funding for the Land and Water Conservation Fund (LWCF) to 
approximately $420 million in fiscal year 2010 with the goal of fully 
funding LWCF programs at $900 million by 2014. The League strongly 
supports full funding and its members reaffirmed this commitment last 
year by adopting a resolution during our national convention endorsing 
this goal. It is important to begin to reinvest in strategic land 
acquisition to protect critical habitat, provide recreational access, 
and to buffer against the likely impacts of climate change. The 
dramatic decline in acquisitions over the past 8 years is particularly 
acute across the National Wildlife Refuge System (NWRS). An independent 
analysis last year of NWRS performance by Management Systems 
International (MSI) determined that the System has been ineffective in 
strategic land acquisition mainly because of a precipitous drop in 
requests to buy land. According to MSI, ``[T]he number of requested 
properties to be added to the Refuge System was 53 in fiscal year 2003 
and has declined every year since. In fiscal year 2008 only two 
properties were requested for addition to the NWRS--despite the fiscal 
year 2007 LAPS priority list being composed of 128 available 
properties.'' Acquisition needs are also high across other Federal land 
management agencies and we encourage the subcommittee to approve the 
President's request.

      DEPARTMENT OF THE INTERIOR, YOUTH EDUCATION AND INVOLVEMENT

    We applaud the President for specifically highlighting the value of 
recruiting a new generation of hunters and anglers. According to data 
from the USFWS, the number of hunters in America dropped from 
approximately 14 million to 12.5 million between 1996 and 2006. Many 
factors affect participation and recent research highlights the 
essential role that families play in introducing children to hunting. 
This research confirms that hunters who are active today most commonly 
first went hunting when they were between the ages of 10 and 12 and 
nearly all were introduced to hunting by a member of their family. 
Reversing this downward trend will require a range of strategies, and 
some of the most important will focus on children and families living 
in rural, suburban, and urban communities. The League supports the 
request for $28 million for the USFWS to provide grants to States to 
support innovative programs designed to recruitment a new generation of 
hunters and anglers. In addition, we support the request for $1 million 
in additional funding for the National Fish and Wildlife Foundation 
(NFWF) to develop public-private partnerships focused on connecting 
children with nature through hunting, fishing, and other types of 
wildlife-related outdoor recreation.

       FISH AND WILDLIFE SERVICE, NATIONAL WILDLIFE REFUGE SYSTEM

    The League joins other members of the Cooperative Alliance for 
Refuge Enhancement (CARE), a diverse coalition of 23 wildlife, 
sporting, conservation, and scientific organizations representing more 
than 14 million members and supporters, in requesting $514 million for 
operations and maintenance of the NWRS in fiscal year 2010. We 
appreciate the subcommittee's leadership in boosting NWRS funding to 
$462.8 million in the fiscal year 2009 omnibus appropriations bill.
    National Wildlife Refuges across the country provide some of the 
most important habitat for fish, wildlife, and waterfowl. In addition, 
they offer incredible recreational opportunities for hunters, anglers, 
birdwatchers, and countless others who enjoy the outdoors. Furthermore, 
refuges contribute to local and regional economies generating $1.7 
billion in sales and supporting 27,000 private-sector jobs. In spite of 
these and other benefits, funding for essential refuge operations and 
maintenance has not kept pace with inflation and pressing 
environmental, conservation, and law enforcement challenges. Today, the 
NWRS has a $3.5 billion backlog in basic operations and maintenance 
projects. Although funding provided in the American Recovery and 
Reinvestment Act will support near-term maintenance projects on 
Refuges, additional and sustained investment is necessary over the long 
term to significantly reduce this backlog.
    Moreover, the NWRS has essential daily operations needs that can 
only be addressed with additional budget resources. For example, the 
MSI evaluation concluded that ``[A]t many refuges, law enforcement 
coverage is insufficient to ensure protection of resources and the 
safety of visitors and refuge staff.'' This analysis recommended that 
the system double the number of law enforcement staff from 200 to ``at 
least 400 full-time officers.'' Moreover, the analysis tied the law 
enforcement problem directly to funding stating: ``[I]t is highly 
unlikely that any meaningful progress towards improving the Refuge 
System's law enforcement capability (will occur) under current and 
expected budget allocation levels.''
    We are encouraged by the administration's request for $483.3 
million for fiscal year 2010. Although this a positive step, we are 
concerned that this amount falls short of what the NWRS needs annually 
and over the long term. For example, although MSI gave the USFWS an 
ineffective rating for Refuge law enforcement, the budget request in 
this critically important area is relatively flat. In addition, the 
USFWS estimates that the NWRS requires at least additional $15 million 
annually simply to keep pace with inflation. However, it does not 
appear that the budget provides even half of this minimum threshold 
when one considers that at least $14 million of the $20 million 
proposed increase is committed to climate change and youth engagement. 
Although these are important, some NWRS functions will suffer if 
funding does not at least keep pace with inflation. Providing $514 
million in fiscal year 2010 will ensure that NWRS can provide quality 
visitor services and effectively manage critical habitat. In addition, 
this would be a critical first step toward achieving CARE's goal of 
fully funding the annual operations and maintenance needs of the NWRS 
by 2013.

            FISH AND WILDLIFE SERVICE, STATE WILDLIFE GRANTS

    As a member of the Teaming with Wildlife National Steering 
Committee, the League urges the subcommittee to approve the President's 
request for $115 million for State Wildlife Grants in fiscal year 2010. 
We also support his request for $40 million for climate change grants. 
The debate on comprehensive climate and energy legislation highlights 
the impacts of a warming climate on fish and wildlife and the 
importance of investing in adaptation and habitat conservation. States 
will be at the forefront of this effort based on their responsibility 
to manage fish and wildlife. This funding will allow them to update 
wildlife action plans to better account for and proactively respond to 
these impacts.

   ENVIRONMENTAL PROTECTION AGENCY, CLEAN WATER STATE REVOLVING FUND

    The League appreciates the steps the subcommittee took to provide 
$689 million for the Clean Water State Revolving Fund (SRF) in the 
fiscal year 2009 omnibus appropriations bill. We support the 
President's request for $2.4 billion for the Clean Water SRF next 
fiscal year. Nationwide, broken sewer pipes and overflows spill more 
than 1 trillion gallons of untreated sewage into our waterways every 
year costing more than $50 billion for cleanup. These overflows pose 
serious risks to wildlife and human health. The SRF is a highly 
successful program that provides the funds needed to stop sewage 
contamination. However, the EPA's Clean Water and Drinking Water 
Infrastructure Gap Analysis found a $535 billion gap between current 
spending and projected needs for drinking water and wastewater 
infrastructure over the next 20 years. An investment of $2.4 billion in 
the Clean Water SRF would improve water quality, protect public health, 
and provide jobs across the country.

        ENVIRONMENTAL PROTECTION AGENCY, GREAT LAKES RESTORATION

    The League is also very encouraged by and supportive of the 
President's proposal to develop a new $475 million initiative to 
protect and restore the Great Lakes. This proposal represents a 
national--not simply regional--investment. The Great Lakes contain more 
than 80 percent of the surface fresh water in the United States and 
more than one-tenth of the country's total population lives in the 
region. Although significant economic challenges confront the area, it 
continues to be the center of manufacturing in this country and 
supports national and world-class recreational opportunities which also 
generate billions of dollars in economic activity.
    The President's proposal strategically targets some of the most 
persistent and pressing natural resource, environmental, and public 
health issues facing the Great Lakes. For example, the proposal would 
direct nearly one-third of funds to address toxic substances and areas 
of concern. Heavy metals and other toxics are dangerous pollutants 
throughout the region and are especially concentrated in contaminated 
sediments. The EPA, States, and localities have identified specific 
areas of concern and new funding could be quickly directed to 
remediation. This proposal also focuses on other key threats, including 
invasive species and nonpoint source pollution. Moreover, the proposal 
is proactive in terms of restoring and improving native species, 
habitat, and aquatic ecosystems.
    The States that border the Lakes and many nongovernmental 
organizations have invested significant resources to preserve these 
national treasures; however, additional Federal investment is needed or 
the problems will only get worse and cost even more to fix. The 
President is proposing to make a significant investment as the first 
step in a long-term effort to restore the Great Lakes ecosystem. The 
League urges the subcommittee to fully fund this important initiative.

 ENVIRONMENTAL PROTECTION AGENCY, NON-POINT SOURCE MANAGEMENT PROGRAM 
                     (CLEAN WATER ACT SECTION 319)

    We join American Rivers in urging the subcommittee to appropriate 
$250 million for section 319, the Non-point Source Management Program. 
The fiscal year 2009 omnibus appropriations bill provides approximately 
$201 million, which is also equal to the administration's fiscal year 
2010 request. This program provides grants to States, territories, and 
tribes for nonpoint source pollution reduction activities. States 
report that nonpoint source pollution is the leading cause of water 
quality problems, including harmful effects on drinking water supplies, 
recreation, fisheries, and wildlife.

        ENVIRONMENTAL PROTECTION AGENCY, CHESAPEAKE BAY PROGRAM

    The League commends the subcommittee for appropriating $31 million 
for the Chesapeake Bay Program in fiscal year 2009 omnibus bill. We 
join the Chesapeake Bay Foundation in requesting $40 million for fiscal 
year 2010, including $5 million for Small Watershed Grants. We 
appreciate the administration's request for $35.1 million for fiscal 
year 2010.
    The Chesapeake Bay is the largest estuary on the Atlantic coast and 
one of the largest in the world. EPA's Chesapeake Bay Program Office 
(CBPO) is the primary facilitator of restoration activities by partners 
throughout the watershed. Although the Chesapeake Bay Program has made 
significant progress toward pollution reduction, habitat restoration, 
fisheries management, and watershed protection goals, much more work is 
needed to restore the Bay. For example, habitat restoration efforts are 
collectively less than half way to Program goals and there is concern 
about the overall quality of habitats that remain. Achieving these 
goals will require participation from citizen groups and local 
governments. The Chesapeake Bay Program supports stakeholder 
involvement through the Chesapeake Bay Small Watershed Grants. In the 
past 9 years, the Small Watershed Grants Program has provided $17.7 
million to support 544 water quality improvement and wildlife habitat 
restoration projects. These grants have been used by recipients to 
leverage an additional $50.7 million from other funding sources. The 
League supports maintaining the investment in the Program Office with 
particular emphasis on boosting support for Small Watershed Grants.
                                 ______
                                 
                  Prepared Statement of John K. Moore

    This testimony addresses three topics:
  --support for fiscal year 2010 Land and Water Conservation Fund 
        (LWCF) appropriations for Tahoe and Eldorado National Forests;
  --serious concerns about proposed purchases of low-value lands with 
        future LWCF appropriations; and
  --serious concerns about logging of parcels that have been optioned 
        for future purchase with LWCF appropriations.
    I have campaigned for more than 30 years for LWCF appropriations 
for acquisition of private lands valuable for wildlife habitat and 
recreation in national forests in the Sierra Nevada.
    These campaigns have enjoyed numerous successes, among them 
acquisitions in Hope Valley, around Castle Peak in Tahoe National 
Forest, on the Pacific Crest Trail, and along the North Fork American 
Wild River. The support of LWCF appropriations by Senate appropriations 
subcommittees has played a major role in these successes.

            SUPPORT FOR FISCAL YEAR 2010 LWCF APPROPRIATIONS

    The checkerboard ownership pattern in the Sierra Nevada is one of 
the most significant challenges facing Forest Service (USFS) land 
management. Incompatible uses on private parcels interspersed with 
public lands would degrade wildlife habitat, water quality, 
recreational access, and scenic views on the public lands and would 
complicate forest management and fire control. Disruption of north-
south habitat connectivity, essential to wildlife migration in the 
Sierra Nevada, will have much more serious effects as climate change 
significantly shifts wildlife habitats. For these reasons, USFS has 
made consolidation of public ownership in checkerboard areas an 
acquisition priority in California.
    Of the lands proposed for acquisition with LWCF appropriations in 
the immediate future, lands around Castle Peak and along the Middle 
Fork Yuba and North Yuba Rivers should have the highest priority.

                           CASTLE PEAK LANDS

    Two parcels at the north end of the Castle Peaks Proposed 
Wilderness are our highest priority for acquisition. These parcels are 
crucial to the integrity of the wilderness proposal. One of the parcels 
connects to a pristine section of red fir forest that has never been 
logged and also protects a tributary to the Little Truckee River, 
eligible for wild and scenic designation, which is being restored. 
Acquisition of the other parcel would make the proposed wilderness 
boundary west of Mount Lola more logical and defensible.
    In addition, there are three other parcels southwest of Castle Peak 
that adjoin or are within the original Castle Peak Roadless Area. 
Acquisition of these parcels would help consolidate USFS management of 
lands around Castle Peak valuable for wildlife habitat and recreation.

                        MIDDLE YUBA RIVER LANDS

    These lands are in 12 miles of the canyon of the Middle Yuba River, 
a deep rugged canyon that includes three sheer-walled inner box 
canyons. The 12 miles are part of the stretch of the Middle Yuba whose 
exceptional scenic qualities make it eligible for inclusion in the Wild 
and Scenic River System.
    The canyon is a critical wildlife corridor in which bald eagles, 
northern goshawks, and spotted owls occur. National forest lands in the 
canyon are managed to benefit habitat for marten and Pacific fisher.
    Acquisition of the available Middle Yuba River lands would 
significantly increase and consolidate public ownership within the 
canyon, facilitating coordinated management to preserve the canyon's 
important wildlife habitat, watershed, and wild river values. 
Protecting these parcels will help ensure public access, critical 
habitat protection, and water protection in the Sierra Nevada.

                      NORTH FORK YUBA RIVER LANDS

    Indian Valley in the scenic canyon of the North Yuba River would be 
a very attractive location for a Tahoe National Forest campground. The 
North Yuba Canyon, traversed by Highway 49, is a heavily visited 
recreational area. USFS has had a long-standing interest in acquiring 
Indian Valley for a campground. Acquisition of this land would be very 
consistent with the purposes of the LWCF.

      SERIOUS CONCERNS ABOUT PROPOSED PURCHASES OF LOW-VALUE LANDS

    There are many thousands of acres of private lands valuable for 
wildlife habitat and recreation still to be acquired in Tahoe and 
Eldorado National Forests. Acquisition of a significant proportion of 
these lands will take many years.
    All the lands in Tahoe and Eldorado National Forests purchased with 
LWCF appropriations since 2001 have been lands owned by Sierra Pacific 
Industries (SPI) which are under option to The Trust for Public Land. 
Purchasing the remaining lands under option is likely to require 
several more years of appropriations.
    Some of the remaining lands under option are of such low value that 
purchasing them would not be consistent with the purposes of the LWCF. 
I am very concerned about the proposed use of millions of dollars of 
LWCF appropriations to acquire these low-value lands. These lands 
compare very unfavorably with the more valuable lands in Tahoe National 
Forest previously acquired with LWCF appropriations. Expending LWCF 
appropriations on low-value lands reduces the funds available for 
saving more valuable lands.
    Low-value lands have been optioned because TPL made the very unwise 
decision in 2001 to sign an option which included them. TPL did not 
investigate the merits of the lands and did not ask the advice of 
environmentalists familiar with the lands before signing the option. As 
far as I know, TPL did not ask USFS if acquiring the optioned lands was 
consistent with USFS acquisition priorities before announcing the 
option.
    There are two categories of low-value lands under option: lands 
degraded by intensive timber management and roads, and scattered 
parcels whose acquisition would not help preserve areas with 
exceptional values.
    Thousands of acres of the remaining optioned lands have been 
significantly modified by intensive timber management and the roads 
required for management. Timber management has degraded the wildlife 
habitat and recreational values of these lands, compared to less-
modified forest. Future management of these lands would require 
substantial expenditures by USFS for reforestation and maintenance and 
possible closure of roads. Acquisition of significantly modified lands 
may be justified to consolidate ownership in mostly unmodified areas 
with exceptional values, but not otherwise.
    LWCF appropriations are best expended for lands that consolidate 
ownership in areas with exceptional values, such as the Castle Peak and 
Middle Yuba areas. The remaining optioned lands include many scattered 
parcels in areas without exceptional values. In some cases public 
ownership would still be significantly fragmented after the optioned 
scattered parcels are acquired. Purchase of scattered parcels in areas 
without exceptional values is not consistent with the purposes of the 
LWCF.
    Maps showing the lands degraded by intensive timber management and 
roads and the low-value scattered parcels will be supplied on request.

          SERIOUS CONCERNS ABOUT LOGGING OF LANDS UNDER OPTION

    The option agreement allows Sierra Pacific Industries to harvest 
timber from the optioned lands. Since the option was signed, Sierra 
Pacific Industries has harvested timber or has obtained permits to 
harvest timber from several thousand acres of optioned lands. Timber 
has been harvested more than once from some areas. Harvesting timber 
from the optioned lands degrades the values of the lands which are 
cited to justify the purchases. Permitting timber harvesting on the 
optioned lands is a very serious defect in the option.
    Announcements celebrating the signing of the option emphasized that 
the optioned lands were more valuable for nontimber uses then for 
timber. The permitted timber harvesting flatly contradicts these much-
publicized announcements. Has the Appropriations Committee been aware 
that the option allows harvesting of timber from optioned lands?

                   RESPONDING TO THE SERIOUS CONCERNS

    I urge you to consider these serious concerns about acquisition of 
low-value lands and logging of lands under option when appropriating 
LWCF funds for fiscal year 2010 and subsequent fiscal years. In 
addition, The Trust for Public Land and the USFS should be informed of 
these concerns.
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe

    On behalf of the Jamestown S'Klallam Tribe, I want to thank this 
subcommittee for the opportunity to submit this written testimony on 
our funding priorities and requests on the fiscal year 2010 Bureau of 
Indian Affairs (BIA) and Indian Health Service (IHS) budgets. We have 
long appreciated this subcommittee's support of our funding requests.

                TRIBAL-SPECIFIC APPROPRIATION PRIORITIES

    $1.46 million for land purchase for Tamanowas Rock Sanctuary 
Project; a $200,000 increase to BIA tribal base budget for fish and 
wildlife management; and $10.92 million to support construction of a 
medical clinic serving Medicare/Medicaid and other low-income clients.

              LOCAL/REGIONAL REQUESTS AND RECOMMENDATIONS

    We support all requests and recommendations of:
  --Affiliated Tribes of Northwest Indians;
  --Northwest Indian Fisheries Commission (NWIFC); and
  --Northwest Portland Area Indian Health Board.

                 NATIONAL REQUESTS AND RECOMMENDATIONS

BIA Requests
    Provide $25 million general increase to BIA Tribal Priority 
Allocation (TPA) for inflationary and fixed costs and provide a $57 
million increase for BIA Contract Support Cost (CSC), including direct 
CSC.

IHS Requests
    Provide $470 million for IHS mandatory, inflation, and population 
growth increase to maintain existing healthcare services; $152 million 
increase for Contract Health Services (CHS); $143 million increase for 
IHS to fully fund CSC, including direct CSC; and a $5 million increase 
to the IHS Office of Tribal Self-Governance (OTSG).
    We support all requests and recommendations of the National 
Congress of American Indians (NCAI) and National Indian Health Board 
(NIHB).

              TRIBAL-SPECIFIC APPROPRIATION JUSTIFICATION

$1.46 Million Land Purchase for Tamanowas Rock Sanctuary Project
    The purpose of the project is to preserve tribal cultural and 
ceremonial access to an important archaeological site of the S'Klallam 
American Indian people. Tamanowas Rock, located in eastern Jefferson 
County on the Olympic Peninsula of Washington State, is of great 
cultural and spiritual significance to the tribes in the region, and 
also holds special significance for the local non-Indian community. As 
a geological formation, the estimated age of the rock is 43 million 
years. More importantly, the oral history associated with the rock 
among the local tribes includes the era of the mastodons (extinct for 
8,000 years), when it was used as a perch by tribal hunters and a story 
of a great flood (assumed to be a tsunami from around 3,000 years ago) 
when people tied themselves to the rock to avoid being swept away.
    In 1976, the rock was listed in the Washington Heritage Register as 
having significant archaeological interest. The tribes and local 
community have been working for more than 10 years to try to protect 
the property where the rock is located from development. In February 
2005, the Jamestown S'Klallam Tribe, acting on behalf of all the 
S'Klallam Tribes, obtained loans to purchase a 20-acre parcel and a 
group of platted properties totaling 66.32 acres (if dedicated roads 
are vacated, the acreage is closer to 100 acres for the platted 
properties). This property was in imminent threat of development in the 
vicinity of the rock. The local community and the tribes now seek funds 
to purchase the land temporarily secured by the loan and purchase the 
remaining 80 acres directly surrounding Tamanowas Rock, all of which 
would be protected in perpetuity.
$200,000 Increase to BIA Tribal Base Budget for Fish and Wildlife 
        Management
    The U.S. Government formally recognized the Jamestown S'Klallam 
Tribe in 1981. Jamestown is one of four tribes that signed the Point No 
Point Treaty with the U.S. Government in 1855. The BIA began 
contracting with the tribe to provide fisheries management services. 
The Point No Point Treaty Council (PNPTC) was serving as the fisheries 
management agency for the other Klallam and Skokomish Tribes. In its 
efforts to contract with Jamestown for basic fisheries management 
services, the BIA decided to provide only enough funding to slightly 
expand PNPTC rather than providing funding of sufficient quantity for 
Jamestown to operate a fisheries program of the same size as the other 
three tribes. Following the implementation of the Self-Governance 
Initiative, the distribution of contracted funds to each PNPTC member 
tribe was based on funding history, thus Jamestown received a 
significantly smaller portion of the PNPTC base funding than received 
by the other three tribes. The Jam
$10.92 Million To Support Construction of a Medical Clinic Serving 
        Medicare/Medicaid and Other Low-income Clients
    The Sequim and Port Angeles areas of Clallam County are designated 
a Primary Care Health Professional Shortage Area due to the low-income 
and Medicaid population and the lack of access that these populations 
have to medical and dental care. The tribe, in order to afford quality 
healthcare for its members, serves a large non-Indian population of 
underserved individuals and families who cannot reasonably find care 
elsewhere. Unlike many other tribes, the Jamestown S'Klallam Tribe does 
not receive direct care funding from IHS to support the operation of 
its medical clinic. Making medical clinic services available to an 
underserved group of non-Indians provides enough income and patient 
base to operate a medical clinic. Profit from clinic operations is used 
to fund health services for tribal citizens and to make up the 
shortfall in IHS funds to fulfill Federal treaty obligations.
    The tribe is proposing to construct a 35,407 square-foot healthcare 
clinic and 94-vehicle parking area. The clinic will serve both tribal 
members and nontribal members. The primary purpose of this project is 
to respond to a documented need to provide health and wellness services 
to the residents of Sequim, Clallam County, and to low- and moderate-
income people of the surrounding communities. The project will be 
located on 2.5 acres of land as part of the Olympic Medical Clinic 
Campus in Sequim, Washington.
              local/regional requests and recommendations
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the NWIFC.
                    national requests and priorities
BIA Requests
    Historically, the discretionary funding levels for programs 
intended to assist Native Americans through the BIA has fallen 
dangerously short. Native Americans living on tribal lands do not have 
access to the same services and programs available to other Americans, 
even though the Government has a binding trust obligation to provide 
these services. In fact, the Congressional Research Service found that 
between 1975 and 2000, funding for the BIA and the Office of Special 
Trustee declined by $6 million yearly when adjusted for inflation. 
Furthermore, between fiscal year 2004 and fiscal year 2007 the BIA 
budget fell significantly from $2.8 billion to $2.2 billion. Funding 
cuts and the reallocation of funds for nontribal use increased the 
level of unmet need in Indian country.
    Provide $25 million (10 percent increase more than fiscal year 
2009) for general increase to BIA TPA for inflationary and fixed costs.
    TPA is one of the most important funding areas for tribal 
governments. It covers such needs as economic development, general 
assistance, and natural resource management. Since tribes have the 
flexibility to use TPA funds to meet the unique needs of their 
individual communities, they are the main resource for tribes to 
exercise their powers of self-governance. However, from 1998 through 
2004, BIA's funding for TPAs declined from 42 percent of BIA's budget 
to only 33.3 percent. In 2000, TPA funding was so inadequate that the 
estimated need was $2.8 billion. According to the budget statistics 
compiled by the NCAI, inadequate TPA funding reaches back two decades 
and has prevented tribes from exercising self-governance.
  --Provide $57 million Increase for BIA to fully fund CSC, including 
        direct CSC
    The BIA estimates that the fiscal year 2007 CSC shortfall was 
approximately $54 million ($143 million in CSC appropriations versus 
$197 million in allowable CSC need). Additionally, $3 million is needed 
annually for administrative costs for new and expanded programs (Indian 
Self-Determination Fund). The lack of CSC dollars diminishes the 
administrative capacity of Indian tribes to deliver quality programs 
and services to our citizens. The Tribal administrative personnel hired 
with CSC dollars help ensure accountability and transparency in our 
administration of Federal programs. The Indian Self-Determination and 
Education Assistance Act, Public Law 93-638, mandates that Indian 
tribes be paid these costs. There is no other Government contractor 
that is forced to subsidize Federal contracts.
IHS Requests
    The President's proposed increase for the IHS is projected to be 
$415 million more than the fiscal year 2009 enacted level. Until the 
full budget details become available, the effect of the President's 
proposal cannot be fully evaluated.
    Provide $470 million for IHS mandatory, inflation, and population 
growth increase to maintain existing healthcare services. Mandatory 
costs increases are necessary to maintain the current level of 
services. These ``mandatories'' are unavoidable and include medical and 
general inflation, pay costs, and population growth.
    Provide $152 million increase for CHS. A $152 million increase is 
needed for contract health funding. This level will allow those tribes 
who are not served by an IHS hospital to provide healthcare services at 
the same level as those tribes who are served by an IHS hospital.
    Provide $143 million for IHS to fully fund CSC, including direct 
CSC. On March 1, 2005, the U.S. Supreme Court issued a unanimous 
decision in Cherokee Nation and Shoshone-Paiute Tribes v. Leavitt 
lawsuit, which powerfully reaffirms the enforceability of Government 
contracts between Indian tribes and agencies such as IHS and BIA. The 
Court's ruling compels corrective action from Congress, where 
historically insufficient funds have been appropriated to pay 
Government contracts with tribes, while all other Government contracts 
are fully paid (through supplemental appropriations, if necessary).
    Increase $5 million to the IHS OTSG. In 2003, Congress reduced 
funding for this office by $4.5 million, a loss of 43 percent from the 
previous year. In each subsequent year, this budget was further reduced 
due to the applied congressional rescissions. There are more than 330 
self-governance tribes with funding totaling $1 billion; this is 57 
percent of all federally recognized tribes and 33 percent of the 
overall IHS funding. Tribes continue to enter into SG resulting in a 
need for additional OTSG staffing.
    Support all requests and recommendations of the NCAI and NIHB.
  --The leadership of the Jamestown S'Klallam Tribe remains actively 
        involved in both NCAI and NIHB and has participated in numerous 
        national forums to discuss and prioritize program funding and 
        budgets. We are extremely supportive of the requests from these 
        organizations.
                                 ______
                                 
Prepared Statement of the Kern County Valley Floor Habitat Conservation 
  Plan Industry and Government; Western States Petroleum Association; 
 Independent Oil Producers Association; Occidental of Elk Hills, Inc.; 
                 and Buena Vista Water Storage District

    Madam Chairman and members of the subcommittee: On behalf of the 
California Industry and Government Coalition for the Kern County Valley 
Floor Habitat Conservation Plan (KCVFHCP), we are pleased to submit 
this statement for the record in support of our funding request for the 
Interior appropriations bill for fiscal year 2010.
    First, the Coalition supports the President's budget request for 
the Department of the Interior's Cooperative Endangered Species 
Conservation Fund, especially funding for Habitat Conservation Plan 
(HCP) land acquisition.
    Second, the Coalition urges the subcommittee to appropriate 
additional funding for land acquisition above the funding requested by 
the President. The additional funding requested by the Coalition 
anticipates that $1 million will be needed by the Kern County program 
to be used for purposes of acquiring and maintaining habitat preserves.
    The Coalition's request is supported by the timely need to 
implement the KCVFHCP. The County's local oil and gas production 
industry and Water Districts have contributed more than $550,000 to the 
development of this program. In 1997, the U.S. Fish and Wildlife 
Service (FWS) allocated $500,000 of Federal Endangered Species Act 
section 6 funds to assist in program implementation. The California 
State Government has authorized $1 million to augment the Federal 
funds. In order to secure the $3 million total necessary to assist in 
the implementation of the plan, we will require $1 million for fiscal 
year 2010 and $500,000 for fiscal year 2011.
    The Coalition requests that the subcommittee appropriate the 
maximum possible amount for this program, so that the funding pool can 
accommodate our request and need. We are confident that the plan's 
merits and urgency support this request.
    Kern County's program is unique from other regions in the Nation in 
that it contains some of the highest concentrations of plant and animal 
species protected by the Endangered Species Act (ESA) within the 
continental United States. The region is occupied by 11 wildlife 
species and 14 plant species covered as threatened or endangered under 
the program. The potential for conflict with the Federal ESA is great 
in Kern County because of the extensive oil and gas production 
activities, water conveyance efforts and the urbanization that is 
occurring. Since Kern County is the top oil producing county in the 
Nation and experiencing rapid urban growth, potential conflicts with 
the ESA and their resolution through a proactive conservation program 
has significant national importance.
    In recognition of the conflicts posed to economic growth by Federal 
and State endangered species laws, a joint agency Memorandum of 
Understanding was entered into by FWS, Bureau of Land Management, 
California Energy Commission, California Division of Oil and Gas and 
Geothermal Resources, California Department of Fish and Game, and Kern 
County. The participating agencies agreed to develop a unified 
conservation strategy with the goal of providing a streamlined and 
consistent process of complying with State and Federal endangered 
species laws, yet at the same time allow important industry activities 
such as oil and gas, water conveyance, and other industry activities to 
continue.
    Preparation of the KCVFHCP began in 1989 and involved a number of 
Federal, State, and local government agencies, as well as the oil and 
gas industry, agricultural interests, utilities, and environmental 
groups.
    Kern County's Valley Floor Habitat Conservation Plan is one of the 
largest and most diverse endangered species conservation programs under 
development in the Nation encompassing more than 3,110 square miles. 
The program represents a departure from traditional endangered species 
conservation programs which utilize prohibitory controls to assure 
conservation of species habitat. Instead, it is based on an incentive-
based system of selling or trading habitat credits in an open market. 
This innovative approach, for the first time, provides landowners with 
real incentives and more importantly, the ability to choose how best to 
manage their own private property. The KCVFHCP is in the final stages 
of preparation. The HCP document is completed. An environmental impact 
statement is being prepared for public review in the near future. Final 
approval will occur in 2010.
    Numerous agencies, in concert with the State of California and 
local government entities, as well as the private oil and gas industry 
have contributed funding, time and other resources toward developing 
the KCVFHCP. The KCVFHCP program will be completed in 2010, provided 
there is the necessary Federal funding for the acquisition of habitat 
to mitigate for oil and gas operations and development. Additional 
funding is critical to completing the HCP. This is one of the final 
steps necessary to implement the conservation strategy. Because of the 
extensive private, local, and State government financial support that 
went into the development of this program, Federal participation in 
program implementation will demonstrate that the burden of ESA 
compliance is not being placed exclusively on private property owners. 
Program funding will also contribute to eventual species recovery.

                         PROGRAM FUNDING NEEDS

    In order for the KCVFHCP to be implemented, the program requires 
funding in the amount of $1.5 million (augments the $1.5 million in 
State and Federal funding received in 1997) that could be funded in 
increments over the first 2 years of the program. The purpose of this 
funding is described as follows:
Oil Development Issue
    A mitigation strategy has been devised that is intended to 
acknowledge existing oil field activities within Kern County. The 
strategy proposes to acquire 3,000 acres of endangered species habitat 
to mitigate for species loss resulting from oil field development 
outside of established oil field production areas, but within proximity 
of those areas. This is to allow for reasonable expansion of oil field 
activities over the life of the HCP program. The program strategy 
allocates $3 million for acquisition and perpetual maintenance of 
species reserve areas. With this type of strategy, oil field expansion 
activities would be provided for in the program. This strategy would be 
of great benefit to the small independent oil and gas companies within 
the program area.
Urban Development/County Infrastructure Issue
    The conservation program includes an Urban Development/County 
Infrastructure mitigation strategy that mitigates for species habitat 
loss through the use of an incentive-based system of selling or trading 
habitat credits in an open market. This innovative program will add 
market value to land that is needed by project proponents to comply 
with endangered species laws which will encourage the owners of such 
properties to offer lands for the benefit of species conservation. 
Protected species of plants and animals will benefit from a program 
that promotes private property owners to conserve permanent habitat 
preserves consistent with the objectives of the ESA.
Water District Activity Issue
    A Water District Strategy is included in the program to address 
Covered Species protection due to the construction of new facilities 
and the operation and maintenance of existing water management and 
conveyance facilities. The Covered Species will benefit from reduced 
and less intrusive operation and maintenance measures than have been 
conducted historically due to concerns for conflicts with endangered 
species laws.
    Federal Funding Support will Augment Local Government and Private 
Industry Efforts to Comply with the Endangered Species Act
    The $1.5 million required for the oil field strategy would help 
contribute to satisfying the program's endangered species conservation 
goals, while also providing for continued economic growth of Kern 
County's oil and urban development activities. Protected species would 
benefit from a comprehensive long-term program that promotes the 
creation of permanent habitat preserves.
    Numerous private businesses, in concert with the State of 
California and local government entities, are attempting to do their 
part, and we come to the appropriations process to request assistance 
in obtaining a fair Federal share of financial support for this 
important effort. This unique cooperative partnership involving State 
and local government, as well as private industry, has contributed 
substantial funds to date, to assist in the development of this 
program.
    The California Industry and Government Coalition appreciates the 
subcommittee's consideration of this request for a fiscal year 2010 
appropriation to support implementation of this significant program.
                                 ______
                                 
             Prepared Statement of the Keweenaw Land Trust

    Madam Chairman and honorable members of the subcommittee: I thank 
you for this opportunity to present testimony in support of the 
acquisition of a 1,258-acre property at Prickett Lake in the Ottawa 
National Forest (NF) in Michigan. An appropriation of $2.8 million from 
the Land and Water Conservation Fund (LWCF) is needed for the U.S. 
Forest Service (USFS) to protect this important property.
    I also respectfully request a substantial increase in overall 
funding for the LWCF, specifically urging the subcommittee to provide 
$325 million for the Federal LWCF in the fiscal year 2010 Interior, 
Environment, and Related Agencies appropriations bill. I applaud the 
LWCF funding increases provided by this subcommittee in fiscal year 
2009. And, we are most thankful that the Obama administration budget 
recognizes the importance of these programs by proposing significant 
increases for fiscal year 2010 and setting a goal to achieve full 
funding of the LWCF in the next 5 years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units, and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. Public lands provide innumerable social and 
economic benefits including enhanced quality of life, healthy lifestyle 
opportunities, protection of watersheds and drinking water supplies, 
wildfire reduction and prevention, and expanses of habitat supporting 
wildlife and fisheries and their capacity to adapt to climate change. 
We urge you to renew this wise investment in America's natural heritage 
and take steps to toward full and consistent funding of these vital 
programs.
    The Ottawa NF is located within the formerly glaciated landscape of 
Michigan's Upper Peninsula, with hundreds of lakes and tributaries 
across nearly 1 million acres. The forest, which is defined by Lake 
Superior to the north, offers a remote sense of solitude that is unique 
to the Upper Midwest. A core value of the forest is its many diverse 
ecosystems, and is known in particular for hardwood forests, bountiful 
streams, rivers, lakes, spectacular fall foliage, and heavy winter 
snowfall. The forest offers a wide variety of outdoor recreation 
opportunities and provides habitat for deer, fox, snowshoe hares, bald 
eagles, loons, wolves, bears, and other wildlife.
    Located within the Ontonagon Ranger District of the Ottawa NF and 
within a semi-primitive motorized area, the Prickett Lake property has 
been selected as the highest-ranked acquisition within the eastern 
region of the USFS. Prickett Lake immediately adjoins the Sturgeon 
River Gorge Wilderness, which was designated by Congress in 1987 and is 
approximately 14,000 acres in size. Among its outstanding attributes, 
the Wilderness includes the spectacular Sturgeon River Gorge--a 
distinctive landform and unique geologic feature unlike anything else 
in the United States and the deepest canyon in the State of Michigan. 
Congress designated the Sturgeon River part of the national wild and 
scenic river system in 1992 and it is considered a national treasure by 
many. In 2008, the Ottawa NF acquired a 2,000-acre inholding of the 
Sturgeon River Gorge that includes 6 miles of the Wild and Scenic River 
corridor upstream of Prickett Lake.
    Previously owned by the Upper Peninsula Power Company, the entire 
property lies within the boundary of the Ottawa NF and surrounds 
Prickett Lake, which was created as part of a hydroelectric facility on 
the Sturgeon River. Upstream and downstream of Prickett Lake are 
designated sections of the Wild and Scenic Sturgeon River, which flows 
directly into Lake Superior. This property is located in the northeast 
corner of the Ottawa NF in Baraga and Houghton Counties. The North 
Country National Scenic Trail runs right through the property, 
enhancing recreational access for visitors.
    The wilderness on the southern edge of Prickett Lake hosts a 
diverse range of wildlife habitat supporting gray wolves, Canada lynx, 
ruffed grouse, bald eagles, minks, woodcocks, foxes, black bears, 
white-tailed deer, and a variety of fish. Approximately half of this 
tract contains wetlands or riparian areas. Prickett Lake is upstream to 
one of the last remaining productive spawning areas for lake sturgeon 
in the Lake Superior watershed. This area's pristine water quality 
helps protect the overall health of the Sturgeon River watershed.
    An immediate and short-lived opportunity exists this year to 
acquire the 1,258 acre Prickett Lake property. As both the Michigan 
Department of Natural Resources and the Ottawa NF have recently 
acquired acreage upstream, the opportunity to add additional acreage in 
the watershed via conservation of Prickett Lake represents a tremendous 
opportunity to further enhance the previous conservation successes. If 
the Prickett Lake property were sold for fragmented ownerships, the 
Sturgeon River Gorge Wilderness would be irreparably harmed and its 
wilderness character lost forever. Being entirely surrounded by USFS 
lands, acquisition of the Prickett Lake Property by the Ottawa NF will 
yield effective and consistent oversight and management of the larger 
holding and benefit the entire Sturgeon River watershed.
    An appropriation of $2.8 million from the Land and Water 
Conservation Fund in fiscal year 2010 is critical and necessary for the 
immediate protection of the 1,258-acre Prickett Lake property, ensuring 
the integrity of the wilderness experience and the protection of a 
truly superb and unique natural resource area.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony in support of this critical forest and lake protection 
project in Michigan.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras

    The League of American Orchestras urges the subcommittee to approve 
fiscal year 2010 funding for the National Endowment for the Arts (NEA) 
at a level of $200 million. Congressional support for the NEA has 
strengthened in recent years, evidenced by meaningful funding 
increases, particularly in fiscal year 2008 when Congress approved a 
$20.3 million restoration of NEA funds and in fiscal year 2009 when 
Congress approved a $10.3 million increase. Still, the NEA has yet to 
recover from a 40 percent budget cut in fiscal year 1996 and the 
current level of funding for the NEA is still well below the 1992 
appropriation of $176 million.
    Founded in 1942, the League of American Orchestras is the national 
service organization for symphony, chamber, youth, and collegiate 
orchestras. Orchestras exist in all 50 States, in virtually every 
community. We estimate that there are approximately 1,800 orchestras in 
the United States, with annual budgets ranging from less than $12,000 
to more than $83 million. Orchestras in this country are supported by a 
network of citizens that sustain the presence of music in their 
communities--instrumentalists, conductors, managers, board members, 
volunteers, staff members, and business partners.
    As a Nation we have long turned to the arts for their unique 
capacity to offer comfort in times of distress, to provide meaning 
amidst uncertainty, to spark unity during conflict, and to mark many of 
our most historically significant moments. America's orchestras give 
voice to the creativity of individuals, the composer, and the listener; 
and they serve their communities through education, partnerships, 
community engagement, and by bringing people together to share the 
experience of music. Direct funding from the NEA is just one element of 
Federal leadership that supports the presence of orchestras in 
communities nationwide. More than 40 years of support from the NEA has 
increased the capacity of orchestras to serve and strengthen 
communities across our country.
    A significant increase in funding will expand the NEA's ability to 
serve the American public through grants supporting and promoting the 
creation, preservation, and presentation of the arts in America through 
the NEA's core programs--Access to Artistic Excellence, Challenge 
America: Reaching Every Community, Learning in the Arts for Children 
and Youth, and Federal/State partnerships--and through important 
national initiatives.
    In fiscal year 2009, the NEA's Grants to Organizations included 119 
grants to orchestras and the communities they serve, supporting arts 
education for children and adults, preserving great classical works, 
fostering the creative endeavors of contemporary classical musicians, 
composers, and conductors, and expanding public access to performances.

        NEA FUNDING LEADS TO INCREASED PUBLIC ACCESS TO THE ARTS

    The NEA, together with the arts organizations that receive Federal 
support, is committed to improving public access to the arts. NEA 
grants reach every congressional district in the country. Grants 
awarded to orchestras through the Access to Artistic Excellence program 
support educational activities, concerts, festivals, professional 
development, and residencies in communities across the country. With 
Federal support, orchestras are extending the reach of their activities 
beyond their home cities, bringing music to communities in surrounding 
towns and regions. The Milwaukee Symphony Orchestra, Omaha Symphony, 
and West Virginia Symphony Orchestra, for example, each received Access 
to Artistic Excellence, Part Two grants to support statewide programs 
that will allow them to reach communities across Wisconsin, Nebraska, 
and West Virginia, respectively.
    In addition to the Access to Artistic Excellence program, the 
Challenge America: Reaching Every Community Fast-Track Review Grants 
offer support to small- and mid-sized organizations for projects that 
extend the reach of the arts to underserved populations. These 
communities do not frequently have the opportunity to experience the 
arts due to limitations of geography, ethnicity, economics, or 
disability. The Richmond Philharmonic is a Challenge America grant 
recipient, which received assistance to help run the ``Discover the 
Orchestra'' program, featuring cellist Andre Gaskins, which targets 
inner-city residents. Another Challenge America grant recipient 
utilizing NEA funds to broaden access to the arts is the Williamsport 
Symphony Orchestra, which produced a concert performance, master 
classes for college students, a pre-concert demonstration for middle 
school students, and a workshop for low-income families, all featuring 
percussionist Lisa Pegher.

 NEA-FUNDED ARTS PROGRAMS NURTURE DIVERSITY AND MULTICULTURAL AWARENESS

    Americans enjoy a rich and diverse cultural heritage in the arts, 
and NEA grants to orchestras allow for creative expression to overcome 
cultural divides in order to help improve our ability to understand and 
honor our history. The arts wonderfully showcase the diversity of our 
society and provide a vehicle to engage and connect with audiences 
across our country. Orchestras such as the Atlanta Symphony and Chicago 
Sinfonietta dedicated tributes to Dr. Martin Luther King, Jr. with the 
support of the NEA. The Atlanta Symphony Orchestra's 17th Annual ``A 
King Celebration'' honored the life and work of Dr. King; in 
collaboration with Morehouse College, the project includes 
performances, educational outreach activities, and a national radio 
broadcast. The Chicago Sinfonietta, meanwhile, offered a series of 
concerts and related educational activities in honor of Dr. King. Music 
programming was inspired by oceans, lakes, and rivers and one concert 
reached out to the rising generation of musicians by featuring young 
opera singers.
    Orchestra programming increasingly reflects the cultural diversity 
of cities large and small, such as the programs offered by the Los 
Angeles Philharmonic, the Louisiana Philharmonic, Philadelphia 
Classical Symphony, and Baltimore Symphony Orchestra in the 2009 fiscal 
year. The Los Angeles Philharmonic's California Festival explores the 
State of California as a national cultural nexus, for example. The 
festival features orchestral, jazz, and popular music concerts and also 
offered a symposium and multidisciplinary events. The Louisiana 
Philharmonic Orchestra's ``Purely Percussion'' program will showcase a 
wide variety of percussion instruments and include community activities 
honoring Euro-Afro-Latin-Caribbean drumming traditions of New Orleans. 
Meanwhile, the Philadelphia Classical Symphony's ``First 
Pennsylvanians'' project is based on the culture of the Lenni-Lenape 
Indians of Delaware. Composers Curt Cacioppo and Maurice Wright have 
been commissioned to compose new works and participate in an artist 
residency to include educational programming for school children in 
Philadelphia and surrounding counties. Lastly, the Baltimore Symphony 
Orchestra will use its NEA support toward producing the International 
Folk Arts Project, a series of concerts with related educational 
activities, featuring classical orchestral works influenced by folk and 
traditional music styles.

            NEA FUNDING ENCOURAGES NEW WORKS AND PROGRAMMING

    NEA grants to orchestras help support the creative capacity of 
America's musicians and composers. By identifying and supporting 
projects that connect the arts--and artists--to their broader 
communities, the NEA encourages creative collaboration and building 
artistic strength. Projects supported by the NEA must demonstrate 
artistic excellence and a strong capacity to reach new audiences. 
Orchestras such as the Los Angeles Chamber Orchestra, Oakland East Bay 
Symphony, and ProMusica Chamber Orchestra are examples of NEA-assisted 
orchestras that are in turn supporting new works or performances of 
works by living American composers. The Los Angeles Chamber Orchestra 
utilized its NEA grant for its 40th Anniversary New Music Initiative, 
which includes the commissioning and premiere of new works by three 
composers: Damian Montano, Lalo Schifrin, and Christopher Theofanidis. 
The Oakland East Bay Symphony, a regional orchestra dedicated to 
reaching individuals in the community who might otherwise never hear 
live symphonic music, received NEA funding to premiere works by 
American composers Nathaniel Stookey and Nolan Gasser, as well as works 
by Peteris Vasks, Giuseppe Verdi, and Jerome Kern. The ProMusica 
Chamber Orchestra presents the best of traditional chamber orchestra 
repertoire and promotes the understanding and appreciation of 
contemporary American music. To that end, the orchestra received an NEA 
grant to support the commission and performance of a new work by 
American composer and violinist Mark O'Connor. His concerto for chamber 
orchestra and piano trio will premiere with the renowned Ahn Trio at 
Southern Theatre in Columbus, Ohio.

    NEA GRANTS UNIQUELY SUPPORT CREATIVITY IN COMMUNITIES NATIONWIDE

    Audiences across the country are currently experiencing an NEA-
funded project that exhibits the hallmarks of the agency: reaching new 
audiences, attracting additional financial support, and providing 
access to the arts to communities nationwide. The ``Ford Made in 
America'' project is a collaborative commissioning, performance, and 
outreach project that involves smaller-budget orchestras, including at 
least one from each of the 50 States. On September 20 and 21, 2008 the 
Reno Chamber Orchestra premiered Pulitzer Prize-winning composer Joseph 
Schwantner's Chasing Light.; the Reno performance alone attracted 
approximately 1,000 concertgoers and National Public Radio reporter 
Jeff Lunden was on-hand for the concerts and prepared a feature that 
was broadcast on National Public Radio's news program ``All Things 
Considered.'' Over the course of the 2008-2009 and 2009-2010 seasons 
more than 50 other participating orchestras will perform Chasing 
Light., including the Nashua Symphony Orchestra, which received NEA 
support for a statewide tour and performances of Schwantner's work in 
the cities of Keene and Derry and in New Hampshire's North Country. 
Education and community engagement activities are developed 
specifically for this round of the Ford Made in America program, and 
these activities are designed to be aligned with national music 
education standards.
    Thank you for this opportunity to illustrate the value of NEA 
support for orchestras and communities across the Nation. The NEA's 
unique ability to provide a national forum to promote excellence, both 
through high standards for artistic products and the highest 
expectation of accessibility, remains one of the strongest arguments 
for a Federal role in support of the arts. We urge you to support 
creativity and access to the arts by approving $200 million in funding 
for the NEA.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians

    I am Carl Edwards, President of the Lac du Flambeau Band of Lake 
Superior Chippewa Indians, located in Wisconsin. Today, I am pleased to 
submit this testimony, which reflects the needs, concerns and issues of 
the tribal membership for the fiscal year 2010 budget. The tribe is 
optimistic that the Obama administration takes seriously the United 
States' unique and binding obligations to tribes and Indian people. 
While the details of the President's fiscal year 2010 budget are not 
known, we are pleased with the broad outlines that have been shared 
with us.
    In particular, we are very supportive of the $3.9 billion for the 
EPA's Clean Water and Safe Drinking Water Programs. This would provide 
Indian country with $59 million, which is almost double the amount 
received in fiscal year 2009. This funding is vital to improving the 
most basic of infrastructure in Indian country. Another area in the 
President's budget that the Band is excited about is the Great Lakes 
Initiative program. As the Committee knows, the Great Lakes represent 
three quarters of the world's supply of fresh water. But for us, the 
indigenous people of Wisconsin, the Great Lakes represent the life 
blood of our economies and our culture. The protection and preservation 
of the Great Lakes is necessary to the protection and preservation of 
the tribal communities that have made the Great Lakes their home since 
time immemorial. We would urge, however, that Congress ensure that 
tribes are fully engaged in this process and that we are full partners 
in this important initiative.
    Again, while the specifics of the President's budget are not known, 
we must make the Committee aware of some of our most pressing needs, 
which we fear will not be addressed in the President's proposal.

          INDIAN SELF-DETERMINATION ACT CONTRACT SUPPORT COSTS

    Inflation, Cost of Living, and Fixed Costs.--Under the Indian Self-
Determination Act, many tribes have assumed responsibility for 
providing core services to their members. If these services were 
provided by the Federal Government, employees would receive pay cost 
increases mandated by Federal law, but Congress and Interior have 
failed to fulfill their obligation to ensure that tribes have the same 
resources to carry out these functions. For example, tribes received 
only 75 percent of the pay cost adjustment in fiscal year 2002, 15 
percent in fiscal year 2003 and 30 percent in fiscal year 2004. To make 
matters worse, the BIA and IHS have steadfastly refused to provide 
tribal contractors with full contract support costs, ensuring that when 
tribes take over these programs, they will be placed in an untenable 
position. This inequity is undermining tribal self-determination. In 
fiscal year 2008 (the most recent year for which the IHS has data) the 
IHS estimates that the contract support cost shortfall was $128 
million. In fiscal year 2007, the BIA shortfall was $52 million.
    The subcommittee also has to understand the impact of the 
increasing cost of health insurance on our ability to provide services 
to our tribal members. In order for us to maintain a $10/hour employee 
(approximately $20,000 a year), the tribe faces an associated 
healthcare benefit cost of $20,350 for a family health insurance plan. 
When the tribe is forced to supplement underfunded BIA and IHS programs 
in order to cover these costs, direct services to our members suffer. 
We have less money available to provide counseling to students, collect 
water samples, put more officers in the field, provide basic health 
service, etc. Without substantial increases in this basic contract 
support cost funding, the tribe will continue to decrease services to 
our tribal membership because we cannot afford to absorb these costs. 
We may be forced to eliminate the health insurance benefit, which will 
seriously impact our ability to recruit and maintain our labor force.
    Our highest priority is to keep existing programs from failing. We 
ask that the subcommittee provide cost of living increases and fully 
fund contract support costs.

                        BUREAU OF INDIAN AFFAIRS

    Natural Resources and Conservation Officers.--Tribes are leaders in 
natural resource protection and BIA natural resource funding is 
essential to maintain our programs. Lac du Flambeau has a comprehensive 
Natural Resources Department and dedicated staff with considerable 
expertise in natural resource and land management. Our activities 
include raising fish for stocking, conservation law enforcement, 
collecting data on water and air quality, developing well head 
protection plans, conducting wildlife surveys and administering timber 
stand improvement projects on our 86,000-acre reservation. 
Unfortunately, natural resource programs have been cut or flat-funded 
for many years now, and tribes have been forced to lay off staff and 
shut down programs, leaving critical resources in jeopardy.
    One of the critical elements of our Natural Resource program is our 
Conservation Law Enforcement Officers. These officers are primarily 
responsible for enforcing hunting and fishing regulations related to 
the exercise of treaty rights, but they also have a much larger role in 
law enforcement. They are often the first to respond to emergency 
situations, and are the first line of defense for any meth labs found 
on or near the reservation. Our Conservation Officers are now 100 
percent dependent on tribal funds. This costs the tribe $343,000 
annually, in addition to the $893,000 the tribe pays for its 
nonconservation law enforcement programs. The BIA does not provide any 
resources for this activity, which is critical to maintaining and 
protecting our treaty rights. Thus, we appreciate the increase provided 
for law enforcement in fiscal year 2009 and the anticipated requested 
increase in fiscal year 2010, but we ask that the subcommittee direct a 
portion of any increases in law enforcement funding to conservation 
officers, so that more communities can enjoy the benefit of this 
funding.
    Forestry.--The Band requests that the subcommittee increase funding 
for the BIA Forestry Department. The reservation contains 46,000 acres 
of forested land that supports hunting, gathering and employment 
opportunities for tribal members. Proper management of the forest is 
essential not only to sustain our subsistence lifestyle, but also to 
provide economic growth for the Band. Two foresters and one technician 
undertake a broad range of management activities, including tree 
planting, prescribed burning, forest road design and maintenance, and 
timber sale establishment and administration. The total cost of 
operating the forestry program is approximately $217,000. In the last 
several years the level of funding from the BIA has been less than half 
of this. Significantly, the program has not received a substantial 
funding increase since 1991. The additional funding is necessary to 
maintain forest development, timber sale management and wildfire 
control activities. Proper forest management is even more important now 
to maintain and develop this vital component of our tribal economies.
    Wetlands Waterfowl/Circle of Flight Funding.--We urge Congress to 
restore $600,000 to continue funding for the BIA Wetlands Waterfowl 
Program (Circle of Flight). Circle of Flight provides critical 
resources necessary to restore and preserve wetlands and waterfowl 
populations, which are vital to the culture and economy of the Great 
Lakes region.
    Great Lakes Indian Fish and Wildlife Commission.--Related to the 
tribe's natural resource needs, we would like to voice our continuing 
support for the Great Lakes Indian Fish and Wildlife Commission. The 
tribe is a member of the Commission, which assists the tribe in 
protecting and implementing its treaty-guaranteed hunting, fishing, and 
gathering rights.

                              IHS PROGRAMS

    Contract Health.--A perennial need remains in contract healthcare 
funding. Federal funding for health services has fallen dramatically 
behind the rising cost of healthcare over the past 5 years. We 
anticipate the fiscal year 2009 shortfall to be in excess of $3 
million. A much more substantial increase is needed to address the need 
across Indian county. We urge the subcommittee to significantly 
increase funding for contract health services, and not to limit this 
increase to emergency CHEF funding, which can be difficult for tribes 
to access.
    Medical Technology and Telemedicine Initiative.--We are encouraged 
by Congress's commitment to fund medical technology and telemedicine 
improvements in the IHS. However, we are concerned that the resources 
will not reach tribes, who provide more than 84 percent of the 
healthcare in Indian country. We would urge the Committee to direct IHS 
to make a proportional share of this funding available to tribal 
healthcare providers. Unless this happens, we fear that the resources 
will be consumed by IHS either at headquarters or only at direct 
service locations and tribal providers will not benefit from this 
initiative.

                     NATIONAL PARK SERVICE PROGRAMS

    Historic Preservation.--In 1995, Congress began encouraging tribes 
to assume historic preservation responsibilities as part of self-
determination. There are currently 76 tribes in the United States--8 in 
Wisconsin--approved by the Secretary to administer historic 
preservation programs. These programs conserve fragile places, objects, 
and traditions crucial to tribal culture, history, and sovereignty. As 
was envisioned by Congress, more tribes qualify for funding every year. 
In fiscal year 2001, there were 27 Tribal Historic Preservation 
Officers (THPOs) with an average award of $154,000; now there are 76 
THPOs, and Lac du Flambeau only receives approximately $50,374. 
Paradoxically, the more successful the program becomes overall, the 
less each tribe receives to maintain professional services, ultimately 
crippling the programs. We ask that $13 million be provided for THPOs, 
which would provide a modest base funding amount of $170,000 per THPO 
program.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council

    Good morning to the distinguished subcommittee members, thank you 
for this opportunity, I am honored to represent before you the 
appropriations requests of the Lummi Nation for the fiscal year 2010 
Department of the Interior (DOI) in the Bureau of Indian Affairs (BIA), 
U.S. Fish and Wildlife Service (FWS), and the Indian Health Service 
(IHS).

                   THE LUMMI NATION SPECIFIC REQUESTS

BIA/FWS
    +$7.2 million.--Fisherman disaster assistance funding; +$11.64 
million.--Salmon/shellfish hatchery (skookum, Lummi Bay, sea ponds); 
+$300,000.--Administrative streamlining project (education); 
+$500,000.--Tribal community safety center; and +$7 million.--Slater 
elevated road project.
IHS
    +$2.3 million.--Lummi Nation dental facility/staffing/equipment; 
and +Contract Health Costs.--Request for weighted contract health funds 
allocation formula.

                 NATIONAL REQUESTS AND RECOMMENDATIONS

BIA
    Increase Johnson O'Malley funds ($21.4 million) and Housing 
Improvement Funds ($13.6 million) to tribal base programs; Provide $50 
million general increase to BIA Tribal Priority Allocation (TPA) for 
inflationary and fixed costs; increase law enforcement program by 10 
percent for Indian programs in BIA's budget for law enforcement program 
and activities; and $25 million for tribal courts program; and provide 
$45 million increase for BIA Contract Support Cost (CSC), including 
direct CSC.
    $500,000 for BIA data management funding of Office of Program Data 
Quality.
IHS
    Provide $486 million for IHS mandatory, inflation, and population 
growth increase to maintain existing healthcare services (President's 
budget proposes a cut of $21.3 million); $152 million increase for 
Contract Health Services (CHS); and a $160 million increase for IHS to 
fully fund CSC, including direct CSC (recent increases have been 
dedicated for new and expended Public Law 93-638 programs).
    Regional Requests and Recommendations.--Support all requests and 
recommendations of affiliated tribes of Northwest Indians Northwest 
Portland Area Indian Health Board and Northwest Indian Fisheries 
Commission and Pacific Salmon Commission.

                  LUMMI NATION--BACKGROUND INFORMATION

    The Lummi Nation, is located on the northern coast of Washington 
State, and is the third largest tribe in Washington State serving a 
population of more than 5,200. The Lummi Nation is a fishing nation. We 
have drawn our physical and spiritual sustenance from the marine 
tidelands and waters for hundreds of thousands of years. Now the 
abundance of wild salmon is gone. The remaining salmon stocks do not 
support commercial fisheries. Our fishers are trying to survive from 
shellfish products. In 1999, we had 700 licensed fishers who supported 
nearly 3,000 tribal members. Today, we have about 523 remaining. This 
means that more than 200 small businesses in our community have gone 
bankrupt in the past 9 years. This is the inescapable reality of the 
Lummi Nation fishers face without salmon. We were the last hunter/
gatherer society surviving within the co
    Our people have diseases that were unknown to us at the beginning 
of the 20th century. Our people are seeking a return to health and to 
practice our traditional healthy lifestyles. Our families are 
struggling to hold traditional values against the onslaught of poverty, 
drug abuse, and mental and physical illness. Domestic violence among 
our people is three times the rate experienced by our non-Indian 
neighbors. Our children and elders go without the food clothing, 
shelter, and community support that is due to them.
    Our people have problems and needs but we also have solutions. 
Today I am presenting a coordinated set of proposals to address the 
prolonged economic and cultural disaster impacting our people through 
the loss of our sockeye salmon; starting more than 10 years ago, in 
1999.

                  FISHERMAN DISASTER ASSISTANCE NEEDS

    In 2008, the Department of Commerce reissued the disaster 
declaration (see also--Congressional Research Services--CRS Report to 
Congress, Commercial Fishery Disaster Assistance, (RL-34209) May 2, 
2008)), and we now seek ways to turn this scenario around to have a 
more positive outcome.
    Our strategy is to consolidate our native and scientific knowledge 
of fish biology, behavior, and management into the Northwest Indian 
Marine Education and Research Center for Excellence. Collecting our 
professionals and traditional practitioners and field workers into a 
team to plan, design, finance, construct, and operate hatcheries. The 
same group would instruct and train hatchery workers needed by theses 
facilities, through Northwest Indian College. Hatcheries are the only 
way to ensure salmon populations large enough to support our families 
and our way of life.
    Our goal is to increase fish returns by improving hatchery 
production. This creates a reliable backup resource to salmon fishers 
by increasing other salmon stocks. Additionally, we seek to raise the 
value of these harvests through advanced marketing, the introduction of 
a fishermen's co-operative, and grow out operations for shellfish 
products.

                  LUMMI NATION SPECIFIC REQUESTS--BIA

    +$7,200,000.--Fisherman Disaster Assistance Funding (Eight 
Northwest Tribes).--$7,200,000 to BIA--Welfare Assistance Program (WAP) 
to support the West Coast fisherman disaster declaration. Lummi Nation 
is requesting funding to support emergency relief services for our 
fishers. This assistance is needed to help fishers make the transition 
from sockeye salmon to other salmon species and other commercial 
fishery resources. Lummi Nation is requesting the subcommittee provide 
the BIA WAP an additional $7.2 million to address the Lummi Nation 
fishers and west coast fisherman impacted by economic fisheries 
disaster.
    +$11,650,000.--Salmon/shellfish Hatchery (Skookum, Lummi Bay, Sea 
Ponds).--To DOI, FWS hatchery operations program. The Lummi Nation 
currently operates three salmon hatcheries and one shellfish hatchery 
that support tribal and other fisheries in the region. The tribal 
hatchery facilities were originally constructed in the early 1970s. 
Predictably some of the original infrastructure needs to be repaired or 
replaced as it approaches the end of its useful life. Other 
infrastructure needs to be developed or modified to ensure compliance 
with the Clean Water Act and/or the Endangered Species Act. Lummi 
Nation fish biologists estimate that these facilities are now operating 
at 40 percent of their productive capacity.

              +$2,200,000--LUMMI SKOOKUM HATCHERY--SALMON

    $720,000--Hatchery Intake.--South Fork Nooksack Chinook recovery 
program; replace intake system that has high operations and maintenance 
and often fails.
    $625,000--Large Pond Improvement.--Increase annual production 
capacity.
    $855,000--New Raceways.--Replace originally constructed 
infrastructure that is deteriorating and falling apart.

                    +$5,370,000--LUMMI BAY HATCHERY

    $5,370,000--Nooksack River Pump Station.--This will increase the 
production capacity of Lummi Bay hatchery by improving water pumping 
capacity and resource.
    +$570,000--Lummi Shellfish Hatchery.--Multiple operation and 
maintenance issues for increasing production capacity in areas of feed, 
building insulation, heating and cooling systems, increase grow out 
tank space, results in increased seed production.
    +$3,510,000--Lummi Pond Tide Gates Improvements.--This project 
rehabilitates current shellfish hatchery to optimize production 
capabilities. Increased shellfish seed production increases enhancement 
activities on Lummi tidelands to create jobs for tribal shellfish 
harvesters and increase sales to the west coast shellfish industry to 
create jobs for growers and businesses.
    +$300,000. Education--Lummi Nation Education Future Project.--For 
the Bureau's School Operation Program fund. The Lummi Nation is no 
longer willing to bear the combined burden of five different 
administrative oversight structures of its education programs, 
services, functions and activities. This oversight burden includes the 
Bureau Office of Indian Education Programs, the Department of 
Education, and the State of Washington Office of the Superintendent of 
Public Instruction, the Ferndale School District, and the Lummi Nation 
administrative oversight structures. The weight of this combined 
oversight literally crowds out the only legitimate concern for school 
operations and maintenance, student learning successes. To address the 
need to streamline the administrative process, while still providing 
appropriate oversight, the Lummi Nation is reque
    +$500,000.--Northwest Tribal Detention Facility Project.--Through 
the BIA Detention Center Maintenance and Construction Program. The 
Lummi Nation has been able to organize eight federally recognized 
tribal governments to support the development and operation of a 
Community Public Safety Center, which would serve as a regional 
alternative jail. The facility would feature a variety of incarceration 
services from the least restrictive forms of community-based services 
through limited maximum-security incarceration services.

                PLANNING/TRANSPORTATION--BRIDGE PROJECT

    +$7 million--Slater Elevated Road Project Funding Increase.--(Joint 
Inter-local Agreement) through the Bureaus Indian Reservation Roads 
Program
    Project Description.--The Lummi Nation is partnering with the 
Federal Emergency Management Agency and Whatcom County to elevate the 
eastern approach to the Slater Road Bridge over the Nooksack River. 
This section of Slater Road is frequently flooded by Silver Creek, 
which runs parallel to the Nooksack River. The project is an extension 
of the Slater Road Bridge over Sliver Creek, which is a salmon spawning 
stream.
    Need for the Project.--When this section of Slater Road is flooded, 
access to the Lummi Reservation, Lummi Island, the Cherry Point heavy 
impact industrial zone, and the City of Ferndale are severely limited. 
Most years these limitations last for days at a time. The impact 
threatens public health and safety and has substantial negative 
economic impacts for the retail, commercial, and manufacturing 
businesses in the area.
    Project Funding.--The FEMA provided a $3 million grant for the 
project through the Pre-Disaster Mitigation Program (the maximum grant 
allowable) and Whatcom County has committed $3.66 million to the 
project based on initial project cost estimates. The design for the 
project is completed but, due to increase material costs, the 
engineer's cost estimate based on the 100 percent design is 
approximately $7 million greater than the available budget. Value 
engineering efforts did not substantially lower the costs and would 
have a greater environmental impact.

                  LUMMI NATION SPECIFIC REQUESTS--IHS

Request for Contract Health Funds Allocation Formula Methodology
    The Lummi Nation is requesting that the subcommittee direct the IHS 
to develop an allocation plan for contract healthcare funds that 
recognizes that tribes who are not served by an IHS hospital incur 
greater contract health costs than those tribes who are provided 
services by such a facility.
    +$2,300,000--Lummi Nation Dental Facility/Staffing/Equipment 
Increase.--Through the IHS small ambulatory expansion of health clinics 
program.
    LIBC received partial funding for this construction project and is 
requesting full project funding and the inclusion of staffing and 
equipment costs.
    +$1,100,000--Facility.--This funding is needed to all the Lummi 
Nation to return to its original plan approved by the IHS and the Lummi 
Nation. Lummi Nation funding the was allocated for this project is no 
longer available due to the current national.
    +$1,200,000.--Lummi Nation needs additional equipment (eight dental 
chairs at $100,000 each) and staffing to support operations. (four 
dentists at the rate of $100,000 annually each).
                                 ______
                                 
     Prepared Statement of the Leech Lake Area Watershed Foundation

    Madam Chairman and honorable members of the subcommittee: I want to 
thank you for this opportunity to present testimony in support of the 
acquisition of two properties in the national forests of Minnesota. An 
appropriation of $3.1 million from the Land and Water Conservation Fund 
(LWCF) is needed for the Forest Service (USFS) to acquire the 60-acre 
Wolf Island tract in the Superior National Forest and the 36-acre Stony 
Point property in the Chippewa National Forest.
    I also respectfully request a substantial increase in overall 
funding for the LWCF, specifically urging the subcommittee to provide 
$325 million for the Federal LWCF in the fiscal year 2010 Interior, 
Environment, and Related Agencies appropriations bill. I applaud the 
LWCF funding increases provided by this subcommittee in fiscal year 
2009, including $1 million provided for the Superior National Forest 
(SNF) in fiscal year 2009. And, we are most thankful that the Obama 
administration budget recognizes the importance of these programs by 
proposing significant increases for fiscal year 2010 and setting a goal 
to achieve full funding of the LWCF in the next 5 years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. Public lands provide innumerable social and 
economic benefits including a healthy lifestyle, protection of 
watersheds and drinking water supplies, wildfire reduction and 
prevention, and assistance to wildlife and fisheries as they adapt to 
climate change. We urge you to renew this wise investment in America's 
natural heritage and take steps to toward full and consistent funding 
of these vital programs.
    The Minnesota wilderness land acquisition program includes the 
Superior and Chippewa national forests in Minnesota. Located in the 
northeasternmost tip of Minnesota, the SNF spans 150 miles along the 
United States-Canadian border and is one of the wettest, wildest 
forests in the entire National Forest System. The deep pine woods of 
the Superior play host to a landscape of lakes, bogs, and rocky 
outcrops that are remnants of the glacial period and create the only 
thriving boreal or northern forest in the continental United States. 
More than 10 percent of the forest consists of surface water, and 
another 1,300 miles of cold-water streams and 950 miles of warm-water 
streams flow within the forest's boundaries.
    Visitors to the SNF are attracted by its abundance of outdoor 
recreational opportunities. For wilderness devotees, there are few 
areas in the United States that can rival the solitude and timelessness 
of the Boundary Waters Canoe Area Wilderness (BWCAW), a maze of lakes, 
rivers, and rocks at the northern edge of the SNF, offering 12,000 
miles of canoe trails. Here and elsewhere in the forest, outdoor 
enthusiasts can enjoy camping, biking, canoeing, fishing, hiking, 
cross-country skiing, snowmobiling, and dog sledding. The deep foliage 
and plentiful water also attract a wide variety of wildlife, including 
bald eagle, common loon, moose, timber wolf, black bear, lynx, and 
migratory birds. The BWCAW draws more than 200,000 campers and 
canoeists annually, following in the wake of Native Americans and the 
voyageurs, those French-Canadian fur traders who canoed these waters 
200 years ago.
    The Chippewa National Forest is located in the heart of northern 
Minnesota and within the Leech Lake watershed in the Upper Mississippi 
River Basin. Within the forest, elements of these two ecosystems are 
found side by side: red oak next to white pine, wild ginger alongside 
wild rice, and Canada lynx habitat abutting sandhill crane territory. 
The Chippewa NF shares borders with the Leech Lake Band of Ojibwe. More 
than 400,000 acres of the Chippewa NF are actually lakes and wetlands. 
The Chippewa contains two of Minnesota's five largest lakes, and eight 
different types of wetlands each with distinct plant and animal life. 
Sixty-seven of the 314 wildlife species that make their home on the 
Chippewa NF are dependent on lakes and wetlands. More that 230 species 
use wetlands and only 20 percent of Minnesota's original wetland remain 
today. The first national forest west of the Mississippi River, the 
Chippewa NF is one of the few areas with wetlands essentially unchanged 
since settlement. This area is unique in that it contains some 40 wild 
rice-producing lakes.
    Through USFS's Minnesota wilderness acquisition program, two 
properties are available for acquisition in fiscal year 2010 in the 
Superior and Chippewa NFs.

                              WOLF ISLAND

    The 60-acre Wolf Island property in the SNF is located in Lake 
Vermilion and is a high priority for protection this year by USFS. 
Twenty-four miles long, Lake Vermilion is one of Minnesota's largest 
vacation destination lakes. It is home to healthy population of 
walleye, northern pike, muskie, bass, and bluegill populations, and was 
once named by National Geographic as one of the Nation's 10 most scenic 
lakes. Wolf Island's location affords scenic and beautiful views of the 
beloved lake as well as the national forest. Its 60 acres are mostly 
high, rolling land that is densely forested with mature aspen, pine, 
and maple. Its rich history is well documented by John Jaeger, a 
prominent Minneapolis architect, who homesteaded the island after first 
visiting in 1906. Jaeger's drawings identified cultural resources, 
including burial mounds and a canoe-building workshop plaza.
    Wolf Island is at risk of being lost to development. In order to 
ensure the protection of the island and access to quality resources in 
areas of second-home development pressure, The Trust for Public Land 
stepped in at the request of USFS to secure the island in March 2007. 
The acquisition of the island by SNF will bring into public ownership 
an outstanding scenic resource and access for paddlers, boaters, and 
other recreational users who follow in the footprints of both Native 
Americans and voyageurs of years gone by.

                              STONY POINT

    The 36-acre Stony Point property is located on Leech Lake in the 
Chippewa NF. Home to thousands of acres of waterfowl and other 
wildlife, Leech Lake has one of the largest nesting populations of bald 
eagles in the lower 48 States--almost 200 pairs. The Stony Point bald 
eagle nesting site contains one-half mile of Leech Lake frontage. The 
pristine parcel is completely surrounded by national forest ownership. 
Acquisition by the Chippewa NF would eliminate the need for road access 
that would otherwise lose more than one-half mile of undisturbed 
wetlands. It is currently owned by a developer who intends to develop 
the property into several homesites. This property is a prominent point 
on the shores of Leech Lake.
    Public acquisition of the Stony Point and Wolf Island properties 
will ensure that the attributes of the northwoods region so treasured 
by its many visitors--the solitary sound of the common loon, the 
serenity of an evening paddle, the call of the wild--will be protected 
in perpetuity. An appropriation of $3.1 million from the LWCF in fiscal 
year 2010 will secure the public acquisition of Wolf Island and the 
Stony Point properties to maintain key access for thousands of visitors 
each month to the waterways of the BWCAW and to protect critical 
natural resources for the public.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony in support of these critical forest and lake protection 
projects in Minnesota. Our organization, the Leech Lake Watershed 
Foundation works closely with USFS, State and local government, and 
other nonprofit partners to insure the protection of vital natural 
resources within the 855,000-area Leech Lake watershed. Acquisition of 
key parcels, such as Stony Point and Wolf Island, are a critical tool 
to insure that future generations can continue to enjoy these valued 
resources.
                                 ______
                                 
     Prepared Statement of the Little River Band of Ottawa Indians

    My name is Larry Romanelli. I am the elected Ogema of the Little 
River Band of Ottawa Indians. On September 21, 1994, Public Law 103-324 
(108 Stat 2156) was enacted, reaffirming our Federal recognition. When 
we were recognized our citizen rolls were approximately 500 persons. 
Since reaffirmation, our rolls have grown to more than 4,000 persons.
    Our tribe administers a clinic that includes a family physician, a 
registered nurse, and a laboratory. We also have community health 
resource staffs, nurses, and diabetic specialists who make home visits 
across a nine-county area. We provide out-patient substance abuse 
treatment services, as well as prevention initiatives, along with 
additional mental health services. And, for care that goes beyond our 
provider capacity, we administer an elaborate contract healthcare 
program under which we collaborate with local private providers. In 
these programs alone, we employ 38 people from several disciplines. In 
addition, we also maintain an environmental health program and a range 
of other services.
    Recently our tribe proudly signed a new agreement with the Indian 
Health Service (IHS) under title V of the Indian Self-Determination 
Act. This new agreement moves us further along in our quest for greater 
self-determination and self-governance, by acknowledging our 
significantly enhanced independence in the manner in which our tribe 
provides healthcare for our people.
    IHS has not honored its bargain with us. Specifically, it has 
failed to pay us the contract support costs that IHS, itself, 
calculates that we have been owed.
    In its 2007 shortfall report, the IHS admits that it underpaid us 
by nearly $70,000, an amount that has only increased in the 2 years 
since.
    For us, $70,000 is a whole nursing position, or an additional 
substance abuse counselor in our understaffed behavioral health 
department. Or, it could be used to buy a year's worth of vaccine and 
medical supplies necessary to operate our clinic.
    IHS provides only $1.4 million for our program services. Delivering 
the services we currently offer (exclusive of environmental health) 
actually cost the tribe more than $4.2 million in 2007. I cannot think 
of a single contractor we work with that would provide service to us 
for one-third of the actual costs to do the work. The commitment of the 
United States to provide healthcare for American Indians is not being 
met.
    But there is yet more. The Bureau of Indian Affairs (BIA) shortfall 
report for 2007 shows that the BIA failed to pay $220,000 in contract 
support costs. Our total BIA contract is only $2.3 million, supporting 
several Tribal functions including public safety, family services, 
education, governance, and natural resources. $220,000 would enable us 
to expand education and training programs to prepare our students for 
the types of jobs that are currently in demand and will be on the 
cutting edge of the Nation's future. We could expand our economic 
development through diversification of enterprise ventures that could 
meet the needs of the current economic recovery. In short, $220,000 
would provide the people of my Nation economic stability and employment 
security in a populace that critically needs help to attain the 
standard of living most of America enjoys.
    These are some of the reasons why I asked to be permitted to 
testify today.
    We understand that economic times are tough for everyone. We, 
ourselves, have just cut back our employee hours from a 40-hour week to 
a 32-hour week. We all have to pull together.
    So, I come here today to ask that Congress direct the IHS and the 
BIA to finally honor their contracts with our tribe, and their 
contracts with all other tribes, by fully paying the contract support 
costs to which we are entitled, and by adding the necessary 
appropriations to finally get these sums paid.
    Second, I am also here today to ask that Congress address the 
severe funding disparities that continue to leave tribes in our IHS 
Bemidji Area severely underfunded relative to other areas.
  --The Bemidji Area has the lowest life expectancy of all IHS areas. 
        The Bemidji Area life expectancy (male and female combined) is 
        65.3 years of age; all IHS is 70.6; all United States is 76.5.
  --The Bemidji Area leads all IHS Areas in the cancer rates at 225/
        100,000; all IHS is 124/100,000; and all United States is 
        125.6/100,000.
  --The Bemidji Area leads Indian country in nearly every significant 
        statistic except the level of funding to address our issues; 
        there, we receive 37 percent Level of Need Formula (LNF).
    It is time to create a fund to address the severe disparity that 
exists between the IHS areas. Such a fund would restore equity among 
the tribes.
    Perhaps it is also time to evaluate the level of per capita 
expenditures for Contract Health Services Area to area, and dedicate 
more funding to raise the LNF of those Areas less likely to have access 
to large, directly served IHS facilities that provide direct healthcare 
services.
    A study conducted by the California Rural Indian Health Board, 
published in ``Medical Science'' (a peer review journal), found that 
``for every 10 points improvement in IHS funding, there was a 12 
percent decrease in ambulatory care preventable hospitalizations.''
    Thank you for the opportunity to testify today on these critical 
issues.
                                 ______
                                 
    Prepared Statement of the Marine Conservation Biology Institute,

    The Marine Conservation Biology Institute (MBCI) based in Bellevue, 
Washington, is a national, nonprofit environmental organization whose 
mission is to advance the science of marine conservation biology and 
secure protection for ocean ecosystems. We support national wildlife 
refuge programs that focus on protecting and restoring marine 
ecosystems, habitats, and species. I wish to thank the members of the 
Subcommittee on the Interior, Environment, and Related Agencies for the 
opportunity to submit written testimony on the fiscal year 2010 budget 
regarding the newly established marine monuments within the Fish and 
Wildlife Service's (FWS) National Wildlife Refuge System (NWRS). MCBI 
recommends a funding level of $16,869,000 to support the new marine 
monuments.
    In January 2009, President Obama established three marine national 
monuments in the Pacific Ocean. The new monuments include eight 
distinct coral islands areas and their surrounding waters, the Mariana 
Trench and 21 isolated undersea volcanoes. Many of the islands 
protected already were part of the NWRS, however declaration of the 
monument increased the size of these refuges by adding surrounding 
ocean waters. The three new areas have been named Marianas Marine 
National Monument, Pacific Remote Islands National Monument, and Rose 
Atoll National Monument. In total, approximately 192,000 square miles 
was protected, an area larger than California.

            PACIFIC REMOTE ISLANDS MARINE NATIONAL MONUMENT

    These areas are some of the last remaining, relatively intact coral 
reef and pelagic ecosystems in the Pacific. Any one of these islands 
contains nearly four times as many shallow water, reef-building coral 
species as the entire Florida Keys. The monument includes habitat for 
an estimated 14 million seabirds. The islands also provide habitat for 
many rare, threatened or endangered species such as leatherback, 
loggerhead, and green sea turtles, humphead wrasse, bumphead 
parrotfish, and the globally depleted giant clam. An estimated 200 
seamounts, most of which have yet to be identified or explored, are 
predicted to exist in the pelagic zone within 200 nm of this monument.
    The terrestrial areas, reefs and surrounding waters out to 12 
nautical miles (nm) of Howland, Baker, Jarvis Islands, Palmyra Atoll, 
and Kingman Reef are part of the U.S. Fish and Wildlife Service 
National Wildlife Refuge System. The land areas at Johnston and Wake 
Atolls remain under the Department of Defense's authority, but the 
waters out to 12 nautical miles are considered units of the NWRS.

                  ROSE ATOLL MARINE NATIONAL MONUMENT

    Rose Atoll, the smallest atoll in the world, is the easternmost 
Samoan island and the southernmost point of the United States. Rose 
Atoll is home to a very diverse assemblage of terrestrial and marine 
species, many of which are threatened or endangered. Rose Atoll 
supports 97 percent of the seabird population of American Samoa, 
including 12 federally protected migratory seabirds and 5 species of 
federally protected shorebirds. Rose Atoll is the largest nesting 
ground in the Samoan Islands for threatened green sea turtles, and is 
an important nesting ground for the endangered hawksbill turtle. Rose 
also provides sanctuary for the giant clam, which is severely depleted 
throughout the Pacific. Management responsibility was assigned to the 
Secretary of the Interior, in consultation with the Secretary of 
Commerce.

                MARIANAS TRENCH MARINE NATIONAL MONUMENT

    The Marianas Trench Marine National Monument consists of three 
units which include the Volcanic Unit, the submerged lands within 1 nm 
of 21 volcanic sites; the Islands Unit, the submerged lands and waters 
of the three northernmost Mariana Islands; and the Trench Unit, the 
submerged lands extending from the northern limit of the Exclusive 
Economic Zone of the United States in the Commonwealth of the Northern 
Mariana Islands to the southern limit of the Exclusive Economic Zone of 
the United States in Guam.
    The establishment of this monument protects areas of biological, 
historical, and scientific significance. The volcanic sites support 
unusual life forms in boiling and highly acidic water conditions. The 
island unit is home to highly diverse and unique coral reef systems 
with more than 300 species of stony coral species, which is a greater 
diversity than any other United States reef. The island unit also has 
an astonishingly high population of apex predators. The Mariana Trench 
itself is the deepest ocean area on Earth, deeper than the height of 
Mount Everest.
    The management responsibility for the Marianas Trench Marine 
National Monument is assigned to the Secretary of the Interior, in 
consultation with the Secretary of Commerce. The Mariana Trench and 
Volcanic Units have been placed within the Fish and Wildlife Service 
National Marine Refuge System.

           MARINE NATIONAL MONUMENT MANAGEMENT IMPLEMENTATION

    It is imperative that the Secretary of the Interior establish 
appropriate management measures to adequately protect the land, 
surrounding water and seafloor of these critical and pristine marine 
monuments. In particular, the FWS must have adequate funds to develop 
management plans for each monument with proper management personnel 
with the intent to effectively protect these areas by conserving these 
pristine habitats, developing plans to restore damaged reefs and lands, 
and consult with NOAA to provide proper surveillance and enforcement 
actions.
    Restoration action is desirable at most of the islands, including 
restoring natural water flows, removing discarded equipment and 
structures, and dealing with waste disposal sites. In addition, human 
exploration and occupation brought many invasive species to the 
islands, including various plants, insects, and cats, which should be 
removed. Such removals of invasive species have promoted the healthy 
increase of bird populations and the restoration of nearly extirpated 
species, like black-footed and Laysan albatrosses.
    Additionally, two sunken fishing vessels are causing habitat damage 
in the Pacific Remote Islands Marine National Monument. In 1991, a 121-
foot Taiwanese fishing boat sank on Palmyra Atoll, and an abandoned 85-
foot fishing vessel was discovered on Kingman Reef in August 2007. The 
two islands are some the world's last relatively pristine reefs. The 
Palmyra wreck sits directly on the reef and continues to damage the 
ecosystem by accelerating the rapid growth of an invasive corallimorph 
that smothers the reef ecosystem. Since abandonment, there have been 
recorded sightings of continued fuel leakage. Nutrient increases from 
this fuel and corroding metal from the ship is causing devastation to 
the nearby reef. In response to this increase in nutrients, the 
corallimorph Rhodactis howesii has experienced explosive growth, 
quickly outcompeting other organisms (including corals) and covering 
and smothering the substrate surrounding the vessel. After the covered 
coral dies, the infested area is difficult to recolonize by corals. 
According to the report by Thierry Work (USGS) and Greta Abey 
(University of Hawaii), greater than 100 million corallimorph 
individuals cover greater than 1 square kilometer (247 acres) of the 
bottom. The corallimorphs radiate from the ship wreck and were not 
observed in other parts of the reef, indicating a direct correlation 
between the corallimorph and the wrecked vessel. To avoid further 
damage to the reef, the ship needs to be removed by the Federal 
Government immediately.
    The Kingman Reef wreck also is showing early signs of the invasive 
corallimorph, and an elevated growth of blue-green algae, which in time 
can cause algal blooms that block sunlight to the reef below. The 
ship's grounding caused initial gouging of the surrounding reefs and 
has since continued to cause physical and ecological damage in the form 
of wave disturbance and cyanobacteria outbreaks. Cyanobacteria, more 
commonly called blue-green algae, become very abundant when stimulated 
by increases in limiting nutrients, such as iron from corroding steel 
and hydrocarbons found in fuel, both of which are supplied by the 
grounded vessel at Kingman. Cyanobacteria are present on nearly 10 
percent of the metal debris (metallic engine parts, piping, cookware, 
etc.) within 200 meters of the ship. As the ship continues to break 
apart, more steel will be scattered over the reef crest encouraging 
expanded cyanobacteria growth. If this growth continues unabated, it is 
expected to spread toward the north facing shoreline where fragile 
coral gardens are located. The growth of cyanobacteria will block 
needed sunlight to the reef below, as well as smother the coral. There 
is also concern about accelerated growth of the corallimorph Rhodactis 
howesii, which is also present within 200 meters of the shipwreck. The 
corallimorph has caused significant damage at Palmyra Atoll, where its 
growth was stimulated by another wrecked vessel. Rapid growth of 
Rhodactis howesii can quickly outcompete other organisms and kill 
corals.

                          APPROPRIATION NEEDS

    Papahanaumokuakea National Marine Monument, established in 2006, 
received approximately $8 million its first fiscal year. These monies 
went to cover basic start-up needs, such as administration and 
management of the new monument and preparation of management plans. The 
three new national marine monuments have similar needs, as well as the 
urgent restoration project of the two sunken vessels. MCBI recommends 
the following appropriations for the marine monuments within the Fish 
and Wildlife Service:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
A manager for each new marine monument: These managers          $396,000
 will be responsible for working with the territorial
 governments in the Rose Atoll and Marianas Trench
 Monument, coordinate the mandated management plans,
 etc. ($121,000 each)...................................
Public Planning Position.--This individual would help            132,000
 prepare management plans, work on logistics of public
 meetings, coordinate with the managers in each
 monument, address agency comments, synthesize public
 comments, and ensure all Federal regulations for
 monument management are met, etc.......................
Monument Administration.--This allocation would be used          141,000
 for office space costs, vehicle needs, meeting space,
 office supplies, travel expenses, and development of
 monument management plan, etc. for all three monuments.
Vessel Purchase.--The Office of Naval Research (ONR) and   \1\ 5,000,000
 the FWS are in final discussions concerning refitting
 of one of the ONR retired vessels. It will cost FWS $5
 million to outfit this vessel for use to transport
 personnel and material (building materials, bulk
 material, fuel, etc.), maintenance, research and
 conservation projects, for all Pacific national marine
 monuments. These changes include adding cabins,
 increasing fuel capacity, adding a crane for debris
 removal and other maintenance).........................
Ship Operating Needs.--The annual operating funds for          1,600,000
 the ship will include six crew members at about 100,000
 each and $1 million for fuel and maintenance expenses..
Ship Removal.--The grounded fishing vessels found in the   \1\ 9,600,000
 new monument at Kingman Reef and Palmyra Atoll require
 immediate removal for their contribution to habitat
 loss...................................................
                                                         ---------------
      Total.............................................      16,869,000
------------------------------------------------------------------------
\1\ One-time fee.

    In summary, MCBI respectfully requests that the subcommittee 
augment funding for the national wildlife refuge system's national 
marine monuments by $16.9 million in fiscal year 2010.
    Thank you for the opportunity to share our views.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies

    The National Association of Clean Air Agencies (NACAA), 
representing the State and local air quality agencies in 53 States and 
territories and more than 165 metropolitan areas across the country, 
appreciates this opportunity to provide testimony on the fiscal year 
2010 budget for the United States Environmental Protection Agency 
(EPA), particularly Federal grants for State and local air pollution 
control agencies under sections 103 and 105 of the Clean Air Act, which 
are part of the State and Tribal Assistance Grant (STAG) program. The 
President's fiscal year 2010 budget request calls for $226.6 million in 
grants to State and local air quality agencies. While we appreciate 
that this reflects a slight increase over fiscal year 2009, it is 
unfortunately far short of the amount needed. NACAA recommends that 
grants within the STAG program for State and local air pollution 
control agencies under sections 103 and 105 of the Clean Air Act be 
$270 million in fiscal year 2010, which is $43.4 million more than the 
President's request ($46 million more than the fiscal year 2009 
appropriation). Additionally, NACAA requests that grants for the 
particulate matter and lead monitoring programs not be shifted from 
section 103 authority to section 105 authority.

                      WHY IS CLEAN AIR IMPORTANT?

    Air pollution is a significant public health concern. Every year 
tens of thousands of people die prematurely as a result of breathing 
polluted air. Millions more are exposed to unhealthful levels of air 
contaminants, resulting in many other health problems, such as 
aggravation of existing respiratory and cardiovascular disease, damage 
to lung tissue, impaired breathing, irregular heartbeat, heart attacks, 
and lung cancer. In spite of the best efforts of Federal, State, and 
local authorities, according to EPA's own estimates, more than 150 
million people live in areas that violate at least 1 of the 6 health-
based ``criteria pollutants.'' This estimate is likely to increase once 
EPA completes the designation of areas that exceed the new fine 
particulate matter standard. Additionally, more than 270 million people 
live in census tracts where the combined upper-bound lifetime cancer 
risk exceeds 10 in 1 million (1 in 1 million is generally considered 
``acceptable''). It is very likely that poor air quality results in 
more deaths than any other problem under the jurisdiction of this 
subcommittee.

     WHAT ARE STATE AND LOCAL CLEAN AIR AGENCIES' RESPONSIBILITES?

    State and local air pollution control agencies have the primary 
responsibility for implementing our Nation's clean air program. They 
carry out numerous activities, including efforts to develop and 
implement State Implementation Plans (SIPs), monitor emissions, compile 
emissions inventories, conduct sophisticated modeling of emissions 
impacts, inspect sources of pollution, conduct oversight and 
enforcement, provide technical assistance to regulated sources and 
respond to citizens' complaints. In order to accomplish this work, they 
receive funding from several sources, including State and local 
appropriations, the Federal permit fee program under title V of the 
Clean Air Act, State and local permit and emissions fees, and Federal 
grants under sections 103 and 105 of the Clean Air Act. section 105 
grants support the foundation of State and local air quality programs, 
while section 103 grants have typically funded specific monitoring 
efforts, such as the fine particulate matter (PM<INF>2.5</INF>) 
monitoring network.

        STATE AND LOCAL EFFORTS HAVE BEEN UNDERFUNDED FOR YEARS

    State and local air quality agencies have struggled for years with 
insufficient funding. In addition to the fact that Federal funding 
levels have been relatively stagnant for a long time, over the past 15 
years Federal grants for State and local air quality agencies to 
operate their programs (not including the separate PM<INF>2.5</INF> 
monitoring program) have actually decreased by approximately one-third 
in terms of purchasing power, due to inflation. This reduced spending 
power has come at the same time as increasing demands related to new 
programs, such as developing State Implementation Plans to meet ozone, 
PM<INF>2.5</INF> and haze requirements. State and local agencies have 
felt the repercussions of these limited funds, resulting in adverse 
impacts on their programs that include: reduction in air monitoring and 
associated data analysis; stagnation of emission inventories; 
elimination of air toxics programs; curtailment of small business 
assistance; loss of trained and experienced staff or an inability to 
fill vacancies; reduction in staff training; inability to accept 
delegation of Federal programs (especially related to toxic air 
pollutants from area sources); decline in enforcement and compliance 
activities; and cessation of some public education efforts. When State 
and local clean air agencies are forced to make hard choices and scale 
back essential air quality-related activities, public health, and 
welfare suffer.
    The proposed budget recommends shifting grants for PM<INF>2.5</INF> 
monitoring from section 103 (which does not require a 40 percent match 
from State and local recipients) to section 105 authority. The 
PM<INF>2.5</INF> monitoring program has traditionally been funded under 
section 103 and this arrangement has worked very well in the past. We 
recommend that it continue. Therefore, we urge Congress to retain the 
PM<INF>2.5</INF> and future lead monitoring programs under section 103 
authority.

           STATE AND LOCAL FUNDING NEEDS--RESULTS OF A SURVEY

    NACAA recently conducted a comprehensive survey of State and local 
clean air agencies regarding their resource needs and issued a report--
Investing in Clean Air and Public Health (April 27, 2009)--which was 
provided to the subcommittee. The findings include the following.
    NACAA received responses from State and local air quality agencies 
in 35 States. They confirmed, as long suspected, that State and local 
governments continue to supply more than their fair share of the 
resources necessary for the Nation's clean air program. section 105 of 
the Clean Air Act authorizes the Federal Government to provide grants 
for up to 60 percent of the cost of State and local air quality 
programs, while States and localities must provide a 40 percent match. 
In reality, however, State and local air agencies report that they 
provide 77 percent of their budgets (not including permit fees under 
the Federal title V program), while Federal grants constitute only 23 
percent. Clearly, State and local agencies are providing the lion's 
share of the funding. This will become increasingly difficult, however, 
as State and local budgets continue to shrink due to the country's 
current economic crisis.
    How much additional funding over and above current levels do State 
and local agencies require on an annual basis? The needs are enormous. 
Not including title V permit fees, which are intended to support only 
the permitting program, the survey results indicate that State and 
local air agencies need increases of 47 percent more than what is 
currently expended to carry out their current programs and support 
activities they anticipate they will need to undertake in the next few 
years. In order to protect public health, State, and local air agencies 
would need $1.3 billion annually to operate their programs. If EPA 
supplied 60 percent of that amount, as the Clean Air Act envisions, 
Federal grants would amount to approximately $778 million annually. 
Unfortunately, recent annual appropriations under sections 103 and 105 
of the Clean Air Act have been only approximately $200 million to $220 
million. Thus, Federal grants should be increased by approximately $550 
million to $575 million annually more than recent levels to make up 
this difference and support necessary State and local clean air 
programs.
    Further, as the demands placed on State and local air programs 
become greater, the effect of the shortfall will intensify. Unless 
State and local air quality programs receive substantial increases in 
Federal funding, they will continue to face a serious financial 
deficit, and their ability to protect and improve air quality will be 
further compromised.

                   HOW WOULD ADDITIONAL FUNDING HELP?

    According to our preliminary survey results, State and local air 
agencies report that the two program areas most in need of additional 
resources are climate change and toxic air pollution, where funding 
increases of more than 1,000 percent and 100 percent, respectively, are 
needed. Currently there is little funding available for climate change 
activities--agencies report that more than a quarter of the total 
additional funds needed would be for greenhouse gas-related efforts. 
Some of the specific activities for which additional funding is needed 
in these two areas include the following, among others: programs to 
address toxic air pollution from area (small) sources, including 
accepting delegation of the Federal area source regulations, 
identifying and inspecting sources, providing compliance assistance and 
inspecting facilities; air toxics monitoring; modeling of toxic 
exposures and risk; greenhouse gas planning and permitting; 
development, review and analysis of emissions inventories for 
greenhouse gases and toxic air pollutants; greenhouse gas rule 
development; emission reporting; and public education and outreach on 
toxics and greenhouse gases.
    Other types of programs besides climate change and toxic air 
pollution are also in need of significant funding increases. According 
to the survey responses, the general categories of activities, and the 
percentage of funding increases they need, are ambient monitoring (38 
percent), SIP efforts (34 percent), visibility work (15 percent), and 
compliance and enforcement (27 percent). Additionally, there are 
activities that do not fall within one of these categories that require 
increased grants as well, including programs to address environmental 
justice, asbestos, odors, complaint response, indoor air, training, 
outreach, small business assistance, management, administration, 
information technology, and many others.
    While State and local agencies identified many specific activities 
for which they would most need additional funds, certain efforts 
appeared repeatedly in the survey responses. In addition to those 
listed above related to toxic air pollution and climate change, these 
activities include: placement of additional monitors and commencement 
or continuation of monitoring activities related to new standards for 
fine particulates, ozone and lead; development of and/or improvements 
in emission inventories for criteria pollutants; development of SIPs 
for the new fine particulate matter, ozone and lead standards; 
increased frequency of compliance evaluations, inspections and 
enforcement, specifically for smaller sources; modeling for criteria 
pollutants; small business assistance; public education; regulation of 
emissions from animal feeding operations; programs to address emissions 
from minor sources; retention of experienced staff and hiring of 
additional staff to take on new programs and/or fill vacancies; and 
staff training.

        GRANTS SHOULD BE INCREASED TO FACILITATE REGIONAL SHIFTS

    In addition to the funding shortfalls revealed by the NACAA survey, 
there is another argument to be made for additional Federal grants. For 
more than a decade, EPA has used a formula to distribute State and 
local section 105 grants among the various regions of the country. The 
formula was developed several years after the passage of the Clean Air 
Act amendments and reflected the conditions, priorities and population 
distribution that existed at the time. Over the intervening years, some 
adjustments have been made to the formula to account for new priorities 
and to apportion grant increases and decreases. However, a re-
examination of the methodology and formula that serve as the foundation 
of the grant allocations had not been done and was overdue. For many 
months, EPA has been developing an updated methodology and is close to 
completing the project. Based on preliminary evaluation of EPA's 
efforts, it appears that the updated formula could result in 
substantial shifts in grants from certain regions of the country to 
others. During these difficult economic times, few if any agencies can 
easily afford to withstand any reductions in resources, including those 
that reallocations might create, and certainly not of the size 
reflected in the proposal under consideration. Since full and even 
partial implementation of the revised formula could create unacceptable 
disruptions in certain regions, NACAA believes that the most essential 
element of the reallocation process would be for the Federal Government 
to provide grant increases sufficient to ensure that no agency suffers 
a decrease, while those that are slated for an increased share of the 
total receive additional funds. At a minimum, grant increases of the 
size NACAA is recommending--$43.4 million more than the President's 
request--would facilitate these shifts.

                         NACAA'S RECOMMENDATION

    While significant grant increases are warranted, NACAA realizes 
that there are many competing priorities for Federal funds and that the 
current economy is very poor, and recognizes that full funding (an 
increase of $550 million to $575 million) is not viable right now. 
Therefore, for fiscal year 2010, NACAA is proposing an increase in 
Federal grants to State and local clean air agencies under sections 103 
and 105 of only $43.4 million more than the President's fiscal year 
2010 request ($46 million more than the fiscal year 2009 
appropriation), for a total of $270 million. This is a modest increase, 
considering that the real needs are over an order of magnitude higher. 
Additionally, NACAA recommends that particulate matter and lead 
monitoring programs be funded under section 103 authority, as such 
expenditures have been in the past.
    Thank you for this opportunity to testify on this critical issue 
and for your attention to the importance of adequate funding for air 
quality and public health programs.
                                 ______
                                 
   Prepared Statement of the National Association of Forest Service 
                                Retirees

    As a result of severely constrained budgets in recent years and a 
dramatic shift of money from all accounts to fund the increasing costs 
of wildfire suppression, the capacity of the Forest Service (FS) to 
carry out its missions in protecting and managing the national forests 
and grasslands, research, State and private forestry, and international 
forestry have been severely compromised. It is essential that this 
capacity be rebuilt. For fiscal year 2010 National Association of 
Forest Service Retirees (NAFSR) \1\ recommends the following increases 
more than the levels appropriated for 2009.
---------------------------------------------------------------------------
    \1\ The National Association of Forest Service Retirees is composed 
of people who spent their careers involved with the management of the 
national forest system, research, State and private forestry, and 
international forestry programs. Members remain committed to the proper 
stewardship of our forest lands and to the statutory multiple-use 
mission of the U.S. Forest Service.

                         [In millions of dollars]
------------------------------------------------------------------------
                                                  Fund at most recent 5-
                                                  year average projected
                                                         to 2010
------------------------------------------------------------------------
Wildland fire management:
    Suppression................................  .......................
    Preparedness...............................                       10
National Forest System: Land management                               10
 planning
Inventory and monitoring.......................                       10
Recreation, wilderness, and heritage...........                       20
Wildlife and fish habitat management...........                       10
Forest products................................                       10
Vegetation and watershed management............                       15
Land ownership management......................                       10
Research.......................................                       20
State and private forestry.....................                       10
Forest stewardship.............................                       20
Forest health--Federal lands...................                       10
Forest health--coop lands......................                       10
Urban and community forestry...................                       10
National Conservation Education Center.........                        4
------------------------------------------------------------------------

                       WILDLAND FIRE SUPPRESSION

    It is essential that the costs of wildland fire suppression be 
considered separately from the regular discretionary budget of the FS. 
As Chairman Rahall of the House Natural Resources Committee observed 
last year, ``the dramatic rise in these costs is eroding other nonfire 
programs and impacting the core missions of the Federal land management 
agencies.'' For 2010, NAFSR recommends funding fire suppression based 
on the most recent 5-year average cost projected to 2010 based on the 
cost trend for that period. This should reduce the necessity of fire 
transfers.
    The bulk of the costs for fire suppression are associated with 
large fires that escape initial and extended initial attack. It is 
essential that the agency maintain its capability to successfully stop 
at least 98 percent of the fire starts during the initial stages. In 
recent years there has been a reduction in the number of trained crews 
available for prompt reinforcement of initial attack forces, NAFSR 
recommends an increase of $10 million for preparedness to fund 10 
additional, inter-regional hotshot crews.

                         NATIONAL FOREST SYSTEM

Land Management Planning
    The National Forest Management Act requires that all activities on 
the national forests be conducted in accordance with approved land 
management plans. It requires revision of these plans at 10- to 15-year 
intervals in order to reflect changing conditions, new knowledge, and 
changing public needs and desires. Revisions of 60 percent of the plans 
are overdue. Revisions must be completed to comply with the law, avoid 
legal challenges, and keep national forest and grassland management 
relevant to the needs of the people. NAFSR recommends an increase of 
$10 million for land management planning.
Inventory and Monitoring
    Regular monitoring of forest resource conditions and the results of 
management activities is fundamental to sound forest management. It is 
particularly important during this time of climate change. Further 
implementation of ecosystem management and the use of adaptive 
management, key to obtaining public acceptance of vegetative management 
activities, cannot be accomplished without assurance of appropriate 
inventory and monitoring of resources and project outcomes. NAFSR 
recommends an increase of $10 million for inventory and monitoring.
Recreation, Wilderness, and Heritage Management
    The national forests include some of the most scenic, historic, and 
culturally important areas of our country. Some 192 million visitors 
enjoy recreation activities on these lands each year. But the quality 
and access to recreation activities is being lost. The capacity of 
recreation sites managed to standard declined from 93,600,000 people at 
one time (PAOT) in fiscal year 2002 to 70,230,000 PAOT in 2008. 
Priority heritage sites managed to standard declined from 8,112 to 
2,294, and the miles of trail maintained to standard declined 30 
percent in this period. Restoration of these facilities would provide 
badly needed jobs in rural communities. NAFSR recommends an increase of 
$20 million for recreation, wilderness, and heritage management.
Wildlife and Fisheries Habitat Management
    The national forest system includes some of the most important 
wildlife and fish habitat in the country. Proper stewardship of these 
resources requires on the ground management by biologists and 
technicians. But while the pressures on these important resources 
continues to grow, the personnel available to care for the habitat has 
declined. From 2002 to 2008, the wildlife and fisheries staff was 
reduced by 39 percent. NAFSR recommends and increase of $10 million for 
wildlife and fisheries.
Forest Products
    There is widespread recognition of the need to thin our overstocked 
forests to reduce their vulnerability to fire, insects, and disease. 
Funding for hazardous fuel reduction is important and must be 
continued, but it is clearly inadequate to accomplish the needed work. 
Annual growth on the currently roaded portion of the timberlands on the 
national forests is about 4 billion cubic feet. Not all of the material 
that needs to be removed has economic value, particularly under current 
market conditions, but portions are suitable for conventional wood 
products. Much more is suitable for energy production. Capturing these 
economic values is essential to making real progress in improving the 
condition of our forests. It has much potential for contributing to 
meeting our need for renewable energy. NAFSR recommends an increase of 
$10 million for identifying markets and preparing conventional and 
stewardship contracts for material that needs to be removed to promote 
forest health.
Vegetation and Watershed Management
    One of the primary purposes for the national forests is to provide 
favorable conditions of water flow. National forest watersheds provide 
much of the water used by our growing population, particularly in the 
West. Resource management specialists and supporting technicians 
available to protect and enhance our watersheds have declined by 44 
percent in the last 6 years. This decline must be reversed.
    With the serious fire seasons of recent years, the backlog of 
needed reforestation has grown, but the reforestation program has been 
shrinking. FS estimates the backlog of needed reforestation is about 1 
million acres. This does not include some 250,000 acres on recent large 
fires that have been identified as potentially needing reforestation 
based on remote sensing, but where on the ground examinations have not 
been completed. NAFSR recommends an increase of $15 million for 
vegetation and watershed management.
Land Ownership Management
    The national forest system is a vast estate. Millions of acres of 
land share thousands of miles of property boundary with other agencies, 
small, and large property owners, Proper stewardship of this Federal 
estate requires maintenance of property lines, monitoring for trespass, 
and administering thousands of special use permits. The national 
forests should be good neighbors to adjacent landowners and 
communities. With a 19 percent reduction in staffing for this activity, 
the national forests are instead becoming, unresponsive, absentee 
landlords. NAFSR recommends an increase of $10 million for land 
ownership management.

                                RESEARCH

    Forest research in this country has declined significantly, both in 
the private sector at major forest product companies and at 
universities. This trend makes the reduction in research scientists and 
support personnel in the FS over the last few years particularly 
untimely. We urgently need more information on the response of forests 
and the resources they provide to changing climate and on management 
practices needed to respond to and mitigate the adverse impacts of 
these changes. We need leading-edge technologies to effectively use the 
available forest resource, particularly small diameter, overstocked 
material in fire-prone areas, which can enhance rural economies and 
provide alternative energy sources from wood. With water problems in 
many areas of the country, forest management practices to enhance water 
yield and quality are urgently needed. NAFSR recommends increasing 
funding for research by $20 million with emphasis on response to 
climate change, economic uses for small diameter trees (including 
energy), and water.

                       STATE AND PRIVATE FORESTRY

    Two-thirds of our Nation's forests are in small, nonindustrial 
ownerships. These lands are vital to meeting our wood product needs and 
providing other forest values. The importance of proper management of 
these forest lands is growing as the forest industry continues to 
divest its timberlands. The continued fragmentation of these lands 
presents serious challenges to assuring proper stewardship and 
sustainable management. The State and private forestry program, in 
cooperation with State foresters, has a proven record in helping to 
promote sustainable practices on these lands.
    Continued drought has increased fire, insect, and disease problems 
on private forest lands, just as it has on Federal lands. Continued 
assistance in forest protection and management is needed so that 
private land owners will make the needed long-term investments in the 
management of these lands. The National Conservation Education Center 
and Repository in Missoula, Montana (National Museum of Forest Service 
History) offers an outstanding opportunity to interpret the history of 
the national forests and other FS programs. NAFSR recommends $4 million 
for this facility. NAFSR recommends an increase of $10 million for 
forest stewardship; $10 million for forest health on Federal lands; $10 
million for forest health on coop lands, and $10 million for urban and 
community forestry.

                      REPAYMENT OF FIRE TRANSFERS

    In 5 of the last 7 years, the FS has been forced to transfer money 
from other agency programs to cover the cost of fire suppression. These 
transfers have disrupted on-going activities, increased costs, and 
damaged relationships with other agencies and cooperators. The 
continuing resolution for fiscal year 2009 repaid the nearly $400 
million transferred in fiscal year 2008 and $100 million in K-V Funds 
transferred in prior years. This leaves some $289 million in transfers 
that have not been replaced. This transferred money includes 
commitments for hazardous fuel reduction, noxious weed treatment, 
watershed improvements, fisheries enhancements, and wildlife 
improvements. It includes money deposited into working capitol funds 
for vehicle replacement and facilities maintenance. NAFSR recommends 
that the Congress complete reimbursement of money from trust funds 
transferred for fire suppression.
    The NAFSR believes the national forests and grasslands should be 
managed so they are an asset to the communities in and adjacent to 
them. In all too many instances, rather than an asset, the overstocked, 
insect-infested, fire-prone, poorly maintained, and understaffed 
forests are becoming a liability. We believe the funding increases 
recommended above will began the process of restoring the capability of 
the FS to provide proper stewardship of these national treasures and to 
carryout the other vital missions of the agency.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials

    Madam Chair and members of the subcommittee, I am Dub Taylor of 
Texas, and Chair of the National Association of State Energy Officials 
(NASEO). NASEO represents the energy offices in the States, 
territories, and the District of Columbia. NASEO is submitting this 
testimony in support of funding for the Energy Star program (within the 
Climate Protection Division of the Office of Air and Radiation) at the 
U.S. Environmental Protection Agency (EPA). NASEO supports funding of 
at least $105 million, including specific report language directing 
that the funds be utilized only for the Energy Star program. We were 
extremely disappointed with the $50 million fiscal year 2010 request 
and the final fiscal year 2010 funding level. At the present time, 
Congress is seriously considering climate legislation. The Energy Star 
programs are successful and cost effective. They should be expanded, 
not reduced. With energy prices increasingly volatile, Energy Star can 
help consumers quickly.
    The Energy Star program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments, and businesses to achieve these 
goals in a cooperative manner. NASEO has worked very closely with EPA 
and more than 40 States are Energy Star Partners. In 2005, EPA and 
NASEO announced a new Clean Energy and Environment State Partnership 
program, which has many State members, including California. We are 
working closely with EPA on the Action Plan for Energy Efficiency, the 
Energy Star Challenge, Home Performance with Energy Star, etc. We 
worked with EPA to have over half the States declare ``Change a Light'' 
Day. With very limited funding, EPA's Energy Star program works closely 
with the State energy offices to give consumers and businesses the 
opportunity to make better energy decisions, without regulation or 
mandates.
    Energy Star focuses on energy efficient products as well as 
buildings. In 2008 550 million Energy Star products were purchased. The 
Energy Star label is recognized across the United States. It makes the 
work of the State energy offices much easier, by working with the 
public on easily recognized products, services and targets. In order to 
obtain the Energy Star label a product has to meet established 
guidelines. Energy Star's voluntary partnership programs include Energy 
Star Buildings, Energy Star Homes, Energy Star Small Business and 
Energy Star Labeled Products. The program operates by encouraging 
consumers, working closely with State and local governments, to 
purchase these products and services. Marketplace barriers are also 
eradicated through education. State energy offices are working with EPA 
to promote Energy Star products, Energy Star for new construction, Home 
Performance with Energy Star (especially for existing homes), Energy 
Star for public housing, etc.
    In addition to the State partners, the program has more than 2,400 
manufacturers using the label, 1,000 retail partners, 6,500 builder 
partners, 4,500 businesses, 550 utilities, and thousands of energy 
service providers. The ``Home Performance with Energy Star'' activity 
allows us to focus on whole-house improvements, not simply a single 
product or service. This is extremely beneficial to homeowners. 
Programs have already been undertaken in California, New York, 
Illinois, Maryland, Oregon, Texas, and Wisconsin. For example, a Mid-
Atlantic regional effort has been initiated. We are also working 
closely with EPA in the implementation of the Energy Star Challenge, 
which is encouraging businesses and institutions to reduce energy use 
by 10 percent or more, usually through very simple actions. We are 
working with the building owners to identify the level of energy use 
and compare that to a national metric, establish goals and work with 
them to make the specified improvements. Again, this is being done 
without mandates.
    The State energy offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding Energy Star business partners 
program. This expansion will continue. EPA has been expanding the 
technical assistance work with the State energy offices in such areas 
as benchmark training (how to rate the performance of buildings), 
setting an energy target and training in such areas as financing 
options for building improvements and building upgrade strategies.
    The State energy offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects, and 
policies are developed recognizing both energy and environmental 
concerns. We have worked closely with this program at EPA to address 
these issues. The level of cooperation from the agency has been 
extraordinary and we encourage these continued efforts.

                        EXPANSION OF ENERGY STAR

    The Energy Star program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports an approximate doubling 
of this program to $105 million in fiscal year 2010. The elements of 
the expanded program are as follows:
  --$12.5 million should be appropriated to expand the program to 
        upgrade energy-inefficient homes. Consumers could save $500 per 
        year on their energy expenditures, which is $10,000 over 20 
        years (nominal dollars). This is real money in the pockets of 
        consumers. It can help them stay in their homes and help the 
        economy. There are significant, off-the-shelf energy efficiency 
        measures that can be utilized. A large expansion of the Home 
        Performance with Energy Star is the critical element of this 
        initiative. Additional work to encourage quality installation 
        of heating and cooling equipment would also produce real 
        savings.
  --$7.5 million should be appropriated for an expansion of energy 
        performance ratings systems for the Nation's buildings. 
        Information on energy use per square foot is a key motivating 
        tool. This can help commercial building owners make the right 
        decisions.
  --$10 million should be appropriated for expansion of Energy Star to 
        medium and small manufacturers and small businesses. The State 
        energy offices are working hard to preserve and expand jobs in 
        this difficult economy. Energy Star is a powerful tool to help 
        reduce operating costs and maintain profits and jobs.
  --$10 million should be appropriated for an expanded outreach program 
        for energy efficiency to States, utilities, local governments, 
        schools, and other potential program sponsors. Energy Star 
        provides crucial technical assistance to help work with these 
        entities to expand energy efficiency programs throughout the 
        economy.
  --$10 million should be appropriated for additional outreach to State 
        and local governments. Energy Star has been helpful, but is 
        woefully underfunded in efforts to share best practices.
  --$5 million should be appropriated to offer new opportunities to 
        incorporate new technologies into Energy Star.
    The funds delineated above should be added to the existing 
appropriation. It is especially critical for the Energy Star program to 
work with the States and local governments as they distribute stimulus 
funds for the State Energy Program ($3.1 billion), the Energy 
Efficiency and Conservation Block Grant (for local and State 
governments) ($3.2 billion), the Weatherization Assistance Program ($5 
billion) and the Appliance Rebates Program ($300 million). The funding 
provided in this bill will help spend this money more effectively.

                             STATE EXAMPLES

    In California, residents and businesses are projected to save more 
than $14 billion through the Energy Star investments that have already 
been made. Well more than 10,000 California homes have earned the 
Energy Star. California also has a tax credit for the construction of a 
new, or purchase of an existing, Energy Star Home. The State Green 
Building Action Plan requires State agencies to only lease Energy Star 
space and purchase Energy Star equipment. The State also has an Energy 
Star Residential Fixture promotion program.
    In Colorado, Energy Star investments in qualified products, homes, 
and buildings are projected to save well more than $2 billion over the 
life of these efforts. Approximately 10,000 homes in the State have 
earned the Energy Star and more than 900 buildings (more than 130 
million square feet) have been rated utilizing the performance rating 
system. Approximately 100 Colorado companies are now building Energy 
Star-rated homes. Aggressive Energy Star efforts are occurring in 
schools throughout the State. With the passage of new State legislation 
and actions by the Governor, aggressive new Energy Star promotion 
activities have had a significant impact.
    Maryland passed a group of major energy bills promoted by the 
Governor. The Maryland Energy Administration is tasked with leading the 
charge to promote energy efficiency and reduce energy consumption 
quickly. One hundred forty companies and public entities are 
participating in Energy Star in the State. One hundred thirty million 
square feet of buildings in Maryland have been rated for energy 
efficiency. Tax incentives are also available to consumers for the 
purchase of Energy Star-qualified products.
    Thirty companies and public entities in Mississippi are 
participating actively in Energy Star product promotions. Millions of 
square feet of buildings have been rated for energy efficiency. The 
State is also working with other Southeastern States to promote energy 
efficiency in commercial buildings through the Southeast Rebuild 
Collaborative. The State Energy Office (Mississippi Development 
Authority) has been providing training to schools and Government 
agencies in Energy Star tools.
    Six hundred million dollars will be saved in the Energy Star 
investments that have already been made in Nebraska. Twenty-one million 
square feet of buildings in the State have been rated using energy 
performance rating system tools. The Nebraska Energy Office has also 
been promoting the program and sponsored an energy-efficient prototype 
home in Lincoln that is demonstrating affordable yet energy-efficient 
housing techniques. The Energy Office provides loans to finance 
residential energy efficient improvements. Many companies are now 
building Energy Star homes in the State.
    Seventy-eight companies and public entities in New Hampshire have 
been actively promoting Energy Star. Two thousand homes so far have 
earned the Energy Star and 14 million square feet of buildings have 
been rated. Scores of New Hampshire companies are building Energy Star 
homes and the first three residence halls in the country to earn the 
Energy Star are located on the University of New Hampshire campus in 
Durham.
    Rhode Island businesses and residents will save more than $400 
million through Energy Star investments they have already made. More 
than 2,000 homes have been rated utilizing Energy Star tools. The State 
has held a sales tax holiday for Energy Star labeled products. The 
State, in cooperation with National Grid, has been promoting Home 
Performance with Energy Star.
    Five million square feet of building space in South Dakota has been 
rated for energy efficiency utilizing EPA's performance rating system. 
The State has been aggressively promoting a variety of Energy Star 
efforts, including Energy Star Change a Light Day. In Tennessee, well 
more than 100 companies and public entities, including significant 
numbers of small businesses, have been participating in Energy Star. 
Businesses and residents are projected to save more than $2 billion 
through Energy Star investments that have already been made. The State 
Energy Office has taken the lead in promoting the Energy Star Challenge 
and the Change a Light campaign, urging consumers to shift to CFLs. 
Participants in the program range from Nashville Habitat for Humanity 
to Clayton Homes, Inc.
    Utah residents and businesses will save more than $700 million 
through investments they have already made in Energy Star products, 
homes, and buildings. Well more than 100 companies are actively 
participating in the Energy Star program. 7,500 Utah homes have earned 
the Energy Star and more than 17 million square feet has been rated for 
energy efficiency in the State.
    Vermont has aggressively promoted energy efficiency for many years 
and scores of public entities and companies have been involved in the 
program. Approximately 5,000 homes in the State have earned Energy 
Star, which is a high percentage. In addition, 120 buildings covering 8 
million square feet have been rated for energy efficiency utilizing 
EPA's energy performance rating system. As a result of an Executive 
Order (14-03), State agencies are only permitted to purchase Energy 
Star products.
    Residents and businesses in West Virginia will save more than $400 
million as a result of Energy Star investments that they have already 
made. More than 13 million square feet of building space has been rated 
utilizing EPA's energy performance rating system. The State Energy 
Office (West Virginia Development Office) has been helping county 
school systems throughout the State by providing both Energy Star 
benchmarking tools and other financial mechanisms to help implement 
improvements. Giant Eagle and Food Lion have been Energy Star leaders 
in the State.
    Wisconsin has approximately 500 companies and public entities that 
have been promoting Energy Star. More than 8,000 homes have earned 
Energy Star and more than 180 million square feet of building space, 
across 1,500 buildings, have been rated for energy efficiency. Energy 
Star is now part of the State's procurement guidelines. A 2005 study 
found that Wisconsin Energy Star new homes utilize 23 percent less 
energy per square foot for heating than older Wisconsin homes, even 
though the new homes are generally 22 percent larger.

                               CONCLUSION

    Significant increases in funding for the Energy Star programs are 
justified. NASEO endorses these activities and the State energy offices 
are working very closely with EPA to cooperatively implement a variety 
of critical national programs.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers

    Thank you Chairwoman Feinstein, Ranking Member Alexander, and the 
members of the Senate Appropriations Subcommittee on Interior, 
Environment, and Related Agencies for the opportunity to provide 
testimony. I appreciate this chance to share the State Historic 
Preservation Office's (SHPOs) 2008 historic preservation 
accomplishments, discuss the SHPOs' role in the economic stimulus, and 
review historic preservation's contribution to economic and 
environmental sustainability.

              SHPOS ARE THE NATION'S PRESERVATION PROGRAM

    In 1966, Congress affirmed the importance of historic preservation 
in the National Historic Preservation Act (NHPA 16 U.S.C. 470). This 
Federal historic preservation program is carried out by the SHPOs for 
the National Park Service (NPS) and the Advisory Council on Historic 
Preservation. Appropriations to SHPOs constitute the operational 
funding for this Federal mandate. The NHPA directs SHPOs to sustain the 
foundation of historic preservation in America by: (1) locating and 
recording historic resources; (2) nominating significant historic 
resources to the National Register of Historic Places; (3) fostering 
historic preservation programs at the local government level and 
promoting the creation of preservation ordinances; (4) providing funds 
for preservation activities; (5) commenting on Federal preservation tax 
projects; (6) reviewing all Federal projects for their impact on 
historic properties; and (7) providing technical assistance to Federal 
agencies, State and local governments, and the private sector.

 HISTORIC PRESERVATION AND THE AMERICAN REINVESTMENT AND RECOVERY ACT 
                                 (ARRA)

    SHPOs need $50 million now more than ever to weather ``the perfect 
storm'' created by State budget reductions and ARRA project activity 
increases.
    A recent survey of SHPOs found that the impact of State budget 
reductions includes the following.
  --Nearly half the SHPOs expect State cuts in fiscal year 2009 at an 
        average 13 percent.
  --Thirteen States out of 35 report loss of staff and 30 reported 
        hiring freezes.
  --In Nevada, funding for the State historic preservation office could 
        be cut in half, and the Nevada Historical Society's 10-person 
        staff would be reduced to 5.
    While SHPOs operate under these fiscal restraints, Federal stimulus 
projects are being ``fast-tracked'' to create jobs and generate 
investments. Handling the unprecedented volume of projects for historic 
preservation reviews with fewer resources is a challenge. For projects 
that are controversial or fall short of ``shovel-ready'' status, 
Federal law directs SHPOs to resolve and mitigate any issues in a 
timely manner. Providing $50 million to SHPOs in fiscal year 2010 will 
add critically needed resources to expedite the implementation of ARRA 
and stimulate the economy.
    It is also worth noting that this subcommittee acknowledged the 
value of restoration projects in stimulating the economy by including 
$50 million to the SHPOs for restoration grants in the initial stimulus 
proposal. We were disappointed that the final version eliminated the 
funding. Since SHPOs across the country have long lists of SHPO 
approved, shovel-ready projects, just waiting for funding, we look 
forward to working with the appropriations subcommittee to enact this 
program.

             HISTORIC PRESERVATION IS ECONOMIC DEVELOPMENT

    Preserving the physical reminders of our past creates a sense of 
place and community and generates a wide range of economic benefits. 
Historic preservation creates jobs, brings people to downtowns and main 
streets, supports affordable housing and small businesses, and 
generates tax revenues while revitalizing communities and 
neighborhoods.
    SHPOs administer the rehabilitation tax credit program which has 
spurred private investment on a 5 to 1 ratio and is a powerful job 
creation tool. More than $50.82 billion in private investment has been 
leveraged from its inception in 1976 and each project approved by the 
NPS creates, on average, 42 new and principally local jobs. The 
following statistics are typical of the positive findings of 
preservation's economic benefits:
  --Historic preservation activities generate more than $1.4 billion of 
        economic activity in Texas each year.
  --Each $1 of Maryland's historic preservation tax credit leverages 
        $6.70 of economic activity within that State.
  --Massachusetts benefits from historic preservation include a gain of 
        about 87,000 jobs, $2.6 billion in income, $3.5 billion in GSP, 
        and $944 million in taxes.
  --In New York State, $1 million spent rehabilitating an historic 
        building ultimately adds $1.9 million to the State's economy.
    Dollar for dollar, historic rehabilitation creates more jobs than 
most other investments. According to a 1997 study on the economic 
impacts of historic preservation, ``preservation's benefits surpass 
those yielded by such alternative investments as infrastructure and new 
housing construction.'' In Michigan, $1 million in building 
rehabilitation creates 12 more jobs than manufacturing. In West 
Virginia, $1 million of rehabilitation creates 20 more jobs than mining 
$1 million worth of coal. A 2010 $50 million appropriation will allow 
SHPOs to encourage more owners to undertake rehabilitation projects and 
to expedite reviews.

                     PRESERVATION IS SUSTAINABILITY

    Historic preservation can--and must--be an important component of 
any effort to promote sustainable development. The conservation and 
improvement of our existing built resources, greening the existing 
building stock, and reinvestment in historic communities, is crucial to 
using our past to create a better future for generations to come.
    The National Historic Preservation Program and SHPOs are 
responsible for the administration of public and private initiatives 
that advance sustainability. Environmental responsibility is achieved 
in the preservation industry through recycling, waste reduction, saving 
landfill space, saving energy, reducing carbon emissions, and promoting 
renewable resources. The sustainable economic benefits include fiscally 
viable communities, the use local labor forces, increases in property 
values and tax bases and heritage tourism. Historic preservation also 
promotes social and cultural responsibility through creating affordable 
housing, giving people a sense of place and community and incorporating 
smart growth principles. A 2010 $50 million appropriation will provide 
resources to promote sustainability.

                     IMPORTANCE OF DIGITAL RECORDS

    The key to protection of our Nation's historic resources lies not 
only in identifying them, but in making information about their 
location and importance widely available. Yet, in this age of 
electronics, spending hours upon hours--if not days--traveling to one 
location, only to spend additional hours searching through piles of 
maps, charts and documents, is typical for anyone who needs access to 
SHPO documents. Five million dollars for competitive grant funds for 
digitization and inventory will accelerate SHPOs' move into the 
electronic era.
    Specifically, inventory funds would be used for two purposes (1) to 
convert existing paper records to electronic formats (databases, GIS) 
and (2) to conduct inventory fieldwork, filling in the current 
patchwork of identified sites which is essential for Federal project 
review (section 106) and lays a foundation of every future preservation 
activity (e.g., National Register).
    The State of Washington, and a select few other SHPOs have made 
remarkable progress assembling multiple-source funding to initiate 
digital access to inventory information, other SHPOs around the country 
are not as fortunate. After 40 years of the national preservation 
program we, as a Nation, still do not know the location of hundreds of 
thousands of our historic resources. Knowing what we have and defining 
the location and significance of the Nation's historic assets, is 
fundamental for all historic preservation activities. (NHPA 1966)

                       2008 SHPOS ACCOMPLISHMENTS

    SHPOs used their HPF allocations well in 2008. While virtually 
every State experienced cut backs and reductions, SHPOs are still 
charged with implementing the requirements of the NHPA to their fullest 
extent. Highlights of 2008 historic preservation accomplishments 
include:
  --More than $5.64 billion of private investment in the rehabilitation 
        of commercial historic properties under the rehabilitation tax 
        credit program.
  --An estimated 67,705 jobs created by the tax credit program in 2008.
  --10,392 low- and moderate-income housing units created through the 
        FRTC.
  --Approximately 11 million acres surveyed for cultural resources and 
        more than 132,300 properties evaluated for their historical 
        significance.
  --1,319 new listings in the National Register of Historic Places.
  --SHPOs reviewed 114,000 Federal undertakings, providing 98,700 
        National Register eligibility opinions.
  --51 new communities became Certified Local Governments (CLGs)
  --CLG's newly designated 48,200 properties, and 86,600 properties 
        took part in local preservation review, programs, and 
        incentives.

         FUNDING FOR ADDITIONAL HISTORIC PRESERVATION PROGRAMS

    In addition, from the HPF NCSHPO supports $20 million for tribes. 
We also would like to see $30 million for Save Americas Treasures and 
$10 million for Preserve America. Additionally, adequate funding for 
the Advisory Council on Historic Preservation and NPS historic 
preservation programs is needed to carry out their missions of 
promoting the preservation of historic resources.

                               CONCLUSION

    Congress stated in 1966 that ``The spirit and direction of the 
nation are founded upon and reflected in its historic heritage.'' 
Historic preservation recognizes that what was common and ordinary in 
the past is often rare and precious today, and what is common and 
ordinary today may be extraordinary, 50, 100, or 500 hundred years from 
now. I would like to thank the subcommittee for their commitment to 
historic preservation. The Federal Government's role in preserving our 
Nation's history is only possible through our partnership. SHPOs stand 
committed to identify, protect, and maintain our Nation's historic 
heritage.
    Thank you.
                                 ______
                                 


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
    Prepared Statement of the National Environmental Services Center
    Chairwoman Feinstein, Ranking Member Cochran, and members of the 
subcommittee: We request an appropriation of $1.5 million for fiscal 
year 2010 directed to the National Small Flows Clearinghouse 
(Clearinghouse) under the Environmental Programs and Management (EPM) 
account for the U.S. Environmental Protection Agency (EPA). The 
Clearinghouse programs assist small and rural communities throughout 
the United States in meeting their wastewater treatment needs.
Introduction
    My name is Gerald Iwan and I am the Executive Director of the 
National Environmental Services Center at West Virginia University 
(WVU). Our center conducts both EPA- and USDA-funded programs that 
address a national need for environmental services to small communities 
and rural areas. For the past 30 years, our work has focused on 
drinking water, wastewater, and community resiliency. We assist the 
USEPA and USDA in providing information, training, and technical 
assistance essential to their drinking water and wastewater public 
mission.
Need
    Nearly 1 in 4 households in the United States depends on individual 
septic or other types of onsite systems to treat their wastewater. Many 
of these households are in small and rural communities that have 
limited financial and personnel resources to address wastewater 
treatment problems. Underperforming wastewater treatment systems can 
have considerable quality of life, environmental, and public health 
impacts. Recognizing the need to assist small communities in meeting 
wastewater treatment mandates, Congress, through the 1977 Clean Water 
Act (CWA), authorized the National Small Flows Clearinghouse and 
mandated that it collect and distribute information and also provide 
training to small and rural communities about wastewater treatment.
    The Clearinghouse and its training arm, the National Environmental 
Training Center for Small Communities, are cornerstone programs 
administered by the National Environmental Services Center at WVU. 
Through these programs the USEPA is able to meet its mission of 
providing wastewater-related information, technical assistance, 
publications, products, and training services for little or no cost to 
the public. Such services are especially critical to the small and 
rural communities least likely to be able to assist themselves. Under 
the CWA, Congress mandated annual funding for the Clearinghouse through 
EPA's Construction Grants Program, signaling its commitment to assist 
these small communities through the Clearinghouse's services.
    While the Clearinghouse had been included in subsequent 
reauthorizations of the act, the Construction Grants Program was phased 
out in 1991 and replaced by the Clean Water State Revolving Loan Fund. 
As a consequence, the statutory funding provision for the Clearinghouse 
was lost. This loss of directed funding has jeopardized the 
Clearinghouse's ability to provide essential wastewater services that 
continue to be needed by our Nation's small communities. Reinstatement 
of the Clearinghouse formula funding provision was approved by the 
House in H.R. 1262, The Water Quality Investment Act of 2009.
    Since the expiration of the CWA funding provision, the 
Clearinghouse's 25 employees have continued to provide essential 
wastewater services to the public through congressional appropriations, 
competitive grants, and supplemental funding by WVU. However, 
congressional appropriations ended in fiscal year 2006, University 
funds are limited and competitive funding opportunities in the relevant 
EPA programs are scarce. Most national rural water technical assistance 
organizations (e.g., NRWA, RCAP, and GWPC) providing complementary 
services to EPA are supported through congressionally directed funding 
on an annual basis. Congressional support for reinstatement of the 
Clearinghouse and its formula funding provision under H.R. 1262 would 
enable the Clearinghouse programs to continue with uninterrupted 
services on a firm financial footing. However, until the bill is 
enacted, we need an appropriation of $1.5 million to enable these 
programs to continue their work of serving our Nation's small 
communities.
Request
    We request $1.5 million in congressionally directed funding for the 
National Small Flows Clearinghouse programs to support our work until 
the CWSRF legislation is reauthorized and enacted.
                                 ______
                                 
           Prepared Statement of the Northern Forest Alliance

    Mr. Chairman, and distinguished members of this subcommittee, we 
are grateful for the opportunity to submit testimony today on behalf of 
the member organizations of the Northern Forest Alliance (NFA). The NFA 
is a coalition of 55 national, regional, State, and local conservation, 
recreation, and forestry organizations united by a commitment to work 
together to protect and enhance the ecological and economic 
sustainability of natural and human communities in the Northern Forest. 
Our priorities include: conserving wildlands in the Northern Forest to 
help protect the forest's ecological integrity, its recreational 
opportunities, and it's timber production; encouraging well-managed 
private forests to support the forest-based economy, including high-
value timber products, recreational tourism, and the jobs these 
industries support; and building strong, diverse, local economies that 
support vibrant communities throughout the Northern Forest.
    With these priorities and goals in mind, we respectfully request an 
increase in overall funding for the Land and Water Conservation Fund 
(LWCF) and the Forest Legacy Program (FLP) and specifically urge the 
subcommittee to provide $325 million for the Federal LWCF, $125 million 
for the LWCF stateside program, and $125 million for the FLP in the 
fiscal year 2010 Interior, Environment, and Related Agencies 
appropriations bill. In addition, we respectfully urge the subcommittee 
to provide a minimum of $10 million for the Community Forest and Open 
Space Conservation Program, $45 million for the Forest Stewardship 
Program, $36 million for the Urban and Community Forestry Program, $53 
million for the Cooperative Lands Forest Health Program, $45 million 
for the State Fire Assistance Program, and $85 million for the State 
Wildlife Grants Program. Finally, we're strongly supportive of funding 
the authorized amount of $5 million for the new Community Wood Energy 
Program.
    We applaud the LWCF and FLP funding increases provided by this 
subcommittee in fiscal year 2009. And, we are most thankful that the 
Obama administration budget recognizes the importance of these programs 
by proposing significant increases for fiscal year 2010 and setting a 
goal to achieve full funding of the LWCF in the next 5 years.
    FLP and LWCF have proven to be the most important tools to fund 
land conservation in the Northern Forest. It is critical that funding 
for these programs be expanded to ensure that as opportunities for 
productive conservation arise, we continue the strong tradition of 
conservation that ensures public access, sustainable forestry, and a 
multitude of recreational opportunities.
    Passage in 2008 of the Community Forest and Open Space Conservation 
Program is exciting for the NFA and for all communities looking toward 
a more empowered and locally controlled future. This new program will 
provide matching funds to help local government entities, Indian 
tribes, and nonprofit organizations to create new community forests. It 
will also offer technical assistance to develop and implement 
management plans for each new community forest. We urge you to provide 
funding for the Community Forest and Open Space Conservation Program in 
the fiscal year 2010 budget for the U.S. Forest Service (USFS). This 
should include funding for the States to administer the program and to 
provide technical assistance, as directed by the program's authorizing 
language.
    NFA is firmly committed to the effort to support a suite of 
programs that support resilient communities, sound forest stewardship, 
and the forest-based economy within the USFS's State and private 
forestry program. The economies and forests of New Hampshire, Vermont, 
Maine, and New York and across the Nation can not afford to lose the 
professional assistance provided by our State Foresters and Cooperative 
Extension Foresters. Programs including the Forest Stewardship Program, 
urban and community forestry, the Cooperative Lands Forest Health 
Program, and the State Fire Assistance Program are critical to the 
needs of Northern Forest communities. This suite of programs ensures 
that resources are available to support the shared goal of landowners, 
State, and local governments to manage their forestlands to the highest 
standards of sustainability.
    The Forest Stewardship Program and Urban and Community Forestry 
Program support the ability of State and country foresters to provide 
technical services to forest landowners, providing educational services 
in urban areas and communities, developing forest stewardship plans, 
providing training for natural resource professionals, increasing 
public awareness of forest resources in rural and urban areas, 
providing training for the public in the coverts programs, and 
supporting the implementation of forest stewardship plans. These 
services benefit not only private landowners, but all in the region who 
benefit from the sustainable and healthy management of forests and of 
trees and urban forests in our communities.
    The Cooperative Lands Forest Health Program provides assistance on 
our non-Federal forestland, the majority of forests in the Northern 
Forest and the eastern half of the Nation, to address forest health 
issues including the prevention, detection, and suppression of damaging 
insects, diseases, and plants. As you're well aware, the spread of 
invasive plants and insects into the forests of the region are causing 
and may cause incredible losses to the value of our crucial 
forestlands.
    The State fire assistance program provides essential financial and 
technical assistance to State and local fire departments for wildland 
fire management. It helps to ensure preparedness in the advent of 
forest fires. In addition, to direct first-responder support, it 
provides funding for fuel reduction work and is one of the only 
programs that help communities develop community wildfire protection 
plans.
    The State Wildlife Grants Program, created by Congress in 2000, 
provides funding to support cost-effective conservation aimed at 
preventing wildlife from becoming endangered. The work of the State 
Wildlife Grants program is done by State Fish and Game agencies 
implementing their wildlife action plans. Every State has completed a 
comprehensive wildlife action plan, as mandated by Congress. These 
action plans detail each State's species of greatest conservation need, 
their habitats, the problems and data gaps that confront them, and the 
conservation actions that are needed to prevent them from becoming 
endangered.
    The Community Wood Energy Program is designed to assist communities 
in creating wood-energy systems to provide heat and/or power for 
municipal buildings and enable them to utilize locally sourced wood for 
their heat and power. This program will be critically important as our 
communities seek to provide fiscal certainty and the opportunity to 
utilize heat and power resources found within the region, rather than 
exporting our hard-earned funds to other regions and other nations.
    In addition to these critically important program requests, NFA 
strongly supports funding for the following specific projects.
FLP Projects
    Maine--Katahdin Forest Expansion ($3.7 million); Maine--Rangeley 
High Peaks ($3.5 million); New Hampshire--Cardigan Highlands ($3.8 
million); New Hampshire--Mahoosuc Gateway II ($5 million); New York--
Follensby Pond ($7 million); Vermont--Eden Forest ($2.2 million); and 
Vermont--Adams Pond ($1.6 million).
LWCF Projects
    New Hampshire--Mahoosuc Gateway I ($1.375 million); New Hampshire, 
Maine--Umbagog NWR ($4.5 million); Vermont--Green Mountain NF ($2.25 
million); Vermont--Chateauguay--No Town ($1.25 million); and New 
Hampshire, Vermont, Connecticut, Massachusets--Silvio O.Conte NWR 
($2.965 million).
    In closing, we thank the subcommittee for your continuing 
leadership on Federal land conservation and forestry assistance. The 
NFA stands ready to work with you to secure full and consistent funding 
for the LWCF, for the FLP, and for the critically important State Fire 
Assistance Program that ensure that our conserved lands and private 
forests are all well-managed heading into the future. Thank you for the 
opportunity to provide this testimony.

                      MEMBER ORGANIZATIONS OF NFA

    Adirondack Communities Advisory League; Adirondack Council; 
Adirondack Mountain Club; American Hiking Society; Appalachian Mountain 
Club; Appalachian Trail Conservancy; Association for the Protection of 
the Adirondacks; Audubon New York; Audubon Vermont; Biodiversity Legal 
Foundation; Catamount Trail Association.
    Chewonki Foundation; Citizens Campaign for the Environment; 
Conservation Law Foundation; Defenders of Wildlife; Environmental 
Advocates; Environment New Hampshire; Forest Guild; Forest Watch; 
Garden Club of America; Gorham Trails Land Trust; Green Mountain Club.
    Greensboro Land Trust; Jay Ericson Photography; Keeping Track; 
Maine Appalachian Trail Land Trust; Maine Audubon; Massachusetts 
Audubon Society; MetaFore; National Parks Conservation Association; 
National Wildlife Federation; Natural Resources Council of Maine; 
Natural Resources Defense Council.
    New England Forestry Foundation; New York League of Conservation 
Voters; New York Rivers United; North Woods Stewardship Center; 
Residents' Committee to Protect the Adirondacks; Rural Vermont; Sierra 
Club; Student Environmental Action Coalition; The Wilderness Society; 
Trout Unlimited--Basil Woods Jr. Chapter; Trout Unlimited--National.
    Trust for Public Land; Trust to Conserve Northeast Forestlands; 
Vermont Alliance of Conservation Voters; Vermont Businesses for Social 
Responsibility; Vermont Land Trust; Vermont Natural Resources Council; 
Vermont Public Interest Research Group; Vermont Woodlands Association; 
Vermont Woodnet; Vermont Youth Conservation Corps; World Wildlife Fund.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Madam Chairman and members of the subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2010 Department 
of the Interior appropriations and funding for the National Fish and 
Wildlife Foundation (NFWF). We appreciate the subcommittee's past 
support and respectfully request your approval of funding at the 
following levels:
  --$10 million through the U.S. Fish and Wildlife Service's (FWS) 
        resource management general administration appropriation;
  --$3 million through the FWS's resource management endangered species 
        appropriation to conserve and restore Pacific salmon in 
        Washington State;
  --$5 million through the Bureau of Land Management's (BLM) management 
        of lands and resources appropriation; and
  --$5 million through the Forest Service's (FS) National Forest System 
        appropriation.
    This funding request for fiscal year 2010 is within the authorized 
levels and would allow the NFWF to uphold our mission and expand our 
successful partnerships with the FWS, BLM, and FS. Mr. Chairman, I 
would like to make one very important point: we are asking for your 
continued support of well-established conservation programs with 
national significance. The NFWF is required by law to match each 
federally appropriated dollar with a minimum of one non-Federal dollar. 
We consistently exceed this requirement by leveraging Federal funds at 
a 3:1 ratio while providing thought leadership and emphasizing 
accountability, measurable results, and sustainable conservation 
outcomes.
    In 2009, the NFWF is celebrating its 25th anniversary and a 
remarkable history of bringing private partners together to leverage 
Federal funds to conserve fish, wildlife, plants and their habitats. As 
of fiscal year 2008, the NFWF had awarded more than 10,000 grants to 
more than 3,500 national and community-based organizations through 
successful partnerships with the FWS, BLM, FS, and other Federal 
agencies. Our collaborative inter-agency model has grown to include 
partnerships with the Environmental Protection Agency, National Oceanic 
and Atmospheric Administration, USDA Natural Resources Conservation 
Service, and several other Federal agencies. This effective model 
brings together multiple Federal agencies with State and local 
government and private organizations to implement conservation 
strategies that directly benefit diverse habitats and a wide range of 
fish and wildlife species.
    This subcommittee's funding has been critical to our success in 
attracting additional funding for conservation through corporate 
contributions, legal settlements, and direct gifts. As a neutral 
convener, the NFWF is in a unique position to work with the Federal 
agencies, State and local government, corporations, foundations, 
conservation organizations, and others to build strategic partnerships 
to address the most significant threats to fish and wildlife 
populations and their habitats. Currently, the NFWF has active 
partnerships with more than 30 corporations and foundations and 17 
Federal agencies.

          IMPLEMENTATION OF STRATEGIC CONSERVATION INITIATIVES

    It is widely known that climate change will endanger some wildlife 
populations and ecosystems more than others. In fiscal year 2008, the 
NFWF-initiated grant-making through new keystone initiatives, which 
focus on select species of birds, fish and sensitive habitats. With 
modest funding increases in fiscal year 2010, we will accelerate 
implementation of these strategic initiatives, many of which seek to 
address the affects of climate change through wildlife and natural 
resource adaptation. To ensure success in these investments, we are 
incorporating monitoring and evaluation into the entire lifecycle of 
the keystone initiatives in order to measure progress, promote adaptive 
management, demonstrate results, and continuously learn from our grant-
making. With our partners, the NFWF has identified several species and 
ecosystems in need of immediate conservation action, a few of which are 
described below.

                FISH AND WILDLIFE MOVEMENT AND MIGRATION

    In the Western United States, maximizing wildlife movement 
opportunities and implementing targeted conservation strategies is 
critical to ensure that future generations can enjoy the diversity of 
America's natural resources. The NFWF is specifically launching 
initiatives focused on wildlife movement and migration that will 
improve the resilience of large mammal populations in the Rocky 
Mountains, Green River Basin of Wyoming and Sky Islands region of 
southern Arizona and New Mexico. We are also focusing our efforts on 
sage grouse conservation activities and developing initiatives to 
improve the resilience of imperiled migratory fish species including 
the native fishes of the upper Colorado River basin.
    The Green River Basin of Wyoming--Sublette County and other areas 
in the southwest corner of the State--are a major area for U.S. natural 
gas production and provide some of the highest-quality sagebrush, 
riparian habitats, and forest for wildlife in the west. The area also 
supports a large sage grouse population, as well as mule deer, 
pronghorn, and elk populations. Energy development impacts on wildlife 
movement and habitat are being addressed by energy companies, BLM, and 
other Government agencies. Our goal is to work with public and private 
partners to accelerate these efforts through several key strategies 
which include eliminating fence and other barriers that obstruct 
wildlife movement, reducing road mortality along important migratory 
pathways, and protecting key parcels of private ranchland from 
development and subdivision with conservation easements.

                  WATER SUPPLY AND STREAM RESTORATION

    We also recognize that climate change will greatly exacerbate two 
existing water supply problems which impact wildlife and the public--
too little water and the seasonality of freshwater supplies. The NFWF 
is working proactively with Federal, State, and local partners to 
expand voluntary water transaction programs and launching new 
initiatives to increase natural water storage. These efforts will 
benefit a diversity of wildlife species while improving water flows 
year-round for human use.
    For example, California faces a likely future climate that drops 
more rain and less snow on the Sierra Nevada Mountains. More water will 
flow off the mountains in the winter and spring, leaving less for fish, 
wildlife, and people during the drier summers to come. Sierra Nevada 
alpine wetlands, or ``wet meadows'', are hotspots within the Sierra 
Nevada ecosystem for wildlife diversity. Federal agencies manage about 
40 percent of the area of these mountain ranges, but wet meadow habitat 
along valley bottoms is primarily private land. Our challenge is to 
foster large-scale restoration efforts to positively impact stream flow 
in the dry season. To that end, the NFWF will invest in partnerships 
that provide incentives to private landowners to conserve springs and 
wet meadows and provide artificial water sources to protect stream 
habitats.
    In the Klamath Basin, the NFWF will be focusing on spring systems 
either by acquisition, easement, or voluntarily modifying agricultural 
practices as it is the soundest strategy for recovery of both 
endangered Suckers and Coho salmon. This strategy will provide these 
species and other fishes the ability to withstand climate change 
(resilience) much longer into this century. Similarly, an investment 
strategy of protecting and restoring spring systems in the Shenendoah 
River Basin will allow for the return of Eastern Brook Trout and 18-24 
additional native species.
    In the Upper Colorado River Basin, locating areas at the warmwater-
coldwater interface which contain Colorado Cutthroat trout and native 
suckers and chubs is providing the framework to sustain these fishes 
into the next century, on both public and private lands. The NFWF has 
successfully implemented a water transactions program in the Columbia 
Basin in partnership with the Bonneville Power Administration, local 
water trusts, and willing landowners. All of these approaches for 
stream restoration will be necessary to sustain or recover the 700 fish 
species in decline in North America.
    Increased funding through FWS, BLM, and FS in fiscal year 2010 will 
also support the NFWF's ongoing conservation grant programs including 
Bring Back the Natives, Pulling Together Initiative, Great Lakes 
Watershed Restoration Fund, Long Island Sound Futures Fund, and 
Chesapeake Bay Stewardship Fund. FWS funding is also critical to our 
marine and coastal initiatives, such as the Coral Reef Conservation 
Fund and International Sea Turtle Conservation Fund. These grant 
programs, which effectively leverage funds from multiple Federal 
agencies and corporate partners, continued positive results in 2008 
with priority project requests far exceeding available funds.
    The Washington State Community Salmon Fund provides community-based 
grants to assist rural communities, farmers, ranchers and other private 
landowners with salmon habitat conservation projects. We appreciate the 
subcommittee's continued support of this partnership, which has also 
includes funding and participation from the Washington Salmon Recovery 
Funding Board, the Washington Conservation Commission, King County, 
Washington and Pierce County, Washington and benefits every major 
salmon-bearing watershed across Washington. As of January 2009, the 
Fund has supported 391 grants, resulting in improved fish passage and 
habitat on more than 1,000 miles of streams, rivers, and marine 
shorelines and restoration of more than 30,000 acres of complex 
ecosystems. Federal funds are more than doubled by partners and 
grantees at the local level and more than 20,000 local volunteers have 
assisted with projects in all 27 lead entity salmon recovery areas of 
Washington State.

          EFFICIENCY, PERFORMANCE MEASURES, AND ACCOUNTABILITY

    As you know, the NFWF has taken important strides to strengthen our 
performance measures and accountability. For example, the NFWF is 
working with scientists and other experts to develop species-specific 
metrics for each of our keystone initiatives that we will use to 
measure our progress in achieving our conservation outcomes. Our grant 
review and contracting processes have been improved to ensure we 
maximize efficiency while maintaining strict financial and evaluation-
based requirements. We have enhanced our Web site with interactive 
tools such as webinars and a grants library to enhance the transparency 
of our grant-making, and instituted a new paperless application and 
grant administration system. In 2009, we will continue our efforts 
improve communication between and among our stakeholders and 
streamlining of our grant-making process.
    The NFWF's grant-making involves a thorough internal and external 
review process. Peer reviews involve Federal and State agencies, 
affected industry, nonprofit organizations, and academics. Grants are 
also reviewed by the NFWF's issue experts, as well as evaluation staff, 
before being recommended to the Board of Directors for approval. In 
addition, according to our congressional charter, the NFWF provides a 
30-day notification to the Members of Congress for the congressional 
district and State in which a grant will be funded, prior to making a 
funding decision.
    Once again, Madam Chairman, we greatly appreciate your continued 
support and hope the subcommittee will approve funding for the NFWF in 
fiscal year 2010.
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance

    Chairman Feinstein and members of the subcommittee: On behalf of 
the National Humanities Alliance and its 102 member organizations and 
institutions, we write to express strong support for the National 
Endowment for the Humanities (NEH). Our members, and the thousands of 
teachers, scholars, humanities organizations, and institutions they 
represent, use NEH grants to maintain a strong system of academic 
research, education, and public programs in the humanities. We urge you 
to provide the NEH with at least $230 million in fiscal year 2010, 
including: $50 million for competitive grant programs and $25 million 
for operating grants to State humanities councils. This funding level 
would represent a $75 million increase more than the fiscal year 2009 
enacted level, and would allow NEH to meet significant unmet needs at 
both the Federal and State levels.

                              UNMET NEEDS

    As the single largest source of support for the humanities, NEH 
funding is critical to the health of our Nation's education and 
research infrastructure. NEH represents a unique funding source for 
nonprofit institutions central to the education and the cultural life 
of our Nation's citizens, including: 2- and 4-year colleges, 
universities, local education associations, museums, historical 
societies, libraries, independent research institutions, scholarly 
societies, and State humanities councils. Unfortunately, demand for 
humanities project support, as demonstrated by NEH application rates 
and feedback from the field, far exceeds funding available. In fiscal 
year 2008, applications for NEH grants in all programs represented $421 
million in requested funds, more than three times the program dollars 
obligated for that year.
    At the national level, only 16 percent of competitive, peer-
reviewed project proposals were funded, compared to a 26 percent 
funding rate for merit-reviewed projects at the National Science 
Foundation (an agency similar to NEH in its mission to strengthen 
education and research at all levels in its sector). We estimate that 
at least $40 million would be required to help close this opportunity 
gap by allowing NEH to increase the number of applications accepted for 
critical, underfunded programs, such as:
  --fellowships for college/university faculty and independent 
        scholars;
  --classroom curriculum and materials development;
  --preservation of historically significant collections and resources;
  --digital humanities workshops for teachers and faculty;
  --public media projects in film, radio and television; and
  --capacity-building challenge grants to humanities institutions.
    Additional funding of at least $10 million is also needed to allow 
NEH to begin to introduce or expand targeted support in several areas 
where Federal leadership is essential, including: international 
education and global society perspectives (at all levels of learning), 
digital humanities projects, graduate education, and data collection 
and dissemination of information on the state of the humanities.
    NEH is the only Federal research agency that does not have funding 
to support graduate students, or engage in regular collection and 
analysis of data on the health of the fields it serves.
    Our request would also strengthen the capacity of State humanities 
councils to support local cultural and educational institutions, 
teaching and learning resources, family literacy programs, community 
discussion groups, and programs for new citizens. A recent survey of 
State council capacities and resources has identified $150 million in 
funds needed for programs and infrastructure support in their States. 
State councils seek to secure half this figure in Federal funding over 
the next 3 years.
    NEH has the capacity to operate at much higher funding levels. 
While NEH has made much-needed funding gains in recent years, its 
current budget of $155 million is still far below historical levels. 
For example, in 1994, NEH was funded at $258 million when adjusted for 
inflation; and at its peak in 1979, NEH was funded at $431 million in 
2008 constant dollars. While some additional administrative funds would 
likely be needed to oversee grants at the levels suggested, the 
structure is already in place for NEH to immediately fund more, 
excellent projects in a way that is proven, competitive, transparent, 
and accountable.

                     THE HUMANITIES AND THE ECONOMY

    In an increasingly knowledge-based global economy, study of the 
humanities--languages, literatures, philosophy, the arts, religion, 
anthropology, government, and other related fields--are prerequisites 
for vocational mobility, personal growth, and civic participation. In 
addition, the humanities impart practical knowledge and skills needed 
by all Americans, including reading, writing, language proficiency, 
critical thinking, moral reasoning, effective communication, historical 
knowledge, civic awareness, and cultural literacy.
    Investment in broad-based education through the humanities is 
essential to our Nation's long-term economic well-being, and to our 
continued status as a world leader. The 1965 legislation that 
established the NEH states:

    ``An advanced civilization must not limit its efforts to science 
and technology alone, but must give full value and support to the other 
great branches of scholarly and cultural activity in order to achieve a 
better understanding of the past, a better analysis of the present, and 
a better view of the future.''

    Unfortunately, in the 40 years since NEH's founding, Federal 
investment in the humanities has lagged behind other fields; and it 
continues to fall further behind as billions of Federal dollars are 
rightly invested in science and engineering research and education each 
year. (For example, NEH funding today represents only 2.5 percent of 
National Science Foundation funding, compared to 16 percent 30 years 
ago.) We cannot allow this gap to grow unheeded.
    As the economic recession deepens, it is critical that the Federal 
Government reinvigorate its investment in the humanities, or we risk 
losing a generation of young students, scholars, and researchers. 
Serious long-term challenges posed by rapid globalization, economic 
crisis, and threats to our national security require solutions informed 
by the humanities. As a Nation, we must cultivate deep expertise and 
knowledge in all areas of learning, and support the full range of our 
citizens' talents--from math and science, to history and foreign 
languages. And we must also ensure broad, equitable access to high-
quality humanities instruction throughout our Nation's K-12 and higher 
education institutions.
    John Hope Franklin, a leading U.S. historian who passed away this 
year at the age of 94, once stated:

    ``I want to be out there on the firing line, helping, directing or 
doing something to try to make this a better world, a better place to 
live.''

    His words express the sentiments of scholars around the country who 
are working to address pressing policy issues, from cultural 
anthropologists lending their expertise to make sure that vaccines are 
used effectively in developing countries, to historians re-examining 
current issues like race, poverty, and immigration in America, to 
college/university faculty volunteering with family literacy programs, 
to linguists documenting disappearing languages among Native Americans 
and populations around the world, to curators repairing documents and 
other artifacts damaged by flood waters.
    The humanities workforce should be recognized as a driver of our 
Nation's long-term recovery efforts, as well as a sector deserving of 
Federal investment to address serious economic pressures facing these 
fields. The humanities workforce is significant--according to data 
published in the newly released Humanities Indicators 
(www.humanitiesindicators.org), more than $2.5 million Americans are 
engaged in a broad range of humanities professions, including:
  --K-12 teaching;
  --postsecondary teaching (including college/university, business, and 
        Government posts);
  --newspaper, periodical, book, and directory publishing;
  --humanities professions (librarians, editors, writers/authors, 
        archivists, curators, museum technicians, interpreters, 
        translators, historians); and
  --other related professions (news analysts, reporters, 
        correspondents, tour guides, audiovisual collections 
        specialists).
    Unfortunately, negative pressures are threatening the humanities 
workforce. Especially troubling are threats to the pipeline of young 
scholars and teachers, as exemplified by field reports and data from 
the humanities indicators:
  --In 2000, the percentage of middle (29 percent) and high school 
        (37.5 percent) students taught by a highly qualified history 
        teacher was lower than for any other major subject area.
  --Since 1990 mean math SAT scores have been higher than verbal 
        scores, so that by 2006 the mean math score was 15 points 
        higher than the mean verbal score (a reversal of historical 
        trends).
  --Humanities faculty receive the lowest salaries of all fields. They 
        also have a higher proportion of part-time, nontenured 
        positions than their counterparts in the sciences and 
        engineering.
  --As college/university departments face tightening budgets, the 
        availability of tenure-track positions is constricting; 
        humanities disciplinary associations report decreased numbers 
        of job openings through publication ads and annual meetings in 
        2009.
    NEH cannot single-handedly address these issues, but its leadership 
in these areas--research, education, preservation, public engagement, 
data gathering--is needed now more than ever. Each year, NEH grants 
support strengthened institutional capacity, jobs, and professional 
development for thousands of scholars, educators, curators, librarians, 
public historians, museum professionals, filmmakers and others around 
the country. These funds are not only vital for the direct support 
provided, but for the additional, non-Federal dollars stimulated by NEH 
seed money--especially as endowments, State, and local funding, 
individual giving, and other traditional sources of non-Federal support 
constrict.

                           NEH CORE PROGRAMS

    The NEH's national, core program competitions are at the center of 
the agency's mission to create, preserve, and disseminate knowledge in 
the humanities. Since 1994, these programs have suffered 
disproportionately from budget cuts and inflation. Requested funds 
would reinvigorate:
  --NEH Research Grants, which support fellowships, stipends, 
        collaborative research, and scholarly editions. NEH application 
        success rates (less than 12 percent overall, and between 5.7-
        7.8 percent for individual fellowships) confirm findings from a 
        recent questionnaire by the National Humanities Alliance that 
        identified funding for humanities research as the leading 
        priority among its members. Fiscal year 2008 application 
        requests in this division totaled $115 million.
  --NEH Preservation and Access Grants, which support the preservation 
        of historically significant materials; training and education 
        of curatorial staff; the creation of reference materials and 
        new methods to increase access to them. According to the 
        Heritage Health Index, a 2004 survey conducted by Heritage 
        Preservation, only 37 percent of collecting institutions in the 
        United States report adequate storage and more than one-half 
        report damage to collections due to poor environmental 
        conditions for their collections. Fiscal year 2008 applications 
        totaled $85.8 million.
  --NEH Challenge grants, which help local, State, and national 
        institutions secure humanities resources and activities through 
        fundraising as a means of building permanent resources for the 
        future. Since the program started, NEH Challenge grants have 
        leveraged $1.58 billion in non-Federal support. Fiscal year 
        2008 applications totaled $54.5 million.
  --NEH education programs, which support professional development 
        workshops for teachers and faculty members, model curricula, 
        and classroom resources for the humanities for all grade 
        levels. Fiscal year 2008 applications totaled $48.7 million.
  --NEH public programs, which support traveling exhibits and community 
        programs in local museums and libraries; film, television and 
        radio productions. NEH public programs reach literally millions 
        of Americans each year. Fiscal year 2008 applications totaled 
        $61.7 million.
    Launched in fiscal year 2007, the Office of Digital Humanities 
offers grants to support the use of digital technologies in conducting 
research and presenting scholarship. Fiscal year 2008 applications 
totaled $13.7 million.

                               CONCLUSION

    We recognize that Congress faces difficult choices this year. We 
ask the subcommittee to fund a significant increase for the NEH in 
fiscal year 2010 as a necessary investment in the long-term well-being 
of our Nation's economic, cultural, and civic institutions. We are 
grateful for the subcommittee's vigorous support for the arts and 
humanities, and would especially like to recognize the subcommittee's 
leadership for the $10 million increase received by NEH for fiscal year 
2009. Thank you for consideration of our request.
    Founded in 1981, the National Humanities Alliance is a coalition of 
nonprofit humanities organizations and indications dedicated to the 
advancement of humanities education, research, preservation and public 
programs (www.nhalliance.org).
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission

    Mr. Chairman and the other honorable members of the subcommittee, I 
am Billy Frank, Jr., Chairman of the Northwest Indian Fisheries 
Commission (NWIFC). It is indeed a privilege to be among such a 
distinguished cadre of tribal leaders who are also here to present 
funding requests of their people. On behalf of the membership of the 
NWIFC, I will speak to our natural resource management funding request 
for the fiscal year 2010 budget for the Bureau of Indian Affairs (BIA) 
and the Environmental Protection Agency (EPA). Without the details of 
the President's fiscal year 2010 budget request, my comments are based 
on my best analysis of what could be the outlook. Summary of NWIFC-
specific appropriations requests are:
Secure and Enhance Western Washington Fisheries Management Base Funding
    $1.8 Million.--Restore reduction incurred in the President's fiscal 
year 2009 budget: BIA/natural resources management/rights protection 
implementation/U.S.-Canada Pacific Salmon Treaty (PST).
    $12 Million Enhancement of Western Washington Fisheries Management 
Base Funding.--BIA/natural resource management/rights protection 
implementation/western Washington boldt.
Secure Funding for Newly Mandated Management Responsibilities
    $4 Million--Increase Shellfish Management and Enforcement 
Funding.--BIA/natural resource management/rights protection 
implementation.
    $1.5 Million--New Funding for Tribal Groundfish Management 
Responsibilities.--BIA/natural resource management/rights protection 
implementation.
Maintain the Timber-Fish-Wildlife (TFW) Program
    $1.74 Million TFW Program.--BIA/natural resource management/rights 
protection implementation.
Maintain the Mass Marking Program
    $2.4 Million Mass Marking Program.--BIA/natural resource 
management/rights protection implementation.
Protect Marine Resources of Puget Sound and Co-manage Natural Resources
    $2 Million.--EPA/National Estuaries Program/Puget Sound 
Partnership.
Protect Tribal Water Resources Through Cooperative Partnerships
    $3 Million.--BIA water resource management.
    $500,000.--United States Geological Survey (USGS) investigations.
Support and Enhance Tribal Water Quality Programs
    $67 Million.--EPA's Nationwide General Assistance Program (GAP).
    $3.5 Million.--Development of EPA GAP implementation.
Recover Salmon Through Hatchery Maintenance/Rehabilitation and Reform
    $1.5 Million--Hatchery Maintenance/Rehabilitation.--BIA natural 
resource management/fish and wildlife projects/fish hatchery repair.
    $3.34 Million--Hatchery Reform Implementation.--BIA/natural 
resource management/fish and wildlife projects.
Strengthen Tribal Wildlife Management and Assure Treaty-protected 
        Hunting Rights
    $5 Million--Tribal Wildlife Management--Treaty Hunting Rights.--
BIA/Natural Resource Management/Rights Protection Implementation.

               THE NORTHWEST INDIAN FISHERIES COMMISSION

    Indian tribes have always inhabited the watersheds of western 
Washington, with cultures based on harvesting fish, wildlife, and other 
natural resources in the region. In the mid-1850s, a series of treaties 
were negotiated between the Federal Government and the tribes in the 
region. Through the treaties, the tribes gave up most of their land, 
but also reserved certain rights to protect their way of life. The 
promises of the treaties were quickly broken in the decades that 
followed as the tribes were systematically denied their treaty-
protected rights by the State of Washington. In 1974, the tribes won a 
major victory in United States vs. Washington (Boldt Decision), which 
reaffirmed their treaty-protected fishing rights. The ruling--which has 
been upheld by the U.S. Supreme Court--established the tribes as co-
managers of the resource who were entitled to 50 percent of the 
harvestable number of salmon returning to Washington waters. Following 
the ruling, the tribes created the NWIFC to assist them in conducting 
orderly and biologically sound fisheries. More recent Federal court 
rulings upholding treaty-reserved shellfish harvest rights have further 
expanded the role and responsibilities of the tribes as natural 
resource managers. Those rulings, combined with the interconnectedness 
of all natural resources, mean that tribal participation is today 
necessary in nearly all aspects of natural resource management in the 
region.

                    REQUESTS JUSTIFICATION NARRATIVE

BIA/Natural Resource Management/Rights Protection Implementation
  --$1.8 Million Restoration of cut in the President's Budget.--This 
        reduction, which targeted the PST, affects the NWIFC, as well 
        as the Columbia River Inter-Tribal Fish Commission and the 
        Metlakatla Indian Community. The NWIFC portion of this cut is 
        about 67 percent, or a reduction of $1.2 million. The tribes 
        and the NWIFC perform essential governmental services for the 
        BIA and the PST process, representing, negotiating, performing 
        research and monitoring, policy coordination, technical 
        assistance, and other contractual support. These monies are 
        critical for the successful renegotiation and implementation of 
        the treaty.
  --$12 Million Enhancement of Western Washington Fisheries Management 
        Base Funding.--The tribes and the NWIFC request an increase of 
        $12 million for the base Western Washington Fisheries 
        Management program funding due to long-term increased 
        management obligations and costs. Base funding levels for 
        Tribal Natural Resources was initially set more than 30 years 
        ago. Funding declines in recent years are attributable to many 
        reasons; inflationary costs, rescissions and the overall 
        appropriations climate. Hence, today we are receiving less 
        funding than we did three decades ago but the level of 
        management responsibility has dramatically increased.
  --$4 million for shellfish management and enforcement
    The tribes request an increase of $4 million for base program 
funding to support increased shellfish management needs. In 1999, the 
Supreme Court denied cert. and let stand the favorable decision of the 
9th Circuit Court which included guaranteed tribal rights to harvest 
and gather shellfish for their commercial, ceremonial and subsistence 
needs. Tribes need monies to implement this right, in much the same way 
as they did after the original United States vs. Washington case was 
decided. Tribes need new resources to develop several dozen new 
management plans, collect information to assess treaty/nontreaty 
sharing arrangements, to implement the shellfish sanitation consent 
decree and to better monitor and enforce tribal regulations on deep-
water fisheries.
  --$1.5 million for tribal groundfish management
    The tribes request an increase of $1.5 million for base program 
funding to support increased groundfish management needs. This 
appropriation would fund groundfish management, monitoring and 
enforcement for the four coastal treaty tribes who do not currently 
receive funds for these activities such as data collection, analysis, 
and monitoring. The transition to greater regional- and species-
specific management increases the demand for information and staff.
  --$1.74 Million to Maintain TFW Program.--TFW has served as the 
        cornerstone-funding source for tribal habitat management 
        capabilities for almost 20 years. Since 2000, Congress has 
        provided an allocation for additional Tribal participation in 
        TFW and the Forest and Fish Report (FFR) development. 
        Originally at $3.08 million, this level was decreased in fiscal 
        year 2006, but has been supplemented by annual funds from the 
        State of Washington. An additional $1.74 million is needed to 
        supplement the State funding to make the tribal program whole 
        as it implements the adaptive management provisions of the TFW/
        FFR Plan, which has been made a part of a section 10, Habitat 
        Conservation Plan under the Endangered Species Act.
  --$2.4 Million to Maintain the Mass Marking Program.--These funds are 
        needed to fully mark salmon at tribal hatcheries and to use 
        these marked fish to scientifically monitor salmon populations 
        and watersheds in Western Washington pursuant to the Federal 
        requirement to mass mark Pacific Salmon reared in facilities 
        funded by Federal dollars. Plans to implement more extensive 
        selective fisheries require additional funding with the total 
        cost expected to be at least $2.4 million in fiscal year 2010.
  --$5 Million Tribal Wildlife Management--Treaty Hunting Rights.--
        Wildlife management is a new initiative needed to ensure that 
        tribal treaty rights to hunt are being fulfilled. An 
        appropriation of $5 million is requested to allow each tribe to 
        develop basic infrastructure to deal with tribal wildlife 
        management and treaty hunting rights. This funding would also 
        provide project monies for competitive grants.

  BUREAU OF INDIAN AFFAIRS/U.S. GEOLOGICAL SURVERY/COOPERATIVE WATER 
                           RESOURCES PLANNING

  --$3.5 million for tribal water resource protection
    This funding request of $3.5 million supports a partnership between 
tribes and the Department of the Interior through the USGS and the BIA. 
This partnership will provide for the collection and organization of 
water resources data important to supporting tribes individually and 
collectively in the management and planning necessary to protect their 
treaty and reserved water rights. This will require new funding from 
the BIA to the individual tribes. The tribes are seeking new financial 
resources to refine and implement the technical strategy. While tribes 
have in place some of the expertise to accomplish components cited 
above, most notably biology and water quality, inadequate levels of 
personnel and expertise hinder our ability to accomplish the other 
tasks.
bureau of indian affairs/hatchery maintenance/rehabilitation and reform
  --$1.5 Million Salmon Restoration.--BIA/natural resource management/
        fish and wildlife projects/fish hatchery repair
  --$3.34 Million Salmon Restoration.--BIA/natural resource management/
        fish and wildlife projects/hatchery reform implementation or 
        NOAA/pacific salmon/Pacific Coastal Salmon Recovery Fund 
        (PCSRF)
    This package supports hatchery maintenance and rehabilitation and 
hatchery reform implementation funding, which in recent years has come 
from both the BIA/fish hatchery repair and the NOAA fisheries/PCSRF 
accounts. In fiscal year 2009, the BIA/fish hatchery repair account was 
increased by $500,000. In fiscal year 2010, $1.5 million is needed in 
fiscal year 2010 to address the backlog of repair within the BIA fish 
hatchery system; $3.34 million is needed to address currently 
identified hatchery reform projects.
environmental protection agency/national estuaries program/puget sound 

                     PARTNERSHIP/GAP IMPLEMENTATION

  --$2 Million Puget Sound Partnership.--Marine resources are essential 
        to all NWIFC tribes. The emerging Puget Sound Partnership 
        conveniently brings together key marine issues and focuses on 
        salmon recovery, land use management and regulatory changes. 
        There is a huge need for additional funding. Tribes will need 
        to be funded at $2 million so that they can participate in the 
        necessary scientific work and process and policy discussions 
        that this partnership entails.
  --EPA/GAP
    We support full funding of the EPA Indian GAP at $67 million as 
this capacity funding is critical to the tribes' ability to sustain 
their important water quality programs.
  --EPA/GAP implementation
    We support the development of an implementation program that 
logically follows the capacity building under the GAP. These existing 
programs represent a substantial investment from the tribes and EPA and 
are the foundation that will support new programs. Tribes in western 
Washington have agreed to partner with EPA region 10 toward development 
of a pilot demonstration project effort to create a pathway from 
capacity development to implementation. The initial cost for this 
effort would be $3.5 million, which would provide coordination, 
technical assistance and start up costs.
    Thank you for allowing me to present these requests to you today.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources

    Mr. Chairman, thank you for this opportunity to provide a statement 
in support of funding programs authorized under the Water Resources 
Research Act (42 U.S.C. 10301 et seq.), which Congress unanimously 
reauthorized in 2006 in Public Law 109-471. The act authorizes a 
program of grants through fiscal year 2011 to the Nation's 54 State and 
territorial water resources research institutes for research, 
education, and outreach focused on water supply improvement. The 
National Institutes for Water Resources (NIWR) respectfully recommends 
an appropriation of $8,800,000 in the fiscal year 2010 U.S. Geological 
Survey (USGS) budget for the Water Resources Research Institute Program 
(the act authorizes an appropriation of $18,000,000.) These funds will 
be allocated as follows:
  --$7,000,000 for competitive water supply research seed grants, 
        technology transfer, professional education, and outreach to 
        the water-user community by the Institutes ($125,000 per 
        institute);
  --$1,500,000 to support the national competitive research grants 
        program; and
  --$300,000 for program administration by the USGS.
    I am Will Focht, Director of the Oklahoma Water Resources Research 
Institute. In addition, I am president-elect of the NIWR, the 
association of the individual Institutes established under the Water 
Resources Research Act.
    Urgency of Water Supply Improvement.--Two National Research Council 
(NRC) reports (``Envisioning the Agenda for Water Resources Research in 
the Twenty-First Century'' in 2001 and ``Confronting the Nation's Water 
Problems: The Role of Research'' in 2004) thoroughly examined the 
urgency and complexity of water resources issues facing the United 
States. The following challenges are cited as reasons for these 
studies:
  --Abundant evidence demonstrates that the condition of water 
        resources in many parts of the United States is deteriorating;
  --Demand for water resources to support population and economic 
        growth continue to increase, although water supplies to support 
        this growth are fully allocated in most areas;
  --In some areas, the availability of sufficient water to service 
        growing domestic uses is in doubt, as is the future sufficiency 
        of water to support agriculture in an increasingly competitive 
        and globalizing agricultural economy;
  --Repair of the aging water infrastructure will require hundreds of 
        billions of dollars;
  --The frequency and magnitude of damages attributable to droughts and 
        floods are increasing, providing evidence of increasing 
        vulnerability to extreme climate and weather events;
  --The threat of waterborne disease remains, as exemplified by 
        outbreaks of cryptosporidium, as well as chronic exposure to 
        agricultural contaminants such as nitrates and pesticides; and
  --Resource management institutions have limited capacity to manage 
        aquatic habitats to improve species diversity and provide 
        ecosystem services, while also meeting human needs.
    These reports identify 43 areas where the need for improved water 
resources management is critical. The following examples highlight the 
importance of increasing our understanding of the interdependence of 
water quantity and quality; the balance between human and ecological 
water uses; and the legal, institutional, and social factors that 
contribute to sustainable water resources management.
  --Improvement of existing supply enhancing technologies such as 
        wastewater treatment, desalinization, and groundwater banking.
  --Understanding of the impact of land-use changes and best management 
        practices on pollutant loading to waters, ecosystem services, 
        and biodiversity.
  --Understanding and prediction of the frequency and causes of floods 
        and droughts.
  --Understanding of global climate change and associated hydrologic 
        impacts.
  --Development of more efficient water use strategies and optimization 
        of the economic return for the water use in all sectors.
  --Development of legal regimes that promote conjunctive use of 
        surface and ground water.
  --Development of adaptive management as the best approach to water 
        resources management.
  --Understanding of the role of the private sector in achieving 
        efficient water services.
  --Development and evaluation of alternative processes for stakeholder 
        participation in the formulation and implementation of water 
        policies and plans.
    Justification for Federal Funding of Water Resources Research.--
Several reasons for Federal support of water resources research can be 
given. First, authorized by Congress in 1964 the Institutes conduct 
``research that fosters (A) improvements in water supply reliability; 
(B) the exploration of new ideas that (i) address water problems; or 
(ii) expand understanding of water and water-related phenomena; (C) the 
entry of new research scientists, engineers, and technicians into water 
resources fields; and (D) the dissemination of research results to 
water managers and the public.''
    Second, water resources are defined not by State boundaries but by 
physical geography. What happens to surface and ground waters in 
upstream States affects water availability and quality in downstream 
States. Federal support of water research can more effectively address 
interstate water resource management challenges than can individual 
States.
    Third, most water problems faced by a State are shared by many 
States. Federally funded research allows an efficient, nonduplicative, 
and comprehensive approach to these problems.
    Fourth, the Federal Government already plays a significant role in 
water resource management through its water quality regulations 
administered by the Environmental Protection Agency as well as water 
management programs administered by the Army Corps of Engineers and 
Bureau of Reclamation.
    Fifth, the water resource research Institutes leverage Federal 
funds to obtain at least two non-Federal dollars for each Federal 
dollar. Thus, the Federal appropriation results in a larger pool of 
research funding. Without this leverage, research support would 
decrease by far more than the Federal funds allocated. In Oklahoma, for 
example, Federal research dollars are matched with State dollars to 
sponsor research totaling $750,000 over 5 years in support of the 
State's comprehensive water planning process. This Federal/State/
university effort would not exist without the funding from the Water 
Resources Research Act.
    Sixth, the national competitive research program authorized under 
the Act provides Federal grants that focus on regional and interstate 
water resources problems beyond those affecting single States, which 
must also be matched dollar-for-dollar with non-Federal funds. By 
continuing and enhancing these collaborative efforts, Institutes can 
better address critical issues on long-term water planning and supply 
that exceed the resources of any one State.
    Seventh, Federal support of water research, outreach, and education 
is consistent with the concept of water as a public good. As such, 
State and local governments and private entities cannot produce as much 
as can be justified by the overall value of the resource.
    Institutes Conduct Applied Water Research Tailored to State and 
Regional Priorities.--Our Institutes are uniquely positioned to conduct 
water resources research in several ways.
  --Institutes are not limited by a policy-driven or regulatory mission 
        and thus can address the entire spectrum of water resources 
        issues, including gaps between Government agencies. By focusing 
        on science, the program serves as an objective broker of 
        information among a wide range of constituencies.
  --Institutes examine long-term consequences of policies and 
        recognizing long-term problems across all water-related 
        disciplines.
  --Institutes are more flexible in addressing emerging problems and 
        more adaptable to local cultures, institutions of governance, 
        and regional socio-economic and physical conditions.
  --Institutes and academic researchers are more likely than mission-
        driven agencies to consider institutional, in addition to 
        technical, solutions.
  --Institutes provide hands-on educational opportunities to develop 
        the highly trained workforce necessary to build national 
        capacity for sustainable water resource management.
  --Technology transfer programs at each Institute provide 
        scientifically credible communication of research needs and 
        results upward from the States and localities to Federal 
        agencies and downward from these agencies to users of research 
        results.
  --Institutes are experienced in assessing priorities for research 
        through advisory boards with representatives from virtually all 
        interested agencies and nongovernmental organizations.
  --Institutes provide information to increase the efficiency of 
        Federal water resources research investment by identifying 
        research gaps and avoiding redundancies.
  --Institutes fill research gaps to improve the effectiveness of water 
        resources management.
  --Institutes are held accountable for expenditures as well as for the 
        quality and relevance of scientific results and the vigor of 
        outreach programs via a triennial quality-review process.
  --NIWR is an established network of immense and geographically 
        diverse capabilities on the cutting edge of virtually every 
        facet of water resources. The network facilitates regional as 
        well as State and local cooperation.
  --Institutes operate their competitive research programs through a 
        single computerized research management system managed by NIWR 
        and the USGS. There is no other comparable avenue for such 
        multidirectional coordination and communication.
  --Institutes have direct access to expertise in the many disciplines 
        related to water resources. Institutes are uniquely positioned 
        to address the interdisciplinary challenges of sustaining the 
        reliability of water supplies in the face of new challenges and 
        uncertainties. For 44 years, Institutes have conducted 
        independent, objective, and scientifically credible research 
        that links science to innovative and cost-effective policies.
    Conclusion.--The activities authorized under the Water Resources 
Research Act are high-quality, cost-efficient, relevant, and needed.
    Quality.--In both the State and national research programs, 
projects are selected for funding on a competitive basis, relying on 
the reviews of peer scientists, economists, and engineers. The 
performance of each Institute is evaluated every 3 years by an 
independent, USGS-appointed panel. The most recent USGS evaluation 
report stated, ``The vast majority of institutes are strong and 
thriving and a significant subset is very strong and distinguished  . . 
. the institute program, with its federal-state matching requirement, 
is an important and significant part of the nation's water resources 
research infrastructure.'' (emphasis in original)
    Efficiency.--The water institutes must match each Federal dollar 
from their base grants with two non-Federal dollars. This is the 
highest match requirement of any Federal research program. The national 
competitive grants program requires a 1:1 match. The overall leveraging 
ratio for all of the Institutes, counting funding from all sources, is 
more than 14:1. During fiscal year 2008, Institutes sponsored 1,042 
research projects across the Nation, generated nearly 1,000 technical 
publications, conducted 142 conferences and workshops, and supported 
the research of 983 students. Only 6.8 percent of the programs' 
expenditures are dedicated to administrative overhead, which is quite 
frugal.
    Activity Relevance.--Congress was quite deliberate in directing the 
establishment of water Institutes at land grant universities because 
they specialize in identifying problems within their States, developing 
solutions, and conducting technology transfer. The act requires that 
Institutes' consult with panels of external advisors representing the 
water interests in their States. Regional and national priorities are 
addressed when the Institutes collaborate on larger projects or conduct 
research under the national competitive grants program.
    Need.--Congressional designation of water resources research 
institutes as focal points of water investigation and outreach enable 
the Institutes to exist and leverage Federal funding against funding 
from non-Federal sources. It is likely that 30 percent of the 
institutes would cease to exist without the Federal funding authorized 
by the Water Resources Research Act. Others would greatly curtail their 
activities. In many States, it is doubtful that the university system 
would be such a strong contributor to the water resources knowledge 
base without this ``seed money'' provided by Congress.
    The investments the subcommittee makes in the USGS and its programs 
underpin responsible natural resource stewardship and contribute to the 
long-term health, security, and prosperity of the Nation. Together, the 
Survey and the institutes address critical public needs and are a 
reasonable priority within an appropriations bill. We commend Secretary 
Salazar and the new administration for requesting $6,500,000 for the 
Water Resources Research Act program in fiscal year 2010. The 
administration's request recognizes the value this collaborative 
research program brings to solving national, regional and State water 
problems, but we believe more should be done. Respectfully, we urge the 
subcommittee to provide $8,800,000 for the Water Resources Research Act 
program for the upcoming fiscal year.
    Mr. Chairman, the water Institute directors appreciate the strong 
support this subcommittee has given to the Water Resources Research Act 
program and to the USGS. I hope that the Nation's water resource 
research institutes have earned your continued confidence. The 
Institute directors are ready to work with you and other stakeholders 
to address the water challenges we face in the future through research, 
education, professional training, technology transfer, and information 
exchange.
                                 ______
                                 

         Prepared Statement of the National Mining Association

           NATIONAL MINING ASSOCIATION (NMA) RECOMMENDATIONS

Department of the Interior
    U.S. Geological Survey (USGS)--Mineral Resources Program (MRP).--
Fund the MRP at the increased level of $53 million in the 
administration's request and support increased funding of $16 million 
for the Minerals Information Team (MIT).
    Bureau of Land Management (BLM)--Mining Law Administration.--
Support the $2 million increase for administration of the mining law 
program.
    Office of Surface Mining.--Reject the administration's proposal to 
eliminate mandatory payments to States and tribes that have been 
certified as having completed reclamation of their abandoned coal mines 
under the Surface Mining Control and Reclamation Act's abandoned mine 
land (AML) program.
U.S. Environmental Protection Agency (EPA)
    Methane to Markets.--Support funding for EPA's coordination of and 
participation in the Methane to Markets program.

       MINERAL RESOURCES PROGRAM--MINERALS INFORMATION TEAM (MIT)

    The USGS is the source for the majority of the United States' 
statistical data on mining and mineral commodities. The collection, 
analysis and dissemination of this information is a Federal 
responsibility that cannot be duplicated in either the private sector 
or by other levels of government, and is in fact mandated by the 
Defense Production Act of 1950, as amended in 1980 and 1992.
    The Mineral Resource Program's MIT within USGS is the leading 
source of unbiased research on the Nation's mineral resources. The 
guidance and research the program provides is vital in maintaining the 
growing value of processed materials from mineral resources that 
accounted for $609 billion in U.S. economic activity in 2008, as well 
as assessing the environmental impacts of mining.
    The statistical and analytical information provided by the MIT 
provides the basis for informed policy decisions and is extensively 
used by Government agencies, members of Congress, State and local 
governments, as well as industry, academia, and nongovernmental 
organizations. Collection of this information provides a fundamental 
service to the Nation. Specifically, the U.S. Federal Reserve Board 
uses the data for calculating the Nation's leading economic indicators, 
the U.S. Department of Commerce's Bureau of Industry and Security uses 
the data and analysis to resolve trade disputes, the Federal Reserve 
Board uses global minerals information to prepare economic forecasts, 
and U.S. intelligence agencies use the data to understand the effect 
changes in natural resource markets have on economic and political 
stability of developing countries.
    Mineral resource supply and demand issues are global in nature, and 
our Nation is becoming more dependent upon foreign sources to meet our 
metals and minerals requirements. For example, the United States has 
become more than 50 percent reliant on 43 of the 81 mineral commodities 
essential to the economy and 100 percent reliant on 18.
    In real terms, the MIT has been severely constrained by an ever-
decreasing budget (a nearly 30 percent decline) since 1996 when the 
mineral assessment group was incorporated in to the USGS. In order to 
restore its budget to levels intended when the group was moved to the 
USGS more than a decade ago, MIT would need to be funded at $24 
million. NMA encourages full funding for this important program.

                   MINING LAW ADMINISTRATION PROGRAM

    NMA believes BLM's Mining Law Administration Program (MLAP) is an 
agency facing ever-growing responsibilities and obligations to process 
notices and plans of operations necessary for domestic exploration and 
mining projects. NMA supports the administration's request for $2 
million in additional funding. The number of mining claims filed over 
the past 6 years has increased by more than 600 percent. In 2002, only 
15,407 new mining claims were filed as compared to 92,284 in 2007. 
During the same time frame, the number of full-time equivalent (FTE) 
employees assigned to the program fell from 359 to 298.
    Additional staffing and other resources are necessary in order to 
process the notices and plans of operations required for expanding our 
domestic mineral supplies. Delays in obtaining permits and other 
authorizations remains a substantial impediment to the financing and 
development of mining projects in the United States. The National 
Academy of Sciences found that the permitting of domestic mining 
projects entails an inordinate amount of time and resources. According 
to Behre Dolbear, the United States ranks among the lowest of the top 
25 mining nations in terms of time and expense for obtaining required 
permits for mineral exploration and development. The consequence of 
this state of affairs is substantially longer lead times to get 
projects up and running so that they begin to generate a return on 
investment. As a result, permitting delays discourage companies from 
exploring in the United States and impair the ability to attract the 
capital investment required for mine development. In short, investment 
capital flows to where investors will experience a quicker return on 
their investment.
    In a 2005 report to Congress, BLM identified insufficient staffing 
as one cause of permitting delays, noting that many BLM offices were 
not backfilling positions as they were vacated. BLM recommended that a 
portion of the increased location and maintenance fees could be used to 
maintain adequate staffing levels needed to review, analyze and approve 
plans of operations. NMA agrees that the increased location and 
maintenance fees should be used to address MLAP budget needs.
    To address this regulatory bottleneck that impairs our Nation's 
economic growth and security, NMA provides the following 
recommendations:
  --Some portion of the location and maintenance fees collected that 
        exceed the MLAP budget should be dedicated to the MLAP instead 
        of being deposited to the General Fund--in 2007, the amount 
        collected from such fees exceeded the budgeted amount by more 
        than $24 million. Such funds would allow the hiring by BLM 
        State offices of approximately 100 FTEs to allow either 
        backfilling of currently vacated positions or new hires; and
  --Allocation of funds to the State offices should be prioritized 
        based on the number of notices and plans filed in each office 
        and current unfilled openings in MLAP.

         OFFICE OF SURFACE MINING--ABANDONED MINE LAND PROGRAM

    NMA supports the administration's request of $127 million for 
regulation and technology for the Office of Surface Mining, an increase 
from the $120 million enacted in 2009. However, we oppose the proposal 
to cut the abandoned mine reclamation fund to $32 million and eliminate 
mandatory payments to States and tribes that have been certified as 
having completed reclamation of their abandoned coal mines under the 
Surface Mining Control and Reclamation Act's abandoned mine land 
program.

                           METHANE TO MARKETS

    NMA supports the EPA's coordination of and participation in the 
Methane to Markets program. Methane to Markets is an international 
private sector and Government partnership initiative launched in 2004 
that aims to lower emissions by promoting methane recovery and use and 
it targets coal mines, landfills, and natural gas facilities. The 
United States provides administrative support to the program, chairs 
the partnership's steering committee and is also co-chair of the 
programs' coal subcommittee.
                                 ______
                                 
     Prepared Statement of the New Mexico Game and Fish Commission

    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present testimony in support of an 
important land acquisition project in the Gila National Forest (NF) in 
New Mexico. An appropriation of $3 million in fiscal year 2010 from the 
Land and Water Conservation Fund (LWCF) is needed for the Forest 
Service to acquire the 730-acre second phase of the 1,560-acre Bear 
Creek Ranch.
    I also respectfully urge a substantial increase in overall funding 
for the Land and Water Conservation Fund (LWCF), specifically urging 
the subcommittee to provide $325 million for the Federal LWCF in the 
fiscal year 2010 Interior and environment appropriations bill. And, we 
are most thankful that the Obama administration budget recognizes the 
importance of these programs by proposing significant increases for 
fiscal year 2010 and setting a goal to achieve full funding of the LWCF 
in the next 5 years.
    At more than 3.3 million acres, the Gila NF in southwestern New 
Mexico is the sixth largest national forest in the contiguous United 
States. The forest is marked by rugged mountains, isolated canyons, 
quiet meadows, and desert. The biological and geographical diversity of 
the forest is measured by the range of elevation, from 4,200 feet to 
10,895 feet at the summit of White Water Baldy mountain. The varying 
landscapes provide habitat for elk, deer, antelope, bighorn sheep, wild 
turkey, black bear, and mountain lion.
    The Gila NF is noted for its contribution to wilderness protection 
in the United States. Aldo Leopold, an ecologist, writer, forester, 
hunter, fisherman, and environmentalist, worked for the U.S. Forest 
Service (USFS) in the Southwest for more than a dozen years in the 
early 20th century. Many of those years were spent in the Gila forests 
and mountains, conserving the land, observing nature, and enjoying its 
recreational splendor. Leopold successfully argued for special 
protection of the forest, and in 1924, the Federal Government 
recognized a portion of the Gila as wilderness. It was the first such 
designation and predated the passage of the landmark Wilderness Act by 
40 years. Today, the Gila NF includes two large wilderness areas: the 
Aldo Leopold and Gila wilderness areas. Together they protect more than 
760,000 acres of forestland--more than in any other national forest in 
the Southwest--and are a treasure for backpackers and outdoorsmen.
    One outstanding natural feature of the national forest is the Gila 
River. Running east to west from New Mexico into Arizona over a course 
of nearly 650 miles, the river is one of the longest desert rivers in 
the world. The Gila River watershed, the headwaters of which lie in the 
center of the national forest, is a significant stopover point for more 
than 250 species of migratory birds. Within New Mexico, the river is 
unobstructed by dams, but its waters are heavily used for agricultural 
and drinking supplies. Concerned about the future of the river and its 
exceptional watershed, ``American Rivers'' named the Gila to its 2008 
America's Most Endangered Rivers list.
    Available for acquisition in fiscal year 2010 is Bear Creek Ranch. 
At 1,560 acres, the ranch is the largest private inholding remaining in 
the Gila NF. Instead of having a dense contiguous acreage, the property 
extends for 8 miles along Bear Creek, a tributary of the Gila River. It 
is rare for the Forest Service to have the opportunity in New Mexico or 
indeed anywhere in the West to acquire a tract covering such a long 
stretch of an important riparian corridor and watershed. Accordingly, 
the parcel is a top priority acquisition for the USFS in New Mexico and 
in the region for fiscal year 2010. The acquisition of the property 
will be divided into two equal phases of 780 acres. The first phase is 
planned for purchase by the Gila NF in 2009 using Sisk Act funds 
accumulated in New Mexico.
    Given the property's shape and overlap with the Bear Creek 
watershed, it has significant ecological and water resource value. 
Close to the creek are numerous cottonwoods and willows, while further 
away are ponderosa pines, oaks, and meadows. The riparian corridor 
provides important habitat for wildlife that thrive in the larger 
national forest. The canyon includes several waterfalls. The course of 
Bear Creek supports native fish including longfin dace, desert sucker, 
Sonora sucker, and loach minnow. The documentation of loach minnow--a 
federally listed threatened species--is the first in New Mexico in 
several decades. In the United States the species is only found in New 
Mexico and Arizona. The Sonora sucker and desert sucker are Federal 
species of concern.
    Inclusion of the property in the Gila NF would greatly ease USFS 
land management demands in the Bear Creek corridor. The inholding is 
almost entirely surrounded by existing public lands. Upon acquisition, 
the Forest Service would not need to monitor and maintain the 17-mile 
boundary along the property. Public acquisition would also improve fire 
management and public access for outdoor recreation. The Forest Service 
is planning to convert a dirt road that follows the course of Bear 
Creek into a recreational trail for hikers, bikers, and equestrians. In 
addition, both the Continental Divide National Scenic Trail and the 
federally designated Trail of the Mountain Spirits Scenic Byway run 
near the property, which lies just south of the Gila wilderness.
    Currently the owners of the ranch are working to conserve their 
land by selling it to the Forest Service. However, if this cannot be 
achieved, the property is likely to be sold, opening the Bear Creek 
corridor to fragmented ownership and ranchette development. That 
scenario would greatly exacerbate public concerns about fire management 
and access throughout an 8-mile creek corridor and section of the 
national forest.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. Public lands provide innumerable social and 
economic benefits including a healthy lifestyle, protection of 
watersheds and drinking water supplies, wildfire reduction and 
prevention, and assistance to wildlife and fisheries as they adapt to 
climate change. We urge you to renew this wise investment in America's 
natural heritage and take steps to toward full and consistent funding 
of these vital programs.
    Madam Chairman and distinguished subcommittee members, I want to 
thank you for this opportunity to testify on behalf of this important 
national protection effort in the Gila NF, and I appreciate your 
consideration of this funding request.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission

                                SUMMARY

    This statement is submitted in support of fiscal year 2010 
appropriations for Colorado River Basin salinity control program 
activities of the Bureau of Land Management (BLM). I urge that at least 
$5,900,000 be appropriated for the BLM within the land resources 
subactivity: soil, water, and air management for activities that 
benefit the control of salinity in the Colorado River Basin, and of 
that amount, $1,500,000 be marked specifically for the Colorado River 
Basin Salinity Control Program. This request represents an increase of 
$700,000 in that amount requested by BLM to provide for the needed 
Colorado River Basin salinity control activities of the BLM.

                               STATEMENT

    The Colorado River Basin Salinity Control Forum (Forum) is 
comprised of representatives of the seven Colorado River Basin States 
appointed by the respective Governors of the States. The Forum has 
examined all of the features needed to control the salinity of the 
Colorado River. Those features include activities by the cooperating 
States, the Bureau of Reclamation, the Department of Agriculture, and 
the BLM. The salinity control program has been adopted by the seven 
Colorado River Basin States and approved by the Environmental 
Protection Agency as a part of each state's water quality standards. 
Also, water delivered to Mexico in the Colorado River is subject to 
Minute 242 of the United States treaty with Mexico that sets limits on 
the salinity of the water.
    About 75 percent of the land in the Colorado River basin is owned, 
administered, or held in trust by the Federal Government. BLM is the 
largest landowner in the Colorado River Basin, and manages public lands 
that are heavily laden with salt. When salt-laden soils erode, the 
salts dissolve and remain in the river system, affecting the quality of 
water used from the Colorado River by the Lower Basin States and 
Mexico. BLM needs to target the expenditure of at least $5.9 million 
for activities in fiscal year 2010 that benefit salinity control in the 
Colorado River Basin. In addition, BLM needs to target the expenditure 
of $1,500,000 of the $5.9 million specifically for salinity control 
projects and technical investigations. Experience in past years has 
shown that BLM projects are among the most cost-effective of the 
salinity control projects.
    As one of the five principal soil, water, and air management 
program activities, BLM needs to specifically target $5.9 million to 
activities that benefit the control of salinity on lands of the 
Colorado River Basin. In the past, BLM has allocated $800,000 of the 
soil water and air management appropriation for funding specific 
project proposals submitted by BLM staff to the BLM salinity control 
coordinator. The recently released annual report of the federally 
chartered Colorado River Basin Salinity Control Advisory Council 
reports that BLM has identified projects that could utilize funding in 
the amount of $1.5 million for fiscal year 2010. Consequently, I 
request that $1.5 million of the soil, water, and air management 
subactivity be marked specifically for Colorado River Basin salinity 
control activities. Achieving this level of appropriation for the 
critically needed cost effective salinity control work by BLM requires 
an increase of $700,000 in the BLM budget request of for the soil, 
water and air management subactivity.
    I believe and support past Federal legislation that finds that the 
Federal Government has a major and important responsibility with 
respect to controlling salt discharge from public lands. Congress has 
charged the Federal agencies to proceed with programs to control the 
salinity of the Colorado River Basin with a strong mandate to seek out 
the most cost-effective solutions. BLM's rangeland improvement programs 
can lead to some of the most cost-effective salinity control measures 
available. In addition, these programs are environmentally acceptable 
and control erosion, increase grazing opportunities, produce dependable 
stream run-off and enhance wildlife habitat.
    The water quality standards adopted by the Colorado River Basin 
States contain a plan of implementation that includes BLM participation 
to implement cost-effective measures of salinity control. BLM 
participation in the salinity control program is critical and essential 
to actively pursue the identification, implementation, and 
quantification of cost effective salinity control measures on public 
lands.
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to United States water users are about $350 million per 
year. Unquantified damages increase the total damages significantly. 
For every increase of 30 milligrams per liter in salinity concentration 
in the waters of the Colorado River, an increase in damages of $75 
million is experienced by the water users of the Colorado River Basin 
in the United States. Control of salinity is necessary for the Basin 
States, including New Mexico, to continue to develop their compact-
apportioned waters of the Colorado River. The Basin States are 
proceeding with an independent program to control salt discharges to 
the Colorado River, in addition to up-front cost sharing with Bureau of 
Reclamation and Department of Agriculture salinity control programs. It 
is vitally important that BLM pursue salinity control projects within 
its jurisdiction to maintain the cost effectiveness of the program and 
the timely implementation of salinity control projects to avoid 
unnecessary damages in the United States and Mexico.
    At the urging of the Basin States, BLM has created a full-time 
position to coordinate its activities among the BLM State offices and 
other Federal agencies involved in implementation of the salinity 
control program. The BLM's budget justification documents have stated 
that BLM continues to implement on-the-ground projects, evaluate 
progress in cooperation with the U.S. Bureau of Reclamation and the 
U.S. Department of Agriculture and reports salt retention measures to 
implement and maintain salinity control measures of the Federal 
salinity control program in the Colorado River Basin. BLM is to be 
commended for its commitment to cooperate and coordinate with the Basin 
States and other Federal agencies. The Basin States and I are pleased 
with the BLM administration's responsiveness in addressing the need for 
renewed emphasis on its efforts to control salinity sources and to 
comply with BLM responsibilities pursuant to the Colorado River Basin 
Salinity Control Act, as amended. While it is commendable that BLM's 
budget focuses on ecosystems and watershed management, it is essential 
that funds be targeted on specific subactivities and the results of 
those expenditures reported. This is necessary for accountability and 
effectiveness of the use of the funds.
    I request the appropriation of at least $5.9 million in fiscal year 
2010 for Colorado River salinity control activities of BLM within the 
land resources subactivity: soil, water, and air management and that 
$1,500,000 of that amount be marked specifically for the Colorado River 
Basin Salinity Control Program, including projects and technical 
investigations. This request is to provide for the increase of $700,000 
specifically for Colorado River salinity control activities without 
causing any reduction of other activities funded from the Soil, Water 
and Air Management appropriation. I very much appreciate favorable 
consideration of these requests. I fully support the statement of the 
Colorado River Basin Salinity Control Forum submitted by Jack Barnett, 
the Forum's Executive Director, in request of appropriations for BLM 
for Colorado River salinity control activities.
                                 ______
                                 
        Prepared Statement of the New Mexico Wildlife Federation

    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present testimony in support of important 
land conservation projects in New Mexico. The first project is in the 
La Cienega Area of Critical Environmental Concern (ACEC) where a fiscal 
year 2010 appropriation of $3 million from the Land and Water 
Conservation Fund (LWCF) is needed for the Bureau of Land Management to 
acquire the 280-acre first phase of the Canyon Ranch. The second 
project is the Vallecitos High Country property, where an appropriation 
of $1.65 million in fiscal year 2010 from the Forest Legacy Program 
(FLP) is needed to complete Phase II of this project and protect an 
additional 3,100 acres of the 11,655-acre property.
    I also respectfully urge a substantial increase in overall funding 
for the LWCF, specifically urging the subcommittee to provide $325 
million for the Federal LWCF and $125 million for the FLP in the fiscal 
year 2010 Interior and environment appropriations bill. And, we are 
most thankful that the Obama administration budget recognizes the 
importance of these programs by proposing significant increases for 
fiscal year 2010 and setting a goal to achieve full funding of the LWCF 
in the next 5 years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. Public lands provide innumerable social and 
economic benefits including a healthy lifestyle, protection of 
watersheds and drinking water supplies, wildfire reduction and 
prevention, and assistance to wildlife and fisheries as they adapt to 
climate change. We urge you to renew this wise investment in America's 
natural heritage and take steps to toward full and consistent funding 
of these vital programs.

                            LA CIENEGA ACEC

    The La Cienega ACEC is made up of more than 4,500 acres of 
ecologically and historically significant lands just 8 miles from the 
City of Santa Fe. In an arid region with little rainfall and few 
perennial streams, the Santa Fe River, which flows through the ACEC, 
sustains a thick canopy of cottonwoods and coyote willows, habitat to 
nesting songbirds such as the southwestern willow flycatcher and to 
numerous other wildlife species. Ancient rock art can be found etched 
into the canyon walls, most likely produced in the 14th through the 
17th centuries by the inhabitants of La Cieneguilla Pueblo, a 
prehistoric Native American site with remnants of adobe rooms and stone 
and pottery artifacts.
    Available for acquisition in fiscal year 2010 is a critical 
property adjoining the boundary of the La Cienega ACEC that would 
protect the southern side of the dramatic and scenic Santa Fe River 
Canyon and provide access to this little-seen natural resource gem just 
a few miles from Interstate 25. The northern rim is already protected 
through Federal ownership. The 700-acre Canyon Ranch property is 
located just below the confluence of the Santa Fe River and La Cienega 
Creek just 10 miles southwest of Santa Fe. The property has 
approximately 2 miles of frontage on the Santa Fe River Canyon, with 
the river meandering hundreds of feet below the deep canyon walls. This 
property also gives access to parts of the ACEC that have been 
effectively landlocked and inaccessible to the public.
    The location of this property, its protections of the southern rim 
of the Canyon and the improved access it allows to the ACEC make the 
protection of Canyon Ranch extremely important to the future management 
of the ACEC. The El Camino Real de Tierra Adentro National Historic 
Trail, the main road that led from colonial New Mexico to Chihuahua and 
Mexico City, runs along the Santa Fe River hundreds of feet below the 
canyon rim. The road dates back to 1598 when the Spanish made their way 
to northern New Mexico and established the first capital city near San 
Juan Pueblo. La Cieneguilla Pueblo lies along this historic route, as 
does a nearby 17th century Spanish hacienda that was burned in the 
Pueblo Revolt of 1680.
    Support for this land protection effort has come from the 
community, local and State governments, archaeological groups, and 
local environmental groups. The ACEC and surrounding lands contain 
important historical and ecological resources that need to be protected 
as growth from the city of Santa Fe puts additional development 
pressure on outlying areas.
    In fiscal year 2010, $3 million is needed through the LWCF to 
protect the first 280-acre phase of the 700-acre Canyon Ranch property, 
before the opportunity to protect this outstanding resource is lost 
forever.

                        VALLECITOS HIGH COUNTRY

    The New Mexico FLP is devoted to the protection and management of 
environmentally important forest areas that are threatened by 
conversion to nonforest uses. In addition, the program gives priority 
to private forested lands which protect and enhance watershed and water 
quality, maintain and restore riparian areas, protect important 
wildlife habitats, and contribute to the cultural and economic vitality 
of rural communities.
    The State of New Mexico has submitted a request for the second 
phase of a conservation easement on 3,100 acres of the Vallecitos High 
Country property. The property, located within the Rio Vallecitos 
watershed in Rio Arriba County, is an 11,655-acre parcel of mixed 
conifer, aspen, and spruce-fir forests interspersed with mountain 
meadows and creeks. It adjoins the Carson National Forest on three 
sides and is visible from the Continental Divide Trail. The Rio 
Vallecitos, an important cold-water fishery, is managed by the U.S. 
Forest Service as a wild and scenic river. It provides irrigation and 
municipal water to the downstream villages of Vallecitos and La Madera. 
The property boasts critical wildlife habitat that includes old growth 
forest, wet meadows, and clear creeks. The wide diversity of wildlife 
on the property includes several threatened and endangered species. In 
addition, several miles of riparian woodlands, considered relatively 
rare in New Mexico, are found along the Rio Vallecitos, Jarosa Creek, 
and North Creek. The important Rio Vallecitos runs 5 miles across the 
property near the national forest boundary, and another 12 miles of 
tributary creeks on the property feed the Rio Vallecitos.
    The old-growth mixed conifer and spruce-fir forests on this 
property provide suitable habitat for the federally threatened Mexican 
spotted owl and the State-threatened boreal owl and pine marten. The 
property also provides important habitat for peregrine falcon, bald 
eagle, northern goshawk, and kingfisher. Since it is a large forested 
property, it is capable of supporting populations of territorial 
wildlife species with large home ranges such as black bear, mountain 
lion, bobcat, turkey, and birds of prey. The property is within an area 
classified as a major wildlife dispersal corridor by the Southern 
Rockies Ecosystem Project, which strives to maintain a network of 
undeveloped habitats and migratory pathways in the region. The wet 
meadows and beaver ponds on the property are suitable reintroduction 
sites for the extirpated boreal toad. This State-endangered amphibian 
may still exist as an undiscovered remnant population on the property. 
Recognizing these critical habitat lands, the landowner has been 
working with the New Mexico Department Game and Fish to protect the 
boreal toad habitat.
    Due to its spectacular views and abundant fishing and hunting 
opportunities, the Vallecitos High Country property is highly 
threatened by the development of seasonal homes. Protection of this 
property will expand New Mexico's protection of high-quality watersheds 
and forests by complementing a completed FLP easement on the Vallecitos 
Mountain Refuge property along the Rio Vallecitos only 2 miles 
downstream. It will also protect the scenic integrity of the area, as 
the property is visible from a new segment of the Continental Divide 
Trail and is part of the viewshed from the Rio Vallecitos Canyon.
    In fiscal year 2008, $1.133 million in FLP funds were secured to 
help protect 2,200 acres of the forested 11,655-acre Vallecitos High 
Country property. In fiscal year 2010, $1.65 million is needed for the 
second phase to place a conservation easement on an additional 3,100 
acres. These Federal funds will be matched by a 25 percent land value 
donation from the landowner. Partners in this project are the New 
Mexico Department of Game and Fish, New Mexico Forestry Division, the 
Carson National Forest, Forest Trust, Rio Chama Watershed Group, 
Southern Rockies Ecosystem Project, and Vallecitos Mountain Refuge.
    Madam Chairman and distinguished subcommittee members, I want to 
thank you for this opportunity to testify on behalf of these important 
national protection efforts in New Mexico, and I appreciate your 
consideration of these funding requests.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association

    Thank you Chairman Feinstein, Ranking Member Alexander, and other 
members of the subcommittee for this opportunity to submit written 
testimony on the fiscal year 2010 appropriations bill.
    The National Recreation and Park Association (NRPA) is a national, 
nonprofit organization with a mission of advancing parks, recreation, 
and environmental conservation efforts that enhance the quality of life 
for all people. There are more than 6,500 parks and recreation agencies 
throughout the country, a majority of which are members of NRPA. 
Through our network of more than 21,000 citizen and professional 
members, we represent cities, counties, and townships' park and 
recreation departments, regional park authorities across the Nation, 
and local citizens concerned with ensuring convenient access to parks 
and recreation opportunities in their communities.
    As your subcommittee works to craft the fiscal year 2010 
appropriations bill, we request that you include $125 million for the 
Land and Water Conservation Fund's (LWCF) State assistance program; $50 
million to specifically fund urban parks through programs such as the 
Urban Park and Recreation Recovery Program (UPARR) and to include $1.1 
million for program administration.
    Funding provided through LWCF and UPARR provide necessary community 
resources for indoor and outdoor recreation opportunities and stimulate 
local economies, promote job creation, and provide community health 
resources and environmental stewardship. Park and recreation agencies 
are instrumental in helping to address and solve national issues such 
as climate change, obesity, reduction of crime, and energy and land 
conservation. Partnership programs such as LWCF and UPARR are living 
testaments to how local communities impact national issues.
    Park and recreation agencies provide the places and opportunities 
for increased physical activity. While local and State park and 
recreation systems provide public places for close-to-home recreation 
and physical activity, they are also vital to the local as well as 
national economy. These systems stimulate local economies and create 
jobs, generate visitor tax dollars for local economies, and employ 
full-time and part-time workers. Studies have shown that for every $1 
million invested in parks and recreation infrastructure, 20 jobs are 
created.

                     FUNDING LWCF STATE ASSISTANCE

    LWCF State assistance is a matching grant program that requires 
State and local governments to provide 50 percent in non-Federal funds 
for the acquisition, development, and redevelopment of parks and 
recreation resources. As a result of LWCF State assistance funding, 
more than 41,000 projects have been created in local communities. Since 
its inception in 1965, the program has provided more than $4 billion in 
matching funds to States and local communities in 98 percent of 
American counties. The States, cities, counties, and towns that apply 
for and accept Federal funding from the LWCF State assistance grant 
program agree to match the Federal investment on a dollar-for-dollar 
basis, and often match significantly more than the Federal share.
    Congress created the LWCF State assistance program ``. . . to 
strengthen the health and vitality of the citizens of the United 
States,'' and undoubtedly these projects are playing a critical role in 
battling our Nation's obesity epidemic. Several medical studies have 
shown that there is a strong correlation between proximity to 
recreational facilities and parks and physical activity. According to 
the Centers of Disease Control and Prevention (CDC), which estimates 65 
percent of adults and 16 percent of children are overweight or obese, 
even small improvements in the lifestyles of Americans would yield 
marked health improvements. In fact, CDC notes that the creation of or 
enhanced access to places for physical activity led to a 25.6 percent 
increase in the percentage of people exercising on 3 or more days per 
week. Investing in programs such as the LWCF State assistance program 
would provide a significant return on investment through the reduction 
in healthcare costs.
    The LWCF State assistance program not only meets important national 
goals and delivers tangible benefits to the American public by 
improving health, providing recreation opportunities to all Americans, 
and improving communities through economic development, it also 
significantly contributes to protecting our environment and promoting 
environmental stewardship. In fact, Governor Joe Machin of West 
Virginia notes, ``The Land and Water Conservation Fund grant program is 
one of the best ways we can be involved in the enrichment of West 
Virginia's communities for the future.'' It is obvious that LWCF funds 
are vital to many States and literally determine whether a local, 
regional, or State park is acquired or recreation facilities are 
developed for public use. The need for recreational resources has 
exponentially increased, but agencies are unable to meet the rising 
need. In 2008, States reported to the National Park Service (NPS) an 
unmet need of local parks and recreation resources totaling more than 
$27 billion in eligible LWCF projects.
    The following examples, provided by the NPS, paint a picture of a 
Federal program, diverse in application and addressing national issues 
on the local level.
Focal Points of Close-to-Home Access to Health and the Outdoors in 
        Urban Areas
    In Coeur d'Alene, Idaho, Tubbs Hill Park received critical LWCF 
funding to help acquire and preserve a breathtaking urban forest. 
Today, this 135-acre forest in the middle of the city has a 2.2-mile 
loop trail, spectacular scenic vistas of Lake Coeur d'Alene and 
unparalleled access to close to home recreation in the heart of Coeur 
d'Alene. This park is a hub for community exercise and offered as an 
ideal healthy resource within the city. In this urban park, you 
commonly see osprey, common, and hooded mergansers, bald eagles, as 
well as pied-billed, eared, and western grebes.
Economic Development and Community Benefits of Parks and Access to 
        Recreation
    In Rapid City, South Dakota, a community park was built in a part 
of the community that did not have a public park. With the help of a 
LWCF grant and a matching grant from Rapid City, several developers 
donated money to build this community playground. Since the 
announcement of the park and playground project, three major housing 
developments have emerged in the surrounding neighborhood thereby 
generating additional tax revenue.
Environmental Stewardship and Conservation Projects Leverage Regional 
        Impacts
    In Ashburnham, Massachussetts, the Commonwealth of Massachusetts 
used $450,000 in LWCF funds to leverage an additional $675,000 to 
conserve 460 acres of forest lands along the New Hampshire border. The 
land provides public access for long-distance hiking, links 
conservation lands, protects the water quality of the Millers River, 
and preserves archaeologically sensitive sites once used by the 
``Harvard Shakers.''

                          FUNDING URBAN PARKS

    According to the 2000 U.S. Census, 79 percent of the U.S. 
population lives in urban areas. Our urban centers are imperative to 
America's economic prosperity. Urban parks and recreation centers 
provide close-to-home recreational opportunities for the vast majority 
of America's citizens and are instrumental in helping our Nation 
achieve important national goals of improving public health, increasing 
daily physical activity, reconnecting children with nature, reducing 
crime, and providing safe, healthy alternatives for at-risk youth.
    Historically, UPARR, authorized in 1978, has been the only Federal 
program that provides direct Federal assistance to urban localities for 
the rehabilitation of critically needed recreation infrastructure. 
UPARR requires local matching funds and is administered by the NPS of 
the Department of the Interior to provide funding for the 
rehabilitation of deteriorating parks and recreation facilities in 
cities and urban counties. Since its inception, UPARR has provided more 
than $270 million in matching grants to nearly 400 cities to 
rehabilitate and improve their parks and recreational facilities that 
face pressing needs and have fallen in to disrepair due to lack of 
investment. However, this program has not been funded since fiscal year 
2002.
    As the largest public provider of after school programs, parks and 
recreation agencies significantly improve community safety. According 
to the Juvenile Justice Bulletin, juveniles are at the highest risk of 
being victims of violence between 2 p.m. and 6 p.m., and the peak hour 
for juvenile crime is from 3 p.m. to 4 p.m.--the first hour that most 
students are dismissed from school. Parks and recreation agencies not 
only provide a safe haven for children in urban areas, they also work 
with local educational agencies to provide tutoring services to 
children before and after school.
    Now more than ever we need to ensure safe places for our children 
and families to recreate. NRPA seeks a new commitment from Congress and 
the administration to address the critical needs of our Nation's 
children and urban communities by providing a renewed Federal 
investment in our cities for the repair and rehabilitation of urban 
parks and recreation resources. We request that Congress find a way to 
address the needs and challenges facing urban communities by funding 
programs that benefit urban parks.
    The following examples highlights the unmet need for urban park 
funding in East Oakland and North Minneapolis and the services that 
could be provided if funding were available:
Urban Parks Leading to Safe Spaces for Communities
    Tassafaronga Recreation Center is located in an area of industrial 
East Oakland, California that is plagued with high incidences of crime 
and socioeconomic blight, heightened by a recent housing redevelopment 
project that will displace hundreds of families over the next 3 years. 
The center serves all ages in the community, offering year-round adult 
fitness programs, teen leadership workshops and other youth and adult 
recreation programs year round. The facility is in dire need of 
rehabilitation--both exterior and interior. In addition to providing 
greater opportunities for physical activity, the center serves as a 
community resource and a safe space for children and families. With 
UPARR funding, Oakland Parks and Recreation would upgrade the entire 
facility and existing equipment, address and correct irrigation 
problems, and make other improvements to better serve the community.
Community Health Benefits Through Urban Park Funding
    Creekview Recreation Center in North Minneapolis, Minnesota does 
not have the capacity to meet growing demand for space, facilities, and 
equipment for in-door recreation. Given current trends in childhood 
inactivity and obesity, the park agency is focused on ensuring that 
children can be physically active, particularly during long periods of 
cold weather. With investment through UPARR, the park agency would 
expand and modernize the center to include new space for exercise 
classes and would install fitness and other equipment. Completing this 
modernization would improve opportunities for citizens in North 
Minneapolis to be physically active and healthy.
    Unfortunately, in recent years funding for LWCF State assistance 
and UPARR has significantly diminished, leaving communities with lists 
of projects and needed repairs they are unable to complete because they 
do not have funding. LWCF State assistance and UPARR funding for these 
projects would allow construction to begin almost immediately, thereby 
putting local residents to work, helping communities to protect our 
environment while ensuring they provide safe recreational facilities 
for children and adults alike.
    Madam Chairman and members of the subcommittee, parks, and 
recreation agencies are not merely community amenities; they are 
essential services which are necessary for the economic and 
environmental vitality as well as physical wellness of communities 
throughout this country. By providing funding for LWCF and UPARR, which 
have proven themselves invaluable to addressing national issues, you 
would be investing in the health and well-being of communities across 
this Nation from the standpoint of economic recovery, environmental 
protection, as well as providing safe and affordable places for 
recreation. Please include $125 million in funding for LWCF State 
assistance and $50 million in funding for UPARR in your interior 
appropriations bill in the 111th Congress.
    Thank you for this opportunity to present testimony.
                                 ______
                                 
    Prepared Statement of the Friends of the Prairie Learning Center

    I am appealing to you today to increase funding for National 
Wildlife Refuges. My own experiences with the Neal Smith National 
Wildlife Refuge have been varied and enriching, and I fervently wish 
for these same experiences to be available for my children, my 
grandchildren, and future generations.
    My personal journey with the refuge system began as my husband and 
I volunteered to help with prairie remnant seed collection 16 years 
ago. Over time, with the inspiring guidance of the refuge biology 
staff, we gained knowledge and experience that gave us both the ability 
to change careers. Facing corporate down-sizing in our respective jobs 
(credit/financial and information systems) we found ourselves at 
crossroads and decided to test the waters of new careers in 
conservation. Without the educational opportunities provided by our 
refuge, from hands-on stewardship days, to seminars and workshops, and 
the encouragement of the staff, we would not have been able to take 
advantage of the opportunities presented to us.
    The Neal Smith National Wildlife Refuge and its Prairie Learning 
Center have the potential to provide many educational opportunities for 
a variety of folks of all ages:
  --School groups (K-12) from communities all across Iowa attend Big 
        Bluestem programs at the Prairie Learning Center. For most, it 
        is their first experience with prairie and the natural history 
        of the State where they live. Many times, the students will end 
        up bringing their parents and grandparents out to visit the 
        refuge as well.
  --College and university students come to our refuge to conduct 
        research on a variety of subjects, anything from carbon 
        sequestration to micorhizae to global warming.
  --Both the public services and the biology staff provide valuable 
        information and inspiration as they interact with students and 
        other visitors, on a daily basis and during special events.
    The Friends of the Prairie Learning Center/Neal Smith National 
Wildlife Refuge funds about six internships throughout the year. These 
interns help conduct tours, interact with school and community groups, 
provide on-going land stewardship, and conduct research pivotal to 
future restoration and reconstruction plans. If there were enough staff 
at the refuge to provide appropriate supervision, it would be possible 
to increase internship opportunities for these students just beginning 
their conservation careers.
    With the current budget, refuge staff positions are not being 
filled, creating a void in the ability to continue the education and 
inspiration that the students and residents of Iowa (and many other 
States, I am sure) so desperately need. For all of the reasons I've 
listed above, please consider increasing the funding for the National 
Wildlife Refuge system, and in particular, the Neal Smith National 
Wildlife Refuge and Prairie Learning Center. Thank you.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation

    On behalf of the National Wildlife Federation, (NWF) the Nation's 
largest conservation advocacy and education organization, and our more 
than 4 million members and supporters, we thank you for the opportunity 
to provide fiscal year 2010 funding recommendations for the Department 
of the Interior (DOI) and other agencies under the purview of this 
subcommittee.
    NWF's mission is to inspire Americans to protect wildlife for 
future generations. To achieve this mission the organization is focused 
on confronting global warming, safeguarding and restoring wildlife, and 
connecting people with nature. Global warming now constitutes the 
single greatest threat to the survival of today's most cherished 
wildlife species; we are at a critical juncture for sustaining the 
natural systems on which humans and wildlife depend. Congress must take 
bold steps to address both the underlying causes of climate change, 
through reductions in greenhouse gas emissions, and adaptation to the 
now-inevitable impacts of global warming on the Nation's wildlife and 
natural habitats.
    We commend the subcommittee for its efforts to strengthen the 
scientific basis for addressing climate change impacts on wildlife, and 
for directing the Secretary of the Interior to develop a national 
climate change adaptation strategy. We are strongly supportive of the 
$133 million in new funds included in the President's DOI budget to 
help Federal and State land managers assess and respond to the impacts 
of climate change on wildlife. We are particularly pleased with the 
inclusion of $40 million of these funds for wildlife adaptation by the 
States.
    We are also strongly supportive of the $70 million requested in the 
President's fiscal year 2010 budget to connect children and families to 
the great outdoors through DOI's 21st Century Youth Conservation Corps 
initiative. This investment is critical at a time when research tells 
us that children today spend half as much time outside as they did just 
20 years ago. Targeting $30 million for educating young hunters and 
anglers, as well as $40 million in funding for Youth Careers in Nature, 
the initiative will bolster environmental education, recreation, and 
service programs throughout DOI, and engage thousands of youth in the 
outdoors.

                     U.S. FISH AND WILDLIFE SERVICE

State and Tribal Wildlife Grants
    The State and Tribal Wildlife Grants program is the Nation's core 
program for preventing wildlife from becoming endangered in every 
State. It provides State wildlife agencies and their partners with a 
broad suite of proactive conservation tools to allow for meaningful and 
cost-effective species conservation. At the heart of this program is 
implementation of federally approved wildlife action plans. With global 
warming posing an increasing threat to wildlife and their habitats, 
these action plans serve as critical tools for safeguarding wildlife. 
NWF is working with many States to help them better integrate climate 
change considerations into these plans. We strongly support the 
President's request of $115 million for the State and Tribal Grants 
Program, which includes $40 million in new funding to enable States to 
better address climate change in their wildlife action plans.
Endangered Species Program
    The Endangered Species Act (ESA) is a safety net for wildlife, 
plants, and fish that are on the brink of extinction. While the act has 
been extraordinarily successful in preventing the extinction of plants 
and animals, funding for its implementation has eroded significantly 
over the past few years. To adequately implement the endangered species 
program, funding must gradually increase for the four main accounts to 
at least $305.8 million by 2013. We appreciate the increases to the 
endangered species accounts included in the fiscal year 2009 
appropriations and urge the subcommittee to appropriate at least $217 
million in fiscal year 2010 toward the Endangered Species Program ($59 
million more than fiscal year 2009 enacted) as follows:
  --Listing Program.--This program requires $32 million for FWS to 
        address both new species and the backlog of species awaiting 
        action on proposed listings and critical habitat designations.
  --Recovery Program.--Despite the fact that Congress repeatedly States 
        that recovery is the most important element of the ESA, 
        recovery funding has remained almost stagnant in recent years. 
        For an effective recovery program, FWS needs $95 million.
  --Consultation Program.--We are grateful to the subcommittee for 
        supporting meaningful consultation under the ESA, and providing 
        a congressional basis for reversing the unwise consultation 
        rules promulgated in the final hours of the previous 
        administration. To ensure an efficient and effective 
        consultation program, we recommend funding of $75 million (an 
        increase of $11.5 million from fiscal year 2009 enacted).
  --Candidate Conservation.--This program enables candidate and other 
        at-risk species to receive conservation attention so that they 
        will not require formal listing under the act. To address this 
        critical need we recommend funding of $15 million (an increase 
        of $4.3 million more than fiscal year 2009 enacted).
Cooperative Endangered Species Conservation Fund
    This fund offers grants to States for participation in a wide array 
of voluntary conservation projects for candidate, proposed, and listed 
species. These funds may in turn be awarded to private landowners and 
groups for conservation projects. Section 6 grants include: Recovery 
Land Acquisition Grants; Habitat Conservation Plan (HCP) Land 
Acquisition Grants; HCP Planning Assistance Grants; and Grants to 
States. We would like to see this program receive $110 million (an 
increase of $30 million more than fiscal year 2009 enacted).
Landowner Incentive Program and Private Stewardship Program
    We support reinstatement of two important programs focused on 
conservation on private lands. The Landowner Incentive Program (LIP) 
provides States with grants to protect and restore habitats on private 
lands to benefit federally listed, proposed, candidate, and other at-
risk species. NWF recommends LIP funding of $23.7 million. The Private 
Stewardship Program provides grants and other assistance on a 
competitive basis to individuals and groups engaged in local, private, 
and voluntary conservation efforts that benefit federally listed, 
proposed, candidate, and other at-risk species. We recommend funding of 
$7.3 million.
National Wildlife Refuge System (NWRS) Operations and Maintenance
    NWRS is crucial for conserving the Nation's wildlife, but has been 
hobbled for many years by inadequate budgets. Added to existing 
stressors, climate change holds profound implications for management of 
these refuges, and FWS will need to evaluate how the system should be 
managed, and perhaps expanded, to adapt to these changes. The fiscal 
year 2009 appropriation provided a much needed increase in the NWRS 
operations and maintenance budget, but still falls short of what is 
required to adequately manage the system. National Wildlife Federation 
supports the Cooperative Alliance for Refuge Enhancement (CARE) 
recommendation of $765 million by fiscal year 2013, and recommends an 
fiscal year 2010 funding level of $514 million (an increase of $51 
million more than fiscal year 2009 enacted).

                         U.S. GEOLOGICAL SURVEY

National Climate Change and Wildlife Science Center
    The National Climate Change and Wildlife Science Center is an 
important new initiative designed to improve understanding of the 
impacts of global warming on wildlife and ecosystems, and help land 
managers better design and implement adaptation responses. We 
appreciate the subcommittee's leadership in funding the establishment 
of this Center, and recommend support the President's request of $15 
million for this center.

                       BUREAU OF LAND MANAGEMENT

National Landscape Conservation System
    The National Landscape Conservation System (NLCS) is an American 
treasure that consists of 26 million acres of some of the last best 
places in the American West. Since its creation in June 2000, however, 
NLCS has been chronically underfunded and starved for adequate 
resources to meet its core responsibilities and manage the growing 
number of visitors. We are heartened by authorizing legislation for 
this NLCS contained in the recently passed Omnibus Public Lands 
Management Act of 2009. To ensure adequate management of NLCS, we 
recommend a budget of $75 million

                          U.S. FOREST SERVICE

Forest Inventory and Analysis
    The Forest Inventory and Analysis (FIA) program is the Nation's 
only comprehensive forest inventory system that provides credible 
forest inventory data across all ownerships. FIA data will play an 
increasingly important role in carbon accounting systems and ensuring 
the sustainability of biomass energy development. We recommend a budget 
of $77.9 million (an increase of $17 million from fiscal year 2009 
enacted).
Forest Legacy Program
    The Forest Legacy Program targets the protection of working forest 
landscapes, and has a perennial backlog of worthy projects. The program 
has been especially important in States where there are few Federal 
land holdings and timber companies are in the process of consolidating 
and selling their lands. We support the President's request of $91 
million for this important program.
Community Forest and Open Space
    The Community Forest and Open Space Program provides new 
authorities for the Forest Service to partner with local communities, 
Indian tribes, and nonprofit organizations to prevent at-risk forest 
parcels from being converted to nonforest uses. We recommend that this 
important new program be funded.

                LAND AND WATER CONSERVATION FUND (LWCF)

    The LWCF is the Federal Government's primary tool for funding 
acquisition of valuable wildlife habitat and open space. After years of 
drastic cuts in the LWCF we are pleased to see that the President's 
budget puts LWCF back on the road to full funding by 2014. NWF strongly 
supports the $420 million requested for fiscal year 2010.

                 ENVIRONMENTAL PROTECTION AGENCY (EPA)

Greenhouse Gas (GHG) Inventory and Comprehensive Climate Strategy
    EPA has recently proposed rules for a national greenhouse gas 
emissions registry, which is an essential component of any system 
designed to implement a comprehensive climate strategy. The President's 
budget request includes $19 million for EPA's work on the GHG emission 
inventory and related activities. NWF supports full funding of this 
important effort.
Energy Star
    The Energy Star program helps businesses, consumers, and State and 
local governments save energy and money. By promoting opportunities for 
energy efficiency, the program is helping transform the Nation's energy 
economy and reduce global warming pollution. NWF recommends funding of 
$100 million (an increase of $50 million from fiscal year 2009 
enacted).
Great Lakes Restoration Initiative
    The President's budget request includes a new $475 million 
initiative to address regional issues in the Great Lakes identified by 
Federal, State, and local participants in the Great Lakes Regional 
Collaboration. Funding these critical restoration needs will help 
mitigate the impacts of global warming in the Great Lakes, and we urge 
the subcommittee to fully fund this initiative.
Environmental Education
    EPA's Office of Environmental Education implements highly 
successful, nationwide environmental education programs, which are 
especially critical as we seek to prepare Americans for green jobs and 
find innovative solutions to global climate change. We are grateful for 
the subcommittee's support of environmental education and recommend a 
funding level of $14 million (an increase of $5 million more than both 
fiscal year 2009 enacted and the President's fiscal year 2010 request).
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association

    Madam Chair and members of the subcommittee: On behalf of the 
National Wildlife Refuge Association (NWRA) and its membership 
comprised of current and former refuge professionals, Friends 
organization affiliates and concerned citizens, thank you for your 
strong support for the National Wildlife Refuge System (NWRS) including 
the $28.7 million increase for fiscal year 2009 and approximately $200 
million for refuges in the American Recovery and Reinvestment Act of 
2009. These funding increases will keep the downsizing plans that had 
reduced refuge staff by more than 300 positions where they should be: 
on the shelf. We further thank you for the opportunity to offer 
comments on the fiscal year 2010 Interior, Environment, and Related 
Agencies appropriations bill. We respectfully request the subcommittee 
support:
  --An overall funding level of $514 million for the operations and 
        maintenance (O&M) budget of the NWRS, managed by the U.S. Fish 
        and Wildlife Service (FWS);
  --An allocation of $5 million for Volunteer Community Partnerships 
        for the NWRS;
  --An allocation of $25 million for Climate Change Planning for 
        refuges;
  --An allocation of $15 million for work to control and eradicate 
        invasive species on and near refuge lands, of which $1 million 
        would continue the highly successful Volunteers and Invasives 
        Program and $5 million would conduct large-scale invasive 
        projects;
  --An allocation of $4 million for the new Pacific Marine Monuments to 
        conduct needs assessments, operate a research vessel, and 
        remove two ship wrecks;
  --An overall funding level of $100 million for the NWRS construction 
        budget including $12 million for Visitor Facilities 
        Enhancements (VFE) and $5 million for a research vessel 
        retrofit for the Pacific Islands refuges;
  --An allocation of $75 million for the FWS' Partners for Fish and 
        Wildlife Program, increasing the FWS' ability to create 
        partnerships and identify, prioritize and implement land and 
        water conservation opportunities beyond refuge boundaries;
  --An allocation of $100 million in the FWS land acquisition budget 
        through the Land and Water Conservation Fund (LWCF) to acquire 
        vital refuge habitat from willing sellers;
  --A funding level of $85 million for the State and Tribal Wildlife 
        Grants Program;
  --An allocation of $10 million for the National Fish and Wildlife 
        Foundation (NFWF) in the FWS' Resource Management General 
        Administration appropriation;
  --Prohibition of funds for activities that would advance a road 
        through Izembek NWR in Alaska.

         NATIONAL WILDLIFE REFUGE FUNDING--O&M AND CONSTRUCTION

    The NWRA is the chair of the Cooperative Alliance for Refuge 
Enhancement (CARE), a diverse coalition of 22 sporting, conservation, 
and scientific organizations representing more than 14 million 
Americans. NWRS needs at least $765 million, and likely more, in annual 
operations and maintenance funding by 2013 to properly administer its 
150 million acres as mandated in the Refuge Improvement Act. To reach 
this reasonable goal, we respectfully request that you provide $514 
million in fiscal year 2010 for NWRS O&M.
    After years of flat budgets, Congress in recent years has 
demonstrated a commitment to fund our national wildlife refuges. The 
increases in fiscal year 2008 and fiscal year 2009 allowed for the 
suspension of workforce downsizing plans that outlined an eventual 20 
percent reduction in overall staffing levels. But with more than 10 
percent of staff already eliminated since 2004 and a current O&M 
backlog of more than $3.5 billion, additional increases that build upon 
the last 2 years are essential.
    Within the allocation for refuge O&M, we recommend $15 million for 
inflationary costs; $25 million for inventory and monitoring to help 
refuges cope with climate change; $5 million for Volunteer Community 
Partnerships as authorized under the NWR Volunteer and Community 
Partnerships Act; $5 million for large-scale invasive species projects; 
$1 million to continue the Volunteer Invasives Program and $4 million 
assess and manage the new monuments in the Pacific, including the 
removal of ship wrecks currently damaging fragile coral reefs.
    We ask the subcommittee to expand funding for NWRS's construction 
budget to $100 million. The FWS has more than $1 billion worth of 
construction needs, including the replacement of quickly deteriorating 
structures that are not energy efficient and are becoming more 
expensive to maintain. Construction funds also support large-scale 
habitat restoration projects such as the Salt Pond restoration efforts 
at the Don Edwards San Francisco Bay NWR or wetland restoration at the 
Nisqually NWR in Washington. Funds for new visitor/administration 
centers will be a net benefit with regards to both efficiencies and 
economic impact to local communities. Refuges with a broad range of 
outdoor and indoor programs often create more revenue, jobs in service 
industries, and income for local communities. Recent studies indicate 
that out-of-town refuge visitors are increasingly accounting for most 
of the revenue and taxes created for local communities. Importantly, 
these centers often provide opportunities for refuge Friends to 
generate increased revenues through bookstore operations. These private 
funds, in turn, leverage Federal dollars for mission-critical projects. 
Finally, new centers are required to be green infrastructure models, 
demonstrating efficient ways to recycle materials and water, green 
construction techniques, and opportunities for employing alternative 
energy sources.
    Within an allocation of $100 million, we recommend $5 million for 
the retrofit of a research vessel that will assist the FWS in 
management of the new Pacific monuments; $5 million for the greening of 
existing refuge infrastructure and $12 million for visitor facility 
enhancements, which will create better experiences for visitors and 
thereby create support for NWRS.

              ASSESSING THE NEEDS OF NWRS--CLIMATE CHANGE

    NWRS is badly lagging in developing strategies to address climate 
change. With many Government scientists and biologists now talking 
openly about their conclusions regarding effects of a changing climate 
on habitat and wildlife, they are playing a frantic game of catch up. 
The NWRS is in dire need of dedicated dollars to inventory and monitor 
the impacts of climate change and to craft a plan to aid species in 
adapting. We recommend $25 million for inventory, monitoring, and 
planning. Many innovative modeling tools are now available to aid 
refuge staff but without funding, they are simply unable to take full 
advantage. Refuges are perhaps our best natural laboratories to assess 
impacts to wildlife as a result of global climate change and to 
demonstrate effective adaptation strategies; a small investment could 
yield valuable insights that will guide wildlife management and land-
use planning well into the future.

               INVASIVE SPECIES--CONTROL AND ERADICATION

    The NWRS is succumbing to a relentless onslaught of invasive 
species with more than 2.3 million acres of refuge lands infested with 
invasive plants and 4,387 invasive animal infestations. Funding is 
needed to halt their progress and in some cases remove them entirely. 
In fiscal year 2008, refuges spent more than $15.3 million dollars on 
invasive species management, a 144 percent increase more than fiscal 
year 2004. A 2008 GAO report found that the number one management 
action that had increased in cost was the management of invasive 
plants. And while volunteers can help, with funding over the past 4 
years enabling 4,660 volunteers to contribute more than 73,000 hours on 
291,000 acres of refuge invasives projects, there must be aggressive, 
dedicated funding to bolster volunteer efforts. We urge the 
subcommittee to continue its strong support of the Volunteers and 
Invasives Program by again appropriating $1 million and we support an 
allocation of $5 million for large-scale invasives control projects 
such as the Spartina grass eradication effort at Willapa Bay NWR. Many 
invasives projects must be large in scale to be effective but lack of 
funding has prevented such projects from moving forward.

                   STRATEGIC GROWTH AND PARTNERSHIPS

    While providing adequate funding to operate and maintain the Refuge 
System is of vital importance, most refuges are too small in size to 
fully achieve their conservation objectives. Their integrity depends on 
the health of surrounding lands and waters; and in turn, the health of 
refuge lands and waters has an enormous impact on surrounding 
communities. Consequently, there is a growing need to provide funding 
to ensure that lands and waters outside refuge boundaries are 
conserved. NWRA encourages a beyond the boundaries approach, which 
identifies and prioritizes crucial additions to the Nation's 
conservation estate while improving connectivity between refuges and 
other conservation lands.
    Accordingly, for fiscal year 2010 we respectfully ask that the 
subcommittee appropriate the authorized $75 million for the FWS' 
Partners for Fish and Wildlife Program. The Partners program is a 
powerful tool for working with private landowners to collaboratively 
conserve refuge landscapes while leveraging Federal dollars. A $75 
million investment in the Partners program will conservatively net $300 
million worth of additional conservation. On average, for every $1 
appropriated, an additional $4 are leveraged; in some cases the return 
is more than $10.
    To strategically grow NWRS, NWRA strongly supports President Obama 
in encouraging Congress to fully fund the Land and Water Conservation 
Fund (LWCF) to its authorized annual level of $900 million in the next 
5 years. In fiscal year 2010 we urge the subcommittee to allocate $100 
million for the FWS to secure high-priority water rights and high-
priority lands and conservation easements. Inadequate water quantity 
and quality represent some of the biggest obstacles for refuges to 
overcome and unfortunately, many refuges do not own the water rights on 
the refuge or they are not guaranteed an allocation of water from a 
river or stream.
    Currently, there are roughly 8.3 million acres remaining to be 
acquired within approved refuge boundaries. At the previous 
administration's requested rate of refuge land acquisition for fiscal 
year 2009, it would take more than 16 centuries to acquire these lands. 
$100 million for refuge land acquisition may seem high, but consider 
that if Congress appropriated 8 times that amount or about $827 million 
annually, it would still take a full 20 years before the Refuge System 
would have acquired all the lands currently in acquisition boundaries.
    Within this request, the NWRA encourages the subcommittee to 
provide funding for the following projects which have willing sellers, 
are immediately available for purchase and provide increased 
connectivity between important public and private lands which will 
ultimately increase species ability to adapt: $1.5 million, Crystal 
River NWR (Florida); $3 million, Silvio O. Conte NFWR (Massachusetts, 
Connecticut, New Hampshire, and Vermont); $2 million, Blackwater NWR 
(Maryland); $2 million, Nestucca Bay NWR (Oregon); $2.7 million, Cache 
River NWR (Arkansas); $4 million, Upper Ouachita NWR (Louisiana); $7.4 
million, James Campbell NWR (Hawaii); $5 million, Rocky Mt. Front 
Conservation Area (Montana); $3.5 million, Rachel Carson NWR (Maine); 
$2 million, Sevilleta NWR (New Mexico); $2.8 million, Wallkill River 
NWR (New Jersey); $1 million, James River NWR (Virginia); $1 million, 
Supawna Meadows NWR (New Jersey); $1.5 million, Back Bay NWR 
(Virginia); and $1.5 million, Patoka NWR (Indiana).
    The NWRA also urges the subcommittee to appropriate $85 million for 
the State and Tribal Wildlife Grants Program in fiscal year 2010 to 
implement State Wildlife Action Plans, and support projects to keep 
common species common and develop partnerships. These science-based 
plans can dovetail with refuge Comprehensive Conservation Plans (CCPs) 
and help fulfill the shared Federal/State responsibility for keeping 
our Nation's wildlife from becoming endangered.
    We encourage the subcommittee to allocate $10 million for the NFWF 
through the FWS' Resource Management General Administration 
appropriation. Each year, NFWF receives more project proposals than 
they are capable of funding. Adequate funding will ensure NFWF has the 
ability to leverage resources to fund projects that directly benefit 
diverse species in, around and outside of national wildlife refuges 
across the country.

                     IZEMBEK NWR, ALASKAN PENINSULA

    The NWRA is strongly opposed to a provision included in the 2009 
Public Lands Omnibus which could result in a road through the Izembek 
NWR, AK should Secretary Salazar determine it is in the public 
interest. Proponents from King Cove (population 800) argue the road is 
needed for medical evacuations to reach Cold Bay (pop 80). Congress 
already met these needs by appropriating $37.5 million in 1998 to 
upgrade King Cove's medical clinic and airstrip and purchase a state-
of-the-art hovercraft, which has met every medical evacuation need 
since it became operational in February 2007. We urge the subcommittee 
to prohibit funds for activities that would advance a road.
    In conclusion, the NWRA believes the National Wildlife Refuge 
System can meet its important conservation objectives only with strong 
and consistent funding leveraged by the valuable work of refuge 
volunteers. We extend our appreciation to the subcommittee for its 
ongoing commitment to NWRS.
                                 ______
                                 
           Prepared Statement of the Performing Arts Alliance

    Mr. Chairman and distinguished members of the subcommittee, I am 
grateful for this opportunity to submit testimony on behalf of the 
Performing Arts Alliance and its member organizations--American Music 
Center, Association of Performing Arts Presenters, Chorus America, 
Dance/USA, League of American Orchestras, National Alliance for Musical 
Theatre, OPERA America, and Theatre Communications Group. The 
Performing Arts Alliance is a national network of more than 4,100 
members comprising the professional, nonprofit performing arts and 
presenting fields. For more than 30 years, the Performing Arts Alliance 
has advocated for national policies that recognize, enhance, and foster 
the contributions the performing arts make to America.
    We urge the subcommittee to designate a total of $200 million to 
the National Endowment for the Arts (NEA). This testimony is intended 
to highlight the importance of the Federal investment in the arts to 
sustaining a vibrant cultural community. With more funding, the NEA's 
core programs could better bring the best in the arts to all Americans:
  --Additional funds would allow the size of individual grants to 
        increase, after having declined steadily since the NEA's budget 
        was cut by 40 percent in fiscal year 1996.
  --Inadequate funding has caused many high-quality grant applications 
        to go unfunded.
    The NEA increases opportunities for the American public to enjoy 
and benefit from the performing arts.
    Since the establishment of the NEA in 1965, access to the 
performing arts has improved in communities large and small across the 
country. The NEA has helped to foster the development of the many 
regional theatres, opera companies, dance companies, orchestras, and 
performing arts centers that Americans now enjoy. Despite diminished 
resources, the NEA awards more than 1,700 grants annually to nonprofit 
arts organizations for projects that encourage artistic creativity, 
provide lifelong learning opportunities, and engage audiences in the 
best the arts have to offer. This modest public investment in the 
Nation's cultural life has resulted in both new and classic works of 
art reaching all 50 States.
    With more funding, the NEA could do more.
    The NEA has never recovered from a 40 percent budget cut in fiscal 
year 1996, resulting in the underfunding of its programs. We are 
appreciative of the increased support this subcommittee provided for 
the NEA last year and are already seeing benefits of increased access 
to public performing art organizations and artists across the country. 
The live arts bring communities together, encourage dialogue, and 
provide innovation and education opportunities to generations of 
Americans.

                THE NONPROFIT PERFORMING ARTS COMMUNITY

    The following member profiles of the Performing Arts Alliance, 
which include national service organizations representing new music, 
arts presenting, chorus, dance, musical theatre, opera, orchestra, and 
theatre fields, exemplify the economic, educational, and quality of 
life benefits that performing arts organizations bring to American 
communities.

                               NEW MUSIC

    The American Music Center (AMC) is dedicated to building a national 
community of artists, organizations, and audiences, creating, 
performing, and enjoying new American music. Since its founding in 1939 
by composers Marion Bauer, Aaron Copland, Howard Hanson, Harrison Kerr, 
Otto Luening, and Quincy Porter, AMC has been a leader in providing 
field-wide advocacy, support, and connection. AMC advocates for the 
community through its media programming, supports the community by 
making grants to composers and ensembles each year, and by offering 
professional development services to artists. AMC connects the 
community with an array of information services designed to facilitate 
performances, including a vast, searchable database of 45,000 works by 
American composers, publications compiling opportunities in new music 
and other information useful to industry professionals, and benefits 
and services for nearly 2,500 members in all 50 States and around the 
world.

                            ARTS PRESENTERS

    Performing arts presenters bring professional performing artists 
from all over the world into the communities they serve. They include 
organizations such as performing arts centers in major urban cities, 
academic institutions, artists, artist managers, agents, local arts 
agencies, and outdoor festivals and fairs. Arts presenters facilitate 
the interaction between artists and audiences, support the creation and 
touring of new works, and are civically engaged in their communities. 
The Association of Performing Arts Presenters (Arts Presenters), a 
national service and advocacy organization, represents an industry of 
more than 7,000 nonprofit and for-profit organizations, with members 
hailing from all 50 States and 28 countries on six continents across 
the globe. Performing Arts Presenters' members bring performances to 
more than 2 million audience-goers each week and spend in excess of 
$2.5 billion annually. Their membership includes a range of 
organizations with multi-million dollar budgets to individuals who are 
artists or performing arts professionals, representing a diversity of 
fields, which include all forms of dance, music, theatre, family 
programming, puppetry, circus, magic, attractions, and performance art.

                                 CHORUS

    Chorus America's mission is to build a dynamic and inclusive choral 
community so that more people are transformed by the beauty and power 
of choral singing. Chorus America strengthens choral organizations and 
provides their leaders with information, research, leadership 
development, professional training, and advocacy to help them deliver 
the best possible contributions to their communities and to the choral 
art. The more than 1,600 choruses, individuals, and businesses that are 
members of Chorus America speak with a strong and unified voice to 
increase recognition of choral singing as an essential part of society.

                                 DANCE

    In 1965, there were approximately 35 nonprofit professional dance 
companies. Today, there are more than 600. America's dance companies 
perform a wide range of styles and genres. These include both classical 
and contemporary ballet, both classical and contemporary modern, as 
well as jazz, tap, cross-disciplinary fusions and traditional to modern 
work rooted in other cultures. When the NEA instituted its Dance on 
Tour program in the 1970's, great dance became accessible to every 
community in America. NEA programs today, like the National College 
Choreography Initiative, continue to ensure that the best of American 
dance is for all of America, and a showpiece for the rest of the world 
as well. Based on a 2006 survey, Dance/USA estimates that the 81 
largest and most visible nonprofit dance companies in the United States 
do the following:
  --Employed more than 6,000 people;
  --Performed for total home audiences of nearly 2.9 million people;
  --Paid approximately $237.5 million in wages and benefits;
  --Had more than 24,300 volunteers, including more than 2,700 members 
        of Boards of Trustees;
  --Received $16.7 million, from State, local, and government 
        contributions.

                            MUSICAL THEATRE

    National Alliance for Musical Theatre (NAMT) is the national 
service organization dedicated exclusively to musical theatre and 
serving some of the leading musical theatre producers in the world. 
Last season, NAMT members cumulatively staged more than 27,000 
performances attended by 16 million people, and had revenues totaling 
more than $500 million. NAMT has presented its Festival of New Musicals 
annually since 1989, bringing together theatre producers and writers, 
with the goal of furthering the development and production of new 
musicals. NAMT's festival has showcased more than 300 writers and 200 
new musicals, which have had thousands of subsequent productions 
worldwide.

                                 OPERA

    OPERA America members are found in communities all across the 
country--a total of 133 companies in 43 States. American opera 
companies are well-known for their innovative and exemplary education 
and outreach programs, many of which are funded in part with NEA 
grants. Virtually all U.S. opera companies run such programs in their 
communities. Opera companies help fill the void left by discontinued 
arts education in many public school systems and can help young people 
communicate the realities of their lives via disciplined artistic 
expression. The audience for education and community programs served by 
United States and Canadian companies during the 2005-2006 season 
totaled more than 2 million people. All together, the opera companies 
of America contribute more than $1.5 billion to the U.S. economy each 
year and provide more than 20,000 jobs each year.

                               ORCHESTRA

    In its more than 40-year history, the NEA has provided invaluable 
leadership and support for musicians, orchestras, and the communities 
they serve through direct grants; support to State arts agencies, and 
national leadership initiatives. Supported by a network of musicians, 
volunteers, administrators, and community leaders, America's adult, 
youth, and college orchestras total more than 1,800, with annual 
budgets ranging from less than $12,000 to more than $83 million, and 
exist in every State and territory, in cities and rural areas alike. 
They employ (with or without pay) more than 8,000 administrative staff 
and attract more than 400,000 volunteers and trustees.
    In addition to concerts, orchestras offer more than 40 different 
kinds of programs for their communities, including:
  --in-depth, multi-year residencies;
  --long-term partnerships with schools;
  --after-school and summer camps;
  --programs in hospitals and libraries;
  --instrumental instruction; and
  --educational classes for seniors.
    The NEA's fiscal year 2008 grants to organizations included 122 
grants to orchestras and the communities they serve, supporting arts 
education for children and adults, expanding public access to 
performances, preserving great classical works, and fostering the 
creative endeavors of contemporary classical musicians, composers, and 
conductors.

                                THEATRE

    In 1961, nonprofit theatre in America consisted of only 16 theatre 
companies. Today, thanks in large part to the pivotal role played by 
the NEA, the number of theatre companies is estimated to be more than 
1,900. Almost every Pulitzer Prize winning play since 1976 originated 
at an NEA-funded theatre.
    Theatre Communications Group (TCG), the national organization for 
the American nonprofit theatre, reports that the estimated 1,910 
theatres in the United States employ more than 109,000 workers--actors, 
directors, playwrights, designers, administrators, and technicians--and 
constitute a more than $1.7 billion industry. Collectively, these 
theatres are estimated to have offered 197,000 performances that 
attracted 31 million patrons. TCG offers grants to theatres and theatre 
artists, conducts research on the health of the nonprofit theatre 
field, convenes various meetings around the country to bring theatre 
professionals together, serves as the U.S. Center of the International 
Theatre Institute to promote international cultural exchange, produces 
a wide array of publications about and for the theatre field, and 
serves as the primary national advocate for the nonprofit professional 
theatre field.
    Based on recent surveys of 196 nonprofit theatres, TCG reports the 
following:
  --More than 1,180 outreach and educational programs are in existence 
        today.
  --More than 2.5 million people--including a large number of at-risk 
        children--are served by these programs. This network of 
        educational and outreach programs all across the country, 
        ensures access to all Americans and helps develop new 
        generations of audiences.
  --These programs include touring productions, artists-in-the-schools, 
        teacher training, workshops and lectures in local community 
        centers and libraries, programs for at-risk youth, and lifelong 
        learning opportunities.
                               conclusion
    Performing arts organizations are a vital component of community 
life, allowing citizens to appreciate our Nation's culture and heritage 
through excellent artistic programming. The arts illuminate the human 
condition, our history, contemporary issues, and our future. The NEA is 
an investment that realizes significant returns on the Federal dollars 
invested, both measurable and intangible. We urge you to designate no 
less than $200 million to the NEA. Thank you for your consideration of 
our request.
                                 ______
                                 
     Prepared Statement of the Pelican Island Preservation Society

    The Pelican Island Preservation Society is an all volunteer group 
with more than 350 members whose mission is to support the Pelican 
Island National Wildlife Refuge. Our organization is greatly concerned 
about the major funding deficit for operations and maintenance (O&M) 
facing the National Wildlife Refuge System (NWRS), and the severe 
impact this is having on the Pelican Island National Wildlife Refuge 
and other refuges in the system. Our request is that O&M funding be 
increased to $514 million in fiscal year 2010.
    I wish to thank the subcommittee for your support over the past 2 
fiscal years in recommending increases in funding for the NWRS. Those 
increases have helped stabilize a critical funding deficit which 
resulted in major losses of personnel and significant loss of 
capability to manage refuges. While the increases have provided some 
relief, major funding problems still exist and sizeable annual 
increases in O&M funding must be forthcoming if the system is ever to 
even approach its full potential.
    Inadequate funding has historically severely hampered the ability 
of the U.S. Fish and Wildlife Service (FWS) to effectively manage 
refuges. During my 50 years of exposure to the refuge system I have 
seen many highs and lows in O&M funding levels, but even during the 
``highs'' the amounts appropriated were totally inadequate to do the 
job properly. The current backlog of approximately $3.5 billion in 
operations and maintenance needs is a direct result of many decades of 
neglect in the budgetary arena. This backlog must be addressed in an 
aggressive manner.
    On our local level, inadequate funding has significantly affected 
management programs. One central staff currently manages three 
refuges--Pelican Island, Archie Carr, and Lake Wales Ridge. In 2003, 
the staff reached its record high level of six permanent full-time 
employees plus temporaries. As a result of the funding crunch, the 
staff was reduced to two. More recent funding increases have allowed 
increasing the staff to three permanent full-time and two term 
employees. Five employees to manage three refuges, two of which are 
urban in nature, simply doesn't provide the manpower needed to do an 
acceptable job of refuge management. Of major concern is the lack of a 
law enforcement officer to address violations of refuge regulations.
    The role refuges can play in helping to alleviate current economic 
problems should not be overlooked. There are major economic factors 
associated with the management of refuges. The refuge system attracts 
41 million visitors annually who generate more than $1.7 billion for 
local economies, including 27,000 jobs and $185 million in tax 
revenues. Further, according to the 2007 report, Banking on Nature, on 
the average refuges return $4 of economic activity for each $1 
appropriated for their operation. Continued underfunding of refuges 
will result in negative impacts on local economies--something to 
consider during the tough economic times facing our country.
    Invasive species are a major continuing problem facing refuge 
managers. Despite added emphasis on identification and control, 
valuable wildlife habitat continues to be lost. We urge the 
subcommittee to continue its strong support for the control of invasive 
species.
    I urge the subcommittee to support an allocation of $100 million in 
the FWS budget for land acquisition through the Land and Water 
Conservation Fund (LWCF). The acquisition of important habitat for 
endangered species and other fish and wildlife has been severely 
reduced in recent years due to very low allocations and this situation 
must corrected.
    The inequitable distribution of resource management dollars among 
the four Federal land managing agencies remains to be a serious 
concern. On a per-acre basis, funding to manage units of the refuge 
system is significantly lower than that allocated to manage national 
forests, national parks, and BLM lands. For example, when including the 
recently added 54 million acres of national monuments, the NWRS 
receives slightly more than $3 per acre, by far the lowest of the four 
agencies. I am not suggesting that the funding level should be the same 
far all, as the missions vary; however, the current disparity defies 
reason. I suggest that the subcommittee and the Congress should provide 
some reasonable level of equity as it contemplates future allocations.
    In summary, the NWRS is facing a severe funding deficit which must 
be addressed. We ask that the subcommittee support increased O&M 
funding for the NWRS to $514 million in fiscal year 2010. Further, we 
ask that that the subcommittee support the goal of reaching an O&M 
funding level of $765 million by fiscal year 2013. And finally, we urge 
the subcommittee to support an allocation of $100 million from the LWCF 
for refuge land acquisition in fiscal year 2010.
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System

    Madam Chairwoman and members of the subcommittee: The Partnership 
for the National Trails System (NTS) appreciates your support over the 
past 15 years, through operations funding and dedicated Challenge Cost 
Share funds, for the national scenic and historic trails administered 
by the National Park Service (NPS). We also appreciate your increased 
allocation of funds to support the trails administered and managed by 
the Forest Service (USFS) and for the trails in the Bureau of Land 
Management's (BLM) National Landscape Conservation System (NLCS). To 
continue the progress that you have fostered, the Partnership requests 
that you provide annual operations funding for each of the 30 national 
scenic and historic trails for fiscal year 2010 through these 
appropriations:
  --NPS.--$15.063 million for administration of 23 trails and for 
        coordination of the long-distance trails program by the 
        Washington office. Construction: $300,000 for the Overmountain 
        Victory and $200,000 for the Pacific Crest Trails. Feasibility 
        Studies and Projects: $200,000 for the Overmountain Victory and 
        $230,000 for the North Country Trails.
  --USDA USFS.--$10.011 million to administer six trails and $1.1 
        million to manage parts of 16 trails administered by the NPS or 
        BLM; Construction: $1 million for the Iditarod Trail and 
        $325,000 for the North Country Trail.
  --BLM.--to coordinate its NTS Program: $250,000; to administer these 
        three trails: Iditarod Trail: $670,000, the Camino Real de 
        Tierra Adentro Trail: $230,000, the Old Spanish Trail: $350,000 
        and to manage portions of 10 trails administered by the NPS or 
        the USFS: $3.088 million; $3,140,000 for operating five 
        National Historic Trail interpretive centers; Construction: 
        $350,000 for the Continental Divide and $300,000 for the 
        Pacific Crest Trails.
  --We ask that you appropriate $4.5 million for the NPS Challenge Cost 
        Share Program and continue to direct one-third ($1,500,000) for 
        national scenic and historic trails or create a separate $1.5 
        million NTS Challenge Cost Share Program.
  --We ask that you add $500,000 to the BLM's Challenge Cost Share 
        Program and allocate it for the national scenic and historic 
        trails it administers or manages.
  --We ask that you appropriate $1.253 million to the NPS Conservation 
        and Outdoor Recreation office to support the second year of a 
        5-year interagency project to develop a consistent systemwide 
        NTS Geographic Information System (GIS).
    We ask that you appropriate from the Land and Water Conservation 
Fund (LWCF) for land acquisition:
  --To the USFS.--$10.75 million for the Pacific Crest Trail; $6.357 
        million for the Florida Trail; and $15.02 million for the 
        Appalachian Trail;
  --To the BLM.--$3 million for the Camino Real de Tierra Adentro Trail 
        in New Mexico; $1 million for the Lewis & Clark Trail in 
        Montana; $4.25 million for the Pacific Crest Trail in Oregon; 
        and $150,000 for the Continental Divide Trail in New Mexico;
  --To the NPS.--$4.75 million to grant to the State of Wisconsin to 
        match State funds for the Ice Age Trail and $2 million to grant 
        to seven States for the North Country Trail; $1.375 million for 
        the Appalachian Trail; and $1.5 million for the Overmountain 
        Victory Trail.
NPS
    We request $1.253 million to fund the second year of a 5-year 
interagency effort to develop a consistent GIS for all 30 national 
scenic and historic trails as described in the August 2001 report 
(requested by Congress in the fiscal year 2001 appropriation) ``GIS For 
the National Trails System.'' This funding will be shared with the BLM 
and the USFS. We support the administration's requested $957,000 for 
the Connect Trails to Parks project to enhance the public's 
understanding of the NTS and its relationship to the NPS.
    The $15.063 million we request for NPS operations includes 
increases for some of the trails to continue the progress and new 
initiatives made possible by the additional funding provided by 
Congress in fiscal year 2001, fiscal year 2004, fiscal year 2005, 
fiscal year 2006, fiscal year 2008, and fiscal year 2009. Our request 
includes $150,000 of ``start-up'' funding for each of the new trails 
authorized by Congress in 2008 and 2009: the Star Spangled Banner and 
Washington-Rochambeau National Historic Trails and the New England 
National Scenic Trail.
    We request an increase of $596,000 to expand NPS efforts to protect 
cultural landscapes at more than 200 sites along the Santa Fe Trail, to 
develop GIS mapping, and to fund public educational outreach programs 
of the Santa Fe Trail Association. An increase of $679,000 for the 
Trail of Tears will enable the Park Service to work with the Trail of 
Tears Association to develop a GIS to map the Trail's historical and 
cultural heritage sites to protect them and to develop interpretation 
of them for visitors. Our requested increase of $308,000 for the Ala 
Kahakai Trail will enable the NPS to work with E Mau Na Ala Hele and 
other community organizations to care for resources on the land and 
with the University of Hawaii to conduct archaeological and cultural 
landscape studies along the trail. Our requested increase of $315,000 
for the Captain John Smith Chesapeake Trail will provide interpretive, 
access and recreation planning and project development assistance to 
State, community, and nonprofit trail partners and hasten completion of 
the Comprehensive Management Plan for the Trail.
    We request an increase of $115,000 for the Appalachian Trail to 
expand the highly successful ``Trail to Every Classroom'' program of 
the Appalachian Trail Conservancy. The $969,000 we request for the 
4,200-mile North Country Trail will enable the NPS to provide greater 
support for the regional GIS mapping, trail building, trail management, 
and training of volunteers led by the North Country Trail Association, 
hastening the day when our Nation's longest national scenic trail will 
be fully opened for use. The $1,111,000 we request for the Ice Age 
Trail includes a $265,000 increase to enable the NPS to develop and 
begin to implement an Interpretive Plan, to complete trail route 
planning, and to support stewardship by Ice Age Park & Trail Foundation 
staff and volunteers of lands acquired for the trail.
    Feasibility and Planning Studies.--We request $200,000 for a 
feasibility study of the location for a headquarters and visitor center 
for the Overmountain Victory Trail and $230,000 for a GIS-based natural 
resource inventory and community economic impact studies for the North 
Country Trail.
    Construction.--We request that you appropriate for trail and 
historic site construction projects $300,000 for the Overmountain 
Victory Trail and $200,000 for the Pacific Crest Trail.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership requests that you appropriate $4.5 million in Challenge 
Cost Share funding to the NPS for fiscal year 2010 as a wise investment 
of public money that will generate public benefits many times greater 
than its sum. We ask you to continue to direct one-third of the $4.5 
million for the national scenic and historic trails to continue the 
steady progress toward making these trails fully available for public 
enjoyment. We suggest, as an alternative to the annual allocating of 
funds from the Regular Challenge Cost Share program, that you establish 
a separate NTS Challenge Cost Share program with $1.5 million funding.
USDA USFS
    As you have done for several years, we ask that you provide 
additional operations funding to the USFS for administering three 
national scenic trails and one national historic trail, and managing 
parts of 16 other trails. We ask you to appropriate $9.011 million as a 
separate budgetary item specifically for the Continental Divide, 
Florida and Pacific Crest National Scenic Trails, and the Nez Perce 
National Historic Trail within an over-all appropriation for Capital 
Improvements and Maintenance for Trails of $136.4 million. Full-time 
managers have been assigned for each of these trails by the USFS. 
Recognizing the on-the-ground management responsibility the USFS has 
for 838 miles of the Appalachian Trail, more than 650 miles of the 
North Country Trail, and sections of the Ice Age, Anza, Caminos Real de 
Tierra Adentro and de Tejas, Lewis & Clark, California, Iditarod, 
Mormon Pioneer, Old Spanish, Oregon, Overmountain Victory, Pony 
Express, Trail of Tears and Santa Fe Trails, we ask you to appropriate 
$1.1 million specifically for these trails. We request $500,000 of 
``start-up'' funding for each of the new trails authorized by Congress 
in 2009: the Arizona and Pacific Northwest National Scenic Trails, 
which the USFS will administer. We also request $1 million for the 
Chugach National Forest to begin to develop the Southern Trek of the 
Iditarod Trail and $325,000 to do NEPA planning for the North Country 
Trail in the Chippewa and Superior National Forests.
    Work is underway, supported by funds you provided over the past 8 
years, to close several major gaps in the Florida Trail. In 2008, 
Florida Trail Association (FTA) volunteers built or reconstructed 65 
miles of Trail, 11 bridges, and 508 feet of boardwalk. The 
Partnership's request of $9.011 million above includes $1.75 million to 
enable the USFS and FTA to build 5 miles of new trail and to control 
invasive species, do ecosystem restoration, and otherwise manage 3,418 
acres of new FTA land.
    The Partnership's request of $9.011 million above also includes 
$2.1 million to enable the USFS and the Continental Divide Trail 
Alliance to build or reconstruct 156 more miles of the Continental 
Divide Trail. This will continue new CDT construction funded each year 
since fiscal year 1998.
BLM
    While the BLM has administrative authority only for the Iditarod, 
El Camino Real de Tierra Adentro, and the Old Spanish National Historic 
Trails, it has on-the-ground management responsibility for 641 miles of 
three scenic trails and 3,115 miles of seven historic trails 
administered by the NPS and USFS. The BLM recognized the significance 
of these trails by including them in the NLCS and, for the first time, 
in fiscal year 2002, by providing funding for each of them. The 
Partnership applauds these decisions of the BLM and encourages its 
staff to budget specific funding for each of these trails.
    We ask you to provide at least $75 million as new permanent base 
funding for the NLCS and that you appropriate as new permanent base 
funding $250,000 for NTS Program Coordination, $670,000 for the 
Iditarod Trail, $230,000 for El Camino Real de Tierra Adentro Trail, 
$350,000 for the Old Spanish Trail, and $3,088,000 for management of 
the portions of the 10 other trails under the care of the BLM. We 
request $350,000 for construction of new sections of the Continental 
Divide Trail, $300,000 for maintenance of the Pacific Crest Trail; and 
$3,140,000 to operate five historic trails interpretive centers.
    We ask you to add $500,000 to the Challenge Cost Share program and 
direct the money for the NTS as you have done for many years with the 
Park Service's Challenge Cost Share program.
    To promote greater management transparency and accountability for 
the National Trails and the whole NLCS, we urge you to request 
expenditure and accomplishment reports for each of the NLCS units for 
fiscal year 2009 and to direct the BLM to include unit-level 
allocations by major sub-activities for each of the scenic and historic 
trails, and wild and scenic rivers--as the BLM has done for the 
monuments and conservation areas--within a new activity account for the 
NLCS in fiscal year 2010. Existing accounts for Wilderness Areas and 
Wilderness Study Areas should also be included in this new NLCS 
activity account. The BLM's lack of a unified budget account for 
National Trails prevents the agency from efficiently planning, 
implementing, reporting, and taking advantage of cost-saving and 
leveraging partnerships and volunteer contributions for every activity 
related to these national resources.
LWCF
    The Partnership requests that you fully appropriate the $900 
million annual authorized appropriation from the LWCF and that you make 
the specific appropriations for national scenic and historic trails 
detailed at the beginning of this statement and below.
    USFS.--The $10.75 million we request for the Pacific Crest Trail 
(PCT) will continue to support the work and acquisition underway by the 
USFS Lands Team and the NPS National Trail Land Resources Program 
Center, protecting 12 miles of PCT in Washington and taking 34 miles 
off of roads in southern California. The $6.357 million requested for 
the Florida Trail will continue another successful collaboration 
between these two agencies to protect 16 critical segments involving 
another 4 miles of the trail and the $15.020 million requested will 
protect sections of the Appalachian Trail in the Cherokee and Nantahala 
National Forests.
    BLM.--The $4.25 million requested for the Cascade Siskiyou National 
Monument will also preserve sections of the Pacific Crest Trail in 
Oregon, the $1 million requested for the Chain-of-Lakes in Montana will 
preserve a stretch of the Lewis & Clark Trail, and the $3 million 
requested for La Cienega ACEC in New Mexico will preserve a significant 
site along El Camino Real de Tierra Adentro National Historic Trail. 
The $150,000 requested will purchase easements for the Continental 
Divide Trail in New Mexico.
    NPS.--The National Trails System Act encourages States to assist in 
the conservation of the resources and development of the national 
scenic and historic trails. Wisconsin has matched $12.3 million of 
fiscal year 2000-2006 and fiscal year 2008 LWCF funding with $20.5 
million to help conserve the resources of the Ice Age National Scenic 
Trail by purchasing 42 parcels totaling 7,259 acres. Another 40 parcels 
are under negotiation, appraisal, or option to purchase. All of the 
LWCF funds appropriated for the Ice Age Trail have been spent. The 
requested $4.75 million LWCF grant to Wisconsin will continue this very 
successful Federal/State/local partnership for protecting land for the 
Ice Age Trail. We also request $2 million to provide similar grants to 
the 7 States along its route to close gaps in the North Country Trail 
and $1.375 million for the NPS to acquire one parcel in New Hampshire 
for the Appalachian Trail. The $1.5 million requested for the 
Overmountain Victory Trail will protect key links and sites in North 
Carolina, Tennessee, and Virginia.
Private Sector Support for the NTS
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the NTS since its inception. These 
partnerships create the enduring strength of the NTS and the trail 
communities that sustain it by combining the local, grass-roots energy 
and responsiveness of volunteers with the responsible continuity of 
public agencies. They also provide private financial support for public 
projects, often resulting in a greater than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2008 the trail organizations fostered 771,933 
hours--an increase of 6.5 percent more than 2007--of documented 
volunteer labor valued at $15,631,643 to help sustain the national 
scenic and historic trails. The organizations also raised private 
sector contributions of $9,108,338 to benefit the trails.
                                 ______
                                 
               Prepared Statement of the Porcupine School

    On behalf of Porcupine School, thank you for the opportunity to 
submit views on the fiscal year 2010 Bureau of Indian Education (BIE) 
funding request that is contained in the Interior, Environment, and 
Related Agencies appropriations. The Porcupine School is a located 
within the Pine Ridge Indian Reservation in South Dakota. Our school 
has operated as a BIE grant school since the 1980s, and serves more 
than 180 students in kindergarten through eighth grade.
    The Porcupine School students, parents, faculty, and administration 
are all greatly appreciative of the funding Congress provided that 
enabled us to recently replace our aged school with new construction. 
Nonetheless, we are disappointed that despite a new administration, the 
fiscal year 2010 budget proposal does not seek to address much of the 
chronic underfunding that places a great strain our ability to properly 
staff and operate our schools. Our testimony focuses on three of the 
vitally important programs that greatly impact the quality of education 
we are able to provide our students:
  --Administrative Cost Grants;
  --Facilities Operations and Maintenance; and
  --Indian School Equalization Program.
Administrative Cost Grants
    The Administrative Cost Grants (ACG) is provided to tribally 
operated schools for the administrative costs incurred in the operation 
of school programs, i.e., fiscal management, overhead services, health 
insurance, workmen's compensation insurance, pensions, personnel 
services, etc. The level of need for each school is determined by the 
statutorily mandated formula for calculation of ACGs. However, since 
fiscal year 2003 the annual appropriated amount has been flat funded, 
resulting in a steady erosion in the amount of ACGs that is allocated 
to each tribally operated school. For example, in school year 2007-
2008, the BIE provided only 65.75 percent of ACG need. Then in school 
year 2008-2009 the rate fell to an even lower 62.36 percent. Because 
the fiscal year 2010 budget request proposes level funding again at 
$43.3 million, we fear the ACG level of need funded will fall even 
further, perhaps below 60 percent.
    Despite whether ACG is funded at 100 percent or 60 percent, the 
administration of a school, compliance with Federal requirements, 
accountability must be fulfilled. In order to do so, we, like other 
grant and contract schools, have had to make up any ACG shortfalls by 
instituting cost-cutting measures, layoffs, and even dipping into other 
available resources, such as the classroom and transportation funds. At 
Porcupine School we have are fortunate to have included a school nurse 
office into the design of our new school building--but we have no funds 
to hire a nurse.
    We cannot fathom why the administration has not sought an increase 
in ACGs when it has plainly accepted, and appears to support, the need 
to adequately fund the indirect costs for BIA and Indian Health Service 
(IHS) contract support costs (CSC). This is evidenced by the fact that 
the administration seeks a $5.5 million increase in order to pay BIA 
contract support costs at 77.4 percent, and requests an additional $2 
million for the Indian Self-Determination Fund to pay CSC of new 
contractors. For IHS contract support costs, the administration seeks 
an astounding $107 million increase.
    We urge that Congress address the chronic ACG shortfall and 
appropriate funds at a level that would provide the tribally operated 
schools 100 percent of need, which has been estimated to be $58.6 
million.
Facilities Operations
    As stated above, the Porcupine School facility has been newly 
constructed and we anticipate the updated electrical, heating, and 
other infrastructure systems will help with facility operations run 
more efficiently and with cost effectiveness. Nonetheless, we are 
chagrined the BIE does not seek more than an additional $2 million to 
address the consistent shortfall in facilities operations funds. After 
providing millions of Federal dollars to build our new school, we would 
have expected the BIE to want to protect the Federal Government's 
investment in this facility by supplying sufficient funds to prudently 
operate it and assure that the students who occupy it receive the 
benefit Congress intended. These funds are used to help cover expenses 
such as utilities, communications, maintenance of grounds, garbage 
collection, custodial supplies and services, and a host of other 
operations costs.
    In its budget justification, the BIE states the requested increase 
``will partially offset the 29.7 percent increase in school utility 
costs'' that have occurred since 2005. What BIE fails to disclose is 
the amount of the shortfall that schools must make up from elsewhere in 
their budgets. In the current school year, Porcupine School has 
received only 43 percent of the facilities operations amount it is due. 
How can we hope to operate effectively if we must make critical 
sacrifices that directly impact facility operations, such as having to 
let go some janitors and the security guard--although the need for 
these positions and the associated work remain?
    We thank Congress for the additional funds in fiscal year 2009 and 
via the American Economic Recovery and Reinvestment Act that will help 
more BIE-funded schools address the long-standing backlog of repairs. 
We urge Congress to take the next step and provide a level of funding 
that allows us to maintain those investments and begin to address even 
preventive maintenance. Timely and adequate distribution of funds is 
vital to ensuring our schools are properly staffed, maintained, and 
operational.
Indian School Equalization Program (ISEP)
    The ISEP formula funds are the lifeblood of our school budgets. 
These funds are utilized for school professional and support staff 
salaries, classroom materials, supplies and other costs associated with 
the curriculum/education side of the school operations.
    The majority of our ISEP is dedicated to salaries, yet we cannot 
compare to the salaries offered by the public schools and even the BIE-
operated schools. This puts us at a distinct disadvantage in our 
ability to attract the most qualified teachers, much less those who 
would be willing to relocated to our rural, isolated Indian 
reservation. Even the recruitment costs are higher due to our locale. 
As we have noted, when there are shortfalls in other areas of the 
school budget, e.g., ACGs, facilities operations, student 
transportation, etc., we often have to divert from the education 
program account to cover those costs.
    The Porcupine School supports the administration's fiscal year 2010 
request for a $10 million increase for ISEP, although it translates to 
only $236.51/student--if every $1 of the increase is directed to the 
schools and none ``held'' at the BIE administration level. What 
Porcupine School recommends is that Congress provide at least an 
additional $500 per student.
Conclusion
    We look forward to working with you on the fiscal year 2010 budget 
for the BIE.
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission

    Mr. Chairman, and honorable members of the subcommittee, my name is 
Jeff Koenings and I serve as an Alternate Commissioner on the Pacific 
Salmon Commission (PSC). The U.S. section prepares an annual budget for 
implementation of the treaty. The integrated budget details program 
needs and costs for tribal, Federal, and State agencies involved in the 
treaty. Under the Bureau of Indian Affairs budget, the U.S. section 
recommends that Congress:
  --Fund the tribes' program at a restored funding level of $4,800,000 
        for tribal research projects and participation in the U.S.-
        Canada Pacific Salmon Treaty process, an increase of $2,530,000 
        more than the fiscal year 2009 omnibus funding bill. This 
        funding level represents restoration of funding to the fiscal 
        year 2008 level plus adjustments to meet increased obligations 
        under the 2009-2018 Pacific Salmon Treaty Agreement. The 
        funding for tribal participation in the U.S./Canada Salmon 
        Treaty is a line item under the Rights Protection 
        Implementation, Wildlife and Parks, Other Recurring Programs 
        Area.
    Under U.S. Fish and Wildlife Service (FWS) programs, the U.S. 
section recommends that Congress:
  --Provide base funding of $445,000 for USFWS participation in the 
        Treaty process, and provide funding of $250,000 for the Pacific 
        States Marine Fisheries Commission's (PSMFC) Regional Mark 
        Processing Center (RMPC).
    This base funding for the FWS will pay for the critically important 
on-going work. The funding for PSMFC's RMPC is utilized to meet Treaty 
requirements concerning data exchange with Canada. These program 
recommendations are integrated with those of the State and Federal 
agencies to avoid duplication of effort and provide for the most 
efficient expenditure of scarce funds.
    A copy of the integrated U.S. section budget justification has been 
made available to the subcommittee. The budget summary justifies the 
funding we are recommending today. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation of the Treaty and are used in cooperative programs 
involving Federal, State, and tribal fishery agencies and the 
Department of Fisheries in Canada. The monetary commitment of the 
United States is matched by the commitment of the Government of Canada.
    The U.S. section of the PSC is recommending a substantial 
adjustment to the funding for the work carried out by the 24 treaty 
tribes' that participate in the implementation of the Treaty. Programs 
carried out by the tribes are closely coordinated with those of the 
States and Federal agencies, but the tribes' efforts are now being 
hampered by forced staff reductions due to a 45 percent reduction in 
fiscal year 2009 funding for the Treaty program. Tribal programs are 
essential for the United States to meet its international obligations.
    We are strongly recommending maintaining base funding of $445,000 
for the FWS so the United States can maintain the critical database to 
implement the Treaty. We also strongly recommend funding of $250,000 to 
allow continuation of work carried out by the Regional Mark Processing 
Center. This work, maintaining and updating a coastwide computerized 
information management system for salmon harvest and catch effort data 
as required by the Treaty, has become even more important to monitor 
the success of management actions at reducing impacts on ESA-listed 
salmon populations. Canada has a counterpart database. The database 
will continue to be housed at the PSMFC. FWS will contract with the 
PSFMC to provide this service.
    Mr. Chairman, the United States and Canada established the PSC, 
under the Pacific Salmon Treaty of 1985, to conserve salmon stocks, 
provide for optimum production of salmon, and to control salmon 
interceptions. After more than 20 years, the work of the PSC continues 
to be essential for the wise management of salmon in the Northwest, 
British Columbia, and Alaska. For example, upriver Bright fall Chinook 
salmon from the Hanford Reach of the Columbia River are caught in large 
numbers in Alaskan and Canadian waters. Tribal and nontribal fishermen 
harvest sockeye salmon from Canada's Fraser River in the Strait of Juan 
de Fuca and in Puget Sound. Canadian trollers off of the west coast of 
Vancouver Island catch Washington coastal Coho salmon. In the Northern 
Boundary area between Canada and Alaska, fish from both countries are 
intercepted by the other country in large numbers. The Commission 
provides a forum to ensure cooperative management of salmon 
populations. In 2008, the United States and Canada successfully 
concluded lengthy negotiations to improve this management, including 
the adjustments to the coastwide abundance-based management regime for 
Chinook salmon and a framework for abundance based management for 
southern Coho populations. The agreement is intended to last for 
through 2018. The Fraser River sockeye and pink chapter to the Pacific 
Salmon Treaty expires in 2010 and negotiators are diligently working to 
complete a revised agreement for management of those fisheries.
    Before the Treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the Treaty was signed, 
Chinook salmon were in a severely depressed state as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continues these commitments. 
The combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the Treaty, managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the 24 treaty tribes in Washington, Oregon, and Idaho 
goes far beyond their monetary value, to the cultural and religious 
lives of Indian people. A significant monetary investment is focused on 
salmon as a result of listings of Pacific Northwest salmon populations 
under the Endangered Species Act. Given the resources, we can continue 
to use the Pacific Salmon Commission to develop recommendations that 
help to ensure solutions that minimize impacts on listed stocks, 
especially if we are allowed to work toward the true intent of the 
Treaty: mutually beneficial enhancement of the shared resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your subcommittee. I want to thank the subcommittee 
for the support that it has given the U.S. section in the past. Please 
feel free to contact me, or other members of the U.S. section, through 
the Office of the U.S. section coordinator to answer any questions you 
or subcommittee members may have regarding the U.S. section of the PSC 
budget.
  SUMMARY OF TRIBAL AND FISH AND WILDLIFE SERVICE PROGRAMS UNDER THE 
                   U.S.-CANADA PACIFIC SALMON TREATY

                                           DEPARTMENT OF THE INTERIOR
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                    2009 actual        2010          Increase
                                                                   appropriation  recommendation
----------------------------------------------------------------------------------------------------------------

Bureau of Indian Affairs, Wildlife and Parks, Rights                       2,270           4,800           2,530
----------------------------------------------------------------------------------------------------------------


                                           DEPARTMENT OF THE INTERIOR
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                    2009 actual        2009          Increase
                                                                   appropriation  recommendation
----------------------------------------------------------------------------------------------------------------

U.S. Fish and Wildlife Service, Anadromous Fisheries............             695             695  ..............
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
             Prepared Statement of the Passamaquoddy Tribe

    Madame Chairwoman and distinguished committee members: My name is 
Richard Phillips-Doyle and I am the elected Sakom/Chief of the 
Passamaquoddy Tribe located on the Pleasant Point reservation in Perry, 
Maine. I would like to thank you for the opportunity to provide 
testimony to the Appropriations Subcommittee on the Interior, 
Environment, and Related Agencies. I will be requesting appropriations 
from the Department of the Interior, Bureau of Indian Affairs (BIA) for 
an annual appropriation of $2,410,739.
    Pleasant Point reservation is located in rural Washington County 
Maine and is situated along the shores of Passamaquoddy Bay. Washington 
County is approximately 2,500 square miles and has a year-round 
population of just more than 32,000 people (32,499). Historically, 
Washington County has been one of the most economically depressed 
counties in the State of Maine as well as the rest of the country.
    The Passamaquoddy have lived on the shores of Passamaquoddy Bay for 
more than 10,000 years and have maintained a reservation at its present 
location since before Maine became a State and was still part of 
Massachusetts. The reservation at Pleasant Point is comprised of 527 
acres with an additional 132,000 acres that is both fee and Federal 
trust lands. As of January 1, 2009 the current on-reservation 
population is 685 individuals (367 females and 318 males).
    The tribe is currently the largest employer in the immediate area 
and employs 88 people (19 of which are non-tribal members). This figure 
is down from 113 employees and represents a 22.2 percent decrease in 
the tribe's labor force since January 1 of this year. Presently the 
tribal unemployment rate is 65 percent with the majority of those 
employed individuals working for tribal government. For comparison 
purposes the unemployment rate for Washington County, Maine is 13.6 
percent and 8.1 percent for the entire State (as of March 2009).
    Due to a short fall in funding of $900,590 the tribe has had to lay 
off a number of its employees (26 individuals) since January 1 of this 
year. This shortage of funds, as you can imagine, has had a detrimental 
affect on essential tribal programs and services. Although practically 
every program and/or department has been adversely affected, the 
following programs and departments have sustained the brunt of these 
funding shortfalls:
  --Law enforcement (Including radio dispatch services);
  --Fire protection;
  --Public works;
  --Tribal game wardens;
  --Tribal recreation and youth;
  --Education and adult vocational/technical; and
  --Waste water treatment.
    To reiterate, the Passamaquoddy Tribe at Pleasant Point is 
requesting additional funding in the amount of $900,590 on top of its 
base funding of $1,510,149 for a total of $2,410,739 for fiscal year 
2010.
                                 ______
                                 
Prepared Statement of the Public Trust Environmental Legal Institute of 
                             Florida, Inc.

    Madam Chairman and honorable members of the subcommittee: I want to 
thank you for the opportunity to present this testimony in support of 
protecting land at the Timucuan Ecological and Historic Preserve (EHP) 
near Jacksonville, Florida. There is an opportunity for the National 
Park Service (NPS) to expand the park to include properties near Thomas 
Creek. The first phase of the Seaton Creek tract (approximately 157 
acres) can be acquired by the NPS with an appropriation of $3 million 
from the Land and Water Conservation Fund (LWCF).
    The Public Trust Environmental Legal Institute of Florida is a 
501(c)(3) nonprofit environmental organization. Commonly known as the 
``Public Trust,'' our primary focus is the zealous protection of the 
city of Jacksonville's Preservation Project and other Federal- and 
State-protected lands and waters. We pursue legal means, including 
litigation if necessary, to protect and preserve the public lands and 
waters. Additionally, we support the education of political leaders, 
Government officials and citizens by participating in speaking 
engagements and writing articles and letters. The Public Trust also 
promotes the use and enjoyment of land and waters within the public 
trust. The Timucuan Preserve is a keystone to Northeast Florida's 
public lands and waters and thus its protection and hopeful expansion 
is directly tied to our mission.
    I also respectfully request a substantial increase in overall 
funding for the LWCF, specifically urging the subcommittee to provide 
$325 million for the Federal LWCF in the fiscal year 2010 Interior, 
Environment, and Related Agencies appropriations bill. I applaud the 
LWCF funding increases provided by this subcommittee in fiscal year 
2009. And, we are most thankful that the Obama administration budget 
recognizes the importance of these programs by proposing significant 
increases for fiscal year 2010 and setting a goal to achieve full 
funding of the LWCF in the next 5 years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units, and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. Public lands provide innumerable social and 
economic benefits including a healthy lifestyle, protection of 
watersheds and drinking water supplies, wildfire reduction and 
prevention, and assistance to wildlife and fisheries as they adapt to 
climate change. We urge you to renew this wise investment in America's 
natural heritage and take steps toward full and consistent funding of 
these vital programs.
    Located about 10 miles northeast of downtown Jacksonville, Florida, 
the Timucuan EHP is a unique national park site. Created by Congress in 
1988, the park is cooperatively managed by the NPS, the State of 
Florida, the city of Jacksonville, and hundreds of private landowners 
within the preserve to protect a treasured coastal ecosystem and 
centuries of history.
    Timucuan EHP is named for the Timucua, a pre-Columbian people who 
lived on the coasts and river mouths of northeastern Florida. Intimate 
with the ocean shore and its resources, the most notable archeological 
remnants left by the Timucua are mounds of oyster and clam shells. They 
also carved into tree trunks to make canoes in order to navigate the 
miles of watery passageways in the marshes and estuaries. When French 
settlers first arrived at the mouth of the St. Johns River in 1562, the 
Timucua offered assistance in building the Fort Caroline settlement. 
The Spanish, however, were not far behind, establishing a settlement 30 
miles to the south at St. Augustine in 1565. Not content with sharing 
Florida with the French, the Spanish quickly descended on Fort Caroline 
that same year and destroyed it, solidifying their control of the 
peninsula for most of the next 250 years. Meanwhile, like most of the 
other coastal Native Americans, the Timucua people suffered greatly 
from European diseases to which they had no immunity, and the culture 
eventually disappeared in the early 18th century.
    Timucuan EHP extends more than 46,000 acres at the mouths of the 
St. Johns and Nassau rivers. Major sites within the preserve are Fort 
Caroline National Memorial; the Theodore Roosevelt Area, a marsh with 
boardwalk trails and wildlife observation points; and the Kingsley 
Plantation, which offers the interpretation of a 19th-century slave 
plantation. The Thomas Creek area of the preserve is believed to be the 
site of a 1777 battle known as the southernmost encounter between the 
Americans and British during the Revolutionary War. Only a portion of 
the battlefield is protected. The park also offers visitors 
opportunities for water recreation including boating and fishing.
    In the original 1988 legislation, Congress authorized the 
acquisition of historical sites spanning more than 300 years from Fort 
Caroline to the Civil War. An expansion bill passed in 2004 authorized 
the park to accept a parcel containing a pristine coastal dune at 
American Beach, the first African American beach resort in Florida. The 
NPS now has the opportunity to include within the boundaries of 
Timucuan EHP an additional 1,772 acres of land south of Thomas Creek.
    This property has significant ecological resources consistent with 
those of the Timucuan preserve. The area is about 70 percent uplands 
and 30 percent wetlands, with the wetlands including salt marsh and 
bottomland forests. The landscape provides habitat for many notable 
species including bald eagle, wood duck, hooded merganser, deer, 
turkey, and quail. Bobcats have been sighted in the area, which is also 
thought to have habitat suitable for wood storks, gopher tortoises, 
flatwoods salamanders, and eastern indigo snakes, all Federal or State-
listed threatened or endangered species.
    Because of its links to the Nassau River watershed, the State of 
Florida has listed this area as a priority for acquisition and 
conservation through the Florida Forever Program. The project area, 
known as the Northeast Florida Timberlands and Watershed Reserve, 
covers forested watershed land in Nassau, Duval, and Clay counties. The 
reserve was categorized in September 2008 by the State as an ``A'' list 
priority acquisition area and as 1 of 21 projects listed as highest 
priority.
    The Timucuan Preserve's expansion area would link and buffer 
several Federal and State-owned sites. Conservation of the tracts would 
link Timucuan EHP with a city-owned preserve to the west. About a mile 
to the west is the 526-acre Jacksonville National Cemetery. Authorized 
by Congress in 2003, the cemetery opened in January 2009. A road may be 
constructed through a portion of the expansion area to improve access 
to the cemetery. Lastly, Jacksonville International Airport lies just 
to the south, and the expansion area may serve as an undeveloped buffer 
to the airport and to the Florida Air National Guard facilities.
    This key location also introduces significant development threats 
to the 1,772-acre expansion area. The airport is a large economic 
generator in the region, and lands around it are expected to see high 
rates of growth in upcoming years. While the construction of the road 
would serve the purpose of improving access to the national cemetery, 
it would also increase the desirability of development in a location 
close to Interstate 95. In fact, the property was recently zoned for 
commercial and residential development uses and full entitlements were 
granted by Duval County. It was approved for a master Regional Activity 
Center adjacent to the I-95 commercial corridor just north of the 
Jacksonville International Airport. If it is not protected in the near 
future, it could still be developed once the economy improves.
    Available for acquisition in fiscal year 2010 is the first phase of 
the 262-acre Seaton Creek parcel, which is located in the easternmost 
portion of the expansion area. The first phase will be approximately 
157 acres. The parcel is crossed by Boat Swamp, Seaton, and Houston 
creeks. Seaton and Houston creeks have the special State designation as 
``Outstanding Florida Waters'' because of their connection to Timucuan 
EHP. During a recent archeological survey conducted on the tract, a 
Revolutionary War-era military coat button was found. Protection of the 
property would ensure complete examination of the site for other 
artifacts from the Thomas Creek battle. Much of this property is 
included in the State's Pumpkin Hill Creek Florida Forever acquisition 
priority area, which seeks to protect one of the largest natural 
uplands in Duval County, maintain the water quality of the St. Johns 
and Nassau rivers, and preserve marshland habitat. Like the Northeast 
Florida Timberlands and Watershed Reserve, the Pumpkin Hill Creek area 
is categorized by the State as an ``A'' list priority.
    Additional parcels in the expansion area will be made available for 
acquisition by the State of Florida and the city of Jacksonville, as 
these lands are also contiguous with lands owned by these governments. 
Protection of the entire expansion area will be a cooperative effort of 
State, local, and Federal entities. As soon as the expansion of 
Timucuan EHP is approved, an appropriation of $3 million from the Land 
and Water Conservation Fund can begin the NPS acquisition of the Seaton 
Creek parcel, which will provide additional recreational opportunities 
for park visitors and protect key natural and cultural resources.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony on this important land conservation project in northeastern 
Florida.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians

    Mr. Chairman, my name is Herman Dillon, Sr., Puyallup Tribal 
Chairman. We thank the subcommittee for past support of many tribal 
issues and in your interest today. We share our concerns and request 
assistance in reaching objectives of significance to the Congress, the 
tribe, and to 25,000+ Indians (constituents) in our urban service area.
    U.S. Department of the Interior--Bureau of Indian Affairs (BIA).--
The Puyallup Tribe submits the following detailed written testimony to 
the U.S. Senate Subcommittee on the Interior, Environment, and Related 
Agencies. We look forward to working with Congress to insure that 
funding levels for programs necessary for the Puyallup Tribe to carry-
out our sovereign responsibility of self-determination and self-
governance for the benefit of the 4,004 Puyallup tribal members and the 
members from approximately 355 federally recognized tribes who utilize 
our services are included in the fiscal year 2010 budget.
    Puyallup Nation Law Enforcement.--The Puyallup Reservation is 
located in the urbanized Seattle-Tacoma area of the State of 
Washington. The 18,061 acre reservation and related urban service area 
contains 25,000+ Native Americans from more than 355 tribes and Alaskan 
villages. The Puyallup Nation Law Enforcement Division currently has a 
Chief of Police, 26 commissioned officers, and 2 reserve officers to 
cover 40 square miles of reservation in addition to the usual and 
accustomed areas. Due to limited Federal funding for law enforcement in 
Indian country, only two officers are funded with Public Law 93-638 
funds. With the continuing increase in population, increase in gang-
related activities on the Puyallup Reservation and the impact of the 
manufacturing of methamphetamines in the region, the services of the 
Puyallup Nation law enforcement division are exceeding maximum levels.
    A major area of concern is the status of the tribe's detention 
facility. Due to damages from the February 2001 Nisqually earthquake, 
we have had to relocate to modular/temporary facilities. Operated as a 
``regional detention facility'' the Puyallup Tribe was able to provide 
detention service to surrounding tribes. Since the relocation to 
modular facilities the tribe's ability to effectively and safely 
incarcerate detainee's has been compromised due to the condition of the 
temporary detention facilities. These conditions have been verified by 
a recent inspection by the BIA. with a recommendation that no further 
funds be allocated to try and bring the facility up to any standard. In 
an effort to protect the safety and welfare of the native community the 
Puyallup Tribe has initiated the design and construction of a 28,000-
square foot ``Justice Center'' to be located on the Puyallup Indian 
Reservation. The Justice Center will provide necessary facilities for 
the delivery of judiciary services including a tribal court, court 
clerk, prosecution, probation, public defender and law enforcement 
services including police headquarters and a 7,000 square foot, 28 cell 
``adult detention facility''.
  --Request the subcommittee to support the increased funding to the 
        BIA public safety and justice law enforcement over the fiscal 
        year 2009 enacted budget and further request that the BIA 
        transfer Law Enforcement back into tribal priority allocations 
        (TPA);
  --Support from the subcommittee on the tribes request to the 
        Subcommittee on Commerce, Justice, and Science, and Related 
        Agencies for funding in the amount of $5.25 million to 
        construct the ``detention'' portion of the Justice Center;
  --Support from the subcommittee to fund to the tribal courts budget 
        in the fiscal year 2010 budget at no less than $25 million and 
        request that the subcommittee issue directive language to BIA 
        to include increased funding for the tribal courts fiscal year 
        2011 budget.
    Fisheries and Natural Resources Management.--The Puyallup Tribe as 
steward for land and marine waters in the Usual and Accustomed fish and 
shellfish areas has treaty and governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
regional community. Despite our diligent program efforts, the fisheries 
resource is degrading and economic losses are incurred by Indian and 
non-Indian fisherman, and surrounding communities. Our resource 
management responsibilities cover thousands of square miles in the 
Puget Sound region of the State of Washington with an obligation to 
manage production of anadromous, nonanadromous fish and shellfish 
resources. Existing levels of support are inadequate to reverse the 
trend of resource/habitat degradation. Resource management is 
constrained due to funding shortfalls. We seek subcommittee support and 
endorsement in the following areas:
  --Tribal fisheries resource management, hatchery operation and 
        maintenance funding via Public Law 93-638 contracts have not 
        increased substantially since establishment of base budgets in 
        1984. The demand on Puyallup Tribal Fisheries Program has grown 
        exponential since the 1980s and is currently faced by 
        Endangered Species Act listings on numerous species. We concur 
        with the Northwest Indian Fisheries Commission (NIFC) request 
        to increase base management funding in the amount of $12 
        million. We further support the existing BIA hatchery 
        maintenance and rehabilitation be funded at $1.5 million and 
        the hatchery reform implementation be funded at $3.34 million 
        to meet basic infrastructure maintenance costs for tribal 
        hatcheries;
  --Steelhead numbers throughout the south Puget Sound region have 
        diminished markedly over the past 20 years. Generally, harvest 
        management restrictions in the form of fishing closures, wild 
        fish release regulations, and curtailed seasons and/or bag 
        limits have been enacted to protect wild stock. To avoid 
        possible extinction the Puyallup Tribe proposes to construct a 
        steelhead enhancement facility to be located on a 13-acre 
        property owned by the tribe on Wilkeson Creek in eastern Pierce 
        County. The program will be capped at rearing 150,000 smolts on 
        a combination of surface and pumped well water. The steelhead 
        will be reared for approximately 15 molts. This project will 
        facilitate the Puyallup Tribe and other resource agencies 
        involved to help stave of extinction of wild winter steelhead 
        in the Puyallup Watershed. We request Committee support to 
        appropriate $1.426 million for the Wilkeson Creek Property 
        Steelhead Hatchery Project;
  --Washington Timber-Fish-Wildlife Program--United States/Canada 
        Pacific Salmon Treaty.--The TFW and the United States/Canada 
        Pacific Salmon Treaty programs has allowed for the expansion of 
        tribal participation in the State forest practice rules and 
        regulations and participate in intertribal organizations to 
        address specific treaties and/or legal cases which relate to 
        fishing rights, harvest, and management. We request 
        subcommittee support to restore base funding of $1.74 million 
        for TFW and $2.2 million for United States/Canada Pacific 
        Salmon Treaty fiscal year 2010 budget;
  --Unresolved Hunting and Fishing Rights Program.--The Medicine Creek 
        Treaty secured the Puyallup Tribe and other tribes the right to 
        hunt on open and unclaimed lands. This treaty right is reserved 
        in the same paragraph that also reserved the right to fish and 
        gather shellfish. Unfortunately, the BIA program that is 
        designed to support this treaty activity has not received 
        adequate, if any, appropriations in the last several years. 
        Funds that were made available to tribes have been on a 
        competitive basis with a limited amount per program. The 
        Puyallup Tribe concurs with the NIFC request to fund $5 million 
        for tribal wildlife management--treaty hunting rights fiscal 
        year 2010 budget;
    Operation of Indian Programs and Contract Support Costs.--The 
fiscal year 2010 budget needs increased funding for the BIA--Operation 
of Indian Programs. Within the Operations of Indian Programs is the 
TPA. The TPA budget functions include the majority of funding used to 
support on-going services at the ``local tribal'' level, including; law 
enforcement, natural resources management, child welfare, housing, 
tribal courts, and other tribal governmental services. These functions 
have not received adequate funding to allow tribes the resources to 
fully exercise self-determination and self-governance. Further, the 
small increases ``TPA'' has received over the past few years have not 
been adequate to keep pace with inflation. At a minimum, we request 
your support and endorsement in the following;
  --Support by the subcommittee to fund Operation of Indian Programs 
        fiscal year 2010 request at the President's suggested fiscal 
        year 2010 level of $2.2 billion and fund contract support costs 
        at 100 percent level;
  --Tribal communities have some of the greatest needs in the areas of 
        child abuse and neglect and mental health services. Addressing 
        the current unmet needs in providing services to our most 
        vulnerable and victims of abuse should be a priority of all 
        people. The Puyallup Tribe proposes the development of a Child 
        Advocacy Center and Domestic Abuse Center designed to provide 
        services for children, youth, and families in need of child 
        welfare, mental health and juvenile justice services. We 
        request Committee support to increase funding for Indian child 
        welfare (TPA) by $45 million; Increase urban Indian child 
        welfare programs by $10 million; and Increase child welfare 
        assistance, BIA by $50 million.
    Education.--Under DOI, BIA's budget has historically been 
inadequate to meet the needs of Native Americans, resulting in unmet 
educational needs that have multiplied over the past decade. The 
Puyallup Tribe operates the pre-K to 12 Chief Leschi Schools which 
includes a verified 2008-2009 school student enrollment of 910+ 
students, including ECEAP and the FACE program. The enrollment figures 
represents near capacity with all classrooms being utilized on a daily 
basis. With an increasing number of ``pre-kindergarten'' enrollment, 
Chief Leschi Schools will exceed design capacity in the near future. We 
request subcommittee support in the following:
  --We concur with the NIEA request to increase Indian school 
        construction funding by $134.56 million from the enacted fiscal 
        year 2009 level of $128 million;
  --We concur with the NIEA request to increase school transportation 
        in the amount of $25 million and adjust annually to keep pace 
        with inflationary costs and increased cost of fuel.
    DHHS Indian Health Service (IHS).--Funding for the IHS fails to 
meet the needs of health services for Native Americans. The Puyallup 
Tribe has been operating their healthcare programs since 1976 through 
the Indian Self-Determination Act, Public Law 93-638. The Puyallup 
Tribal Health Authority (PTHA) operates a comprehensive ambulatory care 
program to an expanding population in Tacoma and Pierce County, 
Washington.
    There are no IHS hospitals in the Portland area so all specialties 
and hospital care have been paid for out of our contract care 
allocation. The contract care allocation to PTHA has been significantly 
inadequate to meet the needs since 2004 when the Puyallup Tribe 
subsidized contract health with a $2.8 million contribution; in 2005 
PTHA shifted to a priority one status. By 2008 the tribal subsidy 
reached a staggering $6 million. Given that the PTHA service population 
in only comprised of 17 percent Puyallup Tribal members tribal budget 
priorities in 2009 indicate the Tribe is no longer able to make 
subsidies to the PTHA. Contract Health dollars are expected to run out 
by mid-2009. We request the following subcommittee support for the 
fiscal year 2010 budget;
  --Fund PTHA Contract Health Care Fund an additional $6 million to 
        match fiscal year 2008 tribal expenditures. Fund the IHS 
        contract health services budget at the President's requested 
        levels and to cover the 7 percent estimated inflation rate for 
        fiscal year 2010.
    Adequate funding for the continued operations and delivery of 
quality care is essential. PTHA, like most IHS and tribal facilities, 
are annually asked to do more with less. PTHA has reached these limits 
and are no longer able to keep pace with these raising demands. This 
continued philosophy has put our clinic in a funding crisis. It is 
estimated that it will take an increase of $428 million just to 
maintain current IHS service levels in 2010. We request congressional 
support for the fiscal year 2010 IHS budget in the following areas:
  --Fund IHS at the President's requested $454 million increase 
        required to maintain current service levels including medical 
        inflation, payroll increase, and population growth;
  --Restore $711 million in lost funding during the Bush administration 
        by providing adequate funding increases in fiscal years 2010 
        and 2011;
  --Exempt IHS budget from rescissions. IHS health programs are subject 
        to the same rates of medical inflation as the Veterans 
        Administration and are deserving of the same consideration;
  --The Indian Health Care Improvement Act (IHCIA) (Public Law 94-437) 
        provides funding for the IHS and has been pending re-
        authorization since fiscal year 2000. Recently, the U.S. Senate 
        passed their version of the IHCIA and the U.S. House of 
        Representatives has pledged to pass a companion bill last 
        session. The Puyallup Tribe of Indians supports all efforts by 
        Congress and the administration to pass the IHCIA.
    Transportation.--The Indian Reservation Roads (IRR) provides 
essential funding to support the transportation infrastructure directly 
effecting tribal economies, education, systems, healthcare, and social 
service programs. Many of the 104,000 miles of IRR are unimproved and 
unsafe for tribal communities to travel to hospitals, stores, schools, 
and employment centers. We request subcommittee support in the 
following IRR transportation areas:
  --At a minimum, provide $800 million for the IRR program;
  --At a minimum, provide $75 million for the IRR Bridge Program;
  --At a minimum, provide $150 million for the BIA Road Maintenance 
        Program; and
  --Ensure that any changes to the IRR via reauthorization is conducted 
        in open and fair consultation and rule making procedures.
                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation
        ``The Great Spirit bestowed life to all of us . . . including 
        the animals, birds, fish, insects and plants. Our collective 
        Native warnings and predictions were ignored in the rush to 
        capitalize and exploit the bountiful resources of the land. 
        Countless irreplaceable species are preserved now in museums or 
        documents in textbooks. As the consequences of unmanaged 
        exploitation and pollution reach irreversible proportions, the 
        United States heeded our centuries old appeals for 
        environmental protection. We only hope it's not too late and 
        that Mother Nature's wounds can still be healed. We will 
        continue to serve as the environmental conscience to the nation 
        and the world.''
                                Joseph B. DeLaCruz,
                                                 President,
                                 Quinault Indian Nation, 1972-1993.
    Thank you for the opportunity to appear before this subcommittee 
and provide oral testimony on the fiscal year 2010 budgets for the 
Bureau of Indian Affairs and the Indian Health Service (IHS). On behalf 
of the Quinault Nation, we make the following requests and 
recommendations:
Tribal-specific Priority Requests
    $61 million for Blueback Restoration and $1.2 million for 
Methamphetamine Strategy.
Local/regional Requests and Recommendations
    Affiliated Tribes of Northwest Indians; Northwest Portland Area 
Indian Health Board; and the Northwest Indian Fisheries Commission.
National Requests and Recommendations
    Provide $25 million general increase to the Bureau of Indian 
Affairs (BIA) Tribal Priority Allocation (TPA) for inflationary and 
fixed costs; provide $57 million increase for BIA Contract Support Cost 
(CSC), including direct CSC; Provide $470 million for IHS mandatory, 
inflation, and population growth increase to maintain existing 
healthcare services; $152 million increase for Contract Health Services 
(CHS); $143 million increase for IHS to fully fund CSC, including 
direct CSC; Increase $5 million to the IHS Office of Tribal Self-
Governance; Do not access unfair/disproportionate rescissions on fiscal 
year 2010 funding for the BIA and IHS and other indian program funds 
within the Department of the Interior; Support all requests and 
recommendations of the National Congress of American Indians and 
National Indian Health Board.
Tribal-specific Requests Justification
  --$64 million Blueback restoration ($7 million annually from 2010-
        2018)
    The Blueback Restoration Program is designed to halt the current 
habitat loss and deterioration and to repair and restore natural 
habitat forming processes and sockeye production on the Quinault 
floodplain. Conditions that will result from implementation of this 
program will benefit other salmon stocks in the system and will serve 
to protect private property and public infrastructure. The program plan 
calls for formation of public and private coalitions and partnerships 
to implement restoration actions.
    The Quinault River Blueback (Sockeye Salmon) Restoration Program 
will help to restore the natural beauty and productivity of the 
Quinault River Basin to historic levels, thus making it a more 
attractive tourism destination. In addition, the program will provide 
local construction jobs during its implementation phase, and the 
restoration program will result in conditions that will improve and 
sustain commercial and sport fishing on the Quinault River. The program 
will also benefit local residents and businesses by reducing the 
likelihood of flooding and property loss and increasing local economies 
both in the near- and long-term future. Implementation of the 
restoration program will help avoid the burdensome and restrictive 
consequences of having the Quinault sockeye listed as threatened or 
endangered under provisions of the Endangered Species Act (ESA).
    This unique and valuable stock of salmon is near collapse due 
mostly to degraded habitats in the upper Quinault River Basin and in 
Lake Quinault. This habitat loss has occurred over the past century due 
to historic timber harvesting, property development, and infrastructure 
construction. Natural processes on the floodplain began unraveling in 
the late 1800s and the deterioration is continuing in the present time.
    This is a long-term project expected to take up to 20 years to 
complete structure placement and enhancement, including the engineering 
and material procurement, with full implementation occurring in the 
decades following as natural processes rebuild the habitat to historic 
conditions. Through successful efforts of this program, it will protect 
and restore the livelihoods of 100 commercial fishermen and 25 sport 
fishing guides in Grays Harbor and Jefferson Counties and the Quinault 
Indian Reservation.
    The program will also contribute partial support for approximately 
20 jobs in the fish processing industry in western Washington, thus 
improve the economic status of the families living in the communities 
within the Quinault Indian Reservation. The program will provide 
employment for 10-30 laborers and equipment operators in Grays Harbor 
and Jefferson counties during the construction phases of individual 
projects.
    This project will reverse adverse environmental impacts by 
restoring habitats and ecosystems of the Quinault River and Lake 
Quinault while at the same time stabilizing the river channel in 
efforts to protect infrastructure and property loss.
    The construction phase of this plan was implemented in the Fall of 
2008 with the construction of 12 engineered log jams. This pilot 
project provided data and experience with which to evaluate the 
process, need and cost to implement the full plan of eventually 
constructing an estimated 452 log jams in the upper Quinault River to 
help the natural processes restore salmon spawning habitat to historic 
conditions. Pre-project monitoring and data acquisition culminated this 
past year with 7 years of effort.
    This funding will allow for the continued implementation of the 
construction phase of the plan through specific location engineering, 
material procurement, structure construction and enhancement (tree 
planting), specific location nutrient application and continued 
planning, monitoring and data acquisition.
    With full funding as needed on an annual basis, the basic 
construction phase of this project is expected to be completed at the 
end of fiscal year 2018. Fertilization, data acquisition and monitoring 
will continue for many years.
  --$1.2 million methamphetamine strategic plan
    Methamphetamine use within the Quinault Indian Nation is a serious 
concern and a significant public health and social challenge. Since its 
introduction to the community, the government of the Quinault Indian 
Nation has taken a proactive approach to dealing with crystal 
methamphetamine.
    It affects a number of different groups; however, it is most 
prevalent among youth and young adults.
    The Quinault Indian Nation's Methamphetamine Strategic Plan is part 
of a broader more comprehensive alcohol and drug strategy being 
developed that recognizes the need to plan for the future. The Nation 
has encouraged collaborative relationships among Government 
departments, health authorities, professionals, community members and 
families to create conditions that prevent drug use, treat drug users, 
educate the public, and hold offenders accountable and control access 
to ingredients and supply while helping to ensure safer communities. 
Currently, many actions are occurring throughout the Nation under the 
Government's umbrella plan to prevent and control drug abuse.
    It has been largely recognized that an essential factor in the 
success of this strategy's principles requires precursor elements 
necessary for a strong community mobilization project to combat 
methamphetamine. Crystal methamphetamine and other forms of 
methamphetamine, which are classified as stimulants, are made with 
over-the-counter, easily available ingredients by individuals in their 
homes or by organized crime groups. These factors combine to make 
methamphetamine a relatively cheap drug with high potential for abuse 
and harmful effects on our population. Methamphetamine use, if not 
prevented, will have harmful health, social, and economic consequences.
    Problematic substance use requires a coordinated and integrated 
response from all sectors. The Nation frequently conducts outreach in 
collaboration with the justice system, police, health, social services, 
school districts, community organizations and others seeking to 
improve, integrate, and strengthen the overall health and services to 
individuals. Current work within the leadership of the Quinault Indian 
Nation further illustrates the steps we have taken to launch our 
strategy in order to take back our communities and minimize the 
significant risks related to methamphetamine production and use by 
targeting enforcement, outreach, prevention, stabilization, and harm 
reduction services to high-risk populations.
    There is also the recognized need to plan for the future, to fill 
any gaps and to ensure that crystal meth is dealt with in a thoughtful, 
realistic manner. Within the Quinault Indian Nation's jurisdictional 
boundaries, there is a need to collaborate on initiatives to address 
crystal meth use across all sectors, including government, regional 
health authorities, local school districts, community organizations, 
and other partners. The work we do now to strengthen and coordinate 
existing initiatives will aid in reducing the harm associated with all 
illicit drug use, including crystal meth.
    Most importantly, we have actively sought the guidance and wisdom 
of our elders and with the participation of our youth, community, 
churches, and school districts we have undertaken a multidisciplinary 
approach and strategy, emphasizing prevention, enforcement, treatment, 
and aftercare. Unfortunately, the best plans prove valuable only when 
the funding is available to execute and implement the strategy. We have 
found that at every level and in every discipline, funding to support 
our strategy is appallingly inadequate.
Rescission of Funding for Indian Programs
    The Quinault Indian Nation requests that the subcommittee includes 
language in the appropriations bill that will direct the Department of 
the Interior not to impose unfair rescissions on Indian program funds. 
If a mandatory rescission is applied to all funding for Federal 
programs across the board, we ask that Indian programs not be required 
to absorb a disproportionate loss of funds.
    Again, thank you for this opportunity on behalf of the people of 
the Quinault Indian Nation.
                                 ______
                                 
   Prepared Statement of Robert Benavides, Governor, Pueblo of Isleta

                              INTRODUCTION

    I am Robert Benavides, Governor of the Pueblo of Isleta. Isleta is 
centrally located in the Rio Grande Valley, 13 miles south of 
Albuquerque with a land area of 211,002 acres (more than 323 square 
miles) and is considered one of the larger Pueblos in New Mexico. 
Currently, there are approximately 4,000 tribal members living in the 
Pueblo of Isleta. The median age of the Pueblo is 31.1 years with the 
median family income below $30,000. Thus, we have a young population, 
many of whom are in or on the verge of poverty, which is why the Pueblo 
is focused on developing solid programs, infrastructure and 
institutions that will be able to meet the needs of our members and 
community well into the future.
    The Pueblo of Isleta is hopeful that the administration's first 
budget will recognize the growing and significant needs of Indian 
country. With the exception of certain law enforcement programs, 
funding for tribal programs in the last two decades has remained 
essentially flat, and in many instances, has actually gone down because 
of across-the-board rescissions in programs such as education, 
healthcare, social services and natural resources. According to the 
budget outline that we have seen, the President's budget is calling for 
a $400 million increase in Indian Health Service funding, and a $100 
million increase in Bureau of Indian Affairs law enforcement and 
education funding. This is appreciated, but more remains to be done.

                             INFRASTRUCTURE

    Water Infrastructure.--We are very encouraged by the President's 
proposal to increase the level of funding for both the Clean Water and 
Safe Drinking Water Revolving Loan Fund. At the Pueblo of Isleta, we 
are in desperate need of replacing 15,500 linear feet of asbestos-
concrete water mains that provide water to the 400 households in our 
main Village. We cannot imagine anywhere else in America where it would 
be tolerated that children and elders would have to drink water from 
asbestos-lined water mains. In addition, in the last decade the Pueblo 
has repaired more than 200 leaks and breaks in the antiquated lines. 
Thus, replacing these lines will result in a significant reduction in 
water use. We would urge Congress to support the President's funding 
request and to consider increasing the 1.5 percent tribal set-aside for 
these programs.
    Tribal Administration Complex.--In the area of community 
development there is a need for tribes to have access to resources that 
can be utilized to build governmental buildings. For too many tribes, 
including Isleta, our programs are operated in ramshackle buildings--
many of which present health hazards such as mold and asbestos for our 
employees and the people we serve. The Pueblo would like to build a 
Tribal Administration Complex that would house our police department, 
fire department, tribal courts, and tribal program and administrative 
offices. Currently, these departments are spread out over four 
different geographic locations, and in buildings that range from 
deteriorating modular trailers to single-walled, cinder block, 
warehouse-type structures.

                   LAW ENFORCEMENT AND PUBLIC SAFETY

    As a former police officer, public safety and justice needs remain 
a pre-eminent concern for me. The Pueblo is sandwiched in between 
rapidly growing areas, two of which have particularly high crime 
rates--Albuquerque's South Valley to our north, and the so-called 
Meadow Lakes subdivision to our south. While Meadow Lakes may sound 
nice, it is poverty-stricken and crime-ridden. We also have an 
interstate and major State roads crossing through our reservation. The 
majority of crimes occurring on the Pueblo include sexual assault, 
rape, and criminal sexual contact and penetration; aggravated battery 
and aggravated assault; domestic violence; and DWI. However, despite 
our significant needs, we currently have only 26 uniformed officers, 23 
of whom are also State Police-certified. Already, the Pueblo funds 80 
percent of the cost of our Police/Public Safety Department. Although 
the Pueblo has a significant need for a tribal prosecutor, a tribal 
victim's advocate, and additional equipment and technical support, it 
does not have adequate funding available to meet those needs. Thus, 
while we greatly appreciate the increases provided last year, there 
remains a significant shortfall.
    Recent reports have focused on the high rate of alcohol-related 
crimes on reservations in New Mexico. One recent report shows these 
rates to be four times higher than the national average. This study 
further indicates that alcohol plays a significant role in cases 
involving abuse or neglect of a child. Thus, it is clear that not only 
must we address the criminal behavior but we also must address the 
substance abuse behavior of our citizens. Unless we do this, we cannot 
secure a safe and healthy environment for our children to live and 
grow.
    We would like to thank the subcommittee for its focus in fiscal 
year 2009 on addressing violence against women in Indian country. As 
you well know, Indian women are victims of violence at rates that are 
disproportionately higher than those of the rest of the population. 
Tribes not only need the resources to identify and prosecute the 
offenders, but to help the victims as well. In particular, we need 
programs to provide housing and counseling to victims and their 
children, so that when a woman and her children leave an abusive 
household they have some place to go.

                        NATURAL RESOURCE PROGRAM

    Forestry.--It is time for the Federal Government to reinvest in the 
protection and preservation of federally protected trust resources, 
whether it is tribal land, timber, or water. In the last two decades 
the Federal Government has not dedicated any new financial resources to 
ensuring that these basic trust resources are enhanced and protected 
for the future.
    The Pueblo of Isleta operates its Forestry Management Program 
through a 93-638 contract with the BIA. From time to time, the Pueblo 
is awarded funding for particular forestry projects, but on average it 
receives only about $100,000 per year in BIA funding for its forestry. 
The promise of self-determination is no more evident anywhere than in 
this program. After three major fires last year (Big Springs, Trigo, 
and Ojo Peak) that moved, one after the other, from the south toward 
the Pueblo (the last one stopped literally on our border), the Pueblo 
spent approximately $262,000 of its own money for a project to treat 
320 acres for fire protection. The tribe used a 13-person fuels crew to 
complete the work and bought its own hand tools, uniforms, and fuel for 
the project. At the end of the project the crew treated 420 acres at an 
average cost of $350/per acre, versus the BIA average of $1,500/per 
acre. We are doing a similar project in the Bosque forest. We have the 
resources to complete 580 acres, but need additional funds to complete 
the work on the remaining 1,400 acres.
    Thus, while we did more with less money than the BIA would have 
done, there remains a significant need. As this subcommittee well 
knows, investing in proper forest management is not simply good 
economic sense in terms of protecting the forest resources, but it is 
also necessary as matter of public safety. If these forests are not 
properly managed we will continue to have forest fires that endanger 
people's lives and homes.
    Range Lands.--Our range lands have gradually recovered from the 
effects of prolonged overgrazing which occurred many decades ago. Much 
of this overgrazing was caused by trespassing livestock, a serious 
problem that was not resolved until the mid-1930s when the Pueblo, with 
its own money, was able to fence our reservation. While ranching is 
still an important subsistence activity for a significant number of our 
members, effective utilizing of our range is limited by the lack of 
stock water development. We have plans to construct and/or improve 40 
range wells at an estimated cost of $1.5 million.
    Agricultural Lands.--Isleta has always been a farming community 
with fields and irrigation facilities dating back centuries prior to 
the coming of the Spanish. However, upstream development, timber 
harvesting, and overgrazing caused major changes to the hydrology and 
geology of the Rio Grande, resulting in large portions of our 
agricultural lands become waterlogged, some irreparably. Over the past 
15-20 years we have been working to drain some of these lands, but 
approximately 1,000 acres are still in need of remediation, which the 
Bureau of Reclamation has estimated will cost in excess of $10 million.

                         ISLETA SETTLEMENT FUND

    I would like to take the opportunity to thank the subcommittee for 
your support of the Pueblo of Isleta Settlement Fund. The $2.4 million 
in the President's fiscal year 2010 budget is the last installment of 
the United States' commitment to the Pueblo in settlement of our 
natural resources damages claim. This funding, which the Pueblo is 
required to match, is committed to restoring and protecting the 
Pueblo's agricultural, range and timber lands, as well as cultural 
resources.

                         INDIAN HEALTH SERVICE

    Health Services.--Addressing the healthcare needs of Indian people 
is a critical element to building a vital and thriving community in 
Indian country. In New Mexico, Indian people rank the highest in nine 
negative health indicators, including access to prenatal care, rates of 
diabetes-related death, youth suicide, and motor vehicle and accidental 
deaths. In order to respond to this, Congress must invest real dollars 
in health services programs, including preventative and mental 
healthcare. The Pueblo has certainly done its part to try to address 
our community's pressing healthcare needs. Specifically, several years 
ago the Pueblo spent $5.46 million of its own money to build a health 
clinic, and we are in the process of constructing a mental health 
services addition at a cost of $1.3 million ($550,000 of which is being 
covered from State funds) in an effort to address substance abuse and 
other behavioral problems within our community.
    Contract Support Costs (CSC ).--As noted above, the Pueblo of 
Isleta has invested significant resources to build a state-of-the-art 
healthcare clinic that provides ambulatory treatment, dental care, 
preventative care, and a pharmacy. We operate all of these programs 
through a Public Law 93-638 agreement with the United States, and the 
United States has not fulfilled its obligation to provide us with 100 
percent of the necessary contract support costs for these programs. 
These are costs that the Pueblo must incur; they fund basic 
administrative costs, such as auditors, payroll, and insurance.
    Today, we receive 73 percent of the contract support cost dollars 
that are due us, which means we must annually reduce our direct program 
dollars by $500,000 because of this shortfall. If this is not corrected 
in fiscal year 2010, our ongoing IHS contract support shortfall will 
approach $2 million for the last 4 years alone. This means that fewer 
children see the dentist, fewer people are screened for cancer, and 
fewer diabetics receive the care that they need. If the subcommittee 
makes the commitment to fully fund contract support costs in fiscal 
year 2010, this would provide virtually every tribally operated health 
program in the country with a significant increase of funds that will 
go directly to health services for their people.
    Contract Health Care.--Finally, I join with all of my fellow tribal 
leaders from across the country and urge the subcommittee to increase 
funding for contract healthcare. Notwithstanding the services provided 
directly at our clinic, we still have a significant need to refer 
patients to outside providers. While our clinic is able to address 
medical priorities (those emergencies threatening members' lives or 
limbs) and some preventative care issues, all other issues must be 
referred to outside providers. ) An increase in CSC funding would 
increase the number of patients our clinic could see and the more 
preventative services it could offer. At present, medical inflationary 
costs are rising much faster than contract healthcare appropriations 
are, thus, additional funding for these resources is a critical need.
                                 ______
                                 
       Prepared Statement of the Ramah Navajo School Board, Inc.

    Mr. Chairman and members of the subcommittee: My name is Martha 
Garcia, and I am the president of the Board of Trustees of the Ramah 
Navajo School Board, Inc. (RNSB), which governs the K-12 Pine Hill 
School and more than 30 other community programs on the Ramah Navajo 
Reservation in Cibola County at Pine Hill, New Mexico. My testimony is 
on the need to appropriate adequate funding to address the 
infrastructure needs of our Bureau of Indian Affairs (BIA)/Bureau of 
Indian Education (BIE) school. The Ramah Navajo School Board is 
requesting that a total of $9,384,755 be included in the fiscal year 
2010 budget from the BIA (Department of the Interior) and the Head 
Start Bureau (Department of Health and Human Services (HHS)) for the 
following project needs for our community.
    Introduction.--The Ramah Navajo reservation covers approximately 
300 square miles in a rural, isolated, high desert country in 
northwestern New Mexico where there are few paved roads, no business 
center, and the nearest towns are more than 60 miles away. Ignored for 
most of its history by Federal, State, and the Navajo Nation, the 
community has had to fend for itself beginning in the 1960s, when its 
efforts to bring in its own community-controlled school and other 
services led to the ``Indian Self-Determination and Education 
Assistance Act of 1975.
    The RNSB school at Pine Hill currently enrolls 310 students. The 
Pine Hill Health Center handles more than 30,000 visits annually for 
medical, dental, and behavioral healthcare. RNSB is a unique school 
board because it not only operates a K-12 BIA grant school, but it runs 
more than 30 other programs for the Ramah Navajo community, including 
among others a health clinic, social services, four preschool 
programs--Head Start, FACE, Early Intervention, and Day Care--
behavioral health services, a wellness center, a Workforce Investment 
Act program, adult education, a GED program, a school farm, 
fairgrounds, and a radio station. RNSB thus provides most major 
services for the community. RNSB has an annual operating budget of 
about $17,500,000 of which roughly 80 percent is used for personnel 
costs. RNSB has substantial needs for infrastructure improvements, as 
detailed below.
    Pine Hill School (K-12)--Repairs, Renovations, and Upgrade of BIA/
BIE School Facilities, Infrastructure, and Equipment.--$4,517,755. 
(Department of the Interior, BIA/BIE and Department of Health and Human 
Services, ACF/Head Start Bureau).
    Central Administration Office Building.--The RNSB central 
administration buildings need a complete renovation and upgrade of all 
of its systems, including weatherization, interior and exterior 
painting, recarpeting, electrical upgrade, and air conditioning. These 
buildings have environmental health and safety issues, including 
leaking pipes, mice (with possible exposure to Hantavirus), and fire 
safety issues. It has been broken into on several occasions and needs 
upgrades to the safety vault in the business office, along with 
upgrading of the security alarm system. RNSB has been unable to obtain 
private or State funding to replace this building, so we ask that 
Congress appropriate funds for the renovation of this BIA building to 
allow it to serve the school and community for another 10 to 20 years. 
Such funding would provide upgrades to the computer system to meet the 
latest auditor's recommendation and provide a centralized 
communications and technology center for the Pine Hill School and 
central administration to support the 30-plus programs in a single 
building. This renovation would include a ``Tech Center'' addition to 
serve as the hub for all of RNSB's computer, Internet, email, fax, and 
phone systems; would house technical support, repair, and maintenance 
for desktop and laptop computers, printers, scanners, and related 
computer technology hardware and software; and would include classrooms 
for technology training for students, staff, and community members. The 
estimated total cost for these renovations is $2,640,000.
    Temporary Facilities During Repairs and Renovations.--While the 
foregoing repairs and renovations are in progress, the Pine Hill School 
(K-12) and RNSB central administration will need temporary offices and 
facilities in which to conduct its activities. The estimated cost for 
such temporary facilities is $120,000.
    Security Fence.--RNSB also needs a security fence to be constructed 
around its campus, including school, central administration, Pine Hill 
Health Center, staff housing, etc. The estimated cost is $100,000.
    Road and Water Line Repairs.--The entire campus road system needs 
to be repaired and repaved due to water line breaks and other utility 
breakdowns located under the roads. The estimated cost is $1,227,755.
    Dorm Construction Reimbursement.--When the old Ramah Navajo 
Dormitory 25 miles away in the village of Ramah, was condemned and 
closed, Congress funded the construction of a new dormitory near the 
Pine Hill School for students in grades 1 through 12. RNSB administered 
the design-build contract for the construction of the dormitory. 
However, as construction was nearing completion in January 2006, RNSB 
discovered that essential work needed to meet all building codes were 
missing from the plans. Most notably, the planned fire suppression 
system did not meet fire code requirements. This change not only 
required additional equipment, but also changes in the water supply 
system so that the water pressure required for the upgraded system 
could be maintained. RNSB was forced to pay for this from its own 
scarce private funds and other changes necessary before the dorm could 
be completed and occupied. Although no official position has been 
expressed, RNSB believes that the BIE is sympathetic to reimbursing 
RNSB for these expenditures if Congress appropriates the funds or 
directs the BIE to make this payment from its budget. $500,000.
    Head Start.--An inspection by the HHS/Head Start Bureau in 2000 
found that the Ramah Navajo Head Start buildings need safety upgrades 
to remedy code violations. These repairs will cost $30,000.
    Therefore, the total request in this area is $2,640,000 for central 
administration office buildings, plus $120,000 for temporary 
facilities, plus $100,000 for security fencing, plus $1,127,755 for 
road and utility repairs and replacements, plus $500,000 for 
reimbursement to RNSB for the dorm cost overrun, plus $30,000 for Head 
Start safety repairs.
    Pine Hill Water System--$1,550,000. (Department of the Interior, 
BIA/BIE).--The Pine Hill Water System was constructed in the early 
1970s to serve the then-new BIA Pine Hill School and some housing 
trailers for the school staff. Over the past 37 years, RNSB has added 
numerous other buildings and facilities for the school and other 
programs, including 60-plus staff housing units, the comprehensive 
Health Center, four preschool programs, Behavioral Health Services, 
and, most recently, the new dormitory. The water and sewer system now 
also serves non-RNSB facilities, such as the Pine Hill Market, and 
provides clean water to nearby community housing projects.
    At this time, RNSB's west sewer lagoon does not comply with 
applicable EPA law and regulations. RNSB needs to replace its Well No. 
1, which is its principal source of water for RNSB's campus. The 3,600-
foot deep well is encased to a depth of 1,100 feet, but the casing has 
ruptured at a depth of 830 feet. So far the water has tested as safe, 
but the well is only a quarter-mile from our sewage lagoon, so prompt 
replacement of the ruptured casing is essential. Also, the repair and 
upgrade of the water treatment system is essential for health and 
safety of campus students, teachers, and residents. The cost estimate 
for the entire project is $1,550,000.
    Early Childhood Education Center--$3,317,000. (Department of the 
Interior, BIA).--RNSB wishes to consolidate its four preschool programs 
into one ``Early Childhood Education Center'' of approximately 10,000 
sq. ft. to consolidate Head Start, Early Intervention, Family and Child 
Education (FACE) and the Child Care Center. The requested appropriation 
will cover the entire project: planning, architectural design, building 
construction, inspections, and landscaping.
    The Board of Trustees for the RNSB would like to express its 
appreciation for your support for American Indian programs in general 
and the Ramah Navajo community in particular. We hope that this 
statement will help you better understand infrastructure needs of our 
community. We would be happy to provide you with further information on 
any of the foregoing projects.
                                 ______
                                 
         Prepared Statement of the Rivers and Trails Coalition

    Madam Chairman and members of the subcommittee, the Rivers & Trails 
Coalition, composed of local, regional, statewide, and national 
organizations representing hundreds of thousands of Americans 
nationwide committed to conservation and recreation, respectfully asks 
that you fund the National Park Service (NPS) Rivers, Trails and 
Conservation Assistance (RTCA) Program at $12 million in fiscal year 
2010.
    Through its RTCA Program, the NPS implements its natural resource 
conservation and outdoor recreation mission in communities across 
America. RTC formed many years ago to support this valuable field-based 
technical assistance program that yields enormous conservation and 
recreation benefits to communities by fostering partnerships between 
Federal, State, and local interests. The resulting cooperation of 
local, State, and Federal partners restores rivers and wildlife 
habitat, develops trails and greenway networks, preserves open space, 
and revitalizes communities--all contributing to improved quality of 
life and close-to-home recreation.
Community Capacity Building
    Our coalition of outdoor recreation and parks organizations has 
seen firsthand the benefits that come from projects bridging the gap 
between neighborhoods and the outstanding outdoors opportunities in 
their backyards. We see the RTCA Program as a vital program that 
encourages people to invest in their own community, makes possible 
healthy and active lifestyles for all Americans, and most importantly, 
preserves our outdoor resources for the next generation to explore.
    The RTCA Program provides assistance to develop locally led 
conservation and outdoor recreation projects across the country. With 
guidance from the RTCA Program, citizen groups achieve their community-
set goals, completing projects that range from constructing footpaths 
to preserving rivers to rehabilitating open spaces. The RTCA Program 
staff provides on-the-ground assistance solely at the request and 
invitation of communities in coordinating projects, facilitating public 
meetings, serving as a liaison and convener of government and nonprofit 
groups, assessing and mapping resources, developing promotional 
materials and events, and identifying sources of funding. The RTCA 
Program helps to empower communities to achieve their goals by 
collaborating on development of their own strategic plans for realizing 
a grassroots level conservation or recreation project. Current demand 
across the Nation for RTCA services greatly exceeds the program's 
capacity.
Measures of Success
    The benefits of the RTCA Program are felt across the country, from 
creating a bike path in Massachusetts to reclaiming a vacant lot in 
California for footpaths and gardens. The program assists more than 250 
community partners per year, with projects in all 50 States. Each year 
these projects conserve more than 700 miles of river, create more than 
1,000 miles of trail, and protect more than 30,000 acres of open space. 
In 2008 alone, the RTCA Program helped to protect 1,656 miles of local 
rivers, create 3,208 miles of land trails, and preserve 45,485 acres of 
parks and open space.
    The RTCA Program plays a critical role in creating a nationwide, 
seamless network of parks and open spaces, supporting conservation 
partnerships, promoting volunteerism, and encouraging physical 
activity. In addition to regional trail systems and greenway 
development, and open space and river corridor protection, projects 
include transportation alternatives, Brownfields redevelopment, youth 
conservation projects, and floodplain planning, among numerous other 
conservation and recreation initiatives.
    One of the core strengths of the RTCA Program is in leveraging 
Federal funding by generating investment and human capital on a local 
level to support their projects. Grant funding from the NPS is not 
supplied; rather, NPS contributes RTCA Program staff hours to help 
project partners leverage funding through public-private partnerships. 
It is a cost-effective way for the NPS to reach out to neighboring 
communities, fostering a healthy, active and engaged citizenry.
    In 2008, a NPS survey found that 100 percent of organizations 
declared that the RTCA Program helped them achieve their project goals. 
Ninety-three percent of these partner organizations said that 
participation with the RTCA Program helped them develop their ability 
to succeed at future projects--this means that an initial investment 
made through the RTCA Program will continue to have lasting benefits 
over time by empowering participants and giving them the skills 
necessary to improve their community.
    RTC recognizes the RTCA Program's contribution to outdoors 
recreation and conservation, and the valuable work its staff does 
assisting people who desire to invest in their communities. To allow 
this program to continue such vital work engaging public participation 
and preserving our natural and cultural heritage, we request a budget 
allocation of $12 million to the RTCA Program.
Fulfilling the RTCA Program Mission
    Despite the RTCA Program's demonstrable successes each year, 
Program funding has remained relatively stagnant during the last decade 
and has lagged well behind the rate of inflation. The program's real 
budget has declined significantly and resulted in substantial staff 
reductions. Cuts have also reduced staff participation in on-the-ground 
projects diminishing essential services of this field-based program. 
Historically, the RTCA Program receives less than one-third of 1 
percent of the total funding for the NPS, yet it succeeds in leveraging 
this investment many times over in local, State and partnership direct 
funding and in-kind matches. Each year, the modest amount of NPS 
funding for staff time has helped leverage millions of dollars from 
other sources for its projects. Highly effective and cost efficient, 
the RTCA Program is an excellent value for the American taxpayer and 
merits increased funding to accomplish its mission as a community-based 
NPS technical assistance and outreach program.
    The NPS is proposing a fiscal year budget of $8,872,000 and 69 
full-time employees (FTE) for the RTCA Program, a net program change of 
$664,000 and 2 FTE from the 2009 enacted level. The Coalition heartily 
endorses this increase, but it is still well below the amount required 
to restore this program to its former status. Members of the Coalition 
believe that the RTCA Program budget should be increased in fiscal year 
2010 to $12 million to remedy the program's steady erosion, compensate 
for losses due to inflation, and enable the program to respond 
effectively and efficiently to growing needs and opportunities in 
communities throughout the country.
    The requested funding level by the Coalition would allow this 
extremely beneficial program to continue current projects without 
interruption, restore recent cuts, put staff closer to the people they 
serve, and meet the outstanding requests from communities around the 
Nation. We strongly believe the NPS and Congress should strengthen 
efforts such as the RTCA Program that support communities and 
volunteers through partnerships and capacity-building, enabling local 
stakeholders to better manage and conserve their recreational and 
natural resources from the bottom-up.
    We urge the subcommittee to fund the RTCA Program at $12 million in 
the fiscal year 2010 Interior, Environment, and Related Agencies 
appropriations bill to remedy the program's continued erosion, 
compensate for losses due to inflation, and enable the program to 
respond to growing needs and opportunities in communities throughout 
the country.
    Respectfully submitted by the RTC comprised of the following 
organizations:
  --American Canoe Association
  --American Hiking Society
  --American Horse Council
  --American Outdoors
  --American Recreation Coalition
  --American Rivers
  --American Society of Landscape Architects
  --American Trails
  --American Volkssport Association
  --American Whitewater
  --Appalachian Mountain Club
  --Association of State Floodplain Managers
  --Bay Circuit Alliance
  --Bicycle Federation of America
  --Bikes Belong Coalition
  --Conservation District of Southern Nevada
  --East Coast Greenway Alliance
  --International Mountain Bicycling Association
  --Izaak Walton League of America
  --Jacksonville Woodlands Association
  --Land Legacy
  --Land Trust Alliance
  --League of American Bicyclists
  --Mississippi River Trail, Inc.
  --National Association of Service & Conservation Corps
  --National Audubon Society
  --National Parks Conservation Association
  --National Recreation and Park Association
  --National Wildlife Federation
  --New York-New Jersey Trail Conference
  --New York Parks and Conservation Association
  --North American Water Trails
  --Northern Forest Canoe Trail
  --Ohio & Erie Canal Corridor Coalition
  --Outdoor Alliance
  --Outdoor Industry Association
  --Outside Las Vegas Foundation
  --Parks & Trails New York
  --Partnership for the National Trails System
  --Pennsylvania Organization for Watersheds and Rivers
  --Rails to Trails Conservancy
  --River Network
  --Scenic America
  --South Carolina Dept. of Parks, Recreation, and Tourism
  --Sporting Goods Manufacturers Association
  --Student Conservation Association
  --The Accokeek Foundation
  --Trout Unlimited
  --Walk Boston
  --Washington Area Bicyclist Association
  --Washington Trails Association
  --Washington Water Trails Association
  --Winter Wildlands Alliance
  --YMCA of the USA
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe

    On behalf of the tribal leadership and members of the Squaxin 
Island Tribe, I am submitting our funding requests and recommendations 
for the fiscal year 2010 budgets for the Bureau of Indian Affairs (BIA) 
and the Indian Health Service (IHS).
Tribal Specific Requests
    $750,000 for Northwest Indian Treatment Center Residential Program 
in IHS; $850,000 for public health and safety of the Squaxin Island 
Community in the BIA; and fulfill Puget Sound regional shellfish 
settlement commitment in the BIA.
Regional Requests and Recommendations
    Northwest Portland Area Indian Health Board; Affiliated Tribes of 
Northwest Indians; and the Northwest Indian Fisheries Commission.

       SELF-GOVERNANCE AND NATIONAL REQUESTS AND RECOMMENDATIONS

IHS
    $143.3 million increase to fully fund Contract Support Cost (CSC); 
$470 million for mandatory inflation and population growth to maintain 
current health services; $152 million increase for Contract Health 
Services (CHS); $15.1 million for staffing of new/replaced facilities; 
Increase $5 million to the IHS Office of Tribal Self-Governance; and 
restore fiscal year 2005 and fiscal year 2009 rescissions.
BIA
    $57 million increase to fully fund CSC; $25 million increase for 
Tribal Priority Allocations (TPA)--general increase for core programs; 
$50 million increase for 100 percent full funding of direct and 
indirect contract support costs; and restore base funding for rights 
protection to at least the 2004 level.
    Tribal Government--Self-governance.--Restore $2.5 million in 
General Assistance that was cut in 2009; maintain $13.6 million in 
Housing Improvement Program (HIP) in BIA-TPA account and $21.4 million 
in Johnson O'Malley (JOM) Assistance Grants
  --Increase BIA law enforcement by 10 percent and increase funding for 
        tribal courts by 10 percent
    Support the requests and recommendations of the National Congress 
of American Indians and National Indian Health Board.
Squaxin Island Tribe Background
    The Squaxin Island Tribe, a signatory of the 1854 Medicine Creek 
Treaty, is located in Kamilche, Washington in southeast Mason County. 
The 2008 year-end tribal member enrollment was of 930. Squaxin has an 
estimated service area population of 2,767, a growth rate of about 10 
percent, and an unemployment rate of about 30 percent, according to the 
BIA labor force report. According to the Mason County Economic 
Development Council, Squaxin is the largest employer in Mason County.
Rescissions on Funding for Indian Programs
    The Squaxin Island Tribe requests that the subcommittee includes 
language in the appropriations bill that will direct the BIA and the 
IHS not to impose rescissions on funds for Indian programs. Funds that 
are already inadequate to address the level of need of the tribal 
beneficiaries should not be subjected to additional reductions. 
However, if a mandatory rescission is applied to all Federal programs, 
we ask that Indian programs not be required to absorb a 
disproportionate loss of funds with a double rescission on these funds.

                TRIBAL SPECIFIC REQUESTS JUSTIFICATIONS

    $750,000--Northwest Indian Treatment Center Residential Program.--
The Squaxin Island Tribe operates the Northwest Indian Treatment Center 
(NWITC) located in Elma, Washington (6th Congressional District). NWITC 
is a residential chemical dependency treatment facility nationally 
recognized as a ``Center of Excellence.'' NWITC benefits Native 
Americans from tribes located in Oregon, Washington, and Idaho. The 
facility is clinically designed to serve American Indians who have 
chronic relapse patterns related to unresolved grief and trauma. The 
ratio of patients to counselor is low to allow sufficient support for 
this process. Addiction treatment is supplemented with mental health 
assessments, mental health groups, and medication management when 
indicated. The content of treatment includes many cultural and 
spiritual activities to help patients re-anchor in their traditions and 
reclaim their identity.
    NWITC was established in 1994. It is accredited by CARF, an 
international accrediting organization for behavioral health programs. 
It is also certified and licensed by the Washington State Department of 
Health. NWITC residential program serves the tribes of Washington, 
Oregon, and Idaho and sometimes tribes from the Southwest. Its advisory 
board includes tribes who refer frequently.
    In 2006, a new Counseling and Cultural Center building was 
constructed using both HUD Indian Community Block Grant and Tribal 
funds. This new building replaces two rented modular buildings that 
were in extremely poor condition. The residential portion of the 
facility houses 24 patients in a circa-1900 single family residence 
which was converted in the 1930s into a retirement home.
    Treatment has changed over the years in response to meth addiction 
and its effects on the brain and the individual's capacity to recover. 
Now NWITC provides evaluations for psychotropic medication, mental 
health counseling, and treatment oriented to unresolved trauma in 
addition to other traditional forms of treatment. There has also been 
an expansion of cultural components of treatment. These elements have 
been required to maintain effectiveness but they also increase the cost 
of treatment.
    NWITC has not had an adequate increase in its base IHS budget since 
the original congressional set-aside in 1993 except increases that have 
averaged 1.5 percent per year. An increase of $750,000 would restore 
lost purchasing power and the need to add mental health and psychiatric 
components to treatment. This increase would allow NWITC to continue 
its effective treatment of Native Americans.
    $750,000 for the Squaxin Island Department of Public Health and 
Safety.--To hire six additional FTE officers for 24-hour coverage in 
order to ensure the safety of the community and a public defender: 
public safety is a high priority for the Squaxin Island Tribe. The 
Squaxin Island Tribal Public Safety and Justice Department is dedicated 
to protecting lives, maintaining peace, and ensuring that the property 
and resources of the Squaxin Island Tribe are protected through the 
enforcement of the laws and regulations set forth by the Squaxin Island 
Tribal Council. Law enforcement officers patrol the reservation, South 
Puget waterways, and usual and accustomed hunting areas, protecting 
human life and natural resources upon which tribal members rely on for 
cultural and economic sustenance.
    The Squaxin Island Public Safety and Justice Department has 
continued to operate on funding levels insufficient to meet the needs 
of this Department and our community. This has resulted in operating a 
program at minimum capacity, which has placed a negative impact on the 
service level provided to the Squaxin Island Community. The process of 
protecting the public is hampered by the lack of officers to provide 
the 24-hour coverage, which is very critical in life and death 
situations.
    The Public Safety Department successfully manages Squaxin Island 
Tribal Court, which consists of three divisions: a tribal court, an 
appeals court and an employment court. The Department also manages a 
shellfish and geoduck harvesting monitoring program. Officers are 
trained in scuba diving and assist with compliance and safety issues.
    A public defender is needed for the justice program. Currently, the 
tribe is under contract to provide legal representation to the 
community members. The court caseload and number of police calls 
continue to grow at an increasing rate. Current funding is inadequate 
to meet the needs of the growing community, protect natural resources 
and to fully participate in regional and homeland security programs and 
initiatives.
    The tribe is enhancing the shellfish habitat and production 
programs, which has increased the demand on the water enforcement 
program to address issues of illegal harvesting. With current funding 
and staffing levels, it will be almost impossible to adequately protect 
the tribe's investment in enhancing natural resources. The Squaxin 
Island Tribe is seeking both long-term and immediate assistance.
    In the long term, BIA funding for law enforcement and public safety 
programs needs to be significantly increased. According to a gap 
analysis performed by the BIA in 2006 based on the FBI's 2004 Uniform 
Crime Report, there is a 42 percent unmet need of law enforcement 
officers in Indian Country. And, the Community Oriented Policing 
Services grant program that has benefited tribal communities and law 
enforcement hiring and staffing needs is recommended for termination 
under the PART fiscal year 2008 performance budget.
    Five Million To Fulfill Puget Sound Regional Shellfish Settlement 
Commitment.--The BIA indian land and water claim settlements account. 
The Federal Government is committed under terms of recently enacted 
legislation to fully fund the Puget Sound regional shellfish 
settlement. To complete the Federal obligation $5 million remains to be 
paid in both fiscal year 2010 and fiscal year 2011. We request the 
subcommittee to fulfill that obligation.
Squaxin Island Tribe Supports Regional Requests and Recommendations
  --Northwest Portland Area Indian Health Board
  --Affiliated Tribes of Northwest Indians
  --Northwest Indian Fisheries Commission

SQUAXIN ISLAND TRIBE SUPPORTS SELF-GOVERNANCE AND NATIONAL REQUESTS AND 
                            RECOMMENDATIONS
IHS
  --$143.3 million increase to fully fund CSC
  --$470 million for mandatory inflation and population growth to 
        maintain current health services
  --$152 million increase for CHS
  --$15.1 million for staffing of new/replaced facilities
  --Increase $5 million to the IHS Office of Tribal Self-Governance
  --Restore fiscal year 2005 and fiscal year 2009 rescissions
BIA
  --$57 million increase to fully fund Contract Support Cost
  --$25 million increase for TPA--general increase for core programs
  --$50 million increase for 100 percent full funding of direct and 
        indirect contract support costs
  --Restore base funding for rights protection to at least the 2004 
        level
  --Tribal Government--Self-governance.--Restore $2.5 million in 
        general assistance that was cut in 2009; maintain $13.6 million 
        in HIP in BIA-TPA account and $21.4 million in JOM Assistance 
        Grants
  --Increase BIA law enforcement by 10 percent and increase funding for 
        tribal courts by 10 percent
    Support the requests and recommendations of the National Congress 
of American Indians and National Indian Health Board.
    On behalf of the Squaxin Island Tribal Council and Tribal members 
thank you for this opportunity.
                                 ______
                                 
      Prepared Statement of the Sevilleta National Wildlife Refuge

    Dear Madam Chairman and members of the subcommittee: I would like 
to thank you for the opportunity to present testimony in support of an 
appropriation of $2 million from the Land and Water Conservation Fund 
(LWCF) to acquire land in proximity to the Sevilleta National Wildlife 
Refuge (NWR) in New Mexico. This appropriation will allow the U.S. Fish 
and Wildlife Service (FWS) to acquire the 250-acre first phase of the 
Indian Hill Farms property.
    Before I begin describing this project, I would like to discuss the 
importance of the LWCF to Sevilleta NWR and to national wildlife 
refuges around the country. The LWCF is the premier Federal land 
protection program and enables refuges to protect vital wildlife 
habitat, water resources, and recreational lands and improve public 
access and land management by consolidating holdings and acquiring 
inholdings. I respectfully urge a substantial increase in overall 
funding for the LWCF), specifically urging the subcommittee to provide 
$325 million for the Federal LWCF in the fiscal year 2010 Interior, 
Environment, and Related Agencies appropriations bill.
    Covering an area of approximately 360 square miles and located just 
40 miles south of Albuquerque, the largest city in the State, the 
Sevilleta NWR serves as a vast protected landscape in the heart of New 
Mexico. The refuge supports four major ecological habitats, 
encompassing two mountain ranges and containing approximately 4 miles 
of the Rio Grande River. Much of the refuge is managed to enhance 
riparian habitat and compensate for marsh loss along the Rio Grande 
basin. Parts of the refuge are flooded from November to February in 
order to provide habitat for migrating shorebirds and waterfowl 
including herons, ducks, geese, and sandhill cranes. The refuge is also 
managed to combat non-native species such as the invasive salt cedar. 
This nuisance species is being cleared and replaced with native willow 
and cottonwood to restore the natural bosque/riparian habitat native to 
the area.
    Sevilleta NWR (and the acquisition project planned by FWS) is of 
particular interest to New Mexico Department of Game and Fish due to 
our nearby ownership of four Waterfowl Management Areas along the Rio 
Grande River which make up the Ladd S. Gordon Waterfowl Complex. This 
Complex provides critical wintering habitat for migrating waterfowl and 
is managed by New Mexico Game and Fish as a series of working farms, 
bosques and pond complexes. The southernmost part of this complex is 
the 3,500-acre La Joya Waterfowl Management Area which is adjacent to 
Sevilleta NWR and within 10 miles of the planned acquisition project.
    Available for acquisition in fiscal year 2010 is the first phase of 
the 1,250-acre Indian Hill Farms property, which lies adjacent to 3 
miles of the Rio Grande as well as current refuge lands. Indian Hill 
Farms comprises more than 600 acres of irrigated farmland which could 
provide excellent opportunities to work with surrounding communities to 
create wildlife habitat, including moist soils, wetlands, and restored 
river bosque. Opportunities also exist to restore a portion of the 
property to provide additional prime habitat for the endangered 
Southwestern willow flycatcher.
    Given its location along the Rio Grande, acquisition of the Indian 
Hill Farms property could provide the refuge system a tremendous 
opportunity for habitat enhancement for a number of different wildlife 
uses, including endangered species habitat, wintering waterbird 
habitat, migratory landbird use, as well as raptor and resident big 
game habitat. Its location between two major wintering waterfowl areas, 
our Ladd S. Gordon Complex to the north and Bosque del Apache NWR to 
the south, makes this a key acquisition to enhance waterfowl 
populations in the Middle Rio Grande area. It will be an important 
acquisition to further the objectives of the New Mexico Comprehensive 
Wildlife Conservation Strategy which was developed through a 
cooperative effort with numerous stakeholder groups.
    The acquisition should also offer significant research 
opportunities at the University of New Mexico's (UNM) Long-Term 
Ecological Research program which is hosted at Sevilleta NWR and funded 
through the National Science Foundation. Such new research could 
include studying the planned conversion of farmland to wildlife habitat 
should Indian Hill Farms be acquired by the refuge.
    An appropriation of $2 million in fiscal year 2010 will ensure that 
the first phase of the Indian Hill Farms property is protected in 
perpetuity. The addition of this priority parcel to the Sevilleta NWR 
will allow for the creation and restoration of important wildlife 
habitat types along the Rio Grande River, increase public access to 
refuge lands, and increase unique research opportunities for local 
scientists.
    Thank you again, Madam Chairman, for the opportunity to present 
this testimony in support of the acquisition effort at Sevilleta NWR in 
New Mexico.
                                 ______
                                 
         Prepared Statement of The Conservation System Alliance

    The Conservation System Alliance (CSA) is a coalition of more than 
80 conservation, historic preservation, faith-based, recreation, 
business, education and place-based friends groups representing 
millions of Americans nationwide. CSA aims to protect, restore and 
expand the National Landscape Conservation System (NCLS) by making it 
permanent, well-funded, well-managed, and inclusive of the best natural 
and cultural resources under the care of the Bureau of Land Management 
(BLM).
    Mr. Chairman, CSA would like to thank you for the opportunity to 
provide recommendations and comments on the fiscal year 2010 Department 
of the Interior, Environment, and Related Agencies appropriations bill. 
On behalf of our millions of members, we provide below our request for 
full budget clarity and at least a $75 million funding level in fiscal 
year 2010 for BLM's NCLS. NCLS is now slated for permanent 
establishment in law and as such, deserves budgetary attention within 
the Department of the Interior (DOI) that parallels that of other 
systems of lands and waters under their stewardship.
    NCLS is comprised of the most spectacular lands and waters under 
the stewardship of the BLM, like national monuments, wild and scenic 
rivers, national scenic and historic trails, and wilderness areas that 
have been designated for protection by Congress or the President. 
Created in 2000, NCLS provides economic benefits to neighboring 
communities across the West through unparalleled opportunities for 
solitude, adventure and recreation such as hunting, fishing, hiking, 
and wildlife watching. These lands and waters also offer opportunities 
for science, education and archaeological research. Yet with an obscure 
funding system and bare-bones funding for management and land 
stewardship, the BLM is unable to keep its most extraordinary 27 
million acres healthy, wild, and open.
    Adequate funding for NCLS is vital to protect BLM landscapes that 
are vital components of America's natural and cultural heritage. These 
lands and waters are a network of the last places where visitors can 
still experience the history and wild beauty of the American West. 
These areas provide a uniquely American visitor experience; they are 
places where people can bring their families to escape the crowds and 
create their own adventure. Furthermore, they are a living classroom 
for academic researchers and outdoor educators. Congress can ensure 
that NCLS lands and waters will remain valuable resources for present 
and future generations of recreators, ecologists, archaeologists, 
educators, and others by protecting these intact landscapes for public 
enjoyment, scientific research, and outdoor education.
    However, NCLS lands will not remain resource-rich without active 
stewardship. These extraordinary places are being ruined by vandalism, 
reckless off-road vehicle use, irresponsible resource extraction, and 
neglect. The agency spends more to repair damage than it would to 
provide the necessary staff and other resources to protect and restore 
invaluable cultural sites, riparian habitat, and other culturally and 
naturally significant places. Continuing damage to NCLS lands and 
waters poses considerable threats to the integrity of these 
historically and biologically extraordinary landscapes; inadequate 
attention to its funding also neglects opportunities for job creation 
and the fostering of sustainable rural economies.

              NCLS BUDGET ACCOUNTABILITY AND TRANSPARENCY

    CSA commends BLM for providing new subactivities for Monuments and 
National Conservation Areas in the fiscal year 2009 budget and for 
giving NCLS increased attention in budget documents, important first 
steps toward giving NCLS needed budgetary attention and clarity. 
However, we are disappointed that BLM failed to provide line item 
program elements for NCLS's other units in the fiscal year 2010 
President's budget. We ask that NCLS be given full budget transparency, 
as appropriate for any permanently established public lands system.
    NCLS, now authorized in law, deserves a full place in BLM's budget 
structure. We respectfully urge the subcommittee to support a complete 
budget activity for the NCLS that includes subactivities for all NCLS's 
units. The wilderness subactivity should be moved from Recreation into 
the new activity alongside the new Monument and NCA subactivity, and 
Congress should support the creation of national trails and wild and 
scenic rivers subactivities that should also reside there. This would 
allow one clearly identifiable budget category for all designations 
within BLM's permanently established NCLS of lands and waters.
    Budget clarity for all NCLS units is needed to ensure that all NCLS 
managers can adequately plan and accurately track expenditures and to 
ensure accountability to Congress and the American public. Congress, 
the BLM and the public will be able to more readily identify NCLS's 
expenditures and to more easily pursue opportunities for in-kind 
donations to match Federal expenditures. Maximization of efficiencies 
will ensure more wise use of taxpayer dollars.

FISCAL YEAR 2010 OPERATIONS, MAINTENANCE AND PLANNING BUDGET NEEDS FOR 
                                  NCLS

    CSA greatly appreciates the much-needed congressional increases for 
NCLS in the Interior provision of the fiscal year 2009 Omnibus 
appropriations bill. These increases over the previous President's 
bare-bones budget will allow dedicated staff to address some of their 
many project backlogs. Further, we wholly appreciate BLM commitments in 
the stimulus package and look forward to seeing application of some of 
those funds to needed landscape restoration in NCLS units and other 
deserving BLM lands. However, Congress and the new administration must 
continue to increase NCLS's budget in order to more adequately address 
project backlogs and ensure protection of the nationally significant 
resources under the BLM's care. A significant NCLS increase is critical 
to meet mandates in establishing legislation and proclamations, and to 
legitimately implement associated resource management plans. We greatly 
appreciate the new designations under the recent Omnibus Public Land 
Management Act and hope that additional funding will be provided for 
NCLS in fiscal year 2010 so that Congress can initiate the many new 
management plans under that Act, more adequately implement newly 
completed and ongoing management plans, and otherwise ensure adequate 
stewardship.
    NCLS warrants funding of at least $75 million in fiscal year 2010--
a modest increase over historic funding levels when accounting for the 
growth of NCLS, growth in visitation, increased threats due to booming 
populations in surrounding communities, inflation, significant 
uncontrollable costs such as insurance increases, and the 
aforementioned new designations. While we much appreciate that the 
President's budget maintains last year's congressional increases, the 
request for approximately $61 million is insufficient to prevent 
additional damage to NCLS's resources and to provide for management of 
the new designations.
    We urge support for the President's Climate Initiative and greatly 
appreciate the request for $7.3 million out of that initiative to be 
directed toward NCLS. This funding is for a specific initiative and 
through a separate account from NCLS's normal base budget, so we 
request that this initiative be supported above and beyond the $75 
million in base funding we are respectfully requesting.
    We also respectfully ask the subcommittee to give serious 
consideration to any member requests for increasing programmatic 
funding or land acquisition funding for NCLS units in the fiscal year 
20010 appropriations bill. These increases should be allocated in 
addition to, not in lieu of, funding already budgeted for each NCLSunit 
in the BLM's fiscal year 2010 budget.

            NCLS LAND AND WATER CONSERVATION FUND PRIORITIES

    The previous President nearly zeroed out funding for BLM land 
acquisition projects under LWCF. CSA greatly appreciates the new 
administration's indication that this important fund will be increased 
to fully authorized levels and hopes that the administration and 
Congress can work together to implement this vision. Over the last 
several years, funding for Federal land acquisition has been abysmally 
low, particularly for BLM. BLM land comprises 42 percent of all Federal 
lands administered by the primary Federal land management agencies. 
Yet, since 2000, BLM conservation lands have consistently received less 
than 12 percent of land acquisition funding for those agencies, with 
less than 6 percent the last 2 years.
    As with the other land management agencies, BLM has a conservation 
mandate, and many of its cultural and natural treasures with important 
land acquisition needs are in the NCLS. In order to protect the 
integrity of these national treasures, the DOI must invest more 
adequately in land acquisition for NCLS, including taking full 
advantage of funds authorized under the Federal Land Transaction 
Facilitation Act (FLTFA).
    We greatly appreciate that the President's budget includes $8.6 
million in funding for NCLS LWCF projects and request support for these 
projects. Additionally, we know of $20 million in additional land 
acquisition opportunities in fiscal year 2010 within NCLS that are 
ready for Federal purchase. We ask that the subcommittee ensure 
additional funding for these important projects that are ready for 
purchase.

     JOB CREATION AND ECONOMIC OPPORTUNITIES FROM NCLS INVESTMENTS

    NCLS supports the economies of surrounding communities through 
attracting short-term visitation and a long-term skilled labor force 
drawn to these communities by protected environmental amenities. A 2006 
study by the Outdoor Industry Foundation determined that the active 
outdoor recreation economy contributes $730 billion annually to the 
U.S. economy, touching more than 8 percent of America's personal 
consumption expenditures. NCLS lands and waters are critical components 
of the network of public lands systems that nurture and sustain these 
economic activities. A 2005 Sonoran Institute study, The National 
Landscape Conservation System's Contribution to Healthy Local 
Economies, determined that protected NCLS units are an important part 
of a successful combination of factors that make rural economies 
vibrant.
    NCLS units have many ``shovel-ready'' projects that cannot all be 
addressed by the recent stimulus package, projects such as restoration 
of riparian habitat, removing traces of decommissioned roads, pulling 
invasive weeds and restoring native flora to provide wildlife habitat 
and combat fire danger. Annual increases as part of the budget and 
appropriations process will ensure that these projects, strategically 
pursued, will provide needed jobs for surrounding communities while 
protecting nationally significant resources under BLM's care.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2010 appropriations. My name is Thomas J. Cassidy, Jr. and 
I am Director of Federal Programs at the Conservancy.
    The Nature Conservancy is an international, nonprofit conservation 
organization working around the world to protect ecologically important 
lands and waters for nature and people. Our mission is to preserve the 
plants, animals and natural communities that represent the diversity of 
life on Earth by protecting the lands and waters they need to survive. 
We are best known for our science-based, collaborative approach to 
developing creative solutions to conservation challenges. Our on-the-
ground conservation work is carried out in all 50 States and more than 
30 foreign countries and is supported by approximately 1 million 
individual members. We have helped conserve nearly 15 million acres of 
land in the United States and Canada and more than 102 million acres 
with local partner organizations globally.
    Climate Change.--The Conservancy appreciates the subcommittee's 
leadership in highlighting the need for increased investments in 
climate change science, particularly through the National Global 
Warming and Wildlife Science Center. We support a robust increase in 
funding for this and other programs that will guide science-based 
investments necessary to meet the critical needs of fish and wildlife 
adaptation in a world whose climate is changing. We also welcome the 
President's commitment to address this global environmental challenge, 
including his request for an increase in the Department of the 
Interior's (DOI) climate funding by $130 million.
    Land and Water Conservation Fund (LWCF).--Thank you for your 
leadership in restoring critically important funding for LWCF and other 
key programs. We are gratified by the President's commitment to fully 
fund LWCF and look forward to working with Secretary Salazar and the 
subcommittee to secure the funding to protect the Nation's treasured 
landscapes.
    We recommend a funding level of $325 million for the Federal side 
of LWCF. This year, the Conservancy is specifically recommending 29 
biologically rich land acquisition projects totaling $83 million. 
Priorities include Cherry Valley National Wildlife Refuge (NWR), the 
Nation's newest refuge, and continuing large-scale projects in New 
England's Silvio O. Conte National Fish and Wildlife Refuge, Montana's 
Blackfoot River watershed and several Fish and Wildlife Service (FWS) 
grasslands projects. Although we are gratified that the President's 
request is larger than fiscal year 2009 enacted, we are concerned by 
the sharp decrease in funding for U.S. Forest Service (USFS) LWCF 
projects and urge the subcommittee to provide funding necessary to 
support the agency's land acquisition needs, including in Wisconsin's 
Chequamegon-Nicolet National Forest, Oregon's Hells Canyon NRA and 
South Carolina's Francis Marion National Forest.
    Forest Legacy.--The President's request of $91 million would be a 
historic level of funding for this increasing popular and effective 
program. For fiscal year 2010, 84 projects were submitted by States to 
the USFS with a total project value of over $363 million. The huge 
potential of this program to achieve conservation goals while 
maintaining sustainable use of private lands requires a significant 
funding increase. We strongly support $125 million for this program, 
and are specifically proposing 13 projects totaling $42.5 million. We 
are particularly pleased that the number one ranked project, Arizona's 
San Pedro River Ecosystem, is a Conservancy project. We are also 
gratified that our 127,000-acre Northern Cumberlands project received 
the largest funding request. It is the largest conservation deal in 
Tennessee since the creation of Great Smoky Mountains National Park. 
The State has provided $82,000,000 toward this 127,000-acre project, 
while private equity investors and philanthropy have leveraged an 
additional $45,000,000. Other priority projects include New York's 
Follensby Lake and Virginia's Chowan River Headwaters.
    Wildland Fire Management.--We greatly appreciate the subcommittee's 
leadership in funding hazardous fuels reduction to address the root 
problem of unhealthy forests. Overgrown forests, coupled with continued 
residential growth in fire-prone areas and a lengthening fire season in 
a warmer climate, are contributing to the ever-increasing costs of 
wildlife suppression. The Nature Conservancy is disappointed that the 
President's budget decreases funding for the Hazardous Fuel Reduction 
program by 5 percent. This reduction comes as a surprise after the 
overwhelming field response to economic recovery funding, with four 
times as many fuels treatment projects submitted as could be funded. 
Our recommendation for hazardous fuel reduction funding is $361 million 
for the USFS and $223 million for the DOI.
    We have four additional funding recommendations for focused 
investments within Wildland Fire Management. First, we are disappointed 
that the President's budget did not provide funding for the recently 
enacted Forest Landscape Restoration Act. The program will enable 10 
large landscapes across the Nation to receive sustained funding for 
fuels treatments that implement a collaboratively developed and 
science-based ecological restoration plan. The selected projects will 
also create jobs, provide woody biomass for local business use, and 
reduce catastrophic wildfire risks in ecosystems where damaging 
wildfire is exacerbated by climate change. The Conservancy recommends 
$40 million to fully fund this new program. Second, we recommend $60.5 
million for national fire plan State fire assistance and $7.7 million 
for the DOI rural fire assistance. Third, we recommend rehabilitation 
and restoration funding of $12.6 million for the USFS and $22.3 million 
for the DOI agencies to control invasive species spread after wild 
fire. Finally, we support the President's recommended reserve fund for 
fire suppression or creation of a FLAME fund for mega-fires in 
conjunction with strong cost management and accountability.
    Forest Health Management.--America's forests face a growing number 
of nonnative pests and diseases. The Conservancy appreciates the 
subcommittee's leadership in consistently providing funding 
significantly more than the President's request. The Forest Health 
Management program should receive an increase to $140 million to 
effectively address economically and ecologically damaging pests, 
including the asian longhorned beetle, emerald ash borer, hemlock 
woolly adelgid, sudden oak death, a newly described disease threatening 
walnut trees in the West, and the gold-spotted oak borer that has 
killed at least 17,000 trees in southern California since 2000.
    Forest Service Research Program.--We recommend an increase of $3 
million more than enacted for the ``Invasives R&D'' line item within 
the USFS research program. This would permit maintaining at current 
levels research to improve detection and control methods for the 
emerald ash borer, hemlock woolly adelgid, and other nonnative forest 
pests and diseases.
    Endangered Species.--The Conservancy supports an increase for the 
FWS's Cooperative Endangered Species Conservation Fund (CESCF) to $125 
million. We applaud the President's $100 million request, including a 
large increase to the recovery land acquisition program. If the 
subcommittee provides additional funding to this program, we suggest it 
carefully consider the significant needs for HCP funding. Our requested 
increase reflects the unmet public funding needs of the CESCF, and 
recognizes the important role States, municipalities, and non-Federal 
partners play in conserving threatened, endangered, and at-risk species 
on non-Federal lands. The Conservancy and its partners, including 
multiple State and county governments, have used this program to secure 
key habitat for numerous threatened, endangered and at-risk species. We 
also support continued funding for the Upper Colorado River Endangered 
Fish Recovery Program, recovery funds for the San Juan River Basin 
Recovery Implementation Program, and fish hatchery needs associated 
with the recovery plans in this region. We also support funding for the 
Platte River Recovery Implementation Program.
    State Wildlife Grants.--The Conservancy strongly endorses the 
Teaming with Wildlife Coalition's funding recommendation of $85 
million, plus the administration's request of $40 million to develop 
and implement climate adaptation strategies. Strong Federal investments 
are essential to ensure strategic actions are undertaken by State and 
Federal agencies and the conservation community to conserve wildlife 
populations and their habitats. We also support a $5 million 
competitive grant program as a subset of the State Wildlife Grant 
Program.
    National Wildlife Refuge System (NWRS).--The Conservancy applauds 
the subcommittees' significant increases in last year's budget for 
operations and maintenance of NWRS, a cornerstone of our commitment to 
fish and wildlife resources throughout the Nation. We urge sustained 
investments in these key accounts to reverse the loss of permanent 
refuge staff positions and capacity to maintain NWRS. We also strongly 
support an increase in funding for new responsibilities of managing the 
pristine coral reef systems protected in the new Pacific Remote Islands 
Marine National Monument and Rose Atoll NWR.
    Migratory Bird Programs.--The Conservancy applauds the President's 
request of $52.6 million for the North American Wetlands Conservation 
Act and urge the subcommittee to provide at least that level of 
funding. The Conservancy also supports $19 million in funding for the 
Joint Ventures. We support increasing funding for the Migratory Bird 
Management Program with an emphasis on reversing declines in bird 
populations.
    Partnership Programs.--We recommend funding levels over fiscal year 
2009 for successful partnership programs, including the FWS Coastal 
Program ($18 million), Partners for Fish and Wildlife Program ($60 
million), and the National Fish Habitat Initiative ($10 million).
    International Programs.--The Conservancy, as part of an alliance of 
major international conservation groups, supports the International 
Conservation Budget, which calls for $15 million to the FWS' 
Multinational Species Conservation Fund. This includes funds for the 
African and Asian elephant funds, the Great Apes Fund, the Marine 
Turtle Fund, and the Rhinoceros/Tiger Fund. We and the alliance also 
strongly support $21 million for the FWS office of international 
affairs which includes Wildlife Without Borders; $6.5 million for the 
FWS' Neotropical Migratory Bird Conservation Fund; and $14 million for 
the U.S. Forest Service's International Programs.
    Bureau of Land Management (BLM) Resource Management.--The 
Conservancy supports robust funding for BLM resource management and 
planning activities. These funds are needed for landscape-scale 
assessments and planning initiatives to improve wildlife habitat, water 
quality, invasive species control, and more informed mitigation and 
siting decisions for traditional and renewable energy proposals. BLM 
and its partner agencies should be encouraged to use existing data sets 
so that funding can be focused on data gaps rather than creating 
duplicitous data sets.
    Omnibus Public Lands Management Bill.--The Conservancy strongly 
supported this historic legislation which protects some of the Nation's 
most scenic and ecologically important resources. We urge adequate 
funding to implement the legislation's many provisions, including the 
Owyhee Public Land Management and Washington County, Utah programs. We 
also request sufficient funding for the National Landscape Conservation 
System and $2 million for the Cooperative Watershed Management Program.
    United States Geological Survey: Water Resources.--We support 
increases over the fiscal year 2009 funding levels for the National 
Streamflow Information Program and the Cooperative Water Program. These 
programs provide scientific data needed by multiple public and private 
water managers and their partners. As climate change, drought and 
population growth increase the demands on our Nation's water resources, 
it is critical to invest in the integration of State and Federal water 
resource data and to better understand the water needs of both human 
communities and the environment.
    Office of Insular Affairs.--We support at least $1 million for the 
Coral Reef Initiative.
    Environmental Protection Agency.--The EPA geographic programs 
provide critical leadership, technical support, and funding for on-the-
ground actions to improve water quality and restore ecosystems. In 
particular, we support $10 million for the EPA Gulf of Mexico Program, 
$25 million for the Great Lakes and $35 million for the Chesapeake Bay 
programs. We also support $30 million to support implementation of the 
Puget Sound Partnership's Action Agenda. Finally, we recommend $3 
million be directed to the Albemarle-Pamlico National Estuary Program 
to implement climate adaptation strategies on the low-lying lands of 
this nationally significant resource. Such funding would leverage $1.3 
million in private funding the Conservancy has already raised.
    Payments in lieu of taxes and refuge revenue sharing programs 
provide payments to counties where land has been taken off the local 
property tax rolls and put into Federal ownership. In some counties, 
protection of significant natural resources impacts the tax base that 
funds local government services, including schools and public safety. 
We urge the subcommittee to provide full funding for these programs and 
honor the Federal commitment to local communities.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the fiscal year 2010 Interior, Environment, and 
Related Agencies appropriations bill.
                                 ______
                                 
                Prepared Statement of the Town of Ophir

    Madam Chairman and honorable members of the subcommittee: Thank you 
Madam Chairman for the opportunity to present public testimony in 
support of continued funding for the Ophir Valley Project and 
protection of important Federal lands. As the Town Manager for the Town 
of Ophir, I am respectfully requesting the allocation of $2.75 million 
to the U.S. Forest Service's (USFS) fiscal year 2009 budget from the 
Land and Water Conservation Fund (LWCF) for the Ophir Valley Project. 
These funds will be used to facilitate the USFS's continuing efforts to 
acquire 1,200 acres of privately owned in-holdings in the Ophir Valley 
to the collective benefit of both the current owners as well as all 
those who enjoy this unique area at present or may wish to do so in the 
future.
    The Ophir Valley Project represents an enthusiastic partnership of 
private land owners, regional communities, not-for-profit 
organizations, State and Federal agencies, and most importantly, the 
general public. Located just off the Federal San Juan Skyway Scenic 
Byway, Ophir Valley offers pristine alpine scenery, abundant 
recreational opportunities, and valuable habitat for threatened and 
endangered species. Easy public access is currently available for 
hiking, biking, rock climbing, hunting, camping, skiing, jeep touring, 
motorized recreation, and wildlife viewing. Due to the checkerboard 
pattern of privately owned patented mining claims, the Ophir Valley 
Project seeks to acquire these private in-holdings and consolidate USFS 
lands to insure permanent public access to Federal lands.
    The Town of Ophir has actively pursued a comprehensive, valley-wide 
land conservation program since 1992. Besides acquiring more than 230 
acres of mining claims and investing more than $500,000 locally, the 
Town of Ophir has nurtured important relationships with private land 
owners and State and Federal agencies. The Pauls family has proven to 
be an invaluable resource and visionary partner with the Town of Ophir 
by supporting Ophir's land conservation goals and working with the 
Trust for Public Land. Now, after 16 years of dedicated land 
conservation efforts, the Pauls family is offering the last significant 
private land holdings in Ophir Valley for USFS acquisition.
    The Ophir Valley Project protection effort is the natural extension 
of the successful Red Mountain project, located just to the north and 
east of Ophir Valley. Federal funding for the Ophir Valley Project is 
complementing many regional projects along the 236-mile San Juan Skyway 
Scenic Byway (1 of only 27 All American Roads in the National Scenic 
Byway program). The State's Great Outdoors Colorado Legacy Project 
program pledged $5.7 million in grant funding to match local efforts to 
improve recreational opportunities and protect important lands along 
the San Juan Skyway.
    The requested funding for the Ophir Valley Project will produce the 
following benefits:
  --Protect public access to many thousands of acres of USFS lands for 
        diverse recreational opportunities;
  --protect habitat for the Canadian Lynx, a federally listed 
        threatened species; protect the endangered Uncompahgre 
        Fritillary butterfly; and protect the headwaters for the San 
        Miguel River, which sustains native cutthroat trout;
  --improve USFS land management by consolidating ownership;
  --leverage Federal funding support with more than $10 million in 
        State and local funding for regional recreation and land 
        protection projects along the San Juan Scenic Byway;
  --protect the historic character of our 1881 mining camp-town; and,
  --protect the rugged alpine scenery of this pristine mountain valley.
    Upon completion, this comprehensive preservation effort will 
provide a reasonable, equitable, and enduring resolution to a multitude 
of land use and access conflicts associated with the extensive private 
ownership of inholdings within public lands in the area. Moreover, it 
will promote the effective and consistent land management practices of 
the USFS.
    Thank you for your support and leadership in conserving Colorado's 
land and water resources. LWCF for the Ophir Valley Project will ensure 
future generations can enjoy this very special place in Colorado.
    Thank you for your consideration of this request.
                                 ______
                                 
            Prepared Statement of the Trust for Public Land

    Chairwoman Mikulski and Ranking Member Shelby, thank you for the 
opportunity to submit testimony in support of funding for the Coastal 
and Estuarine Land Protection Program (CELCP) administered by the 
National Oceanic and Atmospheric Administration (NOAA). My statement 
today urges you to provide funding through the CELCP to the coastal and 
lake States and the territories at the level of $60 million in fiscal 
year 2010. This funding is necessary to protect the ecologic, 
recreation, historic, and aesthetic values and the economic vitality of 
our coastal communities.
    The Trust for Public Land (TPL) is a national nonprofit land 
conservation organization that conserves land for people to enjoy as 
parks, community gardens, natural and scenic areas, historic sites, 
working landscapes, and other public assets. Since 1972, TPL has worked 
with willing landowners, community groups, and national, State, and 
local agencies to complete more than 4,000 land conservation projects 
that protect more than 2.5 million acres in 47 States and the 
territories. TPL has partnered with NOAA, private landowners, and State 
and local governments on over 50 CELCP-funded coastal land protection 
projects. Since 1988, TPL also has helped States and communities craft 
and pass over 463 ballot measures, generating almost $31 billion in new 
conservation-related funding. These conservation measures provide an 
important source of State and local matching funding for CELCP and 
other Federal land protection programs.
    TPL and other nongovernmental partners invest our energies, 
funding, and staff in the places where the threats to open spaces are 
most urgent. Not surprisingly, many of those public-private 
conservation partnerships have focused on our Nation's dwindling 
coastal open spaces. Even with the considerable focus on our most 
critical coastal ecosystems and shorelines, we continue to fall farther 
and farther behind in our efforts to help State and local government 
partners protect the coastal open spaces. In recent years, we have 
witnessed an unprecedented pace of resource-damaging development along 
our coastlines. The need for prompt conservation action in these 
sensitive and challenged areas is only increasing. The recent economic 
downturn may well provide a window of opportunity when public 
conservation agencies and partners can better compete and stretch 
limited acquisition dollars further, making this a wise time for 
strategic Federal investment in coastal conservation.
    Coastal protection provides many public benefits including 
buffering from storms and floods, filtering pollution and maintaining 
water quality, providing waterfront and coastal access for public 
recreation, supporting fish and shellfish populations important to 
commercial and recreational fisheries, preserving coastal habitats for 
nesting and foraging birds, and securing habitat for native wildlife 
including threatened and endangered species. The CELCP is the only 
Federal program dedicated exclusively to helping coastal communities 
protect their natural and recreational heritage. CELCP is essential 
Federal funding, that allows State and local governments, and their 
private conservation partners, to respond effectively to coastal 
conservation needs. The recent NOAA eligibility requirement that each 
coastal State develop a Coastal and Estuarine Land Conservation Plan 
helps ensure that both Federal and non-Federal dollars are being 
smartly targeted and wisely spent.
    The spiraling development pressures upon our Nation's coastal zone 
are obvious and well documented. Since 1970, coastal areas have 
experienced steady increases in population. According to NOAA, coastal 
counties constitute only 17 percent of the Nation's land areas, but 
account for 53 percent of its populations--a population density five 
times greater than noncoastal counties. According to the U.S. 
Commission on Ocean Policy, ``more than $1 trillion, or one-tenth of 
the Nation's annual gross domestic product, is generated within the 
relatively narrow strip of land immediately adjacent to the coast that 
we call the nearshore zone. When the economies throughout coastal 
watershed counties are considered, the contribution swells to more than 
$4.5 trillion, fully half of the Nation's gross domestic product, 
accounting for some 60 million jobs.'' The health of our coasts is 
inextricably linked with the economic health of the Nation.
    In 2002, Congress stepped in to respond to that need and enhance 
the Federal role within the Federal-State coastal conservation 
partnership by creating the CELCP to protect ``those coastal and 
estuarine areas with significant conservation, recreation, ecological, 
historical, or aesthetic values, or that are threatened by conversion 
from their natural or recreational states to other uses.'' Authorized 
at $60 million annually, funding for the program grew from an initial 
$15 provided in fiscal year 2002, to a high of $50 million in 2004, 
before declining each subsequent year to a low of $8 million in fiscal 
year 2008. Despite its uneven funding history, the CELCP has built an 
impressive track record. To date, the over funded over 150 conservation 
projects in 26 of the Nation's coastal States and territories helping 
to protect approximately 35,000 acres. This Federal funding has been 
leveraged by at least an equal amount of State, local, and private 
matching investments, demonstrating the broad support for the program, 
the importance of coastal protection, and the critical role of Federal 
funding to accelerate coastal protection. Inclusion of the Coastal and 
Estuarine Land Protection Act in the recently passed H.R. 146, the 
Omnibus Public Lands Management Act of 2009, formally codifies CELCP 
and recognizes the program's achievement and significance.
    In 2007, by directive from this subcommittee, NOAA instituted a 
competitive grants selection process for the CELCP. The CELCP team at 
NOAA has done an impressive job of managing this transition and 
creating a thorough competitive grants process. In the last 3 years, 
NOAA, in partnership with the States, has identified over $230 million 
of vetted and ranked projects. While we support the competitive nature 
of the program, full funding at $60 million annually is needed to meet 
the demand of increasingly high-quality projects being developed by 
States with other partners and submitted to NOAA. We were pleased to 
see the program funding increased to $15 million in fiscal year 2009, 
reversing a 5-year funding decline. However, this will only fund the 
first 8 or so of the 43 competitively ranked projects in fiscal year 
2009, meeting a fraction of the total project need of $63 million.
    The CELCP is the only Federal program dedicated exclusively to 
helping coastal communities protect their natural and recreational 
heritage. CELCP provides essential Federal funding that allows State 
and local governments, and their private conservation partners, to 
respond effectively to coastal conservation needs. Perhaps the best way 
to underscore the critical value of this program to the American people 
is to provide some examples of the projects seeking funding in fiscal 
year 2010:
Lapakahi Marine Life Conservation District (MLCD), Hawaii County, 
        Hawaii
    CELCP funding will protect the last privately held property 
fronting the Lapakahi MLCD on the North Kohala coast of the big island 
of Hawaii. This 17.05-acre tract includes 200 feet of shoreline and 
will connect a total of 1.75 miles of publicly held coastline and 
protect habitat for the threatened green sea turtle and the endangered 
Hawaiian monk seal. The requested $1.25 million from the Hawaii Legacy 
Land Conservation Fund Program will match CELCP funding in the amount 
of $1.25 million.
Magnolia Hill Conservation Project, Massachusetts
    The City of Gloucester, The Trust for Public Land, The Trustees of 
Reservations, and Essex County Greenbelt Association are working to 
protect the 109-acre Magnolia Hill property in the coastal area of 
Essex County, Massachusetts. This upland habitat overlooking Gloucester 
Harbor represents an intact Oak-Hemlock-White Pine forest and wooded 
swamp supporting the State-listed Blue spotted Salamander and State-
endangered Sweetbay Magnolia. The property drains into a 12-acre tidal 
coastal salt pond, Clark Pond, and connects 1,270 acres of contiguous 
protected coastal zone habitat. $3 million in CELCP funding will be 
matched by an equal amount of State, local, and private funds.
Harsens Island Conservation Area, Lake St. Clair, Michigan
    The 547-acre Harsens Island Conservation Area lies at the heart of 
the St. Clair flats--the largest freshwater delta in the world. Located 
on both the Atlantic and Mississippi flyways, migratory waterfowl use 
of these coastal waters and wetlands has historically reached 3 million 
annually. Protection will enhance public access for recreation, 
eliminate the threat of development, and protect sensitive coastal 
habitat. $7 million in Michigan Natural Resources Trust Fund dollars 
will match a $3 million CELCP grant.
Houghton Falls Nature Preserve, Lake Superior, Bayview Township, 
        Wisconsin
    77 acres on the Bayfield Peninsula with 2,230 feet of Lake Superior 
shoreline will be protected as a Bayfield town park. This rare boreal 
forest habitat contains numerous species of concern including the Gray 
Wolf, Northern Flying Squirrel, Woodland Jumping Mouse, and Water 
Shrew. The property is an important stopover for Neotropical migratory 
birds, and a fish nursery for Lake superior whitefish and other 
species. A $1.423 million CELCP grant will be equally matched with 
funding from the Wisconsin Knowles-Nelson Stewardship Fund.
Kiket Island Addition to Deception Pass State Park, Phase II, Skagit 
        County, Washington
    A $3 million CELCP grant will purchase the final 40 acres of the 
Kiket Island project in northern Puget Sound to protect a total of 96 
acres of high-quality coastal habitat and more than 2 miles of 
shoreline threatened. Kiket Island is an intact, intertidal zone with 
all eight species of Puget Sound anadromous fish, including the 
endangered Chinook salmon and bull trout. The forested portion of Kiket 
Island provides excellent habitat for bird, including owls, and other 
native wildlife. A $3 million CELCP grant will be matched with $3.431 
million from Washington State parks.
Ayers Creek-Holly Grove Swamp, Worcester County, Maryland
    To be protected are 431 acres along Ayers Creek within the waters 
of Newport Bay and the larger Maryland Coastal Bays area. The property, 
including one-half mile of tidally influenced shoreline, will be added 
to the State's Ilia Fehrer Nature Reserve. The forested wetlands are 
important habitat for 11 State- and/or federally listed species. $1 
million from Maryland Program Open Space and $250,000 from Worcester 
County Program Open Space Funds will match $1.25 million in CELCP 
funding.
Keewaydin Island, Rookery Bay National Estuarine Research Reserve, 
        Florida
    TPL is working in partnership with the State of Florida to protect 
5 crucial acres of beach front within and adjoining the Rookery Bay 
National Estuarine Research Reserve (RBNERR). The RBNERR protects the 
largest and most pristine subtropical mangrove estuary in the world, 
with over 150 species of wading, nesting and migratory birds, and 
numerous threatened and endangered species including the Atlantic 
loggerhead sea turtle, gopher tortoise, least tern, piping plover, and 
West Indian manatee. $1.5 million from the Florida Forever Program will 
match a $1.5 million CELCP grant.
San Miguel Natural Reserve III, Puerto Rico
    Fiscal year 2010 CELCP funding will complete the final phase of 
this 601-acre coastal land protection effort at the San Miguel Natural 
Reserve on the northern coast of Puerto Rico. One of the last 
ecologically functional wetlands together with an undeveloped coastal 
shoreline, this area is home to 42 critical species, including nesting 
grounds for the federally listed Leatherback sea turtle. A $3 million 
CELCP grant, matched by a land value donation from the landowner, will 
protect the final 179 acres.
    These several examples are just a small representation of the 
breadth and depth of CELCP needs for the coming year across our 
Nation's coastal geographies and communities. In closing, TPL urges you 
to provide full funding of the CELCP at the authorized level of $60 
million in fiscal year 2010 for this critically important program. This 
level of Federal commitment is necessary to meet the demonstrated 
program need and to position NOAA to be fully responsive to the many 
State and local governments and private partners working together to 
protect our coastal heritage. Thank you.
                                 ______
                                 
               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to provide 
comments on the fiscal year 2010 budget for the Department of Interior, 
Environment, and Related Agencies. The Wildlife Society represents 
nearly 8,000 professional wildlife biologists and managers dedicated to 
excellence in wildlife stewardship through science and education.

                  U.S. FISH AND WILDLIFE SERVICE (FWS)

    Funding assistance for State wildlife agencies is one of the 
highest-priority needs for wildlife, providing essential resources to 
conserve wildlife, fish, and habitat, and to prevent further declines 
in at-risk wildlife populations in every State. We support the 
President's request of $115 million for the State and Tribal Wildlife 
Grants program in fiscal year 2010. This funding level would enhance 
the ability of state fish and wildlife agencies and their partners to 
implement State Wildlife Action Plans and address the impacts of 
climate change on wildlife and their habitats.
    The State and Tribal Wildlife Grants Program is the only Federal 
program dedicated to implementation of State Wildlife Action Plans. 
Congress required State and territorial fish and wildlife agencies to 
develop and implement these plans to reverse the decline of at-risk 
fish and wildlife. The plans are being used across the country to 
prioritize and guide wildlife conservation work, helping to protect 
vital ecosystem services and recreational opportunities valued in the 
hundreds of billion of dollars.
    Addressing climate change is one of the most daunting tasks facing 
the conservation community. We support the addition of $40 million in 
climate change funding through the State Wildlife Grants program which 
provides States and tribes with the resources they need to plan and 
implement conservation actions needed to mitigate the impacts of 
climate change and help wildlife adapt. State fish and wildlife 
agencies are facing significant budget declines during the economic 
downturn making it increasingly difficult to secure matching funds. We 
ask that the subcommittee consider reducing the Federal:State match 
requirement for climate change activities to 90:10.
    The Wildlife Society is a member of the Cooperative Alliance for 
Refuge Enhancement (CARE), a diverse coalition of 23 wildlife, 
sporting, conservation, and scientific organizations representing more 
than 14 million members and supporters. A comprehensive analysis by 
CARE determined that the National Wildlife Refuge System (NWRS) needs 
$808 million in annual operations and maintenance funding by 2013 to 
properly administer its nearly 150 million acres, educational programs, 
and habitat restoration projects. Consecutive stagnant budgets have 
increased the operations and maintenance backlog to $3.5 billion, and 
forced plans for a 20 percent downsizing of the workforce. Refuge 
visitors often show up to find roads and visitor centers closed, trails 
and observation platforms in disrepair, and habitat restoration and 
education programs eliminated. Invasive plant species are taking over, 
and with a deficiency of more than 500 law enforcement officers, 
illegal activities such as poaching and trespass are on the rise. We 
are grateful for the much-needed budget increase that Congress provided 
the NWRS in fiscal year 2009, and we urge the Congress to build upon 
this important step in the fiscal year 2010 budget. We request that you 
provide $514 million in fiscal year 2010 for the operations and 
maintenance of the NWRS.
    The North American Wetlands Conservation Act is a cooperative, 
nonregulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. We are pleased by the administration's support of this 
program through its $10 million increase, and support full funding of 
$75 million by fiscal year 2012.
    The Neotropical Migratory Bird Conservation Act provides a broad-
spectrum approach to bird conservation. The Wildlife Society recommends 
that Congress fund the Neotropical Migratory Bird Conservation Act at 
its full authorization of $6.5 million in fiscal year 2010.
    The Wildlife Society supports adequate funding levels for all 
subactivities within the Endangered Species Program. Endangered species 
recovery efforts can ultimately lead to delisting actions that result 
in significant benefits to species through State management efforts. 
Currently, all subactivities are understaffed, as the costs for 
management of listed species continue to rapidly escalate. We support 
the President's request of $164 million for this key program in fiscal 
year 2010.
    In fiscal year 2008 and 2009, funding for the Science Excellence 
Initiative was zeroed out in the administration's budget. Discontinuing 
funding for this office will prevent FWS from expanding its on-the-
ground scientific capacity in adaptive resource management, structured 
decision analysis, and conservation genetics. Elimination of these 
programs will reduce FWS's capacities in key areas and prevent the 
expansion of these programs to other regions of FWS. The Wildlife 
Society strongly recommends that Congress fund the Science Excellence 
Initiative at $493,000 in fiscal year 2010.

                    BUREAU OF LAND MANAGEMENT (BLM)

    BLM manages more land, and more wildlife habitat, than any other 
Federal agency, including half of the remaining habitat for the 
imperiled sage grouse and almost 15 million acres of prairie grasslands 
vital to many declining grassland-dependent species. The diverse 
habitats managed by BLM support more than 3,000 species of wildlife, 
more than 300 federally proposed or listed species, and more than 1,300 
sensitive plant species.
    However, the BLM has only one biologist per 591,000 acres of land 
and estimated costs for recovery of threatened and endangered species 
on BLM lands are $300 million annually over the next 5 years. Moreover, 
the status of the wide-ranging declining sage grouse is of great 
concern, and significant additional resources will be needed for its 
protection.
    In addition, the Wildlife and Fisheries Management (WFM) and the 
Threatened and Endangered Species Management (TESM) programs have been 
forced to pay for the compliance activities of BLM's energy, grazing, 
and other nonwildlife-related programs. Traditionally, funding for 
compliance work has come from benefiting programs; however in recent 
years, at least 30 percent of WFM and TESM resources have been 
routinely diverted to other programs, eroding their ability to conduct 
proactive species and habitat conservation activities and efforts to 
recover listed species. While this practice has undergone increased 
scrutiny in the last 2 years, nothing has emerged to suggest that the 
situation has been rectified.
    Given the significant underfunding of the BLM's wildlife programs, 
combined with the tremendous expansion of energy development across the 
BLM landscape, an increase to $55 million for the BLM Wildlife 
Management Program is warranted. This will allow BLM to maintain and 
restore wildlife and habitat by monitoring habitat conditions, 
conducting inventories of wildlife resources, and developing 
cooperative management plans.
    Increased funding is needed for the TESM program to meet its 
conservation responsibilities in endangered species recovery plans. 
BLM's March 2001 report to Congress called for a doubling of the 
current Threatened and Endangered Species budget to $48 million and an 
additional 70 staff positions over 5 years. In view of this inequity 
between resource needs and funding levels, we strongly encourage 
Congress to increase overall funding for this program to $33.5 million 
in fiscal year 2010

                     U.S. GEOLOGICAL SURVEY (USGS)

    The Wildlife Society supports funding of $1.5 billion for USGS in 
fiscal year 2010. This would enable USGS to meet new challenges while 
continuing to provide essential data for land-use management, 
sustainable natural resource development, and enhanced security from 
natural and human-caused hazards. More investment is needed to 
strengthen USGS partnerships, improve monitoring networks, produce 
high-quality digital geospatial data, and deliver the best possible 
science to address critical environmental and societal challenges.
    We support the increased funding proposed for the Cooperative Fish 
and Wildlife Research Units (CFWRUs). The CFWRUs are a jointly funded 
Federal/State partnership, where the Federal Government provides the 
funding for personnel and States provide funding to establish the units 
at a university. Fiscal year 2001 was the last time Congress fully 
funded the CFWRUs, allowing unit productivity to rise to record levels. 
Since then, budgetary shortfalls have caused an erosion of available 
fiscal resources, resulting in a current staffing vacancy of 23 
researcher positions, nearly one-quarter of the professional workforce. 
In order to fill current scientist vacancies, restore seriously eroded 
operational funds for each CFWRU, and enhance national program 
coordination, the fiscal year 2010 budget for the CFWRUs should be 
increased to $19.5 million. This would restore necessary capacity in 
the CFWRU program and allow it to meet the Nation's research and 
training needs.
    The CFWRUs are crucial to successfully addressing the natural 
resource management challenges posed by climate change, energy 
development needs, invasive species, infectious diseases, and wildfire. 
These challenges also include replacing the unprecedented number of 
natural resource professionals who will be retiring over the next 10 
years. To begin meeting these high-priority research and training needs 
in fiscal year 2010, we ask that you establish a competitive, matching 
fund program within existing CFWRU legislative authority that would 
make available $5 million annually in new funds beyond base operational 
costs.
    The Wildlife Society appreciates the funding for the National 
Climate Change and Wildlife Science Center in the fiscal year 2009 
omnibus, which provided $10 million for the Center. This center will 
play a pivotal role in addressing the impacts of climate change on fish 
and wildlife. The Wildlife Society supports the recommended funding 
level of $15 million in fiscal year 2010.

                       U.S. FOREST SERVICE (USFS)

    Our national forests and grasslands are essential to the 
conservation of our Nation's wildlife and habitat, with about 425 
threatened and endangered species, and another 3,250 at-risk species, 
calling them home. The fiscal year 2007 appropriation of $131.7 million 
for the Wildlife and Fisheries Habitat Management Program accomplished 
more than 4,700 projects and generated an additional $50.4 million in 
partner contributions. However, USFS has estimated that it could expend 
two times that amount or $260 million on projects with existing 
staffing. We urge Congress to increase funding for this program to at 
least $154 million in fiscal year 2010.
    Upward trends in fire suppression costs increasingly prevent the 
Forest Service, and other agencies, from implementing critical programs 
and fulfilling their missions. Congress must identify a new mechanism 
for funding emergency fire suppression activities. A partitioned 
wildfire suppression account to fund emergency fires should be created, 
so that emergency fire spending does not impact nonemergency agency 
budgets. In addition, the 10-year rolling average should be replaced 
with a more predictive statistical model that utilizes current weather, 
drought, and fuel load as well as fire history and other data to 
project the extent of wildland fire on the landscape and the funding 
needed to address it. The USFS and DOI must continue developing and 
implementing a rigorous set of measures for linking fire management to 
fire costs in order to more effectively achieve cost containment. 
Finally, investment of funds into the range of agency programs that 
have been impacted by increasing suppression costs must occur for 
agencies to accomplish their missions.
    Thank you for considering the recommendations of wildlife 
professionals. We are available to work with you and your staff 
throughout the appropriations process.
                                 ______
                                 
              Prepared Statement of The Wilderness Society

    The Wilderness Society (TWS) represents more than 400,000 members 
and supporters across the United States who support our mission to 
protect wilderness and inspire Americans to care for our wild places. 
We thank the subcommittee for the opportunity to submit comments on the 
fiscal year 2010 Department of the Interior, Environment, and Related 
Agencies appropriations bill.
    Over the last 2 years, Federal allocations reversed the near 
decade-long pattern of severe funding cuts to numerous conservation 
programs. We applaud Congress for increasing appropriations for 
essential public land conservation activities, but despite this 
progress, these and other indispensable conservation programs continue 
to suffer from years of underfunding.
    To make matters worse, the effects of climate change are already 
being felt on public lands nationwide. Protection of these lands help 
buffer flooding and wildfire, conserve water, support healthy fisheries 
and wildlife populations, limit sea-level rise and the spread of 
invasives, and aide in carbon storage.
    The President has sent a strong message to Congress by supporting a 
budget that assumes the passage of a cap-auction-and-trade climate 
protection program. The revenues generated from this program should be 
invested in the public welfare, including the protection of biodiverse 
ecosystems that protect our public health. It is too late to prevent 
climate disruption, because the pollution dumped into the air for the 
past 100 years will affect us for the next 100, guaranteeing an 
increase in severe climate events related to global warming.
    However, it is not too late to secure the public protection that 
comes from keeping our watersheds functioning and our air filtered by 
resilient natural landscapes. According to the U.S. Forest Service 
(USFS), we are losing 6,000 acres a day of forested and open space. 
These intact forest systems are a weapon against the ravages of global 
warming, and we should protect them the way an army protects the 
armory. To build resilient landscapes, we must keep them from being 
broken apart, fragmented, disconnected and degraded. Accordingly, we 
urge that you take bold, immediate action in making additional 
investments for fiscal year 2010. As a minimum step toward adequate 
funding of our public land programs and to meet new challenges 
associated with climate change, TWS recommends:

                LAND AND WATER CONSERVATION FUND (LWCF)

    Our 682 million acres of Federal land and waterways provide a 
critical opportunity to address the unprecedented challenges that 
climate change poses to our forests, fish and wildlife, and riparian 
resources. The strategic acquisition of key inholdings, buffer areas, 
and wildlife migration corridors within and adjacent to existing public 
lands enhances adaptation efforts and fosters intact landscapes. These 
natural areas also store carbon, buffer flooding, conserve water, and 
support healthy fisheries and wildlife populations. Hand-in-hand with 
mitigating the deleterious impacts of our environment from burning 
fossil fuels is the need to respond to climate change with a 
foresighted investment in land protection and natural resource 
adaptation across the Federal public lands. President Obama has 
indicated that LWCF should be fully funded by 2014, and his 2010 budget 
request includes $216.7 million for the Federal and State grants LWCF--
a 21 percent increase more than fiscal year 2009. However, this 
accounts for only half of the funding expended under LWCF. We urge that 
the Federal and State grants program receive a higher percentage of 
LWCF dollars in the future as the program reaches its full funding 
level of $900 million. TWS' fiscal year 2010 recommendation for the 
LWCF is $450 million ($325 million for Federal and $125 million for 
stateside), an increase of $278.1 million more than fiscal year 2009 
enacted level of $171.9 million. We also support conserving land and 
natural resources in Connecticut, New Jersey, New York, and 
Pennsylvania through the Highlands Conservation Act.
    A sampling of TWS LWCF and forest legacy acquisition priorities for 
fiscal year 2010 follows:
  --Arizona.--Maumelle water excellence. Forest legacy request: $3.6 
        million
  --California.--Santa Rosa and San Jacinto Mountains National 
        Monument. LWCF request: $1.5 million
  --Georgia.--Chattahoochee River NRA. LWCF request: $3.1 million
  --Maryland.--Blackwater National Wildlife Refuge. LWCF request: $2 
        million
  --Montana.--Red Rocks Lake National Wildlife Refuge. LWCF request: $1 
        million
  --North Carolina.--Pisgah National Forest; Uwarrie National Forest. 
        LWCF request: $2 million
  --New Hampshire.--Lake Umbagog National Wildlife Refuge. LWCF 
        request: $5 million
  --New Mexico.--Sevilleta National Wildlife Refuge. LWCF request: $2 
        million
  --Oregon.--Cascade Siskiyou National Monument. LWCF request: $4 
        million
  --South Carolina.--Congaree National Park. LWCF request: $2.7 million
  --Washington.--Mt. Baker-Snoqualmie National Forest. LWCF request: 
        $1.7 million; Okanogan Wenatchee National Forest. LWCF request: 
        $250,000
       forest legacy and community forest and open space program
    The Forest Legacy Program (FLP) helps to preserve working 
forestlands threatened by conversion/development. To date, this program 
has protected more than 1.7 million acres in 36 States and Puerto Rico. 
A total of $381 million of Federal funds have been matched by $484 
million in non-Federal funds and donations, making the Federal share 
only 44 percent of overall project costs. FLP funding has steadily 
diminished from a height of $69 million in fiscal year 2003, while 
demand for funding has steadily increased. For fiscal year 2010, the 
USFS received 84 project proposals from 44 States and territories to 
protect 288,530 acres with a total project value of more than $363 
million. The President's budget includes a much needed 37 percent 
increase in the FLP to $91.1 million. This is a strong commitment that 
brings FLP closer to its recommended and necessary level. TWS' 
recommendation for fiscal year 2010 is that the FLP be funded at $125 
million.
    The Forest Service (USFS) has begun its rulemaking process for the 
Community Forest and Open Space Program (CFOSP). The President's 2010 
budget has allocated $1 million to initiate the program, which will 
enable communities to conserve thousands of forested acres, thereby 
maintaining carbon sequestration and storage where otherwise 
development might have occurred. TWS' fiscal year 2010 recommendation 
for CFOSP is $75 million for this program's first year.

                    BUREAU OF LAND MANAGEMENT (BLM)

    Over the past 8 years, BLM's budget has been severely unbalanced in 
its emphasis on oil and gas development, which has doubled while other 
program areas have been shortchanged. Despite these large increases, 
the Obama administration has requested a $10.8 million increase in 
BLM's oil and gas budget, from $79.5 million enacted in fiscal year 
2009, to $90.3 million requested. We strongly recommend that any 
increases in the BLM's oil and gas program budget be devoted to 
enhanced inspection, enforcement, monitoring and compliance activities. 
Promises made in past years by the BLM regarding the implementation of 
various measures to mitigate the increasingly adverse impacts of oil 
and gas development on our western public lands have largely been 
unmet, while the agency has devoted its efforts almost exclusively to 
expediting the issuance of leases and APDs, frequently on sensitive 
lands containing important wildlife habitat, cultural artifacts, and 
wilderness values. We recommend that Congress address this imbalance by 
appropriating a larger proportion of the BLM's budget for its 
environmental stewardship programs, rather than its oil and gas 
program.
    We recommend that a portion of the increase requested in the BLM's 
minerals programs be allocated to the National Academy of Sciences 
(NAS) for an evaluation of the current status of oil shale development 
technology. ``Research, Development and Demonstration'' (RD&D) oil 
shale leases issued by the Bush administration in 2005 have yielded no 
helpful results to date for policy-makers interested in whether or not 
the oil shale deposits of the Piceance Basin can be developed in a 
commercially viable and environmentally safe way. The last 
comprehensive evaluation of the status of oil shale technology was 
published by Congress' Office of Technology assessment in 1980. Those 
results were useful to policy-makers at the time, but are severely out 
of date. We recommend that Congress mandate sufficient funds from the 
BLM's oil and gas budget be used by the NAS to develop and publish an 
evaluation of oil shale technologies, including an evaluation of the 
environmental hazards posed by commercial oil sale development, and the 
impact on other natural resources from the potential development of oil 
shale to be completed by the close of fiscal year 2011. This evaluation 
would be designed to assist the Department of the Interior in 
determining the parameters of any future RD&D oil shale leases.
    Finally, it is our hope that the new administration will review and 
revise the policies governing the BLM's oil and gas leasing program to 
better ensure that sensitive lands and resources that have been put at 
risk by the previous administration's irresponsible development 
policies are better protected from the damage that irresponsible oil 
and as activities can wreak on the environment, and that the 
Administration will direct BLM to take into account the impacts of its 
management decisions on climate change.

          BLM'S NATIONAL LANDSCAPE CONSERVATION SYSTEM (NCLS)

    BLM's NCLS currently comprises some 27 million acres of 
congressionally and presidentially designated lands and waters, such as 
National Monuments and National Conservation Areas. Stewardship of 
NCLS's many units provides jobs for thousands of Americans while 
supporting vibrant and sustainable economies in surrounding 
communities. NCLS provides immeasurable public values in return for 
modest investments, including outstanding recreational opportunities, 
wildlife habitat, clean water, and open space near fast-growing cities. 
NCLS also provides a living laboratory where the challenges of climate 
change can be studied and landscape level habitat restoration can take 
place. Investments today will not only help maintain and enhance these 
critical landscapes but also provide for numerous volunteer and job 
opportunities that are needed today and cost effective in the long-
term. NCLS's budget has suffered from neglect since its inception since 
2000. Recent congressional increases are helping address backlogs, but 
additional funding is critical to restore landscapes, protect resources 
from neglect and damage, and to fund initiation of NCLS's many new 
management plans and adequate implementation of existing plans. Recent 
changes to NCLS's budget have improved clarity in NCLS's budget, but 
NCLS still suffers from a lack of prominence in BLM's budget structure. 
TWS' fiscal year 2010 recommendation is full budget clarity for NCLS, 
funding of $75 million, a modest increase of $14.2 million more than 
the fiscal year 2009 enacted level, and support for the President's 
Climate Change Initiative and NCLS's share of those funds.

                       NATIONAL PARK SYSTEM (NPS)

    Our NPS is comprised of 391 units that represent our Nation's 
wondrous and diverse natural and cultural resources. Increased funding 
is essential to ensure that these historic and ecologically important 
sites provide invaluable visitor experiences and thrive as wild 
landscapes adapting to a changing climate. The American Recovery and 
Investment Act (ARRA) allocated $750 million to the National Park 
Service to protect these national icons, and the President's budget 
recommends an increase of $100 million for operations to protect this 
investment and help further reduce NPS's multi-billion dollar 
maintenance backlog. In addition, the President has requested $25 
million to help prepare the National Park Service for its centennial 
anniversary in 2016. These funds are critical to both the immediate 
needs and sustainable future of these public lands.

                 NATIONAL WILDLIFE REFUGE SYSTEM (NWRS)

    NWRS, with its 549 refuges on nearly 150 million acres of land, 
helps protect critical wildlife habitat, ensuring that wildlife 
protection remains a priority of these lands. There is a wildlife 
refuge in every State and within an hour's drive of most American 
cities. More than 35 million people visit refuges annually, generating 
nearly $1.7 billion for local economies and supporting almost 27,000 
private sector jobs. Last year's operations and maintenance 
appropriation increase brought funding to a level that is close to what 
the NWRS needed to keep pace with inflation costs over the past 5 
years. This significant investment helped stem severe staff losses and 
program cuts. But years of stagnant funding fueled a spiraling backlog 
of $3.5 billion in operations and maintenance projects and a loss of 
more than 300 positions since 2004. NWRS needs $765 million in annual 
funds to adequately address its operations and maintenance needs of the 
NWRS. TWS' fiscal year 2010 recommendation for the NWRS is the same as 
last year's request of $514 million.

                             WILDLAND FIRE

    TWS is pleased that congress is recognizing that past borrowing 
from other agency programs for wildland fire suppression has caused 
project cancellations, strained relationships with partners, and 
disruptions in management. Additionally, we are encouraged by the 
passage of the FLAME bill which is an important first step in 
addressing the increasing costs of suppression while helping to stave 
off large transfers from other agency programs. However, we are 
concerned that several adopted amendments change the underlying intent 
and purpose of the FLAME Act. The original goal of the act is to 
establish a framework for the administration's proposed contingency 
fund for emergency wildfires. The next steps include short and long-
term solutions for suppression cost containment. President Obama's USFS 
budget proposes a $282 million contingency reserve fund for USFS and 
$75 million for BLM for wildfire suppression, which would help to 
reduce the need for emergency supplemental funding and more importantly 
alleviate the agencies' need to transfer and debilitate other critical 
agency programs.
    Additionally, TWS recommends appropriators retire the use of the 
10-year average in accounting for annual suppression costs and use a 
scientifically based predictive model, to include climate change as a 
factor, for suppression estimates. Additionally, appropriators are 
encouraged to provide funding to train firefighters to manage 
wildfires. A 1 percent increase in preparedness allocated to 
firefighter training would arm wildland firefighter with a full range 
of tactical response expertise from monitoring to aggressive attack, 
which will lead to healthier landscapes and reduce suppression costs in 
the future.

     NATIONAL FOREST SYSTEM AND CAPITAL IMPROVEMENT AND MAINTENANCE

    President Obama's USFS budget for fiscal year 2010 proposes a new 
initiative funded at $50 million to protect investments made by ARRA, 
implement travel planning that emphasizes road decommissioning, and 
address urgent facilities maintenance. The budget also provides 
increases to the FLP ($34 million) and $50 million allocated to the 
Legacy Roads and Trails Program highlight the administration's 
commitment to improving ecosystem health through land protection and 
reducing the forest road system. Unfortunately, many programs are posed 
to receive minor cuts or remain at the same low funding levels as in 
recent prior years. These programs include recreation and wilderness, 
fish and wildlife, state fire assistance which helps communities in 
fire prone areas to protect themselves.
    TWS recommends congress revise the USFS annual appropriations to 
reduce commodity production and increase funding for programs that will 
strengthen forests to mitigate the effects of climate change including: 
$77.9 million for Forest Inventory Analysis to effectively track 
changes in forest health due to climate stresses and changes in 
management; $377 million for recreation, wilderness and heritage 
(including $84.1 million for travel management planning); $197.4 
million for wildlife and fish habitat management; $325 million for road 
maintenance for maintenance of roads that have completed a roads 
analysis; and $100 million for Legacy Roads & Trails Remediation 
program for decommissioning projects that improve water quality and 
fish habitat. Finally, we urge congress to advise the agency to undergo 
a comprehensive review of Government Accounting Office and Office of 
Inspector General recommendations on maintaining an evolving and 
effective accounting program based on accurate data collection, storage 
and reporting in order to increase USFS budget and project 
transparency.

                          U.S. CLIMATE RESERVE

    According to the USFS, we are losing the equivalent of two Rhode 
Island's worth of open space a year. Some of this occurs on public 
lands. Our diminishing old-growth and mature forests need to be viewed 
as a national treasure of carbon storage. The U.S. Climate Reserve 
needs to be nurtured and enhanced, both as a carbon sink and as a 
storehouse of other ecosystem services on which we rely. But we need to 
provide incentives for private landowners as well, because 60 percent 
of our Nation's forests are privately owned. If we are to mitigate the 
threat of climate change, we need to recognize the public service 
provided by every private landowner who is willing to protect his 
forest from development, require sustainable practices when harvesting, 
and protect watersheds with replanting and riparian buffer zones. From 
wilderness designation to wetland banking, we need a truly national 
strategy to stop the galloping destruction of our existing carbon 
stocks that begins with the recognition that our forests are weapons in 
the fight against global warming and should be protected.
                                 ______
                                 
 Prepared Statement of The Wilderness Society and Washington Watershed 
                         Restoration Initiative

    The Wilderness Society and the Washington Watershed Restoration 
Initiative strongly support funding for the Forest Service Legacy Roads 
and Trails Remediation Program, for which we are requesting a $100 
million appropriation in fiscal year 2010.
    One of the most serious environmental and fiscal problems facing 
the USDA Forest Service (USFS) is the deterioration of the vastly 
overbuilt, 380,000-mile road system on the national forests. The USFS's 
crumbling road system is causing serious damage to streams, fish 
habitat, and water supplies and is making recreational access to trails 
and campgrounds increasingly difficult for millions of Americans. The 
agency is also facing a $10 billion backlog of road maintenance and 
remediation needs that grows larger every year. As winter rain storms 
and peak stream flows intensify due to global warming, the ecological 
damage and financial costs of the USFS's road system are certain to 
grow.
    Fortunately, Congress decided to do something about the problem by 
creating the Legacy Roads and Trails Remediation Program in the fiscal 
year 2008 appropriations act. The Legacy Roads Program began with a $40 
million appropriation to fix deteriorating USFS roads and trails. With 
that initial funding, the USFS accomplished the following activities:
  --1,533 miles of system roads maintained;
  --180 miles of authorized roads decommissioned;
  --351 miles of unauthorized roads decommissioned;
  --6 bridges or major culverts decommissioned;
  --631 miles of system roads improved;
  --11 bridges or major culverts repaired or replaced; and
  --22 miles of system trails improved.
    Many national forests have greatly benefited from the Legacy Roads 
funding, especially in the Pacific Northwest.
    Congress recently boosted funding for the Legacy Roads Program to 
$50 million in the fiscal year 2009 Omnibus Appropriations Act. In 
addition, the American Recovery and Reinvestment Act (ARRA) included 
$650 million for USFS road and trail maintenance and decommissioning 
and other capital improvement projects. We have urged the USFS to spend 
$100 million of that amount on trails and $280 million on 
decommissioning unneeded forest roads and fixing needed roads. We are 
also encouraged that the President's budget for fiscal year 2010 
includes $50 million for Legacy Roads.
    The Legacy Roads Program is an excellent way to stimulate 
employment in rural communities, as well as improve fish and wildlife 
habitat, recreational opportunities, and clean water for numerous 
communities. Our preliminary analysis of total economic impacts in 
Montana and Idaho indicates that each $1 million spent on road 
decommissioning activities in those States generates about 22 jobs, 
$500,000 in wages, and $250,000 in business income.
    The Wilderness Society, the Washington Watershed Restoration 
Initiative, and numerous other organizations across the Nation are very 
pleased to see a steady and increasing flow of Federal funding for the 
Legacy Roads Program. This funding stream provides an opportunity to 
make serious headway on ``right-sizing'' the USFS's hugely overbuilt 
380,000-mile road system. We believe that in fiscal year 2010 the USFS 
should use Legacy Roads Program funds to (1) complete road analysis and 
identify road remediation needs, (2) work collaboratively in 
prioritized watersheds, and (3) focus on decommissioning unneeded 
roads.

                    FISCAL YEAR 2010 RECOMMENDATIONS

    Following are recommendations developed by The Wilderness Society 
and the Washington Watershed Restoration Initiative, based largely on 
our initial evaluation of the Legacy Roads Program's first year of 
implementation.
    Funding Level.--We recommend an appropriation of $100 million for 
the Legacy Roads and Trails Remediation Program in fiscal year 2010. We 
believe that expanding the program and sustaining it for several years 
will allow the USFS to correct the most urgent problems and to develop 
long-term plans for dealing with the rest of the road system. Increased 
funding to right-size and improve the forest road system is essential 
to combating the impacts of climate change and ensuring the survival of 
salmon, steelhead, and many other species in the national forests.
    Integration with ARRA.--We also recommend that you consider ways of 
integrating fiscal year 2010 Legacy Roads funds with ARRA funds. The 
ARRA is creating thousands of jobs in the private sector by providing 
funds for the USFS to implement ``shovel-ready'' projects such as 
forest road maintenance and decommissioning. However, the USFS is not 
using ARRA funds to conduct the road analysis, NEPA planning, and 
design work that are necessary to build a ``pipe-line'' of future 
projects. Some funds for that essential staff planning work could come 
from the Legacy Roads Program, especially in fiscal year 2010 and 2011 
when ARRA funds are available for project implementation.
    Roads Analysis.--As discussed previously, the USFS needs to get 
serious about completing comprehensive roads analysis, including the 
level 1 and 2 roads that have generally been overlooked and neglected 
to date. Level 1 and 2 roads have not only been overlooked in planning 
but also have been given short shrift in maintenance, leaving these 
routes the most degraded and the most damaging to watersheds. We are 
glad that the conference report for the fiscal year 2009 Omnibus 
Appropriations Act included direction to the USFS to use existing 
regulatory authorities to evaluate its entire transportation system and 
identify unneeded roads. The 2001 roads policy provides all the 
necessary authority and procedural guidelines to the USFS; what the 
agency needs now is funding and continued direction from Congress and 
the administration to implement it. Therefore, we recommend that the 
fiscal year 2010 appropriations bill specify that Legacy Roads funds 
can and should be used to complete roads analysis, including 
identification of the minimum road system needed on each forest and a 
list of priorities for road decommissioning.
    Right-sizing vs. Downgrading the Road System.--Funding provided by 
both the Legacy Roads Program and the ARRA should allow the USFS to re-
evaluate the entire road system in an effort to right-size it. In 
recent years, rather than eliminating unneeded roads, the USFS's 
strategy has been to ``shrink'' the system by downgrading the 
maintenance level categories of the roads. For example, in the Pacific 
Northwest, the USFS has cut in half the size of the road system that is 
maintained for passenger cars during the past two decades, while total 
road mileage has remained nearly constant at about 92,000 miles. This 
cost-cutting approach completely fails to address the ecological 
impacts of poorly maintained roads and will result in increased 
mitigation costs over the long term as under-maintained level 1 and 2 
roads are more likely to fail in the future. The USFS needs a new, 
environmentally responsible strategy to restore forest watersheds and 
create healthy, resilient ecosystems by reclaiming and storm-proofing 
roads.
    Stability.--Because it is so new, the USFS regarded the Legacy 
Roads Program as a special add-on to its regularly funded programs. 
Hopefully, that view will change if Legacy Roads funding is repeatedly 
included in the President's budget and in congressional appropriations. 
Agency managers need consistent, sustained funding in order to add the 
necessary staff for the program to be efficiently implemented. We are 
also interested in exploring other ways in which Congress can provide 
greater stability to the program, such as the following:
  --Amend the forest roads section of the highway bill to allow gas tax 
        funds to be used for USFS road remediation. The WWRI and a 
        national coalition with more than 100 supporters have requested 
        that a new ``Forest Roads Reclamation and Remediation Program'' 
        be added to the bill and funded at $200 million annually.
  --Enact the FLAME bill in order to end the disruptive and 
        destabilizing practice of ``fire-borrowing.''
  --Enact new legislation that includes an authorization of 
        appropriations for road decommissioning.
    Monitoring.--The Legacy Roads Program should include adequate funds 
and direction to the USFS for environmental monitoring and reporting. 
Monitoring and evaluation are crucial not only to identify where roads 
are causing continued harm to aquatic resources but also to: (1) 
document and guide the proper execution of projects; (2) evaluate 
whether the intended environmental benefits actually are being 
realized; (3) document economic benefits and job creation/maintenance 
through Legacy Roads work; and (4) ensure that successful techniques 
are used. Monitoring and evaluation reports are needed to provide 
accountability for taxpayer investments, and the cost is low relative 
to project work--roughly 2 percent of funding for road-related projects 
should suffice. Funding should be equally divided between project 
implementation monitoring by forest staff, and ecological and economic 
effectiveness monitoring by the USFS research scientists. The agency 
can also consider contracting with independent, third-party entities 
like universities to implement monitoring programs.
    Best Value Contracting.--Road remediation work is typically 
performed by heavy equipment operators and other skilled contractors. 
Ideally, the contractors should have extensive experience with this 
type of work and possess the technical and practical know-how to handle 
unforeseen problems as they arise. One way to help ensure good results 
on the ground is to encourage the Forest Service to use ``best value'' 
contracting criteria, such as past performance and technical ability in 
selecting Legacy Roads contractors, rather than automatically picking 
the lowest bidder.
    In conclusion, The Wilderness Society and the Washington Watershed 
Restoration Initiative commend Congress for creating the Legacy Roads 
and Trails Remediation Program. We strongly encourage you to continue 
and expand the Legacy Roads Program in the USFS's fiscal year 2010 
budget.
                                 ______
                                 
                Prepared Statement of the USGS Coalition

                                SUMMARY

    The USGS Coalition (Coalition) appreciates the opportunity to 
testify in support of increased appropriations for the United States 
Geological Survey (USGS) for fiscal year 2010. We continue to believe 
that the USGS budget is substantially below the amount required to 
ensure the long-term vitality of the agency. The USGS Coalition urges 
Congress to increase the budget of the USGS to at least $1.3 billion in 
fiscal year 2010.
    The USGS Coalition is an alliance of more than 70 organizations 
united by a commitment to the continued vitality of the unique 
combination of biological, geographical, geological, and hydrological 
programs of the USGS. The Coalition supports increased Federal 
investment in USGS programs that underpin responsible natural resource 
stewardship, improve resilience to natural and human-induced hazards, 
and contribute to the long-term health, security, and prosperity of the 
Nation.
    The USGS plays a crucial role in protecting the public from natural 
hazards such as floods and earthquakes, assessing water quality, 
providing emergency responders with geospatial data to improve homeland 
security, analyzing the strategic and economic implications of mineral 
supply and demand, and providing the science needed to manage our 
natural resources and combat invasive species that can threaten 
agriculture and public health. The USGS is working in every State and 
has nearly 400 offices across the country. To aid in its 
interdisciplinary investigations, the USGS works with more than 2,000 
Federal, State, local, tribal, and private organizations.

                           FUNDING SHORTFALL

    The USGS budget declined in real dollars for 6 consecutive years 
from fiscal year 2003 to fiscal year 2008 (see Figure 1). In real 
terms, funding for the USGS is at its lowest level since fiscal year 
1997, the year after the National Biological Service was integrated 
into the USGS. The decline in funding for the USGS during this time 
period would have been greater if Congress had not repeatedly restored 
proposed budget cuts. In contrast, total Federal funding for research 
and development has increased substantially in real terms since fiscal 
year 1997. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The USGS is uniquely positioned to address many of the Nation's 
greatest challenges, including energy independence, climate change, 
water quality, conservation of biological diversity, and natural 
hazards. The need for USGS science in these and other areas has 
increased dramatically as its budget has declined in real dollars.
    Ongoing volcanic activity at Alaska's Mount Redoubt, 106 miles 
southwest of Anchorage, illustrates the value of robust volcano 
monitoring systems and the need for increased Federal investments in 
the USGS. Mount Redoubt volcano erupted on March 22, 2009 and explosive 
events have sent volcanic ash more than 50,000 feet into the air. 
Approximately 20,000 passengers per day travel through the airspace 
affected by the volcano. The USGS provided advance warning of this 
explosive volcanism. Interior Secretary Ken Salazar said the USGS was 
``able to actually forecast this event to prevent the endangerment of 
people and places that would otherwise have occurred.'' When Redoubt 
volcano erupted in 1989, a Boeing 747 passenger plane flew through a 
cloud of volcanic ash and lost power to all four engines. After 
plummeting more than 14,000 feet, the crew restarted the engines and 
safely landed the plane. The volcanic ash caused more than $80 million 
in damage to the plane but no lives were lost.
    Ongoing floods in North Dakota and surrounding areas led President 
Obama to sign a Major Disaster Declaration for North Dakota on March 
24, 2009 and a fourth amendment was issued on May 13, 2009. Flood 
waters crested at 34 feet in Fargo and exceeded record levels in some 
areas. Stream gage networks operated by the USGS are essential for 
issuing flood warnings.
    Natural hazards have negatively affected numerous communities 
across the country and around the globe over the past several years. 
Forest fires burned a total of 9,321,326 acres of land in the United 
States in 2007. These fires are not limited to Western States. Virginia 
experienced a 16 percent rise in wildfires. An earthquake generated a 
tsunami that caused approximately 230,000 fatalities near the Indian 
Ocean in 2004. These and other events have inspired a greater awareness 
and appreciation of the need to improve environmental monitoring, 
forecasting, and warning systems that can prevent natural hazards from 
becoming natural disasters.
    Providing the information necessary to mitigate the impacts of 
natural disasters is a core function of the USGS. The USGS monitors 
volcanoes and provides warnings about impending eruptions. It operates 
seismic networks and conducts seismic hazard analyses that are used to 
formulate earthquake probabilities and to establish building codes 
across the Nation. Data from the USGS network of stream gages enables 
the National Weather Service to issue flood warnings. The USGS and its 
Federal partners monitor seasonal wildfires, provide maps of current 
fire locations and the potential spread of fires. Research on ecosystem 
structure and function assists forest and rangeland managers with 
forecasting fire risk and managing natural systems following fires. The 
USGS plays a pivotal role in reducing risks from floods, wildfires, 
earthquakes, tsunamis, volcanic eruptions, landslides, and other 
natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year.
    USGS assessments of energy resources--including emerging energy 
resources and geothermal resources--are essential for making informed 
decisions about the Nation's energy future. Research conducted by the 
USGS is also vital to understanding and predicting the impacts of 
climate change on our Nation's coastal cities, water resources, 
ecosystems, and wildlife. The USGS is also developing new methods to 
assess the Nation's potential for storing carbon dioxide that could 
lead to techniques for lessening the impacts of climate change.
    Equally important, the USGS plays a critical role in bioinformatics 
and managing natural resources, activities that are essential to our 
economy, security, and environment. Baseline data about our Nation's 
biology and how it is changing is needed to understand and address 
climate change. The USGS provides fundamental scientific data that 
informs management of natural resources (e.g., data for Fish and 
Wildlife Service on polar bear populations), control of invasive 
species (e.g., snakehead fish, zebra mussels, and tamarisk), and 
monitoring of wildlife diseases (e.g., Highly Pathogenic Avian Flu, 
Chronic Wasting Disease) that can cause billions of dollars in 
agricultural losses.
    USGS research that spans the biological, geological, geographical, 
and hydrological sciences is essential for understanding potential 
impacts that could result from global climate change or from land 
management practices. These studies provide critical information for 
resource managers as they develop adaptive management strategies for 
restoration and long-term use of the Nation's natural resources.
    Greater investment in the USGS is required. This investment could 
be used to strengthen USGS partnerships, improve monitoring networks, 
produce high-quality, digital, geospatial data and deliver the best 
possible science to address societal problems and inform 
decisionmakers.

                          USGS BUDGET REQUEST

    President Obama's fiscal year 2010 budget request for the USGS is 
$1.098 billion, an increase of $54 million, or 5.2 percent, more than 
the level in the fiscal year 2009 Omnibus Appropriations Act. The USGS 
budget request would provide increased funding for secretarial 
initiatives in climate change ($22 million), energy ($3 million) and 
youth conservation corps ($2 million). Budget increases are also 
proposed for the national stream gage network ($5 million), arctic 
ecosystem studies ($4 million), staffing for biology cooperative 
research units ($2 million), extended continental shelf studies ($1 
million), and sustainable energy development ($0.7 million). The budget 
request would provide full funding for increases in ``fixed costs'' 
totaling $21 million. The proposed increases in the USGS budget deserve 
the support of Congress.
    The coalition urges Congress to increase the USGS budget to at 
least $1.3 billion in fiscal year 2010, which is necessary for the 
agency to continue providing critical information to the public and to 
decisionmakers at all levels of government. The budget increase 
recommended by the Coalition would enable the USGS to address the 
growing backlog of science needs that has resulted from stagnant real 
budgets for more than a decade, accelerate the timetable for deployment 
of critical projects, and launch science initiatives that address new 
challenges.
    The fiscal year 2010 budget recommended by the USGS Coalition would 
enable the USGS to meet the tremendous need for science in support of 
public policy decisionmaking. More investment is needed to strengthen 
USGS partnerships, improve monitoring networks, implement important 
bioinformatics programs, produce high-quality digital geospatial data, 
and deliver the best possible science to address societally important 
problems. The USGS has a national mission that directly affects all 
citizens through natural hazards monitoring, water resource studies, 
biological and geological resource assessments, and other activities.
    The USGS Coalition is grateful to the Senate Interior, Environment, 
and Related Agencies Appropriations Subcommittee for its leadership in 
restoring past budget cuts and strengthening the USGS . We are also 
grateful to the subcommittee for its leadership in providing $140 
million in stimulus funds for the USGS under the ARRA. Thank you for 
your thoughtful consideration of our request.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College

    For 40 years, United Tribes Technical College (UTTC) has provided 
postsecondary career and technical education, job training, and family 
services to some of the most impoverished Indian students from 
throughout the Nation. We are governed by the five tribes located 
wholly or in part in North Dakota. We have consistently had excellent 
results, placing Indian people in good jobs and reducing welfare rolls. 
Bureau of Indian Education (BIE) funds constitute about half of our 
operating budget and provide for our core instructional programs. These 
funds are authorized under title V of the Tribally Controlled Colleges 
and Universities Act. We do not have a tax base or State-appropriated 
funds on which to rely.
    We thank the House and Senate Interior Subcommittees and our 
congressional delegation--Representative Pomeroy, Senator Dorgan and 
Senator Conrad for their support, especially during the Bush 
administration budget submissions which consistently tried to zero out 
our BIE funding. We are very pleased that the Obama administration 
intends to ask for BIE funding for UTTC.
    The requests of the UTTC board for the fiscal year 2009 BIE/Bureau 
of Indian Affairs (BIA) budget are:
  --$5.5 million in BIE funds for UTTC, which is $1.5 million more than 
        the fiscal year 2009 level.
  --$5 million toward the $10.9 million needed for a new math and 
        technology building on our south campus.
  --$3.5 million toward the $36 million needed for a planned Northern 
        Plains Tribal Law Enforcement Resource and Training Center 
        located at UTTC.
  --A requirement that the BIA/BIE place more emphasis on funding and 
        administrative support for job training and vocational/
        technical education. The administration's fiscal year 2009 
        request for Job Placement and Training was $8,864,000 with an 
        additional $2,011,604 under TPA adult education for a total of 
        $10.9 million. We appreciate that Congress included funding in 
        the Recovery Act for BIA workforce training, although we don't 
        know at this time how the $40 million will be allocated between 
        workforce training and the Housing Improvement Program. In any 
        event, the fiscal year 2009 amount will be far less than the 
        fiscal year 1970 appropriation of $60 million for this program. 
        There is little BIA/BIE leadership or advocacy for job training 
        or vocational/technical education at the central or regional 
        office levels.
    Law Enforcement Training.--We thank Congress for its support for us 
obtaining a Memorandum of Understanding (MOU)with the BIA and the 
American Indian Higher Education Consortium that would establish a 
partnership so that we and other tribal colleges can better help fill 
the need for trained law enforcement and correctional officials in 
Indian country. This MOU was signed in May 2008. To that end, we are 
working toward establishment of a Northern Plains Law Enforcement 
Training Center located at UTTC which would provide basic and extended 
training for law enforcement officers for tribes and the BIA. We have 
identified a total budget of $36 million for construction of the 
facility with all necessary training components, but at this time are 
requesting $3.5 million for infrastructure and initial work.
    The need for more law enforcement officers in Indian country is 
staggering. The 2006 BIA gap analysis estimated that it would require 
$560 million to hire, train and equip the more than 1,800 additional 
BIA and tribal police officers needed to adequately police Indian 
lands. The BIA criminal investigations program provides funding to hire 
and training offices, but their fiscal year 2009 funding was only $163 
million. This is an area in which UTTC, with its long history of an 
accredited criminal justice program, could really make a positive 
difference.
    Math and Technology Building on new South Campus.--The bulk of our 
current educational training and student housing is provided in 100-
year-old buildings, part of a former military base used by UTTC since 
its founding in 1969 and donated to us by the United States in 1973. 
They are expensive to maintain, do not meet modern construction and 
electrical code requirements, are mostly not ADA compliant, and cannot 
be retrofitted to be energy efficient.
    As a result, UTTC has developed plans for serving more students in 
new facilities that will provide training and services to meet future 
needs. We are now developing land purchased with a donation that will 
become our south campus. Infrastructure for one-fourth of the new 
campus has been completed, and we have now obtained partial funds for a 
new, and badly needed, science, math and technology building. We as 
asking for $5 million of the $10.9 million still needed to complete 
this building. We have already acquired $3 million toward the total 
cost. Our vision for the south campus is to serve up to 5,000 students. 
Funding for the project will come from Federal, State, tribal, and 
private sources.
    There are important things we would like you to know about our 
college:
    Our Students.--Our students are from Indian reservations from 
throughout the Nation, with a significant portion of them being from 
the Great Plains area. Our students have had to make a real effort to 
attend college; they come from impoverished backgrounds or broken 
families. They may be overcoming extremely difficult personal 
circumstances as single parents. They often lack the resources, both 
culturally and financially, to go to other mainstream institutions. 
Through a variety of sources, including funds from the BIE, UTTC 
provides a set of family and culturally based campus services, 
including: an elementary school for the children of students, housing, 
day care, a health clinic, a wellness center, several on-campus job 
programs, student government, counseling, services relating to drug and 
alcohol abuse and job placement programs.
    UTTC Performance Indicators.--UTTC has:
  --An 80 percent retention rate.
  --A placement rate of 94 percent (job placement and going on to 4-
        year institutions).
  --A projected return on Federal investment of 20-to-1 (2005 study 
        comparing the projected earnings generated over a 28-year 
        period of UTTC associate of applied science and bachelor degree 
        graduates of June 2005 with the cost of educating them).
  --The highest level of accreditation. The North Central Association 
        of Colleges and Schools has accredited UTTC again in 2001 for 
        the longest period of time allowable--10 years or until 2011--
        and with no stipulations. We are also one of only two tribal 
        colleges accredited to offer accredited on-line (Internet-
        based) associate degrees.
  --More than 20 percent of graduates go on to 4-year or advanced 
        degree institutions.
    We also note the January 13, 2009, report of the Department of 
Education's Office of Vocational and Adult Education on its recent site 
visit to UTTC (October 7-9, 2008). While some suggestions for 
improvements were made, the Department commended UTTC in many areas--
for efforts to improve student retention; the breadth of course 
offerings; collaboration with 4-year institutions; expansion of online 
degree programs; unqualified opinions on both financial statements and 
compliance in all major programs; clean audits; and use of the proposed 
measurement definitions in establishing institutional performance 
goals.
    The demand for our services is growing and we are serving more 
students. For the 2008-2009 year we enrolled 1,023 students (an 
unduplicated count), nearly four times the number served just 6 years 
ago. Most of our students are from the Great Plains, where the Indian 
reservations have a jobless rate of 76 percent, along with increasing 
populations. These statistics dramatically demonstrate the need for our 
services at increased levels for at least the next 10 years.
    In addition, we are serving 141 students during school year 2008-
2009 in our Theodore Jamerson Elementary school and 202 children, birth 
to 5, are being served in our child development centers. We are proud 
to report that this school has achieved adequate yearly progress 
status.
    UTTC Course Offerings and Partnerships With Other Educational 
Institutions.--We offer accredited vocational/technical programs that 
lead to 17 2-year degrees (Associate of Applied Science (AAS)) and 11 
1-year certificates, as well as a 4-year degree in elementary education 
in cooperation with Sinte Gleska University in South Dakota.
    Licensed Practical Nursing.--This program has one of the highest 
enrollments at UTTC and results in the greatest demand for our 
graduates. Our students have the ability to transfer their UTTC credits 
to the North Dakota higher educational system to pursue a 4-year 
nursing degree.
    Medical Transcription and Coding Certificate Program.--This program 
provides training in transcribing medical records into properly coded 
digital documents. It is offered through the college's Exact Med 
Training Program and is supported by Department of Labor funds.
    Tribal Environmental Science.--Our Tribal Environmental Science 
program is supported by a National Science Foundation Tribal College 
and Universities Program grant. This 5-year project allows students to 
obtain a 2-year AAS degree in Tribal Environmental Science.
    Community Health/Injury Prevention/Public Health.--Through our 
Community Health/Injury Prevention Program we are addressing the injury 
death rate among Indians, which is 2.8 times that of the U.S. 
population, the leading cause of death among Native Americans ages 1-
44, and the third leading cause of death overall. This program has in 
the past been supported by the Indian Health Service, and is the only 
degree-granting injury prevention program in the Nation. Given the 
overwhelming health needs of Native Americans, we continue to seek new 
resources to increase training opportunities for public health 
professionals.
    Online Education.--Our online education courses provide increased 
opportunities for education by providing Web-based courses to American 
Indians at remote sites as well as to students on our campus. These 
courses provide needed scheduling flexibility, especially for students 
with young children. They allow students to access quality, tribally 
focused education without leaving home or present employment. However, 
we also note the lack of on-line opportunities for Native Americans in 
both urban and rural settings, and encourage the Congress to devote 
more resources in this area.
    We offer online fully accredited degree programs in the areas of 
Early Childhood Education, Community Health/Injury Prevention, Health 
Information Technology, Nutrition and Food Service and Elementary 
Education. More than 80 courses are currently offered online, including 
those in the medical transcription and coding program. We presently 
have 50 online students in various courses and 137 online students in 
the medical transcription program.
    Criminal Justice.--Our criminal justice program leads many students 
to a career in law enforcement. Students are required to learn the 
basics of law enforcement procedures, and we now have on campus a 
career BIA law enforcement officer who is helping improve our program.
    Computer Information Technology.--This program is at maximum 
student capacity because of limitations on resources for computer 
instruction. In order to keep up with student demand and the latest 
technology, we need more classrooms, equipment and instructors. We 
provide all of the Microsoft Systems certifications that translate into 
higher income earning potential for graduates.
    Nutrition and Food Services.--We help meet the challenge of 
fighting diabetes and other health problems in Indian Country through 
education and research. Indians and Alaska Natives have a 
disproportionately high rate of type 2 diabetes, and have a diabetes 
mortality rate that is 3 times higher than the U.S. population. The 
increase in diabetes among Indians and Alaska Natives is most prevalent 
among persons aged 25-34, with a 160 percent increase from 1990-2004. 
Our research about native foods is helping us learn how to reduce the 
high levels of diseases in our communities.
    As a 1994 Tribal Land Grant institution, we offer a nutrition and 
food services AAS degree in order to increase the number of Indians 
with expertise in nutrition and dietetics. There are few Indian 
professionals in the country with training in these areas. Our degree 
places a strong emphasis on diabetes education, traditional food 
preparation, and food safety. We have also established a Diabetes 
Education Center that assists local tribal communities, our students 
and staff to decrease the prevalence of diabetes by providing food 
guides, educational programs, training and materials.
    Business Management/Tribal Management.--Another critical program 
for Indian country is business and tribal management. This program is 
designed to help tribal leaders be more effective administrators and 
entrepreneurs. As with all our programs, curriculum is constantly being 
updated.
    Job Training and Economic Development.--UTTC continues to provide 
economic development opportunities for many tribes. We are a designated 
Minority Business Development Center serving South and North Dakota. We 
administer a Workforce Investment Act program and an internship program 
with private employers in the region.
    Our BIE and Perkins funds provide for nearly all of our core 
postsecondary educational programs. Very little of the other funds we 
receive be used for core career and technical educational programs; 
they are competitive, often one-time supplemental funds which help us 
provide the services our students need to be successful. We cannot 
continue operating without BIE funds. Thank you for your consideration 
of our requests.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Alexander, Senator Lamar, U.S. Senator From Tennessee:
    Questions Submitted by.......................................   102
    Statement of..............................................2, 39, 64
Alliance:
    For Community Trees, Letter From the.........................   108
    To Save Energy, Letter From the..............................   131
American:
    Association of Petroleum Geologists, Prepared Statement of 
      the........................................................   106
    Council for an Energy-Efficient Economy, Letter From the.....   131
    Forest Foundation, Letter From the...........................   108
    Indian Higher Education Consortium, Prepared Statement of the   115
    Institute of Biological Sciences, Prepared Statement of the..   113
    Public Power Association, Prepared Statement of the..........   123
    Rivers, Prepared Statement of the............................   124
    Society:
        For Microbiology, Prepared Statement of the..............   134
        Of Agronomy, Prepared Statement of the...................   127
Americans for the Arts, Prepared Statement of the................   109
Amigos de la Sevilleta, Prepared Statement of the................   120
Animal Welfare Institute, Prepared Statement of the..............   139
Appalachian:
    Mountain Club, Prepared Statement of the.....................   118
    Trail Conservancy, Prepared Statement of the.................   136
Association of:
    Fish and Wildlife Agencies, Prepared Statement of the........   112
    Performing Arts Presenters, Prepared Statement of the........   121
    State Drinking Water Administrators, Letter From the.........   130

Beartooth Alliance, Prepared Statement of the....................   142
Biomass Energy Research Association, Prepared Statement of the...   145
Bird Conservation Funding Coalition, Letter From the.............   143
Buena Vista Water Storage District, Prepared Statement of the....   252
Byrd, Senator Robert C., U.S. Senator From West Virginia, 
  Questions Submitted by.........................................    29

Center for Plant Conservation, Prepared Statement of the.........   155
Central Arizona Water Conservation District, Prepared Statement 
  of the.........................................................   150
Children's Environmental Health Network, Prepared Statement of 
  the............................................................   152
Chugach Regional Resources Commission, Prepared Statement of the.   163
City of:
    Chicago Department of Streets and Sanitation, Bureau of 
      Forestry, Letter From the..................................   108
    Milwaukee Department of Public Works, Forestry Division, 
      Letter From the............................................   108
Civil War Preservation Trust, Prepared Statement of the..........   172
Close Up Foundation, Prepared Statement of the...................   170
Cochran, Senator Thad, U.S. Senator From Mississippi, Question 
  Submitted by..................................................33, 103
Collins, Senator Susan, U.S. Senator From Maine, Questions 
  Submitted by..................................................34, 104
Colorado River:
    Basin Salinity Control Forum, Prepared Statement of the......   158
    Board of California, Prepared Statement of the...............   157
Columbia River Inter-Tribal Fish Commission, Prepared Statement 
  of the.........................................................   160
Confederated Tribes of:
    Siletz Indians, Prepared Statement of the....................   165
    The Warm Springs Reservation of Oregon, Prepared Statement of 
      the........................................................   168
Cooperative Alliance for Refuge Enhancement, Prepared Statement 
  of the.........................................................   148

Doris Day Animal League, Prepared Statement of the...............   232
Davey Institute, Letter From the.................................   108
Defenders of Wildlife, Prepared Statement of.....................   175
``Ding'' Darling Wildlife Society, Prepared Statement of the.....   178
Dorgan, Senator Byron L., U.S. Senator From North Dakota, 
  Questions Submitted by.........................................    99
Dzilth-Na-O-Dith-Hle Community Grant School of the Navajo Nation, 
  Prepared Statement of the......................................   179

Eastern Forest Partnership, Prepared Statement of the............   187
1854 Treaty Authority, Prepared Statement of the.................   105
Emissions Control Technology Association, Prepared Statement of 
  the............................................................   184
Endangered Species Coalition, Prepared Statement of the..........   189
Enewetak/Ujelang Local Government, Prepared Statement of the.....   194
Environmental:
    And Energy Study Institute, Letter From the..................   131
    Council of the States, Prepared Statement of the.............   182
    Service Research Institute, Prepared Statement of the........   191
Evansville Audubon Society, Prepared Statement of the............   181

Feinstein, Senator Dianne, U.S. Senator From California:
    Opening Statement of......................................1, 37, 63
    Prepared Statement of........................................    38
    Questions Submitted by.......................................25, 56
Fond du Lac Band of Lake Superior Chippewa, Prepared Statement of 
  the............................................................   196
Friends of:
    Alaska National Wildlife Refuges, Prepared Statement of the..   198
    Back Bay, Prepared Statement of the..........................   201
    Blackwater National Wildlife Refuge, Prepared Statement of 
      the........................................................   202
    Congaree Swamp, Prepared Statement of the....................   204
    Rachel Carson NWR, Prepared Statement of the.................   205
    Virgin Islands National Park, Prepared Statement of the......   213
    Wallkill River National Wildlife Refuges, Prepared Statement 
      of the.....................................................   209
    Wertheim National Wildlife Refuge, Prepared Statement of the.   208
    The:
        Columbia Gorge, Prepared Statement of....................   207
        Patoka River National Wildlife Refuge, Prepared Statement 
          of the.................................................   181
        Prairie Learning Center, Prepared Statement of the.......   302

Gathering Waters Conservancy, Prepared Statement of the..........   229
Geological Society of America, Prepared Statement of the.........   224
Georgia River Network, Prepared Statement of the.................   222
Greasewood Springs Community School Board, Prepared Statement of 
  the............................................................   226
Great Lakes:
    Geologic Mapping Coalition, Prepared Statement of the........   215
    Indian Fish and Wildlife Commission, Prepared Statement of 
      the........................................................   218
Green:
    Buildings Initiative, Letter From the........................   131
    Mountain Club, Prepared Statement of the.....................   221
Gregg, Senator Judd, U.S. Senator From New Hampshire, Question 
  Submitted by...................................................    61

Highlands Coalition, Prepared Statement of the...................   230
Hoosier Environmental Council, Prepared Statement of the.........   181
Humane Society Legislative Fund, Prepared Statement of the.......   232

Independent:
    Oil Producers Association, Prepared Statement of the.........   252
    Tribal Courts Review Team, Prepared Statement of the.........   242
Indiana:
    Division Izaak Walton League, Prepared Statement of the......   181
    InterTribal Bison Cooperative, Prepared Statement of the.....   237
    Wildlife Federation, Prepared Statement of the...............   181
International Maple Syrup Institute, Letter From the.............   108
Interstate Mining Compact Commission, Prepared Statement of the..   234
InterTribal Bison Cooperative, Prepared Statement of the.........   237
Intertribal Timber Council, Prepared Statement of the............   240
Izaak Walton League of America, Prepared Statement of the........   245

Jackson, Lisa P., Administrator, Environmental Protection Agency.     1
    Prepared Statement of........................................     6
    Summary Statement of.........................................     4
Jamestown S'Klallam Tribe, Prepared Statement of the.............   249
John K. Moore, Prepared Statement of.............................   247
Johnson Controls, Inc., Letter From..............................   131

Kern County Valley Floor Habitat Conservation Plan Industry and 
  Government, Prepared Statement of the..........................   252
Keweenaw Land Trust, Prepared Statement of the...................   254
Kimbell, Abigail, Chief, Forest Service, Department of 
  Agriculture....................................................    37
    Prepared Statement of........................................    48
    Summary Statement of.........................................    39
Knox County Quail Unlimited, Prepared Statement of...............   181

Lac du Flambeau Band of Lake Superior Chippewa Indians, Prepared 
  Statement of the...............................................   257
League of American Orchestras, Prepared Statement of the.........   255
Leech Lake Area Watershed Foundation, Prepared Statement of the..   262
Little River Band of Ottawa Indians, Prepared Statement of the...   264
Lummi Indian Business Council, Prepared Statement of the.........   259

Marine Conservation Biology Institute, Prepared Statement of the.   265

National:
    Association of:
        Clean Air Agencies, Prepared Statement of the............   267
        Forest Service Retirees, Prepared Statement of the.......   270
        State:
            Energy:
                Offices, Letter From the.........................   131
                Officials, Prepared Statement of the.............   273
            Foresters, Letter From the...........................   108
    Conference of State Historic Preservation Officers, Prepared 
      Statement of the...........................................   276
    Environmental Services Center, Prepared Statement of the.....   279
    Fish and Wildlife Foundation, Prepared Statement of the......   282
    Humanities Alliance, Prepared Statement of the...............   284
    Institutes for Water Resources, Prepared Statement of the....   290
    Mining Association, Prepared Statement of the................   293
    Recreation and Park Association, Prepared Statement of the...   300
    Wildlife:
        Federation, Prepared Statement of the....................   303
        Refuge Association, Prepared Statement of the............   306
Natural Biodiversity, Letter From the............................   108
Nelson, Senator Ben, U.S. Senator From Nebraska, Questions 
  Submitted by..................................................31, 101
New Mexico:
    Game and Fish Commission, Prepared Statement of the..........   295
    Interstate Stream Commission, Prepared Statement of the......   296
    Wildlife Federation, Prepared Statement of the...............   298
New York State Department of Environmental Conservation, Letter 
  From the.......................................................   108
North American:
    Insulation Manufacturers Association, Letter From the........   131
    Maple Syrup Council, Inc., Letter From the...................   108
Northern Forest Alliance, Prepared Statement of the..............   280
Northwest Indian Fisheries Commission, Prepared Statement of the.   287

Occidental of Elk Hills, Inc., Prepared Statement of the.........   252

Pacific Salmon Commission, Prepared Statement of the.............   317
Partnership for:
    Saving Threatened Forests, Letter From the...................   108
    The National Trails System, Prepared Statement of the........   312
Passamaquoddy Tribe, Prepared Statement of the...................   319
Pelican Island Preservation Society, Prepared Statement of the...   311
Performing Arts Alliance, Prepared Statement of the..............   308
Pike Gibson Citizens for a Quality Environment, Prepared 
  Statement of the...............................................   181
Porcupine School, Prepared Statement of the......................   316
Public Trust Environmental Legal Institute of Florida, Inc., 
  Prepared Statement of the......................................   320
Purdue University, Department of Entomology, Letter From the.....   108
Puyallup Tribe of Indians, Prepared Statement of the.............   322

Quinault Indian Nation, Prepared Statement of the................   325

Ramah Navajo School Board, Inc., Prepared Statement of the.......   329
Rivers and Trails Coalition, Prepared Statement of the...........   331
Robert Benavides, Governor, Pueblo of Isleta, Prepared Statement 
  of.............................................................   327

Salazar, Hon. Ken, Secretary, Office of the Secretary, Department 
  of the Interior................................................    63
    Statement of.................................................
          .......................................................
    Summary Statement of.........................................    65
Sevilleta National Wildlife Refuge, Prepared Statement of the....   336
Society of Municipal Arborists, Letter From the..................   108
Squaxin Island Tribe, Prepared Statement of the..................   334

Tester, Senator Jon, U.S. Senator From Montana:
    Questions Submitted by.......................................   101
    Statement of................................................. 3, 51
The:
    Conservation System Alliance, Prepared Statement of..........   337
    Fort Peck Indian Reservation, Prepared Statement of..........   211
    Humane Society of the United States..........................
    Nature Conservancy:
        Letter From the..........................................   108
        Prepared Statement of....................................   339
    Pennsylvania Game Commission, Letter From....................   108
    State University of New York College of Environmental Science 
      and Forestry, Letter From..................................   108
    Wilderness Society, Prepared Statement of....................   348
        And Washington Watershed Restoration Initiative, Prepared 
          Statement of...........................................   352
    Wildlife Society, Prepared Statement of......................   346
Town of Ophir, Prepared Statement of the.........................   342
Trust for Public Land, Prepared Statement of the.................   343

U.S. Green Building Council, Letter From the.....................   131
USGS Coalition, Prepared Statement of the........................   354
Union of Concerned Scientists, Letter From the...................   108
United Tribes Technical College, Prepared Statement of the.......   357
University of Georgia, Center for Invasive Species and Ecosystem 
  Health, Letter From the........................................   108

Western States Petroleum Association, Prepared Statement of the..   252


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

                                                                   Page

Additional Committee Questions...................................    56
Biomass..........................................................40, 44
Cabin User Fees..................................................    60
Collaborative Partnerships.......................................    52
Firefighter Retention............................................42, 57
Firefighting Aviation Needs......................................    59
Focal Points for the Forest Service..............................    50
Forest:
    Legacy Program...............................................    61
    Service......................................................    37
Fuels............................................................    56
Hazardous Fuels Treatment........................................    51
Marijuana Enforcement on National Forest Lands...................    58
Modular Airborne Firefighting System (MAFFS).....................    43
National Forests Bordering Lake Tahoe............................    43
Presidential Initiatives.........................................    48
Quincy Library Group.............................................    54
Renewable Energy.................................................    40
Siting Wind Energy Turbines......................................    46
Stimulus Projects Contracting....................................    53

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

Additional Committee Questions...................................    99
Administrative Cost Grants.......................................   100
Abandoned Mine Sites on National Park Lands......................    90
Abandoned Mines..................................................86, 88
Brian O'Neill....................................................    92
Budget Priorities................................................    75
Creating a:
    New Energy Frontier..........................................    70
    21st Century Youth Conservation Corps........................    74
        And Tackling Climate Change..............................    66
Drug Cultivation on Public Lands.................................    78
Elk at Theodore Roosevelt National Park..........................    95
Empowering:
    Indian Country...............................................    74
    Native American Communities..................................    67
Energy Development...............................................    97
Great Smoky Mountains National Park..............................    92
Indian:..........................................................
    Country Law Enforcement......................................    96
    Guaranteed Loan Program......................................    99
Land and Water Conservation Fund.................................    94
Legislative and Administrative Proposals.........................    77
Native American Communities......................................    87
Offshore Wind Development........................................    84
Overview of the 2010 Budget......................................    69
Point Reyes National Seashore....................................    97
Protecting Treasured Landscapes..................................    72
Renewable Energy.............................................79, 80, 93
Tackling Climate Impacts.........................................    71
The First 100 Days...............................................    68
Treasured Landscape..............................................    66
21st Century Youth Conservation Corps............................    67
Water............................................................    67
Wild Horse and Burro Program.....................................    98

                    ENVIRONMENTAL PROTECTION AGENCY

Accelerates Great Lakes Restoration..............................     7
Acid Rain Program................................................    23
Additional Committee Questions...................................    25
Air:
    Quality and Radon Grants.....................................    10
    Toxics.......................................................     9
BioFuels......................................................... 8, 24
Brownfields......................................................     9
Cap and Trade....................................................    25
Combined Sewer Overflows.........................................    34
Categorical Grants...............................................    10
Chemical Risks...................................................     8
Clean:
    Air..........................................................    14
        Act......................................................    18
        Interstate Rule (CAIR)...................................    20
Coal Ash Spill...................................................    22
Computational Toxicology.........................................     8
E15 Clean Air Act Waiver.........................................    32
Endangerment Finding.............................................    33
Great Lakes Restoration Initiative...............................    26
Gulf of Mexico Funding...........................................    33
Green Infrastructure Research....................................     9
Greenhouse:
    Gas..........................................................    25
        Emissions (Cap and Trade Program)........................     8
    Gases........................................................    12
Hazardous Waste Financial Assistance Grants......................    11
Homeland Security................................................    11
Indirect Land Use Changes........................................    31
Initiates a Comprehensive Approach to Slow Global Warming........     8
Inspector General................................................    12
Integrated Risk Information Systems (IRIS).......................     8
Invests in Water Infrastructure..................................     7
Lead Grants......................................................    11
Leaking Underground Storage Tanks (LUST).........................    10
Libby:
    Communications...............................................    16
    Healthcare...................................................    17
    Montana......................................................    16
Mid-level Ethanol Fuel Blends....................................    35
Mountaintop Mining...............................................    29
National Mercury Monitoring Network..............................    34
Nonpoint Source Program Grants...................................    10
Partnerships.....................................................    10
Pesticides, Toxics Substance, and Sector Program Grants..........    11
Public Water System Supervision Grants...........................    11
Rialto-Colton Basin--National Priorties List/Water Replacment 
  Orders.........................................................    28
Research and Development.........................................     8
San Francisco Bay--Delta Water Quality...........................    27
State Revolving Funds............................................    26
Strengthens Environmental Enforcement............................     9
Superfund........................................................     9
Tennessee Valley Authority (TVA).................................    15
Tribal General Assistance Program Grants.........................    11
Water Pollution Control Grants...................................    10

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
